U.S. DEPARTMENT
OF COMMERCE

F i s cal   Y ear




2010
PERFORMANCE &
ACCOUNTABILIT Y
REPORT
                                             D E PA R T M E N T O F C O M M E R C E W E B A D D R E S S E S

                                                       FOR PLANNING AND PERFORMANCE

Department of Commerce                                    Bureau of Economic Analysis                                         National Technical Information Service
http://www.commerce.gov/                                  http://www.bea.gov                                                  http://www.ntis.gov/

Department of Commerce Strategic Plan, Performance        ◆◆   BEA’s Mission, Vision, Values, and Role                        ◆◆   Annual Report
Reports and Performance Plans                                  http://bea.gov/about/mission.htm                                    http://www.ntis.gov/pdf/FinRpt2009.pdf
http://www.osec.doc.gov/bmi/budget/budgetsub_perf_
strategicplans.htm                                        ◆◆   BEA Strategic Plan for FY 2010-FY 2014                         U.S. Patent and Trademark Office
                                                               http://bea.gov/about/pdf/strategic_plan_matrix_2010-2014.pdf   http://www.uspto.gov
Economic Development Administration Annual Reports
http://www.eda.gov/AboutEDA/Annualreport.xml              ◆◆   Release Dates for 2010                                         ◆◆   Performance and Accountability Report
                                                               http://www.bea.gov/newsreleases/2010rd.htm                          http://www.uspto.gov/web/offices/com/annual/
International Trade Administration Strategic Plan
http://trade.gov/pdfs/ITA_stratplan2007.pdf               National Institute of Standards and Technology                      ◆◆   President’s Budget and Strategic Plan
                                                                                                                                   http://www.uspto.gov/web/offices/ac/comp/budg/
Minority Business Development Agency                      ◆◆   NIST Performance Evaluation                                         index.html
Portal/Annual Report                                           http://www.nist.gov/director/planning/impact_assessment.cfm
http://www.mbda.gov                                                                                                           National Telecommunications and Information
                                                          ◆◆   NIST Technology Innovation Program                             Administration
Bureau of Industry and Security Annual Report                  http://www.nist.gov/tip/                                       Annual Reports
http://www.bis.doc.gov/                                                                                                       http://www.ntia.doc.gov/
                                                          ◆◆   NIST Manufacturing Extension Partnership – MEP Impacts 
Census Bureau                                                  http://www.nist.gov/mep/impacts-reports-research.cfm           National Oceanic and Atmospheric Administration
http://www.census.gov                                                                                                         Budget and Performance
                                                                                                                              http://www.noaa.gov/budget/
Economics and Statistics Administration
http://www.esa.doc.gov/                                                                                                       Office of Inspector General
                                                                                                                              http://www.oig.doc.gov/




                                                    B U D G E T A N D P E R F O R M A N C E C O N TA C T S

Departmental Management                                   Economics and Statistics Administration/                            U.S. Patent and Trademark Office
   Bill Tatter, btatter@doc.gov,                          Bureau of Economic Analysis                                             Alexandria Emgushov,
   	 202-482-5979                                         	 Joanne Buenzli, jbuenzli@doc.gov,                                     	 alexandria.emgushov@uspto.gov,
   Steve Shapiro, sshapiro@doc.gov,                           	 202-482-3038                                                      	 571-272-6296
   	 202-482-3700
                                                          International Trade Administration                                  National Institute of Standards and Technology
Office of Inspector General                                   Dondi Staunton, dondi.staunton@trade.gov,                           Francisco Balicao, francisco.balicao@nist.gov,
    John Webb, jwebb@oig.gov,                                 	 202-482-5204                                                      	 301-975-5510
    	 202-482-1719                                                                                                                Jason Boehm, jason.boehm@nist.gov,
                                                          Bureau of Industry and Security                                         	 301-975-9678
Economic Development Administration                           Gay Shrum, gshrum@bis.doc.gov,
   Jim LeDuc, jleduc@eda.doc.gov,                             	 202-482-1058                                                  National Technical Information Service
   	 202-482-4924                                             Brad Burke, bburke@bis.doc.gov,                                     Teresa Grant, tgrant@ntis.gov,
   Bryan Borlik, bborlik@eda.doc.gov                          	 202-482-6006                                                      	 703-605-6472
   	 202-482-3901                                                                                                                 Mary Houff, mhouff@ntis.gov,
                                                          Minority Business Development Agency                                    	 703-605-6611
Census Bureau                                                Ron Marin, rmarin@mbda.gov,
   Camelia Carter, camelia.m.carter@census.gov,              	 202-482-3341                                                   National Telecommunications and Information
   	 301-763-3874                                            Edith McCloud, emccloud@mbda.gov,                                Administration
   Sheryl Williams, sheryl.a.williams@census.gov,            	 202-482-6224                                                   	 Charles Franz, cfranz@ntia.doc.gov,
   	 301-763-3571                                                                                                                 	 202-482-1826
                                                          National Oceanic and Atmospheric Administration
                                                              Mary Choi, mary.choi@noaa.gov,
                                                              	 202-482-2621
                                                              Heidi Keller, heidi.keller@noaa.gov,
                                                              	 202-482-2855




                              For additional copies of the FY 2010 Performance and Accountability Report, please contact
             the Department of Commerce, Office of Budget, 202-482-4648, or refer to the people noted above under Departmental Management.
U.S. DEPARTMENT
OF COMMERCE

F i s cal   Y ear




2010
PERFORMANCE &
ACCOUNTABILIT Y
REPORT
                                   T H E D E PA RT M E N T AT A G L A N C E


History and Enabling Legislation                                 Strategic Goals

The Department of Commerce was originally established by         Goal 1: Maximize U.S. competitiveness and enable economic
Congressional Act on February 14, 1903 as the Department         growth for American industries, workers, and consumers




                                                                                                                             Mik
of Commerce and Labor (32 Stat. 826; 5 U.S.C. 591) and was
subsequently renamed the U.S. Department of Commerce by          Goal 2: Promote U.S. innovation and industrial competitiveness
President William H. Taft on March 4, 1913 (15 U.S.C. 1512).     Goal 3: Promote environmental stewardship
The defined role of the new Department was “to foster,



                                                                                                                              Fi
promote, and develop the foreign and domestic commerce,          Management Integration Goal: Achieve organizational and
the mining, manufacturing, and fishery industries of the         management excellence
United States.”
                                                                 Location
Mission
                                                                 The Department is headquartered in Washington, D.C., at the
The Department of Commerce creates the conditions for            Herbert Clark Hoover Building, which is located on eight acres
economic growth and opportunity by promoting innovation,         of land covering three city blocks. The Department also has
entrepreneurship, competitiveness, and stewardship.              field offices in all states and territories and maintains offices
                                                                 in more than 70 countries worldwide.

                      Program Bureaus                            Employees

  ■	     Economic Development Administration (EDA)               During FY 2010, the Department expanded to over 120,000
  ■	     Economics and Statistics Administration (ESA)           employees to cover the Decennial Census. Apart from the
         ●	 Bureau of Economic Analysis (BEA)                    Decennial Census, the Department has approximately 40,000
         ●	 Census Bureau                                        employees.
  ■	     International Trade Administration (ITA)
  ■	     Bureau of Industry and Security (BIS)                   Financial Resources
  ■	     Minority Business Development Agency (MBDA)
  ■	     U.S. Patent and Trademark Office (USPTO)                The Department’s FY 2009 and FY 2010 budgets were
  ■	     National Institute of Standards and Technology          approximately $25.7 billion and $13.9 billion (budget
         (NIST)                                                  authority), respectively.
  ■	     National Technical Information Service (NTIS)
  ■	     National Telecommunications and Information
                                                                 Internet
         Administration (NTIA)
  ■	     National Oceanic and Atmospheric                        The Department’s Internet address is www.commerce.gov.
         Administration (NOAA)



    II                                        F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
k e -                        < 100          100-200
                                                        NUMBER OF EMPLOYEES

                                                        200-400          400-1,000      1,000-5,000        >5,000




ix                      D E PA R T M E N T O F C O M M E R C E E M P L OY E E S B Y L O C AT I O N




                                                                               Algeria                Guatemala     Portugal
                                                                               American Samoa         Hong Kong     Puerto Rico
                                                                               Argentina              Hungary       Qatar
                                                                               Australia              India         Romania
                                                                               Austria                Indonesia     Russia
                                                                               Belgium                Iraq          Saudi Arabia
                                                                               Brazil                 Ireland       Senegal
                                                                               Bulgaria               Israel        Serbia
                                                                               Canada                 Italy         Singapore
                                                                               Chile                  Japan         South Africa
                                                                               China                  Jordan        South Korea
                                                                               Columbia               Kazakhstan    Slovakia
                                                                               Costa Rica             Kenya         Spain
                                                                               Croatia                Kuwait        Sweden
                                                                               Czech Republic         Libya         Switzerland
                                                                               Dominican Republic     Malaysia      Taiwan
                                                                               Ecuador                Mexico        Thailand
              Maryland             11,985        Colorado        1,420         Egypt                  Morocco       Turkey
              Virginia              9,696        Texas           1,390         El Salvador            Netherlands   Tunisia
                                                                               Finland                Nigeria       United Arab Emirates
              Indiana               4,676        Florida         1,298         France                 Pakistan      United Kingdom
              District of Columbia 3,390         New York        1,096         Germany                Panama        Ukraine
              California            2,045        Other States   13,312         Ghana                  Peru          Venezuela
              Washington            1,739        Other Nations/    414         Greece                 Philippines   Vietnam
                                                 Territories                   Guam                   Poland




   F Y   2 0 1 0   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                           III
     Table of Contents
     Statement from the Secretary	                                                                                          VI
     How to Use this Report	                                                                                                XI

     Management’s Discussion and Analysis 	                                                                                  1

     Mission and Organization	                                                                                              2
     FY 2010 Performance and Financial Highlights	                                                                          3
     The Department of Commerce Process for Strategic Planning and Performance Reporting	                                   7
     Most Important Results 	                                                                                              13
     Management Controls 	                                                                                                 31
        Federal Managers’ Financial Integrity Act (FMFIA) of 1982 	                                                        32
        Federal Financial Management Improvement Act (FFMIA) of 1996 	                                                     38
        Report on Audit Follow-up 	                                                                                        38
        Biennial Review of Fees	                                                                                           38
     American Recovery and Reinvestment Act (ARRA) of 2009 Programs	                                                       39
     High Risk Issue/2010 Decennial Census	                                                                                56
     High Priority Performance Goals	                                                                                      57

     FY 2010 Performance Section	                                                                                           69

     Introduction to the Performance Section	                                                                              70
     Strategic Goal 1 - Maximize U.S. competitiveness and enable economic growth
     for American industries, workers, and consumers 	                                                                     71
        Objective 1.1 –	 Foster domestic economic development as well as export opportunities (EDA, ITA, MBDA) 	           75
        Objective 1.2 –	 Advance responsible economic growth and trade while protecting American security
                         (ITA, BIS)	                                                                                       84
        Objective 1.3 –	 Advance key economic and demographic data that support effective decision-making
                          of policymakers, businesses, and the American public (ESA/Census, ESA/BEA) 	                     90
        Objective 1.4 – Position manufacturers to compete in a global economy (NIST)	                                      96


     Strategic Goal 2 – Promote U.S. innovation and industrial competitiveness	                                           101
        Objective 2.1 – Advance measurement science and standards that drive technological change (NIST, NTIS) 	          105
        Objective 2.2 – Protect intellectual property and improve the patent and trademark system (USPTO) 	               112
        Objective 2.3 – Advance global e-commerce as well as telecommunications and information services (NTIA) 	         117




IV                                       F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
   Strategic Goal 3 – Promote environmental stewardship 	                                                125
      Objective 3.1 – Protect, restore, and manage the use of coastal and ocean resources (NOAA)	        129
      Objective 3.2 – Advance understanding of climate variability and change (NOAA)	                    135
      Objective 3.3 – Provide accurate and timely weather and water information (NOAA)	                  140
      Objective 3.4 – Support safe, efficient, and environmentally sound commercial navigation (NOAA)	   146


   Management Integration Goal – Achieve organizational and management excellence (DM, OIG)	             155

   FY 2010 Financial Section	                                                                            165

   Message from the Chief Financial Officer	                                                             166
   Financial Management and Analysis 	                                                                   167
   Debt Management 	                                                                                     176
   Payment Practices 	                                                                                   177
   Analysis of FY 2010 Financial Condition and Results 	                                                 179
   Limitations of the Financial Statements 	                                                             183
   Principal Financial Statements 	                                                                      185
      Consolidated Balance Sheets 	                                                                      187
      Consolidated Statements of Net Cost 	                                                              188
      Consolidated Statements of Changes in Net Position 	                                               189
      Combined Statements of Budgetary Resources 	                                                       190
   Notes to the Financial Statements 	                                                                   191
   Consolidating Balance Sheet 	                                                                         253
   Required Supplementary Information 	                                                                  257
   Required Supplementary Stewardship Information 	                                                      265
   Independent Auditors’ Report 	                                                                        279

   Appendices	                                                                                           293

   Appendix A: Performance and Resource Tables	                                                          295
   Appendix B: Stakeholders and Crosscutting Programs	                                                   348
   Appendix C: Management Challenges	                                                                    349
   Appendix D: Improper Payments Information Act (IPIA) of 2002, as Amended, Reporting Details 	         368
   Appendix E: Summary of Financial Statement Audit and Management Assurance 	                           372
   Appendix G: Glossary of Key Acronyms 	                                                                373




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                               V
S tatement from the S ecretar y




      Statement from the Secretary

      I 
              am pleased to present the Department of Commerce’s fiscal year (FY) 2010 Performance
             and Accountability Report (PAR). The PAR describes our accomplishments and
             challenges in maximizing U.S. competitiveness, enabling economic growth, fostering
      U.S. leadership in science and technology, and promoting environmental stewardship.
      It also provides information on our financial management and performance.

      Economic Growth

      On January 27, 2010, in his first State of the Union address, President Obama announced
      the creation of a new National Export Initiative (NEI). Since that time, the Department’s
      Advocacy Center has assisted U.S. companies competing for export opportunities,
      supporting $11.4 billion in exports and an estimated 70,000 jobs. The Department’s
      Commercial Service officers stationed around the world have helped more than 2,000
      companies generate $3.8 billion worth of exports. Two recent trade agreements with
      China and Russia involving pork and poultry products are valued at more than $1 billion. We have coordinated 18 trade missions
      to 24 countries that involved more than 160 companies. Lastly, the Department has continued to join forces with other agencies
      and organizations to further the NEI. For example, in July 2010, the Department and the U.S. Postal Service announced the launch
      of a new partnership to identify current U.S. Postal Service customers who are already exporting their goods and help them
      expand to additional international markets.

      The Department, through the International Trade Administration (ITA), has made strong progress toward improving trade,
      particularly in the area of ensuring a level playing field. During FY 2009, 56 percent of market access and compliance cases,
      totaling over $25 billion in value, were successfully resolved, compared with 39 percent in FY 2008. Similarly, 30 percent of
      industry-specific trade barriers addressed by ITA during FY 2009 were removed or prevented. We are focused on achieving further
      progress in trade and other critical economic growth outcomes for U.S. businesses and workers.

      The Economics and Statistics Administration’s (ESA) Bureau of Economic Analysis (BEA) and Census Bureau continued to upgrade
      the quality and availability of critical economic and demographic information for policymakers, business leaders, and the public.
      The Census Bureau successfully completed the field operations for the 2010 Decennial Census, the largest non-military activity
      undertaken by the U.S. government. The Census Bureau is now compiling the data to determine the final population counts of
      each state and the Nation. The Census Bureau will release this data no later than December 31, 2010. Population data from
      the Decennial Census, which is mandated by the Constitution, supports the reapportionment of Congress as well as state and
      local legislative bodies, and is also used to allocate over $400 billion in annual federal program funds. The Census Bureau
      received $1 billion in American Recovery and Reinvestment Act (ARRA) funding to hire new personnel for partnership and outreach
      efforts to minority communities and hard-to-reach populations, increase targeted media purchases, and conduct field operations.
      By focusing on effectively managing risk as the Decennial Census operations proceeded, the Census Bureau completed the 2010
      Census more than $1.7 billion under budget. This was largely due to exceeding the estimated mail-back response rate and higher
      worker productivity.

      One of BEA’s primary goals in 2010 was to maintain and improve the relevance and usefulness of its economic accounts.
      It continued to explore the development of new statistics such as quarterly gross domestic product (GDP) by industry, state
      personal consumption expenditures, and industry-level production accounts. It also began work to develop new estimation
      models for service sector statistics that will allow a quicker and more flexible response to current and future changes in the
      economy. At the same time, BEA continued its progress on satellite accounts, publishing an update of the account for research
      and development, and proceeding with research into prices and spending measures for the health satellite account.


 VI                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                       S tatement from the S ecretar y



The Department, through the Economic Development Administration (EDA), assists U.S. industries, communities, and workers
through investments in public infrastructure and technology, which in turn attract private capital investment and create new
jobs. As of FY 2010, EDA investments made in FY 2007, FY 2004, and FY 2001 generated nearly $6.6 billion in private investment
and created or retained 102,000 jobs. In addition, EDA funded 68 ARRA grants through its existing program structure in FY 2009
which are projected to create or retain 25,635 long-term jobs based on grantee estimates. Consistent with the intent of the
ARRA, EDA’s ARRA investments focused on infrastructure projects that will promote immediate job growth and retention. To
help advance President Obama’s innovation agenda, EDA successfully led two major, multi-department funding competitions
in FY 2010: the Energy Regional Innovation Cluster (e-RIC) initiative, a pilot initiative to spur regional economic growth while
developing innovative energy-efficient building technologies; and the i6 Challenge to accelerate the commercialization of
university and federal research to take ideas from the lab to the marketplace, producing the small businesses that are the engine
of job creation in the United States.

The Minority Business Development Agency (MBDA) promotes the ability of minority businesses to succeed in the local, national, and
global economies by providing direct client services through a nationwide network of minority business centers. MBDA continued
its upward trend of increasing the dollar value of contract and financial awards secured by minority firms, from $2.0 billion in
FY 2008 to $3.0 billion in FY 2009 to $3.3 billion in FY 2010. More than 5,800 new jobs were created in FY 2010 as a result of
MBDA’s work with minority-owned companies.

The Bureau of Industry and Security (BIS) administers and enforces the dual-use export control system, which regulates exports
of sensitive goods and technology that have legitimate civilian uses, but could also have military or terrorism-related uses.
In FY 2010, the Department took the first step in the President’s effort to reform U.S. encryption controls by eliminating the review
of readily available encryption items such as cell phones and household appliances. The United States will now be able to focus its
resources on more sensitive encryption items. BIS was also heavily engaged with other agencies in developing plans to effectively
implement the President’s Export Control Reform Initiative.

Finally, the National Institute of Standards and Technology’s (NIST) Hollings Manufacturing Extension Partnership (MEP) supported
its clients, primarily small manufacturers, in generating an estimated $2.1 billion in increased sales, $1.6 billion in capital
investment, and $1.1 billion in cost savings during FY 2009 (MEP results have a one-year time lag).

Our new CommerceConnect office near Detroit, MI made significant strides in helping local businesses to access multiple federal
programs from one location. CommerceConnect is a single stop shop to access the Department’s 70+ programs, services, and
partner resources. We plan on expanding the CommerceConnect program to the Gulf Coast using a regional approach and to
16 other cities using current Department facilities.

Science and Information

A vigorous, flexible, and efficient intellectual property (IP) protection system is critical to encouraging investments that build our
industries, businesses, and jobs. The Department is committed to ensuring that the United States has a first-class IP protection
system to support innovation throughout the 21st century.

In FY 2010, the U.S. Patent and Trademark Office (USPTO) identified and implemented tools and policies that increased patent
quality and timeliness. We are committed to further efforts to address the many challenges that remain to achieving significant
sustainable reductions in patent pendency—now averaging over 25 months for first action and 35 months for total pendency—to
levels that fully enable and reward entrepreneurship and innovation.

USPTO found efficiencies by redesigning systems and procedures, including the analysis of examiner workflow so that it could
remove redundant processes. USPTO closely studied patent processing systems to determine where improvements would provide
the greatest increase in efficiency or increase in examination capacity. USPTO introduced a multi-track application pathway that
gives applicants control over prioritizing their applications and assists management in balancing workload. USPTO’s improved
processes will create a streamlined examination process to improve patent quality and timeliness.


F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         VII
S tatement from the S ecretar y




        The Patent Organization maintained a strong focus on quality in FY 2010, with a final rejection/allowance compliance rate of
        96.3 percent. The final rejection/allowance compliance rate gives the percentage of utility, plant, reissue, and design allowances
        and final rejections reviewed that were found to be compliant with applicable rules and laws regarding final patentability
        determination.

        Over the last five years, the Trademark Organization has met nearly all its performance targets. The examination quality of
        office actions in the Trademark Organization has met and exceeded goals, ranging above 95 percent accuracy in recent years.
        Approximately 97 percent of all first actions and final decisions (approvals and rejections) met statutory and compliance rates for
        quality of decision-making and writing. The Trademark organization’s total pendency improved from 11.2 months in FY 2009 to
        10.5 months in FY 2010.

        NIST supports the Nation’s innovative capacity and expands markets for new technological applications through its sound,
        science-based measurements and standards. For example, NIST is coordinating the development of interoperability standards for
        the Smart Grid and issued an initial set of cyber security guidelines and other elements of a Smart Grid Interoperability Standards
        Framework after significant stakeholder engagement. In the area of healthcare, NIST and the Department of Health and Human
        Services are working to develop a suite of software tools to support a health information technology (IT) testing infrastructure
        in close collaboration with a broad array of public and private stakeholders. NIST also continued to conduct innovative scientific
        measurement research as part of the President’s Plan for Science and Innovation.

        The NIST Technology Innovation Program (TIP) supports high-risk, high-reward innovative research in areas of critical national
        need at U.S. businesses, universities, national laboratories, and non-profit research institutions. TIP announced in January 2009
        nine projects for award to address critical national needs in civil infrastructure, representing up to $88.2 million in new research,
        $42.5 million of it funded by TIP. In December 2009, TIP announced another 20 projects for award—12 that address manufacturing
        and eight in civil infrastructure—representing up to $146 million in new research with up to $71 million in TIP funding. Awarded
        projects demonstrate TIP’s commitment to multi-disciplinary approaches and to encouraging teaming arrangements. Seventy-
        three participants are involved in 29 projects. Seventeen of the 29 projects are joint ventures. TIP offers a unique opportunity for
        funding collaborative cutting-edge research.

        NIST has successfully obligated $580 million in ARRA funds directed at projects intended to stimulate technological innovation
        and strengthen U.S. scientific and technological capabilities. Highlights of NIST ARRA efforts include $180 million in cost-
        shared grants that are supporting the construction of 16 new research facilities at 15 universities and one non-profit research
        organization; $34.5 million to support 27 cutting-edge research efforts at companies, universities, and non-profit research
        organizations across 18 states; and $180 million in upgrades to NIST facilities that will enable new research capabilities
        (e.g., Structural Fire Resistance Laboratory) and improve the energy efficiency of NIST operations through extensive installation
        of solar panels across campus.

        The National Telecommunications and Information Administration’s (NTIA) responsibilities have increased considerably with the
        enactment of the ARRA. NTIA and the U.S. Department of Agriculture’s Rural Utilities Service are administering a $7 billion
        initiative to expand broadband access and adoption. Specifically, NTIA awarded over $4.2 billion in grants to expand the
        availability and adoption of broadband services. These projects will extend broadband access to unserved and underserved areas
        of the country and to vulnerable populations, including minorities, low income residents, the aged, the unemployed, and people
        with disabilities. Specifically, these projects will deploy broadband infrastructure, enhance capacity at public computing centers,
        and support projects to encourage non-users to subscribe to broadband services. The objectives of the Broadband Technology
        Opportunities Program (BTOP) include:

        ●●   Broadband access in unserved and underserved areas;
        ●●   Broadband education, awareness, training, access, equipment, and support;
        ●●   Broadband access and use by public safety agencies; and,
        ●●   Stimulation of broadband demand, economic growth, and job creation.



 VIII                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                         S tatement from the S ecretar y




Environmental Stewardship

The National Oceanic and Atmospheric Administration (NOAA) continued to improve the fish stock sustainability index (FSSI), its
comprehensive measure for sustainability of 230 U.S. fish stocks selected for their importance to commercial and recreational fisheries.
During FY 2010, NOAA rebuilt the following five fish stocks, important to commercial and recreational fisheries, to optimal population
levels: North Atlantic swordfish, Georges Bank haddock, George’s Bank/Gulf of Maine Pollock, Atlantic coast spiny dogfish, and
St. Matthews Island blue king crab. These stocks had been under rebuilding plans due to low population levels caused by overfishing
and other factors. To help rebuild fisheries and sustain fishermen, communities, vibrant working waterfronts, and culturally important
fishing traditions, NOAA also released a national catch share policy to encourage the consideration and use of catch shares. Catch
share programs, which include limited access privilege programs and individual fishing quotas, dedicate a secure share of fish to
individual fishermen, cooperatives or fishing communities. Catch shares are used in 14 fisheries managed by six fishery management
councils from Alaska to Florida and are being developed in additional fisheries. Both here and in other countries, catch shares are
helping eliminate overfishing and achieve annual catch limits, improve fishermen’s safety and profits, and reduce the negative
biological and economic effects of the race for fish that develops with some traditional fishery management.

The Deepwater Horizon oil spill was one of the worst man-made environmental disasters our country has ever experienced. NOAA
was integrally involved in the response and will continue to play a pivotal role in the months and years ahead, assessing and resolving
restoration issues. NOAA scientific advice and management was critical to ensuring the safety of seafood and saving, assessing, and
rehabilitating Gulf wildlife, including endangered sea turtles, and protecting critical habitat through response strategies and the
publication of the Environmental Sensitivity Index. Aerial oil mapping teams fed detailed observations to NOAA modeling experts for
daily publication of oil trajectories—forecasts of oil amount and movement—critical to responders and local communities. The modeling
team generated the Loop Current Diagram that helped indicate the probability of longer term flow toward the Florida peninsula and/
or East Coast, the Long Term Forecast that showed oil distribution probabilities, and 3D subsea models to help determine the fate of
oil dispersed in the water column. These products have been vital decision-making tools for the federal on-scene coordinator, small
businesses, state governments, local authorities, fisheries managers, responders, and homeowners. National Incident Command relied
on and gave special praise to NOAA’s Environmental Response Management Application (ERMA) that showed response assets and
information as layers on a map, becoming the primary image for the Deepwater Horizon response.

Individuals, business leaders, and decisionmakers across widely diverse sectors—from agriculture to energy to transportation—are
increasingly asking NOAA for information about climate variability and change in order to make the best choices for their families,
communities, and businesses. The Department and NOAA unveiled a new Web site, www.climate.gov, which serves as a single point of
entry for NOAA’s climate information, data, products, and services. The site is in response to growing user demand for useful climate
information and will continue to develop based on user demand, comments, and feedback. One feature is the new Web-based climate
science magazine, ClimateWatch, featuring videos, images, and articles of scientists in their own words, discussing their recent work
in the field. Known as the NOAA Climate Services Portal, the site addresses the needs of four key audiences: educators, decisionmakers
and policy leaders, scientists and applications-oriented data users, and business users and the public. NOAA also expanded its
Regionally Integrated Science and Assessment (RISA) teams which play a critical role in both climate science and service development
by providing integrated assessment in 11 different regions of the United States. RISAs are regional “centers of excellence” that work
with users to co-develop climate science and services. In future years, the sustained regional capacity of RISAs can help NOAA address
the Nation’s priorities for climate service and adaptation.

On March 4, 2010, NOAA successfully launched Geostationary Operational Environmental Satellite Series P (GOES-P) from Cape
Canaveral, FL. GOES-P, renamed GOES-15 once it reached final orbit, underwent a series of tests for approximately six months before
completing its “check-out” phase. After check-out, GOES-15 was placed into orbital storage mode and remains ready for activation
if one of the operational GOES fail. GOES-15 took its first infrared image of Earth on April 26, 2010. GOES-15 is the final spacecraft
in the latest series of NOAA geostationary satellites. It joined three other NOAA operational GOES spacecraft that help the Agency’s
forecasters track life-threatening weather—from tornadoes, floods, and hurricanes to solar activity that can impact the satellite-
based electronics and communications industry. GOES-15 will capture higher resolution images of weather patterns and atmospheric
measurements than those provided by earlier satellites. The higher resolution imagery allows forecasters to pinpoint the location of



F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                           IX
S tatement from the S ecretar y




     severe weather with greater accuracy. GOES-15 will also provide better data for space and solar weather thanks to its Solar X-Ray
     Imager (SXI). SXI data will improve forecasts and warnings for solar disturbances, protecting billions of dollars of commercial and
     government assets in space and on the ground. This vital information will also reduce the effect of power surges for the satellite-
     based electronics and communications industry.

     Program Data, Department-wide Management, and Financial Performance

     The Department’s financial data and performance results for FY 2010 are provided together in this report in response to the Reports
     Consolidation Act of 2000. This information is crucial in helping us to effectively administer our programs, determine their success,
     and make adjustments that may be necessary to improve the quality of program operation and service delivery.

     For the 12th year in a row, the independent auditors tasked with reviewing our financial statements have provided an unqualified
     opinion. Our financial management systems have been found to be in substantial compliance with the Federal Financial Management
     Improvement Act (FFMIA) of 1996, and, in accordance with Office of Management and Budget (OMB) Circulars A-136 and A-11, the
     financial and performance data published in this report are substantially complete and reliable.

     The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) and OMB Circular A-123 provide the framework within which
     Departmental and operating unit managers may determine whether adequate internal controls are in place and operating as they
     should. We rely on a wide range of studies conducted by programmatic and administrative managers, the Office of Inspector General
     (OIG), the Government Accountability Office (GAO), and others to assist in this effort. Based on activities undertaken during FY 2010,
     the Department’s system of internal controls, taken as a whole, is consistent with FMFIA. IT security certification and accreditation
     had been reported as a material weakness from FY 2001 through FY 2009. Based on progress that has been made in this area as
     well as a shift in emphasis toward IT security assessments, the Department considers the material weakness to be resolved. Although
     significant progress has resulted in the closure of the material weakness, we believe that IT security concerns are not fully resolved
     and that additional enhancements continue to be needed in the future.

     To better manage its programs, in FY 2010 the Department incorporated a balanced scorecard approach to management, by not only
     emphasizing budget and finance, but also customer, internal business process, and learning and growth perspectives into management
     activities. This approach focuses on themes that reflect the priorities of our Department. The Department also took a more integrated,
     crosscutting approach with regard to its programs. In the current Departmental Balanced Scorecard, bureaus tend to cross themes,
     goals, and objectives, giving a greater emphasis to our three programmatic themes of Economic Growth, Science and Information, and
     Environmental Stewardship, and our three management themes of Customer Service, Organizational Excellence, and Workforce along
     with a greater integration of programs. The Department plans on having its FY 2011 – FY 2016 strategic plan follow the structure
     of the Departmental balanced scorecard. Individual bureau scorecards follow the structure of the Departmental scorecard while
     providing greater detail about their programs.

     In Conclusion

     Again, I am proud to submit this report on the FY 2010 performance of the Department, and hope it provides a useful summary
     of the results of the Department and its 47,000 employees.




                                                                                      Gary Locke
                                                                                      Secretary of Commerce
                                                                                      November 15, 2010




 X                                              F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                         How to use this report
                                                         T
                                                                his Performance and Accountability Report (PAR) for FY 2010 provides the
                                                                Department of Commerce’s financial and performance information, enabling
                                                                the President, Congress, and the American people to assess the Department’s
                                                         performance as provided by the requirements of the:

                                                         ●●       Reports Consolidation Act of 2000 and other laws
                                                         ●●       Government Management Reform Act of 1994
                                                         ●●       Government Performance and Results Act (GPRA) of 1993
                                                         ●●       Chief Financial Officers (CFO) Act of 1990
                                                         ●●       Federal Managers’ Financial Integrity Act (FMFIA) of 1982.

                                                 The assessment of the Department’s performance contained in this report compares
                                                 performance results to the Department’s strategic goals and performance goals.
                                                 The Department’s Strategic Plan, Performance Plan, and annual PARs are available on
the Department’s Web site at http://www.osec.doc.gov/bmi/budget/budgetsub_perf_strategicplans.htm. The Department welcomes
feedback on the form and content of this report.

This report is organized into the following major components:

Statement from the Secretary of Commerce
The Secretary’s statement includes an assessment of the reliability and completeness of the financial and performance information
presented in the report and a statement of assurance on the Department’s management controls as required by the FMFIA.

Management’s Discussion and Analysis (MD&A)
This section provides an overview of the financial and performance information contained in the Performance Section, Financial Section,
and Appendices. The MD&A includes an overview of the Department’s organization, highlights of the Department’s most important
performance goals and results, current status of systems and internal control weaknesses, and Department programs under the American
Recovery and Reinvestment Act (ARRA) of 2009.

Performance Section
This section provides the annual performance information as required by Office of Management and Budget (OMB) Circular A-11 and
GPRA. Included in this section is a detailed discussion and analysis of the Department’s performance in FY 2010. For each service and
major office, the results are presented by each performance outcome or objective within the four Department strategic goals.

Financial Section
This section contains the details of the Department’s finances in FY 2010 including information on the Department’s financial
management, debt management, payments management, audited financial statements, other supplemental financial information, and
the independent auditors’ report.
	
Appendices
This section provides summary charts of performance information, a listing of key stakeholders, a discussion of key management
challenges identified by the Office of Inspector General (OIG) including actions taken to address them, financial information, and a
glossary of acronyms. A discussion of measure and outcome changes from the FY 2009 PAR, and of the data sources of performance
measures, appears at the end of the Web site version of the PAR located at http://www.osec.doc.gov/bmi/budget/FY10PAR.html.

For additional copies of this report, please call the Department of Commerce, Office of Budget, at 202-482-4648 or email either Bill Tatter at BTatter@doc.gov
or Steve Shapiro at SShapiro@doc.gov. A listing of Web addresses and email addresses of other Departmental and bureau staff appears on the inside
front cover.
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




  XII                                        F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
M anagement ’s
D iscussion
and
A nalysis
             MISSION AND ORGANIZATION



                            Mis s ion

      The Department of Commerce creates the conditions for
    economic growth and opportunity by promoting innovation,
        entrepreneurship, competitiveness, and stewardship.




2                    F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                 M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S



                       F Y  2 0 1 0 P erformance and F inancial H ighlights

                                                    P erformance H I G H L I G H T S




 O  
              verall performance results for the Department show
              that of the 119 performance targets, 77 percent were
              at or above target, nine percent slightly below target,
and 14 percent not on target. These results are slightly better
than FY 2001 when the Department achieved 73 percent of its
targets. To the right is a summary of Departmental performance
dating back to FY 2001. Below are the funding and full-time
equivalent (FTE) levels by strategic goal and financial highlights.
It should be noted that FY 2010 was an unusual year in which
the Department conducted the 2010 Decennial Census, resulting
in a large increase in FTE and funding for FY 2010. Beginning on
page 16 is a summary of the performance results by strategic goal.
This summary provides a snapshot of the targeted achievements.
Discussions and highlights of successes can be found in the
performance discussions of each performance goal.




                                                                                Percentage
 (Dollars in Millions)1                                                          Change               FY 2010       FY 2009

  For the Years Ended September 30, 2010 and 2009
  Obligations by Strategic Goal:
  Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic
  Growth for American Industries, Workers, and Consumers2                          +57.8%         $	 7,581.3    $	 4,804.4
  Strategic Goal 2: Promote U.S. Innovation and Industrial   Competitiveness2      +87.5%         $	 7,334.2    $	 3,912.1
  Strategic Goal 3: Promote Environmental Stewardship                              +12.1%         $	 5,781.7    $	 5,158.0
  Management Integration Goal: Achieve Organizational and Management
  Excellence                                                                       +16.2%         $	     94.0   $	     80.9
  TOTAL OBLIGATIONS                                                                +49.0%         $	20,791.2    $	13,954.4
  Full Time Equivalents (FTEs) by Strategic Goal:
  Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic
  Growth for American Industries, Workers, and Consumers2                         +230.2%         	 96,720      	 29,294
  Strategic Goal 2: Promote U.S. Innovation and Industrial Competitiveness2          -0.8%        	 12,664      	 12,768
  Strategic Goal 3: Promote environmental stewardship                                -2.7%        	 11,709      	 12,031
  Management Integration Goal: Achieve Organizational and Management
  Excellence                                                                       +16.0%         	      341    	      294
  TOTAL FTEs                                                                      +123.3%         	 121,434     	 54,387

 1Performance funding may differ from funding shown in financial statements because the performance funds do not include one-time funds for unexpected

 events (e.g., Hurricane Katrina) or reimbursable work that cannot be planned. In these cases, the funding is not factored into bureau performance amounts.
 Also funding reflects obligations as opposed to costs. An example of the difference is the NTIA Broadband Technology Opportunities Program where over
 $4 billion was obligated in FY 2010, however the costs incurred was significantly less.
 2For Strategic Goal 1, the funding and FTE rose significantly in FY 2010 as a result of the 2010 Decennial Census. For Strategic Goal 2, the funding and FTE rose

 significantly as a result of the NTIA Broadband Technology Opportunities Program.




F Y   2 0 1 0    P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y          R E P O R T
                                                                                                                                                               3
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                                    F inancial H ighlights

                                                                        Percentage
 (Dollars in Thousands)                                                  Change          FY 2010        FY 2009

 As of September 30, 2010 and 2009
 Condensed Balance Sheets:

 ASSETS:

 Fund Balance with Treasury                                                 0%         $	 25,785,547   $	 25,671,762
 General Property, Plant, and Equipment, Net                               +9%            7,394,711         6,758,827
 Direct Loans and Loan Guarantees, Net                                     +6%              540,147          511,092
 Other                                                                     -30%             712,365         1,015,104

 TOTAL ASSETS                                                              +1%         $	 34,432,770   $	 33,956,785

 LIABILITIES:
 Unearned Revenue                                                          +2%         $	 1,332,395    $	 1,311,270
 Spectrum Auction Proceeds Liability to Federal Communications
    Commission                                                            -92%               33,838          400,451
 Federal Employee Benefits                                                +12%              769,035          687,434
 Accounts Payable                                                          -9%              462,693          505,944
 Accrued Grants                                                           +72%              766,204          446,207
 Debt to Treasury                                                          +6%              517,930          487,275
 Accrued Payroll and Annual Leave                                          +4%              561,154          540,082
 Other                                                                     -2%              236,916          242,102

 TOTAL LIABILITIES                                                         +1%         $	 4,680,165    $	 4,620,765

 NET POSITION:

 Unexpended Appropriations                                                  -2%        $	 12,882,192   $	 13,136,522
 Cumulative Results of Operations                                          +4%           16,870,413        16,199,498

 TOTAL NET POSITION                                                        +1%         $	 29,752,605   $	 29,336,020

 TOTAL LIABILITIES AND NET POSITION                                        +1%         $	 34,432,770   $	 33,956,785



 For the Years Ended September 30, 2010 and 2009

 Condensed Statements of Net Cost:

 Strategic Goal 1: Maximize U.S. Competitiveness and Enable
 Economic Growth for American Industries, Workers, and Consumers          +108%          $7,878,604        $3,794,414
 Strategic Goal 2: Promote U.S. Innovation and Industrial
 Competitiveness                                                           -33%           1,262,005         1,880,001
 Strategic Goal 3: Promote Environmental Stewardship                       +9%            4,523,471         4,152,324

 TOTAL NET COST OF OPERATIONS                                             +39%         $13,664,080         $9,826,739

 Total Gross Costs                                                        +32%         $16,527,409   $12,540,517
 Less: Total Earned Revenue                                                +6%          (2,863,329) 	 (2,713,778)

 Total Net Cost Of Operations                                                          $13,664,080         $9,826,739




   4                                                    F Y   2 0 1 0    P E R F O R M A N C E     A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                      re v iew of financial position and R E S U L T S



                                                                                            Assets

                                                                                            The Department had total assets of
                                                                                            $34.4 billion as of September 30,
                                                                                            2010. This represents an increase of
                                                                                            $476 million or 1 percent over total assets
                                                                                            of $34.0 billion at September 30, 2009.
                                                                                            General Property, Plant, and Equipment,
                                                                                            Net increased $636 million or 9 percent,
                                                                                            mainly due to an increase in satel-
                                                                                            lites/weather systems of $558 million.
                                                                                            Other Assets decreased by $303 million
                                                                                            or 30 percent, primarily due to a decrease
                                                                                            of $264 million in Advances and Prepay-
                                                                                            ments to another federal agency for the
                                                                                            National Telecommunications and Infor-
                                                                                            mation Administration’s (NTIA) Public
                                                                                            Safety Interoperable Communications
                                                                                            grant program.


                                                                                            Liabilities

                                                                                        The Department had total liabilities of
                                                                                        $4.7 billion as of September 30, 2010.
                                                                                        This represents an increase of $59 million
                                                                                        or 1 percent as compared to total liabili-
                                                                                        ties of $4.6 billion at September 30, 2009.
                                                                                        Accrued grants increased by $320 million
                                                                                        or 72 percent, primarily resulting from
                                                                                        the Economic Development Administra-
tion’s (EDA) accrued grants increase of $209 million which resulted from additional funding under the American Recovery and
Reinvestment Act (ARRA) of 2009 and a FY 2010 supplemental appropriation for a major storms and flooding disaster that
occurred in 2010. NTIA accrued grants also increased by $90 million, primarily for the Broadband Technology Opportunities
Program. Federal Employee Benefits increased by $82 million or 12 percent, primarily from the effects of changes in economic and
other assumptions on the actuarial valuation for the National Oceanic and Atmospheric Administration (NOAA) Corps Retirement
System, and also from the effect of increased Decennial Census employees on the valuation of the Department’s Actuarial FECA
Liability. There was a large decrease of $367 million or 92 percent in NTIA’s Spectrum Auction Proceeds Liability to the Federal
Communications Commission (FCC). This liability represents FCC auction proceeds for which licenses have not yet been granted
by FCC. During FY 2010, the liability was primarily reduced by net auction proceeds for which licenses have been granted, and by
FCC administrative fees.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          5
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




      Net Cost of Operations

      In FY 2010, Net Cost of Operations amounted to $13.7 billion, which consists of Gross Costs of $16.5 billion less Earned Revenue
      of $2.8 billion. Strategic Goal 1 includes Gross Costs of $8.1 billion related to maximizing U.S. competitiveness and enabling
      economic growth for U.S. industries, workers, and consumers. Strategic Goal 2 includes Gross Costs of $3.6 billion related to
      promoting U.S. innovation and industrial competitiveness. Strategic Goal 3 includes Gross Costs of $4.8 billion related to promoting
      environmental stewardship. The Strategic Goal 1 increase in FY 2010 Net Cost of Operations over FY 2009 of $4.1 billion or 108
      percent is primarily due to an increase in Gross Costs of $3.6 billion for the Census Bureau’s Decennial and Periodic Censuses
      major program. The Strategic Goal 2 decrease in FY 2010 Net Cost of Operations over FY 2009 of $618 million or 33 percent
      is primarily due to a large decrease in Gross Costs for NTIA’s Digital-to-Analog Converter Box Program, as the program was
      substantially completed by mid-November 2009. The Strategic Goal 3 increase in FY 2010 Net Cost of Operations over FY 2009
      of $371 million or 9 percent is primarily due to an increase in gross costs of $205 million for NOAA’s Operations, Research, and
      Facilities budget account, mainly due to increased depreciation expense for personal property and increased imputed costs from
      other federal agencies. The Strategic Goal 3 increase in Net Cost of Operations also results from increased NOAA gross costs of
      $134 million from funding under ARRA, for its Operations, Research, and Facilities functions, and its Procurement, Acquisition,
      and Construction functions.




  6                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                      T he D epartment of C ommerce P rocess for

                S trategic P lanning and P erformance R eporting



Management Strategic Framework, Performance Planning and Reporting at a Glance




 T  
           he Department’s Strategic Plan maps out the Department’s Strategic Goals,
           Objectives, and Outcomes that constitute achievement of its Mission and
           Vision. It also provides performance measures used to gauge success
toward the Outcomes. The plan explains the Department’s strategies for success
and identifies key challenges. The Department’s Annual Performance Plans
(APP) provide annual targets for these performance measures, the resources
required to achieve them, and a summary of how these resources will be
used to achieve results. FY 2010 and FY 2011 APPs can be found at http://
www.osec.doc.gov/bmi/budget/. This Performance and Accountability
Report (PAR) measures actual progress against the projected progress
in the FY 2010 APP. The Department’s current Strategic Plan covers
FY 2007-FY 2012 and can be found at http://www.osec.doc.gov/
bmi/budget/Strategic07-12.htm. The Department is currently
updating its Strategic Plan, which it expects to issue prior to
the FY 2012 Congressional Budget.

This PAR provides a public accounting of the Department’s
FY 2010 performance results and completes the
Department’s performance management process for the fiscal year. The Web address of the FY 2010 PAR is http://www.osec.
doc.gov/bmi/budget/FY10PAR.html. Appendix A of the FY 2010 PAR provides historical results of the Department’s performance,
matching targets against actuals.

During FY 2010, the Department began implementation of a balanced scorecard approach to support management and planning
activities. The scorecard incorporates the Department’s programmatic goals as well as management goals that are critical to the
long-term sustainability of its programs. The scorecard supplements the most significant outcome-oriented measures from the
Strategic Plan and APP (i.e., the Department’s Government Performance and Results Act (GPRA) measures) with leading indicators
that closely linked (requisites) to these outcomes. In this manner, the Departmental and bureau scorecards serve as a meaningful
tool supporting the Department’s senior managers in executing their oversight and management responsibilities.

Summary Description of Bureaus

The following are summary descriptions of each bureau in budget appropriation order with applicable strategic goals and objectives
listed at the end of each description.

The Departmental Management (DM) develops and implements policy affecting U.S. and international activities as well as
internal goals and operations of the Department. DM serves as the primary liaison with the executive branch and Congressional
and private sector groups, and acts as the management and administrative control point for the Department. Executive Direction




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     7
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




      develops and implements Departmental policies and coordinates bureau program activities to accomplish the Department’s
      mission while Departmental Staff Services develops and implements the Department’s internal policies, procedures, and other
      administrative guidelines. Management Integration Goal

      The Office of Inspector General (OIG) ensures that the Department’s employees and others managing federal resources
      comply with applicable laws and regulations, and actively work to prevent fraud, waste, and abuse in program operations. The OIG
      monitors and tracks the use of taxpayer dollars in federally-funded programs with its purpose being to keep Departmental officials
      and Congress fully and currently informed about issues, problems, and deficiencies relating to the administration of programs and
      operations and the need for corrective action. Management Integration Goal

      The Economic Development Administration (EDA) directly supports the Department‘s goal to maximize U.S.
      competitiveness and enable economic growth for U.S industries, workers, and consumers with the objective to foster domestic
      economic development as well as export opportunities. To achieve this objective, EDA promotes a favorable business environment
      through strategic investments in public infrastructure. These investments help attract private capital investment and jobs that
      address problems of high unemployment, low per capita income, and sudden, severe economic challenges. Strategic Goal 1,
      Objective 1.1



      The Census Bureau is the leading source of quality data about the Nation’s people and economy. The Census Bureau measures
      those trends and segments of the U.S. population and economy most critical to continued U.S. success and prosperity. The Census
      Bureau provides benchmark measures of the U.S. population, economy, and governments, and provides current measures of the
      U.S. population, economy, and governments. The Census Bureau’s cyclical programs include the Economic Census and the Census
      of Governments, conducted every five years, and the Decennial Census program, conducted every 10 years. Strategic Goal 1,
      Objective 1.3



      The Bureau of Economic Analysis (BEA) produces some of the Nation’s most important economic statistics, including
      GDP and the balance of payments. BEA promotes a better understanding of the U.S. economy by providing timely, relevant, and
      accurate economic accounts data in an objective and cost-effective manner. Although a relatively small agency, BEA’s economic
      statistics are among the Nation’s most closely watched. BEA’s statistics influence critical decisions made by policymakers, business
      leaders, households, and individuals affecting interest and exchange rates, tax and budget projections, business investment plans,
      and the allocation of over $200 billion in federal funds. Strategic Goal 1, Objective 1.3

      The International Trade Administration (ITA) works to create prosperity by promoting trade and investment, ensuring
      fair trade and compliance with trade laws and agreements, and strengthening the competitiveness of U.S. industry. Within ITA,
      the Manufacturing and Services (MAS) unit analyzes the domestic and international aspects of U.S. competitiveness by working
      with U.S. industries to evaluate the needs of the MAS sectors, conducting economic and regulatory studies aimed at strengthening
      U.S. industry, obtaining input and advice from U.S. industries for trade policy setting, and participating, as appropriate, with
      ITA trade policy and negotiation advancement initiatives. The Market Access and Compliance (MAC) unit concentrates on
      the development of strategies to overcome market access obstacles faced by U.S. businesses. MAC monitors foreign country
      compliance with numerous trade-related agreements and identifies compliance problems and other market access obstacles.
      The Import Administration (IA) helps ensure fair trade by administering the U.S. antidumping and countervailing duty (AD/CVD)
      laws in a manner consistent with U.S. international obligations. IA works extensively with U.S. businesses on a regular basis to
      educate them about U.S. trade laws related to dumping and foreign government subsidies and how to act if they are injured by
      those practices. The U.S. and Foreign Commercial Service (US&FCS) broadens and deepens the base of U.S. exports by providing
      U.S. companies with reliable advice on the range of public and private assistance available, and knowledgeably supports all other
      federal trade promotion services. Strategic Goal 1, Objectives 1.1 and 1.2




  8                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




The Bureau of Industry and Security (BIS) advances U.S. national security, foreign policy, and economic objectives by
ensuring an effective export control and treaty compliance system and by promoting continued U.S. strategic technology leadership.
BIS (1) regulates the export of sensitive “dual use” goods and technologies in an effective and efficient manner; (2) enforces export
control, antiboycott, and public safety laws; (3) cooperates with and assists other countries on export control and strategic trade
issues; (4) assists U.S. industry in complying with international arms agreements; (5) monitors the viability of the U.S. defense
industrial base; (6) evaluates the effects on national security of foreign investments in U.S. companies; and (7) supports continued
U.S. technology leadership in industries that are essential to national security. Strategic Goal 1, Objective 1.2

The Minority Business Development Agency (MBDA) actively promotes the ability of minority business enterprises
(MBE) to grow and to participate in the global economy through a range of activities that include funding a network of centers
that provide MBEs a variety of business assistance services. MBDA (1) fosters the expansion of opportunities for minority-
owned businesses in the global marketplace; (2) identifies sources of financial capital for minority-owned firms; (3) develops
and upgrades electronic tools to provide access to growth markets through automated matching of MBEs to public and private
sector opportunities; (4) provides management and technical assistance to minority-owned businesses; and (5) advocates for the
increased use of electronic commerce and new technologies by MBEs. Strategic Goal 1, Objective 1.1

The National Oceanic and Atmospheric Administration (NOAA) promotes environmental stewardship. NOAA
encompasses all of Strategic Goal 3. Strategic Goal 3

NOAA is divided into two primary appropriation accounts, Operations, Research, and Facilities; and Procurement, Acquisition, and
Construction for both of which the following six programs apply:

●●   The National Ocean Service (NOS) provides scientific, technical, and management expertise to promote safe navigation;
     protects and restores coastal and marine resources damaged by natural or human-induced threats; and manages and preserves
     coastal and ocean environments.

●●   The National Marine Fisheries Service (NMFS) manages and conserves the living marine resources within the 200-
     mile U.S. Exclusive Economic Zone. NMFS is dedicated to the stewardship of living marine resources through science-based
     conservation and management.

●●   The Office of Oceanic and Atmospheric Research (OAR) provides the research and technology development necessary
     to improve NOAA climate, weather, coastal, and ocean services. OAR supplies the scientific information to advise national policy
     decisions in such areas as climate change, air quality, coastal resource management, and stratospheric ozone depletion.

●●   The National Weather Service (NWS) provides weather, hydrologic, and climate forecasts and warnings for the United
     States, its territories, adjacent waters, and ocean areas, for the protection of life and property and the enhancement of the
     national economy.

●●   The National Environmental Satellite, Data and Information Service (NESDIS) operates the polar-orbiting and
     geostationary operational environmental satellites, develops the converged polar-orbiting satellite series with the Department
     of Defense (DOD) and the National Aeronautics and Space Administration (NASA), and manages NOAA’s environmental data
     collections for use in studying long-term environmental change.

●●   Program Support provides overall NOAA management, planning, and administrative support for NOAA. Program Support
     promotes environmental literacy and develops and sustains a world-class workforce. Program Support provides for repair,
     restoration, and other construction efforts, along with NOAA-wide environmental compliance and safety issues. With Program
     Support, the Office of Marine and Aviation Operations operates and maintains NOAA’s ships and aircraft and uses them to
     collect data to support NOAA’s mission.




F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        9
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       The U.S. Patent and Trademark Office (USPTO) fosters innovation and competitiveness by providing high quality and
       timely examination of patent and trademark applications, guiding domestic and international intellectual property (IP) policy,
       and delivering IP information and education worldwide. Two distinct business lines, Patents and Trademarks, administer the
       patent and trademark laws which provide protection to inventors and businesses for their inventions and corporate and product
       identifications, and encourage innovation and scientific and technical advancement of U.S. industry through the preservation,
       classification, and dissemination of patent and trademark information. Strategic Goal 2, Objective 2.2

       The National Institute of Standards and Technology (NIST) promotes U.S. innovation and industrial competitiveness
       by advancing measurement science, standards, and technology in ways that improve economic security and quality of life.
       NIST develops and disseminates measurement techniques, reference data, test methods, standards, and other technologies
       and services needed by U.S. industry to compete in the 21st century. The NIST laboratories provide the measurement science
       and physical standards that are essential components of the technology infrastructure underpinning U.S. innovation. NIST’s
       Technology Innovation Program (TIP) supports innovative, high-risk, high-reward research in areas of critical national need where
       the government has a clear interest due to the magnitude of the problems and their importance to society. Through federal-
       state-local and private sector partnerships, NIST’s Hollings Manufacturing Extension Partnership (MEP) provides technical and
       business assistance to manufacturers through a nationwide network of centers in all 50 states and Puerto Rico. The Baldrige
       National Quality Program promotes proven quality and performance management practices to strengthen U.S. companies,
       educational organizations, and health care providers. Recognized worldwide, the program furthers organizational excellence
       through education, outreach, and annual awards. All of NIST’s programs apply to Strategic Goal 2, Objective 2.1, except
       the MEP program which applies to Strategic Goal 1, Objective 1.4



       The National Technical Information Service (NTIS) collects and preserves scientific, technical, engineering, and other
       business-related information from federal and international sources, and disseminates it to the U.S. business and industrial
       research community. Strategic Goal 2, Objective 2.1

       The National Telecommunications and Information Administration (NTIA) develops domestic and international
       telecommunications and information policy for the executive branch; ensures the efficient and effective management and use of
       the federal radio spectrum; and performs state-of-the-art telecommunications research, engineering, and planning. Strategic
       Goal 2, Objective 2.3



       On the following pages is a listing of the key measures of each of the bureaus in the Department. This list is not all-inclusive.
       Further information concerning these and other performance measures can be found in Appendix A. The status of a given measure
       is either exceeded (more than 125 percent of the target), met (100 to 125 percent of target), slightly below (95 to 99 percent of
       the target), or not met (below 95 percent of target).




  10                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S



                                                          Key Performance Measures
      Strategic
        Goal                                 Performance Measure                                            Target                  Actual              STATUS3
 Strategic Goal 1:     Private investment leveraged1 (EDA)                                                   $2,410M                $2,758M                   Met
 Maximize U.S.         Jobs created/retained1 (EDA)                                                           72,000                 66,527              Not Met
 competitiveness       Commercial diplomacy success (cases) (annual) (ITA)                                     166                     112               Not Met
 and enable
 economic growth       Annual cost savings resulting from the adoption of Manufacturing                      $350M                   $647M
 for American          and Services (MAS) recommendations contained in MAS studies and                                                                   Exceeded
 industries,           analysis (ITA)
 workers, and          Percent of industry-specific trade barriers addressed that were removed                 30%                     35%
                                                                                                                                                              Met
 consumers             or prevented (ITA)
                       Dollar value of contract awards obtained (MBDA)                                        $1.00B                 $1.50B              Exceeded

                       Dollar value of financial awards obtained (MBDA)                                       $0.60B                 $1.80B              Exceeded

                       Percentage of market access and compliance cases resolved                               50%                     58%
                                                                                                                                                              Met
                       successfully (ITA)
                       Value of market access and compliance cases resolved successfully (ITA)                $2.5B                  $21.4B              Exceeded

                       Number of actions that result in a deterrence or prevention of a violation              850                     806
                                                                                                                                                      Slightly Below
                       and cases which result in a criminal and/or administrative charge (BIS)
                       Complete key activities for cyclical census programs on time to support          At least 90% of         At least 90% of
                       effective decision-making by policymakers, businesses, and the public           key prep activities     key prep activities            Met
                       and meet constitutional and legislative mandates (ESA/CENSUS)                   completed on time       completed on time
                       Achieve pre-determined collection rates for Census Bureau censuses                At least 90% of               Met
                       and surveys in order to provide statistically reliable data to support           key censuses and           percentages
                       effective decision-making of policymakers, businesses, and the public          surveys meet/exceed                                     Met
                       (ESA/CENSUS)                                                                     collection rates/
                                                                                                       levels of reliability
                       Timeliness: Reliability of delivery of economic data (number of                          55                      61
                                                                                                                                                              Met
                       scheduled releases issued on time) (ESA/BEA)
                       Accuracy: Percent of GDP estimates correct (ESA/BEA)                                   > 85%                    88%                    Met

                       Increased sales attributed to MEP centers receiving federal                        $2,000M from           $2,085M from
                                                                                                                                                              Met
                       funding (NIST)                                                                    FY 2009 funding        FY 2009 funding2
                       Cost savings attributed to MEP centers receiving federal funding (NIST)            $1,000M from           $1,149M from
                                                                                                                                                              Met
                                                                                                         FY 2009 funding        FY 2009 funding2
 Strategic Goal 2:     Qualitative assessment and review of technical quality and merit using           Complete annual            Completed
                                                                                                                                                              Met
 Promote U.S.          peer review (NIST)                                                                 peer review
 innovation            Cumulative number of TIP projects funded (NIST)                                          25                      29                    Met
 and industrial        Final rejection/allowance compliance rate (USPTO)                                      94.5%                   96.3%                   Met
 competitiveness
                       Patent average total pendency (months) (USPTO)                                          34.8                    35.3           Slightly Below

                       Trademark final compliance rate (USPTO)                                                97.0%                   96.8%           Slightly Below

                       Trademark average total pendency excluding suspended and inter partes                   13.0                    10.5
                                                                                                                                                              Met
                       proceedings (months) (USPTO)
                       Support new telecom and information technology by advocating                       5 dockets and           17 dockets and
                       Administration views in number of FCC docket filings, and                           proceedings             proceedings           Exceeded
                       Congressional and other proceedings (NTIA)
 1	 EDA shows private investment leveraged and jobs created/retained at three, six, and nine year levels. The amounts shown here are for the nine year (long-term
    totals). Three and six year totals are available in Appendix A.
 2	 Estimate.
 3	 To be considered “Exceeded,” an actual must have been at least 25 percent above the target. Met equaled 100-124 percent of target. Slightly Below equaled

    95-99 percent of target.
                                                                                                                                                       (continued)


F Y   2 0 1 0   P E R F O R M A N C E        A N D    A C C O U N T A B I L I T Y       R E P O R T
                                                                                                                                                         11
        M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                                 Key Performance Measures (continued)
     Strategic
       Goal                                  Performance measure                                            Target                  Actual            STATUS3
Strategic Goal 3:       Fish stock sustainability index (FSSI) (NOAA)                                          580                    582.5               Met
Promote                 Percentage of living marine resources with adequate population                       34.3%                    34.7%
                                                                                                                                                          Met
environmental           assessments and forecasts (NOAA)
stewardship             Number of habitat acres restored (annual/cumulative) (NOAA)                       8,875/67,849             6,907/65,881         Not Met

                        Annual number of coastal, marine, and Great Lakes habitat acres                       2,000                   2,0002
                                                                                                                                                          Met
                        acquired or designated for long-term protection (NOAA)
                        Error in global measurement of sea surface temperature (NOAA)                        0.53ºC                   0.50ºC              Met

                        Severe weather warnings for tornadoes (storm-based) – Lead time                        12                      142
                                                                                                                                                          Met
                        (minutes) (NOAA)
                        Severe weather warnings for tornadoes (storm-based) – Accuracy (%)                    70%                     74%2
                                                                                                                                                          Met
                        (NOAA)

                        Hurricane forecast track error (48 hours) (nautical miles) (NOAA)                      107                      70             Exceeded

                        Hurricane forecast intensity error (48 hours) (difference in knots)                    13                       18
                                                                                                                                                        Not Met
                        (NOAA)
                        Reduce the hydrographic survey backlog within navigationally                          5,160                   4,395
                                                                                                                                                        Not Met
                        significant areas (square nautical miles surveyed per year) (NOAA)
                        Percentage of U.S. counties rated as fully enabled or substantially                  74.0%                    79.0%
                                                                                                                                                          Met
                        enabled with accurate positioning capacity (NOAA)
Management              Provide accurate and timely financial information and conform to              •	 Eliminate any        ●●   Significant
Integration Goal:       federal standards, laws, and regulations governing accounting and                significant               deficiency not
Achieve                 financial management (DM)                                                        deficiency                eliminated
organizational                                                                                           within 1 year of     ●●   Completed
and management                                                                                           determination
                                                                                                                                   FY 2010 A-123        Not Met
excellence                                                                                            •	 Complete
                                                                                                                                   assessment
                                                                                                         FY 2010 A-123
                                                                                                                                   of internal
                                                                                                         assessment of
                                                                                                                                   controls
                                                                                                         internal controls

                        Improve the management of information technology (DM)                         •	 IT investments       ●●   For the year,
                                                                                                         have cost/                IT investments
                                                                                                         schedule overruns         have cost/
                                                                                                         and performance           schedule
                                                                                                         shortfalls                overruns and           Met
                                                                                                         averaging less            performance
                                                                                                         than 10%                  shortfalls
                                                                                                                                   averaging less
                                                                                                                                   than 10%
                        Dollar value of financial benefits identified by the OIG (OIG)                      $38.0M                   $47.8M            Exceeded
2	   Estimate.
3	   To be considered “Exceeded,” an actual must have been at least 25 percent above the target. Met equaled 100-124 percent of target. Slightly Below equaled
     95-99 percent of target.




           12                                                   F Y   2 0 1 0    P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                       M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                          M ost I mportant R esults




Maximize U.S. competitiveness and enable economic growth for American industries, workers, and consumers

Performance Summary




 I  
       n FY 2010, the Department met or exceeded
       78 percent of the targets it had set for the year. As a
       general rule, the Department has increased slightly
in terms of performance from FY 2001 through FY 2010,
having met/exceeded 77 percent of the targets in 2001.

Accomplishments and Benefits

Some of the significant accomplishments, impacts and
benefits that the Department had on the U.S. public
include the following:

Through programs within the Economic Development
Administration (EDA), the Department has helped
generate, by FY 2010, approximately $2.8 billion in private
investment and 66,527 jobs as a result of approximately
$411 million in investments made in FY 2001, a 7-to-1
benefit-to-cost ratio. EDA data indicate that investments
made in FY 2007, FY 2004, and FY 2001 (three, six, and nine
years prior to FY 2010) have helped generate $6.6 billion
in private investment and have helped create or retain 102,000 jobs. EDA anticipates that FY 2010 investments of approximately
$212 million will help generate $261 million, and then continue to increase to $652 million by FY 2016, and $1,303 million by
FY 2019. EDA expects that those same investments will help create or retain 6,523 jobs by FY 2013, 16,308 jobs by FY 2016, and
32,616 jobs by FY 2019.

To help advance President Obama’s innovation agenda, EDA successfully led two major, multi-department funding competitions
in FY 2010: EDA helped to lead the Energy Regional Innovation Cluster (e-RIC) initiative, a pilot initiative to spur regional
economic growth while developing innovative, energy-efficient building technologies; and the i6 Challenge to accelerate the
commercialization of university and federal research to take ideas from the lab to the marketplace, producing the small businesses
that are the engine of job creation in the United States.

Further, EDA led efforts to assist regional economies that have been greatly impacted by transformations in major U.S. industries
as well as devastating man-made and natural disasters. EDA spearheaded the effort to implement President Obama’s $100
million, multi-agency initiative to assist communities affected by changes in the space industry; collaborated with the White
House Council on Auto Communities and Workers to promote innovative strategies that attract national and global investment




F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     13
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       to auto-impacted communities; and played a pivotal role in federal efforts to advance recovery efforts in the Gulf Coast region
       following the BP oil spill.

       Additionally, EDA participated in the White House Cities in Transition Initiative and led the creation of a Cities in Transition
       Challenge grant competition to support the development of economic recovery strategies for chronically distressed communities
       across the Nation.

       Likewise, in FY 2010, operations funded by the Minority Business Development Agency (MBDA) supported clients who obtained
       $3.3 billion in contract and financial awards.

       In February 2010, Secretary of Commerce Gary Locke unveiled the details of the Department’s efforts to support President
       Obama’s National Export Initiative (NEI) designed to reach President Obama’s goal of doubling exports over the next five years and
       to support two million jobs in the United States. The NEI represents the first time the United States will have a government-wide
       export-promotion strategy with focused attention from the President and his Cabinet.

       The NEI is focused on three key areas: (1) a more robust effort by this administration to expand its trade advocacy in all its forms,
       especially for small and medium-sized enterprises (SME); (2) improving access to credit with a focus on small and medium-sized
       businesses that want to export; and (3) continuing the rigorous enforcement of international trade laws to help remove barriers
       that prevent U.S. companies from getting free and fair access to foreign markets. In addition to improving efforts in those areas,
       the NEI creates an Export Promotion Cabinet reporting to the President that will consist of top leaders from agencies that can
       contribute to this effort.

       Since President Obama announced the NEI, the Department’s Advocacy Center has assisted U.S. companies competing for export
       opportunities, supporting $11.4 billion in exports and an estimated 70,000 jobs. The Department’s Commercial Service officers
       stationed around the world have helped more than 2,000
       companies generate $3.8 billion worth of exports. To date,
       the Department has coordinated 18 trade missions with over
       160 companies to 24 countries.

       The International Trade Administration (ITA) continued
       to lower trade barriers through free trade agreements
       (FTA) during FY 2010. Although countries that the United
       States has FTAs with only represent 9.4 percent of world
       gross domestic product (GDP), they represent 41 percent
       of U.S. trade. These FTAs are helping strengthen the U.S.
       manufacturing sector. ITA has also maintained a concerted
       effort to open up large developing markets like China and
       India.

       Often companies encounter difficult hurdles when trying
       to do business in other countries. ITA has measured itself
       by “export successes” tied to specific export transactions
       of client companies. Overseas posts also devote time and
       resources to “commercial diplomacy,” i.e., working behind
       the scenes to resolve problems, reduce trade barriers, and




  14                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




cut red tape. Commercial diplomacy benefits not only current ITA clients, but also all U.S. exporters by opening doors and creating
paths to success for other exporters to follow.

While the Department seeks to encourage trade, this desire is balanced by the need to control exports, specifically those dual-use
exports which have both civilian and military applications.

The Department announced a revision to its rules regarding the export of most mass market electronic products that contain
encryption functions and other encryption products.

This revised rule enhances U.S. national security and cuts red tape by eliminating the review of readily available encryption items,
like cell phones and household appliances, and allows the government to focus its resources on more sensitive encryption items.
This new rule ends the U.S. government’s 30-day technical review requirement to export most mass market and other types of
encryption products. “Mass market” electronic products containing encryption include cell phones, laptops, and disk drives.
Exporters and manufacturers of the encryption products may now self-classify the products and then export them without a
license if they register online with the Bureau of Industry and Security (BIS). BIS also requires that they submit an annual self-
classification report. This rule is expected to decrease technical reviews by approximately 70 percent and semi-annual reporting
by up to 85 percent.

The rule also extends the scope of License Exception ENC
authorizations to most encryption technology exports,
following a technical review. In addition, it adds a decontrol
note for items that perform “ancillary” cryptography, which
covers items such as games, robotics, business process
automation, and other products that contain encryption
capabilities but do not have communication, computing,
networking, or information security as a primary function.

This rule is the first step in the President’s effort to
fundamentally reform U.S. encryption export controls and
the administration will continue to review the encryption
rules to further enhance national security and ensure the
continued competitiveness of U.S. encryption products.

Through the Census Bureau and the Bureau of Economic
Analysis (BEA), the Department provides vital statistical
information on the economy and the demographics of
the Nation. Statistics affect all aspects of public and
private sectors, including the distribution of funds to
various geographic districts. The Economics and Statistics
Administration (ESA) provides timely and accurate economic
insight to the Secretary and his chief policy advisors through a biweekly economic briefing and during FY 2010 released three
major reports this year: “Middle Class in America,” “Measuring the Green Economy,” and “CO2 Emissions and Intensities Over




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       15
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       Time.” The findings in these reports have been used across the Administration, including by the White House Office of Public
       Engagement and the Vice President’s Middle Class Task Force.

       In FY 2010, the Census Bureau conducted the 2010 Decennial Census, the largest non-military activity undertaken by the U.S.
       government. The decennial census affects the reapportionment of Congressional seats among the states and the corresponding
       redistricting within the states. It forms the basis for many political, economic, and social decisions that are made throughout
       the United States, including the distribution of more than $400 billion of federal funding among states, cities, and other local
       communities.

       The Census Bureau completed data collection for the 2007 Economic Census and started delivery of some 1,600 data releases
       through the Web-based American FactFinder dissemination system. The 2007 Economic Census Advance Report was released in
       November 2009, and the Geographic Area Series was released in August 2010. The flow of 2007 Economic Census data products
       will continue through FY 2011.

       BEA promotes a better understanding of the U.S. economy by providing timely, relevant, and accurate economic accounts data in
       an objective and cost-effective manner. BEA’s national, industry, regional, and international economic accounts present valuable
       information on key issues such as U.S. economic growth, regional economic development, inter-industry relationships, and the
       Nation’s position in the world economy.

       In 2010, BEA continued to produce its critical statistics, including GDP, personal income and outlays, corporate profits, GDP by
       state and by metropolitan area, balance of payments, and GDP by industry. These statistics are used by federal, state, and local
       governments for budget development and tax projections; by the Federal Reserve for monetary policy; by the business sector for
       planning and investment; and by the U.S. public to follow and understand the performance of the Nation’s economy. BEA helps
       the world to understand these and other economic measures produced by the federal statistical system through its publication,
       The Survey of Current Business, as well as through its Web site, www.bea.gov. As businesses, governments, and households are
       provided with better, easier-to-understand economic data, their ability to make key investment decisions that move the U.S.
       economy forward are significantly improved.

       One of BEA’s primary goals in 2010 was to maintain and improve the relevance and usefulness of its economic accounts. It continued
       to explore the development of new statistics such as quarterly GDP by industry, state personal consumption expenditures, and
       industry-level production accounts. It also began work to develop new estimation models for service sector statistics that will
       allow a quicker and more flexible response to current and future changes in the economy. At the same time, BEA continued its
       progress on satellite accounts, publishing an update of the account for research and development and proceeding with research
       into prices and spending measures for the health satellite account.

       The National Institute of Standards and Technology’s (NIST) Hollings Manufacturing Extension Partnership (MEP) provides tools and
       services to keep manufacturers competing and thriving in today’s global marketplace. In FY 2010, MEP’s nationwide network of field
       staff continued to serve as trusted business advisors focused on solving manufacturers’ challenges and identifying opportunities
       for growth. MEP provides the services that reduce manufacturers’ bottom-line expenses and increase efficiency while offering
       tools to improve manufacturers’ top-line growth with the development of new sales, new markets, and new products.




  16                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                        M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




Summary of Performance Results

                                                                                                                  targets met
    Strategic objective                                   Performance outcome
                                                                                                                  or exceeded
 Strategic Objective 1.1:            Promote private investment and job creation in economically distressed
                                                                                                                     5 of 6
 Foster domestic economic            communities (EDA)
 development as well as export       Improve community capacity to achieve and sustain economic growth
 opportunities                                                                                                       3 of 6
                                     (EDA)
                                     Increase access to the marketplace and financing for minority-owned
                                                                                                                     5 of 5
                                     businesses (MBDA)
                                     Strengthen U.S. competitiveness in domestic and international markets
                                                                                                                     4 of 4
                                     (ITA)
                                     Broaden and deepen U.S. exporter base (ITA)                                     2 of 6
 Strategic Objective 1.2:            Identify and resolve unfair trade practices (ITA)                               5 of 5
 Advance responsible economic        Maintain and strengthen an adaptable and effective U.S. export control
 growth and trade while                                                                                              5 of 7
                                     and treaty compliance system (BIS)
 protecting American security
                                     Integrate non-U.S. actors to create a more effective global export control
                                                                                                                     0 of 1
                                     and treaty compliance system (BIS)
                                     Ensure continued U.S. technology leadership in industries that are
                                                                                                                     1 of 1
                                     essential to national security (BIS)
 Strategic Objective 1.3:            Provide benchmark measures of the U.S. population, economy, and
                                                                                                                     2 of 3
 Advance key economic and            governments (ESA/CENSUS)
 demographic data that support       Provide current measures of the U.S. population, economy, and
 effective decision-making of                                                                                        2 of 2
                                     governments (ESA/CENSUS)
 policymakers, businesses, and the
 American public                     Provide timely, relevant, and accurate economic statistics (ESA/BEA)            4 of 4
 Strategic Objective 1.4:            Increase the productivity, profitability, and competitiveness of
 Position manufacturers to compete   manufacturers (NIST)                                                            4 of 4
 in a global economy


For Strategic Goal 1, in terms of performance, not only did the Department provide significant benefits to the U.S. public, it also
met nearly all of its targets in FY 2010. EDA met or exceeded five of six targets for increasing private investment and creation
of jobs for programs that were funded either in 2001, 2004, or 2007 (EDA tracks progress on a three, six, and nine-year basis).
These programs focused on economically distressed communities. EDA met half of the targets it set for the second outcome.
For its outcome, “Increase access to the marketplace and financing for minority-owned businesses,” MBDA met all of its targets.
Furthermore, historically, the targets appear to be stable or aggressive.

ITA had three performance outcomes that applied to Strategic Goal 1: “Strengthen U.S. competitiveness in domestic and
international markets,” “Broaden and deepen the U.S. exporter base,” and “Identify and resolve unfair trade practices.” ITA missed
four of 15 targets for its three outcomes.




F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                      17
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       For the “Broaden and deepen the U.S. exporter base” outcome, ITA missed the targets for the following four measures:

       ●●   US&FCS SME new-to-export (NTE)/total change in SME exporters (CS SME NTE effectiveness)

       ●●   Number of SME new-to-market (NTM) firms/number of SME firms exporting to two to nine foreign markets
            (NTM effectiveness)

       ●●   Commercial diplomacy successes (cases) (annual)

       ●●   Percentage of advocacy bids won

       ITA missed the target for the first measure because of a shift in focus from assisting NTE SMEs to NTM firms in support of the
       President’s NEI goals of doubling U.S. exports and supporting two million jobs. While ITA missed the target for the second
       measure, the results did increase by 50 percent in quarter four over quarter three. ITA helped nearly 2,800 SMEs achieve 4,560
       export successes to a new market in FY 2010, which is over 500 more export successes than in FY 2009. While ITA did not
       achieve the target for the third measure noted, the U.S. export dollar value of commercial diplomacy successes increased by
       79 percent from $974 million in FY 2009 to $4.56 billion in FY 2010. For the last measure noted, U.S. and Foreign Commercial
       Service (US&FCS) did not achieve this target; however, US&FCS did achieve 92 percent more advocacy wins in FY 2010 (50) than
       in FY 2009 (26) and worked on 418 advocacy cases in FY 2010 or 2 percent more than FY 2009.

       One of BIS’s key tasks is to either prevent illegal exports or to charge export violators. To that end, a key performance measure for
       BIS is the “number of actions that results in a deterrence or prevention of a violation and cases which result in a criminal and/or
       administrative charge.” While in FY 2010, BIS was slightly below the target for this measure, BIS has consistently met its targets
       while raising the targets from year to year. BIS has also consistently maintained an effective export control system, a key to which
       is the processing of export licenses and the timely issuance of regulations regarding export activity. BIS has consistently met its
       targets in these areas.

       Both the Census Bureau and BEA consistently provide relevant and accurate statistical data to the U.S. public in a timely manner.
       As a measure of customer satisfaction, the Census Bureau strives to meet or exceed the aggregate federal score on the American
       Customer Satisfaction Index (ACSI). Since 1999, the Bureau has been below the aggregate score only three times (2000 and 2001,
       and 2010). Components of the ACSI score include navigation of site, content, transparency, and future participation. The Census
       Bureau did not achieve the target in FY 2010 as a result of a low score of 60 percent in the area of navigation, thus having a
       negative impact on the overall ASCI score, which is driven by a high rate of first time users. Future participation, which includes
       trust in information provided by the Census Bureau, recommended use of the Internet site to others, and reoccurring use of the
       site, realized an average score of 83 percent. The average ASCI score for the years FY 2004 – FY 2009 was 72.7. BEA released
       all of its 2010 statistics on schedule, and has developed the GDP statistics with over 85 percent accuracy for each of the past 10
       years. For a more detailed description of this accuracy measure see www.osec.doc.gov/bmi/budget/08CJB/esa.pdf. Each year BEA
       conducts a customer satisfaction survey with a goal of achieving greater than a 4.0 (on a five-point scale). BEA has consistently
       exceeded that goal, most recently achieving a 4.4 score.

       As a catalyst for strengthening U.S. manufacturing, MEP provides services to manufacturers focused on everything from process
       improvements to strategies for growth to green manufacturing. MEP also works with state and federal partners to accelerate
       manufacturing’s ongoing transformation into a more efficient and powerful engine of innovation that drives economic growth and
       job creation. Through a framework focused on five critical areas—technology acceleration, supplier development, sustainability,
       workforce, as well as continuous improvement—MEP is positioning manufacturers to develop new customers, expand into new
       markets and create new products with the end goal of increasing profitability and competitiveness. MEP offers manufacturers a
       wealth of unique and effective resources. As a result, MEP clients achieve higher profits, save time and money, invest in physical
       and human capital, and create and retain thousands of jobs.



  18                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                         M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




Promote U.S. innovation and industrial competitiveness

Performance Summary




 I  
       n FY 2010, the Department met or exceeded 82 percent
       of the targets it had set for the year. For this strategic
       goal, the Department has significantly improved
its performance since FY 2001, having met or exceeded
55 percent of its targets in 2001.

Accomplishments and Benefits

Some of the significant accomplishments, impacts, and
benefits that the Department had on the U.S. public
include the following:

NIST’s programs are recognized as critical to promoting
U.S. innovation and competitiveness. With a focus
on measurement science, standards, and technology,
NIST’s laboratories and programs provide the tools
and infrastructure critical to enable the innovation,
development, and deployment of advanced technologies.
NIST’s services and products are critical to every
manufacturing and service industry, and government
institution.. Examples of NIST’s most important results in support of U.S. innovation and competitiveness during FY 2010 cover
Standard Reference Materials (SRM), Smart Grid standards, building codes and standards, health care information technology (IT),
selected American Recovery and Reinvestment Act (ARRA) of 2009 grants, and the award of new high-risk innovative projects.

In January 2010, NIST issued an initial set of cyber security guidelines and other elements of a framework to support transforming
the Nation’s aging electric power system into an interoperable Smart Grid. This key component of the Obama administration’s
energy plan and its strategy for U.S. innovation will integrate digital computing and communication technologies and services
with the power-delivery infrastructure. The Smart Grid will enable two-way flows of energy and communication and control
capabilities, allowing advances such as real-time consumer control over energy usage and significantly increased reliance on solar
and other sources of clean renewable energy. These new capabilities will greatly improve the reliability, flexibility, and efficiency
of the entire grid. The NIST-led Smart Grid Interoperability Panel has more than 600 member organizations.

NIST SRMs are among the most widely distributed and used products from NIST. The Agency prepares, analyzes, and distributes
more than 1,300 different materials that are used throughout the world to check the accuracy of instruments and test procedures
used in manufacturing, clinical chemistry, environmental monitoring, electronics, criminal forensics, and dozens of other fields.




F Y   2 0 1 0   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        19
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       NIST and the Department of Health and Human Services are working to develop a suite of software tools to support a health IT
       testing infrastructure. The tools are intended to help vendors test their health IT products and ensure basic functionality, such
       as the calculation of body mass index or proper formatting of common electronic health records. Fully incorporating modern
       IT into the health care system promises many benefits, including better quality care, less paperwork, and fewer medical errors
       while reducing unnecessary costs. To ensure that the new technology functions as expected, NIST has been working with a
       broad array of public and private stakeholders, and has released the first of four installments of a new health IT test method and
       related software.

       In January 2010, NIST awarded more than $123 million in ARRA grants to 11 universities and one non-profit research organization
       to provide cost-shared support for the construction of new scientific research facilities. The 12 projects will launch more than
       $250 million in new laboratory construction projects beginning in early 2010.

       NIST also awarded approximately $34 million in one-time ARRA grants for 27 research projects in measurement science and
       engineering to fund projects lasting up to three years at higher-education, commercial, and non-profit organizations in 18 states.
       The NIST Measurement Science and Engineering Research
       Grants Program, funded under ARRA supports research to
       advance measurement science in six areas of critical national
       importance, including energy, manufacturing, physical
       infrastructure, environment and climate change, bioscience
       and health care, and IT and cyber security. By leveraging
       the Nation’s brightest minds in measurement science
       in important national needs, these grants will increase
       U.S. ability to innovate, compete, and solve scientific and
       technological problems.

       NIST’s Technology Innovation Program (TIP) funded a total
       of 29 new high-risk, innovative projects since the program’s
       inception in the critical national need areas of inspecting and
       repairing the Nation’s civil infrastructure and accelerating
       advanced materials in manufacturing processes. The unique
       multi-disciplinary approaches and teaming efforts of the
       73 recipient organizations involved in these projects will
       help to achieve a transformational impact in both areas of
       national need.

       People worldwide benefit from innovations, both directly on a personal level, and indirectly through economic growth fueled
       by innovation. Continual development of a vigorous, flexible, and efficient intellectual property (IP) system protects individual
       rights, encourages investment in innovation, and fosters entrepreneurial spirit. The Department promotes the IP system through
       the protection of inventions or creations via patent, trademark, trade secret, and copyright laws. Under this system of protection,
       industry in the United States has flourished, creating employment opportunities for millions of Americans.

       Through the U.S. Patent and Trademark Office (USPTO), the Department provides IP protection in the form of patents and trademarks
       thus plays a key role in fostering the innovation that drives job creation, investment in new technology and economic recovery,
       and in promoting and supporting the Administration’s priorities. By issuing patents, the Department provides incentives to invent




  20                                               F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




and invest in new technology by allowing innovators the opportunity to benefit from their discoveries. Registration of trademarks
assists businesses in protecting their investments and safeguards consumers against confusion and deception in the marketplace
by providing notice of marks in use. Through dissemination of patent and trademark information, the Department promotes a
global understanding of IP protection and facilitates the development and sharing of new technologies worldwide.

In FY 2010, USPTO successfully launched new and innovative projects to meet its strategic goals. USPTO identified and implemented
tools and policies that increased patent quality and timeliness. USPTO found efficiencies by redesigning systems and procedures
so that it could remove redundant processes. USPTO’s improved processes created a streamlined examination process that
improves patent quality and timeliness. USPTO made improvements to the existing patent processes through the analysis of
examiner workflow while incorporating applicant needs. USPTO closely studied patent processing systems to determine where
the improvements would provide the greatest increase in efficiency or increase in examination capacity. A proposal for three-
track application pathway gives applicants control over prioritizing their applications, and assists patents management in
balancing their workload. This approach is efficient for both the applicant and the patents management since it can now identify
areas where increased examination capacity may be required.

Over the last five years, the Trademark organization has met nearly all its performance targets. The examination quality of office
actions in the Trademark organization has met and exceeded goals, ranging above 95 percent accuracy in recent years. Approximately
97 percent of all first actions and final decisions (approvals
and rejections) met statutory and compliance rates for
quality of decision-making and writing. To sustain these
high quality levels, the Trademark organization continues to
emphasize and improve training, to promote electronic filing
and processing, and to make greater use of online tools and
enhanced processes. Trademark pendency has improved as
electronic processing and filing have become the primary
means of conducting business within the Trademark
organization. Increased use of electronic forms, particularly
Trademark Electronic Application System (TEAS) Plus filings,
which represent more than 33 percent of new application
filings and more than 31 percent of first action approvals, has
improved the efficiency and timeliness of examination. For
the fourth consecutive year, USPTO consistently maintained
trademark first action pendency within the optimum range of
2.5 to 3.5 months. Average total pendency shows sustained
improvement as well, with disposal or registration occurring
within 11 months of filing.

The Trademark organization continuously monitors and improves quality. This year, a new comprehensive excellence quality
measure was implemented, which expands upon the existing first and final action standards for correct decision-making. The new
measure seeks to identify the percentage of Trademark organization actions that are excellent in all respects. The new standard
measures the quality of the search, evidence, writing, and decision-making, as well as the percentage of issues that are settled or
clarified through a phone call to the applicant or its attorney. The Trademark organization has used feedback from user groups to
ensure that the standards of excellence it applies reflects users’ perception of excellence as well.

Telecommunications plays a key role in U.S. society as the economy expands into the digital age. The Department, through
the National Telecommunications and Information Administration (NTIA), is at the forefront of this expansion. In addition to



F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      21
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       developing policy for the Administration on key issues, NTIA has important operational roles to manage the use of radio spectrum
       by the federal government, to perform cutting-edge communications research and engineering for many federal agencies, to
       privatize the Internet Domain Name System (DNS) and manage key Internet functions, and to administer grant programs to
       support the expanded deployment of communications and IT. Collectively, NTIA’s work promotes the development of an advanced
       communication and information infrastructure that efficiently meets the needs of consumers, creates jobs, and enhances the
       Nation’s competitiveness in the global marketplace. As such, NTIA makes an important contribution to the Department’s overall
       mission to foster, serve, and promote the Nation’s economic development and technological advancement.

       NTIA utilized approximately $4 billion of ARRA funding for the Broadband Technology Opportunities Program (BTOP), which
       provided grants to support the deployment of broadband infrastructure, enhance and expand public computer centers, and
       encourage sustainable adoption of broadband service. The 233 BTOP projects will:

       ●●   Fund the installation or upgrade of approximately 120,000 miles of broadband networks, including fiber optics, wireless,
            microwave, and other technologies. Of this amount, approximately 70,000 miles involve construction of new broadband
            facilities.

       ●●   Provide broadband access to approximately 24,000 community anchor institutions, including schools, libraries, government
            offices, health care facilities, and public safety entities.

       ●●   Deploy middle mile infrastructure in areas with nearly 40 million households and four million businesses, many of which
            will benefit from new or improved broadband service provided by last-mile providers that are able to utilize the new, open
            infrastructure to extend or upgrade their service for consumer and business customers.

       ●●   Invest in more than 3,500 new or upgraded public computer centers in libraries, schools, community centers, and other public
            locations.

       ●●   Invest in more than 35,000 new or upgraded public computer workstations.

       ●●   Make public computer center workstations and training available to more than one million new users.

       These anticipated benefits will be realized over the life of each project, which must be substantially complete within two years
       and fully complete within three years.

       One of NTIA’s principal operational responsibilities is to manage the radio communications spectrum used by the federal
       government. Wireless technologies and services support the missions of 69 federal departments and agencies, which use over
       40 radio services for national and homeland security, critical infrastructure protection, transportation, and law enforcement,
       among others. NTIA has been working with the Federal Communications Commission (FCC) to improve the efficient use of
       spectrum. In addition, NTIA supported the Administration’s efforts to foster new wireless broadband technologies by making
       new spectrum available. NTIA is collaborating with the FCC to develop a plan to make available 500 MHz of spectrum suitable
       for both mobile and fixed wireless broadband use over the next 10 years. The plan focuses on making spectrum available for
       exclusive use by commercial broadband providers or technologies, or for dynamic, shared access by commercial and government
       users. For example, the joint Spectrum Sharing Innovation Test Bed is examining various technical issues involved in the sharing
       of spectrum between federal and non-federal users. This initiative is providing an important opportunity for federal agencies to
       work cooperatively with industry, researchers, and academia to objectively evaluate new technologies to manage the Nation’s
       airwaves. NTIA recognizes the potential widespread benefits of more widely expanded wireless broadband, and it is committed to
       doing its part to help turn that potential into reality.

       Enhancing telecommunications services is a key to advancing technology in the Nation. The radio frequency spectrum is used in
       a variety of ways, including transportation control and law enforcement. NTIA satisfies the frequency assignment needs of the 63



  22                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




federal agencies allowing them to operate radio communications that provide the public with national and homeland security,
law enforcement, transportation control, natural resource management, and other public safety services during peacetime and
emergencies. A key to this is making the assignments available as soon as possible after an agency requests a frequency. In
FY 2005, NTIA sought to reduce this time to 12 business days or less. By 2010, NTIA reduced this time to nine business days or
fewer. NTIA’s long-term goal is to improve spectrum management processes throughout the federal government so that time for
spectrum assignments can be reduced from more than 15 days to three days or fewer, supporting long-term goals for efficiency
and effectiveness of spectrum use. NTIA has also promoted new sources of advanced telecommunications services.

Summary of Performance Results

                                                                                                                  targets met
    Strategic objective                                  Performance outcome
                                                                                                                  or exceeded
 Strategic Objective 2.1:           Promote innovation, facilitate trade, and ensure public safety and security
 Advance measurement science        by strengthening the Nation’s measurements and standards infrastructure            5 of 6
 and standards that drive           (NIST)
 technological change               Promote U.S. competitiveness by directing federal investment and R&D
                                    into areas of critical national need that support, promote, and accelerate
                                                                                                                       1 of 1
                                    high-risk, high-reward research and innovation in the United States
                                    (NIST)
                                    Increase public access to worldwide scientific and technical information
                                                                                                                       3 of 3
                                    through improved acquisition and dissemination activities (NTIS)
 Strategic Objective 2.2:           Optimize patent quality and timeliness (USPTO)                                     2 of 5
 Protect intellectual property      Optimize trademark quality and timeliness (USPTO)                                  4 of 5
 and improve the patent and
 trademark system                   Provide domestic and global leadership to improve intellectual property
                                                                                                                       1 of 1
                                    policy, protection and enforcement worldwide (USPTO)
 Strategic Objective 2.3:           Ensure that the allocation of radio spectrum provides the greatest benefit
                                                                                                                       5 of 5
 Advance global e-commerce as       to all people (NTIA)
 well as telecommunications and     Promote the availability, and support new sources, of advanced
 information services                                                                                                  2 of 2
                                    telecommunications and information services (NTIA)


For Strategic Goal 2, the Department met 82 percent of its targets (23 of 28). However, the actuals of the measures that
were missed were all slightly below the target (within five percent). NIST narrowly missed one target, that being for “Peer-
reviewed technical publications produced” (target = 1,300, actual = 1,243). NIST has consistently met this target in the past.
As in previous years, NIST did well in the National Research Council assessment, performing up to the past standards it has
set. SRMs, publications, datasets, and calibrations are a few of the knowledge transfer mechanisms that provide the technical
infrastructure in support of the President’s Plan for Science and Innovation. NIST met all of its targets for the measures reflecting
these mechanisms.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                        23
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       In addition, NIST met the TIP target for funding a total of 29 projects during FY 2010 for high-risk, high-reward innovative research
       in critical national need areas of inspecting and repairing civil infrastructure and accelerating advanced materials in manufacturing
       processes. These projects involve 73 recipient organizations, including industry, universities, and public sector entities.

       One other area of technological innovation involves the distribution of scientific and technical information. The National
       Technical Information Service (NTIS) serves as a clearinghouse for this information to the public, private, and non-profit sectors.
       NTIS exceeded all of its 2010 targets, making more than 969,000 updated items available, and disseminating more than 50 million
       information products.

       One way that the Department advances technology and business is through the issuance of patents and trademarks thereby
       protecting IP that serves as a motive to innovate. In this regard, compliance rates (quality) and pendency (timeliness) play a key
       role in evaluating performance. USPTO made its targets related to patent compliance rates, however, it was slightly below the
       targets for “Patent average first action pendency”; “Patent average total pendency”; and, “Patent applications filed electronically.”
       For trademarks, USPTO met its targets for “Pendency compliance” and “Applications processed electronically.” However, it was
       slightly below its target for “Trademark final compliance rate” though it did meet its target for “First action compliance rate.”
       Finally, for its “Provide domestic and global leadership to improve intellectual property policy, protection, and enforcement
       worldwide” goal, USPTO sought to have 50 percent of prioritized countries having implemented at least 75 percent of action steps
       in country-specific action plans. USPTO achieved a rate of 75 percent of those prioritized countries.




  24                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                        M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




Promote environmental stewardship

Performance Summary




 I  
        n FY 2010, the Department met or exceeded
        77 percent of the targets it had set for the year.
        For this strategic goal, the Department has remained
stable since FY 2001, having met or exceeded 77 percent of
its targets in 2001.

Accomplishments and Benefits

Through the National Oceanic and Atmospheric Administration
(NOAA), the Department impacts the entire Nation. From the
development and protection of fisheries to the prediction of
severe storms such as hurricanes and tornadoes, all of the
United States depends on NOAA programs. Some of the
significant accomplishments, impacts, and benefits that
NOAA had on the U.S. public include the following:

Even before the Deepwater Horizon sank and precipitated
the worst environmental disaster in the Nation’s history,
NOAA had staff on the scene. Thus, NOAA became integrally
involved in the response and will continue to play a pivotal
role in the months and years ahead, sorting out (assessing) the worst environmental disaster in the Nation’s history.

Expert advice from NOAA was integral to saving, assessing and rehabilitating Gulf wildlife including endangered sea turtles, and
protecting critical habitat through response strategies. Aerial oil mapping teams fed detailed observations to NOAA modeling experts
for daily publication of oil trajectories—forecasts of oil amount and movement—critical to responders and local communities. The
modeling team generated the loop current diagram which helped indicate the probability of longer term flow toward the Florida
peninsula and/or East Coast, the long-term forecast which shows oil distribution probabilities, and 3D subsea models to help determine
the fate of oil dispersed in the water column. These products are vital decision making tools for the federal on-scene coordinator, small
businesses, state governments, local authorities, fisheries managers, responders, and homeowners.

The National Incident Command relied on and gave special praise to NOAA’s Environmental Response Management Application
(ERMA) that showed response assets and information as layers on a map, becoming the primary image for the Deepwater
Horizon response. GeoPlatform.gov, ERMA version for public use, recorded 269,637,028 hits in four months—enabling increased
government transparency.

NOAA conducted daily ramp and shore fishing counts and economic studies to ensure accurate compensation for lost use of resources.
Deepwater Horizon was the first oil spill where Integrated Ocean Observing Systems (IOOS) and partners used underwater, unmanned
gliders and coastal high frequency radar stations to daily track oil flows in the water column and on the surface. IOOS measured




F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                            25
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       surface current speed and direction in near real time in trajectory models that NOAA provided to coastal communities to prepare for
       impacts of oil coming ashore. The Office of Coast Survey produced nautical charts that displayed oil spill zone forecasts based on
       NOAA spill projections to help vessels avoid spill areas. The Center for Operational Oceanographic Products and Services (CO-OPS)
       modified existing products to display real-time data and predictions in the Gulf of Mexico. CO-OPS displayed Physical Oceanographic
       Real-Time System (PORTS®) data from Gulfport, Pascagoula, and Mobile Bay PORTS®, and used MyPORTS, a customizable PORTS®
       application, to show ocean current speeds and directions and weather observations in the spill region. A high-resolution northern
       Gulf of Mexico hydrodynamic model system produced three-day forecasts of water levels and 3D currents from the Florida Panhandle
       to the Rio Grande River. The Office of Coast Survey product called NowCOAST, a map-based online gateway to ocean and weather
       observations and forecasts, displayed real-time observations on interactive maps accessible from a smart phone or background maps
       like Google® Maps.

       NOAA’s Scientific Support Teams remain on-site at incident command posts, the Unified Area Command, and the National Incident
       Command, and provide expert advice to the interagency solutions group, joint advisory group, governors, parish presidents, regional
       response teams, and the national response team. As the lead agency for the Shoreline Cleanup and Assessment Technique—a systematic
       approach to analyzing and cleaning impacted coastline to agreed upon standards—NOAA ensures federal oversight to this crucial
       phase. NOAA will lead the Natural Resource Damage Assessment, an ongoing legally-mandated, and legally-binding assessment of the
       damage to natural resources and “human use” resulting from the spill.

       To help rebuild fisheries and sustain fishermen, communities, vibrant working waterfronts, and culturally important fishing traditions,
       NOAA also released a national catch share policy to encourage the consideration and use of catch shares. Catch share programs,
       which include limited access privilege programs and individual fishing quotas, dedicate a secure share of fish to individual fishermen,
       cooperatives or fishing communities. Catch shares are used in 14 fisheries managed by six fishery management councils from Alaska to
       Florida and are being developed in additional fisheries. Both here and in other countries, catch shares are helping eliminate overfishing
       and achieve annual catch limits, improve fishermen’s safety and profits, and reduce the negative biological and economic effects of
       the race for fish that develops with some traditional fishery
       management.

       During FY 2010, NOAA rebuilt the following four fish stocks,
       important to commercial and recreational fisheries, to optimal
       population levels: North Atlantic swordfish, Georges Bank
       haddock, Atlantic coast spiny dogfish, and St. Matthews
       Island blue king crab. These stocks had been under rebuilding
       plans due to low population levels caused by overfishing and
       other factors.

       NOAA worked with the Gulf of Mexico and South Atlantic
       Fishery Management Councils to design difficult but necessary
       measures to end overfishing of red snapper in the Gulf of
       Mexico and South Atlantic. A recent stock assessment
       indicates the Gulf measures have successfully ended decades
       of overfishing. In response, fishery managers could increase
       the Gulf red snapper total allowable catch quota from 5.0 to
       6.95 million pounds in 2010. Although that stock has not yet
       fully recovered, Gulf fishermen report encountering more and
       larger red snapper than they have seen in years, and catching




  26                                               F Y   2 0 1 0   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




red snapper in areas where they have not been encountered
in many years.

On July 28, 2010, NOAA’s National Climatic Data Center issued
the State of the Climate in 2009 report. The report is a result
of the contributions of more than 300 scientists from 160
research groups in 48 countries and is the first comprehensive
report of observations from the upper atmosphere to the depths
of the ocean. The report emphasizes that human society has
developed for thousands of years under one climatic state, and
now a new set of climatic conditions are taking shape. These
conditions are consistently warmer, and some areas are likely
to see more extreme events like severe drought, torrential
rain, and violent storms. Based on comprehensive data from
multiple sources, the report defines 10 measurable planet-
wide features used to gauge global temperature changes. The
relative movement of each of these 10 key climate indicators
proves consistent with a warming world. Seven indicators are
rising: humidity, sea level, ocean heat, sea-surface temperature,
air temperature over land, air temperature over oceans, and
tropospheric temperature in the “active-weather” layer of the
atmosphere closest to the Earth’s surface. Three indicators are
declining: glaciers, arctic sea ice, and spring snow cover in the
Northern hemisphere. National Climatic Data Center’s State of the Climate is published as a special supplement to the Bulletin of the
American Meteorological Society. To help keep citizens and businesses informed about climate, NOAA created the Climate Portal at
http://www.climate.gov. The portal features a short video that summarizes some of the highlights of the State of the Climate report.

During a five-day period in early February 2010, two snowstorms of historic proportions struck the Mid-Atlantic region. The first
storm hit February 5-6 and produced record crippling snowfalls in excess of 20 inches at two of the Washington, DC area airports
(Baltimore-Washington International and Washington Dulles International). It was the second all-time snowfall record at Philadelphia,
PA (Philadelphia International) airport and fourth at the Pittsburgh, PA airport (Pittsburgh International). NOAA issued accurate
outlooks for the storms three days in advance with an unprecedented forecast of 20-30 inches before the first flakes were observed.
NOAA forecast the average winter storm watch lead time to be 42 hours, which provided local emergency managers almost two days
of preparation time. NOAA issued winter storm warnings an average of 30 hours ahead of the first flakes—again, nearly double NOAA’s
national goal (16 hours) for winter storms. Three days later, a second blizzard struck the same region with an additional foot and a
half to three feet of snow, which brought the total snow accumulation on the ground to three to five feet in places. NOAA accurately
foretold this second storm four days in advance, with an average winter storm watch lead time of 47 hours and an average winter
storm warning lead time of 32 hours. NOAA’s Weather Forecast Office staff provided heroic service during the consecutive, extreme
events even as the back-to-back events brought the region to a complete stop as governments, schools, businesses, roads, and airlines
shut down.

On March 4, 2010, NOAA successfully launched Geostationary Operational Environmental Satellite Series P (GOES-P) from Cape
Canaveral, FL. GOES-P, renamed GOES-15 once it reached final orbit, underwent a series of tests for approximately six months
before completing its “check-out” phase. After check-out, GOES-15 was placed into orbital storage mode and remains ready for
activation if one of the operational GOES fail. GOES-15 took its first infrared image of Earth on April 26, 2010. GOES-15 is the final




F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         27
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       spacecraft in the latest series of NOAA geostationary satellites. It joined three other NOAA operational GOES spacecraft that help
       the Agency’s forecasters more accurately track life-threatening weather—from tornadoes, floods, and hurricanes to solar activity
       that can impact the satellite-based electronics and communications industry. GOES-15 will capture higher resolution images of
       weather patterns and atmospheric measurements than those provided by earlier satellites. The higher resolution imagery allows
       forecasters to pinpoint the location of severe weather with greater accuracy. GOES-15 will also provide better data for space
       and solar weather thanks to its Solar X-Ray Imager (SXI). SXI data will improve forecasts and warnings for solar disturbances,
       protecting billions of dollars of commercial and government assets in space and on the ground. This vital information will also
       reduce the effect of power surges for the satellite-based electronics and communications industry.

       Summary of Performance Results

                                                                                                                       targets met
                             Strategic objective                                 Performance oUTCOME
                                                                                                                       or exceeded
        Strategic Objective 3.1:
        Protect, restore, and manage the use of coastal and ocean resources               Does not apply                    6 of 8
        (NOAA)
        Strategic Objective 3.2:
                                                                                          Does not apply                    3 of 5
        Advance understanding of climate variability and change (NOAA)
        Strategic Objective 3.3:
                                                                                          Does not apply                    9 of 11
        Provide accurate and timely weather and water information (NOAA)
        Strategic Objective 3.4:
        Support safe, efficient, and environmentally sound commercial                     Does not apply                    5 of 6
        navigation (NOAA)
        Mission Support:
                                                                                          Does not apply                        N/A
        Provide critical support for NOAA’s mission (NOAA)


       For Strategic Goal 3, based upon the key benefits the Department provides to the U.S. public, and with meeting its performance
       targets, NOAA did well. Of the 30 performance measures for this strategic goal, NOAA missed seven targets. For two of the targets
       missed— “Annual number of coastal, marine, and Great Lakes ecological characterizations that meet management needs,” and
       “False alarm rate for tornadoes,” the actual was within five percent of the target.




  28                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                         M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




Achieve organizational and management excellence

Performance Summary




 I  
      n FY 2010, the Department met or exceeded 57 percent
      of the targets it had set for the year. For this goal,
      performance declined from FY 2009, having met or
exceeded 75 percent of its targets in FY 2009.

Accomplishments and Benefits

Two organizations are involved in the Management
Integration goal: Departmental Management (DM) and the
Office of Inspector General (OIG). Key areas this goal addresses
include financial management, contracting, competitive
sourcing, and human resource (HR) management.

DM provided proactive and timely guidance and oversight to
the acquisition and grants community in the Department to
ensure smooth implementation and execution of the ARRA,
and has been recognized for the superior performance of its
oversight of recipient reporting.

DM exceeded the government-wide average for positive
responses on 69 out of 77 eligible items on the 2010 Federal Employee Viewpoint Survey, administered by the Office of Personnel
Management (OPM) to gauge employee perceptions on critical work-life areas which drive employee satisfaction, commitment, and
retention. No Department averages for positive responses were “notably” (i.e., five percentage points or more) below the government-
wide averages for any items.

In February 2010, the Department received a green score from the Office of Management and Budget (OMB), the highest level, for both
progress and status in energy and environmental management. For transportation management, the Department received a green in
progress and a yellow for status, a significant improvement from its prior scorecard. As a result, the Department ranked second overall
in the federal government.

DM reinstituted the Department IT Investment Review Board to ensure that Department major IT investments utilize sound project
management practices and exhibit risk-based approaches. The reinvigorated board will ensure that Department investments are well-
managed and of value to the taxpayer. As part of the Department’s transparency efforts, DM evaluated and submitted 51 business
cases to the federal IT Dashboard, demonstrating to the public the sound management of Department IT investments. On average, DM
achieved within five percent of its cost, schedule, and performance targets for the major IT investments undergoing development and
enhancement. DM developed solid business cases for major IT investments with the business cases ensuring that DM managed and
wisely invested those IT funds.

Finally, the Department received an unqualified audit opinion for the 11th consecutive year.




F Y   2 0 1 0   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          29
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       Summary of Performance Results

                                                                                                                        targets met
          Strategic objective                                   Performance outcome
                                                                                                                        or exceeded
        Management Integration Goal: Ensure effective resource stewardship in support of the Department’s
                                                                                                                                 0 of 2
        Achieve organizational and   programs (DM)
        management excellence          Ensure retention of highly qualified staff in mission-critical positions (DM)             1 of 1
                                       Acquire and manage the technology resources to support program goals (DM)                 1 of 1
                                       Promote improvements to Department programs and operations by
                                       identifying and completing work that (1) promotes integrity, efficiency, and              2 of 3
                                       effectiveness; and (2) prevents and detects fraud, waste, and abuse (OIG)


       For the Management Integration goal, the primary goal/target was to eliminate the significant deficiency in IT controls, which
       impacted the Financial Management measure. While progress was made, the significant deficiency in IT controls remained in
       2010. DM did complete all of its A-123 assessments, the second part of this measure. DM also did not meet the target for
       the percent of performance-based contracts. The OIG exceeded the target of $38 million for “Dollar value of financial benefits
       identified by the OIG.” by having an actual of $47.8 million.




  30                                            F Y   2 0 1 0    P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                          M anagement C ontrols




    T  
           he Department’s management is responsible for establishing and maintaining effective internal control and
           financial management systems that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA).
           The Department is able to provide an unqualified statement of assurance that its internal controls and financial
   management systems meet the objectives of FMFIA.

   During FY 2010, the Department assessed its internal control over the effectiveness and efficiency of operations and
   compliance with applicable laws and regulations in accordance with Office of Management and Budget (OMB) Circular
   A-123, Management’s Responsibility for Internal Control. Based on the results, the Department determined that
   information technology (IT) security, and certification and accreditation processes and documentation for non-financial IT
   systems no longer constitute a material weakness under FMFIA. This aspect of IT security has been reported as a material
   weakness since FY 2001 and has been the subject of significant coordinated effort across the Agency to address. While the
   importance of IT security, both within the Department and across government, makes this an area that merits continuing
   focused attention and internal monitoring, it no longer represents a material weakness.

   Supplemental funding received under the American Recovery and Reinvestment Act (ARRA) of 2009 continued to receive
   comprehensive programmatic and administrative attention throughout the Department in order to achieve the legislative
   goals attributable to it. Funds were awarded or otherwise expended for authorized purposes, in as prompt and efficient a
   manner as possible while safeguarding against fraud, waste, and abuse. Reporting associated with this funding is being
   performed clearly, transparently, and comprehensively. Monitoring has been and will continue to be conducted to ensure
   the recipient is meeting goals as stated in its application and as incorporated into award documents, and will also focus
   on the effects funding has had and will prospectively have on economic indicators.

   In addition, the Department assessed the effectiveness of internal control over financial reporting, which includes
   safeguarding of assets and compliance with applicable laws and regulations, in accordance with the requirements of
   Appendix A of OMB Circular A-123. Based on the results of this evaluation, the Department can provide reasonable
   assurance that its internal control over financial reporting as of June 30, 2010, was operating effectively and no material
   weaknesses were found in the design or operation of the internal control over financial reporting. Further, no material
   weaknesses related to internal control over financial reporting were identified between July 1, 2010 and September 30,
   2010.

   Based on reviews conducted by the Department, it has been able to determine that its financial systems are in conformance
   with government-wide requirements.




                                                                     Gary Locke
                                                                     Secretary of Commerce
                                                                     November 15, 2010




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 31
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




            F ederal M A N A G E R S ’ F I N A N C I A L I N T E G R i T Y A C T ( F M F I A ) O F 1 9 8 2

       During FY 2010, the Department reviewed its management control system in accordance with the requirements of FMFIA, and
       OMB and Departmental guidelines. The objective of the Department’s management control system is to provide reasonable
       assurance that:

       ●●   obligations and costs are in compliance with applicable laws;

       ●●   assets are safeguarded against waste, loss, and unauthorized use of appropriations;

       ●●   revenues and expenditures applicable to Agency operations are properly recorded and accounted for, permitting accurate
            accounts, reliable financial reports, and full accountability for assets; and

       ●●   programs are efficiently and effectively carried out in accordance with applicable laws and management policy.



        Section 2 of FMFIA – Internal Management Controls

       Section 2 of FMFIA requires that federal agencies report, on the basis of annual assessments, any material weaknesses that have
       been identified in connection with their internal and administrative controls. The efficiency of the Department’s operations is
       continually evaluated using information obtained from reviews conducted by the Government Accountability Office (GAO) and
       the Office of Inspector General (OIG), and specifically requested studies.

       The diverse reviews that took place during FY 2010 relative to non-financial controls provide assurance that Department systems
       and management controls comply with standards established under FMFIA. One material weakness involving IT security issues
       and the quality of certification and accreditation (C&A) processes and documentation for non-financial IT systems, which had
       been reported from FY 2001 through FY 2009, has been appropriately addressed and is no longer applicable as of September 30,
       2010. As discussed below, the action plan jointly developed by the Office of the Chief Information Officer (OCIO) and the OIG
       has significantly strengthened IT security throughout the Department and resolved its status as a material weakness. However, IT
       security is and will remain an important focal point for the Department.

       The following table reflects the number of material weaknesses reported under Section 2 of FMFIA in recent years by the
       Department. It shows one material weakness, i.e., non-financial system IT security, for the time span identified and its elimination
       as of FY 2010.


                	                             NUMBER OF MATERIAL WEAKNESSES UNDER SECTION 2
                                                                                                                        Number
                                          Number At
                                                                      Number                                          Remaining At
                                         Beginning Of                                    Number Added
                                                                     Corrected                                        End Of Fiscal
                                          Fiscal Year
                                                                                                                          Year
                      Fy 2007                    1                         0                         0                        1
                      Fy 2008                    1                         0                         0                        1
                      Fy 2009                    1                         0                         0                        1
                      Fy 2010                    1                         1                         0                        0




  32                                                 F Y   2 0 1 0   P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




Focus on Information Technology (IT) Security Continues

The OCIO conducts reviews of IT investments to ensure their efficiency and effectiveness in supporting the Department’s mission.
The Department, following OMB policies and guidelines and complying with Federal Information Security Management Act
(FISMA) requirements, oversees, and manages IT resources by establishing and implementing policies and controls to mitigate
IT risks.

To strengthen IT security throughout the Department and resolve its material weakness in IT security, the OCIO and the OIG had
developed a comprehensive strategy to improve C&A processes and documentation, which incorporated realistic milestones,
identified measurable steps, and established consistent and repeatable C&A practices. The most significant impact of this strategy
was to leverage a tracking tool for security reporting and monitoring to improve the quality of C&A processes. Some of the
Department’s efforts to address the IT material weakness also included developing a Cyber Security Strategic Plan with input
from the operating units, implementing a Cyber Security Development Program, establishing a role-based, Department-wide
training program, and establishing an IT Audit Working Group, which is a joint effort between the OCIO and the Office of Financial
Management to resolve prior year findings and design enterprise-wide solutions.

While more work remains to be done to establish and maintain a strong IT security posture, C&A processes and documentation no
longer represent a material weakness. The OCIO and the OIG have agreed that additional effort is needed to enhance IT security
control deficiencies in the areas of routine monitoring, corrective action management, and contingency plan testing, which are a
result of a combination of management, process, and resource issues. The CIO will continue to coordinate enhancements in these
areas, and to monitor progress made through these efforts as a reportable condition under FMFIA.

FY 2010 Accomplishments

To ensure that the Department effectively manages IT security concerns, the OCIO, in collaboration with the operating units, is
developing a Cyber Security Strategic Plan to strengthen its IT security profile and operations. Additionally, the OCIO continues to
conduct rigorous IT security compliance reviews based on FISMA requirements, OMB policy, National Institute of Standards and
Technology (NIST) standards and guidelines, and OIG recommendations.

The following include highlights of IT security accomplishments for FY 2010:

Commerce IT Review Board (CITRB). The Department enhanced the CITRB to ensure that its major IT investments utilize sound
project management practices and demonstrate risk-based management. The reinvigorated CITRB works to make certain that
investments are well-managed and of value to the taxpayer.

IT Business Cases. For major IT investments undergoing development or enhancement, the Department achieved cost, schedule,
and performance, on average, within five percent of target. It also developed and relied on solid business cases to support major
IT investments, and to ensure that IT funds are managed and invested wisely.

Web Advisory Council (WAC). The WAC was established to ensure that the Department’s Web presence reflects the appropriate
use of social media and Web 2.0 technologies while adequately considering risks and maintaining the privacy of its Web users.

Data Center Consolidation. In the support of the Department’s enterprise architecture, a Data Center Consolidation Plan was
developed to consolidate or decommission data centers and server rooms when possible, e.g., following the completion of the
Decennial Census. Additionally, cloud computing activities moved forward through the use of an Akamai content delivery network




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       33
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       for the Decennial Census Web site and the transfer of the Electronic Capital Planning Investment Control system to the General
       Services Administration’s (GSA) cloud computing solution.

       Security Compliance Reviews. The Department conducted rigorous IT security compliance reviews based on federal standards
       and guidelines, and OIG recommendations; 90 percent of the Department’s 280 information systems have Authority to Operate
       status.

       Cyber Security Assessment and Management (CSAM). The OCIO implemented monthly reviews of information systems using
       the CSAM IT security tracking and reporting tool. CSAM monitors the progress of systems in obtaining Authority to Operate
       status, the establishment of contingency plans and testing, and the performance of Privacy Threshold Analyses. CSAM is also
       being used to implement a Department-wide plan of action and milestones management (POA&M) monitoring program, which
       has improved POA&M activities undertaken by the operating units.

       IT Audit Working Group. During FY 2010, the OCIO worked with the Office of Financial Management to create the IT Audit
       Working Group to address and resolve financial statement audit findings relating to IT, to develop enterprise-wide solutions, and
       to prepare for future financial statement audits. The Group adopted tracking and management procedures to provide monthly
       progress reports on the resolution of audit findings. By July 2010, nearly 84 percent of the 70 IT findings that had been identified
       in FY 2009 were resolved.

       IT Workforce. The Department addressed OIG recommendations to strengthen its IT workforce by developing and implementing a
       Cyber Security Development Program, a role-based security training program offered to candidates throughout the Department.

       IT Security Policy. The OCIO updated its IT Security Program policy by developing and implementing a number of interim
       policies relating to areas such as remote access, password requirements, and peer-to-peer technology. It also provided clarifying
       guidance regarding IT security roles and responsibilities in terms of the security authorization process and IT investment security
       authorization responsibilities.

       Government-wide Network. The Department continued to coordinate with the Federation of Computer Incident Response Teams,
       the U.S. Computer Emergency Readiness Team at the Department of Homeland Security (DHS), and the federal intelligence
       community to receive timely security alerts, notifications, and reports of incidents. As a result, the Department detected or
       was alerted to malicious cyber attacks against its network, and developed plans to remediate and prevent potential threats and
       vulnerabilities.

       Trusted Internet Connections (TIC). The Department signed a memorandum of agreement with DHS to begin implementing
       TICs. The majority of the operating units have completed a statement of work for the Managed Trusted Internet Protocol Service
       (MTIPS), and MTIPS activity is expected to begin in FY 2011.

       IT Investment Review Process

       Since IT expenditures constitute such a large portion of the Department’s annual budget–major IT investments totaled approximately
       $2.5 billion in FY 2010–it is imperative that special management attention be given to proposed and continuing IT investments.
       This is done through an OCIO-led capital planning and investment control process, which is being enhanced to provide broader
       and deeper analysis of proposed IT investments, projects under development, and projects that are in operation as well as of the
       overall performance of the portfolio.




  34                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




This process is based on OMB Circular A-11, Exhibit 300, Capital Asset Plan and Business Case Summary, and Exhibit 53, Agency IT
Investment Portfolio, and is linked to all IT planning processes and documents within the Department. In a cooperative effort with
the Office of Budget and the Office of Acquisition, the OCIO established OMB’s Exhibit 300 as the document to use in summarizing
the business case for each IT project, and as the foundation for IT budget justifications, IT acquisition approvals, and major system
reviews. This provides the Department with a consistent foundation for monitoring the selection, control, and evaluation of
major IT investments, thereby helping to verify that proposed investments contribute to the Department’s strategic vision, mission
requirements, and performance goals. It also helps ensure that the operating units employ sound IT investment methodologies,
comply with Departmental and federal architectures, and provide the highest return on the investment at acceptable project
risk.

The OCIO has worked closely with the Office of Budget to establish a framework and schedule for linking the IT investment
review of proposed initiatives with the budget process. As initiatives are developed by the operating units for submission to
the Department, those initiatives that have a significant IT component are reviewed by the OCIO. Major proposals are reviewed
by the CITRB, which is co-chaired by the CIO and the Chief Financial Officer and Assistant Secretary for Administration (CFO/
ASA), and includes the Department’s Budget Officer, Senior Procurement Executive, Director for Financial Management, and
selected operating unit CIOs. The CITRB evaluates proposals relative to their performance measures, IT security and privacy
management, funding, risk management, acquisition strategy, viability and appropriateness, conformance to Departmental
and federal architectures, overall project management, and contribution to the Department’s mission and goals. Guidance for
improving project proposals is provided by the CITRB and the OCIO, as appropriate. As a result of this extensive Departmental
review of IT investment proposals, all IT-intensive budget initiatives forwarded to OMB have the best possible IT management
plan associated with them.

The CITRB continues to place emphasis on the link between proposed IT investments and top level program performance measures,
IT security and privacy, and the qualifications of IT project managers and Contracting Officers who manage IT programs. The CITRB
ensures that high quality C&A packages, which are critical to the confidentiality, integrity, and availability of IT investments, are
in place. By ensuring that qualified managers are available for these programs, the risk associated with large-scale IT investments
is significantly reduced. The OCIO leads a continuing training process for IT project managers, working together with the Office
of Human Resources Management, to ensure that the Department has a pool of well-qualified IT project managers for new and
ongoing projects.

In conducting reviews for proposed investments as well as those that are under development, the CITRB is supported by detailed
analyses from the OCIO, the Office of Budget, the Office of Acquisition Management, and others who provide independent
assessments of projects. Further, to provide even more rigorous cost, schedule, and performance analyses, the Department
systematically uses Earned Value Management (EVM) data for its IT investments with a development, modernization, or
enhancement component. This provides regular monitoring and early warning for projects that may not be meeting cost, schedule,
or performance goals, allowing mid-course corrections as needed to bring development efforts back on track. This approach has
been supported by focused training sessions on EVM techniques. Additionally, operating unit CIOs are required to conduct
operational analyses to certify that steady-state investments meet cost, schedule, and performance goals. Operating unit reviews
are supplemented with formal evaluations or post-implementation reviews by the CITRB, which helps all project managers to
benefit from lessons learned through other implementation efforts.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        35
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




       Privacy Impact Assessments (PIA)

       The Department is committed to ensuring that all information, relating to either individuals or businesses, that it collects and
       maintains is afforded proper privacy safeguards as defined in the Privacy Act of 1974, the E-Government Act of 2002, and OMB
       guidance. It has developed an IT privacy policy to ensure that personally identifiable information (PII) in its IT systems is effectively
       protected and secured; and provided guidance to the operating units on the preparation of Web privacy policies, conducted PIAs,
       and posted privacy policies and PIAs on its Web sites that are visited by the public. The Department conducts PIAs to ensure
       that it does not collect, process, or disseminate any identifiable information from or about members of the general public that is
       not needed or authorized. This level of privacy protection is also provided to business entities. The OIG has provided a favorable
       review of the Department’s PIA program and its validation of Web privacy policy implementation.

       As another step to ensure that personal and other sensitive information is protected, all of the Department’s PIAs now include data
       extract log and verification procedures. This requirement, which was incorporated in the IT Security Program Policy and Minimum
       Implementation Standards, requires that operating units log all computer-readable data extracts from databases holding sensitive
       information, and verify that each extract including sensitive data has been erased within 90 days or determine that its use is still
       required. In FY 2010, the OCIO, in concert with the Office of Public Affairs, drafted a new policy regarding the use of social media
       to, in part, inform employees of how to use social media and alert them to privacy concerns.

       Additionally, the Department has established the position of Director for Privacy and Open Government in the Office of the CFO/
       ASA. As of October 2010, this individual began serving as Chief Privacy Officer and Senior Agency Official for Privacy, and is
       working closely with the Privacy Act Officer and the OCIO to ensure that all privileged-access personal and business information
       provided to the Department is appropriately protected.

       Future Efforts

       The Department is actively pressing forward with future plans to respond to the ever changing IT security environment. It has
       developed a Strategic IT Plan and has mapped out a path toward achieving its goals in implementing TICs, increasing operational
       security with the continued development of the Security Operations Center, conducting additional assessments of technical
       controls as part of the OCIO’s annual reviews of operating units, and deploying additional role-based training under its Cyber
       Security Development Program in FY 2011. These measures will continue to strengthen the Department’s overall IT security
       posture and protection of its IT systems and information.

       Section 4 of FMFIA – Internal Controls over Financial Management Systems

       As reflected in the following table, the Department has reported no material weaknesses under FMFIA Section 4 in recent years.


                                         Number Of Material Weaknesses Under Section 4
                                                                                                                         Number
                                          Number At
                                                                       Number                                          Remaining At
                                         Beginning Of                                     Number Added
                                                                      Corrected                                        End Of Fiscal
                                          Fiscal Year
                                                                                                                           Year
                      Fy 2007                     0                         0                         0                        0
                      Fy 2008                     0                         0                         0                        0
                      Fy 2009                     0                         0                         0                        0
                      Fy 2010                     0                         0                         0                        0




  36                                                  F Y   2 0 1 0   P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                       M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




Based on reviews conducted by the Department and its operating units for FY 2010, the financial systems in the Department are
compliant with GAO principles and standards, the requirements of the CFO Act, and OMB requirements


No material weaknesses relative to financial controls were identified for the period July 1, 2009 through June 30, 2010, the
reporting period established by OMB Circular A-123. Further, with limited review and inquiries, no material weaknesses related
to internal control over financial reporting were identified between July 1, 2010 and September 30, 2010.


Other Internal Control Enhancement Activities Continue

The Department’s comprehensive effort to enhance management of internal controls under OMB Circular A-123 continued during
FY 2010. Progress made in implementing Appendix A to the circular, which relates to financial internal controls, included the
following:

●●   The Department continued the OMB A-123, Appendix A process utilizing a three-year rotational testing plan to incorporate
     a risk-based approach based on assessments of the key processes and results of previous audits. Under this approach, high-
     risk cycles are selected for annual testing, and low to moderate-risk cycles are tested every three years with selected test
     procedures performed at specific locations or on specific sub-processes as often as needed based on specifically identified risks.
     A limited controls review assessment survey is utilized for cycles that are not tested in any given year.

●●   Department-wide testing templates were updated for selected key processes and sub-processes, and the Departmental sampling
     plan was modified to include three separate test phases, which included testing requirements for the American Recovery and
     Reinvestment Act (ARRA) of 2009. This work was carried out in coordination with the Department’s Senior Advisor for ARRA
     implementation, who was appointed by the Secretary to oversee the expenditure of funds received by the Department and
     operating units under ARRA. The Senior Advisor has worked collaboratively with operating unit and Departmental managers
     to ensure the timely and effective implementation of the Department’s ARRA responsibilities

●●   The Senior Management Council continued to oversee, direct, and implement the assessment process; and the Senior
     Assessment Team continued to develop planning documentation, administer internal control test plans, and monitor and
     review test work.

●●   Each operating unit completed an entity-level controls assessment as required by OMB Circular A-123, Appendix A.

●●   The Departmental A-123 Workpapers Guide was enhanced to include more in-depth guidance and instruction to the operating
     units in such areas as obtaining populations, sampling, and documenting workpapers. In addition, the guide provides sample
     templates to ensure consistency in workpaper standards and presentation throughout the Department.

●●   The overall effort was analyzed to assess and document the adequacy of the Department’s internal controls in order to develop
     the annual statement of assurance that appears above.

Also, as of FY 2011, the Department has established an Office of Program Evaluation and Risk Management (PERM), which is
establishing an enterprise risk management program that will help to strengthen internal management controls. This endeavor,
which goes beyond IT-specific activities and affects programs and functions across the Agency, will provide a formal and visible
framework to ensure that programs–particularly those programs involving significant potential risks–operate as they should.
Through a structured effort to conduct periodic program reviews across the Department, PERM will also work with the operating
units to identify opportunities to increase effectiveness and efficiency.




F Y   2 0 1 0   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          37
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         F ederal F I N A N C I A L M A N A G E M E N T I M P R O V E M E N T A C T ( F F M I A ) O F 1 9 9 6




        U  
                     nder FFMIA, the Department is required to have financial management systems that comply with federal financial
                     management system requirements, federal accounting standards, and the U.S. Government Standard General
                     Ledger (USSGL) at the transaction level. In FY 2010, the Department remained in compliance with FFMIA.


                                                 R E P O RT O N AU D I T F O L L OW- U P




        T  
                   he Inspector General Act, as amended, requires that the Secretary report to Congress on the final action taken for
                   Inspector General audits. This report covers Commerce Department audit follow-up activities for the period June 1, 2009,
                   through May 31, 2010.


                                               Summary of Activity on Audit Reports
                                                 june 1, 2009 through May 31, 2010
                                                                                   Funds to be Put to                   Nonmonetary
                                        Disallowed Costs1                             Better Use2                         Reports3                  Total
                                  Number of                                  Number of                                     Number of
                                   Reports                Dollars             Reports               Dollars                 Reports               Reports
        Beginning Balance                21             $	 7,907,994                12            $	 39,681,774                   11                   44
        New Reports                      10                  2,052,886               3                 3,901,348                  20                   33
        Total Reports                    31                  9,960,880              15                43,583,122                  31                   77
        Reports Closed                  (10)                (2,715,446)              (5)              (1,405,560)                (13)                  (28)
        Ending Balance                   21             $	 7,245,434                10            $	 42,177,562                   18                   49
        1.	 Disallowed costs are questioned costs that management has sustained or agreed should not be charged to the government.
        2. 	“Funds to be put to better use” refers to any management action to implement recommendations where funds should be applied to a more efficient use.
        3.	 Includes management, contract, grant, loan, and financial statement audits with nonmonetary recommendations.



                                                      BIENNIAL REVIEW OF FEES




        O  
                     MB Circular A-25, User Charges, requires the biennial review of agency programs to determine whether fees should be
                     charged for government goods or services, and to ascertain that existing charges are adjusted to reflect unanticipated
                     changes in costs or market values.

       The Department conducts a review of its programs biennially, with some bureaus conducting annual reviews. In the current
       review, it was noted that the Department is in compliance with the requirement to adjust its fees to meet the Circular A-25
       requirement of full-cost recovery for user charges.




  38                                                    F Y   2 0 1 0     P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y       R E P O R T
                                                                                 M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




      A merican R ecov er y and R ein v estment Act ( A R R A ) O F 2 0 0 9 P rograms




I 
       n FY 2009, Congress passed ARRA, providing funds for several agencies including the following within the Department: OIG,
       EDA, Census Bureau, NOAA, NIST, and NTIA. The following section provides tables for each of the agencies that received funds
       that were used in FY 2010 with results appearing in FY 2010 and beyond. The tables include: program name, funding amount,
brief description of what the funds are provided for, performance measures/results, and comments if provided by the agencies.



   Bureau                                              Office of Inspector General (OIG)
 Program            Office of Inspector General

 Amount             $6.0M

                    These funds are for general oversight of the Department’s ARRA activity. Early OIG uses include emphasis
                    on training of grants and contract officers to alert them to the signs of potentially fraudulent or wasteful
 Description
                    activity by grantees or contractors. Other activities include review of various grant pre-award operations,
                    and an audit of the bureaus’ review of grant and contract recipient reporting.
                                                             Measures                                             FY 2010 Actual
                    Complaints - received                                                                                 TBD1

                    Whistleblower reprisal allegations:
                      ●● Received                                                                                         TBD1
                      ●● Accepted                                                                                         TBD1

                    Investigations:
                       ●● Closed without action                                                                           TBD1
                       ●● Accepted for prosecution                                                                        TBD1
                       ●● Prosecution denied                                                                              TBD1
 Performance           ●● Referred for alternative resolution                                                             TBD1
 Measures/
 Results            Audits/Inspections/Evaluations/Reviews:
                      ●● Final published work products                                                                    TBD1
                      ●● Interim published work products                                                                  TBD1
                      ●● Unpublished work products                                                                        TBD1

                    Training/Outreach:
                       ●● Training sessions provided                                                                      TBD1
                       ●● Individuals trained                                                                             TBD1
                       ●● Hours of training provided                                                                      TBD1
                       ●● Outreach sessions conducted                                                                     TBD1
                    1	   Final actuals should be available by January 1, 2011.




F Y   2 0 1 0   P E R F O R M A N C E         A N D     A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                           39
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau                                Economic Development Administration (EDA)
        Program         Economic Development Assistance Programs (EDAP)

        Amount          $150.0M

                        EDA directed funding through its existing program structures. Of the $147 million allocated to EDAP ($3
                        million was allocated to salaries and expenses [S&E]), EDA funded $141.3 million in “brick and mortar”
                        infrastructure investments. EDA gave preference to projects that have the potential to quickly stimulate
                        job creation and promote regional economic development, such as investments that support science and
        Description
                        technology parks, industrial parks, business incubators, and other investments that spur entrepreneurship
                        and innovation. Since ARRA called on EDA to “give priority consideration to areas of the Nation that have
                        experienced sudden and severe economic dislocation and job loss due to corporate restructuring,” EDA
                        allocated funding to the regional offices using a hybrid of its traditional allocation formula.
                                   Name                                  Explanation                                FY        Target           Actual
                        Short-term jobs                   Number of direct project related jobs                    2010           592.62          TBD1
                        created/retained                  created and/or retained from ARRA
                                                                                                                   2011           761.94          TBD2
                                                          investment
                                                                                                                   2012           338.64          TBD2

                        Percentage of ARRA                A proxy measure for ensuring a high                      2010              90%          TBD2
                        construction grants               percentage of projects selected are “shovel
                        for which construction            ready”
                        commences within
                        120 days of award

                        Percentage of                     File must demonstrate ALL of the following               2010              90%          TBD2
                        ARRA award files                  for compliance: (1) recipient submitted
                        audited meeting all               ARRA-required jobs report on time OR
                        compliance criteria               the regional office notified recipient of a
        Performance                                       late report within 30 days; (2) recipient
        Measures/                                         submitted all performance and financial
        Results
                                                          reports on time OR the regional office
                                                          notified recipient of a late report within
                                                          30 days; (3) all terms and conditions of the
                                                          grant were fulfilled and documented OR
                                                          the regional office took appropriate action;
                                                          (4) all appropriate terms and conditions
                                                          were included in the grant documents;
                                                          and (5) the award file demonstrates that
                                                          the regional office reviewed all recipient
                                                          audits, as required by A-133, for findings
                                                          and took appropriate action.

                        1	   Final actuals should be available by January 1, 2011.
                        2	   When this measure was developed, OMB directed grantees to report cumulatively. However, recent OMB guidance directs
                             grantees to provide FTE values on a quarterly basis, rather than cumulatively, and has directed agencies not to aggregate these
                             values. Quarterly data is available at Recovery.gov.

                        EDA is working closely with ARRA grantees to ensure full compliance with the requirements of the act. EDA
        Comments        has held face-to-face meetings, conference calls, and Webinars as well as developed lessons-learned reports
                        to educate ARRA grantees on recipient reporting requirements and deadlines.



  40                                                 F Y   2 0 1 0     P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y        R E P O R T
                                                                         M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau                                                         Census Bureau
 Program            Periodic Censuses and Programs

 Amount             $1,000.0M

                    To ensure a successful 2010 Decennial Census, the Census Bureau received $1 billion to hire new personnel
                    for partnership and outreach efforts to minority communities and hard-to-reach populations, increase
                    targeted media purchases, and ensure proper management of other operational and programmatic risks.

                    The following four areas received the $1 billion in funds: Early Operations ($745.1 million), Partnership
                    ($117.4 million), Advertising ($107.5 million), and Coverage Follow-Up ($30 million).

                    Early Operations activities included: Group Quarters Enumeration (college dormitories, military quarters,
                    nursing homes, etc.), Update/Enumerate (an enumerator updates residential addresses and conducts an
                    interview of the resident(s) using a paper questionnaire), Update/Leave (geographic areas where the type of
                    address does not indicate the location of the housing unit or the delivery point for receiving mail does not
 Description
                    ensure the mail gets to the correct unit, e.g., mail left at a central location because of broken mail banks),
                    and Local Census Office Staffing Operation. Partnership staff provided information and training about the
                    2010 Census to community-based organizations, religious leaders, local businesses, and media outlets in
                    designated hard-to-count areas. Advertising activities involved numerous paid media sources such as TV,
                    radio, online, magazines, newspapers, and outdoor and commuter media. The Coverage Follow-up Operation
                    involved hiring and training approximately 1,250 additional temporary telephone interviewers to re-contact
                    households to verify the information on the census form, make corrections as warranted, and obtain any
                    missing demographic information—based on specific criteria, to name a few.

                    For more detailed information about the Census Bureau’s ARRA program plans, visit the following Web sites:
                    www.census.gov/recovery or www.recovery.gov.

                    The following measures applied to the respective activities:

                    Early Operations – No specific measures were for ARRA funds though the following measure applies to base
                    funding: At least 90% of key activities completed on schedule. These activities included the following:
                    ●●   Complete Group Quarters validation and advanced visit operations
                    ●●   Conduct the 2010 Census
                    ●●   Conduct Census Operations in Puerto Rico and the Island areas
                    ●●   Conduct Nonresponse Follow-up operations
                    ●●   Begin Coverage Measurement field operations
 Performance        ●●   Conduct Coverage Follow-up field operations
 Measures/
 Results/           Partnership – ARRA and base fund targets for 2010 included the following (results shown in italics):
 Milestones
                    ●●   Maintain a diverse partnership staff of 2,707 with 100 languages spoken to reach hard to count populations in an
                         effort to positively affect response rates. More than 3,000 Partnership staff on board speaking 146 languages.
                    ●●   Partnership staff continue to establish partnerships and work with approximately 120,000 active partner
                         organizations in support of the 2010 Census. 230,750 partnerships were established.
                    ●●   30,000 joint Questionnaire Assistance Centers (QAC) and Be Counted (BC) sites and 10,000 stand-alone BC
                         sites ready to assist citizens in hard-to-count areas. More than 50,000 potential joint BC/QAC sites and 20,000
                         potential stand-alone BC sites were identified among partner organizations. From these sites, the Census
                         Bureau selected 26,637 joint sites and 11,704 stand-alone BC sites that met its needs based on location, access
                         to the public, and who the organization served. Additional sites were held in reserve, if needed.
                                                                                                                             (continued)


F Y   2 0 1 0   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                            41
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau                                             Census Bureau (continued)
        Program         Periodic Censuses and Programs (continued)

                        ●●   10,000 Complete Count Committees educate community on the importance of the 2010 Census and motivate
                             residents to complete questionnaire. 10,251 Complete Count Committees formed and trained.
                        ●●   Partnership staff thank community organizations and other partners for their help with the 2010 Census.
                        Advertising
                        Measure: Complete key activities for the combined 2010 Census Communications Campaign – 2010
                        targets using ARRA funding (results shown in italics):
                        ●●   For the Awareness Phase, reach 95 percent of the population at least five more times above base target
                             through the paid advertising. The launch of the Awareness Phase of the campaign began on January 17,
                             2010. The actual reach and frequency figures will be determined following a post-media buy analysis that
                             will be completed in the fall of 2010.
        Performance     ●●   For the Motivation Phase, reach 95 percent of the population at least 11 more times above base target
        Measures/
        Results
                             through the paid advertising. Ongoing. The Motivation Phase began on March 1, 2010. The actual reach
        (continued)          and frequency figures will be determined following a post-media buy analysis that will be completed in the
                             fall of 2010.
                        ●●   For the Support Nonresponse Follow-up Phase, the plan is to reach lowest responding population at least
                             two more times through paid advertising. The actual reach figures will be determined following a post-
                             media buy analysis that will be completed in the fall of 2010.
                        Coverage Follow-up
                        Measure: Complete 67% of Coverage Follow-up cases by the end of production – 2010 targets using ARRA
                        funding:
                        ●●   Complete 67 percent Coverage Follow-up Cases for approximately 1.1 million cases.
                        ●●   Provide approximately 1,250 Coverage Follow-up workers to support approximately 1.1 million coverage
                             follow-up cases.

                        For Early Operations, as of June 2010, the mailout of the initial questionnaires is complete. The key activities
                        have either been already conducted, began on time, or are scheduled to begin as planned.

                        It is difficult to know how each component of the Partnership program influenced people to take part in the
                        2010 Census, and a detailed assessment will be done later. However, the Census Bureau strongly believes
        Comments        that the integrated communications campaign contributed much to the U.S. public’s better than expected
                        “participation” in the census. Seventy-two percent of U.S. households that received a census form in the
                        mail returned the completed questionnaire. This matched the Census 2000 participation rate despite a more
                        challenging census environment in 2010. The public’s participation in all types of surveys has declined sharply
                        since 2000. The United States is a larger, more diverse population, with more types of housing arrangements,
                        and were subject to extensive household dislocations due to the severe economic downturn.




  42                                            F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                       M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau                   National Oceanic and Atmospheric Administration (NOAA)
 Program            Operations, Research, and Facilities

 Amount             $230.0M

                    Hydrographic Survey Backlog – $40 million to reduce the critical hydrographic survey backlog by
                    approximately 1,700 square nautical miles. The critical areas to be addressed have high commercial traffic
                    or hazardous material transport, compelling requests from navigation services users, or seafloor areas that
                    have not been surveyed to modern standards.

                    Marine and Coastal Habitat Restoration – $167 million to support mid and large-scale restoration projects
                    addressing coral reef conservation, restoration of fish habitats that benefit commercial and recreational
                    fisheries, recovery of endangered species such as salmon and sea turtles, and improvement of coastal
 Description
                    resiliency in response to sea level rise and natural hazards.

                    Environmental Reviews and Consultations – $3 million to address the current backlog of Endangered Species
                    Act (ESA) Section 7 consultations and, if required, environmental reviews and consultations associated with
                    projects funded by ARRA.

                    Vessel Maintenance and Repair – $20 million to address critical repairs and replacements to NOAA’s fleet
                    of research and exploration vessels.
                                                                                                      Target/Actual
                                                 Measure                                      2010        2011        2012
                    Fish passage and wetland restoration: percentage of projects                           40          100
                    with presence of target species (fish or plant)

                    Shell fish: percentage of projects with successful recruitment                         60          100
                    of oysters

                    Coral: percentage of projects experiencing reduction in land-                          33          100
                    based sources of sediment
 Performance        Reduce the hydrographic survey backlog within                         3,000/377       3,000        300
 Measures/
                    navigationally significant areas (square nautical miles
 Results
                    surveyed per year)

                    Percentage of ARRA related consultations conducted on time          100%/86.3%

                    Number of received ARRA-related requests for consultations                  *
                    versus the number of ARRA-related consultations completed

                    Percentage of planned milestones met for vessel maintenance               80/51
                    and repairs

                    Shoreline compilation completed                                       3,757/456       3,876
                    *Not yet available

                                                                                                                    (continued)




F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  43
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau         National Oceanic and Atmospheric Administration (NOAA) (continued)
        Program         Operations, Research, and Facilities (continued)

                        Habitat Restoration – NOAA is using GPRA, Corporate, and ARRA-specific measures to track program
                        performance. Those are Acres restored (GPRA), Stream miles opened (Corporate), and the Number of jobs
                        created/sustained (ARRA-specific). Since project selection, NOAA developed outcome-based ecological
                        metrics by project type to measure the impact of groups of projects on coastal ecosystems.

                        Hydrographic Survey Backlog – NOAA conducts hydrographic surveys to determine the depths and
                        configurations of the bottoms of water bodies, primarily for U.S. waters significant for navigation. This
                        activity includes the detection, location, and identification of wrecks and obstructions with side scan and
                        multi-beam sonar technology and the global positioning system (GPS). NOAA uses the data to produce
                        traditional paper, raster, and electronic navigational charts for safe and efficient navigation, and in addition
                        to the commercial shipping industry, other user communities that benefit include recreational boaters, the
                        commercial fishing industry, port authorities, coastal zone managers, and emergency response planners.
        Comments
                        Environmental Reviews and Consultations – NOAA focuses on the number of ARRA-related projects that
                        NOAA has timely reviewed for environmental impacts so that action agencies may minimize and mitigate the
                        impacts of these projects on the environment. Based on historical trend rates and available resources, NOAA
                        expects to complete 70 percent of them on time. External federal agencies require consultations from the
                        National Marine Fisheries Service on Endangered Species Act and essential fish habitat per the Endangered
                        Species Act and Magnuson-Stevens Act.

                        Vessel Maintenance and Repair – There has been an 89 percent increase in the number of significant
                        mechanical/electronic failures on NOAA’s ships and a 62 percent increase in lost days-at-sea for NOAA
                        programs—from 184 days-at-sea in FY 2005 to 299 days-at-sea in FY 2008. It is critical to maintain NOAA’s
                        aging ships, while meeting increasingly restrictive maritime standards. There are a total of 45 milestones for
                        all of the ships projects.




  44                                           F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau                 National Oceanic and Atmospheric Administration (NOAA)
 Program            Procurement, Acquisition, and Construction

 Amount             $600.0M

                    NOAA Climate Computing and Modeling – $170 million to accelerate and enhance NOAA’s High Performance
                    Computing (HPC) capabilities.

                    NEXRAD Dual Polarization Modification Acceleration – $7.4 million to accelerate the NEXRAD Dual
                    Polarization effort.

                    Weather Forecast Office (WFO) Construction – $9 million to accelerate WFO upgrade and modernization
                    projects in Barrow and Nome, AK, as well as upgrades to the HVAC systems of other WFOs.

                    Accelerate Satellite Development – $74 million to accelerate funding for the National Polar-orbiting
                    Operational Environmental Satellite System (NPOESS) and climate sensors on NOAA’s critical polar-orbiting
                    satellites.

                    Pacific Regional Center – $154 million to complete the construction of the entire Pacific Regional Center
 Description        on Ford Island in Honolulu, HI.

                    Southwest Fisheries Science Center (SWFSC) – $81.2 million to complete the design, construction, and
                    occupancy of the replacement SWFSC facility in La Jolla, CA.

                    Fairbanks Satellite Facility Construction – $9 million to continue the replacement of the at-risk Fairbanks
                    Operations Building in Fairbanks, AK.

                    Facility Maintenance and Repair – $15.6 million to fund facility maintenance and repair issues. NOAA
                    will use this funding to address critical facility repair issues in order to ensure the health and safety of our
                    employees.

                    Fishery Survey Vessel Construction – $79.8 million to complete the construction of a fisheries survey
                    vessel (FSV6), an OSCAR DYSON class vessel, will replace the San Diego-based DAVID STARR JORDAN and is
                    intended to serve the SWFSC.

                    NOAA Procurement, Acquisition, and Construction obligations for ARRA were $580.6 million or 97 percent
                    of the Congressional approved spend of $600 million. Of the remaining funds ($17.7 million), approximately
                    $16.7 million is classified as “lapsed obligations.” The lapsed obligations are from funds transferred to the
 Performance        U.S. Army Corps of Engineers for repair to NOAA’s Norfolk facility seawall, and the Department of Navy’s
 Measures/          Naval Facilities Engineering Command for construction-related services required to construct the new
 Results            Pacific Regional Center at Ford Island Hawaii that resulted in contract awards less than the money provided.
                    The $16.7 million to be returned as lapsed obligations resulted from acquisitions accomplished between
                    September 1 and 24, 2010, too late for NOAA to reprogram to other ARRA projects. The following are the
                    performance measures and outcomes:
                                                                                                                        (continued)




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       45
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau         National Oceanic and Atmospheric Administration (NOAA) (continued)
        Program         Procurement, Acquisition, and Construction (continued)

                                                                                                Target/Actual
                                            Measure                              2010           2011           2012            2013
                        Severe weather warnings for tornados – Lead time              12          12            13

                        Severe weather warnings for tornados – Accuracy               70          70            72

                        Severe weather warnings for tornados – False alarm            72          72            70
                        rate

                        Severe weather warnings for flash floods – Lead               38          38            38
                        time

                        Severe weather warnings for flash floods – Accuracy           72          72            72

                        Percentage of safety and conditions indices               TBD
                        improvements for NOAA’s facility maintenance and
        Performance     repair projects
        Measures/
        Results         Percentage of planned milestones met for NPOESS            6/6           TBD
        (continued)     program

                        Percentage of planned milestones met for climate         32/32            37            31
                        instruments

                        Amount of megawatts saved from HVAC systems               120            200            200
                        renovations

                        Increase number of fish stocks with fishery-                                            174             184
                        independent data needed to support adequate
                        assessments

                        Increase the number of high priority protected                                                           13
                        species with fishery-independent data to support
                        adequate population assessments

                        Increase number of program mission days-at-sea          220 days
                        available to the Southwest Fisheries Science Center

                        NEXRAD Radar Systems and Dual Polarization – These funds will accelerate the dual polarization effort of
                        the next generation (NEXRAD) Doppler weather radar system that will allow signals to be transmitted and
                        received in two dimensions, resulting in a significant improvement in precipitation estimation; improved
                        ability to discriminate rain, snow, and hail; and a general improvement in data quality. The new system will
        Comments
                        improve flash flood warnings, improve precipitation estimates and severe weather detection, including snow
                        storms and icing conditions for air and ground transportation. These funds will not impact this target until
                        at least FY 2013. This is because forecasters need at least one full year of data before they can verify and
                        adjust outyear targets; and, the kits will not be installed until early FY 2011.
                                                                                                                             (continued)




  46                                          F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau           National Oceanic and Atmospheric Administration (NOAA) (continued)
 Program            Procurement, Acquisition, and Construction (continued)

                    Percentage Safety and Conditions Indices Improvement at NOAA’s Pacific Regional Center – NOAA will
                    improve the safety and condition indices at NOAA’s facilities through the collocation of NOAA employees
                    on the island of Oahu at the Pacific Regional Center. This collocation will also support improved efficiency
                    and effectiveness for employees in operations and mission performance by creating greater opportunity for
                    program collaboration and synergy.

                    Percentage Safety and Conditions Indices Improvement at NOAA’s Fairbanks Satellite Operations Facility
                    – NOAA will improve the safety and condition indices at NOAA’s facilities through improving the health and
                    safety of employees at the Fairbanks Satellite Operations Facility by providing a new building that mitigates
                    the hazards of working within a seismic zone.

                    Percentage Safety and Conditions Indices Improvement at NOAA’s Regional Facilities – NOAA will improve
                    the safety and condition indices at NOAA’s facilities through mitigating the risks from facility deficiencies
                    and health hazards, such as asbestos, the Galveston Laboratory, Geophysical Fluid Dynamics Laboratory,
                    Marine Operations Center–Atlantic, Milford Laboratory, Panama City Laboratory, and SWFSC–Pacific Grove.

                    Percentage Safety and Conditions Indices Improvement at NOAA’s Southwest Fisheries Science Center
                    – NOAA will improve the safety and condition indices at NOAA’s facilities through replacing the SWFSC in
                    La Jolla, CA, with a new, modern facility that will expand NOAA’s ability to develop and apply advanced
                    technologies for surveys of fisheries resources and their associated ecosystems and foster collaboration on
                    fisheries management issues through the construction of a large sea and fresh-water test tank.
 Comments
 (continued)        Vessel Construction – The construction of a FSV6 vessel improves NOAA’s ability to more accurately manage
                    fisheries stocks. FSV6 will be designed and constructed with state-of-the-art technologies and specialized
                    survey equipment, which will produce significantly higher quality at-sea data, improved quality-of-life
                    outfitting and mission productivity. The enhanced FSV6 capabilities will deliver more precise and accurate
                    NOAA stock assessments for more effective management of living marine resources.

                    Cumulative Number of New Decadal Prototype Forecasts and Predictions Made with High-resolution
                    Coupled Climate Model – Decadal prediction was initially targeted to be attacked with an intergovernmental
                    panel on climate change— fourth assessment report class model with relatively low resolution. The ARRA
                    computing has allowed the use of a coupled climate model with approximately four times the resolution.
                    Research into decadal predictability will inform prototype forecasts incorporating new data assimilation
                    schemes using this high-resolution model This will provide, for the first time, scientifically credible, regional
                    scale climate information, with estimates of uncertainty, to decisionmakers for improved management of
                    water resources, the coasts, transportation infrastructure, agriculture, and other sectors impacted by climate,
                    and to provide the Nation with early warnings of climate “surprises” resulting from climate variations on
                    decadal timescales.

                    Percentage of Planned Milestones for Climate Instruments – NOAA will accelerate the development of
                    two climate sensors, TSIS and CERES. These climate sensors will improve the Nation’s ability to collect
                    and distribute higher-resolution data and products to improve forecasts and climate monitoring. Corporate
                    performance measures will be evaluated by monitoring the percent of planned contract milestones
                    accomplished within 60 days of target. Nineteen major milestones are associated with these activities.
                                                                                                                         (continued)




F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        47
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau         National Oceanic and Atmospheric Administration (NOAA) (continued)
        Program         Procurement, Acquisition, and Construction (continued)

                        Number of Regional Scale Projections for Assessments and Decision Support – Enhanced computing will
                        enable regional scale projections and will contribute to international assessments (e.g., IPCC AR5, scheduled
                        for 2013), national assessments under the U.S. Global Climate Research Program, and other assessments as
                        requested. The number of meaningful regional projections possible will increase as NOAA’s earth system
                        model increases in realism and complexity. Examples of regional scale projections include: regional sea level
                        rise projections that require explicit representation of the global eddy field in the ocean models; projections
                        of parameters essential to ocean and coastal ecosystem forecasting; assessment of regional carbon
                        budgets; and projections of climate change in the Arctic region that require improved sea ice models. Better
                        information in these areas will improve decisions in transportation, fisheries and other marine ecosystems,
                        and emergency managers responsible for safety and infrastructure along the coasts.

                        Percentage Uncertainty in Possible 21st Century Sea Level Rise (0-1m = 100% uncertainty) – This metric
                        is calculated using the IPCC 4th Assessment Report estimates for the range of 21st century global-mean
                        sea level rise. Completion of the proposed effort will reduce the uncertainties by almost half as a result of
                        modeling that better captures the more accurate measurements of ice-sheet discharge, thermal expansion,
                        and regional anomalies due to ocean circulation and heat storage. These model improvements are a direct
                        result of ARRA-funded computing. Reducing the uncertainty in sea level rise will allow government and
                        industry to have better information on projected sea level rise and therefore tailor their planning and actions
                        to address the impacts.

                        Cumulative Number of New Functionalities Incorporated into Earth System Model to Improve Realism
        Comments
                        of Climate Simulation – Improve the realism of the NOAA earth system models by closing the nitrogen
        (continued)
                        and phosphorus cycles and improving the simulation of impacts of quality air on plant growth. Enhanced
                        computing permits the implementation of mechanistic models of biospheric processes in a comprehensive
                        earth system model which will reduce the uncertainty of future climate projections and provide more
                        scientifically-credible information to managers of land and marine ecosystems and better estimates of
                        carbon sources and sinks.

                        Cumulative Number of Assessments of Carbon, Trace Gas and Aerosol Budgets and Feedbacks –
                        Assessments are one of the principal means by which credible scientific information is communicated to
                        policymakers and other stakeholders. Enhanced computing permits additional biogeochemical cycles to be
                        included in NOAA earth system models and so assessments of impacts of these additional processes improve
                        the scope and credibility of this information.

                        Improved Treatment of Key Physical Processes in Climate Models Aimed at Improving: Model Performance,
                        Understanding of Uncertainties, and Confidence in Climate Change Projection and Predictions – This
                        performance measure will reflect more confident projections of key climate change impacts. Better scientific
                        understanding of the key processes of clouds, aerosols, and water vapor in the earth system will lead to
                        research advances built into climate models that will then produce better predictions and projections to
                        address climate change impacts.

                        Percentage of Planned Milestones Met for NPOESS program – NPOESS will conduct electrical payload
                        critical path reduction in calendar year 2009 and calendar year 2010.




  48                                           F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau                     National Institute of Standards and Technology (NIST)
 Program            Scientific and Technical Research and Services (STRS)

 Amount             $220.0M

                    The ARRA includes $220 million in STRS funding for “research, competitive grants, additional research
                    fellowships and advanced research and measurement equipment and supplies,” as stipulated in the
                    conference report to PL 111-5. The ARRA also provides for NIST $20 million from the Department of Health
                    and Human Services (HHS) for health information technology (IT), and $10 million from the Department of
                    Energy (DOE) for Smart Grid.

                    The following is a summary of the NIST planned activities funded in the STRS appropriation by the ARRA:
                    Advanced Scientific Equipment ($108 million) to procure advanced research and measurement equipment
                    to strengthen its measurement, standards, and technology programs; Measurement Science and Engineering
                    (MS&E) Grants ($35 million1) to conduct a competitive grants program which funded 27 projects at higher-
                    education, commercial, and non-profit organizations in 18 states for measurement science in NIST’s six priority
                    investment areas of critical national importance: Energy, Environment, Manufacturing, Health Care, Physical
                    Infrastructure, and Information Technology; Postdoctoral Research Fellowships ($22 million1) to expand the
                    NIST Postdoctoral Fellowship program to create approximately 80 postdoctoral fellowships for recent Ph.D.s
                    and retain approximately 40 NIST National Research Council (NRC) postdoctoral fellows through the end
                    of FY 2010 following the end of their tenure; MS&E Fellowship Program ($20 million1) to award grants to
                    the University of Maryland and the University of Colorado for developing and implementing a program to
 Description        provide fellowships for students, post-doctoral, and professional scientists and engineers to work at NIST;
                    Research Contracts ($15 million) to award competitive research contracts to small businesses under the
                    Small Business Innovation Research (SBIR) program2, and to award competitive research contracts1 to assist
                    NIST in activities associated with Smart Grid devices and systems and competitive research contracts1 for
                    research on specific areas of cybersecurity; IT Infrastructure Contracts ($9 million) to competitively procure
                    critical new information systems and components to improve NIST’s IT infrastructure; and Management
                    and Oversight ($11 million) to support critical staff such as contracts specialists, grants specialists, internal
                    control specialists, and an ARRA Project Management Office to ensure that transparency, monitoring and
                    evaluation, and accountability responsibilities under ARRA are implemented and followed.

                    The $30 million in ARRA funding from other federal agencies includes: $20 million from HHS Office of the
                    National Coordinator to help accelerate development and deployment of electronic health records and a
                    nationwide health care information infrastructure and $10 million from DOE to develop a framework and a
                    public-private partnership needed to harmonize standards and implement a nationwide electricity Smart Grid.

                    1	 Actual amount of awards will be slightly less due to a 2.5 percent SBIR assessment to appropriate activities mandated by statute.
                    2	 Approximately $1. 5 million were added to this activity from the mandated 2.5 percent SBIR assessments on the ARRA MS&E
                       Grants and Fellowships, Postdoctoral Research Fellowships, and Research Contracts amounts.

                                                                                                                                          (continued)




F Y   2 0 1 0   P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y        R E P O R T
                                                                                                                                                           49
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau         National Institute of Standards and Technology (NIST) (continued)
        Program         Scientific and Technical Research and Services (STRS) (continued)

                        Use of NIST ARRA funding is targeted to have maximum impact on meeting the goals of the ARRA, including:
                        creating jobs; promoting economic recovery; providing investments needed to increase economic efficiency
                        by spurring technological advances in science; and making investments in areas of research that will provide
                        long-term economic benefits.

                        Advanced scientific equipment purchases from the STRS ARRA funding will have immediate and specific
                        impacts on NIST’s technological capabilities and abilities to work in new areas and address more complex
                        scientific challenges. To document these impacts, NIST is providing a series of examples in its ARRA reporting
                        that illustrate the overall impact and outcomes of the NIST STRS ARRA equipment purchases. Illustrative
                        impacts from these equipment purchases include:

                        Clinical PET-CT Scanner: Positron emission tomography - computed tomography (PET-CT) is a medical
                        imaging technique that sequentially acquires PET and x-ray computed tomography images to render
                        a spatial distribution of metabolic or biochemical activity in the human body precisely aligned with its
                        anatomic structure. The acquisition of a PET-CT scanner under ARRA funding will enable NIST to develop
        Performance
                        standards and measurement infrastructure in support of PET and PET-CT technology. Since this instrument
        Measures/
        Results         will be the only PET-CT scanner in the United States that will be continuously calibrated against national
                        standards, it will function as a reference instrument for clinical comparison studies, clinical trials, testing of
                        clinical measurement protocols, and a testbed for development of techniques associated with PET-CT. The
                        improvements in the quantitative data obtained from the NIST PET-CT scanner will impact the nearly two
                        million PET-CT scans in the United States every year by enabling more accurate and timely diagnoses.

                        Large Area NEXAFS Microscope for National Synchrotron Light Source: NEXAFS has become a funda-
                        mental measurement for organic photovoltaic (OPV) materials, but has been limited to large area samples.
                        The imaging capabilities of this microscope will allow spatially resolved identification of defects and
                        variations. The ARRA funds greatly accelerated the availability of a unique instrument at least five years
                        faster than without ARRA funds.

                        The table below reflects performance measures that were reported in Recovery.gov on May 15, 2009 for
                        NIST’s STRS ARRA appropriations. NIST has been collecting ARRA performance data on a quarterly basis.
                        Data is included in the table for each measure for FY 2009 Target and Actuals, as well as FY 2010 Target and
                        Actuals.
                                                                                                                               (continued)




  50                                            F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                               M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau           National Institute of Standards and Technology (NIST) (continued)
 Program            Scientific and Technical Research and Services (STRS) (continued)

                                                                                 FY 2009           FY 2009            FY 2010            FY 2010
                                       Measures
                                                                                 Target            Actual             Target             Actual
                    Advanced Scientific Equipment:
                       ●● Dollars obligated                                        $20,000K          $22,458K*          $88,000K           $88,161K*
                       ●● Number of equipment purchased                                  15                 17                45                  45

                    Measurement Science and Engineering
                    Grants program:
                       ●● Dollars obligated                                               $0K               $0 K        $34,125K            $34,449K
                       ●● Number of awards                                                  0                  0              20                  27
                       ●● Number of patent applications                                     0                  0               0                   0
                          (lagging/outyear measure)
                       ●● Number of peer-reviewed technical                                  0                  0                 0                    0
                          publications (lagging/outyear measure)
                       ●● Number of licenses (lagging/outyear                                0                  0                 0                    0
                          measure)

                    Postdoctoral Fellowships:
 Performance           ●● Number of Postdoctoral Fellows                                    48                52                 35                  38
 Measures/
                       ●● Number of Postdoctoral Fellows                                    23                19                 18                  46
 Results
 (continued)              retained after completion of tenure

                    Measurement Science and Engineering
                    Fellowship program:
                        ●● Dollars obligated                                              $0K                $0K        $19,500K            $19,500K

                    Research Contracts:
                       ●● Dollars obligated                                        $10,500K          $9,826K**            $4,500K         $18,669K**
                       ●● Number of contracts awarded (SBIR,                             34                33                   1                 9
                          Smart Grid, Cyber Security)

                    Information Technology Research Contracts:
                       ●● Dollars obligated                                          $9,000K           $7,588K                 $0K            $1,193K
                    *	 Actual obligations were approximately $2.6 million above cumulative planned Target levels as a result of lower expenses from
                        management and oversight funds that were redirected toward more funding for equipment.
                    **	 Approximately $13.5 million was spent above cumulative Target levels as a result of additional funding provided to this activity
                      from the mandated SBIR assessments on the ARRA MS&E Grants and Fellowships, Postdoctoral Research Fellowships, and
                      Research Contracts amounts—and $12 million in reimbursable funding received from the Department of Energy for Smart Grid.

                    Further results are available on the NIST ARRA Web site at http://www.nist.gov/recovery/.

                    The measurements, standards, and technologies that are the essence of the work done by NIST’s laboratories
                    help U.S. industry and science to invent and manufacture superior products and to provide services
                    reliably. NIST’s programs are driven by six investment priority areas that address national priorities: Energy,
 Comments           Environment, Manufacturing, Health Care, Physical Infrastructure, and Information Technology. Funds
                    provided by the ARRA will enhance NIST’s efforts on the six investment priority areas by providing the
                    “tools” and knowledge base needed to make progress. Focus will be on the eight activities noted in the
                    earlier description section.




F Y   2 0 1 0   P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y        R E P O R T
                                                                                                                                                           51
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




         Bureau         National Institute of Standards and Technology (NIST) (continued)
        Program         Construction of Research Facilities

        Amount          $360.0M

                        The following is a summary of the NIST planned activities funded in the Construction of Research Facilities
                        appropriation by the ARRA.

                        NIST Construction Projects ($180.0 million): includes complete the funding of the Precision Measurement
                        Laboratory formerly known as the NIST Boulder Building 1 Extension ($43.5 million); enhance the performance
                        of the Precision Measurement Laboratory ($25.0 million); carry out energy-efficient Safety, Capacity,
                        Maintenance, and Major Repairs Program projects ($31.0 million); high-efficiency cooling system, associated
                        support infrastructure for the cooling system, and other support infrastructure for the NIST Center for
                        Neutron Research ($16.0 million); fund the design and construction of a National Structural Fire Resistance
                        Laboratory ($16.0 million); relocation and consolidation of advanced robotics and logistics operations from
                        a decommissioned NIKE missile site to the NIST Gaithersburg site ($9.0 million); fund the construction of
                        a Liquid Helium Recovery System for the NIST Gaithersburg site ($5.0 million); fund the construction of a
        Description
                        Liquid Helium Recovery System for the NIST Boulder site ($2.5 million); design and construct an Emergency
                        Services Consolidated Facility in Gaithersburg ($7.0 million); a Net-Zero-Energy Residential Test Facility at
                        NIST Gaithersburg ($2.0 million); and in-house oversight and construction management support of NIST
                        construction projects ($8.0 million). The original plan also included $15 million to fund the design and
                        construction of a new time-code radio broadcast station; but despite best efforts, NIST has been unsuccessful
                        in finding a site or solution to realistically award this project by the end of FY 2010, which is the expiration
                        date of NIST’s ARRA funding.

                        Competitive Construction Grants Program ($180.0 million): provides competitively awarded grants to U.S.
                        universities, colleges, and not-for-profit research organizations for research science buildings through the
                        construction of new buildings or expansion of existing buildings ($179.0 million), and program management
                        support and oversight of the construction grants program ($1.0 million).

                        Use of NIST ARRA funding was targeted to have maximal impact on meeting the goals of ARRA, including
                        creating jobs, promoting economic recovery, providing investments needed to increase economic efficiency
                        by spurring technological advances in science, and making investments in areas of research that will provide
        Performance     long-term economic benefits.
        Measures/
        Results         The table below reflects performance measures that were reported in Recovery.gov on May 15, 2009 for
                        NIST’s Construction of Research Facilities ARRA appropriations. NIST has been collecting ARRA performance
                        data on a quarterly basis. Data is included in the table for each measure for FY 2009 Target and Actuals, as
                        well as FY 2010 Target and Actuals.
                                                                                                                              (continued)




  52                                           F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                              M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




   Bureau           National Institute of Standards and Technology (NIST) (continued)
 Program            Construction of Research Facilities (continued)

                                                                                FY 2009            FY 2009            FY 2010            FY 2010
                                       Measures
                                                                                Target             Actual             Target             Actual
                    NIST construction projects:
                       ●● Dollars obligated                                       $26,300K         $10,956.1K          $153,700K        $164,362.1K
                       ●● Number of facilities renovated                                 0                  0                  0                  0
                       ●● Number of facilities constructed                               0                  0                  0                  0

                    Construction Grants (up to $60M):
 Performance          ●● Dollars obligated                                        $60,000K         $55,537.0K              $0.00K             $0.00K
 Measures/            ●● Number of grants awarded                                        5                  4                   0                  0
 Results              ●● Number of research science facilities                           0                  0                   0                  0
 (continued)              completed

                    Construction Grants (approximately $120M):
                      ●● Dollars obligated                                           $0.00K             $0.00K         $120,000K $123,517.2K*
                      ●● Number of grants awarded                                         0                  0                10           12
                      ●● Number of research science facilities                            0                  0                 0            0
                          completed
                    *	 FY 2010 Actual obligations are approximately $3.5 million above the cumulative Target levels as a result of redirecting excess
                       funding from the first round Construction Grants competition ($60 M) into the second round competition ($120M).

                    The measurements, standards, and technologies that are the essence of the work done by NIST’s laboratories
                    help U.S. industry and science to invent and manufacture superior products and to provide services reliably.
                    NIST manages some of the world’s most specialized measurement facilities where cutting-edge research
                    is done in areas such as new and improved materials, advanced fuel cells, and biotechnology. Critically
 Comments           needed research facilities will help keep the Nation at the forefront of cutting-edge research and ensure
                    that U.S. industry has the tools it needs to continually improve products and services. The investment now in
                    these advanced research facilities will be recouped many times over in increased U.S. innovation, a critical
                    ingredient for improved productivity and job creation. The construction projects will use green technologies
                    where possible, and will improve energy efficiency and environmental performance of NIST facilities.




F Y   2 0 1 0   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y        R E P O R T
                                                                                                                                                        53
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                        National Telecommunications and Information Administration
         Bureau
                        (NTIA)
        Program         Broadband Technology Opportunities Program (BTOP)

        Amount          $4,700.0M

                        In FY 2010, NTIA utilized approximately $4 billion of ARRA funding for BTOP, which awarded grants to 233
                        projects to support deployment of broadband infrastructure, enhance and expand public computer centers,
                        and encourage sustainable adoption of broadband service. The BTOP projects will:

                        ●●   Fund the installation or upgrade of approximately 120,000 miles of broadband networks, including fiber
                             optics, wireless, microwave, and other technologies. Of this amount, approximately 70,000 miles involve
                             construction of new broadband facilities.
                        ●●   Provide broadband access to approximately 24,000 community anchor institutions, including schools,
                             libraries, government offices, health care facilities, and public safety entities.
                        ●●   Deploy middle-mile infrastructure in areas with nearly 40 million households and four million businesses,
                             many of which will benefit from new or improved broadband service provided by last-mile providers
                             that are able to utilize the new, open infrastructure to extend or upgrade their service for consumer and
                             business customers.
        Description
                        ●●   Invest in more than 3,500 new or upgraded public computer centers in libraries, schools, community
                             centers, and other public locations.
                        ●●   Invest in more than 35,000 new or upgraded public computer workstations.
                        ●●   Make public computer center workstations and training available to more than one million new users.
                        These anticipated benefits will be realized over the life of each project, which must be substantially complete
                        within two years and fully complete within three years.

                        NTIA’s State Broadband Data and Development grant program implements the joint purposes of the ARRA
                        and the Broadband Data Improvement Act (BDIA), which envisioned a comprehensive program to integrate
                        broadband and information technology into state and local economies. ARRA provided up to $350 million for
                        implementation of the BDIA and to develop and maintain the national broadband map. NTIA has awarded a
                        total of $293 million in grants among all 56 eligible entities.
                                                                                                                              (continued)




  54                                            F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                    National Telecommunications and Information Administration
   Bureau
                    (NTIA) (continued)
 Program            Broadband Technology Opportunities Program (BTOP) (continued)

                    Current and planned performance measures include:
                                                                  FY 2010          FY 2011        FY 2012         FY 2013
                                                                   Actual           Target         Target          Target
                   New broadband network miles deployed              N/A             10,000        30,000          50,000
                   Community anchor institutions with
 Performance       new or improved access to broadband               N/A              3,000        10,000          15,000
 Measures/         services
 Results
                   New public computer center
                   workstations installed and available to           N/A             10,000        20,000          25,000
                   the public
                   New sustainable broadband adoption
                   subscribers (households, businesses, and/         N/A            100,000       250,000          350,000
                   or institutions)
                    BTOP provides grants to support the deployment of broadband infrastructure in unserved and underserved
                    areas, to enhance broadband capacity at public computer centers, and to encourage sustainable adoption of
 Comments
                    broadband service. Through this support, BTOP will also advance the ARRA’s objectives to spur job creation
                    and stimulate long-term economic growth and opportunity.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 55
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                 H igh R is k I ssue / 2 0 1 0 D E C E N N I A L C ensus




        A  
                    utomation problems and uncertain costs and plans may jeopardize the success of the 2010 Decennial Census, and
                    warrant immediate attention. The decennial census is a Constitutionally-mandated activity that produces critical data
                    used to apportion Congressional seats and to allocate over $400 billion in federal assistance each year.

       Goal

       Strengthen management and oversight, and reduce risks for the 2010 Decennial Census.

       Challenges/Actions

       ●●   Develop an integrated and comprehensive plan to control costs and manage operations

            ◆◆ Improved management practices and communications by conducting regularly scheduled meetings with internal and
               external management/stakeholders.

            ◆◆ Managed the schedule with weekly analysis of the activities and milestones contained in the integrated project schedule.

       ●●   Strengthen risk management activities and systems testing

            ◆◆ Developed mitigation and contingency plans to accompany the risk management plan.

            ◆◆ Reviewed and updated the risk register and ensure ongoing involvement of senior management in risk review.

            ◆◆ Developed detailed testing plans, including gap analysis.

            ◆◆ Conducted and monitored system testing across the 2010 Decennial Census program.

       ●●   Improve management of the Field Data Collection Automation (FDCA) effort

            ◆◆ Conducted and monitored extensive testing, including coding and unit testing, field testing, production integration
               testing, and operational readiness testing (by the Census Bureau and contractors).

            ◆◆ Successfully completed Address Canvassing ahead of schedule, using automated handheld computers supplied
               by the FDCA contractor.

            ◆◆ Oversaw successful deployment, by the FDCA contractor, of equipment and systems to the local census offices.




  56                                               F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                        M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




                                     H igh P riorit y P erformance G oals




H 
             igh priority performance goals (HPPG) are a clear statement of the specific, measurable, ambitious near-term priority
             targets chosen by the senior leaders of major federal agencies. The HPPGs communicate the performance improvements
             each agency is trying to accomplish relative to its priorities using existing legislative authority, previously appropriated
funds, and funding at levels proposed in the President’s FY 2011 Budget. The HPPGs constitute the priority operational targets the
agency will work to accomplish within 18 to 24 months of setting the targets. This distinguishes the HPPGs from the longer-term
targets agencies include in their strategic plans, and the full set of performance goals and measures agencies include in the annual
plans and reports required by the Government Performance and Results Act (GPRA).


    Goal         2010 Decennial Census: Effectively execute the 2010 Census, and provide the states with
                 accurate and timely redistricting data. (Timely completion of milestones to conduct the 2010
                 Census and provide redistricting data as mandated by law.)
   Bureau        Census Bureau
 Performance      Achieve an accuracy level of an overall net coverage error at the national level of less than one-half of one
 Measures         percent.
 Description      The overall net coverage error is determined by an independent follow-up survey which measures the
                  accuracy of the census results. The survey estimates both the number of households missed and those either
                  mistakenly counted or counted multiple times. The undercount and overcount percentages are derived by
                  subtracting the number of people counted in the census from the number of people measured in the survey
                  and then dividing by the estimate of the total population according to the survey. A net overcount occurs if the
                  resulting percentage is negative, while a positive percentage indicates a net undercount.
 Results           Fiscal
                    Year                            Target                                                Actual
                    1991                                                                                  1.61%
                    2003                                                                                 -0.49%
                    2012                           +/-0.5%
 Milestones       Deliver 2010 Census Questionnaires: Completed by April 9, 2010. Delivered 2010 Census
                  questionnaires which consisted of the mailing of advance letters, initial questionnaires, reminder postcards,
                  and replacement mailings.

                  Update Leave and Update Enumerate: Completed by June 1, 2010. Conducted update leave and
                  update enumerate operations in which enumerators deliver census questionnaires or conduct interviews in
                  communities that may not have a house number and street name address.

                  Group Quarters Enumeration: Conduct enumeration of group quarters. The operation consists of the
                  field enumeration of individuals in group quarters, such as college dormitories, correctional facilities, military
                  vessels, and nursing facilities.

                  Nonresponse Follow-up: Completed by July 10, 2010. Conducted nonresponse follow-up operation
                  which includes follow-up visits and phone calls to all housing units that did not respond to the mailout
                  questionnaires.
                                                                                                                            (continued)




F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                            57
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Goal        2010 Decennial Census: Effectively execute the 2010 Census, and provide the states with
                      accurate and timely redistricting data. (continued)
         Bureau       Census Bureau (continued)
       Milestones     Coverage Follow-up: Conduct coverage follow-up operation which resolves erroneous information in
       (continued)    initial census operations.
                      Vacant Delete Check: Conduct vacant delete check operation by confirming vacant or nonexistent
                      housing unit statuses identified during nonresponse follow-up.
                      Census Coverage Measurement: Operations for census coverage measurement. These are independent
                      of the other census operations. They are designed to provide estimates of net coverage error and erroneous
                      enumerations for persons in housing units and for the housing units themselves.


          Goal        Intellectual Property (IP) Protection: Reduce patent pendency for first action and for
                      final actions from the end of 2009 levels of 25.8 and 34.6 months respectively by the end of
                      2011, as well as the patent backlog.
         Bureau       U.S. Patent and Trademark Office (USPTO)
       Performance First Action Patent Pendency                                Final Action Patent Pendency           Patent Backlog
       Measures
       Description    This measure tracks the timeliness of first                  This measure identifies the        This measure tracks the
                      office actions on patent applications,                       timeliness related to issuance     number of patent applications
                      measuring the time in months from the                        of the patent or abandonment       awaiting first action review
                      application filing date to the date of                       of the application, measuring      by an examiner.
                      mailing the first office actions.                            the average time in months
                                                                                   from the application filing
                                                                                   date to the date of issue or
                                                                                   abandonment.
       Results             Fiscal
                            Year           Target              Actual                 Target           Actual             Target             Actual
                           2003             18.4                 18.3                  27.7             26.7             484,700             457,274
                           2004             20.2                 20.2                  29.8             27.6             524,000             508,878
                           2005             21.3                 21.1                   31              29.1             594,800             586,580
                           2006              22                  22.6                  31.3             31.1             680,700             674,333
                           2007             23.7                 25.3                   33              31.9             801,000             737,288
                           2008             26.9                 25.6                  34.7             32.2             801,300             750,596
                           2009             27.5                 25.8                  37.9             34.6             741,400             718,835
                           2010             25.4                 25.7                  34.8             35.3             698,000              TBD1
                           2011             25.7                                       34.1                              635,700
                           2012             19.3                                       34.7                              556,800
                           2013             14.9                                       28.3                              477,800
                           2014             10.9                                       23.9                              410,300
                           2015             10.2                                       19.9                              377,000
                      1	   Final actuals should be available by January 1, 2011.
                                                                                                                                             (continued)




  58                                                  F Y   2 0 1 0     P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Goal         Intellectual Property (IP) Protection: Reduce patent pendency for first action and
                 for final actions from the end of 2009 levels of 25.8 and 34.6 months respectively by the end
                 of 2011, as well as the patent backlog. (continued)
   Bureau        U.S. Patent and Trademark Office (USPTO) (continued)
 Milestones       Re-engineer the Examiner Count System: Completed by March 30, 2010. USPTO adopted significant
                  revisions to the patent examiner production (count) system. The new count system is expected to set the
                  foundation for long-term pendency improvements by encouraging early identification of patentable subject
                  matter, helping examiners resolve issues more quickly and rebalancing incentives both internally and
                  externally to decrease re-work. It is also expected to see quality gains as a result of giving examiners more
                  time to do a thorough search and examination.
                  Project Exchange: The Project Exchange pilot will allow advancement of an application in exchange for
                  express withdrawal of another application, and will enable applicants to focus USPTO resources on what is
                  important, rather than having examiners review applications that are no longer important to their owners.
                  Institutionalize Compact Prosecution of Applications: Encourage the practice of finding the core issues with
                  patent applications and resolving them—conducting a complete initial search, issuing a complete first office
                  action, and identifying allowable subject matter so as to expedite prosecution. This will be accomplished
                  through specific training programs.
                  Measurement and Tracking of Patent Quality: Along with its Patent Public Advisory Committee,,
                  USPTO has engaged its stakeholders in roundtable discussions on the best way to address patent process
                  inefficiencies, while also improving patent quality and reducing overall application pendency. USPTO has
                  sought specific public input on improving the process for obtaining the best prior art, preparation of the
                  initial application, and examination and prosecution of the application, along with identifying appropriate
                  indicia of quality, and establishing metrics for the measurement of the indicia.
                  Improve and Provide More Effective Training: Provide Leadership Development Program and
                  additional training for examiners and supervisory patent examiners. Patent managers and supervisors are
                  participating in a newly developed, state-of-the-art leadership development program. This program is
                  designed to foster the development of all employees and to help managers and supervisors hone their skills
                  so they can enable all employees to reach their full potential. USPTO is giving all of its patent examiners
                  detailed training in efficient interview techniques, compact prosecution, and negotiations. This training
                  is all targeted to streamline the examination process by working with applicants to identify and correctly
                  resolve issues early in the process, thereby reducing patent application backlog and pendency. The Office of
                  Patent Training has developed a catalog of refresher training courses for patent examiners to enhance the
                  quality of examination. In FY 2010, over 1,600 requests for refresher training have been registered in the
                  Commerce Learning Center. The Office of Patent Training will continue to enhance and expand the courses
                  being offered. The ISO 9001 certified New Examiner Training program continues to evolve in order to meet
                  the changing needs of USPTO. The former New Examiner Training Program has been re-engineered to serve
                  two different groups of new hires. The Experienced IP Program is a four-week, accelerated training program
                  that is being successfully piloted with examiners who have prior IP experience. The former eight-month new
                  examiner program has be redesigned into a one-year program that consists of a four-month curriculum in
                  the Patent Training Academy followed by an eight-month, on the job training program in the Technology
                  Centers.
                  Ombudsman Pilot Program: The USPTO Ombudsman program is intended to provide patent applicants,
                  attorneys, and agents assistance with application-specific issues including concerns related to prosecution
                  advancement. The objective is to quickly resolve issues, and thereby to decrease pendency.
                                                                                                                      (continued)



F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    59
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Goal        Intellectual Property (IP) Protection: Reduce patent pendency for first action and
                      for final actions from the end of 2009 levels of 25.8 and 34.6 months respectively by the end
                      of 2011, as well as the patent backlog. (continued)
         Bureau       U.S. Patent and Trademark Office (USPTO) (continued)
       Milestones     Develop and Implement the Patent End-to-End Processing System: USPTO legacy patent
       (continued)    systems are based on obsolete technologies that are difficult to maintain, leaving USPTO highly vulnerable
                      to disruptions in patent operations. Patents databases are among the world’s largest, and continue to grow
                      at multiple terabytes per year, further raising the possibility of failure. Automation of many manual business
                      functions has been deferred because of the limitations of legacy systems. A new generation of patent
                      systems is needed, built upon modern data formats to provide end-to-end electronic processing. A first
                      deliverable will be the delivery prototype core patent processing infrastructure.
                      Prioritize Work – Green Technology Acceleration: Green technology acceleration allows inventors
                      to accelerate applications in certain technologies. Pending patent applications in green technologies are
                      eligible to be accorded special status and given expedited examination; the Green Technology Pilot Program
                      will accelerate the development and deployment of green technology, create green jobs, and promote U.S.
                      competitiveness in this vital sector. Patent applications are normally taken up for examination in the order
                      that they are filed. Under the pilot program, for the first 3,000 applications related to green technologies
                      in which a proper petition is filed, the Agency will examine the applications on an accelerated basis. Upon
                      receipt of more than 3,000 petitions, USPTO may reevaluate the workload and resources needed to extend
                      the pilot program.
                      Hire Patent Examiners: Hire 1,000 patent examiners in FY 2011.
                      Target Overtime to High Backlog Areas: Strategically target overtime to Technology Center units
                      with highest backlogs and permit other examiners to work overtime in the targeted areas. Overtime is a
                      critical element of USPTO’s plan to reduce the backlog of pending patent applications and to achieve its
                      pendency goals. Over the years, overtime has proven to be more efficient on a per hour basis than equivalent
                      regular time hour, since each overtime hour worked is directly tied to production output. Overtime also
                      allows USPTO to manage its workload without adding additional new hires. Its inherent flexibility allows
                      the Agency to further expand its production capacity while maintaining optimal staffing levels. Based on
                      funding availability, USPTO plans to prioritize the use of overtime and target areas with highest backlogs
                      first, then other areas as resources permit.
                      Institute a “Nationwide Workforce”: USPTO will develop a nationwide workforce using telework
                      which will allow it to hire experienced IP professionals interested in joining USPTO, but who do not want to
                      relocate to the Washington, D.C. region. It is expected that this different hiring demographic will provide
                      a more productive and balanced workforce, lower attrition, and faster transition to productivity for new
                      hires. This pilot program is targeted to begin in FY 2011 third quarter and USPTO is forecasting to hire
                      25 examiners per quarter.
                      Reformulate Performance Appraisal Plans: Senior executive service performance appraisal plans
                      will continually be revised to ensure that they are more aligned with the strategic plan goals and objectives,
                      and flexible enough to adapt to changing conditions.




  60                                           F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                       M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Goal         Coastal and Ocean Resource Management: Ensure environmentally and
                 economically resilient oceans, coasts, and Great Lakes communities, with healthy
                 and productive ecosystems.
   Bureau        National Oceanic and Atmospheric Administration (NOAA)
 Performance      Ensure that all 46 federal fishery man-         Reduce the number of stocks      Improve the Fish Stock
 Measures         agement plans have required catch limits        subject to overfishing to zero   Sustainability Index (FSSI)
                  to end overfishing in place by the end          by the end of 2011.              to 586 by the end of 2011.
                  of 2011.
 Description      This measure tracks the number of federal       This is the number of non-       The FSSI is a measure of stock
                  fishery management plans in place that          exempt overfishing stocks not    assessments and overfishing.
                  require annual catch limits and account-        being fished under an annual     The target represents a four
                  ability measures to end overfishing by the      catch limit. Assessments in      percent increase above the
                  end of 2011. NOAA staff track the status        future years will confirm that   FSSI score at the end of 2009.
                  of annual catch limits implementation           overfishing has ended.           (Because the FSSI does not
                  using information from the eight regional                                        score a stock as “not subject
                  Fishery Management Councils and                                                  to overfishing” until such
                  NOAA Fisheries regional offices. Fishery                                         status has been confirmed
                  management processes were established                                            through subsequent survey
                  by Congress, which has established the                                           and analysis, the improve-
                  role of the Fishery Management Councils                                          ments sought in overfishing
                  in developing fishery management plans.                                          will not be fully reflected in
                                                                                                   the 2011 FSSI level.)
 Results           Fiscal
                    Year         Target             Actual           Target            Actual         Target           Actual
                    2003                              NA                                 34                              NA
                    2004                              NA                                 36                              NA
                    2005                              NA                                 36                             481.5
                    2006                              NA                                 39             507              501
                    2007                               0                                 35            505               516
                    2008                               0                                 31            530.5             535
                    2009                               1                                 24            548.5            565.5
                    2010           5                   5               15                14            580              582.5
                    2011           23                                   0                              586
 Milestones      Ensure all 46 Federal Fishery Management Plans Have Required Catch Limits to End
                 Overfishing: As of March 31, 2010, two fishery management plans had annual catch limits in place.
                 One for the Arctic and one for the Gulf of Mexico Reef Fish.
                                                                                                                       (continued)




F Y   2 0 1 0   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     61
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Goal        Coastal and Ocean Resource Management: Ensure environmentally and
                      economically resilient oceans, coasts, and Great Lakes communities, with healthy
                      and productive ecosystems. (continued)
         Bureau       National Oceanic and Atmospheric Administration (NOAA) (continued)
       Milestones     Reduce the Number of Stocks Subject to Overfishing to Zero by the End of 2011: As of
       (continued)    March 31, 2010, 41 stocks were subject to overfishing. Four of these stocks, in New England, were declared
                      subject to overfishing in March 2010. However, on May 1, 2010, the New England Fishery Management
                      Council placed annual catch limits on these four stocks as well as seven others currently subject to
                      overfishing. Twenty-eight of the stocks currently subject to overfishing will be managed under annual catch
                      limits by the end of 2010. Eight of these stocks are subject to overfishing due to international fishing efforts,
                      and are exempt from the requirement for annual catch limits because U.S. fishing management measures
                      cannot independently end overfishing on these stocks.
                      Increase the FSSI to 586 by the End of 2011: The index is a measure of fish stock status that
                      includes fishing rates and population levels. As of March 31, 2010, the index was at 571.5 out of a possible
                      920, up from 565.5 in 2009 and 481.5 in 2005. The National Marine Fisheries Service is targeting the index
                      to increase to 580 by the end of FY 2010, and to 586 by the end of FY 2011. Progress in NOAA's effort to end
                      overfishing continues to increase the FSSI score. As of June 30, 2010, overfishing on black grouper in the
                      South Atlantic was found to have ended, and red grouper in the South Atlantic and black grouper in the Gulf
                      of Mexico (which were newly assessed) were found not to be subject to overfishing. In the Northeast region,
                      the spiny dogfish stock is now rebuilt. These improvements in stock status increased the FSSI by nine points,
                      advancing the Agency further toward its goal of reaching a score of 586 by the end of 2011.
                      Provide Updated Fishery Stock Assessment Reports to Regional and International
                      Management Agencies: The National Marine Fisheries Service Fisheries Science Centers annually
                      collect, analyze, and interpret information on the status of managed fish stocks to meet requirements of
                      the Magnuson-Stevens Act and international agreements. Approximately 80 individual assessments are
                      conducted and peer-reviewed through region-specific processes and priorities based on national guidelines.
                      Assessment results are used to implement updates to fishery quotas and other management measures,
                      determine the status of fish stocks with respect to overfishing criteria, and track rebuilding of previously
                      overfished stocks. These assessments also provide information for calculating the FSSI and the scientific
                      basis for implementing annual catch limits. The centers produced 11 reports.




  62                                           F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Goal         Broadband Access: Efficiently and effectively implement the Broadband Technology
                 Opportunities Program (BTOP), to expand service to communities in a cost-effective manner
                 that maximizes impacts on economic growth, education, health care, and public safety.
   Bureau        National Telecommunications and Information Administration (NTIA)
 Performance Miles of broadband networks               Community anchor           New and upgraded        New household and
 Measures    deployed (Infrastructure Projects)        institutions connected     public computer         business subscribers
                                                       (Infrastructure            workstations (Public    to broadband
                                                       Projects)                  Computer Centers        (Sustainable
                                                                                  Projects)               Broadband Adoption
                                                                                                          Projects)
 Description     BTOP funds will be used to sup-       The American Recovery      NTIA must award at      NTIA must award at
                 port projects that provide broad-     and Reinvestment Act       least $200 million      least $250 million in
                 band service in unserved areas        (ARRA) places a high       in grants by the end    grants by the end of
                 and enhance broadband service in      priority on deploy-        of FY 2010 to ex-       FY 2010 for innovative
                 underserved areas of the United       ing and enhancing          pand public com-        programs to encourage
                 States. NTIA will fund infrastruc-    broadband capabilities     puter center capac-     sustainable adoption
                 ture projects that deploy a variety   for community anchor       ity. This performance   of broadband service.
                 of technologies and approaches to     institutions such as       measure contains the    This performance
                 enhance the Nation’s broadband        libraries, hospitals,      number of new and       measure contains
                 capabilities. This performance        schools, and pub-          improved computer       the number of new
                 measure contains the number           lic safety entities.       workstations funded     household and busi-
                 of miles of network (e.g., fiber,     This performance           through the BTOP Pub-   ness subscribers to
                 microwave) deployed using BTOP        measure contains the       lic Computer Centers    broadband generated
                 funding.                              number of anchor           category of funding.    by projects funded
                                                       institutions (as defined                           through the BTOP
                                                       in the program’s                                   Sustainable Broadband
                                                       Notice of Funds Avail-                             Adoption category of
                                                       ability) connected                                 funding, as reported by
                                                       with new or improved                               awardees.
                                                       broadband capabilities.
 Results           Fiscal
                    Year      Target       Actual        Target      Actual        Target       Actual     Target       Actual
                    2010
                    2011      10,000                     3,000                     10,000                  100,000
 Milestones       Manage Demand: Activities. More clearly articulate Notice of Funds Availability to manage demand in
 (completed       the second round—examples include focusing on funding priorities (e.g., the Comprehensive Community
 in FY 2010)
                  Infrastructure) and setting investment floors and ceilings. Desired Impact. Lower application volume and
                  higher quality applications.
                  Improve End-to-End Review Process: Activities. Study the end-to-end review process; identify areas
                  of time savings, reduce duplication of effort, and streamline reviews. Desired Impact. Reduce inefficient
                  or potentially duplicative activities during review.
                                                                                                                      (continued)




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    63
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Goal        Broadband Access: Efficiently and effectively implement the Broadband Technology
                      Opportunities Program (BTOP), to expand service to communities in a cost-effective manner that
                      maximizes impacts on economic growth, education, health care, and public safety. (continued)
         Bureau       National Telecommunications and Information Administration (NTIA) (continued)
       Milestones     Incorporate Portfolio Analysis for "Smart Review": Activities. Use decision analytics to prioritize
       (completed     applications for review such that those that best fit program priorities and round out the investment
       in FY 2010)
       (continued)    portfolio to meet statutory objectives are reviewed first. Desired Impact. Increase award yield from due
                      diligence, limiting time working cases that do not get awarded.
                      Establish Interim Gates to Govern Allocation: Activities. Insert check points in the process to
                      ensure cases fill gaps in the portfolio and are appropriately resourced to their complexity and size. Desired
                      Impact. Better allocate time to review specific cases and identify more non-refundable cases before
                      expending effort to review.
                      Reduce Average Due Diligence Time: Activities. Collapse key review steps during due diligence to
                      focus analyses on only the factors that affect decisions. Desired Impact. Cut hours spent in due diligence
                      by 50 percent.
                      Streamline Decision Process: Activities. Streamline efforts to develop and gain approval on
                      recommendation decisions (to include less back and forth with grantees, overbuild evaluation, and more
                      focused engagement of public relations). Desired Impact. Reduce group time spent in decision meetings
                      and responding to ad hoc inquiries during decision process.


          Goal        Export Opportunities: Increase the annual number of small and medium-sized
                      enterprises (SME) the Commercial Service successfully assists in exporting to a second
                      or additional country by 40 percent from 2009 to 2011.
         Bureau       International Trade Administration (ITA)
       Performance    Increase the annual number of small and medium-sized enterprises (SME) the Commercial Service
       Measures       successfully assists in exporting to a second or additional country by 40 percent from 2009 to 2011.
       Description    This metric demonstrates ITA’s effectiveness at helping companies, particularly SMEs, export to a country
                      for the first time. It counts the number of SMEs, which are defined as U.S. companies with less than
                      500 employees, that achieve an export to a country they have not exported to in 12 months due in part
                      to Commercial Service assistance. This assistance includes but is not limited to in-depth market entry
                      counseling, business-to-business matchmaking, market research and intelligence, trade show support, and
                      due diligence on foreign buyers and partners. Although data was collected for this metric starting in FY
                      2001, it was not formally adopted as a performance measure until FY 2009 following an analysis of historical
                      data that showed declining results starting in FY 2006. In response to this trend, the Commercial Service
                      adopted this performance measure in FY 2009 with aggressive targets for FY 2009 and FY 2010 set to exceed
                      historical performance. Since that time, the Commercial Service has reupped its commitment to helping
                      companies enter new markets by setting an even more ambitious target for FY 2011.
                                                                                                                            (continued)




  64                                          F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                      M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Goal         Export Opportunities: Increase the annual number of small and medium-sized
                 enterprises (SME) the Commercial Service successfully assists in exporting to a second
                 or additional country by 40 percent from 2009 to 2011. (continued)
   Bureau        International Trade Administration (ITA) (continued)
 Results           Fiscal
                    Year                           Target                                              Actual
                    2003
                    2004                                                                               2,828
                    2005                                                                               2,943
                    2006                                                                               2,569
                    2007                                                                               2,453
                    2008                                                                               2,197
                    2009                           3,130                                               2,876
                    2010                           3,513                                               2,813
                    2011                           4,026
 Milestones       National Export Marketing Campaign Plan: Completed by March 19, 2010. Drafted a new
                  national data-mining, lead-generation, and marketing plan that leverages the Commercial Service strategic
                  partnerships to help U.S. companies expand exports from one to multiple markets.
                  National Export Marketing Campaign Phase 1: Refine contact lists of SME exporters provided by
                  strategic partners to just high potential leads. Design marketing materials and create online content. Train
                  the Commercial Service and strategic partner staff on the program.
                  National Export Marketing Campaign Phase 2: Initial marketing push to a subset of the contact
                  list. Track results and adjust process as needed.
                  National Export Marketing Campaign Phase 3: Roll out marketing campaign and track results.
                  International Buyer Program Expansion Plan: Completed by March 19, 2010. Drafted a plan to
                  increase the dollar value of exports resulting from foreign buyer attendance at U.S. trade shows.
                  International Buyer Program Expansion Phase 1: Conduct targeted outreach to trade show
                  organizers, industry associations, and the international business community.
                  International Buyer Program Expansion Phase 2: Work with trade show organizers to develop
                  customized programs to fit the needs and interests of companies in the industry. Coordinate with domestic
                  and international Commercial Service field staff and other U.S. government agencies to provide hands-on
                  assistance including export counseling, marketing analysis, and matchmaking services on-site at U.S. trade
                  shows.
                  MDCP Plan: Completed by March 19, 2010. Developed a plan to increase the Market Development
                  Cooperator Program (MDCP)-related exports and expedite the timeline to award MDCP recipients in FY 2010.
                  MDCP Phase 1: Completed by April 19, 2010. Expedited application deadline for FY 2010 (ITA received 50
                  MDCP applications).
                  MDCP Phase 2: Announce MDCP award recipients in mid-July and develop export action plans.
                  Services Industry Export Expansion Plan: Completed by March 19, 2010. Developed services export
                  expansion plan to identify and focus on key growth industries in targeted markets, including travel and
                  tourism. Also, leveraged financial services and supply chain/infrastructure services to facilitate goods exports.
                                                                                                                        (continued)




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      65
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Goal        Export Opportunities: Increase the annual number of small and medium-sized
                      enterprises (SME) the Commercial Service successfully assists in exporting to a second
                      or additional country by 40 percent from 2009 to 2011. (continued)
         Bureau       International Trade Administration (ITA) (continued)
       Milestones     Services Industry Export Expansion – Supply chain/Infrastructure
       (continued)    Outreach: Expanded supply chain/infrastructure outreach focus groups in Atlanta, Chicago,
                      New Orleans (subject to oil spill resource limitations locally), and Seattle.
                      Services Industry Export Expansion – Services Trade Data: Expanded the Services Trade Data
                      conference to bring together the results of the preceding focus groups and define larger objectives for data
                      issues going forward.
                      Services Industry Export Expansion – Trade Finance Seminars: Expanded trade finance
                      seminars in Miami, FL, Cleveland, OH, Philadelphia, PA, Pittsburgh, PA, and Southern California to bring
                      together exporters with regional and community lenders to facilitate financing of U.S. exports. Engage
                      tourism policy counterparts to expand high growth export markets.
                      Services Industry Export Expansion –Tourism: Secretary Locke chaired the first meeting of
                      the interagency Tourism Policy Council (TPC) on April 27. The working group on implementing the Travel
                      Promotion Act met on May 13 and participants discussed progress on the fee that will fund the Corporation
                      for Travel Promotion. The second TPC Working Group Meeting on was held on June 29. Subsequent TPC
                      meetings are being scheduled.
                      Green Exporter Outreach Plan: Completed by March 19, 2010. Developed a plan to identify and target
                      U.S. companies with green technology solutions, and improve coordination and delivery of U.S. government
                      services to the clean energy sector.
                      Green Exporter Outreach Phase 1: Conducted targeted trade promotion and policy events. Develop
                      a Competitive Assessment to (1) establish a baseline of U.S. green technology exports; and (2) articulate a
                      common U.S. government understanding of the current competitiveness of the U.S. clean energy industry.
                      Green Exporter Outreach Phase 2: Launched the Renewable Energy and Energy Efficiency (REEE)
                      Export Strategy to double U.S. REEE exports in five years.




  66                                          F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




    Goal         Sustainable Manufacturing and Building Practices: Raise the number of firms
                 adopting sustainable manufacturing processes through the NIST Manufacturing Extension
                 Partnership (MEP) by 250 by the end of 2011. Raise the percentage of construction projects
                 involving buildings or structures funded by Economic Development Assistance Programs that
                 are certified by the U.S. Green Building Council’s Leadership in Energy and Environmental
                 Design (LEED) or a comparable third-party certification program to 12 percent.
   Bureau        National Institute of Standards and Technology (NIST) and Economic
                 Development Administration (EDA)
 Performance      Raise the percentage of construction projects               Raise the number of firms adopting sustain-
 Measures         involving buildings or structures funded by Economic        able manufacturing processes through the NIST
                  Development Assistance Programs that are certified          Manufacturing Extension Partnership by 250 by
                  by the U.S. Green Building Council’s Leadership             the end of 2011.
                  in Energy and Environmental Design (LEED) or a
                  comparable third-party certification program to
                  12 percent.
 Description      FY 2011 targets are based on FY 2011 Global Climate         This measure tracks the number of firms adopting
                  Change Mitigation Incentive Fund (GCCMIF) funding           economically and environmentally sustainable
                  being similar to that of FY 2010. Data and targets          practices and products through the NIST Hollings
                  are cumulative toward the end of FY 2010 fourth             MEP program.
                  quarter and resets in FY 2011 first quarter to be
                  cumulative toward FY 2011 fourth quarter. EDA may
                  be modifying its grant application process, including
                  the establishment of quarterly deadlines for the
                  submittal and review of applications. As such, there
                  may be an opportunity to set more “level” targets
                  for the HPPG in FY 2011. However, as the largest
                  program contributor to the HPPG, the GCCMIF—and
                  its associated late-fiscal year Congressional approv-
                  als/requirements—will prevent a complete leveling
                  of targets.
 Results           Fiscal
                    Year            Target                Actual                       Target                     Actual
                    2008                                    7%
                    2009                                    9%                                                      46
                    2010            12%                    12%                          173                        266
                    2011            12%                                                 296
                                                                                                                         (continued)




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                       67
M A N AG E M E N T ’ s D I S C U S S I O N A N D A N A LY S I S




          Goal        Sustainable Manufacturing and Building Practices: Raise the number of firms
                      adopting sustainable manufacturing processes through the NIST Manufacturing Extension
                      Partnership (MEP) by 250 by the end of 2011.Raise the percentage of construction projects
                      involving buildings or structures funded by Economic Development Assistance Programs that
                      are certified by the U.S. Green Building Council’s Leadership in Energy and Environmental
                      Design (LEED) or a comparable third-party certification program to 12 percent. (continued)
         Bureau       National Institute of Standards and Technology (NIST) and Economic
                      Development Administration (EDA) (continued)
       Milestones     Manufacturing Extension Partnership (MEP): To raise the number of firms adopting sustainable
                      manufacturing processes through the NIST MEP by 250 by the end of 2011, MEP is working to expand the
                      capacity of the existing and partner resources to support additional Economy, Energy and Environment
                      (E3) Initiative (www.e3.gov) community activities and the Green Suppliers Network (GSN) program (www.
                      greensuppliers.gov). In FY 2010, MEP has carried out the following activities in support of this goal:
                      (1) completed 94 of 100 E3/GSN projects with reported impact; (2) developed two additional regions and
                      began development of two new regions adopting E3 activities; (3) identified 11 new program champions;
                      (4) developed four new strategic partnerships; and, (5) completed three industry panels to present and
                      communicate initiatives. The key challenge for meeting this sustainable manufacturing goal is to achieve a
                      partner-supported and other federal agency matched funding model which sustains operations on a multi-
                      year basis. This will allow the agency(s) to expand the capacity of the E3 and GSN programs to additional
                      communities while bolstering the pilot activities that have already been initiated.
                      Leadership in Energy and Environmental Design (LEED) Construction Projects: EDA will
                      monitor progress on a quarterly basis by tracking the number of projects that are LEED certified and aim to
                      meet the 12 percent threshold by the end of the fiscal year. EDA has already implemented Environmentally
                      Sustainable Development as one of its six core funding priorities. Accordingly, EDA will give priority to
                      projects that build the green economy in its evaluation of all project proposals (not just GCCMIF). EDA also
                      contemplates including a measure related to this in its balanced scorecard metrics.




  68                                          F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
P e r fo r m a n ce
S ec t i o n
                    Introduction to the Performance Section




 I  
        n fiscal year (FY) 2010, the Department accomplished its mission through three strategic goals and an overarching
        management integration goal that articulate long-term goals, as well as performance outcomes and objectives that
        represent shorter-term outcomes and priorities. Performance outcomes include specific targets designed to achieve
specific performance results within a given fiscal year.

The Performance Section of the report comprises subsections for each of the strategic goals and is organized in the following
manner:


   Subsection                       Purpose
   Strategic Goal                   Overall summary of the strategic goal.

   Strategic Objective              Overall summary of outcomes, program obligations, and performance outcomes that
                                    fall under each objective. The information contained in the objective provides the
                                    performance outcomes and the activities associated with them.

   Performance Outcome              Performance Outcome Description, Achievements, and selected Program Evaluations.
                                    The information contained in each performance outcome is designed to provide the
                                    reader with the overall achievements of the performance outcome.


Within each strategic goal section there are summary charts that provide the historical trend data for financial obligations
and full-time equivalents (FTE) resources, and overall performance results. At the beginning of each strategic goal section and
each objective section is a table summarizing the performance outcomes. In the description of each performance outcome is a
performance table (with shaded status cells) that shows the status of the performance measures associated with that outcome:
exceeded (more than 125 percent of target), met (100-124 percent), slightly below target (95-99 percent) and not met (below
95 percent of target). Status cells for exceeded measures are shaded blue; met, green; slightly below, yellow; and not met, red. In
addition, a new category, “improved, but not met,” was added in FY 2008. Status cells for this category are shaded orange, with
this category applying to any year in which the actuals for the given year are better than the previous year, but the target still
was not met. All dollar amounts shown are in millions, unless otherwise indicated.

Historical details on each performance result are located in Appendix A, which provides individual measurement results.

Note that the FY 2010 targets were developed prior to having the FY 2009 actuals. Often the FY 2010 targets were made based
on prior year trends. Therefore, in some cases it may be that the FY 2009 actuals exceed the FY 2010 targets, especially if they
exceeded the original FY 2009 targets.

“Strategies, Plans, and Challenges for the Future” are no longer included in the Performance Section since they are more forward
in nature as opposed to this Performance and Accountability Report (PAR) which reports on FY 2010 performance. Strategies,
Plans, and Challenges for the Future are included in the Annual Performance Plans of the bureaus (part of the Budget Submission)
and the Departmental Strategic Plan.
P e r f o r m a n c e   S e c t i o n




  S t r at eg i c
  G oa l 1
                                                                                           targets met
                          P ERFORMANCE o u t c o m e                                       or exceeded
Promote private investment and job creation in economically distressed communities
                                                                                              5 of 6
(EDA)
Improve community capacity to achieve and sustain economic growth (EDA)                       3 of 6
Increase access to the marketplace and financing for minority-owned businesses (MBDA)         5 of 5
Strengthen U.S. competitiveness in domestic and international markets (ITA)                   4 of 4
Broaden and deepen U.S. exporter base (ITA)                                                   2 of 6
Identify and resolve unfair trade practices (ITA)                                             5 of 5
Maintain and strengthen an adaptable and effective U.S. export control and treaty
                                                                                              5 of 7
compliance system (BIS)
Integrate non-U.S. actors to create a more effective global export control and treaty
                                                                                              0 of 1
compliance system (BIS)
Ensure continued U.S. technology leadership in industries that are essential to national
                                                                                              1 of 1
security (BIS)
Provide benchmark measures of the U.S. population, economy, and governments
                                                                                              2 of 3
(ESA/CENSUS)
Provide current measures of the U.S. population, economy, and governments
                                                                                              2 of 2
(ESA/CENSUS)
Provide timely, relevant, and accurate economic statistics (ESA/BEA)                          4 of 4
Increase the productivity, profitability, and competitiveness of manufacturers (NIST)         4 of 4
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                                    S TRATEG I C GOA L 1

Maximize U.S. competitiveness and enable economic growth for American industries, workers, and
consumers




         P u b li c B e n e f i t s a n d
       Summary of Performance




 T 
            he Department is committed to opening and expanding
            foreign markets for U.S. goods and services and improving
            the Nation’s export performance. The International
Trade Administration (ITA) promotes U.S. export growth through the
implementation of the Trade Promotion Coordinating Committee’s
(TPCC) National Export Strategy, ensuring that policies and
priorities are consistent with national security and U.S. foreign
policy objectives. The Department enhances cooperation with its
partnership organizations so that U.S. businesses can benefit from
global business through free market trade negotiations and through
identified priority markets. The Department continues to focus on
fostering a level playing field for U.S. firms through development of
trade policy positions, advancement of negotiating positions, and
through effective execution of U.S. trade laws intended to curb and
combat predatory trading practices.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              73
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




The Bureau of Industry and Security (BIS) ensures that export controls do not unduly disadvantage U.S. firms in world markets by
eliminating outdated controls and streamlining the process for obtaining export licenses for products that remain under export controls.
These continual improvements are being made while being mindful of the dual-use nature of some commercial technologies and the
national security implications of those technologies.

The Economics and Statistics Administration (ESA), composed of the Census Bureau and the Bureau of Economic Analysis (BEA), provides
decisionmakers with timely, relevant, and accurate economic and statistical information related to the U.S. economy and population with
the Department at the forefront of national efforts to continually improve these statistics.

In support of disadvantaged individuals and communities, the Economic Development Administration (EDA) promotes private enterprise
and job creation in economically distressed communities and regions by investing in projects that produce jobs and generate private
capital investment. Likewise, the Minority Business Development Agency (MBDA) promotes private enterprise and investment within
minority communities.

In support of manufacturing against a backdrop of coping with accelerating technological change and global competition, the National
Institute of Standards and Technology (NIST), through the Hollings Manufacturing Extension Partnership (MEP) program’s nationwide
network of manufacturing centers, helps firms adopt new and advanced manufacturing and management technologies and innovative
business practices to position them to compete in the global economy.

Overall performance within this goal has been fairly strong, meeting or exceeding targets on average 84 percent of the time from FY 2001
to FY 2010. Performance slightly improved from FY 2001 to FY 2010 with 77 percent of targets met or exceeded in FY 2001 to 78 percent
met or exceeded in FY 2010.




  74                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                             Strategic Objective 1.1

Foster domestic economic development as well as export opportunities




                  P u b li c B e n e f i t s




 T 
           his objective focuses on increasing private enterprise,
           job creation, and financial opportunities, and increasing
           trade opportunities for U.S. companies.

In support of disadvantaged individuals and communities, the
Economic Development Administration (EDA) promotes private
enterprise and job creation in economically distressed communities
and regions by investing in projects that produce jobs and generate
private capital investment.

Through partnerships with local development officials: economic
development districts (EDD); University Centers; faith-based and
community-based organizations; and local, state, and federal
agencies, EDA can assist distressed communities with strategic
planning and investment activities. This process helps communities
set priorities, determine the viability of projects, and leverage
outside resources to improve the local economy to sustain long-
term economic growth.

The Minority Business Development Agency (MBDA) promotes the ability of minority business enterprises (MBE) to grow and to participate
in the global economy through a range of activities that include funding a network of centers that provide MBEs a variety of business
assistance services. MBDA, through its direct federal client services and its network of funded centers (1) fosters the expansion of
opportunities for minority-owned business in the global marketplace, (2) identifies sources of financial capital for minority owned firms,
(3) develops and upgrades electronic tools to provide access to growth markets through automated matching of MBEs to public and




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     75
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




private sector opportunities, (4) provides management and technical assistance to minority-owned businesses, and (5) advocates for the
increased use of electronic commerce and new technologies by MBEs.

The International Trade Administration’s (ITA) Manufacturing and Services (MAS) program provides the Administration, Congress, and
U.S. businesses the data and analysis needed to make informed decisions on issues impinging on U.S. competitiveness and employment.
The data program is especially valuable to policymakers who require trade information at sub-national (state and metropolitan) and small
and medium exporter levels. In addition, to be competitive in today’s global economy, U.S. companies need to be able to move products
and services securely, quickly, and efficiently within U.S. borders and beyond. MAS launched a national dialogue to explore supply chain
infrastructure issues that cut across the broad range of national priorities. MAS is framing the issues and prioritizing what needs to
be done to improve U.S. competitiveness, especially through developing a national intermodal/freight policy. The goal is to achieve a
faster, safer, more environmentally sound, more efficient national intermodal network that will meet the needs of the Nation in the 21st
century.

The health of the U.S. economy depends on small and medium-sized enterprises (SME) since they account for 97 percent of all U.S.
exporters. Many of these firms have also been successful in doing business in countries that have recently negotiated free trade
agreements (FTA) with the United States. The Commercial Service program seeks to create a supporting environment in which all U.S.
firms, including SMEs, can flourish by seeking to increase export opportunity awareness among U.S. companies through identifying
potential exporters who need assistance; leveraging electronic and traditional media; enhancing relationships with customers; and
developing alliances and partnerships with state, local, and private partners to deliver export assistance. The Commercial Service helps
U.S. companies take advantage of world market conditions to find new buyers around the world. A growing list of FTAs provides price and
market access benefits. ITA offers four ways to help U.S. firms grow their international sales by (1) providing world-class market research,
(2) organizing trade events that promote products or services to qualified overseas buyers, (3) arranging introductions to qualified buyers
and distributors, and (4) offering counseling through every step of the export process.



Achievements

EDA tracks the amount of private investment generated and jobs created or retained as a result of EDA investments at three, six, and
nine-year intervals. Preliminary data collected through the Government Performance and Results Act (GPRA) process for investments
made in FY 2001, FY 2004, and FY 2007 indicate that these EDA investments have helped generate nearly $6.6 billion in private sector
investment and create and retain 102,381 jobs.

As a part of its Energy Regional Innovation Cluster (e-RIC) initiative, EDA partnered with a number of federal agencies to invest in a new
Energy Innovation Hub located at Pennsylvania State University. This hub will bring together leading researchers from academia, two U.S.
National Laboratories, and the private sector in an ambitious effort to develop energy-efficient building designs that will save energy, cut
pollution, and position the United States as a leader in this industry. EDA expects that investments in such regional innovation clusters
will provide for more robust job growth and allow communities to better strengthen their regional economies in the future.

In addition, EDA created the i6 Challenge to accelerate the commercialization of university and federal research to take ideas from the
lab to the marketplace, producing the small businesses that are the engine of job creation in the United States. This competition seeks
to identify and support the Nation’s best ideas for technology commercialization and entrepreneurship in six different regions of the
country. This year’s winning projects, which will each receive $1 million from EDA, include diverse efforts to drive innovative technologies
in the medical and bioscience industries to market more quickly by bringing experts in science and academia together with public and
private sector businesses and entrepreneurs.




  76                                              F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




Further, in FY 2010, EDA led efforts to assist regional economies that have been greatly impacted by transformations in major U.S. industries.
EDA spearheaded the effort to implement President Obama’s $100 million, multi-agency initiative to better position communities across
the United States to respond to changes in the National Aeronautics and Space Administration’s (NASA) programs. As part of this effort,
EDA led the development of a detailed economic diversification plan for the Task Force on Space Industry Workforce and Economic
Development. EDA also collaborated with the White House Council on Auto Communities and Workers to promote innovative strategies
that attract national and global investment to auto-impacted communities. Additionally, EDA participated in the White House Cities in
Transition Initiative and led the creation of a Cities in Transition Challenge grant competition to support the development of economic
recovery strategies for chronically distressed communities across the Nation.

Moreover, EDA has continued in its role in assisting communities develop sound economic strategies to revitalize their economies in the
wake of devastating man-made and natural disasters. In the Gulf Coast region, EDA has played a pivotal role in federal efforts to advance
recovery efforts following the BP oil spill, providing grant funding under its economic adjustment assistance program. These grants
from EDA are part of the Obama administration’s overall commitment to the Gulf Coast to help the region regain its economic footing.
EDA officials have met with people in impacted communities throughout the region to discuss long-term economic and environmental
restoration ideas and develop a framework to address those issues as a part of the President’s Economic Solutions Team. This team is
focused on the transition from “response” to “economic recovery” as a result of the BP Deepwater Horizon spill in order to strengthen the
coastal economy and help restore a healthy ecosystem.

MBDA’s year-end results exceeded its performance goals, achieving over $1.5 billion in contract awards and over $1.6 billion in financial
awards. Through its direct federal client services and network of funded centers, MBDA’s programs and services helped create over 4,900
new jobs despite the economic downturn and overall decline in the national job market. The cumulative impact of MBDA programs has
been $22.7 billion.

Throughout FY 2010, MBDA continued to assist MBEs in gaining access to American Recovery and Reinvestment Act (ARRA) of 2009
funding opportunities. MBDA continued to focus its resources to assist firms of size, scale, and capacity through its Strategic Growth
Initiative (firms with $500,000 or more in annual sales or with rapid growth potential). Based upon MBDA’s Strategic Growth Initiative,
many high growth minority firms have successfully competed for larger prime contracts and financial awards, and have had a significant
economic impact within the minority community and overall economy.

To expand the number of contract and financial awards and to create new job opportunities, MBDA initiated several new programs in
FY 2010. MBDA initiated a series of Business-to-Business Forums to encourage MBEs to partner with other firms, form joint ventures,
and sign Mentor-Protégé Agreements. These forums encouraged enterprises with increased capacity and competitiveness to sustain
development within the minority community. MBDA created a National Advisory Council on Minority Business Enterprise in FY 2010, which
will advise the Secretary of Commerce on key issues pertaining to the growth and competitiveness of the Nation’s MBEs. The advisory
committee will provide advice and recommendations on a broad range of policy issues that affect minority businesses and their ability
to successfully access the domestic and global marketplace.

In July 2010, MBDA and the National Urban League joined forces to expand opportunities for minority entrepreneurs. MBDA and the
National Urban League will pool their collective resources to support the growth of minority-owned firms located in Atlanta, Chicago,
Cleveland, Cincinnati, Jacksonville, Kansas City, Los Angeles, New Orleans, and Philadelphia. “MBDA looks forward to working with the
National Urban League to increase our reach to minority entrepreneurs and help them grow to size and capacity,” said MBDA National
Director David A. Hinson. “Our 46 centers around the Nation are working diligently to provide avenues for minority businesses to grow
and compete. The league’s Entrepreneurship Center Program will help us reach minority-owned firms in areas where we currently don’t
have a presence and service more minority entrepreneurs in communities where we do.”




F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         77
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




In August 2010, former Department of Commerce Deputy Secretary Dennis Hightower, MBDA, ITA, the Tutor Perini Corporation, and
the University of Southern California’s School of Policy, Planning and Development announced the Nation’s first program, the Global
Construction Program, created to globalize the U.S. minority-owned construction industry by providing education, mentoring, and
procurement opportunities to minority-owned firms. The Global Construction Program will include a training program for 150 minority-
owned construction firms and will also offer MBEs the opportunity to participate in an Overseas Private Investment Corporation Enterprise
Development Network. Firms that complete the program will have the opportunity to compete for a minimum of $1 billion in Tutor Perini
contracts, primarily international contracts, over a four-year period.

The MAS program expanded its key initiative on sustainable manufacturing to include sustainable supply chains. Sustainable manufacturing
practices and supply chains, including energy sources, transportation, and components, have become increasingly important as companies
look for ways to reduce operational costs while limiting greenhouse gas emissions and changing behaviors that negatively impact
the environment. As the trend toward sustainable practices grows, so does its implications for U.S. global competitiveness and firm
profitability. In order to provide effective support to U.S. companies in their sustainable manufacturing and supply chain efforts,
MAS expanded a Sustainable Manufacturing Initiative and Public-Private Dialogue that coordinates public and private sector efforts
to address these challenges and provides tools for U.S. companies to identify and adopt sustainable and competitive practices. MAS is
focused on identifying domestic and export opportunities in the clean energy technology sector (smart grid, renewable, nuclear, clean
coal). New, more sustainable, and efficient technologies will have a significant impact on the 100-year-old system by which energy is
produced, transmitted, and consumed in the United States. Also, there will be increasing export opportunities for U.S. technologies as
other countries shift to greater reliance on clean energy. MAS is also examining the impact of various climate change policy options on
energy-intensive, export-exposed industries. MAS has created the Sustainable Business Clearinghouse to provide U.S. companies with
a central portal for information on programs and resources that can assist them in enhancing their competitiveness and profitability in
environmentally sustainable ways. The portal includes information on federal and state-level government programs and resources in a
searchable clearinghouse. MAS is uniquely positioned to act as a clearinghouse for U.S. industry input into climate change policy and
international negotiations.

The U.S. and Foreign Commercial Service (US&FCS) continued to help U.S businesses maximize their export potential, enabling them to
diversify their customer base, remain globally competitive, and maintain jobs for Americans. In 2010, US&FCS assisted over 18,000 U.S.
companies by providing in-depth export counseling, market entry plans, business-to-business matchmaking services, market research and
due diligence reports, and other customized export development and market entry services. US&FCS also led trade missions around the
globe, brought foreign buyer delegations to U.S. trade shows, represented U.S. companies at international trade events, and organized
product launches and technical seminars overseas. In addition, US&FCS continued to provide front-line diplomatic support to U.S.
companies for commercial issues overseas and advocated for U.S. companies bidding on foreign government procurements. As a result
of these efforts, US&FCS facilitated more than $30 billion in exports for nearly 5,500 U.S. companies in 2010. Over 85 percent of these
companies were small and medium-sized enterprises that exported for the first time, entered a new market, or increased their market
share in an existing market.

In February 2010, Secretary of Commerce Gary Locke unveiled the details of how the Department will support President Obama’s National
Export Initiative (NEI) designed to reach the President’s goal of doubling exports over the next five years to support two million jobs in the
United States. The NEI represents the first time the United States will have a government-wide export promotion strategy with focused
attention from the President and his Cabinet.

The NEI is focused on three key areas: (1) a more robust effort by this administration to expand its trade advocacy in all its forms,
especially for SMEs, (2) improving access to credit with a focus on small and medium-sized businesses that want to export, and
(3) continuing the rigorous enforcement of international trade laws to help remove barriers that prevent U.S. companies from getting
free and fair access to foreign markets.




  78                                               F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




In addition to improving efforts in those areas, the NEI creates an Export Promotion Cabinet reporting to the President that will consist of
top leaders from agencies that can contribute to this effort. The President increased the ITA FY 2011 budget by 20 percent to help meet
the goals of the NEI. Those new resources will allow ITA to:

●●   Assist more than 23,000 clients to begin or grow their export sales in 2011;

●●   Increase their presence in emerging high-growth markets like China, India, and Brazil; and

●●   Develop a comprehensive strategy to identify market opportunities in fast-growing sectors like environmental goods and
     services, renewable energy, healthcare, and biotechnology.

In July 2010, Secretary Locke visited the UPS Global Operations Center in Louisville, KY, to highlight opportunities for local Kentucky
businesses to sell their goods and services abroad and support job creation in their community. Locke discussed with local business owners
how the Department can help them grow their businesses and create jobs. Since the President announced the NEI, the Department’s
Advocacy Center has assisted U.S. companies competing for export opportunities, supporting $11.4 billion in exports and an estimated
70,000 jobs. With offices and staff around the globe and throughout the United States, the Department’s Commercial Services has helped
more than 5,000 companies generate $9.8 billion worth of exports. To date, the Department has coordinated 18 trade missions with over
160 companies to 24 countries.

Also in July 2010, Secretary Locke and U.S. Postmaster General John Potter announced the launch of a new initiative between the
Department and the U.S. Postal Service that will help boost U.S. exports. The New Market Exporter Initiative will identify current U.S.
Postal Service customers who are exporting their goods and services abroad, and help expand their reach to additional international
markets. The announcement expands a strategic partnership formed in 2008 between the two entities. The combined strength of
customized consulting from the Department’s Commercial Service officers and the value-based logistics expertise and business solutions
from the U.S. Postal Service provide a simplified roadmap for companies to successfully enter new markets. Through its network of
32,000 post offices and partner posts in 191 countries, the U.S. Postal Service will identify small and medium-sized businesses that
already export; and alert these customers to government sources that can help them find new overseas markets. The Department, with
its network of trade specialists posted in 109 U.S. cities and U.S. embassies and consulates in 77 countries, will serve as a resource to the
companies, connecting them with potential international buyers. The Department and U.S. Postal Service will work with these businesses
to identify key markets, build market entry strategies, and provide the guidance needed to take high-quality products and services from
the United States to markets worldwide—building their businesses, increasing U.S. exports, and supporting new jobs at home.

Small and medium-sized companies interested in expanding into new markets will have access to the free resources and tools available
through a nationwide network of international trade experts and global shipping specialists. Activities to build awareness will include
outreach at trade shows, direct mail campaigns, and online registration for resource support.

In May 2010, Secretary Locke and China’s National Development and Reform Commission Chairman Zhang Ping explored avenues to
expand U.S.-China Clean Energy Ties. Locke and Zhang discussed ways to continue to build a constructive and cooperative relationship
that increases economic growth, trade, and jobs in the United States and China, and explored avenues to expand U.S.-China ties in clean
energy development. After their meeting, the two leaders were joined by a business delegation of 24 U.S. clean energy companies for a
discussion about ways to improve U.S.-China collaboration in areas such as energy efficiency and electric energy storage, transmission,
and distribution. Locke also introduced the business delegation to Vice Chairman Zhang Guobao, the National Energy Administration
Administrator, Vice Minister Ma Xiuhong of the Ministry of Commerce, and Vice Premier Li Keqiang. In his meetings with the Chinese
leaders, the Secretary of Commerce advocated on behalf of U.S. companies that have pending commercial clean energy deals that would
support U.S. exports. One project already underway in Shanghai with the help of a U.S. company is the 128-story, glass-and-steel “green”
Shanghai Tower. Designed by Gensler, a San Francisco architecture firm that specializes in green buildings, the Tower is on course to be
registered for a high level of building certification from the U.S. Green Building Council and the China Green Building Committee.



F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        79
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                        Summary of Performance


The following outcomes apply to this objective with the measures below them providing an indication of how well the Department
is doing in achieving those outcomes.

1.	 Promote private investment and job creation in economically distressed communities (EDA)

2.	 Improve community capacity to achieve and sustain economic growth (EDA)

3.	 Increase access to the marketplace and financing for minority-owned businesses (MBDA)

4.	 Strengthen U.S. competitiveness in domestic and international markets (ITA)

5.	 Broaden and deepen U.S. exporter base (ITA)

   Outcome                          Performance Measure                                   Target              Actual               Status
       1         Private investment leveraged – 9 year totals (in millions)               $2,410              $2,758                  Met

       1         Private investment leveraged – 6 year totals (in millions)                $818               $2,281               Exceeded

       1         Private investment leveraged – 3 year totals (in millions)                $259               $1,544               Exceeded

       1         Jobs created/retained – 9 year totals                                    72,000              66,527                Not Met

       1         Jobs created/retained – 6 year totals                                    22,427              26,695                  Met

       1         Jobs created/retained – 3 year totals                                     6,628               9,159               Exceeded

       2         Percentage of economic development districts (EDD)
                 and Indian tribes implementing economic development
                                                                                           95%                  89%                 Not Met
                 projects from the comprehensive economic development
                 strategy (CEDS) that lead to private investment and jobs
       2         Percentage of sub-state jurisdiction members actively
                 participating in the economic development district (EDD)                 89-93%                87%              Slightly Below
                 program
       2         Percentage of University Center clients taking action as a
                                                                                           75%                  76%                   Met
                 result of the assistance facilitated by the University Center
       2         Percentage of those actions taken by University Center
                                                                                           80%                  90%                   Met
                 clients that achieved the expected results
       2         Percentage of Trade Adjustment Assistance Center
                 (TAAC) clients taking action as a result of the assistance                90%                  82%                 Not Met
                 facilitated by the TAACs
       2         Percentage of those actions taken by Trade Adjustment
                                                                                           95%                 100%                   Met
                 Assistance Center clients that achieved the expected results
       3         Dollar value of contract awards obtained (billions)                       $1.00               $1.50               Exceeded

       3         Dollar value of financial awards obtained (billions)                      $0.60               $1.80               Exceeded

       3         Number of new job opportunities created                                   4,000               5,845               Exceeded

       3         Percent increase in client gross receipts                                 6.0%                6.0%                   Met

       3         Satisfaction rating for the American Customer Satisfaction
                                                                                            N/A                 N/A1                  N/A
                 Index (ACSI)
                                                                                                                                    (continued)




  80                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                              P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




     Outcome                                   Performance Measure                                     Target      Actual         Status
         3            Cumulative economic impact                                                       $16B        $22.7B         Exceeded

         4            Annual cost savings resulting from the adoption of
                      Manufacturing and Services (MAS) recommendations                                 $350M       $647M          Exceeded
                      contained in MAS studies and analysis
         4            Percent of industry-specific trade barriers addressed that
                                                                                                        30%         35%             Met
                      were removed or prevented
         4            Percent of industry-specific trade barrier milestones
                                                                                                        55%         75%           Exceeded
                      completed
         4            Percent of agreement milestones completed                                        100%         100%            Met

         5            Export success firms/active clients (CS overall effectiveness)                   11.0%       29.1%          Exceeded

         5            US&FCS small and medium-sized enterprises (SME) new-
                      to-export (NTE)/total change in SME exporters (CS SME                            12.74%      2.28%           Not Met
                      NTE effectiveness)
         5            Number of SME new-to-market (NTM) firms/number of SME
                                                                                                       3.92%       3.11%           Not Met
                      firms exporting to two to nine markets (NTM effectiveness)
         5            Commercial diplomacy success (cases) (annual)                                     166          112           Not Met

         5            Increase in the percent of small and medium-sized firms
                                                                                                       2.80%       6.42%          Exceeded
                      that export
         5            Percentage of advocacy bids won                                                   17%          9%            Not Met
 1 The ACSI only occurs in odd years, so data does not appear in FY 2010.




FY 2 0 1 0 S t a t u s

EDA met eight of 12 targets in FY 2010. EDA did not meet targets for the following four measures:

●●   Jobs created/retained – 9 year totals

●●   Percentage of economic development districts (EDD) and Indian tribes implementing economic development projects from the
     comprehensive economic development strategy (CEDS) that lead to private investment and jobs

●●   Percentage of sub-state jurisdiction members actively participating in the economic development district (EDD) program

●●   Percentage of Trade Adjustment Assistance Center (TAAC) clients taking action as a result of the assistance facilitated by the
     TAACs

MBDA met all five of its targets—exceeding three.

ITA met or exceeded the targets for six of 10 measures within this objective. ITA did not meet the targets for the following four measures:

●●   US&FCS SME new-to-export (NTE)/total change in SME exporters (CS SME NTE effectiveness)

●●   Number of SME new-to-market (NTM) firms/number of SME firms exporting to two to nine markets (NTM effectiveness)

●●   Commercial diplomacy success (cases) (annual)

●●   Percentage of advocacy bids won



F Y   2 0 1 0    P E R F O R M A N C E           A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          81
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




FY 2 0 1 0 Miss e d T a r g e t s

   Measure     Jobs created/retained – 9 year totals (EDA)
               The low jobs created/retained figure appears to be an anomaly for this year. EDA met the 3-year and 6-year
 Explanation   targets for investments in addition to meeting this year’s private investment target thus indicating that this
               may be outside EDA’s control.
               EDA will conduct a review of investments and apply any lessons learned to its review and approval of
 Action
               future investments.
   Measure     Percentage of economic development districts (EDD) and Indian tribes implementing economic
               development projects from the comprehensive economic development strategy (CEDS) that leads to
               private investment and jobs (EDA)
               This year's results were significantly impacted by six EDDs, each with more than 100 eligible sub-state
 Explanation
               jurisdictions, that reported unusually low numbers of participants this year.
 Action        EDA will work with these EDDs to ensure that they are actively recruiting regional support in future years.
   Measure     Percentage of Trade Adjustment Assistance Center (TAAC) clients taking action as a result of the
               assistance facilitated by the TAACs (EDA)
               This measure reports GPRA data from TAAC awards granted in FY 2008. The data reported is based on a
               two-year look back (e.g., FY 2010 results are based on FY 2008 funding expenditures). The FY 2010 actual
 Explanation   may have been impacted by higher levels of requests for assistance this year, reducing the TAAC's ability
               to assist all clients; however, EDA is very pleased with their ability to satisfactorily complete those projects
               that were initiated.
 Action        No additional action taken.
   Measure     Percentage of sub-state jurisdiction members actively participating in the economic development
               district (EDD) program (EDA)
               The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Explanation
               There was no effect on overall program or activity performance.
 Action        No further action taken.
   Measure     US&FCS SME new-to-export (NTE)/total change in SME exporters (CS SME NTE effectiveness) (ITA)
               US&FCS did not achieve the target for this measure due to a shift in focus from assisting NTE SMEs to
 Explanation   new-to-market firms in support of the President's NEI goals of doubling U.S. exports and supporting two
               million jobs.
               New exporters remain a priority of the U.S. government and US&FCS has been referring these clients to
 Action        the Small Business Administration and other partners so US&FCS can focus its efforts where it can best
               contribute to the NEI goals.
                                                                                                                           (continued)




  82                                         F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




   Measure        Number of SME new-to-market (NTM) firms/number of SME firms exporting to two to nine markets (NTM
                  effectiveness) (ITA)
                  US&FCS did not achieve the target for this measure; however, US&FCS did increase results for the numerator
                  (US&FCS SME NTM Firms) by over five percent from 2009 to 2010. This reflects US&FCS's shift in focus
 Explanation      in early 2010 to support the NEI by helping SME exporters increase their exports and enter new markets.
                  In addition, it should also be noted that the denominator in this metric (Total SME firms exporting to two to
                  nine markets) is from 2007 unrevised census data and is not an accurate comparison to US&FCS results.
                  US&FCS will continue to focus in 2011 on helping more SME exporters increase their exports and enter new
                  markets. The President’s 2011 budget request calls for increased staffing and resources so that US&FCS can
 Action           help more companies, particularly SMEs, find customers in new markets around the globe to support and
                  create U.S. jobs. This effort is ongoing and results are expected to steadily increase as US&FCS supports
                  the NEI.
   Measure        Commercial diplomacy success (cases) (annual) (ITA)
                  US&FCS did not achieve the target for this metric; however, the U.S. export dollar value of commercial
                  diplomacy successes increased by 79 percent from $974 million in FY 2009 to $4.56 billion in FY 2010.
 Explanation      It should also be noted that ITA cannot control the number of cases companies bring to them and must
                  persuade a sovereign foreign government to take an action that benefits a U.S. company or the U.S. national
                  interest in order to declare a success.
                  To support the NEI goals of doubling exports and supporting two million jobs, US&FCS will continue to
 Action           vigorously promote and protect U.S. business interests abroad. The President’s 2011 budget requests calls
                  for increased staffing and resources so that US&FCS can increase its diplomatic presence overseas.
   Measure        Percentage of advocacy bids won (ITA)
                  Since the President’s announcement of the NEI, the Advocacy Center has shifted its focus to increasing the
                  U.S. export dollar value of advocacy bids won. As a result, the dollar value has increased by 208 percent
                  from $6.4 billion in FY 2009 to $19.7 billion in FY 2010. It should also be noted that this metric does not
                  adequately measure the Advocacy Center’s performance since it is beneficial for the Advocacy Center to
 Explanation
                  not only increase the number of bids won (numerator), but also the number of advocacy cases it handles
                  for companies seeking assistance (denominator). In fact, US&FCS achieved 92 percent more advocacy bids
                  won in FY 2010 (50) than in FY 2009 (26) and worked on 418 advocacy cases in FY 2010 or two percent
                  more than FY 2009.
                  Continue to focus on increasing the dollar value of advocacy bids won in order to contribute to the
                  President’s NEI. US&FCS will increase its advocacy outreach, leveraging programs and units across ITA
 Action
                  (e.g., Trade Missions, domestic and international offices) and systematically targeting sectors that currently
                  under-utilize the Advocacy Center’s services.



His t o r i c a l T r e n d s

EDA has consistently met or exceeded its targets for jobs created/retained and private investment generated over a nine year
period. As a general rule they have also consistently met their targets for their improve community capacity goal. Likewise, MBDA
has consistently met their targets over the past 10 years with their targets being stable or rising slightly over the past 10 years.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               83
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                             Strategic Objective 1.2

Advance responsible economic growth and trade while protecting American security




                  P u b li c B e n e f i t s




 S 
       upported by ITA and the Bureau of Industry and Security
       (BIS), this objective focuses on ensuring fair competition
       in international trade, preventing illegal exports, and
advancing U.S. national security and economic interests by
enhancing the efficiency of the export control system.

U.S. industries are entitled to the benefits of trade agreements
negotiated by the United States. They are also entitled to the
aggressive investigation of unfair trade practices that undercut
those agreements. Two program units in ITA, Market Access and
Compliance (MAC) and Import Administration (IA), work to ensure
that U.S. firms receive those benefits and obtain prompt relief
from unfair trade practices. Trade compliance with negotiated
trade agreements and access to foreign markets are existing
problems faced by U.S. businesses that choose to sell their products
overseas.

IA is committed to the vigorous enforcement of U.S. trade laws. IA promotes free and fair trade by administering the U.S. antidumping
(AD) and countervailing duty (CVD) laws in a transparent and impartial manner and by ensuring compliance by foreign governments and
exporters with U.S. statutes and trade agreements dealing with trade remedies and unfair trade practices. AD/CVD laws provide domestic
industries the opportunity to obtain relief from injury caused by imports of foreign products that are sold at less than fair value or that
benefit from foreign government subsidies, giving U.S. businesses and workers the opportunity to compete on a level playing field.

MAC seeks to obtain market access for U.S. firms and workers and to achieve full compliance by foreign nations with trade agreements
they sign with the United States. MAC ensures market access for U.S. businesses; advances the rule of law internationally; and creates a
fair, open, and predictable trading environment. MAC also conducts critical trade policy analysis and negotiation support for the Office



  84                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                     P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




of the U.S. Trade Representative and represents the Department in trade-related dealings with other U.S. government agencies. Based on
customer needs, MAC has a sizable caseload from U.S. firms that have encountered a trade barrier.

President Obama’s NEI directs the government to continue its efforts to remove barriers that prevent U.S. companies from getting open
and fair access to foreign markets—including combating unfair tariff and non-tariff barriers and addressing practices that blatantly harm
U.S. companies. Trade starts with the understanding that it only works in a system of rules where all parties live up to their obligations.
The United States is committed to a rules-based trading system where the American people—and the Congress—can feel confident
that when the Department signs an agreement that gives foreign countries the privilege of free and fair access to the U.S. domestic
market, U.S. businesses are going to be treated the same in their country. The Trade Promotion Coordinating Committee (TPCC) leads
the administration’s trade promotion efforts and will help operationalize the NEI. This interagency group is chaired by the Secretary
of Commerce to establish trade promotion priorities to expand trade and create jobs for Americans. The TPCC provides a platform for
the Secretary of Commerce to advance a government-wide agenda on trade promotion and to directly engage the heads of other TPCC
agencies. The Export Promotion Cabinet will coordinate with the TPCC. ITA helps U.S. companies export their products and services
around the world, utilizing some 1,500 U.S. Commercial Service staff stationed in 77 countries across the globe.

To prevent illegal exports, the Department administers and enforces controls on exports of dual-use goods and technologies to counter
proliferation of weapons of mass destruction (WMD), combat terrorism, and pursue other national security policy goals. The Department
processes export license applications for controlled commodities of U.S. companies engaged in international trade in accordance with
Export Administration Regulations (EAR). The Department engages in activities to prevent violations before they occur and to investigate
and prosecute violators to dismantle illicit proliferation networks. Preventive activities include screening license applications for
enforcement concerns; conducting end-use checks abroad to confirm the bona fides of parties to export transactions, confirm compliance
with license conditions, and uncover diversions to unauthorized end-users/uses; and reviewing Shippers Export Declarations and foreign
visitors’ visa applications to identify potential export control issues. Outreach activities include educating U.S. businesses on export
control requirements and identifying suspicious transactions leading to successful preventative and investigative actions. Investigation
and prosecution activities involve Department Special Agents conducting cases focused on significant proliferation, terrorism, and military
end-use export violations, and the vigorous pursuit of criminal and administrative sanctions.

The Department also works to strengthen the export control systems of other countries, assess the viability of key sectors of the
defense industrial base, and assure the timely availability of industrial resources to meet national defense and emergency preparedness
requirements. Further information on these tasks is available on www.bis.doc.gov/news/index.htm#annual. Finally, the Department also
serves as the lead agency for ensuring U.S. industry compliance with Chemical Weapons Convention (CWC).



Achievements

MAC continued to work toward the prevention and elimination of non-tariff barriers in foreign markets. The long-term goal for the MAC unit
is to “ensure fair competition in international trade.” This goal is reflected in the ITA strategic plan and supports the Department’s objective
to “advance responsible economic growth and trade while protecting American security.” In order to gauge the impact of these strategic
goals, MAC utilizes two primary performance measures, market access and trade compliance cases initiated and cases resolved. In FY 2009,
MAC surpassed both targets which resulted in overcoming billions of dollars of trade barriers for U.S. firms and workers. U.S. firms from
every industry and service sector face myriad barriers to trade and investment such as discriminatory regulatory treatment, unfair customs
or tax treatment, rigged or nontransparent procurement procedures, and violations of trade agreements signed by other countries.

In addition to casework, MAC works to create a global economic environment for U.S. firms to compete. For example, through MAC’s
efforts in the 20th U.S.-China Joint Commission on Commerce and Trade, China agreed to reopen its market to U.S. pork and live
swine, remove local content requirements for foreign participation in China’s wind farm market, and clamp down on Internet piracy.



F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                           85
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




The U.S. and Chinese governments signed nine agreements, including a Memorandum of Understanding establishing the U.S.-China
Energy Cooperation Program, and witnessed two commercial signings. The two governments also agreed to cooperate on initiatives in
the areas of the environment, transparency, global distribution services, and standards.

MAC played an important role in the achievement of deliverables for Prime Minister Singh’s state visit in November 2009. In particular,
MAC facilitated technical exchanges in the biotechnology/life sciences sector under the High Technology Cooperation Group and led the
discussions with the Indian government and private sector to sign a Memorandum of Intent to facilitate investment in the two countries.
Finally, MAC initiated the recruitment and vetting process for U.S. members of the public-private CEO Forum.

MAC hosted the U.S.-Iraq Business and Investment Conference in partnership with the Departments of Defense and State, and the Iraq
Embassy. With over 1,100 participants, the conference was recognized as a significant deliverable for the U.S.-Iraq Strategic Framework
Agreement, and Deputy Secretary Hightower spoke at it. Over 215 business-to-business meetings occurred, with 295 participants
attending government-to-business sessions during the conference. The event evaluations indicated that 78 percent of respondents (an
even mix of U.S. and Iraqi/other firms) expected at least one business deal to take place as a result of the conference.

Enforcement efforts in FY 2010 include the initiation of seven CVD and 10 AD investigations covering a variety of products, including
aluminum extrusions, polyvinyl alcohol, seamless pipe, copper pipe, drill pipe, and coated paper. Among these 17 cases were six CVD
and seven AD investigations involving China. In FY 2010, IA issued 290 preliminary or final AD and CVD determinations in both initial
investigations as well as administrative reviews of existing AD and CVD orders, including the very first CVD determination involving
Vietnam. Partnering with the U.S. Customs and Border Protection (CBP), IA deployed the AD/CVD module within CBP’s Automated
Commercial Environment (ACE). This was a major step toward more efficient and effective AD/CVD duty collection. With the goal of
automating the collection of AD/CVD duties, ACE serves as a repository for AD/CVD case information, provides a platform to better
communicate and implement IA case decisions, and enables stronger enforcement of the AD/CVD programs by CBP. IA’s AD and CVD
Enforcement Teams remained diligent in identifying efforts by foreign companies to provide misleading information or evade the payment
of duties. For example, in several recent trade investigations, documents submitted to IA by foreign exporters proved to be inconsistent
with documents purported to be the same that had been provided to CBP. As a result, IA employed its statutory authority to assign AD
and CVD rates based on adverse inferences. Finally, IA continues to work with other U.S. government agencies including CBP, Immigration
and Customs Enforcement, and the Department of Justice to ensure compliance with, and advance the enforcement of, the U.S. trade
remedy laws.

 IA actively assisted U.S. companies facing potential unfair trade problems arising from other countries’ use of trade remedies and
unfair trade practices. IA’s Petition Counseling and Analysis Unit provides U.S. companies detailed information regarding the legal
requirements for seeking relief under the U.S. trade remedy laws. For example, in FY 2010, the Petition Counseling unit has conducted 31
new counseling sessions with U.S. companies. In addition, IA staff assists U.S. companies whose exports are involved in foreign AD and
CVD investigations. IA staff have worked closely with U.S. companies involved in AD and CVD investigations on U.S. exports of certain
steel products, chicken, and autos during this fiscal year. Submission of the Canadian Softwood Lumber Agreement Report to Congress
highlighted Canadian lumber industries’ subsidies. IA also coordinated the Department’s efforts in the Interagency Working Group on
Import Safety and worked closely with the U.S. Food and Drug Administration and CBP on risk assessment and trade trend analysis to
respond to melamine-tainted dairy products from China.

IA was successful in resolving 100 percent of market access and trade compliance issues experienced by U.S. textile and apparel exporters in
FY 2010. IA continues to administer the highly praised Steel Import Monitoring and Analysis program, providing the industry, government,
and public with early and accurate data on steel imports in this trade-sensitive sector and allowing U.S. steel industry participants the
ability to make proactive and timely decisions. This program is one of the most heavily trafficked Web sites within ITA, receiving, on average,
100,000 hits per week. Foreign-Trade Zones Board staff processed 54 applications. The U.S. Foreign-Trade Zones Program provides certain
customs benefits, which can help improve U.S. facilities’ international competitiveness.



  86                                               F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




In FY 2010, the Department successfully promulgated regulations that adapted export controls to the evolving national security and
economic situation. Noteworthy is a revision to its rules regarding the export of most mass market electronic products that contain
encryption functions and other encryption products.

This revised rule enhances U.S. national security and cuts red tape by eliminating the review of readily available encryption items, like cell
phones and household appliances, and allows the government to focus its resources on more sensitive encryption items. This new rule
ends the U.S. government’s 30-day technical review requirement to export most “mass market” and other types of encryption products.
Mass market electronic products containing encryption include cell phones, laptops, and disk drives. Exporters and manufacturers of the
encryption products may now self-classify the products and then export them without a license if they register online with BIS. BIS also
requires that they submit an annual self-classification report. This rule is expected to decrease technical reviews by approximately 70
percent and semi-annual reporting by up to 85 percent.

The rule also extends the scope of License Exception Encryption authorizations to most encryption technology exports, following a
technical review. In addition, it adds a decontrol note for items that perform “ancillary” cryptography, which covers items such as
games, robotics, business process automation, and other products that contain encryption capabilities but do not have communication,
computing, networking, or information security as a primary function.

This rule is the first step in the President’s effort to fundamentally reform U.S. encryption export controls and the Administration will
continue to review the encryption rules to further enhance national security and ensure the continued competitiveness of U.S. encryption
products.

The Department works with other countries to encourage and support their development of effective export control systems consistent
with obligations under United Nations Security Council Resolution 1540. The Department assists in implementing its international
activities by coordinating and managing BIS participation in the U.S. government’s Export Control and Related Border Security Assistance
(EXBS) program, which provides technical assistance to strengthen the export and transit control systems of nations lacking effective
export control systems. The effectiveness of U.S. export controls is enhanced by strong controls in other nations that export or transship
sensitive goods and technologies. BIS works to improve the participation and compliance of existing members of the multilateral export
control regimes and cooperates with other countries to help them establish effective export control programs.

The Department helps improve the effectiveness of the multilateral export control regimes (Australia Group for chemical and biological
weapons items; Missile Control Regime, Nuclear Suppliers Group, and Wassenaar Arrangement for dual-use technologies and conventional
weapons) by participating in U.S. efforts to update and adapt their control lists to the threats facing the United States.



                                           Summary of Performance


The following outcomes apply to this objective with the measures below them providing an indication of how well the Department
is doing in achieving those outcomes.
1.	 Identify and resolve unfair trade practices (ITA)
2.	 Maintain and strengthen an adaptable and effective U.S. export control and treaty compliance system (BIS)
3.	 Integrate non-U.S. actors to create a more effective global export control and treaty compliance system (BIS)
4.	 Ensure continued U.S. technology leadership in industries that are essential to national security (BIS)




F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         87
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




   Outcome                            Performance Measure                                  Target             Actual               Status
       1          Percent reduction in trade distorting foreign subsidy
                                                                                           >1.5%               1.7%                   Met
                  programs
       1          Percent of AD/CVD determinations issued within
                                                                                            90%                 94%                   Met
                  statutory and/or regulatory deadlines
       1          Percent of ministerial errors in IA’s dumping and subsidy
                                                                                           < 10%               7.9%                Exceeded
                  calculations
       1          Percentage of market access and compliance cases
                                                                                            50%                 58%                   Met
                  resolved successfully
       1          Value of market access and compliance cases resolved
                                                                                           $2.5B              $21.4B               Exceeded
                  successfully
       2          Percent of licenses requiring interagency referral referred
                                                                                            95%                 90%              Slightly Below
                  within 9 days
       2          Median processing time for new regime regulations
                                                                                             3.0                 3.0                  Met
                  (months)
       2          Percent of attendees rating seminars highly                               85%                 94%                   Met

       2          Percent of declarations received from U.S. industry
                  in accordance with CWC regulations (time lines) that
                  are processed, certified, and submitted to the State                     100%                100%                   Met
                  Department in time so the United States can meet its
                  treaty obligations
       2          Number of actions that result in a deterrence or
                  prevention of a violation and cases which result in a                     850                 806              Slightly Below
                  criminal and/or administrative charge
       2          Percent of shipped transactions in compliance with the
                  licensing requirements of the Export Administration                       95%                 98%                   Met
                  Regulations (EAR)
       2          Percentage of post-shipment verifications completed and                 260 PSVs/          256 PSVs/
                                                                                                                                      Met
                  categorized above the “unfavorable” classification                        85%                93%
       3          Number of end-use checks completed                                        850                 708                 Not Met

       4          Percent of industry assessments resulting in BIS
                  determination, within three months of completion, on                     100%                100%                   Met
                  whether to revise export controls



FY 2 0 1 0 S t a t u s

ITA met all of its targets for this objective. BIS met six of nine targets for FY 2010. For two of the targets that BIS missed, the actual
was only slightly below the original target.




  88                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




FY 2 0 1 0 Miss e d T a r g e t s

   Measure        Number of end-use checks completed (BIS)
 Explanation      The FY 2010 target was not met due to personnel shortages due to the previous hiring freeze.
 Action           BIS is now hiring analysts and export control officers.
   Measure        Number of actions that result in a deterrence or prevention of a violation and cases which result in a
                  criminal and/or administrative charge (BIS)
                  The target for FY 2010 was not met due to the continued increase in the number of complex international
                  investigations. These investigations require full-time dedicated manpower and resources. Additionally,
                  during two quarters of the fiscal year, 50 percent of the Office of Export Enforcement field offices were
 Explanation
                  understaffed. For the Office of Antiboycott Compliance, the lower volume of exports to the Middle East
                  generated fewer boycott-related requests to U.S. businesses. As a result, there was a reduced possibility for
                  violations during the quarter.
 Action           No additional action taken at this time.
   Measure        Percent of licenses requiring interagency referral referred within 9 days (BIS)
                  The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                  There was no effect on overall program or activity performance.
 Action           No additional action taken at this time.



His t o r i c a l T r e n d s

BIS has historically met or exceeded nearly all of its targets every year. Targets have remained stable over the 10 year period with
the exception of that for the “Number of actions that result in a deterrence or prevention of a violation and cases which result in
a criminal and/or administrative charge,” the target for which has risen each year since FY 2001.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               89
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                            Strategic Objective 1.3

Advance key economic and demographic data to support effective decision-making of policymakers,
businesses, and the American public




                 P u b li c B e n e f i t s




T
          he Economics and Statistics Administration (ESA),
           composed of the Census Bureau and the Bureau of
           Economic Analysis (BEA), provides decisionmakers with
timely, relevant, and accurate economic and statistical information
related to the U.S. economy and population.

Current and benchmark measures of the U.S. population, economy,
and governments play a vital role in the Nation’s economic well
being. The Census Bureau uses the decennial census to provide the
official population counts for determining the allocation to states of
seats in the U.S. House of Representatives and for determining how
the districts are defined for those seats. The Census Bureau provides
to each state the data necessary to determine Congressional, state,
and local legislative boundaries. The decennial census provides
comprehensive and useful demographic information about all
people living in the United States, Puerto Rico, and the associated
Island Areas. The program also provides data for small geographic
areas and population groups that federal agencies need to implement legally mandated programs. Approximately $400 billion a year is
distributed to state and local governments using formulas that are based on data such as state population and personal income.

The Economic Census provides comprehensive, detailed, and authoritative facts about the structure of the U.S. economy ranging from
the national to the local level. The Economic Census covers nearly 29 million business locations and 84 percent of the Nation’s economic
activity. The Census of Governments is the only source of comprehensive and uniformly classified data on the economic activities of state
and local governments. The Census of Governments covers about 90,000 local governments, 12 percent of the gross domestic product




    90                                           F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




(GDP) and nearly 14 percent of the U.S. workforce. The Demographic Surveys Sample Redesign (DSSR) program designs and selects
samples for the major national household surveys. The Intercensal Demographic Estimates program provides updated estimates of the
U.S. population for the country, states, counties, cities, and townships.

BEA invests in the improvement of the accuracy and relevance of GDP, international trade in goods and services, industry economic
measures, and regional and metropolitan statistics, thereby supplying the economic statistics essential to sound business forecasting
and monetary policy. In these ways, the Department seeks to understand the strength and direction of the economy as well as the
determinants of growth as the Nation shifts to more knowledge-based and skill-based industries.



Achievements

In FY 2010, the Census Bureau completed activities related to updates to street features in the Topologically Integrated Geographic
Encoding and Referencing System (TIGER) database for eligible counties in the United States, Puerto Rico, and the Island Areas.

The 2010 Census program completed the following:

●●   Completed the opening of the remaining local census offices;

●●   Successfully completed the Group Quarters Validation and Group Quarters Advanced Visit operations;

●●   Conducted the 2010 Census (including the Mailout/Mailback, Update Enumerate, Update Leave, Group Quarters Enumeration,
     Military Enumeration, Remote Alaska, Service Based Enumeration, and Enumeration at Transitory Locations operations);

●●   Conducted follow-up operations such as Nonresponse Follow-up, Coverage Follow-up, Vacant Delete Check, and Field
     Verification;

●●   Conducted census operations in Puerto Rico and the Island Areas;

●●   Completed data capture of the previously mentioned operations; and

●●   Began Coverage Measurement field operations.

Key accomplishments of the economic census during FY 2010 included the continued delivery of some 1,600 data releases through the
Web-based American FactFinder dissemination system. The 2007 Economic Census Industry Series was released in November 2009, and
the 2007 Economic Census Geographic Area Series was released in August 2010. The flow of 2007 Economic Census data products will
continue through FY 2011.

During FY 2010, principal activities of the Census of Governments program included the release of the final census of governments
component on local government finance; conducting a comprehensive evaluation of program components and content with data users
and providers; preparing a detailed project plan for all phases of the 2012 Census of Governments; and continuing modernization and re-
engineering efforts of the business processes and corresponding software processing systems used for data entry, collection, processing,
review, and analysis.

The DSSR program released documentation on the results of the final evaluation of the full National Evaluation Sample. Additionally,
documentation on the final recommendation and decision on the acceptability of the Master Address File as the sampling frame was
completed by the end of the fiscal year. This is one of the most crucial decisions for sample redesign as it will move the Census Bureau
to a new universe and away from the four-part universe used since the 1960s.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   91
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




The DSSR program continued to make progress on moving toward using the Master Address File as the sampling frame for the surveys
by devising a frame improvement strategy. This strategy, to continue address listing in limited situations, will meet the survey’s diverse
requirements related to coverage, cost, and flexibility.

The Intercensal Demographic Estimates program met the schedule for the release of the official set of July 2009 population estimates
for the Nation, states, counties, cities, and townships. Also in FY 2010, work continued on improving the estimates of net international
migration. This work was included in the production of the July 2009 estimates series. The Census Bureau continues to work on the plans
for evaluating the postcensal estimates relative to the 2010 Census results. To that end, the Census Bureau has awarded eight contracts
to external experts for work on this evaluation.

In FY 2010, the Census Bureau released nearly 400 economic reports, including 118 principal economic indicators. Responses to censuses
and surveys provide information on retail and wholesale trade and selected service industries, construction activity, quantity and value
of industrial output, capital expenditure, e-commerce sales, foreign trade, and state and local government activities. All targeted current
surveys programs achieved their response rate targets for FY 2010.

During FY 2010, the Census Bureau began the process of expanding the annual and quarterly surveys of service industries. Prior to the
2009 services expansion, the Service Annual Survey (SAS) coverage accounted for 30 percent of GDP and the Quarterly Services Survey
(QSS) coverage comprised 17 percent of GDP. The SAS and the QSS, as fully expanded, will each achieve matching coverage with the
services portion of the economic census (55 percent of GDP) by FY 2011. In FY 2010, the Census Bureau increased the quarterly services
coverage of GDP from 17 percent to 36 percent while, at the same time, the Census Bureau will completely eliminate the annual data
coverage gap with this year’s collection and next year’s publication of the 2009 SAS.

Also in FY 2010, the Quarterly Financial Report program expanded coverage to include the information and professional, scientific, and
technical services (excluding legal services) sector. This is the first expansion to the program in nearly 25 years.

In January 2010, the Census Bureau began releasing the U.S. State Import Data Series. These data will provide states and businesses an
opportunity to track and analyze specific commodities and industries by ultimate destination. With this additional information, better
economic forecasting and improved monitoring of goods imported into the United States will be possible.

For the Survey of Income and Program Participation (SIPP), the Census Bureau achieved a 75 percent response rate, which met the target
level. The Current Population Survey (CPS) also met its target level response rate of at least 90 percent in FY 2010. The CPS also met all
of its data release targets, disseminating 12 data products and five supplement data products during the fiscal year.

The Census Bureau met its targets to achieve at least 90 percent of the planned response rates and dissemination targets for Census
Bureau surveys. Response rates are a measure of the quality of survey data. Dissemination targets are a measure of timeliness of the data.
By meeting these targets, the Census Bureau is providing its users with the high quality and timely data they need to make important
policy decisions that help improve the Nation’s social and economic conditions.

The American Community Survey (ACS), which collects and tabulates long-form data every year throughout the decade, achieved a 97.5
percent weighted response rate, using three modes of data collection (mailout, telephone, and personal interview), exceeding its target
of 92 percent. Core ACS tables were released in the fourth quarter of the fiscal year, thus achieving the target release date of September
30, 2010. In addition, in the first quarter 2010, ACS data were also released for all places with a population of 20,000 and larger.

The Boundary and Annexation Survey (BAS) program achieved a 51 percent response rate. The BAS is used to update information about
the legal boundaries and names of all governmental units in the United States.




  92                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




During FY 2010, BEA embarked upon a number of important data improvement and availability projects, including:

●●   Continued improvement of satellite accounts for health care and for innovation, including continued research into the accuracy
     of price indexes for medical care and the price indexes underlying the innovation accounts;

●●   Work to develop new statistics for quarterly GDP by industry, state, personal consumption expenditures, and industry-level
     production accounts;

●●   Work to restore and improve important county-level statistics that had been previously discontinued in response to resource
     constraints;

●●   Work to develop new estimation models for critical service sector statistics that will allow a quicker and more adaptable
     response to current and future changes in the economy;

●●   Continued focus on IT reliability and security and the continued modernization of BEA’s processing systems to build in efficiencies
     that will save time that can be used for increased statistical analysis;

●●   Developed new Congressional, media, and research Web pages to make BEA’s data products more accessible and easier to
     understand; and

●●   Significantly improved the Frequently Asked Questions section of the Web site, providing a better look and feel and more
     powerful search capabilities.


                                           Summary of Performance


The following outcomes apply to this objective with the measures below them providing an indication of how well the Department
is doing in achieving those outcomes.

1.	 Provide benchmark measures of the U.S. population, economy, and governments (ESA/CENSUS)

2.	 Provide current measures of the U.S. population, economy, and governments (ESA/CENSUS)

3.	 Provide timely, relevant, and accurate economic statistics (ESA/BEA)

     Outcome                        Performance Measure                                Target              Actual            Status
         1         Correct street features in the TIGER (geographic)                  Increase           Increased
                   database (number of counties completed) to more                 TIGER update        TIGER update
                   effectively support Census Bureau censuses and                   submissions         submissions
                   surveys, facilitate the geographic partnerships                electronically by   electronically by     Exceeded
                   between federal, state, local and tribal governments,                10%                 51%
                   and support the E-Government initiative in the
                   President’s Management Agenda
         1         Complete key activities for cyclical census programs             At least 90%        At least 90%
                   on time to support effective decision-making by                  of key prep         of key prep
                   policymakers, businesses, and the public and meet                  activities          activities           Met
                   constitutional and legislative mandates                         completed on        completed on
                                                                                         time                time
                                                                                                                              (continued)




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     93
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




   Outcome                         Performance Measure                               Target                  Actual              Status
       1          Meet or exceed the overall federal score of customer           Meet or exceed          Score was lower
                  satisfaction on the E-Government American Customer             overall federal        in 2 of 4 quarters
                  Satisfaction Index (ACSI) (This measure applies to                 score                                       Not Met
                  the second performance outcome in this objective as
                  well)
       2          Achieve pre-determined collection rates for Census             At least 90% of        Met percentages
                  Bureau censuses and surveys in order to provide                 key censuses
                  statistically reliable data to support effective decision-       and surveys
                  making of policymakers, businesses, and the public               meet/exceed                                    Met
                                                                                    collection
                                                                                  rates/levels of
                                                                                    reliability
       2          Release data products for key Census Bureau                      1) 100% of              1) 100% of
                  programs on time to support effective decision-making             Economic                Economic
                  of policymakers, businesses, and the public                       Indicators              Indicators
                                                                                released on time        released on time
                                                                                 2) At least 90%         2) At least 90%          Met
                                                                                   of other key           of other key
                                                                                   census and              census and
                                                                                   survey data             survey data
                                                                                released on time        released on time
       3          Timeliness: Reliability of delivery of economic data                    55                    61
                                                                                                                                  Met
                  (number of scheduled releases issued on time)
       3          Relevance: Customer satisfaction with quality of                       > 4.0                 4.4
                                                                                                                                  Met
                  products and services (mean rating on a 5-point scale)
       3          Accuracy: Percent of GDP estimates correct                         > 85%                    88%                 Met

       3          Improving GDP and the economic accounts                        Completion of            All strategic
                                                                                 strategic plan         plan milestones           Met
                                                                                   milestones              completed



FY 2 0 1 0 S t a t u s

The Census Bureau met or exceeded four of its five targets in FY 2010. It did not meet the target for “Meet or exceed the overall federal
score of customer satisfaction on the E-Government American Customer Satisfaction Index (ACSI).” BEA met all the targets for its
four measures.




  94                                             F Y   2 0 1 0   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




FY 2 0 1 0 Miss e d T a r g e t s

   Measure        Meet or exceed the overall federal score of customer satisfaction on the E-Government American Cus-
                  tomer Satisfaction Index (ACSI) (CENSUS)
                  Components of the ACSI score includes navigation of site, content, transparency, and future participation.
                  The low score from navigation of 60 percent is having a negative impact on the overall ASCI score, which is
 Explanation      driven by a high rate of first time users. Future participation, which includes trust in information provided
                  by the Census Bureau, recommended use of the Internet site to others, and reoccurring use of the site,
                  realized an average score of 83 percent.
 Action           Efforts are underway to improve the navigation and functionality components of the system.



His t o r i c a l T r e n d s

With the exception of meeting the ACSI score, the Census Bureau has consistently met its targets over the past 10 years. Likewise,
with the exception of one occurrence in FY 2009 when BEA was slightly below the target for a measure, BEA met all of its targets
for its four measures since FY 2001 (a total of 36 targets).




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                             95
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                             Strategic Objective 1.4

Position manufacturers to compete in a global economy




                  P u b li c B e n e f i t s




 T 
             he Nation’s approximately 330,000 manufacturers
             employ more than 11 million people in high-paying jobs.
             U.S. manufacturers represent roughly two-thirds of total
U.S. research and development (R&D) expenditures and account
for almost 60 percent of all U.S. exports. A strong manufacturing
base is critical to the economic strength and stability of the United
States. Increased manufacturing productivity and competitiveness
are essential for the survival of this crucial industrial base.
Manufacturers must focus on improving efficiency, lowering costs,
and implementing a culture of innovation that leads to new product
ideas and opportunities.

Manufacturers, particularly small and mid-sized firms, are facing
new and significant challenges. While efficient shop floor
operations are necessary to survive in today’s economy, this alone is
not enough to succeed in the global marketplace. Technology and
globalization have fundamentally changed many manufacturing
companies and products. The changes have resulted in an era of increased cost pressures, shortened product life cycles, rapidly diffusing
technology, and production chains that involve a network of suppliers.

Success in today’s manufacturing environment requires not only an efficient production system but also developing business strategies
that highlight the unique capabilities of a firm. Manufacturers must master innovative product design, understand the benefits of
adopting environmentally sustainable processes, invest in human and physical capital, leverage a range of financing options, realize
international trade opportunities, and forecast future customer demands.




  96                                               F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




Through the National Institute of Standards and Technology (NIST) Hollings Manufacturing Extension Partnership (MEP) program,
manufacturers have access to a nationwide network of manufacturing experts available to assist in the adoption of new technologies,
developing innovative products, and implementing process innovations to improve their productivity, profitability, and competitiveness.
MEP, in collaboration with partners in all levels of the government, university, community college, and the private sector, is working to
accelerate manufacturing’s ongoing transformation into a more efficient and powerful engine of innovation that drives economic growth
and job creation.

Each year MEP transforms thousands of U. S. manufacturers by working one-on-one to implement the best combination of process
improvements and growth services for each individual company. MEP is focused on providing the services that reduce manufacturer’s
bottom-line expenses, increase efficiencies, and build capacity. While process and quality improvements offer reduced expenses, growth
services provide the tools to improve top-line sales by adopting new technologies and creating new sales, new markets, and new products.
MEP centers serve as trusted advisors to their manufacturing clients offering a suite of services to keep manufacturers competing and
thriving in today’s global marketplace.

Through an annual client survey, the program obtains quantifiable impacts of MEP services on its clients’ bottom line. MEP demonstrates
the impact of its services on increased sales, increased capital investment, and cost savings attributed to MEP assistance.



Achievements

Growing Sustainability Companies and Communities. MEP is partnering in the Economy, Energy, and Environment (E3) Initiative,
a collaborative effort among federal agencies, local utilities, governments, and small and medium-sized manufacturers to support
sustainability and competitiveness in local and regional economies while spurring job growth and innovation. Successful E3 pilot projects
were recently completed in Columbus, OH, and San Antonio, TX, with additional E3 pilot projects underway in Alabama, Michigan, and
West Virginia. Leveraging the resources of MEP, the Small Business Administration, Department of Labor, Department of Energy, and
Environmental Protection Agency, the E3 Initiative provides direct customized assistance to strengthen manufacturers. The process begins
with a comprehensive assessment of a process or facility, focusing on lean manufacturing, energy use, and environmental practices to
identify opportunities for improvement and reduction. With a focus on continuous improvement, the team then works with the company
to identify resources, available financing options, training, and capacity building to support the implementation strategy. A number of
the companies that have participated in the project have implemented 50 percent of the energy saving recommendations and 10 percent
of the recommendations intended to make their operations more efficient and sustainable.

New Product Development. Cookshack, Inc., an Oklahoma manufacturer of commercial and residential smoker ovens, was experiencing
international competition and began looking for avenues for cutting costs and increasing profits. Efforts in lean manufacturing streamlined
its plant, but the company struggled with taking new product ideas to fruition. The company contacted their local MEP, the Oklahoma
Manufacturing Alliance (the Alliance), for assistance. The Alliance worked with Cookshack on an ideation process designed to generate
new, marketable ideas. From the session, 50 new ideas were generated and four emerged worthy of further research. The first idea was a
mobile kitchen. Whereas the company’s traditional products were permanently installed, the mobile kitchen would give cooks a portable
smoker. After seven quick months of production, it was launched and Cookshack anticipates a 20 percent increase in revenue and a
30 percent increase in profits. The company is working on implementation of several other ideas generated from their work with their
local MEP.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      97
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                                                     Summary of Performance


The following outcome applies to this objective with the measures below it providing an indication of how well the Department is
doing in achieving that outcome.

1.	 Increase the productivity, profitability, and competitiveness of manufacturers (NIST)

   Outcome                                     Performance Measure                                                 Target                  Actual                Status
        1             Number of clients served by MEP centers receiving federal                                25,500 from             32,926 from
                      funding                                                                                    FY 2009                 FY 2009                 Exceeded
                                                                                                                 funding                 funding
        1             Increased sales attributed to MEP centers receiving federal                                $2,000M                 $2,085M
                      funding                                                                                 from FY 2009            from FY 2009                  Met
                                                                                                                  funding                funding1
        1             Capital investment attributed to MEP centers receiving                                     $1,000M                 $1,565M
                      federal funding                                                                         from FY 2009            from FY 2009               Exceeded
                                                                                                                  funding                funding1
        1             Cost savings attributed to MEP centers receiving federal                                   $1,000M                 $1,149M
                      funding                                                                                 from FY 2009            from FY 2009                  Met
                                                                                                                  funding                funding1
 NOTE: Performance actuals for this outcome lagged at least six months. Therefore, beginning with the FY 2005 PAR, NIST shifted to a format in which NIST reports actuals
 one year later. This date lag, coupled with the time line for producing the PAR, precludes the reporting of actual FY 2010 data. With the exception of the number of clients,
 the data reported in the current year PAR are an estimate based on three-quarters of actual client reported impacts and one-quarter estimated client impacts.
 1 Estimate.




FY 2 0 1 0 S t a t u s

NIST met or exceeded all of its targets for this objective.



His t o r i c a l T r e n d s

MEP has consistently exceeded its targets. Performance projections are based in part on past programmatic results but also on
the current operating realities of the MEP centers and their manufacturing clients. The projections reflect a realization that any
sort of forecast must be based on current economic and market conditions and also other contributing factors such as state
funding uncertainties. Simply projecting past results into the future in a linear fashion does not take into account these other
considerations. Data from the Federal Reserve Board, the Institute for Supply Management, BLS, and BEA are monitored and
assessed on a regular basis to inform MEP’s performance targets.




  98                                                           F Y   2 0 1 0      P E R F O R M A N C E          A N D      A C C O U N T A B I L I T Y          R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




                            Strategic Goal 1 Program Evaluations

The following program evaluations were conducted on programs related to this strategic goal in FY 2010.

 Bureau         Reviewer                           Name                                 Date                   Web site

 EDA               OIG        Trade Task Group: Trade Adjustment Assistance           8/18/2010   http://www.oig.doc.gov/oig/
                              for Firms (TAAF) Cooperative Agreement                              reports/2010/STL-19882.pdf
 CENSUS            OIG        Review of Leases of Maryland Local Census               7/27/2010   http://www.oig.doc.gov/oig/reports/
                              Offices                                                             correspondence/2010.07.27_IG_to_
                                                                                                  MD_Delegation.pdf
 CENSUS            OIG        Early Observations Indicate that Some                   6/11/2010   http://www.oig.doc.gov/oig/
                              Nonresponse Follow-up Procedures are Not                            reports/2010/OAE-19893-01.pdf
                              Being Followed and Others are Lacking
 CENSUS            OIG        FY 2009 FISMA Assessment of the Field Data             11/20/2009   http://www.oig.doc.gov/oig/
                              Collection Automation System                                        reports/2009/OAE-19728.pdf
 CENSUS            GAO        Census Bureau Continues to Make Progress in            10/21/2009   http://gao.gov/products/GAO-10-140T
                              Mitigating Risks to a Successful Enumeration,
                              but Still Faces Various Challenges
 CENSUS            GAO        Poverty Determination in U.S. Insular Areas            11/10/2009   http://gao.gov/products/GAO-10-240R

 CENSUS            GAO        Census Bureau has Made Progress on Schedule            11/13/2009   http://gao.gov/products/GAO-10-59
                              and Operational Control Tools, but Needs to
                              Prioritize Remaining System Requirements
 CENSUS            GAO        Operational Changes Made for 2010 Position              2/22/2010   http://gao.gov/products/GAO-10-452T
                              the U.S. Census Bureau to More Accurately
                              Classify and Identify Group Quarters
 CENSUS            GAO        Key Enumeration Activities are Moving Forward,          2/23/2010   http://gao.gov/products/GAO-10-430T
                              but Information Technology Systems Remain a
                              Concern
 CENSUS            GAO        Data Collection is Under Way, but Reliability of        3/25/2010   http://gao.gov/products/GAO-10-567T
                              Key Information Technology Systems Remains
                              a Risk
 CENSUS            GAO        Plans for Census Coverage Measurement are                 4/2010    http://gao.gov/products/GAO-10-324
                              on Track, but Additional Steps will Improve Its
                              Usefulness
 CENSUS            GAO        Cooperation with Enumerators is Critical to a           4/30/2010   http://gao.gov/products/GAO-10-665T
                              Successful Headcount




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                    99
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 1




In addition, NIST conducted a study of the MEP program, a summary of the results of which follows.


       Bureau                           National Institute of Standards and Technology (NIST)

 Program               Hollings Manufacturing Extension Partnership (MEP)

 Strategic Objective   Position manufacturers to compete in a global economy

 Name                  MEP Non-Experimental Net Impact Evaluation
                       In the fall of 2008, NIST MEP undertook a study to examine the impact of manufacturing extension services
                       on business establishment productivity. It built on earlier evaluations that matched the Census Bureau data
                       with MEP client datasets to generate treatment and comparison groups for analysis. Underlying differences
 Findings              between clients and non-clients make it difficult to estimate the impact of MEP on client performance.
                       Different methods of correcting for this selection bias produce a different estimate of the impact of MEP
                       on client labor productivity. The statistically significant estimates of the impact of MEP services range from
                       negative six percent to two percent.
                       The results in this report point to the need to conduct further analyses that could provide better estimates
                       of the impact of MEP services. First, examining selected subgroups in more detail could reduce the bias of
                       estimates of MEP impact. Second, this report looked only at the impact of MEP services on labor productivity
 Actions as a Result   (and sales and employment but those are secondary outcomes). Examining the impact of MEP services on
 of Evaluation
                       other measures of productivity and on the establishment survival will improve how and in what ways MEP
                       services make a difference. MEP plans to conduct another study based on these preliminary findings and to
                       use more recent data.




 100                                           F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
P e r f o r m a n c e   S e c t i o n




  S t r at eg i c
  G oa l 2
                                                                                               targets met
                         P ERFORMANCE o u t c o m e                                            or exceeded
Promote innovation, facilitate trade, and ensure public safety and security by strengthening
                                                                                                  5 of 6
the Nation’s measurements and standards infrastructure (NIST)
Promote U.S. competitiveness by directing federal investment and R&D into areas of
critical national need that support, promote, and accelerate high-risk, high-reward research      1 of 1
and innovation in the United States (NIST)
Increase public access to worldwide scientific and technical information through improved
                                                                                                  3 of 3
acquisition and dissemination activities (NTIS)
Optimize patent quality and timeliness (USPTO)                                                    2 of 5
Optimize trademark quality and timeliness (USPTO)                                                 4 of 5
Provide domestic and global leadership to improve intellectual property policy, protection,
                                                                                                  1 of 1
and enforcement worldwide (USPTO)
Ensure that the allocation of radio spectrum provides the greatest benefit to all people
                                                                                                  5 of 5
(NTIA)
Promote the availability, and support new sources, of advanced telecommunications and
                                                                                                  2 of 2
information services (NTIA)
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                                                   S TRATEG I C GOA L 2

Promote U.S. innovation and industrial competitiveness




         P u b li c B e n e f i t s a n d
       Summary of Performance




 T 
           he Department seeks to promote U.S. innovation and
           industrial competitiveness through three primary
           areas: (1) the continued development of advanced
measurement science and encouragement of high-risk, high-
reward research; (2) the further advancement of intellectual
property through the issuance of patents and trademarks; and (3)
the continued advancement of telecommunications standards and
technology.

Through the measurement science research at the National Institute
of Standards and Technology (NIST), the Department provides the
infrastructure that supports a modern technology-based economy,
from the automotive to the biotechnology sector, and from basic
materials and manufacturing to information technology. NIST
provides the critical tools for these efforts through the sale of




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                             103
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




       more than 30,000 units of Standard Reference Materials (SRM) and 6,000 units of Standard Reference Databases annually, as well
       as the conduct of over 15,000 calibration tests each year.

       Intellectual property (IP) is a potent force in, and a fundamental component of, the global economy. The Department strives to
       preserve the Nation’s competitive edge by protecting IP and encouraging technological innovation. In market-driven economic
       systems, innovation provides a catalyst for economic prosperity through the accumulation of scientific knowledge; introduction
       of new products and services; and improvements in the productivity levels of land, labor, and capital resources.

       The Department through the National Telecommunications and Information Administration (NTIA): (1) serves as the principal
       adviser to the President on domestic and international communications and information policy-making; (2) promotes access to
       telecommunications services for all Americans and competition in domestic and international markets; (3) manages all federal
       use of the electromagnetic spectrum and generally promotes efficient use of spectrum; and (4) conducts telecommunications
       technology research, including standards-setting in partnership with business and other federal agencies. Overall performance
       within this goal has been fairly strong, meeting or exceeding targets on average 87 percent of the time from FY 2001 to FY 2010.
       Performance improved from FY 2001 to FY 2010 with 55 percent of targets met or exceeded in FY 2001 to 82 percent met or
       exceeded in FY 2010.




 104                                            F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                                             Strategic Objective 2.1

Advance measurement science and standards that drive technological change




                  P u b li c B e n e f i t s




 T  
              he Nation’s ability to innovate and compete in a global
              economy depends on a robust scientific and technical
              infrastructure, including research, measurement
tools, standards, data, and models. The National Institute of
Standards and Technology (NIST) works with U.S. industry and
other stakeholders to promote U.S. innovation and industrial
competitiveness by advancing measurement science, standards,
and technology in ways that enhance economic security and
improve quality of life. NIST leadership in measurement science
research ensures that U.S. industry and universities will have the
tools they need to remain at the leading edge of innovation and
to secure “first-mover advantage” in bringing new technologies to
market. NIST laboratories develop and disseminate measurement
techniques, reference data, test methods, standards, and other
infrastructural technologies and services required by U.S. industry
to compete in the 21st century.

Over 400 NIST staff members participate in more than 105 standards development organizations each year to facilitate the development
and adoption of documentary standards which promote efficient transactions in the domestic and global marketplace. In particular,
NIST is leading the effort to develop standards for the Smart Grid and for the development of the Healthcare Information Technology
infrastructure. Through the measurement science research at NIST, the Department provides the infrastructure that supports a modern
technology-based economy, from the automotive to the biotechnology sector, and from basic materials and manufacturing to information
technology (IT). NIST provides the critical tools for these efforts through the sale of more than 30,000 units of Standard Reference
Materials (SRM) and 6,000 units of Standard Reference Databases annually, as well as the conduct of over 15,000 calibration tests
each year.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              105
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




NIST also invests in high-risk, innovative projects with the potential to produce transformational results in areas of critical national need.
As established by the America COMPETES Act of 2007, the Technology Innovation Program (TIP) supports, promotes, and accelerates
innovation in the United States by making cost-shared awards for high-risk, high-reward research in areas of critical national need.
These areas need government attention because the magnitude of the problem is large and societal challenges are not being sufficiently
addressed. TIP complements and leverages—but does not duplicate—existing research and development (R&D) efforts by making
targeted investments that are within NIST’s areas of technical competence, but that are not possible by other government agencies or
programs. TIP supports rich teaming through making awards to individual small or medium-sized companies or to joint ventures that
may additionally include universities, non-profit research organizations, national laboratories (other than NIST), or other organizations
that are engaged in high-risk, high-reward R&D. TIP funds projects that have strong potential for advancing the state of the art and
contributing significantly to the U.S. science and technology knowledge base, and that may result in the creation of intellectual property
(IP) vested in a U.S. entity. Awards of up to $3 million total to individual small or medium-sized companies may be made over three years
or less, and awards of up to $9 million total to joint ventures over five years or less.

The long-term nature of TIP-funded projects will result in a three to five-year lag from initial project funding to the generation of four
additional measureable outputs and outcomes. These additional measures will cover the number of publications, patent applications,
projects generating continued R&D, and projects with technologies under adoption. These measures, along with other programmatic
accomplishments, will be used to evaluate TIP’s progress toward its long-term goal of supporting, promoting, and accelerating innovation
in the United States in areas of critical national need.

Likewise, the National Technical Information Service (NTIS) seeks to advance measurement science by bringing scientific and technical
information to U.S. business and industry. NTIS promotes innovation and economic growth for U.S. business by (1) collecting, classifying,
coordinating, integrating, recording, and cataloging scientific and technical information from a variety of sources, foreign and domestic;
(2) disseminating this information to the public; and (3) providing information management services to other federal agencies that
help them interact with and better serve the information needs of their own constituents, and to accomplish this without appropriated
funds.



Achievements

NIST Releases Successor to Venerable Handbook of Math Functions

NIST released the Web-based Digital Library of Mathematical Functions and its printed companion, the NIST Handbook of
Mathematical Functions, the much-anticipated successors to the Agency’s most widely cited publication of all time. The two
works comprise a complete update and expansion of the 1964 Handbook of Mathematical Functions. NIST created them in
response to advances in mathematics and to take advantage of new capabilities made possible by the Internet. NIST designed
the new 36-chapter tome to be the definitive reference work on “special functions,” which are the most important and widely
employed tools in applied mathematics. Special functions appear whenever natural phenomena are studied, engineering problems
are formulated, and computer simulations are performed. With more than 8,000 equations and nearly 500 figures, the Digital
Library of Mathematical Functions has about twice the amount of technical material as the 1964 publication.

Joint Quantum Institute Researchers Create Entangled Photons from Quantum Dots

Physicists at the Joint Quantum Institute, a collaborative organization of NIST and the University of Maryland, developed a
promising new source of entangled photons. Entanglement is the distance-defying link that can form between objects such as
atoms even when they are completely shielded from one another—and is key to exploiting the quantum world to the fullest.




  106                                              F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




The entangled photons come from nanometer-scale bits of semiconductor, called quantum dots, that have been tweaked with
a laser. The institute’s technique may someday enable more compact and convenient sources of entangled photon pairs than
presently available for quantum information applications, such as the distribution of “quantum keys” for encrypting sensitive
messages. Quantum dots could offer advantages as entanglement sources over their conventional crystal counterparts as they are
less bulky and can conveniently produce one pair of entangled photons at a time, instead of in bunches.

New NIST Database on Gas Hydrates to Aid Energy and Climate Research

NIST developed a free, online collection of data on the properties of gas hydrates, naturally occurring crystalline materials that are
a potential energy resource and also may affect Earth’s climate. Vast stores of hydrates exist in subsurface sediments of permafrost
and deep oceans and are considered a major potential energy resource. The U.S. Geological Survey estimates that the total amount
of carbon captured in methane hydrate, worldwide, is at least twice the total amount held in fossil fuels. The flux of hydrates in
the environment may play a role in the global carbon cycle and long-term climate patterns. The new database is meant for use by
climate modelers, researchers studying the potential recovery of hydrates for practical applications and the petroleum industry,
which has long been interested in preventing unprocessed hydrates from infiltrating natural gas pipelines. NIST developed the
database in association with CODATA (the international Committee on Data for Science and Technology). Funding was provided by
the National Energy Technology Laboratory of the U.S. Department of Energy.

NIST Demonstrates Universal Programmable Quantum Processor

Physicists at NIST have demonstrated the first universal programmable quantum information processor able to run any program
allowed by quantum mechanics—the rules governing the submicroscopic world—using two quantum bits (qubits) of information.
The processor could be a module in a future quantum computer, which, if they can be built, have many possible applications such
as breaking today’s most widely used encryption codes, including those that protect electronic financial transactions. The NIST
demonstration marks the first time any research group has moved beyond demonstrating individual tasks for a quantum processor—
as done previously at NIST and elsewhere—to perform programmable processing, combining enough inputs and continuous steps to
run any possible two-qubit program. The Defense Advanced Research Projects Agency, National Security Agency, and Intelligence
Advanced Research Projects Activity, in part, supported the research.

Performance Indicators for Measurement Services and Publications

NIST measurement services, including calibration services, are critical for ensuring product performance and quality, improving
production processes, making marketplace transactions fair and efficient, and leveling the playing field for international trade.
NIST offers more than 500 different types of physical calibrations in areas as diverse as radiance temperature, surface finish
characterization, and electrical impedance. SRMs are the definitive source of measurement traceability in the United States
and are certified in the NIST laboratories for their specific chemical and material properties. Customers use SRMs to achieve
measurement quality and conformance to process requirements that address both national and international needs for commerce
and trade and public safety and health. NIST’s technical publications serve as a major knowledge and technology mechanism
to transfer the results of its research to support the Nation’s technical infrastructure and provide measurements and standards
to those in industry, academia, and other government agencies. Each year, NIST’s technical staff produces an average of 2,000
publications with approximately 50 to 60 percent appearing in prestigious scientific peer-reviewed journals. Citation impact of
NIST-authored publications demonstrates that NIST consistently produces relevant scientific and technical publications. Citation
analysis provides an independent and objective validation of peer review findings as research has shown that high citation
rates—the cumulative number of citations per publication—correlate with peer review judgment in terms of scientific quality and
relevance. NIST also provides online access to over 80 critically evaluated scientific and technical databases to academia, industry,




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                107
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




other government agencies, and the general public. An additional hundreds of millions of annual downloads are associated with
NIST Web-based, time-related services.

Infrastructure Monitoring/Repair and Advanced Materials in Manufacturing

In December 2009, NIST announced TIP’s 20 new projects selected for cost-shared awards in the critical national need areas of
civil infrastructure and manufacturing. Twelve of these awards addressed accelerating advanced materials into manufacturing
processes, and eight of the awards fund efforts to develop advanced sensing technologies to improve the monitoring and repair of
the Nation’s infrastructure. If successful, these 20 awards will generate $146 million in new research during the active life of the
projects (three to five years), $71 million of which would be funded by TIP.

Awarded projects from this competition continue to demonstrate TIP’s commitment to multi-disciplinary approaches and to
encouraging broad teaming arrangements. Thirty-eight recipient organizations are involved in the 20 projects, ranging from
unmanned, hovering aircraft for inspecting bridges to a high-speed sorting system for recycling aerospace metals to nanomaterials
for advanced batteries. These collaborative efforts help the projects toward achieving a transformational impact for infrastructure
monitoring and inspection and advanced manufacturing. Additional details on all TIP competitions are available at http://www.
nist.gov/tip/prev_competitions.cfm.

Landmark Study Shows How Size of Fire Crew Influences Saving Lives and Property

A study coordinated by NIST is the first to quantify the effects of crew sizes and arrival times on lifesaving and firefighting
operations for residential fires, which account for the vast majority of fatal fires. NIST researchers and collaborators from the
scientific, firefighting and public-safety communities conducted more than 60 controlled fire experiments to determine the
relative effects of crew size, the arrival time of the first fire crews, and the “stagger,” or spacing, between the arrivals of successive
waves of fire-fighting apparatus. The research team found that four-person firefighting crews were able to complete 22 essential
firefighting and rescue tasks in a typical residential structure 30 percent faster than two-person crews and 25 percent faster than
three-person crews. The report was funded by the Department of Homeland Security Federal Emergency Management Agency’s
Assistance to Firefighters Grant Program.

NIST Releases Report on Windstorm Damage to Dallas Cowboys Practice Facility

NIST released its final report on the May 2, 2009, collapse during a severe thunderstorm of the fabric-covered, steel frame practice
facility owned by the National Football League’s Dallas Cowboys. The study team found that assumptions and approaches used in
the design of the building resulted in significant differences between the original calculated wind load demands and structural
capacities compared to those derived by NIST. Maximum wind speed gusts at the time of collapse were estimated to be in the
range of 55 to 65 miles per hour—well below the design wind speed of 90 miles per hour as specified in the national standard for
wind loads. NIST recommends that other fabric-covered frame structures be evaluated to ensure adequate performance under
design wind loads. NIST worked with the National Oceanic and Atmospheric Administration’s (NOAA) National Severe Storms
Laboratory to estimate the wind conditions at the time of collapse. NIST is working with various public and private groups toward
implementing changes to practice, standards, and building codes based on the findings from this study.

Promote Increased Access to Federal Science, Technology, and Engineering Information (STEI)

NTIS deployed the National Technical Reports Library (NTRL) in April 2009, a subscription product with direct access to full metadata
and full text documents that can be viewed, printed, and downloaded. In FY 2010, NTRL substantially increased perpetual access




  108                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




to federally funded STEI by increasing access to full text documents three-fold due to increased subscriber usage. In FY 2011, NTIS
plans to launch an improved open access version of NTRL that will substantially increase discovery of prior research, yet maintain
the subscription requirement to the full text documents in order to sustain the NTRL service.

In FY 2010, support of preservation and archival practices for NTRL is currently being improved with a new initiative with the
National Archives and Records Administration (NARA). NTIS and NARA formally agreed to perpetually archive and preserve
electronic STEI content found in NTIS content. For the first time, this agreement established a process that links NTIS technical
document acquisitions to document submissions for NARA, therefore eliminating duplicate processing for Agency customers.

NTIS plans to implement user-driven customer improvements in NTRL release 2.0 during FY 2011. NTIS recently deployed its
next generation 2.0 Web site and is experimenting with the use of social media technology as part of its outreach and education
activities to further the dissemination of STEI. NTIS programs will increase worldwide access to STEI through continuing efforts
to acquire and capture scientific content. NTIS recently initiated new public-private partnerships in order to explore innovative
STEI products and services that will enhance new media offerings. The new public-private partnerships will position NTIS as a
significant participant in federal STEI development.

Facilitate the Dissemination of Federal Science and Information

NTIS facilitates the dissemination of federal science and information by providing information management services to other
federal agencies to help them disseminate federal information to their constituents. In FY 2010, NTIS continued its long association
with the U.S. Department of Agriculture (USDA) team nutrition and supplemental nutrition assistance programs by distributing
over 10 million free brochures, pamphlets, and kits in both English and Spanish to citizens and state agencies. In FY 2010, NTIS
also initiated new information dissemination projects with the Department of Education and the Social Security Administration
(SSA).

In August 2009, senior leadership at the Department of Education turned to NTIS to improve and enhance its education publications
dissemination program through the effective implementation of cost-effective technologies that would enable broader outreach to
constituent groups without cost increases, and preferably with cost savings. NTIS fulfilled these requirements and since November
2009, provided contact center, Web hosting, and publication fulfillment and distribution services for the Department of Education
publications and federal student assistance programs. In FY 2010, NTIS processed over 77,000 orders and shipped 21.1 million
items in support of these programs.

In November, 2009, SSA requested that NTIS support a new initiative to provide alternative modes of communication in its special
notices and other communications to the blind and visually impaired. Prior to working with NTIS, visually impaired claimants
could only receive printed SSA notices by mail with the option to call SSA to have the document read to the claimant. Desiring to
distribute the notices on compact disk (CD) media for computer screen reading and in Braille print for the visually impaired, SSA,
NTIS, and two joint business partners developed the Special Notice Option program. Since April 2010, NTIS shipped nearly 10,000
CDs and Braille documents to sight impaired SSA recipients. In FY 2011, SSA and NTIS will develop new media formats for the
delivery of audio and large print.

Since 2004, NTIS and its e-Learning partners have been working with federal agencies to assist them in implementing and
maintaining their learning management and knowledge management systems and applications. NTIS supports the following
departments: Commerce, Agriculture, Education, Health and Human Services, Justice, Interior, Treasury, and the U.S. Air Force.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              109
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




Provide Web Services Support for Federal Agencies

NTIS continued to host two major Web sites and applications in support of the American Recovery and Reinvestment Act (ARRA)
of 2009. NTIS provided hosting services for the Department’s recovery.commerce.gov Web site that provides public visibility to
the ARRA projects supported by Department ARRA funding. Further, NTIS developed and deployed with a joint venture partner
the Broadband USA round I and II grants application Web site and applications platform at www.broadbandusa.gov. Through
the NTIS grants application platform, USDA’s Rural Utilities Service (RUS) and the National Telecommunications and Information
Administration (NTIA) received and processed applications that resulted in the issuance of $7.2 billion in grants to expand broadband
access to unserved and underserved communities across the United States, increase jobs, spur investments in technology and
infrastructure, and provide long-term economic growth.


                                                       Summary of Performance


The following outcomes apply to this objective with the measures below them providing an indication of how well the Department
is doing in achieving those outcomes.

1.	 Promote innovation, facilitate trade, and ensure public safety and security by strengthening the Nation’s measurements and
    standards infrastructure (NIST)

2.	 Promote U.S. competitiveness by directing federal investment and R&D into areas of critical national need that support,
    promote, and accelerate high-risk, high-reward research and innovation in the United States (NIST)

3.	 Increase public access to worldwide scientific and technical information through improved acquisition and dissemination
    activities (NTIS)

   Outcome                                 Performance Measure                                        Target                  Actual                 Status
         1            Qualitative assessment and review of technical                              Complete annual
                                                                                                                            Completed                   Met
                      quality and merit using peer review                                           peer review
         1            Citation impact of NIST-authored publications                                    >1.1                    >1.11                    Met

         1            Peer-reviewed technical publications produced                                   1,300                    1,243               Slightly Below

         1            Standard Reference Materials (SRM) sold                                         31,000                  31,667                    Met

         1            NIST-maintained datasets downloaded                                           24,500,000              24,956,000                  Met

         1            Number of calibration tests performed                                           15,000                  17,697                    Met

         2            Cumulative number of TIP projects funded                                          25                       29                     Met

         3            Number of updated items available (annual)                                     765,000                 969,473                 Exceeded

         3            Number of information products disseminated
                                                                                                    33,000,000              50,333,206               Exceeded
                      (annual)
         3            Customer satisfaction                                                           95-98%                    98%                     Met
 1	 Actual for this measure lags nine months.   The actual shown here is based on FY 2009 data.




  110                                                           F Y   2 0 1 0      P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




FY 2 0 1 0 S t a t u s

NIST met all but one of its targets in FY 2010, the lone exception being, “Peer-reviewed technical publications produced.” For that
measure, the actual was only slightly below the target, with the program’s performance not being affected by this result. NTIS met or
exceeded all three of its targets.



His t o r i c a l T r e n d s

Both NIST and NTIS have consistently met their targets for this objective.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                111
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                                               Strategic Objective 2.2

Protect intellectual property and improve the patent and trademark system




                   P u b li c B e n e f i t s




 I  
         P contributes to a strong global economy by encouraging
         investment in innovation and fostering entrepreneurial
         spirit. People worldwide benefit from innovations, both
directly on a personal level, and indirectly through economic
growth fueled by innovation. Continual development of a vigorous,
flexible, and efficient IP system thereby achieving this objective
protects individual rights, encourages investment in innovation,
and fosters entrepreneurial spirit.

The Department promotes the IP system through the protection of
inventions or creations via patent, trademark, trade secret, and
copyright laws. Under this system of protection, industry in the United
States has flourished, creating employment opportunities for millions
of Americans.

The issuance of patents provides incentives to invent and invest in new
technology by allowing innovators the opportunity to benefit from
their discoveries. Registration of trademarks assists businesses in protecting their investments and safeguards consumers against confusion
and deception in the marketplace by providing notice of marks in use. Through dissemination of patent and trademark information, the
Department promotes a global understanding of IP protection and facilitates the development and sharing of new technologies worldwide.

It is a legal requirement for patentability to determine whether an invention is new, useful, and non-obvious to someone knowledgeable in
that subject matter. To that end, not only is it important that a patent or trademark be issued in a timely manner, but that it is of high quality.
Patent examinations are subjected to both end-product allowance and in-process reviews that evaluate the quality of the substantive basis for
examiner decisions, applicability of publications found by the examiner, or the quality reviewer; evidence; and clarity of communications with




  112                                                F Y   2 0 1 0   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                      P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




applicants.. Findings produced by these reviews are shared individually with examiners, are collected in a database for ongoing analysis, serve
as the basis for the development of training programs, and are used to strengthen the review process.

In an era of a global economy it is also important that the property rights of inventors be protected not only in the United States, but
internationally as well. The U.S. Patent and Trademark Office (USPTO) plays a leadership role in promoting effective domestic and international
protection and enforcement of intellectual property rights (IPR) by advocating U.S. government IPR policy, working to develop unified standards
for international IPR, providing policy guidance on domestic IPR issues, and fostering innovation. USPTO advises the President and federal
agencies on national and international IPR policy matters and trade-related aspects of IPR, and conducts technical assistance and capacity-
building programs for foreign governments seeking to develop or improve their IPR regulatory and enforcement mechanisms.



Achievements

Despite the continued affects of the economic downturn, the Patent organization successfully launched new and innovative projects to
meet its strategic goals. Many routine programs, such as replacing attritions and funding workload-related contracts, were suspended due
to funding constraints. Yet the Patent organization’s commitment to performance excellence continued by focusing on ways to become
more efficient and effective in its processes, human capital management, policy, and workload balancing.

The Patent organization identified and implemented procedures and policies that supported patent quality and timeliness. Improvements were
made by redesigning systems and procedures so that redundant processes were removed. It has created a streamlined examination process
that improves patent quality and timeliness. It made significant progress toward reducing the backlog and patent pendency, despite continued
funding and hiring challenges. The improvements are reflected in its performance metrics.

Patent quality translates into more certainty and economic value for patent holders. It also means less risk from infringement and claims
challenges. The Patent organization’s goal to improve the quality of patents includes defining quality and the quality metrics. A joint
Quality Task Force between USPTO and the Patent Public Advisory Committee was initiated to enhance the overall patent quality. Two
roundtables were held in May 2010, to gather input on how to improve patent quality and how to define metrics to measure progress. That
patent quality improvements focus, inter alia, on improving the process for examination of the application, including uncovering the best
prior art.

USPTO tracks its quality with two measures; final rejection/allowance compliance rate and the non-final in-process compliance rate.
The patent final rejection/allowance compliance rate gives the percentage of utility, plant, reissue, and design (UPRD) allowances and
final rejections reviewed that were found to be compliant, without error, with applicable rules and laws regarding final patentability
determination. They are based on a random sample of allowances and final rejections reviewed during the reporting period. An error is
defined as at least one claim within a randomly selected allowed application that would be held invalid in a court of law if the application
were to issue without the required correction. An error in an allowance is defined as at least one claim allowed that would be held invalid
by a court of law if the application were to issue without the required correction. An error in a final rejection is defined as the unreasonable
rejection of at least one claim. In FY 2010, efforts to improve quality resulted in an allowance compliance rate of 94.9 percent, slightly better
than the target of 94.5 percent. The non-final in-process examination compliance rate is the percentage of UPRD office actions (prior to
allowance or final rejection) that were found to be free of any unreasonable rejections, objections, or requirements. They are based on a
sample of actions reviewed during the reporting period. At 96.3 percent non-final in-process examination compliance, USPTO met its goal
of 94.0 percent.




F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                           113
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




The pendency time to process a patent application, is measured in two ways: (1) first action pendency—the average time in months from
filing until an examiner’s initial determination is made of the patentability of an invention, and (2) total pendency—the average time in
months from filing until the application issues as a patent, or is abandoned by the applicant. Patents ended the year at 25.7 months for first
action pendency and 35.3 months for total pendency.

Over the last five years, the Trademark organization has met nearly all its performance targets as it continues to reap the benefits of its
significant investments in human capital and in automation and process re-engineering. The examination quality of office actions in the
Trademark organization has met and exceeded goals, ranging above 95 percent accuracy in recent years. About 97 percent of all first
actions and final decisions (approvals and rejections) met statutory and compliance rates for quality of decision-making and writing. To
sustain these high quality levels, the Trademark organization continues to emphasize and improve training, promote electronic filing and
processing, and make greater use of online tools and enhanced processes.

Trademark pendency has improved as electronic processing and filing have become the primary means of conducting business within the
Trademark organization. Increased use of electronic forms, particularly Trademark Electronic Application System (TEAS) Plus filings, which
represent more than 33 percent of new application filings and more than 31 percent of first action approvals, has improved the efficiency
and timeliness of examination.

The two primary measures used to determine trademark application processing time are: (1) first action pendency, which measures the
average time, in months, from the filing date to when the examiner’s first action is taken; and (2) average total pendency, which is based
on the average time, in months, from the filing date until the notice of abandonment, notice of allowance, or registration for applications
based on use excluding cases that were previously suspended or were involved in inter partes proceedings at the Trademark Trial and Appeal
Board. USPTO met its FY 2010 target of 2.5-3.5 by achieving a first action pendency of 3.0 months. Trademark average total pendency
results were 10.5 months. USPTO met its FY 2010 target of 13.0 months.

To maintain first action pendency at 2.5 to 3.5 months and final pendency at 13 months, the Trademark organization managed to dynamically
align examination capacity with incoming workloads by maintaining appropriate staffing levels, sustaining high productivity, and judiciously
adjusting production incentives and overtime usage to boost production when needed.

By law, the USPTO Director serves as policy advisor to the President (via the Secretary of Commerce) on IP matters. Given the demonstrated
importance of high-quality IP to innovation and competitiveness, USPTO is a key component of the Administration’s strategy to encourage
U.S. innovation and global competitiveness.

The Administration’s “Strategy for American Innovation” whitepaper, published in September 2009, demonstrated a strong commitment
to retaining U.S. innovation leadership. This whitepaper noted that the importance of high-quality, timely patents to innovation created
an urgent need for full funding of USPTO. The paper did not, however, elaborate fully on the critical role of IP in fostering innovation.
As this strategy for U.S. innovation continues to evolve, USPTO will lead in ensuring that the Administration’s innovation strategy (and
related projects) encompasses a comprehensive national IP strategy. The national IP strategy will ensure that policy developments and
implementation take place in a coordinated manner within a national framework in order to allow all national stakeholders to work together
to create, own, and exploit research results, innovations, new technologies, and works of creativity.

To effectively develop this strategy, USPTO established the Office of the Chief Economist in March 2010. The Chief Economist is responsible
for advising the Under Secretary and the Administrator for External Affairs on the economic implications of policies and programs affecting
the U.S. IP system. He initiates and oversees groundbreaking economic analysis in the field on the topics of IP protection and enforcement.
The Chief Economist will lead the development of the national IP strategy, which will reflect the growing body of research demonstrating
the importance of high-quality IP to innovation.




  114                                              F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




Throughout FY 2010, USPTO continued to seek enhanced cooperation and improved protection for IP multilaterally in several fora including
the World Intellectual Property Organization (WIPO), the World Trade Organization (WTO) and several additional intergovernmental
organizations

USPTO consistently promoted the adoption of improvements to the WIPO filing and registration systems in 2010 for patents (Patent
Cooperation Treaty system), trademarks (Madrid system), and designs (Hague system), which continue to provide critical benefits and services
to U.S. businesses that rely on the international protection of their IP. In addition, the United States supported continued implementation
of WIPO’s “development agenda,” a set of recommendations and concrete projects aimed at enhancing WIPO’s focus on development goals.
In the trilateral context, USPTO played a leadership role in promoting adoption of mechanisms for reducing inefficiency in global search and
examination, such as the Common Citation Document and the Common Application Format.

USPTO also actively participated with the Office of the U.S. Trade Representative (USTR) in ongoing IP discussions in the WTO, with the
objective of maintaining the integrity of the Agreement on Trade-Related Aspects of Intellectual Property Rights (TRIPS). USPTO worked
closely with USTR during the WTO accession process of several countries during FY 2010.


                                           Summary of Performance


The following outcomes apply to this objective with the measures below them providing an indication of how well the Department
is doing in achieving those outcomes.

1.	 Optimize patent quality and timeliness (USPTO)

2.	 Optimize trademark quality and timeliness (USPTO)

3.	 Provide domestic and global leadership to improve intellectual property policy, protection, and enforcement worldwide (USPTO)

   Outcome                        Performance Measure                                Target                 Actual              Status
        1          Final rejection/allowance compliance rate                         94.5%                   96.3%                 Met

        1          Non-final in-process examination compliance rate                  94.0%                   94.9%                 Met

        1          Patent average first action pendency (months)                      25.4                    25.7            Slightly Below

        1          Patent average total pendency (months)                             34.8                    35.3            Slightly Below

        1          Patent applications filed electronically                          90.0%                   89.5%            Slightly Below

        2          Trademark first action compliance rate                            95.5%                   96.6%                 Met

        2          Trademark final compliance rate                                   97.0%                   96.8%            Slightly Below

        2          Trademark first action pendency (months)                          2.5-3.5                   3.0                 Met

        2          Trademark average total pendency excluding
                                                                                      13.0                    10.5                 Met
                   suspended and inter partes proceedings (months)
        2          Trademark applications processed electronically                   65.0%                   68.1%                 Met
                                                                                                                                 (continued)




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         115
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




     Outcome                       Performance Measure                             Target                 Actual               Status
         3          Percentage of prioritized countries that have
                    implemented at least 75% of action steps in the
                    country-specific action plans toward progress along
                    following dimensions:
                    1. Institutional improvements of IP office
                    administration for advancing IPR                                50%                     75%                Exceeded
                    2. Institutional improvements of IP enforcement
                    entities
                    3. Improvements in IP laws and regulations
                    4. Establishment of government-to-government
                    cooperative mechanisms



FY 2 0 1 0 S t a t u s

USPTO met seven of its 11 targets in FY 2010. USPTO was slightly below the targets for the following three patent measures and one
trademark measure, though the performance goal was set at an approximate target level, and the deviation from that level is slight. There
was no effect on overall program or activity performance. USPTO continues to work to improve patent and trademark pendency.

●●   Patent average first action pendency

●●   Patent average total pendency

●●   Patent applications filed electronically

●●   Trademark final compliance rate



FY 2 0 1 0 Miss e d T a r g e t s

     Measures      • Patent average first action pendency
                   • Patent average total pendency
                   • Patent applications filed electronically
                   The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Explanation
                   There was no effect on overall program or activity performance.
 Action            No additional action taken at this time.
     Measure       Trademark final compliance rate
                   First Action quality was 96.6 percent meeting the target of 95.5 percent. The quality of final decisions
                   (approvals and rejections) was 96.8 percent as measured by statutory and compliance rates for quality
 Explanation
                   of decision-making and writing, within the target range of 97 percent considering the margin of error
                   (+/- 0.6%).
                   To sustain these high quality levels, the trademark organization continues to emphasize and improve
 Action            training, to promote electronic filing and processing, and to make greater use of online tools and enhanced
                   processes.




  116                                            F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                      P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                                                                    Strategic Objective 2.3

Advance global e-commerce as well as telecommunications and information services
                                          S T R AT E G I C O B J E C T I V E 2 . 3 TOTA L R E S O U R C E S
                                        S T R AT E G I C O B J E C T I V E 2 . 3 TOTA L R E S O U R C E S
                                              Fiscal Dollars                                                                                      FTE1 Resources
                                            Fiscal
                                            (DollarsDollars
                                                     in Millions)                                                                                FTE1 Resources
                                         (Dollars in Millions)
                                                                                           $4,421.8                                                                                                       298
                                                                                         $4,421.8                                                 269      259                        268       262       298
                                                                                                                                    244    251                         248     243
                                                                                                                       219                       269      259                        268        262
                                                                                                                                   244    251                         248     243
                                                                                                                     219
                                                                $1,148.2          $1,161.2
                                                             $1,148.2          $1,161.2
                     $96.2             $84.4             $70.9           $1,012.4
                  $96.2             $84.4             $70.9           $1,012.4
             $117.5           $97.6             $69.9
         $117.5            $97.6             $69.9
            2001 2002 2003 2004 2005 2006 2007 2008 2009 2010         1
                                                                                                                     2001 2002 2003 2004 2005 2006 2007                              2008   2009          2010
         2001 2002 2003 2004 2005 2006 20071 2008 2009 2010                                                         2001 2002 2003 2004 2005
                                                Fiscal Year                                                                              Fiscal2006
                                                                                                                                                Year 2007                            2008   2009          2010
                                             Fiscal Year                                                                                                  Fiscal Year
        1
          Funding increased dramatically in FY 2007 due to the digital television program and the               1
                                                                                                                 FTE—Full-Time Equivalent
     1  Broadband
     Funding         program
              increased      in FY 2010.
                         dramatically in FY 2007 due to the digital television program and the             1
                                                                                                               FTE—Full-Time Equivalent
     Broadband program in FY 2010.




                           P u b li c B e n e f i t s                                                                         S T R AT E G I C O B J E C T I V E 2 . 3
                                                                                                                             S TPREAT
                                                                                                                                    R FEOGRIM
                                                                                                                                            C AONBCJ EE CRTEISVUELT2 S. 3
                                                                                                                               P E R F O R M A N C E R E S U LT S


 I  
         n this era of technological expansion two areas where the
         Department provides significant benefits to the American
                                                                                                                         Results




         public involve the radio frequency spectrum and broad-
                                                                                                                        Results




band technology. The National Telecommunications and Informa-
                                                                                                                   Number ofof




tion Administration (NTIA) plays a major role in radio frequency
                                                                                                                  Number
                                                                                                                Reported




spectrum management and telecommunications standards, and
                                                                                                               Reported




as an advisor to the President on communications policy matters;
Internet domain names, wireless telecommunications standards,
and technology; and high-speed Internet services. NTIA continues
                                                                                                                                           2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
to further the technological advances for wireless communication,                                                                         2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
                                                                                                                     Exceeded                             1       2       1     2    3      2         2      6
Internet services, domain name management issues, and other                                                         Exceeded                             1       2       1     2     3      2         2      6
                                                                                                                     Met               1             1    8       7       4     4    4      5         5      1
advances in technology, particularly through the following areas:                                                   Met              1           1       8       7       4     4     4      5         5      1
                                                                                                                      Slightly Below
                                                                                                                    Slightly Below
                                                                                                                      Improved
●●   Serving as the principal adviser to the President on domestic                                                  Improved
                                                                                                                      Not Met          1             1    2
     and international communications and information policy-                                                       Not Met          1           1       2

     making;                                                                                                          See Appendix A: Performance and Resource Tables for individual reported results.
                                                                                                                     See Appendix A: Performance and Resource Tables for individual reported results.


●●   Promoting access to telecommunications services for all Americans and competition in domestic and international markets;

●●   Managing all federal use of the electromagnetic spectrum and generally promoting efficient use of spectrum; and

●●   Conducting telecommunications technology research, including standards-setting in partnership with business and
     other federal agencies.




F Y   2 0 1 0          P E R F O R M A N C E                A N D       A C C O U N T A B I L I T Y                    R E P O R T
                                                                                                                                                                                                                117
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




The Agency’s expertise encompasses every aspect of telecommunications, including domestic policy, international policy, spectrum
management, and technical telecommunications research and engineering.

NTIA’s responsibilities have increased considerably in this expansion of technology with the enactment of the American Recovery and
Reinvestment Act (ARRA) of 2009. NTIA and the U.S. Department of Agriculture’s (USDA) Rural Utilities Service (RUS) are administering a
$7 billion initiative to expand broadband access and adoption. Specifically, NTIA is utilizing approximately $4 billion of that funding for
grants through the Broadband Technology Opportunities Program (BTOP). BTOP projects will extend broadband access to unserved and
underserved areas of the country and to vulnerable populations, including minorities, low income residents, the aged, the unemployed,
and people with disabilities.

Specifically, these projects will deploy broadband infrastructure, enhance capacity at public computing centers, and support projects to
encourage non-users to subscribe to broadband services. The objectives of BTOP include:

●●   Broadband access in unserved and underserved areas;

●●   Broadband education, awareness, training, access, equipment, and support;

●●   Broadband access and use by public safety agencies; and

●●   Stimulate broadband demand, economic growth, and job creation.

NTIA also leads Department activities in the areas of next-generation Internet Protocols, ultrawideband technology, wireless broadband
applications, wireless sensor technologies, and Internet technical functions. Congress also directed NTIA to use ARRA funding to develop
a national broadband map. This unprecedented national broadband map will be available to the public no later than February 2011. It
will educate consumers and businesses about broadband availability, enable broadband providers and investors to make better-informed
decisions regarding the use of their private capital, and allow federal, state, and local policymakers to make more data-driven decisions
on behalf of their constituents.



Achievements

NTIA utilized approximately $4 billion of ARRA funding for BTOP, which provides grants to support the deployment of broadband
infrastructure, enhance and expand public computer centers, and encourage sustainable adoption of broadband service. The 233
BTOP projects will:

●●    Fund the installation or upgrade of approximately 120,000 miles of broadband networks, including fiber optics, wireless,
      microwave, and other technologies. Of this amount, approximately 70,000 miles involve construction of new broadband
      facilities.
●●    Provide broadband access to approximately 24,000 community anchor institutions, including schools, libraries, government
      offices, health care facilities, and public safety entities.
●●    Deploy middle mile infrastructure in areas with nearly 40 million households and four million businesses, many of which
      will benefit from new or improved broadband service provided by last-mile providers that are able to utilize the new, open
      infrastructure to extend or upgrade their service for consumer and business customers.
●●    Invest in more than 3,500 new or upgraded public computer centers in libraries, schools, community centers, and other public
      locations.




  118                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




●●   Invest in more than 35,000 new or upgraded public computer workstations.

●●   Make public computer center workstations and training available to more than one million new users.

These anticipated benefits will be realized over the life of each project, which must be substantially complete within two years and
fully complete within three years.

NTIA’s State Broadband Data and Development grant program implements the joint purposes of ARRA and the Broadband Data
Improvement Act (BDIA), which envisioned a comprehensive program to integrate broadband and information technology into state
and local economies. ARRA provided up to $350 million for implementation of the BDIA and to develop and maintain the national
broadband map. NTIA has awarded a total of $293 million in grants among all 56 eligible entities.

As part of BTOP-related initiatives, NTIA and USDA’s RUS launched BroadbandMatch, a new online tool to facilitate partnerships
among prospective applicants to the agencies’ broadband grant and loan programs. BroadbandMatch allows potential applicants to
find partners for broadband projects, helping them to combine expertise and create stronger proposals.

A primary focus of NTIA’s activities is on spectrum reform. Specifically, NTIA examined spectrum sharing approaches to identify the
techniques that can provide the most efficient and effective sharing of the radio spectrum through the use of intelligent radios.
This research will aid NTIA, the Federal Communications Commission (FCC), the telecommunications industry, and other government
agencies in the design of dynamic spectrum access schemes for cognitive radio under different communication requirements.
In addition, NTIA supported the Administration’s efforts to foster new wireless broadband technologies by making new spectrum
available. NTIA is collaborating with FCC to develop a plan to make available 500 MHz of spectrum suitable for both mobile and
fixed wireless broadband use over the next 10 years. The plan focuses on making spectrum available for exclusive use by commercial
broadband providers or technologies, or for dynamic, shared access by commercial and government users.

NTIA oversees federal departments and agencies in their work to relocate systems from the 1710-1755 MHz band under the
mechanism established through the Commercial Spectrum Enhancement Act. This mechanism provides a means to accommodate the
next generation of wireless services. NTIA has facilitated the transition through promoting dialog between the federal agencies and
the commercial license winners. The relocation effort is moving forward rapidly and commercial users have been able to enter many
markets earlier than expected. NTIA will continue to explore opportunities for efficiencies and sharing that will enable spectrum to
meet future demand. NTIA will also continue to pursue foreign policies that allow U.S. companies to supply broadband services and
equipment in competitive markets around the world. Finally, NTIA will continue to partner with industry in cooperative research and
development agreements and other fora to combine talents for the advancement of new technologies.

NTIA also coordinated the activities of the Department’s Spectrum Management Advisory Committee, which met three times in
FY 2010. This committee is comprised of a broad range of stakeholders, including representatives from state, regional, and local
sectors; industry; academia; and consumer groups.

NTIA hosted the 11th annual International Symposium on Advanced Radio Technologies from July 27-30, 2010 in Boulder, CO.
The focus of this year’s conference was spectrum sharing technologies, including state-of-the-art technology developments and a
dialogue on the policy implications of spectrum sharing. The conference is presented by the Institute for Telecommunication Sciences
(ITS), the research and engineering laboratory of NTIA. ITS also released a collection of online training and educational videos for
public viewing. These videos cover telecommunications topics ranging from an easily understandable review of the fundamentals
of radio spectrum (e.g., defining decibels using common logarithms) to in-depth explanations of complex engineering issues like
resolving signal-interference problems.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              119
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




The FCC Chairman and NTIA Administrator met to discuss their agencies’ complementary roles with respect to commercial and
federal spectrum. Federal law directs the agency heads to meet biannually to conduct joint spectrum planning.

Secretary Locke announced the formation of an Internet policy task force to identify leading public policy and operational challenges
in the Internet environment. NTIA is actively involved in the task force, along with participants from the Secretary’s office and other
Departmental bureaus, including the International Trade Administration (ITA), the National Institute of Standards and Technology
(NIST), the U.S. Patent and Trademark Office (USPTO), and the Bureau of Industry and Security (BIS). The task force is conducting a
comprehensive review of the nexus between privacy policy, copyright, global free flow of information, cybersecurity, and innovation
in the Internet economy. The task force held three public symposiums and has published four Notices of Inquiry seeking public
comment on these various aspects of Internet policy.

NTIA and NIST announced completion of an initiative with the Internet Corporation for Assigned Names and Numbers (ICANN) and
VeriSign to fully deploy Domain Name System Security Extensions (DNSSEC) at the Internet’s authoritative root zone, which will help
protect Internet users against cache poisoning and other related cyber attacks.

NTIA also conducted an Internet Protocol Version Six (IPv6) workshop on the impact of the adoption and deployment of IPv6
addresses for industry, the U.S. government, and the Internet economy.

NTIA released a new report, “DIGITAL NATION: 21st Century America’s Progress Towards Universal Broadband Internet Access,”
taking a first look at data collected through the Internet Usage Survey of more than 50,000 households, commissioned by NTIA
and conducted by the Census Bureau in October 2009. Since 2007, the data show that while virtually all demographic groups have
experienced rising broadband Internet access adoption at home, historic disparities among particular demographic groups overall
continue to persist.

NTIA coordinated the activities of the Online Safety and Technology Working Group (OSTWG) pursuant to Section 214 of the Protecting
Children in the 21st Century Act. OSTWG was composed of representatives of relevant sectors of the business community, public
interest groups, and other appropriate groups and federal agencies. The members were selected for their expertise and experience in
online safety issues, as well as their ability to represent the views of the various industry stakeholders. OSTWG published its report,
“Youth Safety on a Living Internet” after a series of public meetings.

NTIA awarded $20.45 million in funding via 126 grants from the Public Telecommunications Facilities Program to assist public
radio, public television and nonbroadcast (distance learning) projects across the country. NTIA awarded $10 million (of the $20.45
million) to 72 grantees to replace urgently needed equipment at public radio and television stations. Thirty-one projects will provide
first public radio service to over 500,000 people and provide additional service to almost 1.7 million people. NTIA also awarded
$4.1 million to assist in the digital conversion of 16 public television and three public radio stations. Among the 126 awards, NTIA
gave one grant to the University of Hawaii for $499,916 for the PEACESAT (Pan-Pacific Educational and Cultural Experiments by
Satellite) Program.

NTIA has improved the timeliness of processing frequency assignment requests from a target of 12 business days to nine days or
fewer. This has been accomplished through business process re-engineering and IT improvements. These frequency assignments
satisfy the near-term and future spectrum requirements of the 63 federal agencies to operate radiocommunications that provide the
public with national and homeland security, law enforcement, transportation control, natural resource management, and other public
safety services during peacetime and emergencies.




 120                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                                          Summary of Performance


The following outcomes apply to this objective with the measures below them providing an indication of how well the Department
is doing in achieving those outcomes.

1.	 Ensure that the allocation of radio spectrum provides the greatest benefit to all people (NTIA)

2.	 Promote the availability, and support new sources, of advanced telecommunications and information services (NTIA)

   Outcome                        Performance Measure                                Target               Actual             Status
        1          Frequency assignment processing time (days)                     9 or fewer                9                 Met

        1          Certification request processing time (months)                  2 or fewer                .9              Exceeded

        1          Space system coordination request processing                 90% in 14 days
                                                                                                           100%              Exceeded
                   time                                                            or fewer
        1          Spectrum plans and policies processing time                 Comments in 15
                                                                                                         11.6 days           Exceeded
                                                                                days or fewer
        1          Milestones completed from the implementation
                                                                                 11 milestones         16 milestones         Exceeded
                   plan of the President’s Spectrum Policy Initiative
        2          Support new telecom and information technology
                   by advocating Administration views in number of               5 dockets and        17 dockets and
                                                                                                                             Exceeded
                   FCC docket filings, and Congressional and other                proceedings          proceedings
                   proceedings
        2          Number of Web site views for research
                                                                               240,000/quarter        928,000/quarter        Exceeded
                   publications



FY 2 0 1 0 S t a t u s

In FY 2010, NTIA exceeded six of its seven targets and met the remaining target. NTIA has consistently met or exceeded its targets dating
back to FY 2006 (for several measures, data was unavailable prior to FY 2006).




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     121
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




                          Strategic Goal 2 Program Evaluations


The following program evaluations were conducted on programs related to this strategic goal in FY 2010.

 Bureau       Reviewer                         Name                              Date                       Web site

 NTIA        GAO            Current Broadband Measures have Limitations,       10/9/2009       http://gao.gov/products/GAO-10-49
                            and New Measures are Promising but Need
                            Improvement
 NTIA        GAO            Preliminary Observations on the                   10/27/2009       http://gao.gov/products/GAO-10-192T
                            Implementation of Broadband Programs
 NTIA        GAO            Agencies are Addressing Broadband Program          11/16/2009      http://gao.gov/products/GAO-10-80
                            Challenges, but Actions are Needed to Improve
                            Implementation
 NTIA        GAO            Further Opportunities Exist to Strengthen           8/4/2010       http://gao.gov/products/GAO-10-423
                            Oversight of Broadband Stimulus Programs
 NTIA        OIG            NTIA Must Continue to Improve its Program            4/2010        http://www.oig.doc.gov/oig/
                            Management and Pre-Award Process for its                           reports/2010/ARR-19842-1.pdf
                            Broadband Grants Program: ARR-19842-1




 122                                           F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




In addition, in FY 2010, the National Research Council (NRC) conducted its annual assessments of selected NIST laboratories, a
summary of the results of which follows.

       Bureau                              National Institute of Standards and Technology (NIST)

 Program                  National Measurement and Standards Laboratories

 Strategic Objective      Advance measurement science and standards that drive technological change

 Name                     National Research Council (NRC) FY 2010 Assessments
                          Overall, the 2010 NRC assessments continue to attest to NIST’s high quality programs, relevance of work to the
                          measurement and standards needs, and impressive technical merit, as illustrated by the following quotes:

                          ●● Building and Fire Research Laboratory (BFRL) – “Overall, the technical merit of the programs within the BFRL
                             is excellent and at the state of the art, although progress is sometimes hampered by factors beyond NIST
                             control … The BFRL is conducting groundbreaking research in critical areas.”

                          ●● Manufacturing Engineering Laboratory (MEL) – “MEL continues to excel in measurement science, measurement
                             services, and technical contributions to standards. … Research by MEL staff is on the forefront of measurement
                             sciences, enabling industry to develop and deliver products of ever-higher quality and complexity to world
                             markets and enabling future innovative manufacturing industries and processes.”

                          ●● Materials Science and Engineering Laboratory (MSEL) – “… for the selected portion of the MSEL programs
                             reviewed, the projects are outstanding. They are clearly focused on the mission of the MSEL and have
                             produced results that have garnered recognition through awards and frequent citations in the literature
 Findings                    as well as from strong support by industry and the worldwide research community for standard reference
                             materials (SRMs) and standard reference data.”

                          ●● NIST Center for Neutron Research (NCNR) – “Through its suite of instruments—among the best in the
                             world—for neutron scattering and fundamental neutron science, coupled with a strong staff of scientists
                             and technicians who lead their own research programs and support those of hundreds of users both within
                             and outside of NIST each year, the NCNR has a firm place in advancing the NIST mission. … On the national
                             neutron landscape of today and in the near future, the NCNR is the leading U.S. facility.”

                          ●● Physics Laboratory (PL) – “The Physics Laboratory has had two decades or more of outstanding research
                             accomplishments because of a group of dedicated, exceptional scientists and technical staff responding
                             to the needs of NIST, the Nation, and the world, along with an administration that fostered a collegial and
                             intellectual climate conducive to such productivity. During this same period, the laboratory has maintained
                             its exceptional leadership role in metrology and standards, in part because of the dedication of its staff in
                             these areas and because of the staff’s groundbreaking research.”

                          The FY 2010 NRC Assessment Reports are available at http://www.nist.gov/director/nrc/.

 Actions as a Result      The findings and comments by the NRC assessment panels are critical components of the NIST performance
 of Evaluation            evaluation system. NIST values this input and works to assure that any identified issues are addressed.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                       123
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 2




 124                                        F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
P e r f o r m a n c e   S e c t i o n




  S t r at eg i c
  G oa l 3
                                                                                  targets met
                          Strategic Objective                                     or exceeded
Protect, restore, and manage the use of coastal and ocean resources (NOAA)           6 of 8

Advance understanding of climate variability and change (NOAA)                       3 of 5

Provide accurate and timely weather and water information (NOAA)                     9 of 11

Support safe, efficient, and environmentally sound commercial navigation (NOAA)      5 of 6
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                                    S TRATEG I C GOA L 3

Promote environmental stewardship




         P u b li c B e n e f i t s a n d
       Summary of Performance




 T  
              he Department has responsibilities for the environment,
              ecosystems, safety, and commerce of the Nation that
              span oceanic, coastal, and atmospheric domains.
Understanding the oceans and atmosphere is essential to sustaining
U.S. environmental and economic health. The Department provides
products and services that are a critical component of the daily
decisions made across the United States. From hurricane tracking
to El Niño and harmful algal bloom predictions, navigational charts
to fish stock assessments, severe weather forecasts to coastal zone
management—the Department’s future-oriented science, service, and
stewardship missions touch the life of every citizen in the United
States and in much of the world every day.

Together the Department and its partners provide weather and
climate services; conduct atmospheric, climate, and ecosystems
research; manage and protect fisheries and sensitive marine


F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              127
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




ecosystems; promote efficient and environmentally safe commerce and transportation; and provide emergency response and vital information
in support of homeland security. The breadth and scope of these services require the Department to be responsive to both short and long-term
societal needs.

Strategic Goal 3 encompasses only one bureau—the National Oceanic and Atmospheric Administration (NOAA). Within this strategic goal there
are four programmatic objectives and one mission support objective. The following table shows each objective, its primary focus, its primary
line office, secondary line offices (in order of percentage of the objective), the approximate objective percentage of the NOAA budget, and the
objective percentage of the NOAA budget excluding the Mission Support Objective.


                                Strategic goal 3 summary by objective
                                                                                                                          % of Total Budget
                                                                           Other Line Offices               % of Total       (excluding
        Objective           Focus          Primary Line Office           (in order of percentage)            Budget       mission support)
           3.1        Ecosystems          NMFS                     NOS, OAR, NESDIS                     	     31%         	        49%
           3.2        Climate             OAR                      NESDIS, NWS, NMFS                    	       6%        	        10%
           3.3        Weather/Water       NWS                      OAR, NOS, NESDIS                     	     21%         	        34%
           3.4        Transportation      NOS                      NWS, NESDIS                          	       4%        	        7%
  Mission Support     N/A                 NESDIS                   PS, OMAO, NWS, OAR, NOS, NMFS        	     38%         	        N/A

Overall performance within this goal has been fairly strong, meeting or exceeding targets on average 81 percent per year from FY 2001 to
FY 2010. Performance remained fairly level from FY 2001 to FY 2010 having met 77 percent of targets in FY 2001 and in FY 2010, with a high
of 97 percent of targets in FY 2007 and a low of 74 percent of targets in FY 2003 and FY 2004.




  128                                              F Y   2 0 1 0   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                             S TRATEG I C OBJECT I VE 3 . 1

Protect, restore, and manage the use of coastal and ocean resources




                  P u b li c B e n e f i t s




 C  
              oastal areas are among the most developed in the
              Nation, with over half the population living on less
              than one-fifth of the land in the contiguous United
States. At over 230 persons per square mile, the population density
of the near shore is three times that of the Nation as a whole.
That portion of the U.S. economy that depends directly on the
ocean is also large, with 2.2 million people employed and over
$197 billion in value added to the national economy in 2000.
Approximately 89 million people vacation and recreate along U.S.
coasts every year. The amount added annually to the national
economy by the commercial and recreational fishing industry
alone is over $43 billion with an additional $1 billion of marine and
freshwater aquaculture sales. With its Exclusive Economic Zone of
3.4 million square miles, the United States manages the largest
marine territory of any nation in the world. Within this context,
the National Oceanic and Atmospheric Administration (NOAA)
works with its partners to achieve a balance between the use and
protection of these resources to ensure their sustainability, health, and vitality for the benefit of this and future generations and their
optimal contribution to the Nation’s economy and society.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     129
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




Achievements

Implemented a Catch Share Program in the New England Groundfish Fishery

To help rebuild fisheries and sustain fishermen, communities, vibrant working waterfronts, and culturally important fishing traditions,
NOAA also released a national catch share policy to encourage the consideration and use of catch shares. Catch share programs,
which include limited access privilege programs and individual fishing quotas, dedicate a secure share of fish to individual fishermen,
cooperatives or fishing communities. Catch shares are used in 14 fisheries managed by six fishery management councils from Alaska to
Florida and are being developed in additional fisheries. Both here and in other countries, catch shares are helping eliminate overfishing
and achieve annual catch limits, improve fishermen’s safety and profits, and reduce the negative biological and economic effects of the
race for fish that develops with some traditional fishery management.

Rebuilt Four Fish Stocks to Optimal Levels

During FY 2010, NOAA rebuilt the following four fish stocks, important to commercial and recreational fisheries, to optimal population
levels: North Atlantic swordfish, Georges Bank haddock, Atlantic coast spiny dogfish, and St. Matthews Island blue king crab. These stocks
had been under rebuilding plans due to low population levels caused by overfishing and other factors. This accomplishment ties the
record set in FY 2009 for the greatest number of fish stocks rebuilt in a single year.

Ended Overfishing of Red Snapper from Coast to Coast

NOAA worked with the Gulf of Mexico and South Atlantic Fishery Management Councils to design difficult but necessary measures to
end overfishing of red snapper in the Gulf of Mexico and South Atlantic. While the South Atlantic measures are undergoing final review
and approval, a recent stock assessment indicates the Gulf measures have successfully ended decades of overfishing. In response, fishery
managers could increase the Gulf red snapper total allowable catch quota from 5.0 to 6.95 million pounds in 2010. Although that stock
has not yet fully recovered, Gulf fishermen report encountering more and larger red snapper than they have seen in years, and catching
red snapper in areas where they have not been encountered in many years.

Protected Marine Mammals and Sea Turtles from the Deepwater Horizon Oil Spill
in the Gulf of Mexico

Following the Deepwater Horizon oil spill, NOAA staffed the Wildlife Operations Branch which was established to minimize the effects
of the spill on marine mammals and sea turtles. NOAA conducted tracking and recovery of stranded sea turtles and marine mammals,
including sea turtle rescue flights to locate sea turtles for rescue by personnel on surface vessels, conducted aerial surveys of sea turtles
and marine mammal populations, coordinated stranding networks; mounted rescue operations, and ensured that spill clean-up activities
are performed in such a way as to minimize impacts to protected species.

Protected the Public and Ensured Consumer Confidence in the Safety of Seafood in the
Gulf of Mexico following the Deepwater Horizon Oil Spill

NOAA took an active role in the response to the Deepwater Horizon oil spill to ensure continued safe supply of seafood, consumer
confidence, and economic opportunity for the fisherman and seafood industry. NOAA provided service on a number of fronts including:
monitoring of oil plumes, seafood sampling, effect on fish and shellfish, pre-emptive fishery closure and reopening, and outreach to the
public. Seafood inspection program inspectors played an integral part of the comprehensive, coordinated, multi-agency program to
ensure the safety of seafood from the Gulf of Mexico. This helped consumers know their food is safe to eat, and fishermen and seafood




  130                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




processors who needed to be able to sell their products with confidence. Within a week of the spill, NOAA vessels were collecting seafood
samples in the Gulf of Mexico. With a long history of responding to oil spills, NOAA sent staff to Pascagoula, MS to assist in seafood
sample processing, and rapidly equipped chemistry labs to analyze samples for polycyclic aromatic hydrocarbons, the main human health
concern with oil-contaminated seafood.

Under the Magnuson-Stevens Act, NOAA closed federal waters impacted by oil, developed a protocol for reopening the waters to
fishing, and implemented a comprehensive testing protocol (chemical and sensory) to ensure fish and shellfish were not contaminated
before reopening closed areas to fishing activity. The federal fishery closure, at its peak, covered 88,522 square miles (37 percent of
Gulf federal waters) and served as the primary tool to ensure that contaminated seafood did not reach consumers. The chemistry labs
analyzed hundreds of Gulf seafood samples for seafood safety. This work helped provide the science to inform the Agency’s decisions to
reopen federal waters for fishing as soon as they were safe. On July 22, using the NOAA protocol, NOAA reopened 26,388 square miles
to fishing.

NOAA Fleet Assists the Deepwater Horizon Oil Spill Response

As NOAA responds to the Deepwater Horizon oil spill, the Office of Marine and Aviation Operations continues to provide operational
expertise. Between May and September of FY 2010, seven NOAA aircraft have provided aerial support for incident response. The Twin
Otter N56 conducted surveys of whales, dolphins, endangered sea turtles and other marine life in the spill; the Twin Otters N46 and
N48 measured oil spill thickness and density; and, the Twin Otter N57 conducted marine surveys. The King Air N68 conducted coastal
surveys in the region with its state-of-the-art mapping sensors. The WP-3D Orion N2 collected data on the Gulf of Mexico Loop Current
while the WP-3D Orion N3 provided air quality surveys to collect samples through the marine boundary level, along the shore and
coast. NOAA ships actively participated in the Deepwater Horizon oil spill response between May and August of FY 2010. The THOMAS
JEFFERSON completed three legs of operations taking water samples and testing advanced methods for detecting submerged oil while
gathering oceanographic data in the area’s coastal waters. During an oil detection mission in the vicinity of the BP Deepwater Horizon well
head, the GORDON GUNTER collected water samples, conducted plankton tows, and employed echo sounders, autonomous underwater
vehicles, and other technologies to collect subsurface data. The PISCES performed a cruise to assess impacts of oil on Gulf of Mexico
reef fish population. The PISCES used echo-sounders to monitor for oil and gas releases in the immediate vicinity of the well head.
The DELAWARE II performed Pelagic Longline survey and water sampling around the periphery of the closure area and collected plankton
samples at the surface and at discrete depths. The OREGON II assessed the impacts of the oil spill on summer shrimp/groundfish while
the NANCY FOSTER assessed the impact of oil spill on corals in the vicinity of the well head and characterized the impact of persist oil
spill to provide early warnings of oil entrainment. Finally, the BIGELOW performed well head monitoring and oil detection.

NOAA Stimulates the Economy and Restores Habitat through the Implementation of the
American Recovery and Reinvestment Act Habitat Restoration Projects

In FY 2010, NOAA implemented all 50 of its habitat restoration American Recovery and Reinvestment Act (ARRA) of 2009 projects.
These ARRA projects have, so far, supported 694 full-time equivalents (FTE)/quarter in the first half of FY 2010, with the potential for
supporting thousands more by the end for 2010. These projects have restored 1824 acres of habitat and removed obsolete and unsafe
dams that opened 329 stream miles where fish migrate and spawn. Nearly all of these projects directly benefit a wide variety of
threatened and endangered fish and wildlife species, including salmon, migratory birds, and turtles.

NOAA Advances Coral Reef Protection in FY 2010 with Science, Service, and Stewardship

In FY 2010, the NOAA Coral Reef Conservation Program (CRCP) delivered the Implementation of the National Coral Reef Action Strategy:
Report on NOAA Coral Reef Conservation Program Activities from 2007 to 2009 to Congress. CRCP’s recent reorganization focused its
efforts to understand and address the three major threats to reefs: fishing, impacts from climate change, and land-based sources of



F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     131
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




pollution. To advance this realignment process, in FY 2010, CRCP worked with coral reef resource managers in each of the seven U.S.
coral reef jurisdictions to articulate strategic reef management priorities in each place. Looking forward, CRCP will direct its efforts and
resources on these priority needs.

NOAA, other U.S. government agencies, and a consortium of nongovernmental organizations implemented the U.S. Coral Triangle Initiative
Support Program—a $40 million, five-year U.S. Agency for International Development (USAID)-funded program launched in 2010 to
protect the region. A global center of marine biological diversity, the Coral Triangle is a vast ocean and coastal area in Southeast Asia and
the Western Pacific. As part of this program, in FY 2010, NOAA teams led several trainings and supported the development of a manual
for climate change vulnerability assessments which will assist the six nations of the Coral Triangle in early action planning to address this
global threat to reefs. The Coral Triangle Initiative projects include technical support and capacity building in marine-protected areas,
climate change adaptation, and ecosystem approaches to fisheries management.

Marine Debris Progress Advances Detection of Derelict Fishing Gear and
“Fishing for Energy” Awarded

In conjunction with several NOAA line offices, other federal agencies, the state and University of Hawaii, and the private sector, the
NOAA Marine Debris Program, increased the capacity to detect derelict fishing gear in the open ocean. NOAA Hawaii offices worked with
the National Aeronautics and Space Administration (NASA), NOAA’s Unmanned Aerial Systems Program, the Coastal Storms Program,
and the Office of Marine and Aviation Operations to develop and test sensor-and-platform systems to detect and ultimately remove
derelict fishing gear before it enters sensitive nearshore environments. In FY 2010, the Fishing for Energy partnership was awarded the
Coastal America Partnership Award that cited innovative efforts to provide fishermen with a no-cost disposal option for old or derelict
fishing gear to reduce its likelihood of entering the marine environment, and to convert it into clean, renewable energy. The partnership
collected over 350 tons of old fishing gear between February 2008 and May 2010, and included ports in Maine, Massachusetts, New York,
Rhode Island, New Jersey, Virginia and Oregon (with three ports added to the partnership in FY 2010 and more expected). In 2010, the
partnership expanded to include grant programs that directly support efforts to remove derelict fishing gear from U.S. coastal waters,
and it will continue to partner with new ports to promote the collection of retired or derelict fishing gear through community education
and outreach. For more information on the partnership visit www.nfwf.org/fishingforenergy.

NOAA Expands Digital Coast Datasets and Users

The Digital Coast Web site now includes access to 24 national-level datasets, 35 geospatial tools, 12 training courses, and over 50 case
studies. Over the past year more than 69,000 users accessed the Digital Coast site, an increase of almost 300 percent over the previous
year. Over the next 10 years, NOAA expects the use of the Digital Coast to result in $26.5 million of benefits to over 450,000 users.
Digital Coast now has a Coastal Inundation Toolkit with resources from inundation and risk assessment basics to detailed technical
guidance on inundation mapping methods, as well as Coastal County Snapshots which provide easy-to-understand hazard information
and social science data for local officials.

NOAA Launches State of the Coast Web site

The National Ocean Service launched NOAA’s State of the Coast Web site in June 2010. It is a source for quick facts and more detailed
statistics offered through interactive indicator visualizations that provide highlights of information about coastal communities, coastal
ecosystems, the coastal economy, and how climate change might impact the coast, together in one simple Web destination. The State of
the Coast Web site launched with 15 national level topics, telling a broad suite of stories ranging from the gross domestic product (GDP)
generated in coastal counties, the population in the 100-year coastal flood zone, and the overall health of the Nation’s coastal waters.




  132                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




Harmful Algal Bloom Forecasts in North Atlantic and Gulf of Mexico Help Communities Prevent
Shellfish Poisonings

The Gulf of Maine Toxicity project issued an advisory for an unusually large bloom of toxic alga Alexandrium to recreational shellfish
harvesters via NOAA weather radio warnings. These toxins can cause paralytic shellfish poisoning in people. In 2008, bed closures from
Maine to Martha’s Vineyard caused an estimated $50 million in losses to the Massachusetts shellfish industry alone. Effective monitoring
by state agencies succeeded in no illnesses from legally harvested shellfish in recent years. In the Western Gulf of Mexico, bloom of
Dinophysis (a toxic algal species) caused the Texas Department of State Health Services to temporarily close areas to shellfish harvesting
to prevent severe gastric distress in people who eat affected shellfish based on the National Centers for Coastal Ocean Science harmful
algal bloom forecast. The harmful algal bloom forecast also provides advance warnings for Karenia brevis, a more common toxic species
in the Gulf known for its distinctive red blooms that have plagued Texas for many years.


                                           Summary of Performance


The measures below provide an indication of how well the Department is doing in achieving this NOAA objective.


                      Performance Measure (NOAA)                                     Target                 Actual             Status
 Fish stock sustainability index (FSSI)                                               580                   582.5                 Met

 Percentage of living marine resources with adequate population
                                                                                     34.3%                  34.7%                 Met
 assessments and forecasts
 Number of protected species designated as threatened,
 endangered, or depleted with stable or increasing population                          25                     29                  Met
 levels
 Number of habitat acres restored (annual/cumulative)                            8,875/67,849           6,907/65,881            Not Met

 Annual number of coastal, marine, and Great Lakes ecological
                                                                                       50                     48             Slightly Below
 characterizations that meet management needs
 Cumulative number of coastal, marine, and Great Lakes
 issue-based forecasting capabilities developed and used for                           42                     42                  Met
 management
 Percentage of tools, technologies, and information services that
 are used by NOAA partners/customers to improve ecosystem-                            86%                    88%                  Met
 based management
 Annual number of coastal, marine, and Great Lakes habitat acres
                                                                                     2,000                  2,0001                Met
 acquired or designated for long-term protection
 1	 Estimate.




FY 2 0 1 0 S t a t u s

NOAA met six of its eight targets in FY 2010. It did not meet the target for the “Number of habitat acres restored,” and was slightly below
the target for “Annual number of coastal, marine, and Great Lakes ecological characterizations that meet management needs.”




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        133
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




FY 2 0 1 0 Miss e d T a r g e t s

   Measure       Number of habitat acres restored
                 The acres break down as follows: 5,083 from the base program and 1,824 with ARRA funds. The targets
 Explanation
                 were 7,000 from the base program and 1,875 with ARRA funds, so both targets were missed.
 Action          No additional action taken.
   Measure       Annual number of coastal, marine, and Great Lakes ecological characterizations that meet
                 management needs
                 Due to shipboard problems (replacement of Z-drive on NOAA Ship RONALD H. BROWN), NOAA
 Explanation
                 moved the Gulf of Mexico Lophelia project to the first quarter of FY 2011.
 Action          NOAA anticipates that it will complete the characterizations not done in FY 2010 in FY 2011.



His t o r i c a l T r e n d s

NOAA has consistently met the targets for the measures within this objective. The results for “Number of habitat acres restored” is
unusual in that for the seven years prior to FY 2010, NOAA has met or exceeded its targets.




 134                                           F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                             S TRATEG I C OBJECT I VE 3 . 2

Advance understanding of climate variability and change




                  P u b li c B e n e f i t s




 S  
         ociety exists in a highly variable climate system, with con-
         ditions changing over the span of seasons, years, decades,
         and centuries. Given such stresses as population growth,
drought, and increasing demand for freshwater, it is essential for
NOAA to provide reliable observations, forecasts, and assessments
of climate, water, and ecosystems to enhance decisionmakers’ abil-
ity to minimize climate risks. This information supports decisions
regarding community planning, business management, and natural
resource and water planning.

In FY 2010, NOAA continued its efforts to obtain the best science
through the U.S. Global Change Research Program (USGCRP,
formerly the Climate Change Science Program) and NOAA Climate
Program. NOAA accomplished this through its continuing role as
lead agency of the interagency USGCRP. In addition, NOAA increased
the production of climate information and services for decisions,
including completion of the USGCRP Synthesis and Assessment
Reports, and implementation of the National Integrated Drought
Information System (NIDIS).




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              135
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




Achievements

The 2009 State of the Climate Report

On July 28, 2010, NOAA’s National Climatic Data Center issued the State of the Climate in 2009 report. The report is a result of the
contributions of more than 300 scientists from 160 research groups in 48 countries. This climate report is unique in that it is the first
comprehensive report of observations from the upper atmosphere to the depths of the ocean. Data was collected from diverse sources,
including satellites, weather balloons, weather stations, ships, buoys, and field surveys. The report emphasizes that human society has
developed for thousands of years under one climatic state, and now a new set of climatic conditions are taking shape. These conditions are
consistently warmer, and some areas are likely to see more extreme events like severe drought, torrential rain, and violent storms. Based on
comprehensive data from multiple sources, the report defines 10 measurable planet-wide features used to gauge global temperature
changes. The relative movement of each of these 10 key climate indicators proves consistent with a warming world. Seven indicators are
rising: humidity, sea level, ocean heat, sea-surface temperature, air temperature over land, air temperature over oceans, and tropospheric
temperature in the “active-weather” layer of the atmosphere closest to Earth’s surface. Three indicators are declining: glaciers, arctic
sea ice, and spring snow cover in the Northern hemisphere. National Climatic Data Center’s State of the Climate is published as a special
supplement to the Bulletin of the American Meteorological Society. To help keep citizens and businesses informed about climate, NOAA
created the Climate Portal at http://www.climate.gov. The portal features a short video that summarizes some of the highlights of the State
of the Climate report.

America’s Climate Choices

NOAA supported a major national study by the National Academy of Science called “America’s Climate Choices,” the most comprehensive
study by the Academy of climate change to date. As part of this study, the National Research Council issued three reports in May 2010, and
then a fourth report in July. The reports found that climate change is occurring, is caused largely by human activities, and poses significant
risks for a broad range of human and natural systems. The reports also emphasize why the United States should develop a national strategy
to adapt to the impacts of climate change. A final overarching report, which will be released later this year, will build on each of the previous
reports to offer a scientific framework for shaping the policy choices underlying the Nation’s efforts to confront climate change.

NOAA Study Finds Warming Upper Ocean

On May 20, 2010, scientists from NOAA’s Pacific Marine Environmental Laboratory, the Joint Institute for Marine and Atmospheric Research
at the University of Hawaii, NASA, and international partners published a study in Nature on upper ocean heat content. The study found
that there has been significant warming of the upper layer of the ocean over the past 15 years and that the ocean is now storing more heat
than it is giving off. Warming oceans are a direct cause of global sea level rise, since seawater expands as it gets warmer. The scientists say
that this expansion accounts for about one-third to one-half of global sea level rise.

NOAA Study Suggests Increase in Category 4 and 5 Hurricanes this Century

On January 22, 2010, Science published the results of a new hurricane study from NOAA’s Geophysical Fluid Dynamics Laboratory. The team
of scientists used a unique downscaling approach to model hurricane activity through the end of this century, and their results produced
nearly a doubling of the frequency of category 4 and 5 storms. Most climate models are incapable of reproducing storms of category
3 or higher, so the scientists used a two-step approach to modeling hurricane activity, employing an ensemble of 18 climate models, then
downscaling those results using the laboratory’s operational hurricane model.




  136                                               F Y   2 0 1 0   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                     P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




NOAA Releases Expanded World Ocean Database

In November 2009, NOAA released the World Ocean Database 2009, the largest, most comprehensive collection of scientific information
about the oceans with records dating as far back as 1800. The 2009 database, an updated version of the 2005 edition, provides approximately
9.1 million temperature profiles and 3.5 million salinity reports. It also captures 29 categories of scientific information from the oceans,
including oxygen levels and chemical tracers. It also includes information on gases and isotopes that can be used to trace the movement
of ocean currents. Climate scientists use the World Ocean Database to track changing conditions, which adds to the international
science community’s understanding of global climate change. Forecast centers, such as NOAA’s Ocean Prediction Center, also use the
information for quality control of real-time oceanographic information. The database is a crucial part of the Integrated Ocean Observing
System (IOOS) and the Global Earth Observation System of Systems (GEOSS) in that it provides a reliable source of oceanic information.
The information was compiled by scientists at National Oceanographic Data Center’s Ocean Climate Laboratory, part of the NOAA Satellite
and Information Service.

Commerce Secretary Gary Locke and NOAA Administrator Jane Lubchenco Unveil
Landmark Climate.gov Portal

On February 8, 2010, NOAA unveiled a new Web site, www.climate.gov, which serves as a single point of entry for NOAA’s climate information,
data, products, and services. The site is in response to growing user demand for useful climate information and will continue to develop
based on user demand, comments, and feedback as it expands into a fully operational resource over the course of this year. One feature is the
new Web-based climate science magazine, ClimateWatch, featuring videos, images, and articles of scientists in their own words, discussing
their recent work in the field. Known as the NOAA Climate Services Portal, the site addresses the needs of four key audiences: educators,
decisionmakers and policy leaders, scientists and applications-oriented data users, and business users and the public.

CalNex 2010 Campaign on Emissions and Climate Processes

NOAA led a three-month joint field study with the California Air Resources Board and the California Energy Commission and other partners
to investigate atmospheric emissions and processes over California and the eastern Pacific coastal region. The study answered questions
about emissions, chemical transformations, climate processes, transport, and meteorology. Participants included NOAA’s Earth System
Research Laboratory’s Chemical Sciences Division, Pacific Marine Environmental Laboratory, Air Resources Laboratory, Climate Program
Office, and the Cooperative Institute for Research in Environmental Sciences. The goal of this study was to provide scientific information
regarding the synergies and trade-offs faced by decisionmakers when addressing the interrelated issues of air quality and climate change.
In addition, the P3 aircraft science team interrupted the California study for a week to provide much needed information about air chemistry
in the Gulf of Mexico to examine the effects of the Deepwater Horizon oil spill.

Regionally Integrated Science and Assessment Teams Expand

NOAA’s Climate Program Office has nearly doubled funding for Regionally Integrated Science and Assessment (RISA) teams and expanded
the network by nearly 20 percent since 2009. RISAs are expected to play a critical role in both climate science and service development by
providing integrated assessment in 11 different regions of the United States and the National Climate Assessment identifying vulnerabilities,
needs, and capabilities of users. RISAs are regional “centers of excellence” that work with users (policymakers, resource managers, communities,
etc) to co-develop climate science and services. Aside from being user-driven, other critical elements of the RISAs over the past 15 years are
sustained regionally-based interactions, interdisciplinary assessment and science (not just climate science), ongoing climate literacy efforts,
a focus on both climate variability and climate change, and interagency partnerships that leverage different capabilities and resources.
In future years, the sustained regional capacity of RISAs can help NOAA address the Nation’s priorities for climate service and adaptation.




F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                          137
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




NOAA Scientists Support National Geographic’s The JASON Project

NOAA scientists are working on National Geographic’s The JASON Project on a new climate mission for teachers and students focused on
observing the ocean to understand climate. Two NOAA scientists served as NOAA host researchers and worked side by side with JASON
students. NOAA will develop an entire climate curriculum to focus solely on climate which will be available for teachers around the world
to use. This program will challenge students and the public to apply their knowledge to the real-world scenarios scientists face every day
so that they can make wise choices that will benefit society. For more information, visit www.jason.org. The JASON Project Climate Mission
in the Channel Islands allowed student and teacher “Argonauts” to deploy drifting buoys and an autonomous underwater vehicle to study
ocean temperature and circulation.


                                          Summary of Performance


The measures below provide an indication of how well the Department is doing in achieving this NOAA objective.


                   Performance Measure (NOAA)                                   Target                    Actual                Status
 U.S. temperature forecasts (cumulative skill score computed
                                                                                  24                        18                  Not Met
 over the regions where predictions are made)
 Uncertainty in the magnitude of the North American carbon
                                                                            0.40 GtC/year            0.45 GtC/year 1            Not Met
 uptake
 Uncertainty in model simulations of the influence of
                                                                         15% improvement           18% improvement               Met
 aerosols on climate
 Error in global measurement of sea surface temperature                         0.53ºC                    0.50ºC                 Met

 Regionally focused climate impacts and adaptation studies                 41 assessments/           41 assessments/
                                                                                                                                 Met
 communicated to decisionmakers                                              evaluations               evaluations
 1	 Estimate.




FY 2 0 1 0 S t a t u s

NOAA met three of its five targets in FY 2010. It did not meet the target for the “U.S. temperature forecasts” and “Uncertainty in the
magnitude of the North American carbon uptake.”




  138                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




FY 2 0 1 0 Miss e d T a r g e t s

   Measure        U.S. temperature forecasts
                  Four years ago, the Climate Prediction Center scores were excellent because that year was one where
                  the observed temperatures matched the long-term trends quite well—those scores are now dropping out
                  of the 48-month running mean (MRM). FY 2006 averaged 47 (well above the targets) as strong trends
 Explanation      played a role in very high scores. In contrast, FY 2010 averaged around an 8, as NOAA experienced
                  record-breaking negative values of the Arctic Oscillation during the first half of the year, which resulted in
                  much colder temperatures over the United States than NOAA forecasted. This has resulted in the 48 MRM
                  decreasing from around 27 at the beginning of the fiscal year to about 18.
                  In FY 2008, the planned upgrade to the Coupled Forecast System (CFS) was expected to improve
                  forecasts. But implementation was delayed because of delays in completing a re-analysis and re-forecast.
 Action           The implementation of the upgraded CFS will now take place in FY 2011. As anticipated, scores have
                  slipped recently, as the delay in implementing the next version of the CFS has resulted in the Climate
                  Prediction Center not having access to a more skillful forecast model.
   Measure        Uncertainty in the magnitude of the North American carbon uptake.
                  The target was missed by only 2.5 percent in a purely statistic evaluation. Results for this measure are
                  calculated on an annual basis. Improvement of the Carbon Observation and Analysis System has been
                  stalled over the past few years due to a delay in the installation of additional tall towers and aircraft sites
                  that monitor CO2 that would reduce the uncertainty. These improvements are started in the FY 2011
                  President’s Budget. With respect to the calculations of scientific uncertainty, to be off by 50 million tons
 Explanation
                  (2.5 percent of the total flux of carbon) between two uncertainty values (400 versus 450) when viewed
                  from the big picture is small with both values yielding success in improving the model and providing
                  the necessary information to society and decisionmakers. With the uncertainties at play, the 50 million
                  difference is difficult to validate as statistically significant when compared to the total flux of 1,210 million
                  of carbon.
                  Going forward, NOAA will report all uncertainties to two digits which can be done using planned
                  model improvements and expanded observational datasets that will be provided as the network is built
                  out. As these improvements are added, the accuracy of measuring the North American carbon sink and
 Action           evaluation and quantification of the uncertainty value will improve.

                  Despite these challenges, the program has successfully reduced uncertainty over the longer term through
                  the continuation of base monitoring and minor enhancements of climate models. The program projects
                  further improvements in confidence in the future as anticipated resources increase.



His t o r i c a l T r e n d s

NOAA has consistently met the targets for three of the measures in this objective since FY 2006, the year they were introduced. For
the last four years, NOAA has exceeded the target for U.S. temperature forecasts, the reason as noted above. For the North American
carbon uptake measure has consistently missed the target though in each year has been quite close to the target as noted in the
explanation above.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                               139
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                              S TRATEG I C OBJECT I VE 3 . 3

Provide accurate and timely weather and water information




                  P u b li c B e n e f i t s




 W  
                eather affects all facets of society, impacting
                the economy in ways ranging from agricultural
                preparation to transportation planning to disaster
response. In certain situations, weather forecasting can affect
the number of lives saved or lost as well as mitigate the extent
of property damage as a result of weather events. Weather also
affects how power companies plan for daily, weekly, and seasonal
variances. Because of this, Americans benefit from sound weather
forecasting both in their daily lives and planning, and in preparation
for major storm events.

The Department’s role in understanding, observing, forecasting,
and warning of weather events is expanding. The Department is
conducting sound, scientific research and providing integrated
observations, predictions, and advice for decisionmakers who
manage environmental resources, ranging from fresh water supplies
to coastal ecosystems to air quality.

Realizing that the Department’s information and services bridge both weather and climate timescales, the Department will continue to
collect and analyze environmental data and issue forecasts and warnings that help protect life and property and enhance the U.S. economy.
The Department is committed to excellent customer service and depends on its partners in the private sector, academia, and government to
add value and help disseminate critical weather and climate information. The Department will expand services to support evolving national
needs, including those associated with space weather, freshwater and coastal ecosystems, and air quality prediction.




  140                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




Achievements

NOAA’s National Weather Service Provides Early Warnings for Historic 2010 Mid-Atlantic
“Snowmageddon” Snowstorms

During a five-day period in early February 2010, two snowstorms of historic proportions struck the Mid-Atlantic region. The first
storm hit February 5-6 and produced record crippling snowfalls in excess of 20 inches at two of the Washington, DC area airports
(Baltimore-Washington International and Washington Dulles International). It was the second all time snowfall record at Philadelphia,
PA (Philadelphia International) airport and fourth at the Pittsburgh, PA airport (Pittsburgh International). NOAA’s National Weather
Service (NWS) issued accurate outlooks for the storms three days in advance with an unprecedented forecast of 20 to 30 inches before
the first flakes were observed. NOAA forecast the average winter storm watch lead time to be 42 hours, which provided local emergency
managers almost two days of preparation time. NOAA issued winter storm warnings an average of 30 hours ahead of the first flakes—
again, nearly double its national goal (16 hours) for winter storms. Three days later, a second blizzard struck the same region with an
additional foot and a half to three feet of snow, which brought the total snow accumulation on the ground to three to five feet in places.
NOAA accurately foretold this second storm four days in advance, with an average winter storm watch lead time of 47 hours and an
average winter storm warning lead time of 32 hours. NOAA’s Weather Forecast Office (WFO) staff provided heroic service during the
consecutive, extreme events even as the back-to-back events brought the region to a complete stop as governments, schools, businesses,
roads, and airlines shut down.

NWS Prepares Public and Partners for El Niño

In 2009 and 2010, NWS launched an aggressive geographically targeted public information campaign to prepare the public and
communities to deal with the wintertime effects expected from a developing El Niño. El Niño impacts the weather and climate and, in
turn, affects local precipitation amounts (too much and too little), increases number of tornadoes, and can affect such areas as agriculture
and recreation. NWS held about 40 public outreach activities dubbed “El Niño Road Show” for the media and NWS partners in Texas,
California, Washington, District of Columbia, North Carolina, Florida, Arizona, Hawaii, Guam, and other Pacific islands. Experts from the
Climate Prediction Center and Pacific ENSO (El Niño-Southern Oscillation) Application Climate Center joined local NWS WFO staff in
providing in-person briefings and media interviews with state partners. News media, representatives from the governors’ offices, and
emergency management officials were invited to the briefings. Media coverage was strong with dozens of news clips resulting. Each road
show event focused on the specific impact on the visited region. For example, in Florida, NOAA focused the presentation on how El Niño
would impact the area noting that the state’s manufactured home parks and campgrounds were at higher risk due to high density and
high winter occupation rates. The briefings included assistance in making family tornado plans. In the Northeast, ski lodge owners could
prepare for the possibility of less natural snow for skiing and NOAA made retail businesses aware that fewer winter consumer goods, such
as heavy clothing and plows, might be needed. This customization helped people prepare productively for the winter El Niño. Although
not all losses could be avoided, outreach allowed individuals, industries, and public officials to take timely actions based on the forecast
to mitigate and reduce losses or to capitalize on the information to improve economic outcomes.

NOAA’s Provides Decision Support for the Deepwater Horizon Oil Spill

Within hours of the explosion of the Deepwater Horizon the NWS Southern Region Operations Center (ROC) began coordinating decision
support services for emergency response entities and personnel responding to conduct containment and recovery operations. The Southern
Region ROC and 10 Southern Region WFOs along the Gulf Coast provided Deepwater Horizon decision support. By early July, a total
of 13 NWS meteorologists were deployed to the Deepwater Horizon area of operations. Southern Region Headquarters personnel have
scheduled approximately 60 meteorologists from 32 different WFOs to deploy to the Deepwater Horizon theater, with the anticipation
that an additional 40 will need to be identified to fulfill Deepwater Horizon operational requirements adequately through November




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      141
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




2010. Onsite, NWS emergency response meteorologists provided 24x7 decision support to the U.S. Coast Guard, BP command, and
response staffs at the Houma, LA and Mobile, AL, Incident Command Centers. NWS also provided record spot, wind, and wave; special
aviation; long range; and hurricane forecasts. NOAA provided additional dedicated decision support shifts at WFOs in New Orleans and
Mobile. One NWS incident meteorologist remains deployed to the BP Forward Operating Base in Venice, LA to provide detailed decision
support to company response teams. WFOs elsewhere along the Gulf Coast are providing regular briefings to local, state, and federal
decisionmakers in their areas, participating in oil spill response planning efforts, and maintaining strong situational awareness of spill
trajectories and impacts. The Lower Mississippi and West Gulf River Forecast Centers (RFC) continue to provide guidance to the oil spill
trajectory models.

NWS Deploys New River Forecasting System Community Hydrologic Prediction System to NWS RFCs

In February 2010, NWS deployed the Community Hydrologic Prediction System (CHPS) to the nine remaining of the 13 risk-reduction
RFCs in preparation for pre-operational use at all locations by December 2010. CHPS replaces the aging NWS river forecast modeling
software system with a new system based on modern software architecture principles, which will provide RFCs with the necessary tools
to expand and enhance existing water forecasting services. The project plan calls for all 13 RFCs to be operational on CHPS by end of
FY 2011.

Operational forecasting benefits of CHPS were demonstrated by the Northeast RFC for the March 29-31, 2010, flooding in Rhode Island.
CHPS graphical displays allowed forecasters to generate one, two, five and 30-day precipitation forecast totals across the service area.
This information provided forecasters with added confidence to provide the record river-level forecast watches and warnings before the
event. Furthermore, the graphics were used in pre and post-event coordination briefings.

NWS Provides Key Integrated Decision Support Services for Spring 2010 Red River Flooding

A year after record flooding swamped many locations in the basin of the Red River of the North, conditions once again became favorable
for another round of potential record flooding. In early November 2009, according to the U.S. Geological Survey, the flow of the Red River
at Fargo was at its highest level ever recorded for the month of November. Key decisionmakers became concerned about the potential for
a repeat of flooding in 2010 similar to that of 2009 since conditions “produced an imminent risk of major flooding along the Red River of
the North.” NWS offices in the Central Region responded to this evolving threat as early as December 2009, with a closely coordinated
effort using a multi-tier approach to provide Integrated Decision Support Services to a multitude of customers. ROC focused on providing
video teleconference and telephone briefings to personnel at Federal Emergency Management Agency (FEMA) Regions V, VII, and VIII.
ROC also coordinated the overall decision support mission for the state and local levels. Two RFCs (North Central and Missouri Basin)
collaborated closely with the U.S. Coast Guard and the U.S Army Corps of Engineers with respect to their modeling efforts. Five local
WFOs provided staffing to the state Emergency Operations Centers in North Dakota, South Dakota, and Minnesota, and the local WFO
in Grand Forks provided personnel to the cities of Fargo and Moorhead to address decision support needs specifically at this high impact
location. Senators from both North Dakota and Minnesota visited the Fargo/Moorhead area and had the opportunity for face-to-face
briefings from WFO Grand Forks Meteorologist-In-Charge Mark Frazier. Focused Integrated Decision Support Services yielded many
positive results within the Red River Valley, including FEMA approval of a disaster declaration for North Dakota prior to the actual onset
of flooding along the Red River.

NWS Upgrades Global Forecast System Modeling

On July 28, 2010, NWS implemented sweeping changes that will improve the National Centers for Environmental Prediction (NCEP)
Global Forecast System (GFS). These new improvements are the culmination of three years of development, evaluation and testing by
NCEP’s Environmental Modeling Center’s Global Modeling Branch and Physics Team. NOAA expects the changes to improve accuracy




 142                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




of a wide range of weather forecasts, including hurricane intensity forecasts. The Gridpoint Statistical Interpolation analysis changes
include assimilating tropical storm pseudo sea-level pressure observations for improved hurricane forecasts, adding NOAA-19 HIRS/4 and
AMSU-A brightness temperature observations and European Organisation for the Exploitation of Meteorological Satellites (EUMETSAT-9)
atmospheric motion vectors, and improving the assimilation of global positioning system (GPS) radio occultation data. The new version
significantly enhances GFS forecasts of hurricane track and intensity. In the eastern Pacific, when NOAA reran the 2008 and 2009
hurricane seasons, NOAA observed an improvement of 50 percent in both track and intensity in GFS forecasts at day 5. In the Atlantic,
NOAA observed a 10 percent improvement in the five-day track forecast and a 30 percent improvement in intensity at day 5 in GFS
forecasts over the same time period. NOAA also made improvements to the model’s ability to represent physical atmospheric processes.
These improvements include an upgraded radiation and cloud package, upgraded specification of gravity wave drag, a higher resolution
grid for hurricane relocation, an upgraded boundary layer scheme, the use of a higher resolution snow analysis, a new mass flux shallow
convection scheme, and an updated deep convection scheme. Changes to the convection and radiation improve the realism of cloud
processes in the new system. Another major change is an increase in the model’s horizontal resolution from approximately 35 km to 27
km. The result of this set of changes is improvement in the overall accuracy of the model’s forecasts.

NWS Developed 4-D Weather Data Cube for Next Generation Air Transportation System

The FY 2010 Capability Evaluation for the NOAA next generation 4-D Weather Data Cube (Cube) represents a major move forward in
developing improved weather capabilities for a safer, more efficient and effective air transportation system. NOAA has scheduled the
evaluation for the end of September 2010 and will conduct it in conjunction with the Federal Aviation Administration’s (FAA) William J.
Hughes Technical Center in Atlantic City, NJ. To date, the telecommunications hardware is installed and under testing. The evaluation
will build on the previous years’ successes; providing lessons learned before NWS goes into acquisition to build the Cube capabilities.

For this demonstration, NWS provided Web-enabled data from a suite of products through a single point of reference to the FAA next
generation Network Enabled Weather processor. Using Web-enabled capabilities will allow the data to reach FAA in a timelier manner
and will allow for a single point of access rather than scattered sources and eventually facilitate verification of the integrity of delivery.
This event will also show how the Cube will function, allowing the users to maximize the proposed system’s potential. The evaluators
will see the progress made toward achieving an Initial Operating Capability of the Cube at the end of FY 2013. Evaluators will use and
evaluate the architecture that more closely resembles the proposed architecture intended to be acquired next fiscal year. They will gain
experience as to the system behavior and characteristics, allowing for lessons learned in the stand-up of operational processes and best
methods for security implementations.

NWS Implements New National Architecture for Level II Radar Distribution

On July 7, 2010, the NWS Telecommunication Gateway (NWSTG) and the Radar Operations Center completed the transition of all radars
from the previous four regional data collection and distribution concept, to a national central collection and distribution concept at the
NWSTG. The former regional communications architecture for collection and dissemination of the NEXRAD Level II data did not meet the
needs of customers due to occasional extended regional outages. The new architecture allows centralized 24/7 monitoring and support
needed to eliminate the regional single points of failure. To address even larger outages to the user community, the NWSTG server was
upgraded to include on-site backup, as well as a geographically separate secondary system to ensure continuity of operations.

Reliable Level II data is essential for commercial weather providers that use Level II data as a key dataset for building value-added
products for commercial and public dissemination. These products include most of the radar graphics used for television broadcasts
warning the public to take protective actions during severe weather. NWS has several severe weather warning goals. These warning
operations are supported by the numerical model outputs. The Level II data are used as input into the models; therefore, reliable
collection and dissemination of Level II data may indirectly contribute to improving model performance.




F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        143
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                                        Summary of Performance


The measures below provide an indication of how well the Department is doing in achieving this NOAA objective.


                            Performance Measure (NOAA)                                                  Target                  Actual                 Status
 Percentage of U.S. coastal states and territories demonstrating
 20% or more annual improvement in resilience capacity to                                                29%                     29%                      Met
 weather and climate hazards (%/year)
 Severe weather warnings for tornadoes (storm-based) –
                                                                                                          12                      141                     Met
 Lead time (minutes)
 Severe weather warnings for tornadoes (storm-based) –
                                                                                                         70%                     74%1                     Met
 Accuracy (%)
 Severe weather warnings for tornadoes (storm-based) –
                                                                                                         72%                     74%1                Slightly Below
 False alarm rate (%)
 Severe weather warnings for flash floods (storm-based) – Lead
                                                                                                          38                       76                  Exceeded
 time (minutes)
 Severe weather warnings for flash floods (storm-based) –
                                                                                                         72%                     82%                      Met
 Accuracy (%)
 Hurricane forecast track error (48 hours) (nautical miles)                                              107                      702                  Exceeded

 Hurricane forecast intensity error (48 hours) (difference in knots)                                      13                      182                   Not Met
 Accuracy (%) (threat score) of day 1 precipitation forecasts                                            30%                     35%                      Met

 Winter storm warnings – Lead time (hours)                                                                15                       21                  Exceeded

 Winter storm warnings – Accuracy (%)                                                                    90%                     90%                      Met
 1	 Estimate.
 2	 Reflects FY 2009 target and actual results. FY 2010 results not available until February 2011.




FY 2 0 1 0 S t a t u s

NOAA met nine of its 11 targets in FY 2010. It was slightly below the target for “False alarm rate for tornados,” and did not meet the
target for the “Hurricane forecast intensity error.”




  144                                                             F Y   2 0 1 0       P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




FY 2 0 1 0 Miss e d T a r g e t s

  Measure        False alarm rate for tornados
                 Tornado false alarm rate (FAR) missed the target by 2 percent. Storm-based tornado measures have a 75-day
                 lag time. The 2010 convective season produced a near-average number of tornadoes, with more frequent
 Explanation
                 tornado outbreaks than observed during the 2009 season. The FAR is typical of performance observed over
                 the past decade. Forecasters tend to overwarn throughout the fiscal year for public safety.
                 The performance goal was set at an approximate target level, and the deviation from that level is slight.
 Action
                 There was no effect on overall program or activity performance. No additional action taken at this time.
  Measure        Hurricane forecast intensity error
                 The 48 hour Atlantic hurricane intensity error was 18 knots for the 2009 hurricane season, missing the 2009
                 goal of 13 knots by 5 kts. Failure to reach the 2009 GPRA goal can be attributed in part to a higher level
                 of difficulty in forecasting intensity in 2009 (as measured by a climatology and persistence skill baseline).
 Explanation
                 In addition, the GPRA goals were set in 2008 assuming that modeling advances would immediately lead
                 to intensity forecast improvements, even though hurricane intensity forecasts have shown essentially no
                 improvement over the past 20 years.
                 NOAA’s Hurricane Forecast Improvement Program (HFIP), one of whose main goals is to reduce hurricane
                 intensity errors significantly over the next 10 years, was first funded in 2009. It will take several years for
 Action          HFIP research and development to be conducted successfully and then additional time for results of the HFIP
                 research to be fully integrated into operations. Until then, annual official intensity errors will tend to rise and
                 fall with forecast difficulty.



His t o r i c a l T r e n d s

Regarding this objective, NOAA has consistently met their forecast targets with the exception of the FAR for tornados. However, as noted
above, forecasters tend to overwarn in the occurrence of tornados in the interest of public safety.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  145
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                             S TRATEG I C OBJECT I VE 3 . 4

Support safe, efficient, and environmentally sound commercial navigation




                  P u b li c B e n e f i t s




 U  
               .S. transportation systems are economic lifelines
               for the Nation. For both air transportation safety
               and efficiency, it is essential to have accurate wind
forecasts. Likewise, the shipping industry depends on accurate
nautical charts when transporting goods in and out of U.S. ports.
As U.S. dependence on surface and air transportation grows over
the next 20 years, and as maritime trade doubles, better navigation
and weather information provided by NOAA will be critical to
protect lives, cargo, and the environment. For example, better
aviation weather information could significantly reduce the $4
billion lost through economic inefficiencies as a result of weather-
related air traffic delays. Improved surface forecasts and specific
user warnings would likely reduce the 7,000 weather-related
fatalities and 800,000 injuries annually from vehicle crashes.



Achievements

NOAA’s Expertise and Experience Proved Indispensable for Response to the BP
Deepwater Horizon Oil Spill Disaster and Mitigation of Impacts

As the leading U.S. scientific resource for oil spills, NOAA’s Office of Response and Restoration (OR&R) responded within hours of the Gulf
of Mexico BP Deepwater Horizon oil spill to support U.S. Coast Guard and Unified Command with 24-hour risk and trajectory assessments,
reports of chemical changes from the oil, recommended cleanup methods using over-flights to verify model trajectories, and accurate models
of past spills. NOAA’s Shoreline Cleanup and Assessment Technique (SCAT) planners, aerial observers, and 15 field teams worked with BP



 146                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                      P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




and state teams. NOAA-wide Damage Assessment, Remediation, and Restoration Program experts worked with partners to protect and
restore threatened coastlines, assessing injuries to natural resources and damages, as well as trying to minimize harm to natural resources to
accelerate recovery of coastal communities (potentially vulnerable fish, shellfish, bottom dwelling biota, birds, marine mammals and turtles in
wetlands, submerged aquatic vegetation, beaches, mudflats, and deep and shallow corals). For more than three months, 40 teams conducted
daily ramp and shore fishing counts and economic studies to ensure accurate compensation for lost use of resources. A Web-based situation
awareness tool called ERMA (Environmental Response Management Application), with a public version called GeoPlatform.gov/gulfresponse,
provided integrated data management for response and natural resource damage assessment across multiple states on NOAA’s response
(fishery closures, wildlife data, oiled shoreline, and deployed research ships). Deepwater Horizon was the first oil spill where Integrated Ocean
Observing System (IOOS) and partners used underwater, unmanned gliders and coastal high frequency radar stations to daily track oil flows
in the water column and on the surface. At relatively low cost and no risk to human life, IOOS measured surface current speed and direction
in near real time in trajectory models that OR&R provided to coastal communities to prepare for impacts of oil coming ashore. The Office
of Coast Survey produced nautical charts that displayed oil spill zone forecasts based on OR&R spill projections to help vessels avoid spill
areas. The Center for Operational Oceanographic Products and Services (CO-OPS) modified existing products to display real-time data and
predictions in the Gulf of Mexico including hurricane-based, NOAA Storm QuickLook, to include an OR&R spill graphic and detailed view
of CO-OPS water levels and meteorological data in potentially affected areas. CO-OPS displayed Physical Oceanographic Real-Time System
(PORTS®) data from Gulfport, Pascagoula, and Mobile Bay PORTS® and used MyPORTS, a customizable PORTS® application, to show ocean
current speeds and directions and weather observations in the spill region. A high-resolution northern Gulf of Mexico hydrodynamic model
system produced three-day forecasts of water levels and three-dimensional currents from the Florida Panhandle to the Rio Grande River.
NOAA’s Office of Coast Survey product called NowCOAST, a map-based online gateway to ocean and weather observations and forecasts,
displayed real-time observations on interactive maps accessible from a smart phone or background maps like Google® Maps. NowCOAST use
spiked from two million hits a month in January to more than eight million during response to the BP Deepwater Horizon oil spill.

NOAA addressed other major spills and improved disaster preparedness for the Gulf and the Arctic regions. At least 424,000 gallons of crude
oil spilled from an 807-foot tank ship near Port Arthur, TX, where OR&R assessed oil movement and impacts, provided weather forecasts
and cleanup plans, and aided assessment of natural resource damages, economic impacts, and restoration. CO-OPS provided real-time data
from a new Sabine-Neches PORTS® station to OR&R for tide prediction to enable limited opening of the waterway to prevent roughly $5
million in economic losses from restricted entry by barges and deep draft vessels. For future disaster preparedness, response, and recovery
from Brownsville, TX to Key West, FL, NOAA started construction of the Gulf of Mexico Disaster Response Center in Mobile, AL, a facillity that
can withstand a major hurricane. The Office of Coast Survey conducted hydrographic surveys off the coasts of Alabama and Mississippi for
bathymetry data for a new northern Gulf of Mexico circulation model. The Office of Coast Survey, CO-OPS, and the National Geodetic Survey
improved predictive capabilities in oil and hazardous material spills. These will aid forecasts for harmful algal blooms in the northern Gulf
of Mexico and contribute to more accurate models for inundation from storm surge, tsunamis, and sea-level rise. NOAA and the Oil Spill
Recovery Institute worked to assess data gaps to predict how increases in ship traffic and oil exploration would impact the Arctic and affect
Arctic natural resource damage assessments planning, coordination, and outreach.

Hydrographic Surveys Address Backlog in Continental United States, Alaska, and Arctic

The Office of Coast Survey continued addressing the survey backlog with updated hydrographic surveys of critical areas of the United States
as NOAA ships THOMAS JEFFERSON, FAIRWEATHER, and RAINIER alongside contractors surveyed more than 3,100 square nautical miles of
U.S. waters. In addition to reducing critical survey backlogs and surveying fairways for maritime safety, the ships mapped habitat in three
national marine sanctuaries and responded to numerous requests for surveys. Without the surveys, NOAA will not locate, identify, and place on
nautical charts ocean bottom conditions that are hazardous to navigation to help mariners navigate safely and avoid accidents, spills, loss of
life and cargo, and damage to the environment. At the request of the U.S. Navy, U.S. Coast Guard, Alaska Maritime Pilots, and the commercial
shipping industry, The Office of Coast Survey sent the NOAA ship FAIRWEATHER to survey 350 square nautical miles of Arctic waters around
the Bering Straits. Since 1960, NOAA has not mapped most of the shoreline along Alaska’s northern and western coasts and confidence in




F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                           147
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




the region’s nautical charts is extremely low. NOAA ship FAIRWEATHER, whose homeport is Ketchikan, AK, spent July and August examining
seafloor features, measuring ocean depths, and supplying data for updating NOAA’s nautical charts. These data also support scientific
research on essential fish habitat and establishes new tidal datums in the region. The Office of Coast Survey conducted extensive surveys in
U.S. waters off the coast of northern Maine in response to requests for assistance from fishing communities to discover why several fishing
vessels have gone down recently in Maine’s Cobscook Bay. Fishing communities in the area have lost 16 men in vessel sinkings over the past
five years. Last year, NOAA located the wrecks of two vessels and identified other potential dangers to navigation using hydrographic data to
update nautical charts. Using side-scan imaging, a NOAA Navigation Response Team searched for the wreckage of a 34-foot urchin dragger
that sank in late October with three fishermen on board. In a continuing effort to prevent vessel collisions with North Atlantic right whales,
the Office of Coast Survey conducted a hydrographic survey to help mariners avoid whale calving areas in and around Brunswick, GA, during
the winter months. NOAA will incorporate the survey data into nautical charts used for both commercial shipping and recreational boating.
The survey will cover a proposed new route for vessel traffic that will bypass the areas of highest North Atlantic right whale density during
the winter calving months. NOAA ultimately seeks to reduce conflicts between maritime trade and wildlife protection.

NOAA Implements New and Improved Hydrodynamic Model, Creates Innovative PORTS®
Technology, and Gets a High Customer Satisfaction in CO-OPS Survey

CO-OPS improved operational coastal models in the Great Lakes with new hydrodynamic models for mariners, port managers, and emergency
response teams with present and future conditions of water levels, currents, temperature and salinity. The hydrodynamic “nowcast”
(for present conditions) and “forecast” (for future conditions) products are generated by a three-dimensional hydrodynamic model that uses
real-time PORTS® data and NWS forecast products to predict this information at locations throughout the United States. Port managers
and shippers can better determine maximum tonnage and passage times without compromising safety. On this and other products, CO-OPS
surveyed customer satisfaction with current products and services and gained insight for future areas of focus. CO-OPS scored 82, which was
significantly higher than other federal agencies who conducted the American Customer Satisfaction Index (ACSI), scoring 68.9. Accuracy and
timeliness were repeatedly the highest scoring attributes of CO-OPS products and services. CO-OPS will use this data to improve how NOAA
turns oceanographic data into meaningful information to protect life, property, and the environment.


                                           Summary of Performance


The measures below provide an indication of how well the Department is doing in achieving this NOAA objective.


                              Performance Measure (NOAA)                                            Target        Actual           Status
 Reduce the hydrographic survey backlog within navigationally significant areas
                                                                                                    5,160          4,395           Not Met
 (square nautical miles surveyed per year)
 Percentage of U.S. counties rated as fully enabled or substantially enabled with
                                                                                                    74.0%         79.0%             Met
 accurate positioning capacity
 Marine wind speed accuracy (%)                                                                     69%            74%              Met

 Marine wave height accuracy (%)                                                                    74%            75%              Met

 Aviation forecast accuracy of ceiling/visibility (3 mile/1,000 feet or less) (%)                   65%            66%              Met

 Aviation forecast FAR for ceiling/visibility (3 mile/1,000 feet or less) (%)                       42%            36%              Met
 1	 Estimate.




  148                                              F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




FY 2 0 1 0 S t a t u s

NOAA met five of its six targets in FY 2010. It did not meet the target for “Reduce the hydrographic survey backlog within navigationally
significant areas.”



FY 2 0 1 0 Miss e d T a r g e t s

   Measure        Reduce the hydrographic survey backlog within navigationally significant areas (square nautical miles
                  (snm) surveyed per year)
                  The 4,395 snm reflects a combined total estimate for both GPRA (2,515 snm) and ARRA performance for
                  FY 2009 and FY 2010 (1,880 snm). Based on best information available at the time, NOAA’s Office of
                  Coast Survey set the FY 2010 Annual Performance Plan target at 3,260 snm in January 2009 to address
                  hydrographic survey backlog, and included the ARRA FY 2009-FY 2010 target of 1,940 snm for a total target
                  of 5,200. However, at onset of FY 2010, NOAA requested a revised target of 2,600 snm because RANIER
                  went into an unplanned but welcome major repair period upon receiving ARRA funding. Consequently,
 Explanation      projects for the RANIER were deferred to the outyears. Also since the setting of FY 2010 targets, the program
                  has been impacted by a reduction in FY 2010 NOAA ship time to support hydrographic survey operations.
                  Furthermore, the program anticipated FERDINAND HASSLER operations in 2010, but this vessel’s delivery
                  has been delayed. Higher costs for Alaska survey work reduced total planned contract areas in FY 2010. The
                  THOMAS JEFFERSON was also redirected to provide Gulf support during the BP Deepwater Horizon spill
                  response. The total target for ARRA funds was 1,940 snm over FY 2009 and FY 2010; the program actually
                  acquired roughly 1,190 snm of ARRA acquisition in FY 2009, and 690 snm in FY 2010.
 Action           NOAA’s National Ocean Service will continue to track this metric closely in FY 2011.



His t o r i c a l T r e n d s

Within this objective, NOAA has consistently met the targets for some of the measures including accurate positioning capability, marine
wind speed, marine wave height, and aviation forecast FAR. The status of aviation forecast accuracy has varied, however, it should be
noted that the targets for this measure have risen every year from FY 2002 onward, and the actuals have correspondingly improved
as well.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   149
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                                           M I S S I ON S U P P ORT OBJECT I VE

Provide critical support for NOAA’s mission




 T  
             here are no Government Performance Results Act (GPRA) measures for the Mission Support objective since the activities
             of this objective support the outcomes of the mission objectives. NOAA is developing new and improving existing internal
             management performance measures for the Mission Support objective.



Achievements

Newest NOAA Geostationary Satellite Reaches Orbit

On March 4, 2010, NOAA successfully launched Geostationary Operational Environmental Satellite Series P (GOES-P) from Cape Canaveral,
FL. GOES-P, renamed GOES-15 once it reached final orbit, underwent a series of tests for approximately six months before completing
its “check-out” phase. After check-out, GOES-15 was placed into orbital storage mode and remains ready for activation if one of the
operational GOES fail. GOES-15 took its first infrared image of Earth on April 26, 2010. GOES-15 is the final spacecraft in the latest series of
NOAA geostationary satellites. It joined three other NOAA operational GOES spacecraft that help the Agency’s forecasters more accurately
track life-threatening weather—from tornadoes, floods, and hurricanes to solar activity that can impact the satellite-based electronics and
communications industry. GOES-15 will capture higher resolution images of weather patterns and atmospheric measurements than those
provided by earlier satellites. The higher resolution imagery allows forecasters to pinpoint the location of severe weather with greater
accuracy. GOES-15 will also provide better data for space and solar weather thanks to its Solar X-Ray Imager (SXI). SXI data will improve
forecasts and warnings for solar disturbances, protecting billions of dollars of commercial and government assets in space and on the
ground. This vital information will also reduce the effect of power surges for the satellite-based electronics and communications industry.

NOAA Selects Harris Corporation to Develop GOES-R Antenna System

NOAA selected Harris Corporation in Melbourne, FL, in July 2010, to develop the antenna system that will support NOAA’s GOES-R. This new
series of spacecraft, set to begin launching in 2015, is expected to double the clarity of today’s satellite imagery and provide at least 20
times more atmospheric observations. Harris will develop and NOAA will operate the GOES-R antenna system at NOAA’s Wallops Command




  150                                               F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                     P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




and Data Acquisition Station in Wallops, VA, and at NOAA’s GOES R Remote Backup facility in Fairmont, WV. The antenna system will be
designed to ensure continuity of operations during severe weather and other threat scenarios, including storms as severe as a Category
2 hurricane with winds ranging from 96–110 mph. Four existing receive-only antennas located at the NOAA Satellite Operations Facility
in Suitland, MD, will also have their feed systems upgraded. The antenna system will include six new, large-aperture antennas capable of
receiving and transmitting radio signals in multiple frequencies. Harris Corporation will upgrade four existing antennas and integrate the
entire antenna system into the overall GOES-R ground system. NOAA will fund, manage, and operate the GOES-R satellites.

NOAA Deactivates GOES-10 and GOES-12 Begins Coverage of South America

In December 2009, NOAA deactivated GOES-10 after 12 years of service. Launched in April 1997, GOES-10 surpassed its original five-year
mission by providing coverage as NOAA’s primary GOES satellite in the West until 2006. In 2006, in an effort to enhance international
cooperation and improve hurricane forecasting efforts in South America, NOAA repositioned GOES-10 to cover South America. NOAA
deactivated GOES-10 from service on December 1, 2009. To replace GOES-10, NOAA repositioned GOES-12 over South America in May
2010. The repositioning of GOES satellites over South America is pivotal because these satellites supply forecasters in South America
with more imagery and data to track dangerous storms—including tropical cyclones—and the storms that can trigger potentially deadly
mudslides. Moving GOES-12 is a significant contribution to the emerging GEOSS. This global, public infrastructure allows managers and
decisionmakers to respond more effectively to the many environmental challenges facing society. GEOSS links individual observing systems
into a sustained, comprehensive global system.

NOAA Satellites Help Rescue 277 People in 2010

NOAA’s fleet of satellites played a vital role in the rescues of 277 people during life-threatening situations throughout the United States and
its surrounding waters in 2010. In each incident, NOAA satellites pinpointed these downed pilots, shipwrecked mariners, or stranded hikers
by detecting a distress signal from an emergency beacon and relaying the information to first responders on the ground. NOAA’s polar-
orbiting and geostationary satellites, along with Russia’s Cospas spacecraft, are part of the international Search and Rescue Satellite-Aided
Tracking system (COSPAS-SARSAT). This system uses a network of satellites to quickly detect and locate distress signals from emergency
beacons onboard aircraft and boats, and from smaller, handheld personal locator beacons. When a NOAA satellite finds the location of a
distress signal within the United States or its surrounding waters, the information is relayed to the COSPAS-SARSAT Mission Control Center
based at NOAA’s Satellite Operations Facility in Suitland, MD. From there, it is sent to a Rescue Coordination Center operated by either
the U.S. Air Force for land rescues or the U.S. Coast Guard for water rescues. Now in its 29th year, COSPAS-SARSAT has been credited with
supporting more than 28,000 rescues worldwide, including over 6,400 in the United States and its surrounding waters.

NOAA Responds to the Devastating Earthquake in Haiti

Right after the quake, the Office of Marine and Aviation Operations began preparations to support the response effort. After receiving a
request for aerial imagery, the NOAA Aircraft Operations Center and National Geodetic Survey dispatched the NOAA Cessna Citation II
aircraft to conduct surveys of quake-ravaged areas to give responders the data they need to assess damage and plan recovery efforts.

NOAA Aircraft, Ship Provide Survey Support Following Nor’easter

NOAA’s Cessna Citation (N52) acquired remote sensing imagery along the Hampton Roads, VA shoreline following a major storm that
impacted the Mid-Atlantic region November 12-14, 2009. The aircraft documented changes in shoreline due to flooding at Whalehead
Beach and a grounded barge in Virginia Beach. Meanwhile, NOAA ship THOMAS JEFFERSON conducted hydrographic surveys in Cape Henry
and the Elizabeth River to locate submerged debris, shoals, and other potential hazards to navigation caused by the nor’easter. The surveys
provided critical aerial and underwater imagery to the port community, local officials, and residents impacted by the storm and resulting
flooding in Hampton Roads.



F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                         151
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




NOAA Aircraft Gather Observations in Flooded Red River Region

NOAA Shrike Commander and NOAA Jet Prop Commander aircraft stationed in Minneapolis, MN helped the North Central RFC improve its
flood forecasts with real-time observations. The Red River, along the Minnesota-North Dakota border, approached record flood levels. The
aircraft took video and photographic footage of the river in flood stage. They were able to observe ice jams, standing water in farm fields,
and other conditions in the watershed. The hydrologists can use this data to refine their models.

NOAA G-IV Aircraft Dispatched to Gather Winter Storm Data

NOAA’s Gulfstream IV-SP aircraft conducted flights over the North Pacific Ocean to help fill gaps in atmospheric observations. During that
period NOAA crew flew 310.8 hours, covering 134,000 nautical miles. 634 GPS dropwindsondes were launched, of which 97.2 percent
provided good, detailed data on 12 intensifying winter storms. Flying out of Yokota Air Force Base in Japan, the Office of Marine and Aviation
Operations-operated plane collected wind speed and direction, pressure, temperature, and humidity information from data-sparse regions.
The data was sent via satellite to global operational weather forecasting centers and fed into sophisticated computer forecast models.

NOAA Commissioned the NOAA Ship BELL M. SHIMADA

NOAA commissioned the BELL M. SHIMADA, the fourth of a new class of fisheries survey vessels on August 25. The ship’s primary mission
will be to study, monitor, and collect data on a wide range of sea life and ocean conditions, primarily off the West Coast. The 208-foot
vessel will also observe environmental conditions; conduct habitat assessments; and survey marine mammal, sea turtle, and marine bird
populations. The ship’s state-of-the-art design allows for quieter operation and movement of the vessel through the water, giving scientists
the ability to study fish and marine mammals without significantly altering their behavior.

NOAA Awards Contract for New Fisheries Research Vessel

NOAA has awarded a $73.6 million American Recovery and Reinvestment Act (ARRA) of 2009 contract to Marinette Marine Corporation
located in Marinette, WI. This is for the construction of a new fisheries survey vessel, FSV 6, which will dramatically improve NOAA’s ability
to conduct surveys for fish, marine mammals, and turtles off the West Coast and in the eastern tropical Pacific Ocean. FSV 6 will be the
fifth state-of-the-art OSCAR DYSON-class ship built for the Agency.

50th Anniversary of the Satellite that “Forever Changed Weather Forecasting”

The Television Infrared Observation Satellite (TIROS-1) celebrated its 50th anniversary on April 1, 2010. The first image from TIROS-1, the
world’s first weather satellite, was a fuzzy picture of thick bands and clusters of clouds over the United States. TIROS-1, a polar-orbiting
satellite, weighed 270 pounds and carried two cameras and two video recorders. An image captured a few days after its lift-off from Cape
Canaveral, FL, revealed a typhoon about 1,000 miles east of Australia. Though the satellite only lasted 78 days, its impact is still visible
today. Throughout the 1960s, each TIROS spacecraft carried increasingly advanced instruments and technology. By 1965, meteorologists
combined 450 TIROS images into the first global view of the world’s weather. When the more advanced TIROS-N satellite series were
launched between 1978 and 1981, the name of the spacecraft changed to Polar-orbiting Operational Environmental Satellite (POES). POES
orbits the Earth at an altitude of about 500 miles and circle the poles once every 102 minutes.




  152                                              F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




                            Strategic Goal 3 Program Evaluations

The following program evaluations were conducted on programs related to this strategic goal in FY 2010.

 Bureau         Reviewer                          Name                               Date                   Web site

 NOAA              GAO        NOAA has Expanded its Tsunami Programs, but            4/2010    http://gao.gov/products/GAO-10-490
                              Improved Planning Could Enhance Effectiveness
 NOAA              GAO        Agencies Must Act Quickly to Address Risks             5/2010    http://gao.gov/products/GAO-10-558
                              that Jeopardize the Continuity of Weather and
                              Climate Data
 NOAA              GAO        Planning Required to Mitigate Near-term Risks        6/29/2010   http://gao.gov/products/GAO-10-858T
                              and Ensure Long-term Continuity
 NOAA              OIG        FY 2009 FISMA Assessment of the                                  http://www.oig.doc.gov/oig/
                              Environmental Satellite Processing Center                        reports/2010/OAE-19730.pdf
                              (ESPC)
 NOAA              OIG        Review of NOAA Fisheries Enforcement                   1/2010    http://www.oig.doc.gov/oig/
                              Programs and Operations                                          reports/2010/OIG-19887.pdf
 NOAA              OIG        Review of NOAA’s Marine Operations Center-           6/28/2010   http://www.oig.doc.gov/oig/reports/
                              Pacific Lease Decision                                           marine_operations_centerpacific/
                                                                                               index.html
 NOAA              OIG        Review of NOAA Fisheries Enforcement Asset            7/1/2010   http://www.oig.doc.gov/oig/reports/
                              Forfeiture Fund                                                  correspondence/2010.07.01_IG_to_
                                                                                               NOAA.pdf
 NOAA              OIG        Review of NOAA’s Efforts to Modernize U.S.           7/29/2010   http://www.oig.doc.gov/oig/reports/
                              Historical Climatology Network: STL-19846                        correspondence/2010.07.01_IG_to_
                                                                                               NOAA.pdf




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 153
P e r f o r m a n c e S e c t i o n * s t r at e g i c g oa l 3




 154                                        F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
P e r f o r m a n c e   S e c t i o n




  M a n ag e m e n t
  I n t eg r at i o n
  G oa l
                                                                                               targets met
                         P ERFORMANCE o u t c o m e                                            or exceeded
Ensure effective resource stewardship in support of the Department’s programs (DM)                0 of 2

Ensure retention of highly qualified staff in mission-critical positions (DM)                     1 of 1

Acquire and manage the technology resources to support program goals (DM)                         1 of 1

Promote improvements to Department programs and operations by identifying and
completing work that (1) promotes integrity, efficiency, and effectiveness; and (2) prevents      2 of 3
and detects fraud, waste, and abuse (OIG)
                                          P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




                                     MANAGEMENT I NTEGRAT I ON GOA L

Achieve organizational and management excellence




                  P u b li c B e n e f i t s




 A  
              chieving organizational and management excellence
              is a goal that requires extensive interaction and
              coordination among entities throughout the
Department. Departmental Management (DM)—consisting of the
Offices of the Secretary, Deputy Secretary, Chief Financial Officer
(CFO) and Assistant Secretary for Administration (ASA), Chief
Information Officer (CIO), and General Counsel—provides the policies
and guidelines that support the management infrastructure the
Department needs to carry out its mission. In addition, the Office
of Inspector General (OIG) audit and inspection programs help
promote consistency and integrity throughout the Department.
Most of DM’s and the OIG’s work can be characterized as “behind-
the-scenes,” contributing to the efficiency with which operating
units throughout the Department administer their programs.

The Department must have the capacity to do business with the
public and its partner agencies, both as a more than $8 billion



F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                         157
P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




worldwide enterprise, and as an integrated set of individual programs. This requires that it identify, adopt, and maintain business
practices essential to successful operations; use its resources wisely; and effectively implement the laws that affect it. In order to
ensure the accomplishment of its mission, the Department has developed and put into place policies and programs designed to enable
the successful operation of its units, the effective and efficient use of both material and human resources (HR), and the implementation
of laws and regulations that govern the use of those resources. This performance outcome represents the Department’s commitment to
ensuring the wise stewardship of its resources. Because this goal encompasses a wide range of administrative and operational tasks, the
measures used to assess progress are highly diverse.

The Department continues to refine and develop programs to help train and retain a highly qualified workforce and avoid disruption in
the services it provides. Leadership priorities for improvement are based on employee feedback to surveys, various skills assessments, and
comprehensive workforce analyses. While performance management systems are effective in rewarding high performers, more targeted
approaches are necessary to close skill gaps in the entire workforce. Training and development programs are based on competency
assessments for mission-critical occupations such as meteorologist, statistician, acquisition, engineer, and chemist.

As U.S. society becomes increasingly oriented toward using electronic means of communication and information dissemination, federal
agencies must ensure that they continue to be as responsive as possible to the needs of the public, the private sector, other levels of
government, and other federal agencies. DM must promote leading-edge technologies, collaboration, and technology transformation
across the Department, ensuring alignment with mission requirements, goals, and objectives in order to deploy and maintain systems
able to perform at the highest levels.

The OIG’s criminal, civil, and administrative investigations continue to disclose instances of misconduct by employees, contractors, and
grantees that threaten the integrity of the Department’s programs and operations. In addition, auditors or inspectors frequently identify
investigative issues, such as fraud and conflicts of interest, and refer such matters to the OIG’s investigators.



Achievements

Acquisitions and Grants

DM provided proactive and timely guidance and oversight to the acquisition and grants community in the Department to ensure smooth
implementation and execution of the American Recovery and Reinvestment Act (ARRA) of 2009, and has been recognized for the superior
performance of its oversight of recipient reporting.

DM developed, through a cross-agency working group, agency-specific implementation guidance for effective management of the multi-
sector workforce, including development of guidance, an assessment template, and the institution of annual multi-sector workforce
planning tied to operating unit advance acquisition plans.

DM developed, with commitment from all operating units, an acquisition savings plan with a target goal of saving 3.5 percent of planned
acquisition spending through better acquisition practices.

DM updated Department acquisition policy, including publication of an updated Commerce Acquisition Regulation and developing formal
acquisition planning, use and management of incentive contracting provisions, and minimizing use of high-risk acquisition authorities policy.

DM instituted a formal acquisition and grant management review policy and conducted its first set of reviews (National Institute of
Standards and Technology (NIST) acquisition and grants) under this oversight program.




  158                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                          P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




Human Resources

DM exceeded the government-wide average for positive responses on 69 out of 77 eligible items on the 2010 Federal Employee Viewpoint
Survey, administered by the Office of Personnel Management (OPM) to gauge employee perceptions on critical work-life areas which drive
employee satisfaction, commitment, and retention. No Department averages for positive responses were “notably” (i.e., five percentage
points or more) below the government-wide averages for any items.

DM instituted an aggressive Return-To-Work Pilot Program to reduce Workers’ Compensation costs, resulting in $4.4 million in savings
for the Department over the lifetime of four cases that have received resolution determinations from the Department of Labor. HR is
pursuing an additional 11 cases to achieve a possible total lifetime savings of $22.5 million.

DM implemented Executive Order 13522, “Creating Labor-Management Forums to Improve Delivery of Government Services,” by
receiving plan certification from the National Council on Federal Labor-Management Relations, assisting the 18 Department unions
in determining their membership on the Department’s Labor-Management Forum, obtaining approval from all members on the Forum
charter, providing guidance and assistance on the establishment of bargaining unit councils, and evaluating and providing feedback to
the Forum Management Team on proposed pilot projects.

DM created and submitted seven comprehensive action plans to OPM and the Office of Management and Budget (OMB) in response to
the President’s Memorandum, “Improving the Federal Recruitment and Hiring Process.” The plans identify goals, targets, time lines, and
indicators of progress for hiring reform implementation by November 1, 2010.

DM expanded leadership development programs for both Department and federal employees by launching the non-competitive Leadership
Education and Development Certificate Program Pilot for Department employees with an immediate need to enhance their leadership
skills and redesigning the Senior Executive Service Candidate Development Program to offer opportunities to employees within other
federal agencies, including the Department of Education, Department of Energy, and Environmental Protection Agency.

DM formulated and presented the business case for acquiring an HR management system to greatly enhance the efficiency and
effectiveness of workforce planning, analysis, and reporting efforts. The HR management system has been included in the Secretary of
Commerce’s FY 2012 budget submission.

Financial Management

DM achieved an unqualified audit opinion for the twelfth consecutive year in FY 2010, and plans to maintain the same in FY 2011 and
beyond.

DM successfully completed an upgrade to the Office of Financial Management’s (OFM) Corporate Database, a commercial off-the-shelf
software package for consolidating financial data and producing financial reports. The Corporate Database is an integrated solution that
provides financial statements and Adjusted Trial Balances reported at the Department, bureau, and Treasury Appropriation/Fund Group
level. It also provides the ability to perform data analysis and produce the Department’s footnotes, financial analysis reports, and other
additional information required for the government-wide financial statements.

DM continued work on the Future Financial and Administrative Planning Business Analysis that will assist the Department in analyzing its
current financial and administrative environment, determining the long-term viability of its Commerce Business Systems (CBS) platform,
and evaluating CBS against other potential options to support its financial management environment.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    159
P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




DM migrated the OFM/CBS Solutions Center (CSC) Development and Test instances of CBS from the CSC in Gaithersburg, MD to the
OMB-designated Shared Service Center, Department of Transportation/Federal Aviation Administration/Enterprise Services Center (DOT/
FAA/ESC) in Oklahoma City, OK.

Administrative Services

In February 2010, the Department received a green score from OMB, the highest level, for both progress and status in energy and
environmental management. For transportation management, the Department received a green in progress and a yellow for status, a
significant improvement from its prior scorecard. As a result, the Department ranked second overall in the federal government.

The Department has been working with the General Services Administration to coordinate the Herbert C. Hoover Building’s eight-phase
renovation project. The renovation improves building safety and security; enhances quality of life, restores some historical building
features; and replaces aging machinery, electrical systems piping, and HVAC systems.

Phase 1 installed new cooling towers for the building’s air conditioning system and built out new office spaces in Courtyard 6 to house
operating units during the construction of their phases. This phase was completed in October 2009.

Phase 2 is currently underway. This phase cleans and restores the building facade; and installs new site utilities, air conditioning chill
water plant, a main electrical power distribution system, and emergency generators. Office spaces will receive a new heating, ventilation
and air conditioning system as well a new lighting system, carpeting, and painting. The exterior of the building will receive new perimeter
security, hardscaping, and landscaping.

On August 6, 2010, the Department submitted the Department’s Real Property Cost Savings and Innovation Plan to OMB. This plan
was developed in response to a July 1 request from OMB for executive branch agencies to identify ways of collectively achieving $3
billion in savings by eliminating excess real property. As a result of initiatives in its plan, DM estimates that the Department can realize
approximately $7.7 million in savings annually. To do so, however, will involve up-front investments totaling approximately $8.0 million
for necessary information technology (IT) infrastructure and equipment, and open systems furniture.

Information Office

DM reinstituted the Department IT Investment Review Board to ensure that Department major IT investments utilize sound project
management practices and exhibit risk-based approaches. The reinvigorated board will ensure that Department investments are well-
managed and of value to the taxpayer. As part of the Department’s transparency efforts, DM evaluated and submitted 51 business cases
to the federal IT Dashboard, demonstrating to the public the sound management of the Department’s IT investments. On average, DM
achieved within five percent of its cost, schedule, and performance targets for the major IT investments undergoing development and
enhancement. DM developed solid business cases for major IT investments with the business cases ensuring that DM managed and wisely
invested those IT funds.

DM established the Department Web Advisory Council to ensure that the Department Web presence reflects the appropriate use of social
media and Web 2.0 technologies while maintaining the privacy of its Web users. DM approved Privacy Impact Assessments, including
procedures to log and verify extracts of sensitive information, and posted them to the Web.

DM developed an IT security strategic plan to strengthen its IT security posture and operations and conducted rigorous IT security
compliance reviews based on federal standards and guidelines, and previous OIG certification and accreditation (C&A) recommendations;
90 percent of the Department’s 280 information systems have Authority to Operate (ATO) status.




  160                                             F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                          P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




DM implemented monthly reviews of Department information systems utilizing information within the automated IT security tool, Cyber
Security Assessment and Management (CSAM). DM used scorecards to develop quarterly trend analysis, and provided them to the
Department’s CIO Council. DM also implemented Department-wide plans of action and milestones (POA&M) management monitoring
program using CSAM. Dashboards are sent to operating unit CIOs tracking POA&M status; by implementing this monitoring program,
DM has improved operating unit POA&M management.

DM worked with OFM to create the IT Audit Working Group to address and resolve Financial Statements Audit IT findings, develop
enterprise-wide solutions, and prepare for future financial statements audits. The group developed and implemented a tracking and
management procedure to provide monthly progress reports on the resolution of audit findings. By July 2010, the group reported nearly
84 percent of the 70 FY 2009 IT findings as closed.

DM coordinated with the Federation of Computer Incident Response Team (CIRT), the U.S. Computer Emergency Readiness Team (US-
CERT) at the Department of Homeland Security, to receive timely security alerts and notifications. As a result, the Department detected
malicious cyber attacks against its network and developed plans to remediate and prevent potential threats and vulnerabilities.

Almost all of the OIG’s recommendations made were accepted by senior Agency leadership; implementation of these recommendations
will result in significant improvements to the Department’s operations. The OIG’s inspections and audits also captured significant financial
benefits for the Department, including recovery of funds returned to the Department, expenditures that were not supported by adequate
documentation, recoveries from criminal and civil investigations, future financial benefits from recommendations for more efficient use
of Department funds, and expenditure of funds that may have been inconsistent with applicable laws and regulations.


                                           Summary of Performance

The following outcomes apply to this objective with the measures below them providing an indication of how well the Department is
doing in achieving those outcomes.

1.	 Ensure effective resource stewardship in support of the Department’s programs (DM)

2.	 Ensure retention of highly qualified staff in mission-critical positions (DM)

3.	 Acquire and manage the technology resources to support program goals (DM)

4.	 Promote improvements to Department programs and operations by identifying and completing work that (1) promotes integrity,
    efficiency, and effectiveness; and (2) prevents and detects fraud, waste, and abuse (OIG)




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      161
P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




 Outcome       Performance Measure                              Target                                       Actual                       Status
       1    Provide accurate and timely          ●●   Eliminate any significant          ●●   Significant deficiency not eliminated
            financial information and conform         deficiency within 1 year of
            to federal standards, laws, and           determination                                                                       Not Met
            regulations governing accounting     ●●   Complete FY 2010 A-123             ●●   Completed FY 2010 A-123 assessment
            and financial management
                                                      assessment of internal controls         of internal controls
       1    Effectively use commercial           ●●   Increase use of competition by     ●●   Maintained and monitored existing
            services management                       2%, measured by procurement             activities, however, no new cost
                                                      dollars awarded                         comparisons were permitted under this
                                                                                              year’s appropriation language, therefore
                                                 ●●   Decrease procurement                                                                  N/A
                                                                                              the result is considered not applicable
                                                      dollars awarded on a cost-
                                                      reimbursement, time and
                                                      materials, and labor hours
                                                      contracts by 10%
       1    Obligate funds through
            performance-based contracting (%                      50%                                          37%                        Not Met
            of eligible service contracting $)
       2    Acquire and maintain diverse and     ●●   Have new competency models         ●●   Produced competency models for four
            highly qualified staff in mission-        in place for three mission-             mission-critical occupations
            critical occupations                      critical occupations for use in    ●●   Established hiring process baseline at
                                                      workforce recruitment, training,
                                                                                              133 days
                                                      and development activities
                                                                                         ●●   Trained 98 ALDP, ELDP, and APCP
                                                 ●●   Meet or exceed the 80-day
                                                                                              participants via leadership development
                                                      hiring goals mandated by OPM
                                                                                              programs, and 181 employees via the
                                                 ●●   Train up to 50-70 participants          Careers in Motion Program                    Met
                                                      on leadership development          ●●   Integrated Commerce Learning Center
                                                      programs via ALDP, ELDP and
                                                                                              in program administration to enhance
                                                      APDP, and 180-200 participants
                                                                                              measurement of results
                                                      via Careers in Motion
                                                 ●●   Integrate Commerce Learning
                                                      Center in program administra-
                                                      tion to enhance tracking and
                                                      progress monitoring
       3    Improve the management of            ●●   IT investments have cost/          ●●   For the year, IT investments had cost/
            information technology                    schedule overruns and                   schedule overruns and performance
                                                      performance shortfalls                  shortfalls averaging less than 10%
                                                      averaging less than 10%            ●●   Completed security assessments
                                                 ●●   Perform IT security compliance          and vulnerability assessments for all
                                                      review of all operating units,          operating units. Submitted findings and
                                                      and 10 FISMA systems in CSAM            recommendations to operating units and
                                                                                              OCIO for review
                                                 ●●   Deploy an enterprise-wide role-
                                                      based cybersecurity training       ●●   Implemented cybersecurity
                                                      program                                 development program and graduated
                                                                                              20 candidates from the Department’s          Met
                                                 ●●   Deploy national security and
                                                                                              first class. Enrolled candidates in the
                                                      emergency network initial
                                                                                              program’s second class. More than
                                                      operating capability
                                                                                              eight candidates have obtained or are
                                                                                              planning to obtain security-related
                                                                                              certifications.
                                                                                         ●●   Deployed national security and emer-
                                                                                              gency network in the development
                                                                                              environment. Received official approval
                                                                                              to connect from Defense Intelligence
                                                                                              Agency.
                                                                                                                                          (continued)


 162                                                  F Y   2 0 1 0   P E R F O R M A N C E        A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                    P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




 Outcome           Performance Measure                              Target                          Actual                    Status
     4          Percentage of OIG
                recommendations accepted
                                                                      95%                             95%                       Met
                by Departmental and bureau
                management
     4          Dollar value of financial benefit
                                                                     $38.0M                          $47.8M                  Exceeded
                identified by the OIG
     4          Percentage of criminal and civil
                matters that are accepted for                         75%                             42%                     Not Met
                prosecution



FY 2 0 1 0 S t a t u s

DM and the OIG met or exceeded four of seven applicable targets in FY 2010. DM did not meet the targets for “Obligate funds through
performance-based contracting (% of eligible service contracting $) and “Provide accurate and timely financial information and conform
to federal standards laws, and regulations governing accounting and financial management.” The OIG did not meet the target for
“Percentage of criminal and civil matters that are accepted for prosecution.”



FY 2 0 1 0 Miss e d T a r g e t s

   Measure          Obligate funds through performance-based contracting (% of eligible service contracting $) (DM)
                    37.28% of obligated dollars ($815,883.198) were awarded on performance-based contracts. While DM
 Explanation        did not meet the goal of 50%, they are making progress in that Census Bureau exceeded the 50% goal and
                    USPTO missed it by only 1.3%.
 Action             DM will continue to seek to award more performance-based contracts.
   Measure          Provide accurate and timely financial information and conform to federal standards, laws, and regula-
                    tions governing accounting and financial management
                    The significant deficiency was not eliminated. However, the other portion of the measure, “Complete
 Explanation
                    FY 2010 A-123 assessment of internal controls,” was done.
                    DM continues to make progress in this area, though the significant deficiency in IT controls remained in
 Action
                    FY 2010.
   Measure          Percentage of criminal and civil matters that are accepted for prosecution (OIG)
                    Notwithstanding that the U.S. Attorneys have thresholds for accepting cases, due to the sensitivity of the
 Explanation        Decennial Census, the OIG advocated for prosecution of a number of census-related cases that otherwise
                    would not normally have been referred to the U.S. Attorney.
 Action             No additional action taken.



His t o r i c a l T r e n d s

DM has consistently achieved its IT and human resources targets since they began reporting in FY 2005. The OIG has met or exceeded all
of its targets (with the exception of one—see FY 2010 Missed Targets above) since it began reporting them in FY 2003.




F Y   2 0 1 0    P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      163
P e r f o r m a n c e S e c t i o n * M a n ag e m e n t I n t e g r at i o n g oa l




 164                                       F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n ci a l
S ec t i o n
M e s s ag e f r o m t h e c h i e f f i na n c i a l o f f i c e r




Message from the Chief Financial Officer

T
          his FY 2010 Performance and Accountability Report provides       In support of this initiative, the Department established the Office
          financial and program performance information to enable          of Risk Management and Program Evaluation, which leads multi-
          the Department’s stakeholders to understand and evaluate         disciplinary, Department-level teams to analyze and evaluate selected
the achievements that have been made relative to its mission and           programs on a regularly scheduled basis throughout the year. The
the resources with which it is entrusted. The report summarizes            first of these reviews, which was completed in August, highlighted
highlights of the Department’s performance, provides detailed financial    a need for revised metrics, identified operational efficiencies, and
information, and fulfills the requirements of the Reports Consolidation    recommended new approaches to aligning programs with Secretarial
Act of 2000, the Chief Financial Officers Act, the Government              priorities.
Performance and Results Act, the Federal Managers’ Financial Integrity
Act, and the Government Management Reform Act.                             Further strengthening new approaches to the budget process and
                                                                           Department-wide performance, we established an enterprise risk
We are proud to report that in FY 2010 the Department of Commerce          management program in FY 2010. For the first time, the Department
achieved an unqualified audit opinion for the twelfth consecutive year.    will manage risks from a formally-structured, Department-wide
However, the Department is continuing work to resolve a significant        perspective. The new enterprise risk management program will work
deficiency concerning information technology security controls that        in concert with program evaluation efforts to identify operational
relate to financial systems.                                               issues and elevate them to the attention of senior leadership to
                                                                           ensure the best use of Department resources.
Other highlights from FY 2010 include the completion of the phased
migration of the Chief Financial Officer and Assistant Secretary for       The Department also continued to participate in the government-
Administration’s (CFO/ASA) financial and enterprise application            wide initiative to strengthen internal controls under the Federal
systems from the Consolidated Business Systems (CBS) Solutions             Managers’ Financial Integrity Act and OMB Circular A-123, and we
Center in Gaithersburg, MD and the Office of Computer Services             are currently engaged in enhancing both financial and non-financial
in Springfield, VA. These systems were seamlessly consolidated             controls. These efforts are a reflection of our commitment to
and relocated to a dedicated, certified data center operated by            excellence in managing financial systems and safeguarding financial
the Department of Transportation’s Enterprise Services Center in           resources and investments. The Department’s assessment for FY 2010
Oklahoma City, OK.                                                         identified no material weaknesses in its financial internal controls.
                                                                           Additionally, based on the work that has been done to strengthen IT
During the past fiscal year, the Department also upgraded its              security certification and accreditation documentation and processes,
Consolidated Financial Reporting Corporate Database and continued          the Department considers the material weakness that has been
work on the Future Financial and Administrative Planning Business          previously reported in this area to be resolved. Overall IT security will,
Analysis. This effort will assist in analyzing the current financial and   however, continue to receive considerable attention throughout the
administrative environment, determining the long-term viability of its     Department as it works to maintain and further enhance its security
CBS platform, and evaluating CBS against other potential options to        profile as needed to protect its IT resources.
support the financial management environment. We also continued
to support the Information Technology Modernization Blueprint effort,      The Department remains committed to maximizing the effectiveness
which involves a critical review and prioritization of the Department’s    of its programs and ensuring their efficient delivery to the American
administrative business systems, and provides a framework for              people. During FY 2011, we will continue to support mission-related
managing projects from start through operation.                            programs with strong and effective financial management and
                                                                           internal controls.
The Department also established a new long-term approach to the
budget process. To accomplish this, we created a task force composed
of representatives from all of the bureaus as well as the Office of
Budget and Office of the Chief Information Officer. The team
re-invented the Secretarial budget formulation process to ensure                             Scott Quehl
that each bureau’s budget request reflects the strategic goals of the                        Chief Financial Officer
Department and the priorities of the Secretary. The ultimate objective                       and Assistant Secretary for Administration
is to align budget decision-making with strategic planning, and to                           November 15, 2010
transform the budget process into a program-based approach.



  166
                                                     F Y   2 0 1 0   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




    F i n a n ci a l
    M a n ag e m e n t
    and
    A n a lys i s
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




                        FINANCIAL M ANAGE M ENT AND ANALYSIS




 U 
              nder the Secretary’s leadership, the Department is continuing to give the highest priority to providing accurate financial
              data to its internal and external customers, and to its accountability for all assets. Ensuring that there are strong
              internal controls throughout the Department remains a priority. The Department has created a financial management
environment that complies with federal laws and regulations and that provides its executives with timely, accurate financial and
performance information. This is evidenced with the Department continuing to receive unqualified audit opinions, maintaining a
single integrated financial system, and continuing its compliance with the Federal Financial Management Improvement Act (FFMIA).
Highlights of accomplishments for FY 2010 and future initiatives are discussed further below.



                                         FINANCIAL MANAGEMENT SYSTEMS

The Department maintains an FFMIA-compliant financial management system, the Commerce Business Systems (CBS). CBS replaced
non-compliant legacy financial management systems. The financial information from these systems and CBS is integrated in the
Corporate Database (as discussed further below) for consolidated financial reporting, resulting in a single integrated financial
management system.

CBS provides reliable, timely information within a sophisticated security infrastructure. The system is capable of producing both
financial and budget reports from information generated within the financial management system. CBS consists of a Core Financial
System (CFS), including the Commerce Purchase Card System (CPCS) and the Budget and Execution Data Warehouse. CBS is
interfaced with the Commerce Standard Acquisition and Reporting System (CSTARS), the National Finance Center Payroll System,
and the Automated Standard Application for Payments (ASAP). The Office of Financial Management/CBS Solutions Center (OFM/
CSC) successfully migrated CBS to Web-based software architecture (Oracle 10g). This utilization of the Oracle Portal technology
simplified and consolidated access and password control. During FY 2009, the Census Bureau, National Oceanic and Atmospheric
Administration (NOAA), and the National Institute of Standards and Technology (NIST) successfully migrated their production
instances of CBS from Oracle client-server architecture to a Web-based application built upon Oracle 10g. As a result, the life
expectancy of CBS is extended to 2023, with at least one upgrade to a later version of Oracle.

The Corporate Database is a commercial, off-the-shelf software package for consolidating financial data and producing financial
reports. The Corporate Database is an integrated solution that provides financial statements and Adjusted Trial Balances reported
at the Department, bureau, and Treasury Appropriation/Fund Group level. It also provides the ability to perform data analysis and
produce the Department’s footnotes, financial analysis reports, and other additional information required for the government-
wide financial statements.

During FY 2010, the Department accomplished the following initiatives:

   l	   Completed the upgrade of the Department’s consolidated financial reporting corporate database to version 11.1.1.3;

   l	   Continued Operations and Maintenance activities for CBS;

   l	   Continued work on the Future Financial and Administrative Planning Business Analysis that will assist the Department in
        analyzing its current financial and administrative environment, determining the long-term viability of its CBS platform, and
        evaluating CBS against other potential options to support its financial management environment;




                                                                                                                                  169
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




   l	   Initiated standardization of all Office of Management and Budget (OMB) and non-OMB object classes to be utilized by all
        Department bureaus;

   l	   Continued to monitor bureau efforts in implementing standardized processes for identified accounting events, and track and
        measure the bureaus’ performance through performance metric reports;

   l	   Continued to support the key areas of the Modernization Blueprint effort. This initiative facilitates a critical review and
        prioritization of the Department’s administrative business systems and provides a framework for managing projects from start
        through operation;

   l	   Completed the phased migration planning and implementation for the Chief Financial Officer/Assistant Secretary for
        Administration (CFO/ASA) Financial and Enterprise Application Systems from the CSC in Gaithersburg, MD, and the Office
        of Computer Services in Springfield, VA, to a dedicated, certified data center operated by the Department of Transportation’s
        Enterprise Services Center (DOT/ESC) in Oklahoma City; and

   l	   Finalized architecture and tentative deployment timeframe for each bureau to standardize the CBS architecture.

In FY 2011 and beyond, the Department will continue its efforts to enhance its financial systems. The Department plans to
accomplish the following:

   l		Continue   Operations and Maintenance activities for CBS;

   l	   Complete the Future Financial and Administrative Planning Business Analysis and use this information and data to analyze the
        Department’s financial and administrative environment, determine the long-term viability of its CBS platform, evaluate CBS
        against other potential options to support its financial management environment;

   l	   Continue the Modernization Blueprint program, focus on maintaining a comprehensive inventory of programs, initiatives, and
        systems across the CFO/ASA in order to enable Department managers to prioritize and plan resources, and perform better
        analyses of programs and initiatives that are underway or planned through FY 2013;

   l	   Finalize standard OMB and non-OMB object classes and implement in all Department bureaus;

   l	   Maintain and possibly enhance the OFM/CSC Portal that provides for a unified gateway for access to Department administrative
        applications, including single sign-on and self-service administration, as well as hosting the Modernization Blueprint program;
        and

   l	   Continue to monitor bureau efforts in implementing standardized processes for identified accounting events, and track and
        measure the bureaus’ performance through performance metrics reports.


                                                  FINANCIAL REPORTING

The Department is committed to making financial management a priority, and significant efforts are being made to further
improve the management of its financial resources. The Department has received unqualified opinions on its consolidated financial
statements since 1999. The Department met the financial statement submission deadlines for FY 2010. These achievements
resulted from the Department’s commitment to strong management controls and accountability for its resources. One significant
deficiency cited relating to deficiencies in general information technology (IT) controls remained from prior years. The Department
has corrective action plans (CAP) in progress to address these deficiencies. In FY 2010, the Department conducted an assessment of
the effectiveness of internal controls over financial reporting in accordance with OMB Circular A-123, Management’s Responsibility
for Internal Control, Appendix A, including adhering to the risk-based three-year rotational testing plan. A Senior Management
Council (SMC) and a Senior Assessment Team (SAT) worked together to provide oversight guidance and decision-making for the



 170
                                                  F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




A-123 implementation process. The final report, which reported no material weaknesses, was incorporated into management’s
overall assurance statement provided under the requirements of the Financial Managers’ Financial Integrity Act (FMFIA). In addition,
the Department conducted an improper payment sample testing; the results revealed no significant improper payment or internal
control deficiencies. Overall, the Department’s assessments demonstrate that the Department has strong internal controls over the
disbursement processes, the amounts of improper payment in the Department are immaterial, and the risk of improper payment is
low. See Appendix D for reporting details of the Improper Payments Information Act (IPIA) of 2002, as amended.

The Department accomplished the following initiatives that resulted in meeting the aforementioned goals:

   l	   Held meetings throughout the fiscal year with the Office of Inspector General (OIG) and independent auditors to ensure timely
        completion of the audit and issuance of the financial statements;

   l	   Prepared and monitored CAPs for the significant deficiency and management letter comments and monitored progress toward
        their completion throughout the year;

   l	   Each of the Department’s bureaus/reporting entities has completed an entity-level controls assessment as required by OMB
        Circular A-123, Appendix A. Further control assessment testing was conducted for Control Environment;

   l	   Published guidance on the preparation and submission of financial statements, including a calendar of milestone dates.
        Each quarter, with the participation of all bureaus, guidance was reviewed and updated to reflect lessons learned and to
        identify best practices among the bureaus. When necessary, task forces were formed to resolve issues that could have impeded
        the Department’s ability to produce timely, accurate financial statements;

   l	   Each of the Department’s bureaus/reporting entities have currently completed or are performing, over a one to three-year
        period (depending on the size of the entity), improper payment risk assessments covering all of its programs/activities as
        required by OMB Circular A-123, Appendix C. These improper payment risk assessments of the entity’s programs/activities
        also include assessments of the corporate control, procurement, and grants management environments, and will thereafter be
        updated or revised on a periodic basis;

   l	   Finalized revised capitalization thresholds and new bulk purchase thresholds for several bureaus/reporting entities for property,
        plant, and equipment acquisitions, effective FY 2011;

   l	   Held monthly or quarterly meetings led by the Department’s Deputy CFO with individual bureau CFOs to discuss financial
        management issues, including financial statements, OMB Circular A-123, and financial performance metrics. These meetings
        were in addition to the Department’s monthly CFO Council meetings led by the Department’s CFO and the monthly Finance
        Officer meetings led by the Deputy CFO;

   l	   Monthly financial metrics were compiled, analyzed, and reported in the government-wide consolidated CFO measurement
        tracking system. Individual bureaus were provided with a monthly status report comparing and analyzing their results with
        the Department’s goals, and the Department and government-wide results. The results of bureaus’ metrics and any corrective
        actions needed were discussed at the bureau CFOs’ individual monthly meetings; and

   l	   Facilitated intragovernmental transaction reconciliations using the Department’s Corporate Database application to collect,
        extract, and report on a quarterly basis its intragovernmental account balances, by trading partner, to the Treasury Department.
        The Department took a proactive approach of initiating contact with all trading partner agencies to reconcile large differences.
        Although the Department has seen an improvement in trading partners’ participation, continued improvement is needed in
        order to reconcile all differences.




                                                                                                                                   171
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




Although the Department has accomplished much in the area of financial management, there is still a need to improve upon these
accomplishments to ensure that the Department continues to produce and report accurate, reliable, and timely financial information.

In FY 2011 and beyond, the Department plans to accomplish the following:

   l	   Continue to enhance OMB Circular A-123, Management’s Responsibility for Internal Controls, process and monitor the
        implementation of the CAPs for any identified deficiencies as a result of the A-123 and financial statement audit process;

   l	   Continue to identify areas that will facilitate the acceleration of providing accurate, reliable financial information to Department
        managers and central agencies. This will be achieved through ongoing meetings and workgroups among the Department’s
        financial managers and participation in government-wide financial management committees and workgroups;

   l	   Continue to monitor and minimize improper payments, and continue to work with OMB and Treasury Department on
        implementations of Presidential Memorandums regarding “Do Not Pay List” screening requirements, and regarding recapturing
        improper payments through payment recapture audits; and

   l	   Continue to work with OMB, Treasury Department, and the government-wide Central Reporting Team to improve the
        intragovernmental transactions reconciliation process.


                                                    GRANTS MANAGEMENT

Under the CFO/ASA, the Office of Acquisition Management (OAM) is responsible for the Department’s enterprise-wide grants
management policy, projects, and oversight. The Department’s focus is to standardize policy and procedures for its grant and
cooperative agreement programs in order to strengthen compliance, work toward a single automated grants management system, and
enhance/formalize workforce education. Targeted efforts continue to transform the decentralized Department grants management
community into an effective and efficient partnership. The sharing of resources and responsibilities to accomplish enterprise goals is
a recurring theme throughout the partnership effort.

Integral to the Department’s effort to move aggressively into the world of electronic grants is the continued utilization of NOAA’s
Grants Online system, a back-office solution to the Grants.gov storefront. The system is designed to facilitate efficiencies through
standardized business processes and provide a direct interface to other Departmental systems and with grant recipients. It continues to
demonstrate significant success in reducing paperwork, increasing accountability, and simplifying the post award process. The Grants
Online system has also been identified as the solution to standardizing grants procedures in the Department. Grants Online is a
paperless electronic grants management system that has gained government-wide recognition for streamlining and accelerating the
grants application process. This standardization effort is successfully aligning internal processes for the Federal Grants Management
Line of Business system consolidation efforts.

During the prior year, operational grants management responsibilities for grant programs of the International Trade Administration
(ITA), Minority Business Development Administration (MBDA), and the Office of the Secretary were transferred from OAM to NOAA.
This action was taken pursuant to the recommendation of the Optimal Services Delivery Initiative, a Department taskforce charged
with streamlining Departmental operations and introducing new efficiencies into the management of its programs. This reorganization
moves the management of these programs from a manual, paper-driven process to the automated environment of Grants Online.
These three agencies are fully operational in integrating their grant management functions into the electronic processes of Grants
Online. The Department’s Grants Management Line of Business Implementation Plan calls for the consolidation of NIST’s Grants
Management Information System (GMIS) and the Economic Development Administration (EDA) Operations Planning and Control
System (OPCS) to Grants Online by 2011. An intradepartmental working group has developed a project plan for the performance




 172
                                                   F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




of a fit gap analysis between bureau grants management systems and Grants Online which should be completed by June 2011.
Active incorporation of the functions of these two systems into Grants Online should begin sometime in mid-2011.

The OAM Grants Management Division (GMD) will focus the Department’s work in improving efficiency through continued progress
in implementation of the streamlining and automation goals of Public Law (PL) 106-107. Key to that effort will be the creation of a
Department-wide training and certification program for grants staff that will align over time with that being developed by the Grants
Policy Committee work group on training and certification.

During FY 2010, the intra-departmental project team acting under the authority of the Departmental Grants Council continued
its workforce development efforts by creating an interactive Web-based course on administrative requirements for grants and
cooperative agreements. This course has been completed and deployed in FY 2010 on the Commerce Learning Center Web site.

OAM coordinates quarterly Departmental Grants Council meetings and works closely with the OIG and the Office of General Counsel
to implement sound policy and ensure consistency for the Department’s financial assistance programs. The Department is committed
to the goal of strengthening its grant operations and improving its business processes to provide better services to its customers
in the federal grant recipient community. OAM has formally instituted a process of Grant Management Reviews which requires
that the respective grants divisions at NOAA, NIST, and EDA undergo a review of its functions and processes once every three years.
The reviews will be conducted by multi-bureau teams lead by OAM. The first of these reviews was completed at NIST in FY 2010.

The OAM Director and the Director of GMD serve on the Grants Executive Board and the Grants Policy Committee, participating
in workgroups and pilot activities. The Department is now fully compliant with Grants.gov milestones and has revised its Grants
and Cooperative Agreements Manual and Standard Grants Terms and Conditions to recognize the emerging growth of electronic
government. Continued review and updating of the manual will occur to keep pace with the new requirements engendered by the
transition to Grants.gov as the business process model for federal financial assistance programs.

The Department made significant progress in meeting the data-reporting requirements of the Federal Funding Accountability and
Transparency Act of 2006 (PL 109-282). Significant technical requirements were presented by this act. As of FY 2010, the Department
is up to date with its three grant-making bureaus in providing accepted data to the universal Web site, USAspending.gov, consistent
with the goal established in the FY 2008 PAR.

OAM GMD is the point of contact for Catalogue of Federal Domestic Assistance (CFDA) updates and represents the Department at
CFDA User Group meetings. GMD coordinates the response to annual CFDA data calls. Additionally, the responsibility for coordinating
and processing Individual Background Screenings utilizing from CD-346 (Applicant for Funding Assistance) has been passed from the
OIG to OAM/GMD in FY 2010. As of mid-August, GMD had processed over 600 Individual Background Screenings for Department
bureaus through a Federal Bureau of Investigation database.

The passage of the American Reinvestment and Recovery Act (ARRA) of 2009 posed a major challenge to the Department’s grants
and acquisitions personnel and those in other government agencies. This legislation placed historic administrative and reporting
burdens on agencies as the Department prepared to award the stimulus funds authorized by this act to mitigate the damage of the
worst national recession in 50 years. During FY 2010, the Department extended its efforts to obligate all ARRA funds by September
30, 2010. As of the end of September the Department has obligated 99.6 percent of its ARRA funding.

This effort includes a rigorous and demanding standard of monitoring and accuracy in ARRA recipient reporting which is managed
by GMD. OAM has produced detailed and extensive guidance for client bureaus for ARRA reporting. As a result, the Department has
established and achieved high standards of accuracy in data quality and timeliness in recipient reporting for more than 400 ARRA




                                                                                                                               173
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




awards by mid August 2010. GMD produces a daily download and summary of the status of ARRA awards. GMD provides daily
guidance and support to bureaus of questions related to ARRA recipient reporting.

GMD also provides an advisory in its communiqués to the bureaus of the status of Central Contractor Registry (CCR) for all ARRA
recipients. CCR registration is required of all recipients annually. This advisory is provided as a risk management tool to prevent
registrations from expiring. Expiration of the CCR sets in motion a long and onerous process of re-registration which can adversely
impact an award. Additionally, data quality monitoring of bureau reporting of ARRA awards to USASpending.gov is performed
by GMD.

OAM has taken further steps to provide guidance to improve accuracy in data quality for all Department financial assistance
programs. Grants officers and subordinate supervisors along with program offices are required to verify that data reported to
the Federal Assistance Awards Data System (FAADS) and USASpending.gov are accurate and consistent. This element will be a
performance metric in grants management reviews conducted by GMD.

OAM is a central player in Department efforts and has responded by establishing core work groups within the Department and
participating in intergovernmental forums to collaborate with the Department’s federal colleagues in the largest economic stimulus
program ever undertaken by the federal government. OAM has led or teamed with collateral Department units to develop numerous
guidance documents on reporting, internal controls, and award terms and conditions specifically targeted to ARRA awards. Web sites
dedicated to ARRA have been established and significant outreach efforts undertaken to support prospective applicants for ARRA
awards. Oversight processes have been developed to meet the requirements of ARRA and to support the continuing goals of the
Administration and Congress with respect to transparency and accountability.

Under OMB circulars, organizations receiving federal awards are assigned to a single federal agency (cognizant agency) which acts
on behalf of all federal agencies in approving indirect cost and other rates for that organization. The Department is responsible
for reviewing indirect cost proposals (IDC) submitted by assigned grantee organizations and, based on those reviews, negotiates
appropriate indirect cost rates. OAM’s responsibility for the management of this program continued throughout the fiscal year.
New rate review procedures that were implemented during FY 2007 produced greater levels of financial analysis that resulted
in financial savings to the Department through indirect cost rate adjustments from grantees’ proposed rates. In FY 2010, GMD
expects to approve in excess of 100 IDCs. Program focus for the coming year will include continued implementation of stronger
internal controls.

OAM will continue to actively seek opportunities to support government-wide goals of transparency and data quality management.



                                                      HUMAN CAPITAL

Both the President and Congress recognize that the federal workforce is central to the delivery of services to the U.S. public.
Acknowledging that people are the key to mission accomplishment, Departmental leadership continues to implement and evaluate
programs to ensure that there is succession planning in the area of financial management. Internship and leadership development
programs are used as vehicles for making progress in the recruitment and retention of a highly-skilled and diverse workforce. Internship
programs are implemented through a variety of sources to provide finance and accounting majors an opportunity to gain hands-on
experience, while introducing potential future employees to the opportunities that exist at the Department. Ongoing training and
development opportunities are offered as a component of continuous learning in the area of financial management.




 174
                                                 F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




In FY 2010, the Department continued to recruit college-level graduates interested in pursuing a career in federal accounting through
the Federal Career Intern Program (FCIP). Created under Executive Order 13162, the FCIP has assisted federal agencies, including
the Department, in the effort to recruit the highest caliber people to the federal government, develop their professional abilities,
and retain them through a possible conversion to permanent appointments in the competitive service. The FCIP is a two-year
program through which interns are appointed to GS-5, 7, 9 (and equivalent) grade level positions allowing them to develop and/or
enhance competencies essential to the Department’s mission and needs. The program consists of an initial assignment, rotational
assignments, formal classroom training, and mentoring sessions. Supervisors establish individual development plans, in conjunction
with the training officers and interns, to ensure that the two years of formal training offer opportunities to gain knowledge and skills
relevant to accomplishing organizational goals and necessary to perform successfully in the program. During the two-year internship,
supervisors closely monitor interns to assess their potential for continued employment in the federal government. Contingent upon
satisfactory performance throughout the internship program, interns are non-competitively converted to career or career-conditional
appointments. During FY 2010, a class of four interns in financial management occupations graduated from the program, and a new
class of nine interns in financial management occupations entered the program to begin the two-year term. There are a total of 12
interns in FY 2010.

The Department also continued its recruitment efforts in the area of financial management by maintaining its partnership with the
National Academy Foundation (NAF) Academy of Finance (AOF). The NAF AOF students are brought on-board through the Student
Temporary Employment Program to enhance their individual and collective learning experiences in the finance and accounting fields.
At the completion of the eight weeks of the NAF program, students make presentations to Department leaders to demonstrate
newly acquired skills in their respective areas. Departmental supervisors monitor the performance of the interns throughout their
appointment, and after successful completion, many supervisors have extended the temporary appointment or utilized other programs
(i.e., Student Career Experience Program) to bring in entry-level talent. In FY 2010, the Department recruited 14 AOF high school
students for the summer 2010 term across eight bureaus and organizational units.

In addition to the recruitment efforts being implemented to attain a highly-skilled workforce in the area of financial management,
the Department has succession planning strategies in place, including the development of competencies within the current workforce.
As one of the Department’s recognized mission-critical occupations, accounting and budgeting series employees at the GS-7 through
GS-15 and equivalent levels are eligible to apply for the following major leadership development programs: Leadership Education and
Development Certificate Program, Aspiring Leaders Development Program, Executive Leadership Development Program, and Senior
Executive Service Candidate Development Program. These program activities include competency assessments, formal classroom
training, developmental assignments, seminars, action learning task team projects, and mentoring sessions. In FY 2010, a total of six
employees in the financial management workforce participated in the Department’s formal leadership development programs.

Approximately 225 financial management professionals from all levels in the operating units participated in various training sessions
during the three-day Department 2010 Annual Financial Management Conference. The theme “Spring into Action” was actualized
through interactive training modules and information sessions in areas such as strategic planning to produce results; teambuilding;
and recruitment, development, and retention of employees. Additionally, special sessions were held to discuss major Administration
priorities including OMB performance measurements, government-wide and Department ARRA implementation, and the Department
balanced scorecard and performance excellence program.




                                                                                                                                  175
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




                                            Debt Management


                                    RECEIVABLES AND DEBT MANAGEMENT




 T 
          he Department has incorporated the principles of the Credit Reform Act of 1990 into the operations of its credit and debt
          programs. Prescreening procedures, account-servicing standards, determined collection of delinquent debt, inventory
          management, and asset disposition standards have helped to diminish significantly the amount of risk inherent in credit
programs. These procedures were established to ensure that credit costs are properly identified and controlled, that borrowers’
needs are met, and that costs to the taxpayers are minimized.
               (in Millions)




The Department’s gross receivables increased 11.2 percent, from $533 million at September 30, 2009 to $593 million at September 30,
2010, as reported on the Department’s Treasury Report on Receivables (TROR). The TROR is the primary means for the Department to
provide comprehensive information on its gross receivables and delinquent debt due from the public. Debt over 180 days delinquent
decreased slightly from $41 million at September 30, 2009 to $40 million at September 30, 2010. Total delinquencies as a percentage
of gross receivables decreased from 9.2 percent at September 30, 2009 to 7.5 percent at September 30, 2010, due to the decrease
in total delinquencies.




 176
                                               F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




The Debt Collection Improvement Act of 1996 established the Treasury Department as the collection agency for eligible federal
agency debts that are more than 180 days delinquent. It also established Treasury’s Financial Management Service as the federal
government’s debt collection center. Over $29 million in delinquent debt has been referred to Treasury for cross-servicing since
FY 2002. Currently, over 68 percent of the Department’s overall delinquent debt that is eligible for referral to Treasury is in litigation
with the Department of Justice for enforced collection.
During FY 2001, the issuance of the revised Federal Claims Collection Standards and the revised OMB Circular A-129, Policies for
Federal Credit Programs and Non-Tax Receivables, provided agencies greater latitude to maximize the effectiveness of federal debt
collection procedures. Since then, the Department has utilized all the tools available to improve the management of its debt.


                                                P AY M ENT P RACTICES

Electronic Funds Transfer (EFT)

The Debt Collection Improvement Act of 1996 requires the use of EFT for most federal payments, with the exception of tax refunds.
The Department closely monitors its monthly EFT performance, and submits consolidated monthly EFT activity reports to OMB, as part
of the Department’s Performance Metrics data.

The Department’s vendor EFT percentage decreased slightly from 99 percent for FY 2009 to 98 percent for FY 2010. The Department
worked closely with its bureaus to identify opportunities for new or improved business processes. These efforts allowed the Department
in FY 2010, on average, to consistently exceed OMB’s vendor EFT performance goal of 96 percent. The Department’s overall EFT
percentage decreased from 98 percent for FY 2009 to 96 percent for FY 2010. This is primarily due to the need for non-EFT payroll
payments to certain 2010 Decennial Census temporary employees. The Department believes its continued efforts to implement new
or improved business processes will lead to future increases in vendor and overall EFT percentages.




                                                                                                                                    177
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




The Department’s achievements in this area are illustrated in the table below:


                                                                                                    Total Volume
                                                                                          (Actual Number of Transactions —
                 Payment Category                          EFT Percentage                         EFT and Non-EFT)
                                                    FY 2010              FY 2009             FY 2010                FY 2009
       Grants                                         100%                  100%                  35,497              30,577
       Payroll                                         96%                  98%              8,331,574             2,471,408
       Retirement Benefits                             99%                  99%                    5,896               6,081
       Vendor                                          98%                  99%                  383,228             562,441
       Overall                                         96%                  98%             8,756,195             3,070,507


The substantial increase in the total volume of payroll transactions from FY 2009 to FY 2010 is due to increased FY 2010 payments to
2010 Decennial Census temporary employees. The decrease from FY 2009 to FY 2010 in the total volume of vendor payments is primarily
due to a large decrease in reimbursement payments to retailers for coupons redeemed under the National Telecommunications and
Information Administration’s (NTIA) Digital-to-Analog Converter Box Program. The program provided households in the U.S. with
forty-dollar coupons (two per household maximum) that could have been applied toward the purchase of digital-to-analog converter
boxes. The program was substantially completed by mid-November 2009.

Bankcards

The Department is committed to the use of bankcards (purchase cards) as a means of streamlining Departmental procurements.
Bankcard usage is closely monitored, and those that are no longer needed are promptly closed. This has resulted in an overall
decrease, over the past nine fiscal years, in the number of bankcards in use, from 6,405 at September 30, 2001 to 5,020 at September
30, 2010. The Department’s emphasis on EFT-compliant payment methods has contributed to an overall increase over the past nine
fiscal years, in bankcard purchases, from $131.6 million in FY 2001 to $167.1 million in FY 2010. The Department continues to
monitor the internal controls surrounding bankcard purchases to ensure that all such purchases are legal and proper.

Prompt Payment

The Prompt Payment Act of 1982 requires agencies to pay their
bills to vendors on a timely basis, and to pay interest penalties
when payments are made late. The Department closely monitors
its prompt payment performance, and submits consolidated
monthly prompt payment activity reports to OMB as part of the
Department’s Performance Metrics data.

The Department has increased slightly its prompt payment
performance to 99 percent in FY 2010 from 98 percent in
FY 2009. Furthermore, the number of invoices with late-
payment interest penalties remained steady with 5,014 in
FY 2009 and 5,102 in FY 2010. The Department continues to
focus on improving its prompt payment percentage by working
closely with its bureaus to identify opportunities for new or
improved business processes.




 178
                                                 F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




          ANALYSIS OF FY 2 0 1 0 FINANCIAL CONDITION AND RES U LTS


Composition of Assets and Assets by Responsibility Segment




 T          he composition (by percentage) and distribution (by responsibility segment) of the Department’s assets remained
            consistent from September 30, 2009 to September 30, 2010.



Total assets amounted to $34.43 billion at September 30, 2010. Fund Balance with Treasury of $25.79 billion is the aggregate
amount of funds available to make authorized expenditures and pay liabilities. General Property, Plant, and Equipment, Net of
Accumulated Depreciation (General PP&E) of $7.39 billion includes $4.21 billion of Construction-in-progress, primarily of satellites
and weather measuring and monitoring systems; $1.42 billion of satellites and weather systems; $886 million of structures,
facilities, and leasehold improvements; and $871 million of other General PP&E. Direct Loans and Loan Guarantees, Net of $540
million primarily relates to NOAA’s direct loan programs. Other Assets of $712 million primarily includes Advances and Prepayments
of $447 million; Accounts Receivable, Net of $155 million; and Inventory, Materials, and Supplies, Net of $98 million.




Trends in Assets

Total Assets increased $476 million or 1 percent, from $33.96 billion at September 30, 2009 to $34.43 billion at September 30,
2010. General PP&E, Net increased $636 million or 9 percent, from $6.76 billion to $7.39 billion, mainly due to an increase in
Satellites/Weather Systems personal Property of $648 million. Fund Balance with Treasury increased $114 million or 0.5 percent, from
$25.67 billion to $25.79 billion. Other Assets decreased by $303 million or 30 percent, from $1.02 billion to $712 million, primarily
due to a decrease of $264 million in Advances and Prepayments to another federal agency for NTIA’s Public Safety Interoperable
Communications grant program.




                                                                                                                               179
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




                              $40,000
                              $35,000
                              $30,000
              (in Millions)




                              $25,000
                              $20,000
                              $15,000
                              $10,000
                               $5,000
                                   $0




Composition of Liabilities and Liabilities by Responsibility Segment

The composition (by percentage) and distribution (by responsibility segment) of the Department’s liabilities somewhat changed from
September 30, 2009 to September 30, 2010. Accrued Grants increased from 10 percent of total liabilities at September 30, 2009
to 16 percent of total liabilities at September 30, 2010, and Spectrum Auction Proceeds Liability to the Federal Communications
Commission (FCC) decreased from 9 percent of total liabilities at September 30, 2009 to 1 percent of total liabilities at September
30, 2010. As a result of the above fluctuations (explained in Trends in Liabilities section below), EDA’s liabilities increased from
8 percent of total liabilities at September 30, 2009 to 12 percent of total liabilities at September 30, 2010, and NTIA’s liabilities
decreased from 11 percent of total liabilities at September 30, 2009 to 4 percent of total liabilities at September 30, 2010.

Total liabilities amounted to $4.68 billion at September 30, 2010. Unearned Revenue of $1.33 billion represents the portion of
monies received from customers for which goods and services have not been provided or rendered by the Department. Federal
Employee Benefits Liability of $769 million is composed of the actuarial present value of projected benefits for the NOAA Corps
Retirement System ($503 million) and the NOAA Corps Post-retirement Health Benefits ($56 million), and Actuarial FECA Liability
($210 million), which represents the actuarial liability for future workers’ compensation benefits. Accrued Grants of $766 million,
which relates to a diverse array of financial assistance programs and projects, includes EDA’s accrued grants of $487 million for
its economic development assistance funding to state and local governments. Accrued Payroll and Annual Leave of $561 million
includes salaries and wages earned by employees, but not disbursed as of September 30, 2010. Accounts Payable of $463 million
consists primarily of amounts owed for goods, services, or capitalized assets received, progress on contract performance by others,
and other expenses due. Debt to Treasury of $518 million consists of monies borrowed primarily for NOAA’s direct loan programs.
Other Liabilities of $237 million primarily includes Environmental and Disposal Liabilities of $55 million, Accrued FECA Liability of
$44 million, Accrued Benefits of $44 million, Resources Payable to Treasury of $19 million, Employment-related Liability of $18
million, and Contingent Liabilities of $12 million.




 180
                                                F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




Trends in Liabilities

Total Liabilities increased $59 million or 1 percent, from $4.62 billion at September 30, 2009 to $4.69 billion at September
30, 2010. Accrued grants increased by $320 million or 72 percent, from $446 million to $766 million, primarily resulting from
EDA’s Accrued Grants increase of $209 million which resulted from additional funding under ARRA and a FY 2010 supplemental
appropriation for a major storms and flooding disaster that occurred in 2010. NTIA’s Accrued Grants also increased by $90 million,
primarily for the Broadband Technology Opportunities Program. Federal Employee Benefits increased $82 million or 12 percent,
from $687 million to $$769 million, primarily from the effects of changes in economic and other assumptions on the actuarial
valuation for NOAA Corps Retirement System, and also from the effect of increased Decennial Census employees on the valuation
of the Department’s Actuarial FECA Liability. Debt to Treasury increased $31 million or 6 percent, from $487 million to $518
million, mainly due to new borrowings in FY 2010 for NOAA’s direct loan programs. There was a large decrease of $367 million
or 92 percent, from $401 million to $34 million, in NTIA’s Spectrum Auction Proceeds Liability to FCC. This liability represents FCC
auction proceeds for which licenses have not yet been granted by FCC. During FY 2010, the liability was primarily reduced by net
auction proceeds for which licenses have been granted, and by FCC administrative fees.




                                                                                                                              181
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




Composition of and Trends in Financing Sources

The Department’s Financing Sources, shown on the Consolidated
Statement of Changes in Net Position, are traditionally obtained
primarily from Appropriations Received, Net of Reductions.
The composition (by percentage) and dollar amount of the
Department’s financing sources changed significantly, however,
from FY 2009 to FY 2010, mainly due to the large decrease of
$16.49 billion, from $16.69 billion for FY 2009 to $197 million for
FY 2010, in the transfers in of spectrum auction proceeds from FCC
from the auction of licenses for recovered analog spectrum held in
March 2008. When a license is granted by FCC, a financing source
is recognized on the Consolidated Statement of Changes in Net
Position for the earned net auction proceeds.

Other typical Financing Sources include net transfers to and from
other federal agencies without reimbursement, and imputed
financing sources from cost absorbed by other federal agencies.

Total Financing Sources decreased $12.87 billion or 48 percent, from $26.95 billion for FY 2009 to $14.08 billion for FY 2010. There
was a $16.49 billion decrease in the transfers in of spectrum auction proceeds, as explained above. Appropriations Received, Net
of Reductions decreased by $3.93 billion or 23 percent, from $17.34 billion for FY 2009 to $13.41 billion for FY 2010, primarily
due to ARRA Appropriations Received of $7.92 billion being received in FY 2009, whereas there were not any ARRA Appropriations
Received in FY 2010. The above decrease in Appropriations Received is mainly offset by an increase in Appropriations Received of
$4.06 billion in Census Bureau’s Periodic Censuses and Programs budget account. On September 30, 2009, NTIA’s Digital Television
and Transition Public Safety Fund transferred $7.36 billion to the General Fund of the Treasury (FY 2009 negative financing
source), whereas no similar transfer was made in FY 2010. All other Financing Sources had a net increase of $36 million, from
$284 million for FY 2009 to $320 million for FY 2010.



FY 2010 Net Cost of Operations by Strategic Goal

In FY 2010, Net Cost of Operations amounted to $13.66 billion, which
consists of Gross Costs of $16.52 billion less Earned Revenue of
$2.86 billion.

Strategic Goal 1, Maximize U.S. Competitiveness and Enable Economic
Growth for American Industries, Workers, and Consumers, includes
Net Program Costs of $6.47 billion (Gross Costs of $6.70 billion less
Earned Revenue of $229 million) for Census Bureau. Census Bureau
carries out the Decennial Census, periodic censuses, and demographic
and other surveys, and prepares and releases targeted data products
for economic and other programs. ITA’s programs and activities also
support Strategic Goal 1, with Net Program Costs of $478 million (Gross
Costs of $495 million less Earned Revenue of $17 million). ITA assists
the export growth of small and medium-sized businesses, enforces
U.S. trade laws and trade agreements, monitors and maintains trading


 182
                                               F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




relationships with established markets, promotes new business in emerging markets, and improves access to overseas markets
by identifying and pressing for the removal of trade barriers. Strategic Goal 1 also includes Net Program Costs of $560 million
(Gross Costs of $578 million less Earned Revenue of $18 million) for EDA. EDA helps distressed communities address problems
associated with long-term economic distress, as well as sudden and severe economic dislocations including recovering from the
economic impacts of natural disasters, the closure of military installations and other federal facilities, changing trade patterns,
and the depletion of natural resources.

Strategic Goal 2, Promote U.S. Innovation and Industrial Competitiveness, includes Net Program Costs of ($141) million (Gross Costs
of $1.96 billion less Earned Revenue of $2.10 billion) for the U.S. Patent and Trademark Office’s (USPTO) patents and trademark
programs. The issuance of patents provides incentives to invent and invest in new technology by allowing innovators the opportunity
to benefit from their discoveries. Registration of trademarks assists businesses in protecting their investments and safeguards
consumers against confusion and deception in the marketplace by providing notice of trademarks in use. Through dissemination
of patent and trademark information, the Department promotes a global understanding of intellectual property protection and
facilitates the development and sharing of new technologies worldwide. NTIA’s programs and activities also support Strategic Goal
2, with Net Program Costs of $570 million (Gross Costs of $600 million less Earned Revenue of $30 million). NTIA serves as the
principal adviser to the President on domestic and international communications and information policy-making, promotes access
to telecommunications services for all Americans and competition in domestic and international markets, manages all federal use
of the electromagnetic spectrum and generally promotes efficient use of spectrum, and conducts telecommunications technology
research, including standards-setting in partnership with business and other federal agencies. Strategic Goal 2 also includes Net
Program Costs of $516 million (Gross Costs of $644 million less Earned Revenue of $128 million) for NIST’s Measurement and
Standards Laboratories. These laboratories are the stewards of the Nation’s measurement infrastructure, and provide measurement
methods, reference materials, test procedures, instrument calibrations, fundamental data, and standards that comprise essential
tools for research, production, and buyer-seller transactions.

Strategic Goal 3, Promote Environmental Stewardship, includes Net Program Costs of $1.67 billion (Gross Costs of $1.78 billion less
Earned Revenue of $110 million) related to NOAA’s stewardship of ecosystems, which reflects NOAA’s mission to conserve, protect,
manage, and restore fisheries and coastal and ocean resources. The Department has a responsibility for stewardship of the marine
ecosystem and for setting standards to protect and manage the shared resources and harvests of the oceans. The Department
strives to balance sustainable development and healthy functioning marine ecosystems, and to conserve, protect, restore, and
better manage resources.



                  LI M ITATIONS OF THE FINANCIAL STATE M ENTS

These financial statements have been prepared to report the overall financial position and results of operations of the Department,
pursuant to the requirements of 31 U.S.C. 3515, Financial statements of agencies, item(b). While the statements have been
prepared from the books and records of the Department in accordance with the form and content prescribed by OMB, the
statements are in addition to the financial reports used to monitor and control budgetary resources that are prepared from the
same books and records.

These financial statements should be read with the realization that they are for a component of the U.S. government, a sovereign
entity. One implication of this is that liabilities cannot be liquidated without legislation that provides the resources to do so.




                                                                                                                             183
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F i n a n c i a l M a n ag e m e n t a n d A n a ly s i s




 184
                                            F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




    P r i n ci pa l
    F i n a n ci a l
    S tat e m e n t s
                                                                                      P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Balance Sheets
As of September 30, 2010 and 2009 (In Thousands)
                                                                                                        FY 2010           FY 2009

 ASSETS
        Intragovernmental:
        Fund Balance with Treasury (Notes 2 and 18)                                            $       25,785,547   $   25,671,762
        Accounts Receivable, Net (Note 3)                                                                  84,479           78,111
        Other - Advances and Prepayments                                                                  400,042          696,068
        Total Intragovernmental                                                                    26,270,068           26,445,941

        Cash (Note 4)                                                                                       3,616            3,572
        Accounts Receivable, Net (Note 3)                                                                  70,780           31,429
        Direct Loans and Loan Guarantees, Net (Note 5)                                                    540,147          511,092
        Inventory, Materials, and Supplies, Net (Note 6)                                                   98,326          145,903
        General Property, Plant, and Equipment, Net (Note 7)                                            7,394,711        6,758,827
        Other (Note 8)                                                                                     55,122           60,021
        TOTAL ASSETS                                                                           $   34,432,770       $   33,956,785

 Stewardship Property, Plant, and Equipment (Note 23)

 LIABILITIES
     Intragovernmental:
     Accounts Payable                                                                          $          60,088    $      134,877
     Debt to Treasury (Note 10)                                                                          517,930           487,275
     Other
     	 Spectrum Auction Proceeds Liability to Federal Communications Commission (Note 18)          	      33,838           400,451
     	 Resources Payable to Treasury                                                                      18,899            22,689
     	 Unearned Revenue                                                                                  373,921           337,255
     	 Other (Note 11)                                                                                   104,344            77,795
        Total Intragovernmental                                                                        1,109,020         1,460,342

        Accounts Payable                                                                                 402,605           371,067
        Loan Guarantee Liabilities (Notes 5 and 16)                                                          565               589
        Federal Employee Benefits (Note 12)                                                              769,035           687,434
        Environmental and Disposal Liabilities (Note 13)                                                  54,649            60,995
        Other
        	 Accrued Payroll and Annual Leave                                                               561,154           540,082
        	 Accrued Grants                                                                                 766,204           446,207
        	 Accrued Coupons for Digital-to-Analog Converter Box Program                              	           -            24,489
        	 Capital Lease Liabilities (Note 14)                                                              9,278            12,589
        	 Unearned Revenue                                                                               958,474           974,015
        	 Other (Note 11)                                                                                 49,181            42,956
        TOTAL LIABILITIES                                                                      $       4,680,165    $    4,620,765

 Commitments and Contingencies (Notes 5, 14, and 16)


 NET POSITION
      Unexpended Appropriations
      	 Unexpended Appropriations - Earmarked Funds (Note 21)                                  $   	 4,099,319      $   	 4,890,417
      	 Unexpended Appropriations - All Other Funds                                                  8,782,873            8,246,105
      Cumulative Results of Operations
      	 Cumulative Results of Operations - Earmarked Funds (Note 21)                                   10,189,816       10,155,041
      	 Cumulative Results of Operations - All Other Funds                                              6,680,597        6,044,457
        TOTAL NET POSITION                                                                     $   29,752,605       $   29,336,020
        TOTAL LIABILITIES AND NET POSITION                                                     $   34,432,770       $   33,956,785

The accompanying notes are an integral part of these statements.



                                                                                                                               187
F Y   2 0 1 0   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y   R E P O R T
P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statements of Net Cost
For the Years Ended September 30, 2010 and 2009 (Note 17) (In Thousands)

                                                                                                   FY 2010                        FY 2009


Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic Growth for American
Industries, Workers, and Consumers
	 Gross Costs                                                                                 $      8,140,086             $        4,074,978
	 Less: Earned Revenue                                                                             	 (261,482)                    	 (280,564)

	 Net Program Costs                                                                                	 7,878,604                    	 3,794,414


Strategic Goal 2: Promote U.S. Innovation and Industrial Competitiveness
	 Gross Costs                                                                                        3,586,729                      4,047,583
	 Less: Earned Revenue                                                                             	 (2,324,724)                  	 (2,167,582)

	 Net Program Costs                                                                                 1,262,005                      1,880,001


Strategic Goal 3: Promote Environmental Stewardship
	 Gross Costs                                                                                        4,800,594                      4,417,956
	 Less: Earned Revenue                                                                             	 (277,123)                    	 (265,632)

	 Net Program Costs                                                                                 4,523,471                      4,152,324


NET COST OF OPERATIONS                                                                        $    13,664,080              $       9,826,739


The accompanying notes are an integral part of these statements.




  188
                                                   F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                       P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2010 and 2009 (In Thousands)

                                                                                   FY 2010                                                            FY 2009

                                                         Earmarked                                                           Earmarked
                                                           Funds                                      Consolidated             Funds              All Other         Consolidated
                                                         (Note 21)         All Other Funds               Total               (Note 21)             Funds               Total
Cumulative Results Of Operations:
	 Beginning Balance                                  $       10,155,041    $        6,044,457     $       16,199,498     $       1,646,557    $        5,388,893    $        7,035,450

Budgetary Financing Sources:
	 Appropriations Used                                    	     249,598             13,406,937             13,656,535         	     364,718             8,939,344             9,304,062
	 Non-exchange Revenue                                          18,515         	        1,028                 19,543                21,432        	            -                21,432
	 Donations and Forfeitures of Cash and
		 Cash Equivalents                                      	            -                 1,335                  1,335         	           -                  846                     846
	 Transfers In of Spectrum Auction Proceeds from
		 Federal Communications Commission (Note 18)           	     196,613         	             -               196,613         	 16,689,557         	             -           16,689,557
	 Transfer Out of Spectrum Auction Proceeds to
		 Treasury General Fund (Note 18)                       	           -         	            -         	            -         	 (7,363,000)        	           -         	 (7,363,000)
	 Transfers In/(Out) Without Reimbursement, Net          	      18,613         	      107,179         	      125,792         	     15,240         	      83,201         	     98,441
	 Other Budgetary Financing Sources/(Uses), Net          	           -         	          817         	          817         	          -         	       1,540         	      1,540

Other Financing Sources (Non-exchange):
	 Donations and Forfeitures of Property                  	            -        	           461        	           461        	           -        	          55         	            55
	 Transfers In/(Out) Without Reimbursement, Net          	         (349)       	        (4,455)       	        (4,804)       	           -        	       4,254         	         4,254
	 Imputed Financing Sources from Cost Absorbed
		 by Others                                             	      22,990                323,782                346,772         	        981               234,763               235,744
	 Downward Subsidy Reestimates Payable to
		 Treasury                                              	            -        	        (8,087)       	        (8,087)       	           -        	       (3,509)       	         (3,509)
	 Other Financing Sources/(Uses), Net                    	            -                     18                     18                  (27)                1,392                   1,365

Total Financing Sources                                        505,980             13,829,015             14,334,995             9,728,901            9,261,886         18,990,787

Net Cost of Operations                                        (471,205)        (13,192,875)            (13,664,080)          (1,220,417)          (8,606,322)           (9,826,739)

Net Change                                                      34,775               636,140                670,915              8,508,484              655,564             9,164,048

Cumulative Results of Operations – Ending Balance        10,189,816                 6,680,597             16,870,413         10,155,041               6,044,457         16,199,498

Unexpended Appropriations:
	 Beginning Balance                                      	 4,890,417                8,246,105             13,136,522         	        462              5,179,925             5,180,387

Budgetary Financing Sources:
	 Appropriations Received (Note 18)                      	            -            14,109,905             14,109,905         	 5,350,000              12,012,359            17,362,359
	 Appropriations Transferred In/(Out), Net               	            -        	        14,387        	        14,387        	     (95,328)       	       39,123        	      (56,205)
	 Other Adjustments (Note 18)                            	     (541,500)              (180,587)              (722,087)       	           1               (45,958)              (45,957)
	 Appropriations Used                                    	     (249,598)           (13,406,937)           (13,656,535)       	    (364,718)           (8,939,344)           (9,304,062)

Total Budgetary Financing Sources                        	 (791,098)                 536,768               (254,330)         	 4,889,955              3,066,180             7,956,135

Unexpended Appropriations – Ending Balance               	 4,099,319           	 8,782,873            	12,882,192            	 4,890,417          	 8,246,105           	13,136,522

NET POSITION                                         $ 	14,289,135         $ 15,463,470           $ 29,752,605           $ 	15,045,458        $ 14,290,562          $ 29,336,020

The accompanying notes are an integral part of these statements.




                                                                                                                                                                            189
F Y   2 0 1 0   P E R F O R M A N C E        A N D   A C C O U N T A B I L I T Y             R E P O R T
P RINCI P AL FINANCIAL STATE M ENTS




United States Department of Commerce Combined Statements of Budgetary Resources
For the Years Ended September 30, 2010 and 2009 (Note 18) (In Thousands)
                                                                                            FY 2010                                               FY 2009
                                                                                               Non-budgetary Credit                                  Non-budgetary Credit
                                                                         Budgetary          Program Financing Accounts         Budgetary          Program Financing Accounts

BUDGETARY RESOURCES:
Unobligated Balance, Brought Forward, October 1                      $       16,593,521          $          2,335          $        2,289,356               $           59,577
Adjustments to Unobligated Balance, Brought Forward                      	            -               	         -              	           77                   	          389
Recoveries of Prior-years Unpaid Obligations                             	      230,289               	    10,149                     366,362                   	        1,515
Budget Authority
	 Appropriations                                                         	 14,322,512                 	         -              	 34,069,220                     	            -
	 Borrowing Authority                                                    	          -                 	    78,375              	          -                     	       88,368
	 Spending Authority From Offsetting Collections
		 Earned
			 Collected                                                                 3,698,411                    98,229                   3,482,685                           53,505
			 Change in Receivables                                                        37,895               	         -                      18,868                   	            -
		 Change in Unfilled Customer Orders
			 Advances Received                                                             8,453               	          -                     (87,441)                 	            -
			 Without Advances                                                            193,858               	          -                     (42,305)                 	            -
		 Previously Unavailable                                                	        2,716               	          -             	         2,113                  	            -
Total Budget Authority                                                     18,263,845                     176,604                37,443,140                           141,873
Nonexpenditure Transfers, Net                                                  140,391                	          -                    57,381                    	            -
Temporarily Not Available Pursuant to Public Law                         	     (52,543)               	          -             	           -                    	            -
Permanently Not Available                                                     (722,371)               	    (79,884)               (8,326,575)                   	      (27,425)
TOTAL BUDGETARY RESOURCES                                            $ 34,453,132                $        109,204          $ 31,829,741                     $         175,929

STATUS OF BUDGETARY RESOURCES:
Obligations Incurred
	 Direct                                                             $       18,874,186          $        108,331          $       12,089,149               $          117,486
	 Reimbursable                                                                3,423,294               	         -                   3,147,071                   	       56,108
Total Obligations Incurred                                                   22,297,480                   108,331                  15,236,220                         173,594
Unobligated Balance
	 Apportioned                                                                 2,651,510               	          -                  7,800,617                   	            -
	 Exempt From Apportionment                                                     577,107               	          -                    356,139                   	            -
Total Unobligated Balance                                                     3,228,617               	         -                   8,156,756                   	            -
Unobligated Balance Not Available (Note 2)                                     8,927,035              	       873                    8,436,765                  	        2,335
TOTAL STATUS OF BUDGETARY RESOURCES                                  $ 34,453,132                $        109,204          $ 31,829,741                     $         175,929

CHANGE IN UNPAID OBLIGATED BALANCE, NET:
Unpaid Obligated Balance, Net, Brought Forward, October 1                	                                                     	
	 Unpaid Obligations, Brought Forward                                $        8,073,367          $    	   261,279          $        7,424,863               $   	      215,703
	 Less: Uncollected Customer Payments, Brought Forward                         (291,630)                     (735)                   (315,067)                  	         (735)
Total Unpaid Obligated Balance, Net, Brought Forward                          7,781,737                   260,544                   7,109,796                         214,968
Obligations Incurred                                                          22,297,480                   108,331                  15,236,220                         173,594
Less: Gross Outlays                                                          (16,968,579)                 (130,346)                (14,221,354)                 	     (126,503)
Less: Actual Recoveries of Prior-years Unpaid Obligations                       (230,289)             	    (10,149)                   (366,362)                 	       (1,515)
Change in Uncollected Customer Payments                                         (231,753)             	          -                      23,437                  	            -
TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                   $ 12,648,596                $        228,380          $        7,781,737               $         260,544
Unpaid Obligated Balance, Net, End of Period
	 Unpaid Obligations                                                 $       13,171,979          $        229,115          $        8,073,367               $          261,279
	 Less: Uncollected Customer Payments                                          (523,383)                     (735)                   (291,630)                  	         (735)
TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                   $ 12,648,596                $        228,380          $        7,781,737               $         260,544

NET OUTLAYS:
Gross Outlays                                                        $     16,968,579            $        130,346          $     14,221,354                 $          126,503
Less: Offsetting Collections                                               (3,706,864)                    (98,229)               (3,395,244)                    	      (53,505)
Less: Distributed Offsetting (Receipts)/Outlays, Net                     	    (28,541)                	         -              	   (101,324)                    	            -
NET OUTLAYS                                                          $ 13,233,174                $         32,117          $ 10,724,786                     $          72,998

The accompanying notes are an integral part of these statements.




 190
                                                            F Y   2 0 1 0       P E R F O R M A N C E         A N D      A C C O U N T A B I L I T Y                R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Notes to the Financial Statements
(All Tables are Presented in Thousands, Unless Otherwise Noted)


   Note 1. Summary of Significant Accounting Policies



A	 Reporting Entity



 T 
           he Department of Commerce (the Department) is a cabinet-level agency of the Executive Branch of the U.S. government.
           Established in 1903 to promote U.S. business and trade, the Department’s broad range of responsibilities includes predicting
           the weather, granting patents and registering trademarks, measuring economic growth, gathering and disseminating
statistical data, expanding U.S. exports, developing innovative technologies, helping local communities improve their economic
development capabilities, promoting minority entrepreneurial activities, and monitoring the stewardship of national assets.
The Department is composed of 12 bureaus, the Emergency Oil and Gas and Steel Loan Guarantee Programs, the National
Intellectual Property Law Enforcement Coordination Council, and Departmental Management.

For the Consolidating Statements of Net Cost (see Note 17), the Department’s entities have been grouped together as follows:

      l	    National Oceanic and Atmospheric Administration (NOAA)
      l	    U.S. Patent and Trademark Office (USPTO)
      l	    Economics and Statistics Administration (ESA) — based on organizational structure
                l	   Bureau of Economic Analysis (BEA)
                l	   Census Bureau
      l	    National Institute of Standards and Technology (NIST)
      l	    National Telecommunications and Information Administration (NTIA)
      l	    Others
                l	   Bureau of Industry and Security (BIS)
                l	   Economic Development Administration (EDA)
                l	   Emergency Oil and Gas and Steel Loan Guarantee Programs (ELGP)
                l	   International Trade Administration (ITA)
                l	   Minority Business Development Agency (MBDA)
                l	   National Intellectual Property Law Enforcement Coordination Council (NIPC)
                l	   National Technical Information Service (NTIS)




                                                                                                                                 191
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




       l		Departmental    Management (DM)
               l	   Franchise Fund
               l	   Gifts and Bequests (G&B)
               l	   Herbert C. Hoover Building Renovation Project (HCHB)

               l	   Office of Inspector General (OIG)
               l	   Salaries and Expenses (S&E)
               l	   Working Capital Fund (WCF)


B	 Basis of Accounting and Presentation
The Department’s fiscal year ends September 30. These financial statements reflect both accrual and budgetary accounting
transactions. Under the accrual method of accounting, revenues are recognized when earned and expenses are recognized when
incurred, without regard to the receipt or payment of cash. Budgetary accounting is designed to recognize the obligation of funds
according to legal requirements, which in many cases is made prior to the occurrence of an accrual-based transaction. Budgetary
accounting is essential for compliance with legal constraints and controls over the use of federal funds.

These financial statements have been prepared from the accounting records of the Department in conformance with U.S. generally
accepted accounting principles (GAAP) and the form and content for entity financial statements specified by the Office of
Management and Budget (OMB) in Revised Circular No. A-136, Financial Reporting Requirements. GAAP for federal entities are
the standards prescribed by the Federal Accounting Standards Advisory Board, which is the official body for setting the accounting
standards of the U.S. government.

Throughout these financial statements, intragovernmental assets, liabilities, earned revenue, and costs have been classified
according to the type of entity with whom the transactions were made. Intragovernmental assets and liabilities are those from
or to other federal entities. Intragovernmental earned revenue represents collections or accruals of revenue from other federal
entities, and intragovernmental costs are payments or accruals to other federal entities.

The Department has allocation transfer transactions with other federal agencies as both a transferring (parent) entity and/or a
receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate budget authority
and outlay funds to another department. A separate fund account (allocation account) is created in the U.S. Treasury as a
subset of the parent fund account for tracking and reporting purposes. All allocation transfers of balances are credited to this
account, and subsequent obligations and outlays incurred by the child entity are charged to this allocation account as they
execute the delegated activity on behalf of the parent entity. Generally, all financial activity related to these allocation transfers
(e.g. budget authority, obligations, and outlays) is reported in the financial statements of the parent entity, from which the
underlying legislative authority, appropriations, and budget apportionments are derived. EDA allocates funds, as the parent, to
the U.S. Department of Agriculture’s Rural Development Administration. Therefore, all financial activity related to these funds
are reported in the Department’s financial statements. NIST, NOAA, EDA, Census Bureau, BEA, NTIS, and USPTO receive allocation
transfers, as the child, from the General Services Administration, Environmental Protection Agency, Delta Regional Authority,
and Appalachian Regional Commission. Activity relating to these child allocation transfers is not reported in the Department’s
financial statements.




 192
                                                F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




C	 Earmarked Funds
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources, which remain
available over time. These specifically identified revenues and other financing sources are required by statute to be used for
designated activities, benefits, or purposes, and must be accounted for separately from the government’s general revenues.
Earmarked funds include a general fund, public enterprise revolving funds (not including credit reform financing funds), special
funds, and a trust fund. (See Note 21, Earmarked Funds.)



D	 Elimination of Intra-entity and Intra-Departmental Transactions and Balances
Transactions and balances within a reporting entity (intra-entity) have been eliminated from the financial statements, except
as noted below. Transactions and balances among the Department’s entities (intra-Departmental) have been eliminated from
the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in
Net Position. The Statements of Budgetary Resources are presented on a combined basis; therefore, intra-Departmental and
intra-entity transactions and balances have not been eliminated from these statements.



E	 Fund Balance with Treasury
Fund Balance with Treasury is the aggregate amount of funds in the Department’s accounts with the U.S. Department of the
Treasury (Treasury). Deposit Funds include amounts held in customer deposit accounts and the Spectrum Auction Proceeds
Liability to the Federal Communications Commission (FCC).

Treasury processes cash receipts and disbursements for the Department’s domestic operations. Cash receipts and disbursements
for the Department’s overseas operations are primarily processed by the U.S. Department of State’s financial service centers.



F	 Accounts Receivable, Net
Accounts Receivable are recognized primarily when the Department performs reimbursable services or sells goods. Accounts
Receivable are reduced to net realizable value by an Allowance for Uncollectible Accounts. This allowance is estimated periodically
using methods such as the identification of specific delinquent receivables, and the analysis of aging schedules and historical
trends adjusted for current market conditions.



G	 Advances and Prepayments
Advances are payments the Department has made to cover a part or all of a grant recipient’s anticipated expenses, or are
advance payments for the cost of goods and services to be acquired. For grant awards, the recipient is required to periodically
(monthly or quarterly) report the amount of costs incurred. Prepayments are payments the Department has made to cover certain
periodic expenses before those expenses are incurred, such as subscriptions and rent. Advances and Prepayments are included in
Other Assets.




                                                                                                                             193
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




H	 Direct Loans and Loan Guarantees
A direct loan is recorded as a receivable after the Department disburses funds to a borrower. The Department also makes loan
guarantees with respect to the payment of all or part of the principal or interest on debt obligations of non-federal borrowers to
non-federal lenders. A borrower-defaulted loan guaranteed by the Department is recorded as a receivable from the borrower after
the Department disburses funds to the lender.

Interest Receivable generally represents uncollected interest income earned on loans. For past-due loans, only up to 180 days of
interest income is generally recorded.

Foreclosed Property is acquired primarily through foreclosure and voluntary conveyance, and is recorded at the fair market value
at the time of acquisition. Foreclosed Property is adjusted to the current fair market value each fiscal year-end.

Direct Loans and Loan Guarantees Obligated before October 1, 1991 (pre-FY 1992): Loans Receivable are reduced by an Allowance for
Loan Losses, which is based on an analysis of each loan’s outstanding balance. The value of each receivable, net of any Allowance
for Loan Losses, is supported by the values of pledged collateral and other assets available for liquidation, and by the Department’s
analysis of financial information of parties against whom the Department has recourse for the collection of these receivables.

The Economic Development Revolving Fund is required to make annual interest payments to Treasury after each fiscal year-end,
based on its outstanding receivables as of September 30.

Direct Loans and Loan Guarantees Obligated after September 30, 1991 (post-FY 1991): Post-FY 1991 obligated direct loans and loan
guarantees and the resulting receivables are governed by the Federal Credit Reform Act of 1990.

For a direct or guaranteed loan disbursed during a fiscal year, a subsidy cost is initially recognized. Subsidy costs are intended to
estimate the long-term cost to the U.S. government of its loan programs. The subsidy cost equals the present value of estimated
cash outflows over the life of the loan, minus the present value of estimated cash inflows, discounted at the applicable Treasury
interest rate. Administrative costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from interest rate
differentials, interest subsidies, delinquencies and defaults, loan origination and other fees, and other cash flows. The Department
calculates its subsidy costs based on a model created and provided by OMB.

A Loan Receivable is recorded at the present value of the estimated cash inflows less cash outflows. The difference between the
outstanding principal of the loan and the present value of its net cash inflows is recorded as the Allowance for Subsidy Cost.
A subsidy reestimate is normally performed annually, as of September 30. The subsidy reestimate takes into account all factors
that may have affected the estimated cash flows. Any adjustment resulting from the reestimate is recognized as a subsidy expense
(or a reduction in subsidy expense). The portion of the Allowance for Subsidy Cost related to subsidy modifications and reestimates
is calculated annually, as of September 30.

The amount of any downward subsidy reestimates as of September 30 must be disbursed to Treasury in the subsequent fiscal year.
Appropriations are normally obtained in the following fiscal year for any upward subsidy reestimates.


I	 Inventory, Materials, and Supplies, Net
Inventory, Materials, and Supplies, Net are stated at the lower of cost or net realizable value primarily under the average, weighted-
average, and first-in, first-out methods, and are adjusted for the results of physical inventories. Inventory, Materials, and Supplies
are expensed when consumed. There are no restrictions on their sale, use, or disposition.


 194
                                                F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




J	 General Property, Plant, and Equipment, Net
General Property, Plant, and Equipment, Net (General PP&E) is composed of capital assets used in providing goods or services.
General PP&E is stated at full cost, including all costs related to acquisition, delivery, and installation, less Accumulated Depreciation.
General PP&E also includes assets acquired through capital leases, which are initially recorded at the amount recognized as a
liability for the capital lease at its inception.

Capitalization Thresholds: The Department’s general policy is to capitalize General PP&E if the initial acquisition price is
$25 thousand or more and the useful life is two years or more. NOAA is an exception to this policy, based on a cost vs. benefits
and materiality analysis given the size of NOAA, having a capitalization threshold of $200 thousand. General PP&E with an
acquisition cost less than the capitalization threshold is expensed when purchased. NOAA and Census Bureau have bulk purchase
capitalization thresholds of $1 million and $250 thousand, respectively, for personal property bulk purchases. For other bureaus,
when the purchase of a large quantity of personal property items, each costing less than the capitalization threshold, would
materially distort the amount of costs reported in a given period, the purchase is capitalized as a group.

Depreciation: Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of
leasehold improvements, which are depreciated over the remaining life of the lease or over the useful life of the improvement,
whichever is shorter. Land and Construction-in-progress are not depreciated.

Real Property: The U.S. General Services Administration (GSA) provides most of the facilities in which the Department operates,
and generally charges rent based on comparable commercial rental rates. Accordingly, GSA-owned properties are not included
in the Department’s General PP&E. The Department’s real property primarily consists of facilities for NIST and NOAA. Land
Improvements consist of a retaining wall to protect against shoreline erosion.

Construction-in-progress: Costs for the construction, modification, or modernization of General PP&E are initially recorded as
Construction-in-progress. The Department’s construction-in-progress consists primarily of satellites under development for NOAA,
and major laboratory renovations and construction projects under development for NIST. Upon completion of the work, the costs
are transferred to the appropriate General PP&E account.


K	 Notes Receivable
Notes Receivable, included in Other Assets, arise through the NOAA sale of foreclosed property to non-federal parties. The property is
used as collateral, and an Allowance for Uncollectible Amounts is established if the net realizable value of the collateral is less than the
outstanding balance of the Notes Receivable. An analysis of the collectibility of receivables is performed periodically. Any gains realized
through the sale of foreclosed property are initially deferred and recognized in proportion to the percentage of principal repaid.


L	 Non-entity Assets
Non-entity assets are assets held by the Department that are not available for use in its operations. Non-entity Fund Balance
with Treasury includes customer deposits held by the Department until customer orders are received, and monies payable to the
Treasury General Fund for custodial activity and for loan programs. Non-entity Direct Loans and Loan Guarantees, Net represents
EDA’s Drought Loan Portfolio. The Portfolio collections are submitted to Treasury monthly.




                                                                                                                                      195
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




ML	 iabilities

A liability for federal accounting purposes is a probable and measurable future outflow or other sacrifice of resources as a result
of past transactions or events.

Accounts Payable: Accounts Payable are amounts primarily owed for goods, services, or capitalized assets received, progress on
contract performance by others, and other expenses due.

Debt to Treasury: The Department has borrowed funds from Treasury for its various credit programs: Fisheries Finance Traditional,
Tuna Fleet, and Individual Fishing Quota (IFQ) Direct Loans, Fishing Vessel Obligation Guarantee (FVOG) Program, Bering Sea
Pollock Fishery Buyout, Pacific Groundfish Buyback Loans, Crab Buyback Loans, Bering Sea and Aleutian Islands Non-Pollock
Buyback Loans, and Emergency Steel Loan Guarantee Program. To simplify interest calculations, all borrowings are dated
October 1. Interest rates are based on a weighted average of rates during the term of the borrowed funds. The weighted average
rate for each cohort’s borrowing is recalculated at the end of each fiscal year during which disbursements are made. Annual interest
payments on unpaid principal balances as of September 30 are required. Principal repayments are required only at maturity, but are
permitted at any time during the term of the loan. The Department’s primary financing source for repayments of Debt to Treasury is
the collection of principal on the associated Loans Receivable. Balances of any borrowed but undisbursed funds will earn interest at
the same rate used in calculating interest expense. The amount reported for Debt to Treasury includes accrued interest payable.

The Department has also borrowed funds from Treasury for its Digital Television Transition and Public Safety Fund. This NTIA fund,
which was created by the Digital Television Transition and Public Safety Act of 2005, receives proceeds from the auction of licenses
for recovered analog spectrum from discontinued analog television signals, and provides funding for several programs from these
receipts. This Act, as well as the Security and Accountability For Every Port Act of 2006, also provided borrowing authority to the
Department to commence specified programs prior to the availability of earned auction proceeds. As of September 30, 2009, NTIA
has fully reimbursed Treasury for the borrowings, without interest. For more information on certain programs under the Digital
Television Transition and Public Safety Fund, see Note 18.

Spectrum Auction Proceeds Liability to Federal Communications Commission: FCC completed the auction of licenses for recovered
analog spectrum in March 2008. These auction proceeds provide funding for several programs. Auction proceeds are considered
a liability to FCC until FCC grants the license. When the license is granted, a budgetary financing source is recognized on the
Consolidated Statement of Changes in Net Position for the earned net auction proceeds (auction proceeds less FCC administrative
fees due to FCC), and the liability is reduced by the dollar amount of the license granted. See Note 18 for more information on
NTIA’s Digital Television and Transition Public Safety Fund.

Resources Payable to Treasury: Resources Payable to Treasury includes liquidating fund assets in excess of liabilities that are being
held as working capital for the Economic Development Revolving Fund loan programs and the FVOG loan guarantee program.
EDA’s Drought Loan Portfolio is a non-entity asset; therefore, the amount of the Portfolio is also recorded as a liability to the
Treasury General Fund. The Portfolio collections are returned to the Treasury General Fund annually, and the liability is reduced
accordingly.

Unearned Revenue: Unearned Revenue is the portion of monies received for which goods and services have not yet been provided
or rendered by the Department. Revenue is recognized as reimbursable costs are incurred, and the Unearned Revenue balance
is reduced accordingly. Unearned Revenue also includes the balances of customer deposit accounts held by the Department.
The intragovernmental Unearned Revenue primarily relates to monies collected in advance under reimbursable agreements.
The majority of the Unearned Revenue with the public represents patent and trademark application and user fees that are
pending action.




 196
                                                F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Accrued FECA Liability: The Federal Employees Compensation Act (FECA) provides income and medical cost protection to covered
federal civilian employees injured on the job, to employees who have incurred work-related occupational diseases, and to
beneficiaries of employees whose deaths are attributable to job-related injuries or occupational diseases. The FECA program
is administered by the U.S. Department of Labor (DOL), which pays valid claims against the Department and subsequently seeks
reimbursement from the Department for these paid claims. Accrued FECA Liability, included in Intragovernmental Other Liabilities,
represents amounts due to DOL for claims paid on behalf of the Department.

Loan Guarantee Liabilities: Post-FY 1991 obligated loan guarantees are governed by the Federal Credit Reform Act of 1990. For a
guaranteed loan disbursed during a fiscal year, a subsidy cost is initially recognized. Subsidy costs are intended to estimate the
long-term cost to the U.S. government of its loan programs. The subsidy cost equals the present value of estimated cash outflows
over the lives of the loans, minus the present value of estimated cash inflows, discounted at the applicable Treasury interest rate.
Administrative costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from interest rate differentials,
interest subsidies, delinquencies and defaults, loan origination and other fees, and other cash flows. The Department calculates its
subsidy costs based on a model created and provided by OMB.

For a non-acquired guaranteed loan outstanding, the present value of the estimated cash inflows less cash outflows of the loan
guarantee is recognized as a Loan Guarantee Liability. The Loan Guarantee Liability is normally reestimated annually each year,
as of September 30. The subsidy reestimate takes into account all factors that may have affected the estimated cash flows.
Any adjustment resulting from the reestimate is recognized as a subsidy expense (or a reduction in subsidy expense).

Federal Employee Benefits:

Actuarial FECA Liability: Actuarial FECA Liability represents the liability for future workers’ compensation (FWC) benefits, which
includes the expected liability for death, disability, medical, and miscellaneous costs for approved cases. The liability is determined
by DOL annually, as of September 30, using a method that utilizes historical benefits payment patterns related to a specific
incurred period to predict the ultimate payments related to that period. The projected annual benefit payments are discounted
to present value using OMB’s economic assumptions for ten-year Treasury notes and bonds. To provide more specifically for the
effects of inflation on the liability for FWC benefits, wage inflation factors (Cost of Living Allowance) and medical inflation factors
(Consumer Price Index - Medical) are applied to the calculation of projected future benefits. These factors are also used to adjust
historical payments of benefits by the Department to current-year constant dollars.

The model’s resulting projections are analyzed by DOL to ensure that the amounts are reliable. The analysis is based on two tests:
(1) a comparison of the percentage change in the liability amount by agency to the percentage change in the actual payments;
and (2) a comparison of the ratio of the estimated liability to the actual payment of the beginning year calculated for the current
projection to the liability-payment ratio calculated for the prior projection.

NOAA Corps Retirement System Liability and NOAA Corps Post-retirement Health Benefits Liability: These liabilities are recorded
at the actuarial present value of projected benefits, calculated annually, as of September 30. The actuarial cost method used
to determine these liabilities is the aggregate entry age normal method. Under this method, the actuarial present value of
projected benefits is allocated on a level basis over the earnings or the service of the group between entry age and assumed
exit ages. The portion of this actuarial present value allocated to the valuation year is called the normal cost. For purposes of
calculating the normal cost, certain actuarial assumptions utilized for the actual valuation of U.S. Military Retirement System
are used. Actuarial gains and losses, and prior and past service costs, if any, are recognized immediately in the year they occur,
without amortization. The medical claim rates used for the NOAA Corps Post-retirement Health Benefits Liability actuarial calculations
are based on the claim rates used for the U.S. Department of Defense Medicare-Eligible Retiree Health Care Fund actuarial valuations.




                                                                                                                                 197
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Demographic assumptions appropriate to covered personnel are also used. For background information about these plans, see
Note 1.Q, Employee Retirement Benefits.

Environmental and Disposal Liabilities: NIST operates a nuclear reactor licensed by the U.S. Nuclear Regulatory Commission, in
accordance with NIST’s mission of setting standards and examining new technologies. The Department currently estimates the
cost of decommissioning this facility to be $76.8 million. The NIST decommissioning estimate includes an assumption that an
offsite waste disposal facility will become available, when needed, estimated in 2029. Currently, an offsite disposal location has
not been identified, and the NIST environmental liability cost estimate includes an amount approved by the Nuclear Regulatory
Commission for offsite waste disposal. The total estimated decommissioning cost is being accrued on a straight-line basis over the
expected life of the facility. Under current legislation, funds to cover the expense of decommissioning the facility’s nuclear reactor
should be requested in a separate appropriation when the decommissioning date becomes relatively certain.

The Department has incurred cleanup costs related to the costs of removing, containing, and/or disposing of hazardous waste from
facilities used by NOAA. The Department has estimated its liabilities for environmental cleanup costs at all NOAA-used facilities,
including the decommissioning of ships. The largest of NOAA’s environmental liabilities relates to the clean-up of the Pribilof
Islands in Alaska, which contains waste from the U.S. Department of Defense’s use during World War II. The Department does not
recognize a liability for environmental cleanup costs for NOAA-used facilities that are less than $25 thousand per project. When
an estimate of cleanup costs includes a range of possible costs, the most likely cost is reported. When no cost is more likely than
another, the lowest estimated cost in the range is reported. The liability is reduced as progress payments are made.

The Department may have liabilities associated with asbestos-containing materials (ACM) and lead-based paints (LBP) at certain
NOAA facilities. The Department has scheduled surveys to assess the potential for liabilities for ACM and LBP contamination.
All known issues, however, are contained, and NOAA facilities meet current environmental standards. No cost estimates are
presently available for facilities that have not yet been assessed for ACM or LBP issues.

Accrued Payroll and Annual Leave: These categories include salaries, wages, and other compensation earned by employees, but not
disbursed as of September 30. Annually, as of September 30, the balances of Accrued Annual Leave are adjusted to reflect current
pay rates. Sick leave and other types of non-vested leave are expensed as taken.

Accrued Grants: The Department administers a diverse array of financial assistance programs and projects concerned with the
entire spectrum of business and economic development efforts that promote activities such as expanding U.S. exports, creating
jobs, contributing to economic growth, developing innovative technologies, promoting minority entrepreneurship, protecting
coastal oceans, providing weather services, managing worldwide environmental data, and using telecommunications and
information technologies to better provide public services. Disbursements of funds under the Department’s grant programs are
generally made when requested by grantees. These drawdown requests may be received and fulfilled before grantees make the
program expenditures. When the Department has disbursed funds but the grant recipient has not yet reported expenditures, these
disbursements are recorded as advances. If a recipient, however, reports program expenditures that have not been advanced by
the Department by September 30, such amounts are recorded as grant expenses and grants payable as of September 30.

Accrued Coupons for Digital-to-Analog Converter Box Program: NTIA’s Digital-to-Analog Converter Box Program provided
households in the U.S. with forty-dollar coupons (two per household maximum) that could have been applied toward the purchase
of digital-to-analog converter boxes. This liability represented the projected amount due for coupons issued as of September 30,
2009. The program was substantially completed by mid-November 2009. See Note 18 for more information on the Digital-to-
Analog Converter Box Program.




 198
                                                F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Capital Lease Liabilities: Capital leases are leases for property, plant, and equipment that transfer substantially all the benefits and
risks of ownership to the Department.

ITA Foreign Service Nationals’ Voluntary Separation Pay: This liability, included in Other Liabilities, is based on the salaries and
benefit statuses of employees in countries where governing laws require a provision for separation pay.

Contingent Liabilities and Contingencies: A contingency is an existing condition, situation, or set of circumstances involving
uncertainty as to possible gain or loss. The uncertainty will ultimately be resolved when one or more future events occur or fail
to occur. A contingent liability (included in Other Liabilities) and an expense are recognized when a past event has occurred,
and a future outflow or other sacrifice of resources is measurable and probable. A contingency is considered probable when the
future confirming event or events are more likely than not to occur, with the exception of pending or threatened litigation and
unasserted claims. For pending or threatened litigation and unasserted claims, the future confirming event or events are likely
to occur. A contingency is disclosed in the Notes to the Financial Statements if any of the conditions for liability recognition are
not met and there is at least a reasonable possibility that a loss or an additional loss may have been incurred. A contingency is
considered reasonably possible when the chance of the future confirming event or events occurring is more than remote but less
than probable. A contingency is not recognized as a contingent liability and an expense nor disclosed in the Notes to the Financial
Statements when the chance of the future event or events occurring is remote. A contingency is considered remote when the
chance of the future event or events occurring is slight.

Liabilities Not Covered by Budgetary Resources: These are liabilities for which congressional actions are needed before budgetary
resources can be provided. The Department anticipates that liabilities not covered by budgetary resources will be funded from
future budgetary resources when required. These amounts are detailed in Note 15.

Under accrual accounting, the expense for annual leave is recognized when the leave is earned. However, for most of the
Department’s fund groups, appropriations are provided to pay for the leave when it is taken. As a result, budgetary resources do
not cover a large portion of Accrued Annual Leave.

The Department generally receives budgetary resources for Federal Employee Benefits when they are needed for disbursements.


N	 Commitments
Commitments are preliminary actions that will ultimately result in an obligation to the U.S. government if carried through, such
as purchase requisitions, estimated travel orders, or unsigned contracts/grants. Major long-term commitments are disclosed in
Note 16, Commitments and Contingencies.


O	 Net Position
Net Position is the residual difference between assets and liabilities, and is composed of Unexpended Appropriations and Cumulative
Results of Operations.

Unexpended Appropriations represent the total amount of unexpended budget authority, both obligated and unobligated.
Unexpended Appropriations are reduced for Appropriations Used and adjusted for other changes in budgetary resources, such as
transfers and rescissions. Cumulative Results of Operations is the net result of the Department’s operations since inception.




                                                                                                                                  199
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




P	 Revenues and Other Financing Sources
Appropriations Used: Most of the Department’s operating funds are provided by congressional appropriations of budget authority.
The Department receives appropriations on annual, multiple-year, and no-year bases. Upon expiration of an annual or multiple-
year appropriation, the obligated and unobligated balances retain their fiscal year identity, and are maintained separately within
an expired account. The unobligated balances can be used to make legitimate obligation adjustments, but are otherwise not
available for expenditures. Annual and multiple-year appropriations are canceled at the end of the fifth year after expiration.
No-year appropriations do not expire. Appropriations of budget authority are recognized as used when costs are incurred, for
example, when goods and services are received or benefits and grants are provided.

Exchange and Non-exchange Revenue: The Department classifies revenue as either exchange revenue or non-exchange revenue.
Exchange revenue is derived from transactions in which both the government and the other party receive value, including processing
patents and registering trademarks, the sale of weather data, nautical charts, and navigation information, and other sales of
goods and services. This revenue is presented on the Department’s Consolidated Statements of Net Cost, and serves to reduce
the reported cost of operations borne by the taxpayer. Non-exchange revenue is derived from the government’s sovereign right
to demand payment, including fines for violations of fisheries and marine protection laws. Non-exchange revenue is recognized
when a specifically identifiable, legally enforceable claim to resources arises, and to the extent that collection is probable and the
amount is reasonably estimable. This revenue is not considered to reduce the cost of the Department’s operations and is therefore
reported on the Consolidated Statements of Changes in Net Position.

In certain cases, law or regulation sets the prices charged by the Department, and, for program and other reasons, the Department
may not receive full cost (e.g., the processing of patents and registering of trademarks, and the sale of weather data, nautical
charts, and navigation information). Prices set for products and services offered through the Department’s working capital funds
are intended to recover the full costs incurred by these activities.

Imputed Financing Sources from Cost Absorbed by Others (and Related Imputed Costs): In certain cases, operating costs of the
Department are paid for in full or in part by funds appropriated to other federal entities. For example, Civil Service Retirement
System pension benefits for applicable Departmental employees are paid for in part by the U.S. Office of Personnel Management
(OPM), and certain legal judgments against the Department are paid for in full from the Judgment Fund maintained by Treasury.
The Department includes applicable Imputed Costs on the Consolidated Statements of Net Cost. In addition, an Imputed Financing
Source from Cost Absorbed by Others is recognized on the Consolidated Statements of Changes in Net Position.

Transfers In/(Out): Intragovernmental transfers of budget authority (i.e., appropriated funds) or of assets without reimbursement
are recorded at book value.



Q	 Employee Retirement Benefits
Civil Service Retirement System (CSRS) and Federal Employees Retirement System (FERS): Most employees of the Department
participate in either the CSRS or FERS defined-benefit pension plans. FERS went into effect on January 1, 1987. FERS and Social
Security automatically cover most employees hired after December 31, 1983. Employees hired prior to January 1, 1984 could elect
to either join FERS and Social Security, or remain in CSRS.

The Department is not responsible for and does not report CSRS or FERS assets, accumulated plan benefits, or liabilities applicable
to its employees. OPM, which administers the plans, is responsible for and reports these amounts.




 200
                                                F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




For CSRS-covered regular employees, the Department was required to make contributions to the plan equal to 7 percent of an
employee’s basic pay. Employees contributed 7 percent of basic pay. For each fiscal year, OPM calculates the U.S. government’s
service cost for covered employees, which is an estimate of the amount of funds, that, if accumulated annually and invested over
an employee’s career, would be enough to pay that employee’s future benefits. Since the U.S. government’s estimated service cost
exceeds contributions made by employer agencies and covered employees, this plan is not fully funded by the Department and its
employees. The Department has recognized an Imputed Cost and an Imputed Financing Source From Cost Absorbed by Others for
the difference between the estimated service cost and the contributions made by the Department and its covered employees.

For FERS-covered regular employees, the Department was required to make contributions of 11.2 percent of basic pay. Employees
contributed 0.8 percent of basic pay. For each fiscal year, OPM calculates the U.S. government’s service cost for covered employees.
Since the U.S. government’s estimated service cost exceeds contributions made by employer agencies and covered employees, this
plan was not fully funded by the Department and its employees. The Department has recognized an Imputed Cost and an Imputed
Financing Source From Cost Absorbed by Others for the difference between the estimated service cost and the contributions made
by the Department and its covered employees.

Employees participating in FERS are covered under the Federal Insurance Contributions Act (FICA), for which the Department
contributes a matching amount to the Social Security Administration.

NOAA Corps Retirement System: Active-duty officers of the NOAA Corps are covered by the NOAA Corps Retirement System, an
unfunded, pay-as-you-go, defined-benefit plan administered by the Department. Participants do not contribute to this plan. Plan
benefits are based primarily on years of service and compensation. Participants, as of September 30, 2010, included 318 active
duty officers, 355 nondisability retiree annuitants, 17 disability retiree annuitants, and 47 surviving families. Key provisions include
voluntary nondisability retirement after 20 years of active service, disability retirement, optional survivor benefits, Consumer Price
Index (CPI) optional survivor benefits, and CPI adjustments for benefits.

Foreign Service Retirement and Disability System, and the Foreign Service Pension System: Foreign Commercial Officers are covered
by the Foreign Service Retirement and Disability System and the Foreign Service Pension System. ITA makes contributions to the
systems based on a percentage of an employee’s pay. Both systems are multi-employer plans administered by the U.S. Department
of State. The Department is not responsible for and does not report plan assets, accumulated plan benefits, or liabilities applicable
to its employees. The U.S. Department of State, which administers the plan, is responsible for and reports these amounts.

Thrift Savings Plan (TSP): Employees covered by CSRS and FERS are eligible to contribute to the U.S. government’s TSP, administered
by the Federal Retirement Thrift Investment Board. A TSP account is automatically established for FERS-covered employees,
and the Department makes a mandatory contribution of one percent of basic pay. FERS and CSRS covered employees
have no limit on the percentage of pay contributed to their TSP account. However, the total contribution for 2010 may not
exceed the IRS limit of $16.5 thousand. The Department makes no matching contributions for CSRS-covered employees.
TSP participants age 50 or older who are already contributing the maximum amount of contributions for which they are eligible may
also make catch-up contributions, subject to the IRS dollar limit for catch-up contributions.

Federal Employees Health Benefit (FEHB) Program: Most Departmental employees are enrolled in the FEHB Program, which provides
post-retirement health benefits. OPM administers this program and is responsible for the reporting of liabilities. Employer
agencies and covered employees are not required to make any contributions for post-retirement health benefits. OPM calculates
the U.S. government’s service cost for covered employees each fiscal year. The Department has recognized the entire service cost
of these post-retirement health benefits for covered employees as an Imputed Cost and an Imputed Financing Source From Cost
Absorbed by Others.




                                                                                                                                  201
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




NOAA Corps Post-retirement Health Benefits: Active-duty officers of the NOAA Corps are covered by the health benefits program for
the NOAA Corps, which provides post-retirement health benefits. This is a pay-as-you-go plan administered by the Department.
Participants do not make any contributions to this plan.

Federal Employees Group Life Insurance (FEGLI) Program: Most Department employees are entitled to participate in the FEGLI
Program. Participating employees can obtain basic term life insurance, with the employee paying two-thirds of the cost and the
Department paying one-third. Additional coverage is optional, to be paid fully by the employee. The basic life coverage may be
continued into retirement if certain requirements are met. OPM administers this program and is responsible for the reporting
of liabilities. For each fiscal year, OPM calculates the U.S. government’s service cost for the post-retirement portion of basic life
coverage. Because the Department’s contributions to the basic life coverage are fully allocated by OPM to the pre-retirement
portion of coverage, the Department has recognized the entire service cost of the post-retirement portion of basic life coverage as
an Imputed Cost and an Imputed Financing Source From Cost Absorbed by Others.



R	 Use of Estimates
The preparation of financial statements requires the Department to make estimates and assumptions that affect these financial
statements. Actual results may differ from those estimates.



S	 Tax Status
The Department is not subject to federal, state, or local income taxes. Accordingly, no provision for income taxes is recorded.



T	 Fiduciary Activities
Fiduciary activities are the collection or receipt, and the management, protection, accounting, and disposition by the U.S.
government of cash or other assets in which non-federal individuals or entities have an ownership interest that the U.S. government
must uphold. Fiduciary cash and other assets are not assets of the U.S. government, and, accordingly, are not recognized in the
accompanying consolidated financial statements.

The Department’s fiduciary activities consist of the following:

The Patent Cooperation Treaty authorizes USPTO to collect patent filing and search fees on behalf of the World Intellectual
Property Organization (WIPO), European Patent Office, Korean Intellectual Property Office, and the Australian Patent Office, from
U.S. citizens requesting an international patent. The Madrid Protocol Implementation Act authorizes USPTO to collect trademark
application fees on behalf of the International Bureau of WIPO from U.S. citizens requesting an international trademark. These
fiduciary activities are reported in Note 20.




 202
                                                F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   Note 2. Fund Balance with Treasury

Fund Balance with Treasury, by type, is as follows:
                                                                                      FY 2010            FY 2009
           General Funds                                                            $ 15,013,746       $ 14,878,540
           Revolving Funds                                                               912,082            730,441
           Special Funds
           	 Patent and Trademark Surcharge Fund                                           233,529           233,529
           	 Digital Television Transition and Public Safety Fund                        9,396,152         9,230,126
           	 Others                                                                    	    84,423       	    91,440
           Deposit Funds
           	 Spectrum Auction Proceeds Liability to FCC                                	     33,838      	   400,451
           	 Others                                                                    	    123,020      	   115,738
           Trust Funds                                                                        2,104              674
           Other Fund Types                                                                 (13,347)          (9,177)
           Total                                                                    $ 25,785,547       $ 25,671,762



Status of Fund Balance with Treasury is as follows:
                                                                                      FY 2010            FY 2009
           Temporarily Precluded From Obligation                                    $    603,783       $    553,954
           Unobligated Balance
             Available                                                                  3,228,225         8,156,433
             Unavailable                                                                8,927,908         8,439,100
           Obligated Balance Not Yet Disbursed                                         12,648,592         7,781,735
           Non-budgetary                                                               	 377,039         	 740,540
           Total                                                                    $ 25,785,547       $ 25,671,762

See Note 18, Combined Statements of Budgetary Resources, for legal arrangements affecting the Department’s use of Fund Balance
with Treasury for FY 2010 and FY 2009.




                                                                                                                        203
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 3. Accounts Receivable, Net

                                                               FY 2010
                                                     Accounts                 Allowance for               Accounts
                                                    Receivable,               Uncollectible              Receivable,
                                                       Gross                    Accounts                    Net
                  Intragovernmental             $        84,479           $ 	              -         $         84,479
                  With the Public               $        82,980           $          (12,200)        $         70,780

                                                               FY 2009
                                                     Accounts                 Allowance for               Accounts
                                                    Receivable,               Uncollectible              Receivable,
                                                       Gross                    Accounts                    Net
                  Intragovernmental             $        78,111           $ 	              -         $         78,111
                  With the Public               $        43,974           $          (12,545)        $         31,429


As a major partner in the federal response to the 2010 gulf oil spill incident, NOAA has incurred certain costs for providing
coordinated scientific weather and biological response services to that region, for which it expects to be reimbursed. As of
September 30, 2010, NOAA has recorded receivables from the Coast Guard (Intragovernmental) for $2.4M. NOAA has also
recorded receivables from British Petroleum BP (with the public) of $20.3M in the investigation and restoration assessment fund as
authorized under the Department of Justice Oil Pollution Act ruling of 1989. NOAA believes these receivables are fully collectible,
based on costs submitted to date and reimbursements received. Therefore, no allowance for uncollectible accounts has been
established for these receivables.



   Note 4. Cash

                                                                                    FY 2010                   FY 2009
          Cash Not Yet Deposited with Treasury                                   $       3,222             $       3,248
          Imprest Funds                                                            	       394               	       324
          Total                                                                  $         3,616           $           3,572


Cash Not Yet Deposited with Treasury primarily represents patent and trademark fees that were not processed as of September 30,
due to the lag time between receipt and initial review. Certain bureaus maintain imprest funds for operational necessity, such as
law enforcement activities, and for environments that do not permit the use of electronic payments.




 204
                                               F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   Note 5. Direct Loans and Loan guarantees, NET

The Department operates the following direct loan and loan guarantee programs:

           Direct Loan Programs:
           EDA                                Drought Loan Portfolio
           EDA                                Economic Development Revolving Fund
           NOAA                               Alaska Purse Seine Fishery Buyback Loans1
           NOAA                               Bering Sea and Aleutian Islands Non-Pollock Buyback Loans
           NOAA                               Bering Sea Pollock Fishery Buyback
           NOAA                               Coastal Energy Impact Program (CEIP)
           NOAA                               Crab Buyback Loans
           NOAA                               Federal Gulf of Mexico Reef Fish Buyback Loans1
           NOAA                               Fisheries Finance Individual Fishing Quota (IFQ) Loans
           NOAA                               Fisheries Finance Traditional Loans
           NOAA                               Fisheries Finance Tuna Fleet Loans
           NOAA                               Fisheries Loan Fund
           NOAA                               New England Groundfish Buyback Loans1
           NOAA                               New England Lobster Buyback Loans1
           NOAA                               Pacific Groundfish Buyback Loans
           1 No loans have been issued under these programs as of September 30, 2010.



           Loan Guarantee Programs:
           EDA                                   Economic Development Revolving Fund
           ELGP-Oil/Gas                          Emergency Oil and Gas Loan Guarantee Program
           ELGP-Steel                            Emergency Steel Loan Guarantee Program
           NOAA                                  Fishing Vessel Obligation Guarantee Program (FVOG Program)


The net assets for the Department’s loan programs consist of:

                                                                                       FY 2010           FY 2009
           Direct Loans Obligated Prior to FY 1992                                  $      23,834     $      27,046
           Direct Loans Obligated After FY 1991                                           514,038           481,370
           Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees                     	         4       	         4
           Defaulted Guaranteed Loans from Post-FY 1991 Guarantees                          2,271             2,672
           Total                                                                    $       540,147   $    511,092




                                                                                                                      205
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Direct Loans Obligated Prior to FY 1992 consist of:

                                                      FY 2010
                                     Loans                                                         Value of Assets
            Direct                 Receivable,           Interest          Allowance for              Related to
         Loan Program                 Gross             Receivable          Loan Losses           Direct Loans, Net
 CEIP                            $     20,318         $    5,035           $ (18,636)             $        6,717
 Drought Loan Portfolio                11,522                156                 (117)                   11,561
 Economic Development
    Revolving Fund                      5,579                    33                 (56)                   5,556
 Total                           $     37,419         $     5,224          $ (18,809)             $       23,834


                                                      FY 2009
                                     Loans                                                         Value of Assets
            Direct                 Receivable,           Interest          Allowance for              Related to
         Loan Program                 Gross             Receivable          Loan Losses           Direct Loans, Net
 CEIP                            $     20,443         $    4,874           $ (18,780)             $        6,537
 Drought Loan Portfolio                14,104                188                 (158)                   14,134
 Economic Development
    Revolving Fund                      6,405                    46                (76)                    6,375
 Fisheries Loan Fund                      293                    38               (331)               	        -
 Total                           $     41,245         $     5,146          $ (19,345)             $       27,046




 206
                                                 F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                  NOTES TO THE FINANCIAL STATE M ENTS




Direct Loans Obligated After FY 1991 consist of:

                                                                   FY 2010
                                                       Loans                                     Allowance for     Value of Assets
                                                     Receivable,            Interest             Subsidy Cost         Related to
             Direct Loan Program                        Gross              Receivable           (Present Value)   Direct Loans, Net
     Bering Sea and Aleutian Islands
        Non-Pollock Buyback Loans                $      33,645         $        1,036           $      7,825      $     42,506
     Bering Sea Pollock Fishery Buyback                 49,232                	   143                  6,185            55,560
     Crab Buyback Loans                                 94,049                  2,957                 20,770          117,776
     Fisheries Finance IFQ Loans                        21,665                    245                  3,379            25,289
     Fisheries Finance Traditional Loans              	197,583                	 1,938                 28,477          227,998
     Fisheries Finance Tuna Fleet Loans               	    374                	     1               	     (2)         	    373
     Pacific Groundfish Buyback Loans                   33,472                	 1,043                 10,021            44,536
     Total                                       $ 430,020             $          7,363         $    76,655       $ 514,038


                                                                   FY 2009
                                                       Loans                                     Allowance for     Value of Assets
                                                     Receivable,            Interest             Subsidy Cost         Related to
             Direct Loan Program                        Gross              Receivable           (Present Value)   Direct Loans, Net
     Bering Sea and Aleutian Islands
        Non-Pollock Buyback Loans                $      34,500         $          1,023         $     8,380       $    43,903
     Bering Sea Pollock Fishery Buyback                 49,970                	     116               3,558            53,644
     Crab Buyback Loans                                 94,904                    3,037              20,718           118,659
     Fisheries Finance IFQ Loans                        20,149                      203               2,779            23,131
     Fisheries Finance Traditional Loans              	165,529                	   2,256              21,945           189,730
     Fisheries Finance Tuna Fleet Loans               	 5,769                 	      34             	 671             	 6,474
     Pacific Groundfish Buyback Loans                   34,366                	   1,051              10,412            45,829
     Total                                       $ 405,187             $          7,720         $    68,463       $ 481,370


New Disbursements of Direct Loans (Post-FY 1991):

                Direct Loan Program                      FY 2010                FY 2009
       Fisheries Finance IFQ Loans                     $     5,349            $     3,126
       Fisheries Finance Traditional Loans                  84,935                 19,907
       Total                                           $     90,284           $        23,033




                                                                                                                                 207
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Subsidy Expense for Direct Loans by Program and Component:

Subsidy Expense for New Disbursements of Direct Loans:
                                                              FY 2010
                                                                                 Fees and
                                        Interest Rate                              Other
        Direct Loan Program              Differential          Defaults         Collections               Other              Total
Fisheries Finance IFQ Loans             $ 	 (1,094)           $ 	    21        $ 	      (36)           $ 	    424         $ 	 (685)
Fisheries Finance Traditional Loans         	(13,777)           	 202             	 (486)                	 7,447            	 (6,614)
Total                                   $     (14,871)        $      223       $ 	     (522)           $      7,871       $     (7,299)

                                                              FY 2009
                                                                                 Fees and
                                        Interest Rate                              Other
        Direct Loan Program              Differential          Defaults         Collections              Other               Total
Fisheries Finance IFQ Loans             $ 	 (593)             $ 	    14        $ 	      (21)          $ 	    238          $ 	 (362)
Fisheries Finance Traditional Loans         	 (2,718)           	    37           	 (125)               	 1,542             	 (1,264)
Total                                   $      (3,311)        $         51     $ 	     (146)          $       1,780       $     (1,626)

Modifications and Reestimates:
                      FY 2010                                                                              FY 2010
                                           Total                               Interest Rate            Technical             Total
        Direct Loan Program             Modifications                           Reestimates            Reestimates         Reestimates
Bering Sea and Aleutian Islands
   Non-Pollock Buyback Loans            $ 	         -                          $ 	            -       $ 	    274          $ 	    274
Bering Sea Pollock Fishery Buyback        	         -                            	            -         	 (3,483)           	 (3,483)
Crab Buyback Loans                        	         -                            	            -              901                 901
Fisheries Finance IFQ Loans               	         -                            	            -         	    (95)           	    (95)
Fisheries Finance Traditional Loans       	         -                            	            -              582                 582
Fisheries Finance Tuna Fleet Loans        	         -                            	            -         	    572            	    572
Pacific Groundfish Buyback Loans          	         -                            	            -         	    154            	    154
Total                                   $ 	         -                          $ 	            -       $      (1,095)      $     (1,095)


                      FY 2009                                                                              FY 2009
                                           Total                               Interest Rate            Technical             Total
        Direct Loan Program             Modifications                           Reestimates            Reestimates         Reestimates
Bering Sea and Aleutian Islands
   Non-Pollock Buyback Loans            $ 	         -                          $ 	            -       $ 	 (8,801)         $ 	 (8,801)
Bering Sea Pollock Fishery Buyback        	         -                            	            -         	 (472)             	 (472)
Crab Buyback Loans                        	         -                            	            -           (1,037)             (1,037)
Fisheries Finance IFQ Loans               	         -                            	            -         	    491            	    491
Fisheries Finance Traditional Loans       	         -                            	            -            3,854               3,854
Fisheries Finance Tuna Fleet Loans        	         -                            	            -         	    (15)           	    (15)
Pacific Groundfish Buyback Loans          	         -                            	            -         	 (1,110)           	 (1,110)
Total                                   $ 	         -                          $ 	            -       $      (7,090)      $     (7,090)




 208
                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y   R E P O R T
                                                                                 NOTES TO THE FINANCIAL STATE M ENTS




Total Direct Loan Subsidy Expense:

                    Direct Loan Program                         FY 2010                        FY 2009
          Bering Sea and Aleutian Islands Non-
             Pollock Buyback Loans                          $ 	          274             $ 	       (8,801)
          Bering Sea Pollock Fishery Buyback                    	      (3,483)                 	    (472)
          Crab Buyback Loans                                    	        901                   	   (1,037)
          Fisheries Finance IFQ Loans                                   (780)                        129
          Fisheries Finance Traditional Loans                   	      (6,032)                 	   2,590
          Fisheries Finance Tuna Fleet Loans                    	        572                   	     (15)
          Pacific Groundfish Buyback Loans                      	        154                   	   (1,110)
          Total                                             $ 	        (8,394)           $ 	       (8,716)


Subsidy Rates for Direct Loans by Program and Component:

Budget Subsidy Rates for Direct Loans for the Current Fiscal-year’s Cohorts:

                                                                    FY 2010
                                                                                           Fees and
                                                Interest Rate                                Other
           Direct Loan Program                   Differential          Defaults           Collections           Other       Total
 Fisheries Finance IFQ Loans                     (21.26) %              0.42 %          	 (0.57) %           	 9.41 %    	(12.00) %
 Fisheries Finance Traditional Loans             (16.90) %              0.42 %          	 (0.54) %           	 8.53 %    	 (8.49) %


                                                                    FY 2009
                                                                                           Fees and
                                                Interest Rate                                Other
           Direct Loan Program                   Differential          Defaults           Collections           Other       Total
 Fisheries Finance IFQ Loans                     (20.11) %              0.39 %          	 (0.69) %           	 7.63 %    	(12.78) %
 Fisheries Finance Traditional Loans             (16.21) %              0.16 %          	 (0.57) %           	 10.19 %   	 (6.43) %

The budget subsidy rates disclosed pertain only to the reporting period’s cohorts. These rates cannot be applied to the new
disbursements of direct loans during the reporting period to yield the subsidy expense. The subsidy expense for new disbursements
of direct loans for the reporting period could result from disbursements of loans from both the reporting period’s cohorts and prior
fiscal-year(s) cohorts. The subsidy expense for the reporting period may also include modifications and reestimates.




                                                                                                                                    209
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Schedule for Reconciling Allowance for Subsidy Cost (Post-FY 1991 Direct Loans):
                                                                                               FY 2010                       FY 2009
   Beginning Balance of the Allowance for Subsidy Cost                                    $ 	 68,463                    $ 	 63,174

   Add Subsidy Expense for Direct Loans Disbursed During the
     Reporting Years by Component:
   		 Interest Rate Differential Costs                                                              14,871                        3,311
   		 Default Costs (Net of Recoveries)                                                                (223)                        (51)
   		 Fees and Other Collections                                                                        522                        146
   		 Other Subsidy Costs                                                                            (7,871)                     (1,780)
   Total of the above Subsidy Expense Components                                                      7,299                       1,626

   Adjustments:
   		 Fees Received                                                                                    (316)                        (92)
   		 Foreclosed Property Acquired                                                             	           -                       167
   		 Subsidy Allowance Amortization                                                           	        114                  	 (3,502)
   Total of adjustments                                                                                (202)                     (3,427)
   Ending Balance of the Allowance for Subsidy Cost Before Reestimates                         	 75,560                      	 61,373
   Add or Subtract Subsidy Reestimates by Component:
   		 Technical/Default Reestimates                                                            	      1,095                  	    7,090
   Ending Balance of the Allowance for Subsidy Cost                                       $         76,655              $        68,463


Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees:

                                                         FY 2010
                                                                                                             Value of Assets
                                        Defaulted                                                         Related to Defaulted
         Loan Guarantee              Guaranteed Loans           Interest          Allowance for            Guaranteed Loans
            Program                  Receivable, Gross         Receivable          Loan Losses              Receivable, Net
FVOG Program                         $       11,997           $ 	       4        $ 	 (11,997)             $ 	            4

                                                         FY 2009
                                                                                                             Value of Assets
                                        Defaulted                                                         Related to Defaulted
         Loan Guarantee              Guaranteed Loans           Interest          Allowance for            Guaranteed Loans
            Program                  Receivable, Gross         Receivable          Loan Losses              Receivable, Net
FVOG Program                         $       11,997           $ 	       4        $ 	 (11,997)             $ 	            4




 210
                                              F Y   2 0 1 0    P E R F O R M A N C E   A N D       A C C O U N T A B I L I T Y    R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Defaulted Guaranteed Loans from Post-FY 1991 Guarantees:

                                                            FY 2010
                                                                                                          Value of Assets
                                           Defaulted                                  Allowance for    Related to Defaulted
          Loan Guarantee                Guaranteed Loans          Interest            Subsidy Cost      Guaranteed Loans
             Program                    Receivable, Gross        Receivable          (Present Value)     Receivable, Net
FVOG Program 	                          $       14,128          $ 	   1,254          $ 	 (13,111)      $          2,271


                                                            FY 2009
                                                                                                          Value of Assets
                                           Defaulted                                  Allowance for    Related to Defaulted
          Loan Guarantee                Guaranteed Loans          Interest            Subsidy Cost      Guaranteed Loans
             Program                    Receivable, Gross        Receivable          (Present Value)     Receivable, Net
FVOG Program 	                          $       14,128          $ 	   1,254          $ 	 (12,710)      $          2,672



Loan Guarantees:

Guaranteed Loans Outstanding:

Outstanding non-acquired guaranteed loans as of September 30, 2010 and 2009, which are not reflected in the financial statements,
are as follows:

                                                           FY 2010                                         FY 2009
                                              Outstanding               Amount of              Outstanding             Amount of
                                               Principal of            Outstanding              Principal of          Outstanding
          Loan Guarantee                    Guaranteed Loans,            Principal           Guaranteed Loans,          Principal
             Program                           Face Value              Guaranteed               Face Value            Guaranteed
FVOG Program                             $ 	           3,939          $ 	      3,939        $ 	        4,331         $ 	      4,331




                                                                                                                                211
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




New Guaranteed Loans Disbursed:

        There were no new guaranteed loans disbursed during FY 2010 and FY 2009.

Loan Guarantee Liabilities:
                                                                                  FY 2010                               FY 2009
                                                                               Loan Guarantee                        Loan Guarantee
                                                                             Liabilities for Post-                 Liabilities for Post-
                                                                            FY 1991 Guarantees,                   FY 1991 Guarantees,
                        Loan Guarantee Program                                  Present Value                         Present Value
         FVOG Program                                                   $                565                  $                  589


Subsidy Expense for Loan Guarantees by Program and Component:

Subsidy Expense for New Loan Guarantees Disbursed:

        As there were no new loan guarantees disbursed during FY 2010 and FY 2009, there is not any related subsidy expense.

Modifications and Reestimates:
                              FY 2010                                                                     FY 2010
              Loan Guarantee               Total                                Interest Rate            Technical             Total
                 Program                Modifications                            Reestimates            Reestimates         Reestimates
       FVOG Program                     $ 	          -                          $ 	            -       $ 	        510      $ 	         510


                              FY 2009                                                                     FY 2009
              Loan Guarantee               Total                                Interest Rate            Technical             Total
                 Program                Modifications                            Reestimates            Reestimates         Reestimates
       FVOG Program                     $ 	          -                          $ 	            -       $ 	        451      $ 	         451


Total Loan Guarantee Subsidy Expense:

                        Loan Guarantee Program                                FY 2010                        FY 2009
         FVOG Program                                                   $ 	       510451               $ 	           451




 212
                                              F Y   2 0 1 0   P E R F O R M A N C E    A N D       A C C O U N T A B I L I T Y    R E P O R T
                                                                                   NOTES TO THE FINANCIAL STATE M ENTS




Subsidy Rates for Loan Guarantees by Program and Component:

Budget Subsidy Rates for Loan Guarantees for the Current Fiscal-year’s Cohorts:
         There were no new cohorts of guaranteed loans during FY 2010 and FY 2009.


Schedule for Reconciling Loan Guarantee Liabilities (Post-FY 1991 Loan Guarantees):

                                                                                                         FY 2010                FY 2009
          Beginning Balance of Loan Guarantee Liabilities                                            $ 	        589         $ 	     621
          Adjustments:
          	 Loan Guarantee Modifications                                                                 	        -             	     -
          	 Fees Received                                                                                         8                  29
          	 Interest Accumulation on the Liabilities Balance                                             	      (32)            	   (57)
          	 Other                                                                                        	        -             	    (4)
          Ending Balance of Loan Guarantee Liabilities                                               $          565         $       589


Administrative Expenses:

Administrative expenses in support of the Department’s direct loan and loan guarantee programs consist of:

                          Direct Loan Program                                      FY 2010                   FY 2009
         Drought Loan Portfolio and
            Economic Development Revolving Fund                          $                776        $           1,091
         NOAA Direct Loan Programs                                                      2,494                    3,169
         Total                                                           $              3,270        $           4,260

                        Loan Guarantee Program                                     FY 2010                   FY 2009
         Emergency Oil and Gas Loan Guarantee Program                    $ 	                     -   $ 	               17
         Emergency Steel Loan Guarantee Program                                	             98          	         134
         FVOG Program                                                          	          180            	         262
         Total                                                           $                278        $             413




                                                                                                                                          213
F Y   2 0 1 0    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




  Note 6. Inventory, Materials, and Supplies, Net

                             Category                           Cost Flow Assumption              FY 2010               FY 2009
        Inventory
        Items Held for Current Sale
        	 NIST Standard Reference Materials                     Average                       $     22,340          $        22,200
        	 Other                                                 Various                                166                     198
        Allowance for Excess, Obsolete, and
           Unserviceable Items                                                                        (140)                    (155)
        Total Inventory, Net                                                                        22,366                   22,243


        Materials and Supplies
        Items Held for Use
        	 NOAA’s National Logistics Support Center              Weighted-average                    49,178                   54,632
        	 NOAA’s National Reconditioning Center                 Weighted-average                    42,775                   38,548
        	 Census Bureau’s Decennial Census                      First-in, first-out                 26,089                   50,269
        	 Other                                                 Various                              4,699                    4,820
        Allowance for Excess, Obsolete, and
           Unserviceable Items                                                                     (46,781)                 (24,609)
        Total Materials and Supplies, Net                                                           75,960                  123,660
        Total                                                                                 $     98,326          $       145,903


NIST’s Standard Reference Materials Program provides reference materials for quality assurance of measurements, while NOAA’s
Materials and Supplies are primarily repair parts for weather forecasting equipment. The Census Bureau’s Decennial Census
materials and supplies are comprised of employment forms, payroll forms, various other administrative forms, and training and
production materials.




 214
                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




   Note 7. General Property, Plant, and Equipment, Net

                                                                      FY 2010
                                                     Useful Life                               Accumulated
                       Category                       (Years)                  Cost            Depreciation        Net Book Value
         Land                                           N/A            $ 	       16,787      $ 	              -   $ 	     16,787
         Land Improvements                             30-40                       2,996               (1,286)             1,710
         Structures, Facilities, and
            Leasehold Improvements                      2-60                   1,406,982            (520,827)            886,155
         Satellites/Weather Systems
            Personal Property                           3-20                   5,080,613           (3,656,875)          1,423,738
         Other Personal Property                        2-30                   2,365,104           (1,518,219)           846,885
         Assets Under Capital Lease                     3-40              	      23,562        	     (17,693)       	      5,869
         Construction-in-progress                       N/A               	    4,213,567       	              -     	   4,213,567
         Total                                   	                     $ 	 13,109,611        $ 	 (5,714,900)      $ 	   7,394,711


                                                                      FY 2009
                                                     Useful Life                               Accumulated
                       Category                       (Years)                  Cost            Depreciation        Net Book Value
         Land                                           N/A            $ 	       16,787      $ 	              -   $ 	     16,787
         Land Improvements                             30-40                       2,996               (1,194)             1,802
         Structures, Facilities, and
            Leasehold Improvements                      2-60                   1,338,090            (475,533)            862,557
         Satellites/Weather Systems
            Personal Property                           3-20                   4,522,903           (3,747,384)           775,519
         Other Personal Property                        2-30                   2,083,682           (1,379,468)           704,214
         Assets Under Capital Lease                     3-40              	      25,407        	     (18,437)       	      6,970
         Construction-in-progress                       N/A               	    4,390,978       	              -     	   4,390,978
         Total                                   	                     $ 	 12,380,843        $ 	 (5,622,016)      $ 	   6,758,827




                                                                                                                              215
F Y   2 0 1 0    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 8. Other Assets

                                                                   FY 2010                 FY 2009
         With the Public                                           	                       	
         Advances and Prepayments                              $        47,254         $        52,061
         Note Receivable                                                 1,410                   1,853
         Bibliographic Database                                          6,454                   6,103
         Other                                                     	         4             	          4
         Total                                                 $        55,122         $        60,021


As of September 30, 2010 and 2009, there is one Note Receivable with a maturity date of July 2024 and an interest rate of
7.0 percent. The balances include accrued interest.

The bibliographic database relates to NTIS’s scientific and technical information used to prepare products and services for sale.
The database is stated at capitalized costs of $62.7 million and $59.5 million, less accumulated amortization of $56.2 million and
$53.4 million, at September 30, 2010 and 2009, respectively.



   Note 9. Non-entity Assets

The assets that are not available for use in the Department’s operations are summarized below:

                                                                   FY 2010                 FY 2009
         Intragovernmental                                         	                       	
         Fund Balance with Treasury                            $ 	 153,731             $ 	 506,015
         Total Intragovernmental                                       153,731                 506,015

         With the Public
         Cash                                                      	      652              	       971
         Accounts Receivable, Net                                        8,022                     706
         Direct Loans and Loan
            Guarantees, Net – Drought Loan Portfolio               	    11,561             	    14,134
         Total                                                 $       173,966         $       521,826




 216
                                               F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                  NOTES TO THE FINANCIAL STATE M ENTS




   Note 10. Debt to Treasury

                                                                  FY 2010
                                                                      Beginning               Net Borrowings           Ending
                           Loan Program                                Balance                 (Repayments)            Balance
         Direct Loan Program
         Fisheries Finance, Financing Account                 $          482,405          $          32,436    $         514,841

         Loan Guarantee Program
         FVOG Program                                             	         4,870                    (1,781)                3,089
         Total                                                $ 	        487,275          $          30,655    $         517,930


For the Direct Loan and Loan Guarantee Programs, maturity dates range from September 2012 to September 2038, and interest
rates range from 2.59 to 6.97 percent.

                                                                  FY 2009
                                                                      Beginning               Net Borrowings           Ending
                           Loan Program                                Balance                 (Repayments)            Balance
         Direct Loan Program
         Fisheries Finance, Financing Account                 $          465,095          $          17,310    $         482,405

         Loan Guarantee Program
         FVOG Program                                             	         6,831                    (1,961)                4,870

         Digital Television Transition and
            Public Safety Fund                                    	         4,727               	    (4,727)       	             -
         Total                                                $ 	        476,653          $          10,622    $         487,275




                                                                                                                                     217
F Y   2 0 1 0    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 11. Other Liabilities

                                                                           FY 2010                                           FY 2009
                                                                       Non-current
                                             Current Portion             Portion                     Total                     Total
        Intragovernmental
        Accrued FECA Liability              $        33,802        $          10,451         $         44,253        $          37,024
        Accrued Benefits                             43,613            	             -                 43,613                   36,642
        Custodial Activity                            7,964            	             -                  7,964            	             -
        Downward Subsidy Reestimates
          Payable to Treasury                         8,087            	             -                  8,087                    3,509
        Other                                            427           	             -                       427                   620
        Total                               $        93,893        $          10,451         $        104,344        $          77,795


        With the Public
        ITA Foreign Service Nationals’
           Voluntary Separation Pay         $         2,207        $           8,487         $         10,694        $           9,693
        Contingent Liabilities                       11,643                     512                    12,155                   13,962
        Employment-related                           17,954            	             -                 17,954                   10,018
        Other                                         8,378            	             -                  8,378                    9,283
        Total                               $        40,182        $           8,999         $         49,181        $          42,956



The Current Portion represents liabilities expected to be paid by September 30, 2011, while the Non-current Portion represents
liabilities expected to be paid after September 30, 2011.




 218
                                             F Y   2 0 1 0   P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   Note 12. Federal Employee Benefits

These liabilities consist of:

                                                                                            FY 2010            FY 2009
          Actuarial FECA Liability                                                   $ 	 210,235         $ 	 171,234
          NOAA Corps Retirement System Liability                                        	 502,800          	 471,600
          NOAA Corps Post-retirement Health Benefits Liability                          	     56,000       	     44,600
          Total                                                                      $ 	 769,035         $ 	 687,434


Actuarial FECA Liability:

Actuarial FECA liability is calculated annually, as of September 30. For discounting projected annual future benefit payments to
present value, the interest rate assumptions used by DOL were as follows:

                                                                                            FY 2010            FY 2009
          Year 1                                                                        	     3.65%        	     4.22%
          Year 2 and Thereafter                                                         	     4.30%        	     4.72%


The wage inflation factors (Cost of Living Allowance) and medical inflation factors (Consumer Price Index - Medical) applied to the
calculation of projected future benefits, and also used to adjust the methodology’s historical payments to current year constant
dollars, were as follows:

                                                    FY 2010
                                                             Cost of Living            Consumer Price
                         Fiscal Year                           Allowance               Index - Medical
          2011                                                    2.23%                      3.45%
          2012                                                    1.13%                      3.43%
          2013                                                    1.70%                      3.64%
          2014                                                    1.90%                      3.66%
          2015                                                    1.93%                      3.73%

                                                    FY 2009
                                                             Cost of Living            Consumer Price
                         Fiscal Year                           Allowance               Index - Medical
          2010                                                    0.47%                      3.42%
          2011                                                    1.40%                      3.29%
          2012                                                    1.50%                      3.48%
          2013                                                    1.80%                      3.71%
          2014                                                    2.00%                      3.71%




                                                                                                                             219
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




NOAA Corps Retirement System Liability:

This liability represents the unfunded actuarial present value of projected plan benefits. The actuarial calculation is performed
annually, as of September 30. The September 30, 2010 and 2009 actuarial calculations used the following economic assumptions:
                                                                              FY 2010                     FY 2009
           Discount Rate                                                  	       4.89%              	       5.75%
           Annual Basic Pay Scale Increases                               	       3.12%              	       3.75%
           Annual Inflation                                                       2.37%                      3.00%

The related pension costs included in the Consolidated Statements of Net Cost are as follows:
                                                                              FY 2010                     FY 2009
           Normal Cost                                                    $        9,100             $        6,600
           Interest on the Unfunded Liability                                 	   26,500                 	   25,200
           Actuarial (Gains)/Losses,   Net1                                                                  12,500
           	 From Experience                                                  	    5,200                 	
           	 From Discount Rate Assumption Change                             	   65,100
           	 From Long-term Assumption Changes                                	
           		 Annual Inflation                                                	 (37,800)
           		 Annual Basic Pay Scale Increases                                	 (14,900)
           		 Demographic                                                     	     (400)
           Total Pension Costs                                            $       52,800             $       44,300


NOAA Corps Post-retirement Health Benefits Liability:

This liability represents the unfunded actuarial present value of projected post-retirement plan benefits. The actuarial calculation
is performed annually, as of September 30. The September 30, 2010 and 2009 actuarial calculations used the following economic
assumption:
                                                                              FY 2010                     FY 2009
           Discount Rate                                                  	       4.77%              	       5.75%

The related post-retirement health benefits costs included in the Consolidated Statements of Net Cost are as follows:
                                                                              FY 2010                     FY 2009
           Normal Cost                                                    $ 	       1,800            $ 	        1,300
           Interest on the Unfunded Liability                                 	     2,000                	      2,700
           Actuarial (Gains)/Losses,   Net1                                                                    (5,100)
           	 From Experience                                                  	     2,100                	
           	 From Discount Rate Assumption Change                             	     3,800
           	 From Long-term Assumption Changes –
             	 Medical Claims Costs                                           	     5,200
           Total Post-retirement Health Benefits Costs                    $ 	      14,900            $ 	       (1,100)

1   Effective FY 2010, actuarial gains and losses from changes in long-term assumptions are required to be separately disclosed.


    220
                                                 F Y   2 0 1 0   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                  NOTES TO THE FINANCIAL STATE M ENTS




    Note 13. Environmental and Disposal Liabilities

                                                                                   FY 2010               FY 2009
          Pribilof Islands Cleanup                                            $ 	        3,017       $ 	     10,030
          Nuclear Reactor                                                          	    48,598           	   48,039
          Other                                                                    	     3,034           	    2,926
          Total                                                               $         54,649       $       60,995




   Note 14. Leases

Capital Leases:

Assets under capital leases are as follows:

                                                                                   FY 2010               FY 2009
          Structures, Facilities, and Leasehold Improvements                  $ 	       23,538       $ 	     22,860
          Equipment                                                                	            24       	    2,547
          Less: Accumulated Depreciation                                           	   (17,693)          	   (18,437)
          Net Assets Under Capital Leases                                     $          5,869       $        6,970


Capital Lease Liabilities are primarily related to NOAA. NOAA has real property capital leases covering both land and buildings.
The majority of these leases are for weather forecasting offices, but the leases are also for radar system sites, river forecasting
centers, and National Weather Service enforcement centers. NOAA’s real property capital leases range from 10 to 40 years.




                                                                                                                             221
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Capital Lease Liabilities:

Future payments due under capital leases are as follows:

                                                        FY 2010
                                                       General PP&E Category
                     Fiscal Year                 Real Property        Personal Property                Total
                2011                         $          4,081         $ 	              -       $          4,081
                2012                                    3,878             	            -                  3,878
                2013                                    3,729             	            -                  3,729
                2014                                    3,049             	            -                  3,049
                2015                                    1,901             	            -                  1,901
                Thereafter                             10,770             	            -                 10,770
         Total Future Lease Payments                   27,408             	            -                 27,408
         Less: Imputed Interest                       (13,399)            	            -                (13,399)
         Less: Executory Costs                         (4,731)            	            -                 (4,731)
         Net Capital Lease Liabilities       $          9,278         $ 	              -       $          9,278


                                                        FY 2009
                                                       General PP&E Category
                     Fiscal Year                 Real Property        Personal Property                Total
                2010                         $          3,973         $ 	             10       $          3,983
                2011                                    4,008             	            -                  4,008
                2012                                    3,790             	            -                  3,790
                2013                                    3,647             	            -                  3,647
                2014                                    2,971             	            -                  2,971
                Thereafter                             12,831             	            -                 12,831
         Total Future Lease Payments                   31,220             	           10           	     31,230
         Less: Imputed Interest                       (13,149)            	            -                (13,149)
         Less: Executory Costs                         (5,492)            	            -                 (5,492)
         Net Capital Lease Liabilities       $         12,579         $               10       $ 	       12,589




 222
                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




Operating Leases:

Most of the Department’s facilities are rented from GSA, which generally charges rent that is intended to approximate commercial
rental rates. For federally owned property rented from GSA, the Department generally does not execute an agreement with GSA;
the Department, however, is normally required to give 120 to 180 days notice to vacate. For non-federally owned property rented
from GSA, an occupancy agreement is generally executed, and the Department may normally cancel these agreements with
120 days notice.

The Department’s (1) estimated real property rent payments to GSA for FY 2011 through FY 2015; and (2) future payments due
under noncancellable operating leases (non-GSA real property) are as follows:

                                                                      FY 2010
                                                                                  General PP&E Category
                                                                                 GSA                 Non-GSA
                                            Fiscal Year                     Real Property          Real Property
                                        2011                            $       246,673        $         17,187
                                        2012                                    219,218                  19,651
                                        2013                                    209,557                  18,058
                                        2014                                    213,000                  13,254
                                        2015                                    214,639                  11,754
                                        Thereafter                                       1             118,527
                               Total Future Lease Payments                        N/A          $       198,431

                               1	   Not estimated.




                                                                                                                          223
F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 15. Liabilities Not Covered by Budgetary Resources

                                                                                   FY 2010                  FY 2009
         Intragovernmental
         Accrued FECA Liability                                            $          37,216        $          35,616
         Total Intragovernmental                                                      37,216                   35,616

         Accrued Payroll                                                       	      36,359            	      26,987
         Accrued Annual Leave                                                        264,720                  253,347
         Federal Employee Benefits                                                   769,035                  687,434
         Environmental and Disposal Liabilities                                       54,649                   60,995
         Contingent Liabilities                                                       12,155                   13,962
         Unearned Revenue                                                            551,263                  681,032
         ITA Foreign Service Nationals’ Voluntary Separation Pay                      10,694                    9,693
         Other                                                                          253                      578
         Total                                                             $       1,736,344        $       1,769,644


Due to USPTO’s funding structure, budgetary resources do not cover a portion of its Unearned Revenue. The Unearned Revenue
reported above is the portion of USPTO’s Unearned Revenue that is considered not covered by budgetary resources. USPTO’s
Unearned Revenue is a liability for revenue received before the patent or trademark work has been completed. Budgetary resources
derived from the current reporting period’s revenue have been partially used to cover the current reporting period’s costs associated
with unearned revenue from a prior reporting period. In addition, the current patent fee structure sets low initial application fees
that are followed by income from maintenance fees as a supplement in later years to cover the full cost of the patent examination
and issuance processes. The combination of these funding circumstances requires USPTO to obtain additional budgetary resources
to cover its liability for unearned revenue.




 224
                                                F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                         NOTES TO THE FINANCIAL STATE M ENTS




   Note 16. Commitments and Contingencies

Commitments:

The Department has entered into long-term contracts for the purchase, construction, and modernization of environmental satellites
and weather measuring and monitoring systems. A summary of major long-term commitments as of September 31, 2010 is shown
below.

Major Long-term Commitments:
                                                                        FY 2010
          Description                 FY 2011             FY 2012         FY 2013            FY 2014        FY 2015       Thereafter   Total
Geostationary Operational
  Environmental Satellites        $       787,600 $           819,600 $       817,000 $         816,900 $       817,500 $ 1,795,600 $ 5,854,200
Convergence Satellites                1,060,800           1,160,000           960,000           740,000         610,000    4,489,500   9,020,300
Polar Operational
   Environmental Satellites                40,900              40,900          40,900            40,900          40,900       25,900    230,400
Other Weather Service                     147,210             129,792         116,543           120,438         114,881       77,749    706,613
Ocean Surface Topography                   50,000              53,000          29,000             2,000           2,000        3,000    139,000
Climate Sensors                       	    49,400              55,400          51,100            50,600          35,500       47,100    289,100
Other                                              2      	         -     	          -      	          -    	         -   	        -           2
Total                             $ 2,135,912 $ 2,258,692 $ 2,014,543 $ 1,770,838 $ 1,620,781 $ 6,438,849 $ 16,239,615

Legal Contingencies:

The Department is subject to potential liabilities in various administrative proceedings, legal actions, environmental suits, and
claims brought against it. In the opinion of the Department’s management and legal counsel, the ultimate resolution of these
proceedings, actions, suits, and claims will not materially affect the financial position or net costs of the Department.

Probable Likelihood of an Adverse Outcome:

The Department is subject to potential liabilities where adverse outcomes are probable, and claims are approximately $12.2 million
and $14.0 million as of September 30, 2010 and 2009, respectively. Accordingly, $12.2 million and $14.0 million of contingent
liabilities were included in Other Liabilities on the Consolidated Balance Sheets as of September 30, 2010 and 2009, respectively.
For a majority of these claims, any amounts ultimately due will be paid out of Treasury’s Judgment Fund. For the claims to be paid
by Treasury’s Judgment Fund, once the claims are settled or court judgments are assessed relative to the Department, the liability
will be removed and an Imputed Financing Source From Cost Absorbed by Others will be recognized.

Reasonably Possible Likelihood of an Adverse Outcome:

The Department and other federal agencies are subject to potential liabilities for a variety of environmental cleanup costs, many of
which are associated with the Second World War, at various sites within the U.S. Since some of the potential liabilities represent
claims with no stated amount, the exact amount of total potential liabilities is unknown, but may exceed $86.1 million as of
September 30, 2010. For these potential liabilities, it is reasonably possible that an adverse outcome will result. It is not possible,
however, to speculate as to a range of loss. In the absence of a settlement agreement, decree, or judgment, there is neither an
allocation of response costs between the U.S. government and other potentially responsible parties, nor is there an attribution of
such costs to or among the federal agencies implicated in the claims. Although the Department has been implicated as a responsible


                                                                                                                                         225
F Y   2 0 1 0   P E R F O R M A N C E      A N D       A C C O U N T A B I L I T Y       R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




party, the U.S. Department of Justice was unable to provide an amount for these potential liabilities that is attributable to the
Department. Of these potential liabilities, all will be funded by Treasury’s Judgment Fund, if any amounts are ultimately due.

The Department and other federal agencies are subject to other potential liabilities. Since some of the potential liabilities
represent claims with no stated amount, the exact amount of total potential liabilities is unknown, but may exceed $270.7 million
as of September 30, 2010. For these potential liabilities, it is reasonably possible that an adverse outcome will result. It is not
possible, however, to speculate as to a range of loss. Of these potential liabilities, most will be funded by Treasury’s Judgment
Fund, if any amounts are ultimately due.

Guaranteed Loan Contingencies:

Fishing Vessels Obligation Guarantee Program: This loan guarantee program has outstanding non-acquired guaranteed loans
(fully guaranteed by the Department) as of September 30, 2010 and 2009, with outstanding principal balances totaling $3.9 and
$4.3 million, respectively. A loan guarantee liability of $565 thousand and $589 thousand is recorded for the outstanding
guarantees at September 30, 2010 and 2009, respectively.

Restructuring the National Polar-orbiting Operational Environmental Satellite System (NPOESS) to the Joint Polar Satellite
System (JPSS)

In 2010, the Executive Office of the President directed the restructure of the government’s approach to meeting its polar-orbiting
environmental data collection needs. Accordingly, the President’s FY 2011 budget contains a restructuring of the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) in order to put the critical program on a more sustainable pathway
toward success. The Joint Polar Satellite Program (JPSS) is a national priority -- essential to meeting both civil and military
weather forecasting, storm tracking, and climate monitoring requirements. After reviewing options, including those suggested
by an Independent Review Team (IRT) and Congressional Committees, the President’s FY 2011 budget takes significant new steps.
The Executive Office of the President directed NOAA and the Air Force to no longer continue to jointly procure NPOESS. This decision
is in the best interest of the American public to preserve critical operational weather and climate observations into the future.

The three agencies (DoD, NOAA, and NASA) have and will continue to partner to ensure a successful way forward for the respective
programs, while utilizing international partnerships to sustain and enhance weather and climate observation from space.

The major challenge of NPOESS was jointly executing the program between three agencies of different sizes with divergent
objectives and different acquisition procedures. The new system will resolve this challenge by splitting the procurements. NOAA
and NASA will take primary responsibility for the afternoon orbit, and DoD will take primary responsibility for the morning orbit.
The agencies will continue to partner in those areas that have been successful in the past, such as a shared ground system.
The restructured programs will also eliminate the NPOESS tri-agency structure that has made management and oversight difficult,
contributing to the poor performance of the program.

NOAA and the Air Force have already begun to move into a transition period during which the current joint procurement will end. The
agencies will continue a successful relationship that they have developed for their polar and geostationary satellite programs to-date.

The restructuring effort will continue throughout FY 2011. During this time, NOAA and the Air Force will work together to
decide which program components of the DoD Construction Work in Progress (CWIP) will remain with DoD versus which program
components will transfer to NOAA to become part of JPSS. If any program component that remains with NOAA is not needed for
JPSS, the value of those components will be written off. One component that will not be used by NOAA is the Conical-scanning
Microwave Image/Sounder (CMIS) sensor, with costs incurred of $107.5M, which was charged to expense in FY 2010. The amount
of any additional CWIP impairment charges due to the satellite restructuring cannot be estimated.


 226
                                                 F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                    NOTES TO THE FINANCIAL STATE M ENTS




    Note 17. Consolidated Statements of Net Cost

FY 2010 Consolidating Statement of Net Cost:

                                                                                                                                                                                            Intra-
                                                                                                                                                   Departmental         Combining        Departmental    Consolidating
                                           NOAA              USPTO              ESA             NIST                NTIA              Others       Management             Total          Eliminations       Total

Strategic Goal 1: Maximize U.S.
Competitiveness and Enable
Economic Growth for American
Industries, Workers, and
Consumers
    Intragovernmental Gross Costs $ 	             - $ 	              -   $ 1,045,041 $                 30   $ 	            - $         273,146 $          77,819    $       1,396,036 $ 	 (87,024) $          1,309,012
    Gross Costs With the Public       	           -     	            -         5,770,979        102,393         	          -           926,965            30,737            6,831,074     	        -          6,831,074
        Total Gross Costs             	           -     	            -         6,816,020        102,423         	          -      1,200,111              108,556            8,227,110     	 (87,024)          8,140,086
    Intragovernmental Earned
         Revenue                      	           -     	            -     	 (230,177)      	           -       	          -      	 (28,747)         	 (74,893)         	 (333,817)           87,024      	    (246,793)
    Earned Revenue From the
        Public                        	           -     	            -     	      (5,724)   	           -       	          -      	     (8,962)      	        (3)       	     (14,689)    	        -      	     (14,689)
        Total Earned Revenue          	           -     	            -     	 (235,901)      	           -       	          -      	 (37,709)         	 (74,896)         	 (348,506)           87,024      	    (261,482)
    Net Program Costs                 	           -     	            -     6,580,119        102,423             	          -      1,162,402              33,660             7,878,604     	        -          7,878,604
Strategic Goal 2: Promote
U.S. Innovation and Industrial
Competitiveness
    Intragovernmental Gross Costs     	           -          425,881       	           -        133,541              386,909             7,425            77,820            1,031,576     	 (98,523)            933,053
    Gross Costs With the Public       	           -         1,581,057      	           -        788,127              213,178            40,576            30,738            2,653,676     	        -          2,653,676
        Total Gross Costs             	           -         2,006,938      	           -        921,668              600,087            48,001           108,558            3,685,252     	 (98,523)          3,586,729
    Intragovernmental Earned
         Revenue                      	           -     	      (9,375)     	           -    	(113,045)          	 (29,939)        	 (38,567)         	 (74,893)         	 (265,819)           98,523      	    (167,296)
    Earned Revenue From the
        Public                        	           -     	(2,092,307)       	           -    	 (54,445)          	       (151)     	 (10,522)         	        (3)       	 (2,157,428)     	        -      	 (2,157,428)
        Total Earned Revenue          	           -     	(2,101,682)       	           -    	(167,490)          	 (30,090)        	 (49,089)         	 (74,896)         	 (2,423,247)         98,523      	 (2,324,724)
    Net Program Costs                 	           -     	 (94,744)         	           -    754,178                 569,997       	     (1,088)          33,662             1,262,005     	        -          1,262,005
Strategic Goal 3: Promote
Environmental Stewardship
    Intragovernmental Gross Costs          772,455      	            -     	           -    	           -       	          -      	            -          77,850              850,305     	 (99,604)            750,701
    Gross Costs With the Public           4,019,147     	            -     	           -    	           -       	          -      	            -          30,746            4,049,893     	        -          4,049,893
        Total Gross Costs                 4,791,602     	            -     	           -    	           -       	          -      	            -         108,596            4,900,198     	 (99,604)          4,800,594
    Intragovernmental Earned
         Revenue                      	 (203,896)       	            -     	           -    	           -       	          -      	            -     	 (74,915)         	 (278,811)           99,604      	    (179,207)
    Earned Revenue From the
        Public                        	     (97,913)    	            -     	           -    	           -       	          -      	            -     	        (3)       	     (97,916)    	        -      	     (97,916)
        Total Earned Revenue          	 (301,809)       	            -     	           -    	           -       	          -      	            -     	 (74,918)         	 (376,727)           99,604      	    (277,123)
	   Net Program Costs                 4,489,793         	            -     	           -    	           -       	          -      	            -         33,678             4,523,471     	        -          4,523,471
NET COST OF OPERATIONS              $ 4,489,793 $ 	 (94,744) $ 6,580,119 $ 856,601                          $       569,997 $ 1,161,314 $ 101,000                   $ 13,664,080 $ 	               -    $ 13,664,080




                                                                                                                                                                                                        227
F Y   2 0 1 0       P E R F O R M A N C E              A N D         A C C O U N T A B I L I T Y                    R E P O R T
         NOTES TO THE FINANCIAL STATE M ENTS




FY 2009 Consolidating Statement of Net Cost:

                                                                                                                                                                                   Intra-
                                                                                                                                           Departmental          Combining      Departmental     Consolidating
                                          NOAA             USPTO                ESA             NIST               NTIA       Others       Management              Total        Eliminations        Total

Strategic Goal 1: Maximize U.S.
Competitiveness and Enable
Economic Growth for American
Industries, Workers, and
Consumers
    Intragovernmental Gross Costs $ 	            - $ 	             -   $        547,708 $              11   $ 	           - $ 227,060      $        76,704   $     851,483      $ 	 (84,380) $         767,103
    Gross Costs With the Public      	           -    	            -           2,478,857        121,300       	           -   672,145               35,573        3,307,875      	        -           3,307,875
        Total Gross Costs            	           -    	            -           3,026,565        121,311       	           -   899,205              112,277        4,159,358      	 (84,380)           4,074,978
    Intragovernmental Earned
         Revenue                     	           -    	            -       	 (237,357)      	           -     	           -   	 (29,831)       	 (81,588)        	 (348,776)         84,380       	 (264,396)
    Earned Revenue From the
        Public                       	           -    	            -       	      (6,878)   	           -     	           -   	 (9,266)        	      (24)       	 (16,168)      	        -       	     (16,168)
        Total Earned Revenue         	           -    	            -       	 (244,235)      	           -     	           -   	 (39,097)       	 (81,612)        	 (364,944)         84,380       	 (280,564)
    Net Program Costs                	           -    	            -       2,782,330        121,311           	           -   860,108              30,665        3,794,414       	        -       3,794,414
Strategic Goal 2: Promote
U.S. Innovation and Industrial
Competitiveness
    Intragovernmental Gross Costs    	           -         404,786         	           -        129,844            202,327         6,530            76,704         820,191       	 (97,949)            722,242
    Gross Costs With the Public      	           -        1,577,154        	           -        694,433            996,539        21,640            35,575        3,325,341      	        -           3,325,341
        Total Gross Costs            	           -        1,981,940        	           -        824,277           1,198,866       28,170           112,279        4,145,532      	 (97,949)           4,047,583
    Intragovernmental Earned
         Revenue                     	           -    	      (7,443)       	           -    	(127,114)        	 (32,216)      	 (14,914)       	 (81,591)        	 (263,278)         97,949       	 (165,329)
    Earned Revenue From the
        Public                       	           -    	(1,919,687)         	           -    	 (71,177)        	       (209)   	 (11,158)       	      (22)       	(2,002,253)    	        -       	(2,002,253)
        Total Earned Revenue         	           -    	(1,927,130)         	           -    	(198,291)        	 (32,425)      	 (26,072)       	 (81,613)        	(2,265,531)        97,949       	(2,167,582)
    Net Program Costs                	           -          54,810         	           -    625,986           1,166,441           2,098            30,666        1,880,001       	        -       1,880,001
Strategic Goal 3: Promote
Environmental Stewardship
    Intragovernmental Gross Costs         677,895     	            -       	           -    	           -     	           -   	        -            76,727         754,622       	 (82,650)            671,972
    Gross Costs With the Public          3,710,398    	            -       	           -    	           -     	           -   	        -            35,586        3,745,984      	        -           3,745,984
        Total Gross Costs                4,388,293    	            -       	           -    	           -     	           -   	        -           112,313        4,500,606      	 (82,650)           4,417,956
    Intragovernmental Earned
         Revenue                     	 (184,643)      	            -       	           -    	           -     	           -   	        -       	 (81,615)        	 (266,258)         82,650       	 (183,608)
    Earned Revenue From the
        Public                       	     (82,001)   	            -       	           -    	           -     	           -   	        -       	      (23)       	 (82,024)      	        -       	     (82,024)
        Total Earned Revenue         	 (266,644)      	            -       	           -    	           -     	           -   	        -       	 (81,638)        	 (348,282)         82,650       	 (265,632)
	   Net Program Costs                 4,121,649       	            -       	           -    	           -     	           -   	        -           30,675        4,152,324       	        -       4,152,324
NET COST OF OPERATIONS              $ 4,121,649 $           54,810     $ 2,782,330 $ 747,297                $ 1,166,441 $ 862,206 $                92,006    $ 9,826,739 $ 	              -    $ 9,826,739




            228
                                                                                  F Y   2 0 1 0         P E R F O R M A N C E              A N D         A C C O U N T A B I L I T Y                  R E P O R T
                                                                                NOTES TO THE FINANCIAL STATE M ENTS




Major Programs: The following tables illustrate major programs of the Department. “Other Programs” refers to the other programs
within each strategic goal. The “Others” column refers to the Department’s reporting entities that are not listed. The Others column
data and the Other Programs data are presented solely to reconcile these tables to the Combining Total columns on the Consolidating
Statements of Net Cost.

FY 2010 Statement of Net Cost by Major Program (Combining Basis):

                                                                       Census                                                           Combining
                Program Costs                           NOAA           Bureau             NIST            USPTO            Others         Total
Strategic Goal 1: Maximize U.S. Competitiveness and Enable
Economic Growth for American Industries, Workers, and
Consumers
Decennial and Periodic Censuses                                                                                                                 	
	 Gross Costs                                   $	         -          $ 5,648,403    $	          -   $	           -   $	            -   $           5,648,403
	 Less: Earned Revenue                           	         -           	        -     	          -    	           -    	            -       	               -
	   Net Program Costs                               	            -     5,648,403      	          -    	           -    	            -           5,648,403
Other Programs
	 Gross Costs                                       	            -      1,053,844          102,423    	           -     1,422,440                   2,578,707
	 Less: Earned Revenue                              	            -     	 (229,415)    	          -    	           -    	 (119,091)          	        (348,506)
	 Net Program Costs                                 	            -       824,429          102,423     	           -    1,303,349                2,230,201
Net Program Costs for Strategic Goal 1              	            -     6,472,832          102,423     	           -    1,303,349                7,878,604

Strategic Goal 2: Promote U.S. Innovation and Industrial
Competitiveness
Measurement and Standards Laboratories
	 Gross Costs                                     	              -     	        -        643,838      	           -    	            -                643,838
	 Less: Earned Revenue                            	              -     	        -     	 (127,894)     	           -    	            -       	       (127,894)
	 Net Program Costs                               	              -     	        -       515,944       	           -    	            -               515,944
Patents
	 Gross Costs                                       	            -     	        -     	          -      1,777,871      	            -          1,777,871
	 Less: Earned Revenue                              	            -     	        -     	          -    	(1,887,538)     	            -       	 (1,887,538)
	 Net Program Costs                                 	            -     	        -     	          -    	 (109,667)      	            -       	 (109,667)
Trademarks
	 Gross Costs                                       	            -     	        -     	          -       182,565       	            -                182,565
	 Less: Earned Revenue                              	            -     	        -     	          -    	 (214,144)                           	       (214,144)
	   Net Program Costs                               	            -     	        -     	          -    	 (31,579)       	            -       	        (31,579)
Other Programs
	 Gross Costs                                       	            -     	        -       277,830           46,502          756,646                1,080,978
	 Less: Earned Revenue                              	            -     	        -     	 (39,596)      	        -       	 (154,075)          	     (193,671)
	 Net Program Costs                                 	            -     	        -      238,234           46,502          602,571                  887,307
Net Program Costs for Strategic Goal 2              	            -     	        -      754,178        	 (94,744)         602,571                1,262,005

Strategic Goal 3: Promote Environmental Stewardship
Ecosystems
	 Gross Costs                                      1,781,600           	        -     	          -    	           -    	            -            1,781,600
	 Less: Earned Revenue                           	 (109,657)           	        -     	          -    	           -    	            -       	     (109,657)
	 Net Program Costs                               1,671,943            	        -     	          -    	           -    	            -           1,671,943
Other Programs
	 Gross Costs                                            3,010,002     	        -     	          -    	           -         108,596              3,118,598
	 Less: Earned Revenue                              	     (192,152)    	        -     	          -    	           -    	    (74,918)        	     (267,070)
	 Net Program Costs                                     2,817,850      	        -     	          -    	           -         33,678              2,851,528
Net Program Costs for Strategic Goal 3                  4,489,793                     	          -    	           -          33,678             4,523,471
NET COST OF OPERATIONS                             $ 4,489,793        $ 6,472,832    $ 856,601       $	 (94,744)      $ 1,939,598       $ 13,664,080



                                                                                                                                                      229
F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
    NOTES TO THE FINANCIAL STATE M ENTS




FY 2009 Statement of Net Cost by Major Program (Combining Basis):

                                                                       Census                                                                Combining
               Program Costs                          NOAA             Bureau             NIST                 USPTO            Others         Total
Strategic Goal 1: Maximize U.S. Competitiveness and Enable
Economic Growth for American Industries, Workers, and
Consumers
Decennial and Periodic Censuses                                                                                                                      	
	 Gross Costs                                   $	         -          $ 2,015,059    $	          -      $	             -   $	            -   $           2,015,059
	 Less: Earned Revenue                           	         -           	        -     	          -       	             -    	            -                    -
	 Net Program Costs                              	         -           2,015,059      	          -       	             -    	            -           2,015,059
Other Programs
	 Gross Costs                                     	            -          911,079          121,311         	           -     1,111,909                   2,144,299
	 Less: Earned Revenue                            	            -       	 (238,281)    	          -         	           -    	 (126,663)          	        (364,944)
	 Net Program Costs                               	            -         672,798          121,311          	           -         985,246             1,779,355
Net Program Costs for Strategic Goal 1            	            -       2,687,857          121,311          	           -         985,246             3,794,414

Strategic Goal 2: Promote U.S. Innovation and Industrial
Competitiveness
Measurement and Standards Laboratories
	 Gross Costs                                     	            -       	        -        689,751           	           -    	            -                689,751
	 Less: Earned Revenue                            	            -       	        -     	 (170,517)          	           -    	            -       	       (170,517)
	 Net Program Costs                               	            -       	        -       519,234            	           -    	            -               519,234
Patents
	 Gross Costs                                     	            -       	        -     	          -           1,744,676      	            -          1,744,676
	 Less: Earned Revenue                            	            -       	        -     	          -         	(1,697,432)     	            -       	 (1,697,432)
	 Net Program Costs                               	            -       	        -     	          -             47,244       	            -            47,244
Trademarks
	 Gross Costs                                     	            -       	        -     	          -            193,187       	            -                193,187
	 Less: Earned Revenue                            	            -       	        -     	          -         	 (229,698)                           	       (229,698)
	   Net Program Costs                             	            -       	        -     	          -         	 (36,511)       	            -       	        (36,511)
Other Programs
	 Gross Costs                                     	            -       	        -       134,526                  44,077       1,339,315               1,517,918
	 Less: Earned Revenue                            	            -       	        -     	 (27,774)           	          -     	 (140,110)          	     (167,884)
	 Net Program Costs                               	            -       	        -      106,752                  44,077       1,199,205               1,350,034
Net Program Costs for Strategic Goal 2            	            -       	        -      625,986                  54,810       1,199,205               1,880,001

Strategic Goal 3: Promote Environmental Stewardship
Ecosystems
	 Gross Costs                                      1,701,525           	        -     	          -         	           -    	            -            1,701,525
	 Less: Earned Revenue                           	 (135,569)           	        -     	          -         	           -    	            -       	     (135,569)
	 Net Program Costs                               1,565,956            	        -     	          -         	           -    	            -           1,565,956
Other Programs
	 Gross Costs                                          2,686,768       	        -     	          -         	           -         112,313              2,799,081
	 Less: Earned Revenue                            	     (131,075)      	        -     	          -         	           -    	    (81,638)        	     (212,713)
	 Net Program Costs                                   2,555,693        	        -     	          -         	           -         30,675              2,586,368
Net Program Costs for Strategic Goal 3                4,121,649        	        -     	          -         	           -          30,675             4,152,324
NET COST OF OPERATIONS                           $ 4,121,649          $ 2,687,857    $ 747,297         $        54,810     $ 2,215,126       $ 9,826,739




     230
                                                      F Y   2 0 1 0    P E R F O R M A N C E         A N D      A C C O U N T A B I L I T Y          R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




   Note 18. Combined Statements of Budgetary Resources

The amount of Budget Authority, Appropriations, on the Combined Statements of Budgetary Resources (SBR) reconciles to the
amount of Budgetary Financing Sources, Appropriations Received, reported on the Consolidated Statements of Changes in Net
Position (SCNP) as follows:

                                                                                                     FY 2010               FY 2009
           Budget Authority, Appropriations (SBR)                                            $       14,322,512    $       34,069,220
           Less:
                Appropriated Receipts for NOAA and DM/G&B, Classified as
                  Exchange Revenue                                                               	      (15,994)       	      (17,304)
                Appropriated Receipts for NTIA’s Digital Television Transition
                  and Public Safety Fund, Classified as Transfers In of Spectrum
                  Auction Proceeds from Federal Communications Commission                              (196,613)       	(16,689,557)
           Budgetary Financing Sources, Appropriations Received (SCNP)                       $       14,109,905    $       17,362,359


Budget Authority, Appropriations, included on the SBR decreased significantly from FY 2009 to FY 2010 primarily due to the large
decrease of $16.49 billion in appropriated receipts for NTIA’s Digital Television Transition and Public Safety Fund and appropriations
of $7.92 billion received in FY 2009 under the American Recovery and Reinvestment Act of 2009 (Public Law 111-5). Additional
information on the above noted appropriations is included in this note.

Total borrowing authority available for NOAA’s loan programs amounted to $228.4 million and $260.5 million at September 30,
2010 and 2009, respectively. During FY 2009, the Digital Television Transition and Public Safety Fund’s borrowing authority was
decreased by $914.9 million to zero; this decrease is included as a reduction of budgetary resources on the SBR for FY 2009 on the
line Permanently Not Available. The Borrowing Authority amounts reported in the SBR Budgetary Resources section represent only
borrowing authority realized during the fiscal year being reported. See Note 1M, Debt to Treasury, for debt repayment requirements,
financing sources for repayments, and other terms of borrowing authority used.

Ninety-five percent of the Department’s reporting entities have one or more permanent no-year appropriations to finance
operations.

Reductions to the Department’s appropriations under Public Laws 111-226, 111-212, 111-224, and 111-118 amounted to
$696.5 million for FY 2010, while reductions for FY 2009 under Public Law 111-8 amounted to $25.6 million. These reductions are
included in the SBR Budgetary Resources line Permanently Not Available. These reductions are also part of the amounts reported
on the line Other Adjustments in the Unexpended Appropriations section, Budgetary Financing Sources subsection, of the SCNP.

Legal arrangements affecting the Department’s use of Unobligated Balances of Budget Authority and/or Fund Balance with
Treasury during FY 2010 and FY 2009 include the following:

      l	   The Department’s Deposit Funds, reported in Note 2, Fund Balance with Treasury, are not available to finance operating
           activities. These funds are also included in Note 2 on the line Non-budgetary (breakdown by status).




                                                                                                                                     231
F Y   2 0 1 0    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




       l	   The Department’s Fund Balance with Treasury as of September 30, 2010 and 2009 includes $581.2 million of USPTO
            offsetting collections exceeding prior years’ appropriations of $581.2 million and $528.7 million, respectively. USPTO
            may use these funds only as authorized by the U.S. Congress, and only as made available by the issuance of a Treasury
            warrant. These funds are included in Note 2 on the lines General Funds (breakdown by type), and Temporarily Precluded
            From Obligation (breakdown by status).
       l	   The Omnibus Budget Reconciliation Act of 1990 established surcharges on certain statutory patent fees collected by
            USPTO. Subsequent legislation extended the surcharges through the end of FY 1998. These surcharges were deposited
            into the Patent and Trademark Surcharge Fund, a Special Fund Receipt Account at Treasury. USPTO may use monies from
            this account only as authorized by Congress and made available by the issuance of a Treasury warrant. At September 30,
            2010 and 2009, $233.5 million is held in the Patent and Trademark Surcharge Fund. These funds are included in Note 2
            on the lines Special Fund (Patent and Trademark Surcharge Fund) (breakdown by type), and Non-budgetary (breakdown
            by status).
       l	   The Department’s Fund Balance with Treasury as of September 30, 2010 and 2009 includes funds temporarily not available
            for the Digital Television and Transition Public Safety Fund of $8.74 billion and $8.29 billion, respectively. These funds are
            included in Note 2 on the lines Digital Television and Transition Public Safety Fund - Special Funds section (breakdown
            by type), and Unobligated Balance - Unavailable (breakdown by status). On the SBR for FY 2010, these funds are included
            on the line Unobligated Balance Not Available.
       l	   The Department’s Fund Balance with Treasury as of September 30, 2010 and 2009 includes $20.4 and $23.1 million,
            respectively, of funds temporarily not available for the Coastal Zone Management Fund, which accounts for the Coastal
            Energy Impact Program direct loans. These funds are included in Note 2 on the lines Revolving Funds (breakdown by
            type), and Temporarily Precluded From Obligation (breakdown by status).
       l	   For loan programs prior to the Federal Credit Reform Act of 1990 (pre-FY 1992 loans), most or all liquidating fund
            unobligated balances in excess of working capital needs are required to be transferred to Treasury as soon as practicable
            during the following fiscal year.
       l	   For direct loan programs under the Federal Credit Reform Act of 1990 (post-FY 1991 loans) that have outstanding debt
            to Treasury, regulations require that most unobligated balances be returned to Treasury on September 30, or require that
            the borrowing authority be cancelled on September 30.
       l	   For loan guarantee programs under the Federal Credit Reform Act of 1990 that have outstanding debt to Treasury,
            regulations require that unobligated balances in excess of the outstanding guaranteed loans’ principal and interest be
            returned to Treasury on September 30.

There are no material differences between the amounts reported in the FY 2009 Combined Statement of Budgetary Resources and
the actual FY 2009 amounts reported in the FY 2011 budget of the U.S. government.




 232
                                                   F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




Apportionment Categories of Obligations Incurred:

The amounts of direct and reimbursable obligations incurred against amounts apportioned under Category A, Category B, and
Exempt from Apportionment are as follows:

                                                                                              FY 2010
                                                                   Direct                    Reimbursable        Total
         Category A                                       $ 	      8,365,156          $        2,529,674    $   10,894,830
         Category B                                           	   10,457,428                      25,150        10,482,578
         Exempt from Apportionment                            	     159,933                      868,470         1,028,403
         Total                                            $       18,982,517          $        3,423,294    $   22,405,811

                                                                                               FY 2009
                                                                   Direct                    Reimbursable        Total
         Category A                                       $ 	      5,638,199          $         2,273,490   $    7,911,689
         Category B                                           	    6,395,748                       77,395        6,473,143
         Exempt from Apportionment                            	     172,688                      852,294         1,024,982
         Total                                            $       12,206,635          $         3,203,179   $   15,409,814

Category A apportionments distribute budgetary resources by fiscal quarters, whereas Category B apportionments typically
distribute budgetary resources by activities, projects, objects, or a combination of these categories.

Undelivered Orders:

Undelivered orders were $12.36 billion and $7.87 billion at September 30, 2010 and 2009, respectively.

American Recovery and Reinvestment Act of 2009:

The Department received Appropriations of $7.92 billion in FY 2009 under the American Recovery and Reinvestment Act of
2009, including $4.70 billion for NTIA’s Broadband Technology Opportunities Program; $1.00 billion for Census Bureau’s Periodic
Censuses and Programs; $650.0 million for NTIA’s Digital-to-Analog Converter Box Program; and $600.0 million for NOAA’s
Procurement, Acquisition, and Construction.

Digital Television Transition and Public Safety Fund:

The Digital Television Transition and Public Safety Fund (Fund) was created by the Digital Television Transition and Public Safety
Act of 2005. This NTIA fund receives proceeds from the auction of licenses for recovered analog spectrum from discontinued
analog television signals, and provides funding for several programs from these receipts. Funding for these programs, prior to the
availability of auction receipts, was provided by Treasury borrowings, as discussed in Note 1, Summary of Significant Accounting
Policies.

The Federal Communications Commission (FCC) completed the auction of licenses for recovered analog spectrum in March 2008.
The auction resulted in proceeds of $18.96 billion, which were deposited to the Fund by FCC on June 30, 2008. A net auction
proceed (auction proceed less any FCC administrative fees due to FCC) becomes a budgetary resource on the SBR when FCC grants
the license and the net auction proceed is provided as a budgetary resource by OMB. Net auction proceeds for which licenses
have been granted, totaling $196.6 million and $16.69 billion for FY 2010 and FY 2009, respectively, are included as a budgetary



                                                                                                                             233
F Y   2 0 1 0    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




resource on the SBR (Budget Authority, Appropriations), and as a budgetary financing source on the SCNP. Auction proceeds
for which licenses have not yet been granted, totaling $33.8 million and $400.5 million as of September 30, 2010 and 2009,
respectively, are considered a non-budgetary financing source (unavailable for use), and, accordingly, are not included in the SBR
and are recorded as a liability to FCC on the Consolidated Balance Sheet. For the proprietary financial statements, an auction
proceed is considered a liability to FCC until FCC grants the license. When the license is granted, a financing source (Transfers In of
Spectrum Auction Proceeds from FCC) is recognized on the SCNP for the earned net auction proceeds, and the liability is reduced
by the dollar amount of the license granted.

As of September 30, 2010, payments for the programs under the Fund may not exceed $2.82 billion. On September 30, 2009, the
Fund transferred $7.36 billion to the General Fund of the Treasury. This transfer is included as a reduction of budgetary resources
on the SBR for year-end FY 2009 on the line Permanently Not Available, and is reported on the SCNP for year-end FY 2009 as
a negative budgetary financing source. The Department understands that Congress’ intent is for the Fund to further transfer
funds beyond the needs of its programs to the General Fund of the Treasury. At September 30, 2010, the Fund has a Net Position,
Cumulative Results of Operations balance of $9.53 billion.

Below is a brief summary of the three largest programs under this Fund, and significant financial activity recorded for the FY 2010
and FY 2009 SBR under this Fund for each program:

Public Safety Interoperable Communications (PSIC): This is a grant program to assist public safety agencies in the acquisition of,
deployment of, or training for the use of interoperable communications systems that can utilize reallocated public safety spectrum
for radio communication. The Fund may make payments not to exceed $1.00 billion for this program. The Department has in place
a Memorandum of Understanding with the Federal Emergency Management Agency (FEMA), in which FEMA administers the PSIC
grant program. NTIA provides FEMA with funds for the grants under the program, and for the charges for FEMA’s management and
administrative services. NTIA records budgetary obligations with FEMA, while FEMA records the grants activity under the program.
Budgetary obligations for FY 2010 and FY 2009 under the PSIC program amounted to $8.8 million and $5.6 million, respectively.
Budgetary obligations through September 30, 2008 under the PSIC program amounted to $981.4 million.

Digital-to-Analog Converter Box Program: This program provided eligible households in the U.S. and territories with forty-dollar
coupons (two per household maximum) that could be applied toward the purchase of digital-to-analog converter boxes. The Fund
may make payments not to exceed $1.52 billion for this program. Budgetary obligations for FY 2010 and FY 2009 under this fund
for this program amounted to $0.0 million and $535.1 million, respectively.

National Alert and Tsunami Warning Program: This program is to implement a unified national alert system capable of alerting
the public, on a national, regional, or local basis to emergency situations by using a variety of communications technologies. The
Fund made payments not exceeding $156.0 million for this program. The Department shall use $50.0 million of such amounts to
implement a tsunami warning and coastal vulnerability program. Budgetary obligations for FY 2010 and FY 2009 amounted to
$37.5 million and $49.8 million, respectively.


   Note 19. Custodial Nonexchange Activity

NOAA receives interest, penalties, and fines primarily related to its past due Accounts Receivable, while BIS receives civil monetary
penalties from private entities that violate the Export Administration Act. These collections are required to be transferred to Treasury.
For FY 2010, the Department had custodial nonexchange revenue of $19.5 million; custodial nonexchange revenue of $8.0 million
was payable to Treasury at September 30, 2010. For FY 2009, the Department had custodial nonexchange revenue of $9.9 million;
custodial nonexchange revenue of $706 thousand was payable to Treasury at September 30, 2009.




 234
                                                 F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   Note 20. Fiduciary Activities

Schedule of Fiduciary Activities for the Year Ended September 30, 2010
                                                                                              FY 2010
                                                                          Patent
                                                                        Cooperation            Madrid
                                                                          Treaty              Protocol            Total
         Fiduciary Net Assets, Beginning Balance                      $ 	       9,134       $ 	     452     $ 	      9,586
         Contributions                                                   	    121,679         	   9,923       	    131,602
         Disbursements to and on Behalf of Beneficiaries                 	 (121,361)          	   (9,799)     	 (131,160)
         Increase/(Decrease) in Fiduciary Net Assets                     	        318         	     124       	           442
         Fiduciary Net Assets, Ending Balance                         $ 	       9,452       $ 	     576     $ 	     10,028


Fiduciary Net Assets as of September 30, 2010
                                                                                              FY 2010
                                                                          Patent
                                                                        Cooperation            Madrid
                                                                          Treaty              Protocol            Total
         Fund Balance with Treasury                                   $ 	       9,452       $ 	     576     $ 	     10,028


Schedule of Fiduciary Activities for the Year Ended September 30, 2009
                                                                                              FY 2009
                                                                          Patent
                                                                        Cooperation            Madrid
                                                                          Treaty              Protocol            Total
         Fiduciary Net Assets, Beginning Balance                      $ 	      11,598       $ 	     311     $ 	     11,909
         Contributions                                                        116,818         	   8,618       	    125,436
         Disbursements to and on Behalf of Beneficiaries                 	 (119,282)          	   (8,477)     	 (127,759)
         Increase/(Decrease) in Fiduciary Net Assets                     	     (2,464)        	     141       	     (2,323)
         Fiduciary Net Assets, Ending Balance                         $ 	       9,134       $ 	     452     $ 	      9,586


Fiduciary Net Assets as of September 30, 2009
                                                                                              FY 2009
                                                                          Patent
                                                                        Cooperation            Madrid
                                                                          Treaty              Protocol            Total
         Fund Balance with Treasury                                   $ 	       9,134       $ 	     452     $ 	      9,586




                                                                                                                          235
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
     NOTES TO THE FINANCIAL STATE M ENTS




  Note 21. Earmarked Funds

The following tables depict major earmarked funds separately chosen based on their significant financial activity and importance to
taxpayers. All other earmarked funds not shown are aggregated as “Other Earmarked Funds.”
United States Department of Commerce Consolidated Balance Sheet
As of September 30, 2010

                                                                                Digital-                        Damage
                                                   NTIA Digital   Broadband    to-Analog                      Assessment
                                                    Television    Technology   Converter                          and
                                  USPTO           Transition and Opportunities    Box      Coastal Zone NTIS  Restoration Other                                                  Total
                                Earmarked          Public Safety   Program -   Program - Management Revolving Revolving Earmarked                                             Earmarked
                                  Funds                Fund      Recovery Act Recovery Act    Fund      Fund     Fund     Funds                                                 Funds

ASSETS
	 Fund Balance with Treasury    $ 1,334,757       $ 9,396,152           $ 4,172,152        $       6,319   $ 20,439       $ 29,749      $ 42,163         $ 82,539         $ 15,084,270
	 Cash                                2,570        	        -            	        -         	          -    	     -        	     -       	     -          	     -                2,570
	 Accounts Receivable, Net              758        	        -            	        -         	          -    	     -          2,503           265              182                3,708
	 Direct Loans and Loan	
  	 Guarantees, Net              	            -    	              -      	            -     	          -         6,717     	        -    	           -       	        -            6,717
	 Inventory, Materials, and 	
  	 Supplies, Net                   	         -       	           -         	         -        	       -    	        -            30     	           -       	        -               30
	 General Property, Plant, 	
  	 and Equipment, Net                  174,397       	           -         	       49         	       -    	        -          2,274       	        -       	       -           176,720
	 Other                                  13,167             139,738             20,335         	       -    	        -          6,948       	        -             200           180,388
	 TOTAL ASSETS                  $ 1,525,649       $ 9,535,890           $ 4,192,536        $       6,319   $ 27,156       $ 41,504      $ 42,428         $ 82,921         $ 15,454,403

LIABILITIES
	 Accounts Payable              $        70,114   $            534      $        1,450     $	          -   $	        -    $ 12,244      $         408    $         154    $       84,904
	 Federal Employee Benefits               8,299    	             -       	           -      	          -    	        -       1,208       	          -        	       -             9,507
	 Other
    	 Accrued Payroll and               165,490                 56               1,135      	          -    	        -          1,661              50              179           168,571
  		 Annual Leave
    	 Accrued Grants             	            -    	         1,453       	      96,902      	          -    	        -     	        -    	          -             3,424          101,779
    	 Unearned Revenue                  774,388    	             -       	           -      	          -    	        -         10,556    	          -        	        -          784,944
    	 Other                              15,053    	             -       	           -      	          -    	        -            411              40        	       59           15,563
	 TOTAL LIABILITIES             $ 1,033,344       $          2,043      $       99,487     $	          -   $	        -    $ 26,080      $         498    $ 3,816          $ 1,165,268

 NET POSITION
	 Unexpended Appropriations     $	            -   $	              -     $ 4,093,000        $       6,319   $	        -    $	        -   $	           -   $	           -   $     4,099,319
	 Cumulative Results of 	
  	 Operations                          492,305           9,533,847      	         49       	          -        27,156         15,424           41,930           79,105       10,189,816
	 TOTAL NET POSITION            $ 492,305         $ 9,533,847           $ 4,093,049        $       6,319   $ 27,156       $ 15,424      $ 41,930         $ 79,105         $ 14,289,135
	 TOTAL LIABILITIES AND
  NET POSITION                  $ 1,525,649       $ 9,535,890           $ 4,192,536        $       6,319   $ 27,156       $ 41,504      $ 42,428         $ 82,921         $ 15,454,403




       236
                                                                      F Y   2 0 1 0       P E R F O R M A N C E          A N D     A C C O U N T A B I L I T Y                 R E P O R T
                                                                                                NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Balance Sheet
As of September 30, 2009

                                                                                 Digital-                        Damage
                                                    NTIA Digital   Broadband    to-Analog                      Assessment
                                                     Television    Technology   Converter                          and
                                   USPTO           Transition and Opportunities    Box      Coastal Zone NTIS  Restoration Other                                              Total
                                 Earmarked          Public Safety   Program -   Program - Management Revolving Revolving Earmarked                                         Earmarked
                                   Funds                Fund      Recovery Act Recovery Act    Fund      Fund     Fund     Funds                                             Funds

 ASSETS
 	 Fund Balance with Treasury    $ 1,212,683       $ 9,230,126         $ 4,597,413      $ 262,443        $ 23,155      $ 22,699      $ 37,168         $ 90,557         $ 15,476,244
 	 Cash                                2,278        	        -          	        -       	      -         	     -       	     -       	     -          	     -                2,278
 	 Accounts Receivable, Net              438        	        -                 235       	      -         	     -         2,391           165              184                3,413
 	 Direct Loans and Loan	
   	 Guarantees, Net              	            -      	            -    	          -     	           -         6,537    	        -    	           -       	        -              6,537
 	 Inventory, Materials, and 	
   	 Supplies, Net                   	         -       	           -       	        -       	        -    	        -           38     	           -       	        -                 38
 	 General Property, Plant, 	
   	 and Equipment, Net                  205,802       	           -       	        -       	        -    	        -         1,930       	        -       	       -           207,732
 	 Other                                  13,062             396,640           61,217       	        -    	        -         6,456       	        -             155           477,530
 	 TOTAL ASSETS                  $ 1,434,263       $ 9,626,766         $ 4,658,865      $ 262,443        $ 29,692      $ 33,514      $ 37,333         $ 90,896         $ 16,173,772

 LIABILITIES
 	 Accounts Payable              $        90,026   $          1,375    $         941    $        8,034   $	        -   $ 9,623       $         583    $         304    $      110,886
 	 Federal Employee Benefits               8,097      	           -     	          -     	           -    	        -       993        	          -        	       -             9,090
 	 Other
     	 Accrued Payroll and               144,270                146              247     	           -    	        -         1,546              50              135           146,394
   		 Annual Leave
     	 Accrued Grants             	            -      	       8,333     	          -     	        615     	        -    	        -    	           -            3,099             12,047
 		 Accrued Coupons for
   		 Digital-to-Analog
   		 Converter Box 	
   		 Program                     	            -      	            -    	          -            25,533    	        -    	        -    	          -        	        -           25,533
     	 Unearned Revenue                  800,256      	            -    	          -     	           -    	        -         7,950    	          -        	        -          808,206
     	 Other                              15,820      	            -    	          -     	           -    	        -           287              51        	        -           16,158
 	 TOTAL LIABILITIES             $ 1,058,469       $          9,854    $       1,188    $ 34,182         $	        -   $ 20,399      $         684    $ 3,538          $ 1,128,314

  NET POSITION
 	 Unexpended Appropriations     $	            -   $	              -   $ 4,657,677      $ 228,261        $	        -   $	        -   $	           -   $        4,479   $     4,890,417
 	 Cumulative Results of 	
   	 Operations                          375,794           9,616,912    	          -     	           -        29,692        13,115           36,649           82,879       10,155,041
 	 TOTAL NET POSITION            $ 375,794         $ 9,616,912         $ 4,657,677      $ 228,261        $ 29,692      $ 13,115      $ 36,649         $ 87,358         $ 15,045,458
 	 TOTAL LIABILITIES AND
   NET POSITION                  $ 1,434,263       $ 9,626,766         $ 4,658,865      $ 262,443        $ 29,692      $ 33,514      $ 37,333         $ 90,896         $ 16,173,772




                                                                                                                                                                           237
F Y   2 0 1 0   P E R F O R M A N C E         A N D        A C C O U N T A B I L I T Y          R E P O R T
        NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statement of Net Cost
For the Year Ended September 30, 2010

                                         NTIA Digital   Broadband       Digital-                                  Damage
                                          Television    Technology     to-Analog                                Assessment
                              USPTO     Transition and Opportunities Converter Box Coastal Zone     NTIS            and       Other                  Total
                            Earmarked    Public Safety Program -       Program - Management       Revolving     Restoration Earmarked             Earmarked
                              Funds          Fund      Recovery Act Recovery Act      Fund          Fund       Revolving Fund Funds                 Funds

Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic
Growth for American Industries, Workers, and Consumers
     Gross Costs           $	        - $	         - $ 	        -  $	           -   $ 	       -    $	       -    $	       -    $       5,652   $       5,652
     Less: Earned Revenue   	        -     	      -     	      -    	          -     	       -     	       -     	       -        	       -       	       -
     Net Program Costs      	        -     	      -     	      -    	          -     	       -     	       -     	       -            5,652           5,652

Strategic Goal 2: Promote U.S. Innovation and Industrial Competitiveness
     Gross Costs              2,006,938     279,527       262,653      (17,558)       	      -      48,007       	       -        	       -        2,579,567
     Less: Earned Revenue   	(2,101,682) 	        -          (223)   	       -        	      -     (49,093)      	       -        	       -       (2,150,998)
     Net Program Costs      	 (94,744)     279,527        262,430    (17,558)         	      -      (1,086)      	       -        	       -         428,569

Strategic Goal 3: Promote Environmental Stewardship
     Gross Costs            	        -    	       -      	     -   	     -           	     (144) 	     -     6,991               30,457    37,304
     Less: Earned Revenue   	        -    	       -      	     -   	     -           	     (320) 	     -   	     -                	   -      (320)
     Net Program Costs      	        -    	      -       	     -   	     -           	    (464)  	     -     6,991              30,457    36,984
NET COST OF OPERATIONS $ 	 (94,744) $ 279,527          $ 262,430 $ (17,558)        $ 	    (464) $ (1,086) $ 6,991             $ 36,109 $ 471,205


United States Department of Commerce Consolidated Statement of Net Cost
For the Year Ended September 30, 2009

                                         NTIA Digital Broadband         Digital-                                  Damage
                                          Television    Technology     to-Analog                                Assessment
                              USPTO     Transition and Opportunities Converter Box Coastal Zone     NTIS            and       Other              Total
                            Earmarked    Public Safety Program -       Program - Management       Revolving     Restoration Earmarked         Earmarked
                              Funds          Fund      Recovery Act Recovery Act      Fund          Fund       Revolving Fund Funds             Funds

Strategic Goal 1: Maximize U.S. Competitiveness and Enable Economic
Growth for American Industries, Workers, and Consumers
     Gross Costs           $	        - $	         - $ 	        - $	            -   $ 	       -    $	       -   $	        -    $       1,343   $       1,343
     Less: Earned Revenue   	        -     	      -     	      -    	          -     	       -     	       -    	        -        	       -       	       -
     Net Program Costs      	        -     	      -     	      -    	          -     	       -     	       -    	        -            1,343           1,343

Strategic Goal 2: Promote U.S. Innovation and Industrial Competitiveness
     Gross Costs              1,981,940     763,565        12,503     351,135         	      -      28,173       	       -        	       -        3,137,316
     Less: Earned Revenue   	(1,927,130)        122          (235)   	      -         	      -     (26,075)      	       -        	       -       (1,953,318)
     Net Program Costs           54,810    763,687        12,268     351,135          	      -       2,098       	       -        	       -       1,183,998

Strategic Goal 3: Promote Environmental Stewardship
     Gross Costs            	        -    	       -      	    -        	     -        1,400  	   -                12,285         21,789      35,474
     Less: Earned Revenue   	        -    	       -      	    -        	     -       	 (398) 	   -               	     -          	   -        (398)
     Net Program Costs      	        -    	      -       	    -        	     -        1,002  	   -               12,285         21,789      35,076
NET COST OF OPERATIONS $        54,810 $ 763,687       $ 12,268      $ 351,135     $ 1,002 $ 2,098             $ 12,285       $ 23,132 $ 1,220,417




          238
                                                          F Y   2 0 1 0   P E R F O R M A N C E        A N D   A C C O U N T A B I L I T Y        R E P O R T
                                                                                              NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statement of Changes in Net Position
For the Year Ended September 30, 2010

                                                                                                                Damage
                                                 NTIA Digital   Broadband       Digital-                      Assessment
                                                  Television    Technology     to-Analog                          and
                                   USPTO        Transition and Opportunities Converter Box Coastal Zone NTIS  Restoration Other                                    Total
                                 Earmarked       Public Safety   Program -     Program - Management Revolving Revolving Earmarked                               Earmarked
                                   Funds             Fund      Recovery Act Recovery Act      Fund      Fund     Fund     Funds                                   Funds

 Cumulative Results of
 Operations:
 	 Beginning Balance             $ 375,794      $       9,616,912    $	           -   $	            -   $ 29,692      $ 13,115     $ 36,649      $ 82,879      $ 10,155,041

 Budgetary Financing Sources:
 	 Appropriations Used            	         -       	           -          262,677        	 (17,558)     	        -    	       -    	        -         4,479          249,598
 	 Non-exchange Revenue           	         -       	           -     	          -        	       -      	        -    	       -         4,762        13,753           18,515
 	 Transfers In of Spectrum
    	 Auction Proceeds from
    	 Federal Communications
    	 Commission                  	         -             196,613     	           -       	         -    	        -    	       -    	        -    	        -          196,613
 	 Transfers In/(Out) Without
    	 Reimbursement, Net          	         -       	           -     	           -       	         -    	 (3,000)     	       -         7,510        14,103           18,613

 Other Financing Sources
 (Non-exchange):
    Transfers In/(Out) Without
        Reimbursement, Net        	         -       	        (151)    	       (198)       	         -    	        -    	       -    	        -    	        -    	        (349)
    Imputed Financing Sources
        from Cost Absorbed by
        Others                    	 21,767          	           -     	           -       	         -    	        -        1,223    	        -    	        -           22,990
 Total Financing Sources          	 21,767             196,462           262,479          	 (17,558)     	 (3,000)         1,223      12,272        32,335         505,980
 Net Cost of Operations             94,744          	 (279,527)       	 (262,430)            17,558           464          1,086    	 (6,991)     	(36,109)     	 (471,205)
 Net Change                           116,511       	    (83,065)     	         49        	         -    	 (2,536)         2,309         5,281    	 (3,774)            34,775
 Cumulative Results of
 Operations - Ending Balance          492,305           9,533,847     	         49        	         -        27,156    15,424           41,930        79,105    10,189,816

 Unexpended Appropriations:
 	 Beginning Balance              	         -       	           -         4,657,677           228,261    	        -    	       -    	        -         4,479         4,890,417

 Budgetary Financing Sources:
 	 Other Adjustments              	         -       	           -     	 (302,000)         	 (239,500)    	        -    	       -    	        -    	      -      	    (541,500)
 	 Appropriations Used            	         -       	           -     	 (262,677)             17,558     	        -    	       -    	        -    	 (4,479)     	    (249,598)
 Total Budgetary Financing
 Sources                          	         -       	           -     	 (564,677)         	 (221,942)    	        -    	       -    	        -    	 (4,479)          (791,098)
 Unexpended Appropriations -
   Ending Balance                 	         -       	           -     4,093,000                6,319     	        -    	       -    	        -    	        -        4,099,319
 NET POSITION                    $ 492,305      $ 9,533,847          $ 4,093,049      $        6,319    $ 27,156      $ 15,424     $ 41,930      $ 79,105      $ 14,289,135




                                                                                                                                                               239
F Y   2 0 1 0   P E R F O R M A N C E      A N D        A C C O U N T A B I L I T Y           R E P O R T
    NOTES TO THE FINANCIAL STATE M ENTS




United States Department of Commerce Consolidated Statement of Changes in Net Position
For the Year Ended September 30, 2009

                                                                                                                Damage
                                                 NTIA Digital   Broadband       Digital-                      Assessment
                                                  Television    Technology     to-Analog                          and
                                  USPTO         Transition and Opportunities Converter Box Coastal Zone NTIS  Restoration Other                                    Total
                                Earmarked        Public Safety   Program -     Program - Management Revolving Revolving Earmarked                               Earmarked
                                  Funds              Fund      Recovery Act Recovery Act      Fund      Fund     Fund     Funds                                   Funds

 Cumulative Results of
 Operations:
 	 Beginning Balance            $ 432,604       $       1,069,096    $	           -    $	         -   $ 33,694      $ 14,232      $ 37,869      $ 59,062       $       1,646,557

 Budgetary Financing Sources:
 	 Appropriations Used           	         -        	         (27)          12,268          351,135    	        -      	      -    	        -         1,342              364,718
 	 Non-exchange Revenue          	         -        	           -     	          -      	         -    	        -      	      -         5,335        16,097               21,432
 	 Transfers In of Spectrum
    	 Auction Proceeds from
    	 Federal Communications
    	 Commission                 	         -        	 16,689,557      	           -     	         -    	        -      	      -    	        -    	        -        	 16,689,557
 	 Transfer Out of Spectrum
    	 Auction Proceeds to
    	 Treasury General Fund      	         -        	 (7,363,000)     	           -     	         -    	        -      	      -    	        -    	        -        	 (7,363,000)
 	 Transfers In/(Out) Without
    	 Reimbursement, Net         	    (2,000)       	     (15,000)    	           -     	         -    	 (3,000)       	      -         5,730        29,510               15,240

 Other Financing Sources
 (Non-exchange):
 	 Imputed Financing Sources
    	 from Cost Absorbed by
    	 Others                     	         -        	           -     	           -     	         -    	        -           981    	        -    	        -                 981
 	 Other Financing Sources/
    	 (Uses), Net                	         -        	         (27)    	           -     	         -    	        -      	      -    	        -    	        -        	         (27)
 Total Financing Sources         	 (2,000)            9,311,503          12,268           351,135      	 (3,000)           981       11,065        46,949            9,728,901
 Net Cost of Operations          	 (54,810)         	 (763,687)       	 (12,268)        	(351,135)     	 (1,002)       	(2,098)    	(12,285)     	(23,132)         	(1,220,417)
 Net Change                      	 (56,810)             8,547,816     	           -     	         -    	 (4,002)       	(1,117)    	 (1,220)         23,817            8,508,484
 Cumulative Results of
 Operations - Ending Balance         375,794            9,616,912     	           -     	         -        29,692      13,115          36,649        82,879        10,155,041

 Unexpended Appropriations:
 	 Beginning Balance             	         -        	         (27)    	           -     	         -    	        -      	      -    	        -           489                 462

 Budgetary Financing Sources:
 	 Appropriations Received       	         -        	           -         4,700,000         650,000    	        -      	      -    	        -    	        -            5,350,000
 	 Appropriations Transferred
    	 In/(Out), Net              	         -        	          -      	     (30,055)    	 (70,604)     	        -      	      -    	        -       5,331          	     (95,328)
 	 Other Adjustments             	         -        	          -      	           -     	        -     	        -      	      -    	        -    	      1          	           1
 	 Appropriations Used           	         -                  27      	     (12,268)    	 (351,135)    	        -      	      -    	        -    	 (1,342)         	    (364,718)
 Total Budgetary Financing
 Sources                         	         -                  27          4,657,677         228,261    	        -      	      -    	        -         3,990            4,889,955
 Unexpended Appropriations -
   Ending Balance                	         -        	           -     4,657,677             228,261    	        -      	      -    	        -         4,479            4,890,417
 NET POSITION                   $ 375,794       $ 9,616,912          $ 4,657,677       $ 228,261      $ 29,692      $ 13,115      $ 36,649      $ 87,358       $ 15,045,458


Below is a description of major earmarked funds shown in the above tables.

The USPTO Earmarked Funds consist of its Salaries and Expenses Fund, and the Patent and Trademark Surcharge Fund.




      240
                                                              F Y   2 0 1 0      P E R F O R M A N C E         A N D       A C C O U N T A B I L I T Y        R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




The Salaries and Expenses Fund contains monies used for the administering of the laws relevant to patents and trademarks and
advising the Secretary of Commerce, the President of the United States, and the Administration on patent, trademark, and copyright
protection, and trade-related aspects of intellectual property. This fund is used for USPTO’s two core business activities—granting
patents and registering trademarks—that promote the use of intellectual property rights as a means of achieving economic
prosperity. These activities give innovators, businesses, and entrepreneurs the protection and encouragement they need to turn
their creative ideas into tangible products, and also provide protection for their inventions and trademarks. Since FY 1993, the
Salaries and Expenses Fund has been funded primarily by the collection of fees for patent and trademark services. The USPTO may
use monies from this fund only as authorized by Congress via appropriations.

The Patent and Trademark Surcharge Fund, a Special Fund Receipt Account at Treasury, is discussed in Note 18, Combined
Statements of Budgetary Resources. The USPTO may use monies from this account only as authorized by Congress and made
available by the issuance of a Treasury warrant. As of September 30, 2010, $233.5 million is held in this fund.

The NTIA Digital Television Transition and Public Safety Fund makes digital television available to every home in America, improves
communications between local, state, and federal agencies, allows smaller television stations to broadcast digital television, and
improves how warnings are received when disasters occur. NTIA received funding from borrowings from the Bureau of Public Debt,
and repaid the Bureau of Public Debt from the proceeds of the auction of recovered analog spectrum which was completed in
March 2008. The proceeds from the auction provide funding for several programs, and has been and is expected to be further used
to reduce the National Deficit. The law establishing this program can be found in the Deficit Reduction Act of 2005, P.L. 109-171
Section 3001-3014.

The Broadband Technology Opportunities Program - Recovery Act includes funds from the American Recovery and Reinvestment Act
of 2009 (Recovery Act) that provides awards to eligible entities to develop and expand broadband services to rural and underserved
areas and improve access to broadband by public safety agencies. Specifically, funds will be used for innovative programs that
encourage sustainable adoption of broadband services, to upgrade technology and capacity at public computing centers, including
community colleges and public libraries, and for the development and maintenance of statewide broadband inventory maps.

The Digital-to-Analog Converter Box Program - Recovery Act includes funds from the Recovery Act that allowed NTIA to issue
coupons to households to ensure vulnerable populations were prepared for the transition from analog-to-digital television
transmission.

The Coastal Zone Management Fund, operated by NOAA, is primarily used for interstate projects, demonstration projects for improving
coastal zone management, and emergency grants to state coastal zone management agencies to address unforeseen or disaster-
related circumstances. The law establishing the Coastal Zone Management Fund can be found in 16 USC Section 1456a.

The NTIS Revolving Fund is used to collect, process, market, and disseminate government-sponsored and foreign scientific,
technical, and business information, and to assist other agencies with their information programs. Activities funded by the NTIS
Revolving Fund allow customers, both public and private, access to scientific and technical information produced by and for the
federal government. All receipts from the sale of products and services are deposited in this fund, and all expenses, including
capital expenditures, are paid from it.

The Damage Assessment and Restoration Revolving Fund receives monies for the reimbursement of expenses related to oil or hazardous
substance spill response activities, or natural resource damages assessment, restoration, rehabilitation, replacement, or acquisition
activities conducted by NOAA. The recovered sums by a federal, state, indian, or foreign trustee for natural resource damages is
retained by the trustee and is only used to reimburse or pay costs incurred by the trustee for the damaged natural resources. The law
establishing the Damage Assessment and Restoration Revolving Fund can be found in 33 USC Section 2706. Natural Resources.



                                                                                                                               241
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 22. Reconciliation of Net Cost of Operations to Budget

The Reconciliation of Net Cost of Operations to Budget reconciles the Department’s Resources Used to Finance Activities
(first section), which consists of the budgetary basis of accounting Net Obligations plus the proprietary basis of accounting Other
Resources, to the proprietary basis of accounting Net Cost of Operations. The second section, Resources Used to Finance Items
Not Part of Net Cost of Operations, reverses out items included in the first section that are not included in Net Cost of Operations.
The third section, Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period, adds
items included in Net Cost of Operations that are not included in the first section.

The third section’s subsection, Components Requiring or Generating Resources in Future Periods, includes costs reported in the
current period that are included in the Liabilities Not Covered by Budgetary Resources reported in Note 15. This subsection does
not include costs reported in prior fiscal years that are also included in Liabilities Not Covered by Budgetary Resources.

The reconciliations of Net Cost of Operations to Budget for FY 2010 and FY 2009 are as follows:
                                                                                                                          FY 2010               FY 2009
Resources Used to Finance Activities:
Budgetary Resources Obligated
Obligations Incurred                                                                                             $    22,405,811       $    15,409,814
Less: Spending Authority From Offsetting Collections and Recoveries                                                  	 (4,280,000)         	 (3,795,302)
Obligations Net of Offsetting Collections and Recoveries                                                              18,125,811            11,614,512
Less: Distributed Offsetting (Receipts)/Outlays, Net                                                                 	 (28,541)            	 (101,324)
Net Obligations                                                                                                          18,097,270            11,513,188

Other Resources
Donations and Forfeitures of Property                                                                                          461                    55
Transfers In/(Out) Without Reimbursement, Net                                                                        	      (4,804)        	       4,254
Imputed Financing From Cost Absorbed by Others                                                                             346,772               235,744
Downward Subsidy Reestimates Payable to Treasury                                                                     	      (8,087)        	      (3,509)
Other Financing Sources/(Uses), Net                                                                                             18                 1,365
Net Other Resources Used to Finance Activities                                                                             334,360               237,909
Total Resources Used to Finance Activities                                                                           18,431,630            11,751,097

Resources Used to Finance Items Not Part of Net Cost of Operations:
Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but Not Yet Provided                   (4,489,923)           (1,225,950)
Resources that Fund Expenses Recognized in Prior Periods                                                             	       (6,255)       	      (67,368)
Budgetary Obligation for Downward Subsidy Reestimates Payable to Treasury                                            	       (6,190)       	      (20,653)
Budgetary Offsetting Collections and Receipts that Do Not Affect Net Cost of Operations:
	 Distributed Offsetting (Receipts)/Outlays, Net (excludes Clearing Accounts’ Gross Costs)                                 28,541               101,324
   Credit Program Collections which Increase Loan Guarantee Liabilities or Allowance for Subsidy Cost                      71,812                26,908
   Budgetary Financing Sources/(Uses), Net                                                                                  8,272                 8,695
Resources that Finance the Acquisition of Assets                                                                     	 (1,433,050)         	 (1,087,927)
Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of Operations:
   Change in Unfilled Customer Orders                                                                                      202,311               (129,746)
   Donations and Forfeitures of Property                                                                                      (461)                   (55)
   Transfers In/(Out) Without Reimbursement, Net                                                                     	       4,804         	       (4,254)
	 Downward Subsidy Reestimates Payable to Treasury                                                                   	       8,087         	        3,509
   Other Financing Sources/(Uses), Net                                                                               	         (18)        	       (1,365)
	 Other                                                                                                              	           -         	      (15,002)
Total Resources Used to Finance Items Not Part of Net Cost of Operations                                             (5,612,070)           (2,411,884)
Total Resources Used to Finance Net Cost of Operations                                                               12,819,560                9,339,213

Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period:
                                                                                                                                           (continued)


  242
                                                        F Y   2 0 1 0    P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y        R E P O R T
                                                                                     NOTES TO THE FINANCIAL STATE M ENTS




                                                                                                                       FY 2010              FY 2009
Components Requiring or Generating Resources in Future Periods
Increase in Accrued Annual Leave Liability                                                                               11,373               19,665
Increase in Federal Employee Benefits                                                                                    81,601               20,871
Increase (Decrease) in Contingent Liabilities                                                                      	     (1,807)       	     (15,267)
Reestimates of Credit Subsidy Expense                                                                                    (2,857)               2,045
Other                                                                                                                    11,223                5,363
Total Components of Net Cost of Operations that Will Require or Generate Resources in Future Periods                     99,533               32,677

Components Not Requiring or Generating Resources
Depreciation and Amortization                                                                                           524,296              400,474
NOAA Impairment of Construction-in-progress (Note 16)                                                                   107,518        	           -
NOAA Issuances of Materials and Supplies                                                                                 29,325               22,768
Census Bureau Issuances of Materials and Supplies                                                                  	     37,383        	       5,027
Revaluation of Assets or Liabilities                                                                               	     40,871        	      27,062
Other                                                                                                              	      5,594        	        (482)
Total Components of Net Cost of Operations that Will Not Require or Generate Resources                                  744,987              454,849
Total Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period           844,520              487,526
NET COST OF OPERATIONS                                                                                         $   13,664,080      $       9,826,739




                                                                                                                                                 243
F Y   2 0 1 0   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y     R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




   Note 23. Stewardship PROPERTY, PLANT, AND EQUIPMENT

This note provides information on certain resources entrusted to the Department and certain stewardship responsibilities assumed
by the Department. The physical properties of stewardship property, plant, and equipment (Stewardship PP&E) resemble those
of the General PP&E that is capitalized traditionally in the financial statements of federal entities. Due to the nature of these
assets, however, valuation would be difficult and matching costs with specific periods would not be meaningful. Therefore, federal
accounting standards require the disclosure of the nature and quantity of these assets. NOAA, NIST, and the Census Bureau are the
only entities within the Department that have Stewardship PP&E. Additional information on Stewardship PP&E is presented in the
Required Supplementary Information section.

Stewardship Marine Sanctuaries, Marine National Monuments, and Conservation Area:

NOAA maintains the following Stewardship PP&E, which are similar in nature to stewardship land:

National Marine Sanctuaries: In 1972, Congress passed the Marine Protection, Research, and Sanctuaries Act (Act) in response
to a growing awareness of the intrinsic environmental and cultural value of coastal waters. The Act authorized the Secretary of
Commerce to designate discrete areas as National Marine Sanctuaries. These protected waters provide a secure habitat for species
close to extinction, and also protect historically significant shipwrecks and prehistoric artifacts. The sanctuaries are also used
for recreational diving and sport fishing, and support valuable commercial industries such as fishing and kelp harvesting. As of
September 30, 2010, 13 National Marine Sanctuaries, which include near-shore coral reefs and open ocean, have been designated,
covering a total area of nearly 19,000 square miles. Each individual sanctuary site (Monterey Bay, the Florida Keys, the Olympic
Coast, and Channel Island are the largest four) conducts research and monitoring activities to characterize existing resources and
document changes.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef habitats located in U.S. waters surround the
Northwestern Hawaiian Islands (NWHI). The NWHI Coral Reef Ecosystem Reserve is the nation’s largest marine protected area, and
was established by Executive Orders in December 2000 and January 2001, in accordance with the National Marine Sanctuaries
Amendments Act of 2000. On June 15, 2006, the President created the world’s second largest marine conservation area off
the coast of the northern Hawaiian Islands. This conservation area, designated the Northwestern Papahãnaumokuãkea Marine
National Monument, encompasses nearly 140,000 square miles of U.S. waters, including approximately 5,200 square miles of
relatively undisturbed coral reef habitat that is home to more than 7,000 species. The Monument is managed by NOAA, with the
Department of the Interior, and the State of Hawaii.

Rose Atoll Marine National Monument: On January 6, 2009, President Bush designated Rose Atoll in American Samoa a Marine
National Monument. The atoll includes the Rose Atoll National Wildlife Refuge. It also includes about 20 acres of land and 1,600
acres of lagoon and is one of the most pristine atolls in the world. The areas around the atoll support a dynamic reef ecosystem
that is home to many land and marine species, many of which are threatened or endangered. The Department of the Interior has
primary management responsibility of the atoll while NOAA has primary management responsibility for the marine areas of the
monument seaward of mean low water, with respect to fishery-related activities regulated pursuant to the Magnuson-Stevens
Fishery Conservation and Management Act (16 U.S.C. 1801 et seq. ) and any other applicable authorities. An inter-governmental
committee comprised of NOAA, Department of the Interior, and the American Samoa Government has been established to develop
and coordinate management strategies. NOAA is progressing with fisheries management strategies, and has begun scoping to
consider designation as a National Marine Sanctuary.




 244
                                               F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




Marianas Trench Marine National Monument: On January 6, 2009, President Bush designated the Marianas Trench Marine National
Monument. The Monument consists of approximately 95,000 square miles of submerged lands and waters of the Mariana
Archipelago. It includes three units: the Islands Unit, the waters and submerged lands of the three northernmost Mariana Islands;
the Volcanic Unit, the submerged lands within 1 nautical mile of 21 designated volcanic sites; and the Trench Unit, the submerged
lands extending from the northern limit of the Exclusive Economic Zone of the United States in the Commonwealth of the
Northern Mariana Islands (CNMI) to the southern limit of the Exclusive Economic Zone of the United States in the Territory of
Guam. No waters are included in the Volcanic and Trench Units, and CNMI maintains all authority for managing the three islands
within the Islands Unit (Farallon de Pajaros or Uracas, Maug, and Asuncion) above the mean low water line. The Department of
the Interior has primary management responsibility for the monument while NOAA has primary management responsibility with
respect to fishery-regulated activities regulated pursuant to the Magnuson-Stevens Fishery Conservation and Management Act
and any other applicable authorities. An advisory council for the Monument will be established in 2011. NOAA is progressing with
fisheries management strategies, and, in 2011, will begin scoping for management plan development, along with the Department
of the Interior.

Pacific Remote Islands Marine National Monument: On January 6, 2009, President Bush designated the Pacific Remote Islands
Marine National Monument. The Pacific Remote Islands area consists of Wake, Baker, Howland, and Jarvis Islands, Johnston Atoll,
Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. With the exception of Wake Island, these islands
are administered as National Wildlife Refuges by the U.S. Fish and Wildlife Service of the Department of the Interior. They sustain
many endemic species including corals, fish, shellfish, marine mammals, seabirds, water birds, land birds, insects, and vegetation
not found elsewhere.

NOAA has primary responsibility for management of the monument seaward of the area 12 nautical miles of the mean low water
lines of Wake, Baker, Howland, and Jarvis Islands, Johnston Atoll, Kingman Reef, and Palmyra Atoll, with respect to fishery-related
activities regulated pursuant to the Magnuson-Stevens Fishery Conservation and Management Act and any other applicable legal
authorities. NOAA is progressing with fisheries management strategies, and additional management strategies will be developed
in coming years, in cooperation with the Department of the Interior’s Fish and Wildlife Service.

Aleutian Islands Habitat Conservation Area: On July 28, 2006, NOAA Fisheries Service formally established the Aleutian Islands
Habitat Conservation Area in Alaska, which covers nearly 370,000 square miles and may harbor among the highest diversity of
deep-water corals in the world. The conservation area established a network of fishing closures in the Aleutian Islands and Gulf of
Alaska, and protects habitat for deep water corals and other sensitive features that are slow to recover once disturbed by fishing
gear or other activities. Six small areas that include fragile coral gardens discovered by NOAA Fisheries Service scientists are
closed to all bottom-contact fishing gear. This effort is part of a network of new marine protected areas in Alaskan waters designed
to protect essential fish habitat and prevent any further damage of the area.

Written policy statements or permit guidelines for the National Marine Sanctuaries and Monuments have been developed for the
areas of acoustic impacts, artificial reefs, climate change, invasive species, and marine debris. Submarine cable policy will be
finalized in 2011. The Office of Marine National Sanctuaries may be updating artificial reefs policy to reflect recent information
about the effects of artificial reefs on natural habitats. The Office of Marine National Sanctuaries answers the most frequently
asked questions related to alternative energy and oil and gas policy decisions for national marine sanctuaries.

Heritage Assets:

Heritage assets are unique for their historical or natural significance, for their cultural, educational, or artistic importance, or for
their significant architectural characteristics. The Department generally expects that these assets will be preserved indefinitely.




                                                                                                                                  245
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




In cases where a heritage asset also has a practical and predominant use for general government operations, the asset is considered
a multi-use heritage asset. The cost of a multi-use heritage asset is capitalized as General PP&E and is depreciated over the useful
life of the asset.

NOAA has established policies for heritage assets to ensure the proper care and handling of these assets under its control or
jurisdiction. The Deputy Under Secretary of NOAA has established the Heritage Assets Working Committee to administer NOAA’s
stewardship policies and procedures. In carrying out these policies and procedures, the Working Committee:

   l	   Maintains a nationwide inventory of heritage assets, ensuring that they are identified and recorded in the Personal Property
        Heritage Asset Accountability System;
   l	   Establishes nationwide NOAA policies, procedures, and standards for the preservation, security, handling, storage, and display
        of NOAA heritage assets;
   l	   Tracks and updates each loan of NOAA heritage assets, including assigning current values and inventory numbers, and
        reporting the current conditions of heritage assets;
   l	   Determines the feasibility of new asset loans, such as meters, standard tide gauges, portraits, and books for exhibit loans;
   l	   Collects heritage assets and properties of historic, cultural, artistic, or educational significance to NOAA.

NOAA maintains the following Heritage Assets:

Galveston Laboratory: Galveston Laboratory is comprised of seven buildings that were originally part of Fort Crockett, Texas,
an army coastal defense facility built shortly after 1900. These buildings are eligible for placement on the National Register.
Due to their historic significance, exterior architectural features, and predominant use in government operations, the Galveston
Laboratory is considered a multi-use heritage asset.

The Marine Mammal Stranding Network Building was replaced, after the existing structure was not usable after damage caused
by Hurricane Ike. The Sea Water System now includes new electrical lines and pump housing.

National Marine Fisheries Service (NMFS) St. George Sealing Plant: On St. George Island, in the Pribilof Islands group, Alaska, is the
only remaining northern fur seal pelt processing building in the world. In 1986, the building was listed on the National Register
of Historic Properties, within the Seal Islands National Historic Landmark. The Pribilof Islands commercial fur seal harvest was
an extremely profitable business for the U.S. government, and, by the early 1900s, had covered the purchase price of Alaska. The
building is the largest on the island, and is comprised of four distinct work areas from the seal pelt processing area. In 1950, the
original wood-framed pelt processing plant was destroyed in a fire and rebuilt in 1951 with concrete walls on remnants of the
original foundation. Harsh weather and a lack of maintenance funding after the expiration of the Northern Fur Seal Convention in
1985 resulted in significant deterioration of the building by the early 1990s.

In November 1999, after numerous site surveys and assessments, the building’s crumbling foundation was stabilized and the
building’s exterior was painted. This effort allowed for NOAA’s continued, but limited, use of the building by the NMFS Alaska
Region and Alaska Fisheries Science Center to achieve NOAA’s mission on St. George Island. In addition, the U.S. Fish and Wildlife
Service (USFWS) Alaska Maritime National Wildlife Refuge used the building as a bunkhouse until 2006 when NOAA’s Safety
Officer and the USFWS Safety Officer both determined the bunkhouse portion of the building lacked sufficient means of egress in
the event of fire and deemed it to be unsafe for habitation. It was determined by USFWS that the cost of making the necessary
modifications to the space was not fiscally justifiable. NOAA’s Preserve America program funded an interpretive display project in
the Seal Plant to promote public outreach and education for the modest tourism program on St. George.



 246
                                                  F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




NMFS Cottage M, St. George: The last remnants of the U.S. commercial harvest of northern fur seals can be found on St. George
Island, in the Pribilof Islands group, Alaska. In 1986, Cottage M (locally known as Cottage C), was listed on the National Register
of Historic Places within the Seal Islands National Historic Landmark. This building was constructed in the 1930s and was the
residence of the island doctor and hospital through 1955, when the current clinic/hospital was built. Later, the construction of a
health clinic on St. George Cottage M provided housing for government scientists and managers. In recent years, USFWS Alaska
Maritime National Wildlife Refuge staff have also used the building. NMFS Cottage M is considered a multi-use heritage asset
because of the critical housing for NOAA’s research and management staff, along with USFWS staff. During 2010, investments
were made to improve energy efficiency during active operational periods and to allow the building to be winterized and secured
during periods when the building is not occupied.

NMFS St. Paul Old Clinic/Hospital: On St. Paul Island, in the Pribilof Islands group, Alaska, fewer historic structures remain
than on St. George Island. In 1986, the clinic/hospital was listed on the National Register of Historic Places within the Seal
Islands National Historic Landmark. The old clinic/hospital is the combination of three historic buildings (physician’s house, 1929;
dispensary, 1929; and hospital, 1934) connected in 1974 with an addition. The building was used as a clinic/hospital through
2006 under a Memorandum of Agreement between NMFS and the Department of Health, Education and Welfare, and later, the
Indian Health Service/Bureau of Indian Affairs. Since August 2007, NMFS has maintained the facility. While the facility remains
largely unused at this time, except for occasional storage needs, NMFS will continue to maintain the facility, and plans to retain
it to accommodate its expanding mission needs on St. Paul Island. This building experienced a severe freeze-up and flooding due
to broken pipes. NOAA Fisheries has invested resources to clean up the damage and abate hazardous materials contained in the
building, including asbestos, lead-based paint, PCB’s, and mercury. This work is expected to be completed during the first quarter
of FY 2011.

NMFS Aquarium: In Woods Hole, Massachusetts, this aquarium was established in 1875 by Spencer Baird, the originator of NMFS.
In addition to being part of the first laboratory of today’s NMFS, this aquarium is the oldest marine research display aquarium
in the world. It is used to educate the public, raise public awareness of NMFS activities, and accommodate in-house research
for the Northeast Fisheries Science Center, part of NOAA’s mission. The aquarium houses 16 permanent exhibition tanks and
approximately 12 freestanding aquaria and touch tanks holding more than 140 species of fish and invertebrates. The tanks range
in size from 75 to 2,800 gallons. NMFS Aquarium is considered a multi-use heritage asset because it is also used for NOAA’s
scientific research, which is part of its mission.

Office of Atmospheric Research (OAR) Great Lakes Environmental Research Laboratory (GLERL), Lake Michigan Field Station (LMFS):
In Muskegon, Michigan, the GLERL main building, constructed in 1904 by the U.S. Life Saving Service, is eligible for National Register
designation and has been recognized by state and local historical societies for its maritime significance. With the creation of the
U.S. Coast Guard in 1915, the facility was transferred and served as a base for search and rescue operations for 75 years. In 2004, a
renovation project was completed that restored the exterior to its original architecture and color scheme - a style that is considered
rare. Today, GLERL carries out research and provides scientific products, expertise, and services required for effective management
and protection of Great Lakes and coastal ecosystems. GLERL/LMFS includes three buildings and a research vessel dockage. The
function of the field station is to provide a base of operations for GLERL’s primary research vessel, which is presently the Research
Vessel Laurentian, and to provide a focal point for GLERL’s research on Lake Michigan. Due to its historic significance, exterior
architectural features, and predominant use in government operations, GLERL/LMFS is considered a multi-use heritage asset.

NOAA’s collection-type heritage assets are comprised primarily of books, journels, publications, photographs and motion pictures,
manuscripts, records, nautical chart plates, and artifacts. Many of these heritage assets are maintained by the NOAA Central Library
(Library). As evidenced by a search of international catalogs, 35 to 50 percent of the Library’s collection is unique. Historically, 40 percent
of the items catalogued are not found anywhere else. Many older books cannot be replaced. The works include 17th century works of
Francis Bacon and Robert Boyle, 18th century works of Daniel Bernouilli, Daniel Defoe, and Pierre Bougher, and 19th and 20th century



                                                                                                                                         247
F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




works of Benjamin Franklin and George Washington Carver. The Library has an extensive collection of historical Coast and Geodetic
Survey materials (from 1807) and Weather Bureau materials (from the 1830s), including foreign and historical meteorological data,
information on instruments, and metadata.

NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary Research Collection (Collection). In 2004, the Thunder
Bay National Marine Sanctuary (jointly managed by NOAA and the State of Michigan to protect and interpret a nationally significant
collection of shipwrecks and other maritime heritage resources) established an agreement with the Alpena County George N. Fletcher
Public Library to jointly manage this Collection. Amassed over a period of more than 40 years by historian C. Patrick Labadie, the
Collection includes information about such diverse subjects as Great Lakes ports and waterways, docks, cargoes, ships, shipbuilders,
owners and fleets, machinery and rigging, notable maritime personalities, and shipwrecks. Special features of the Collection are extensive
collections of a) data cards listing most of the ships on the Great Lakes before year 1900, a roster of some 15,000 vessels complete with
descriptive data and highlights of the ships’ careers and their ultimate losses; and b) ship photograph negatives of 19th and 20th century
Great Lakes ships. Heritage assets also include copies of vessel ownership documents, contemporary ship photographs, books, and other
items documenting the Great Lakes history.

NOAA’s collection-type heritage assets also include items in the National Climatic Data Center Library. Heritage assets include a) books,
manuals, and slides; b) thermometers, gauges, and radiosondes; and c) laboratory equipment.

Historical artifacts are designated collection-type heritage assets if they help illustrate the social, educational, and cultural
heritage of NOAA and its predecessor agencies (Coast and Geodetic Survey, U.S. Fish Commission, the Weather Bureau, the
Institutes for Environmental Research, the Environmental Science Services Administration, etc.). These include, but are not limited
to, bells, gyrocompasses, brass citations, flags, pennants, chronometers, ship seals, clocks, compasses, fittings, miscellaneous ship
fragments, lithographic plates, barometers, rain gauges, and any items that represent the uniqueness of the mission of NOAA and
its predecessor agencies.

The NOAA Logistics Office completed a review of the NOAA National Climatic Data Center in FY 2010 and has concluded that many
items previously reported as separate items belong in an existing heritage assets collection. This resulted in a significant decrease in
collection-type heritage assets.

NIST currently maintains collection-type heritage assets under its Museum and History Program, which collects, conserves,
and exhibits artifacts, such as scientific instruments, equipment, objects, and records of significance to NIST and predecessor
agencies. This program provides institutional memory and demonstrates the contributions of NIST to the development of standards
measurement, technology, and science. The Information Services Division (ISD) maintains the historical archives, rare book
collection, and oversees the oral history program. The historical archives and rare book collection contain titles that are considered
“classics” of historical scientific interest, books by prominent contemporary scientists, and books by NIST authors or about NIST
work. Titles are recommended for inclusion by ISD staff and customers. Materials are not specifically purchased for the collection
nor are funds specifically allocated for the collection. Photos and manuscripts include images of NIST staff, facilities, and artifacts
that demonstrate NIST accomplishments.

NIST’s Museum and History Program has policies in place for acquisitions and loans. Objects are either on display or in storage
and are not used by visitors. Archives, including the historical book collection, are used according to established research library
policies and procedures. When considering artifacts for accession, the following criteria are considered:

   l	   Direct connection to NIST program activity
   l	   Direct connection to a NIST prominent person



 248
                                                  F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS




   l	   Physical size
   l	   Safety considerations

Archive material is not loaned. Artifacts are rarely loaned, but can be loaned within established policies and procedures for
educational purposes, scholarly research, and limited public exhibition to qualified institutions. The loan policy packet for these
artifacts includes an introduction to the NIST Loan Program, Borrower Checklist, Artifact Loan Request, NIST Loan Policy, Insurance
Requirements, Facilities Report, Outgoing Loan Agreement, Condition Report Form, and Outgoing Loan Process.

ISD preserves and promotes the history of NIST through a program that collects, organizes, and preserves records of enduring
value and encourages and supports their use by researchers. The policies and procedures cover such topics as submitting reference
inquiries, regulations for use of the archives collection, scope of archives collection, criteria for accepting archival material,
providing physical and bibliographic access, preservation, and reviewing the collection.

Collection-type heritage assets maintained by Census Bureau are items considered unique for their historical, cultural, educational,
technological, methodological, or artistic importance. They help illustrate the social, educational, and cultural heritage of Census
Bureau. Some items because of their age or obvious historical significance are inherently historical artifacts. Some examples of these
historical artifacts include:

1900 Hollerith Key Punch: Census Bureau clerks used the key punch during the 1900s to punch round holes into cards for tabulation
by electric tabulating machines housed at the Census Bureau. The key punch increased the speed with which clerks could transfer
data entered on census schedules to the punch cards used to tabulate census results.

Hollerith Tabulator (Dial): The Hollerith Tabulator dial was manufactured by the Tabulating Machine Company for the Census
Bureau and it has been in the agency’s possession since. The Hollerith Tabulator dial mechanically illustrated the data being read
from punched paper cards entered into the tabulator. The holes punched in cards were sensed by pins or pointers making contact
through the holes to a drum. The completion of an electric circuit through a hole advanced the counter on this dial representing
data tabulated for a specific population, economic, or agriculture inquiry on the census schedule.

Gang Punch: The Gang punch was manufactured by the Tabulating Machine Company for the Census Bureau, and it has been in
the agency’s possession since. The gang punch was used for recording facts common to a number of punch cards, such as the
month, day, year, etc. It is equipped with a number of moveable punches, which can easily be changed and set for any desired
combination. Using the gang punch, clerks could punch a number of cards at once, thus speeding the transcription of data.

Pantograph: This item was manufactured by the Tabulating Machine Company for the Census Bureau, and it has been in the
agency’s possession since. Census Bureau clerks used the pantograph, or keyboard punch, to transfer information on the census
schedule to punch cards. To operate the pantograph, the clerk guided one end of the lever over a board showing the categories
of information from the census (age, sex, place of birth, etc.) and depressed the lever at the appropriate position, punching a hole
in the punch card. With the information found on the schedule translated into punch holes on cards, the data could then be read
and the results tallied by tabulators designed to read the punch cards.

Census Bureau Enumerators Badge: The Census Bureau provided enumerators with badges during the 1900s and later censuses,
and recipients were instructed to wear them when on duty. The 1900s instructions to enumerators noted that the badge offered
additional evidence of the bearer’s authority to ask the question required by law. Furthermore, enumerators were instructed to wear
the badge attached to the vest under the coat, and to exhibit it only when it would aid the enumerator in obtaining the information.
Upon completion of the census, the Census Bureau permitted enumerators to keep the badge as a souvenir of their service.



                                                                                                                                249
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




Data Stewardship Button: The data stewardship button served as a visible reminder to employees that the Census Bureau complies
with all federal legal requirements affecting the collection, handling, and dissemination of personal and business information.
In addition, the Census Bureau believes that individuals and businesses have fundamental rights to be treated fairly and ethically
when asked to provide their personal information to the government for statistical purposes.

Steel Hand Bander: The steel hand bander is used to secure paper, boxes, and other goods to pallets, via ribbons of steel, for
shipment. The Census Bureau has used similar banders since the early 20th century to secure boxes of questionnaires, publications,
etc., for shipment to census offices throughout the United States, Puerto Rico, and the Island Areas.

Unisys Tape and Reel: It is assumed that Unisys Corporation manufactured this tape and reel in the 1980s, and it has been in the Census
Bureau’s possession since new. This tape technology, released in 1964, introduced what is now generally known as 9-track tape. The
magnetic tape is ½ inch wide, with eight data tracks and one parity track for a total of nine parallel tracks. Data is stored as 8-bit
characters, spanning the full width of the tape (including the parity bit). Various recording methods are used to place the data on tape,
depending on the tape speed and data density, including PE (phase encoding), GCR (group code recording), and NRZI (non-return-to-
zero, inverted).

Film Optical Sensing Device for Input to Computers (FOSDIC): This 1980s file cabinet-sized version of FOSDIC was manufactured by
the Census Bureau for the 1990 census and it has been in the agency’s possession since. During the 1950s, the Census Bureau and
the National Bureau of Standards developed a system called Film Optical Sensing Device for Input to Computers (FOSDIC), which
took census and survey questionnaires that had been photographed onto microfilm, read blackened dots opposite the appropriate
answers, and transferred that data to magnetic tape. These tapes constituted the input for the Census Bureau’s computers. One
important result of this process was the elimination of most discrepancies in data records sent for processing. First used to process
1960 census results, FOSDIC played an integral part in the Census Bureau’s data processing system into the mid-1990s.

Artwork and Gifts: Census Bureau’s artwork and gifts include items bequeathed to, given to, or commissioned by the agency, such
as posters, paintings, sculptures, postage stamps, photographs, antiques, memorial plaques, cultural artifacts from other statistical
agencies and countries, awards, time capsules, buttons and badges, and more.

Census Bureau has developed a Project Charter for heritage assets which has developed policy and procedures for the acquisition
and removal of Census Bureau heritage assets. If a Census Bureau employee receives a gift from a foreign government’s statistical
agency or any other agency while on official government travel, the Census Bureau employee will deliver the item to a member
of Census Bureau’s Heritage Assets Committee for review upon his or her return to Census Bureau, if the item is valued at more
than $25 dollars. The Committee will decide if the item meets the criteria for a heritage asset based on the uniqueness, historical
age, and/or if the item helps to illustrate Census Bureau’s historic contributions to the nation’s growth. If the item is deemed a
heritage asset, the applicable property management office will ensure the heritage asset is catalogued and stored in a safe, secure
environment, allowing for appropriate preservation and conservation. All necessary actions will be taken to reduce deterioration
of heritage assets due to environmental conditions, and to limit damage, loss, and misuse of heritage assets. The Committee meets
on a regular basis to determine if any heritage assets should be removed from the approved list, or if a newly arrived item should
be classified as a heritage asset. Once a determination has been made to no longer classify an item as a heritage asset, Census
Bureau will follow any applicable established policies and procedures for surplus property.




 250
                                                 F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                               NOTES TO THE FINANCIAL STATE M ENTS




(In Actual Quantities)

                                        Collection-type Heritage Assets
                                                                        Quantity of                                          Quantity of
                                                                         Items Held                                           Items Held
                                                                       September 30,              FY 2010     FY 2010       September 30,
 Category                       Description of Assets                       2009                 Additions   Withdrawals         2010
 NOAA Central Library:
    Circulating Collection      Books, journals, and other
                                publications                                        1               N/A               -               1
    Rare Book Room
    Collection                  Books and publications                              1               N/A               -               1
    Weather Bureau
    Collection                  Publications                                        1               N/A              1(a)   	         -
    Collection of Coast and   Publications acquired or issued by
    Geodetic Survey Materials the Coast and Geodetic Survey from
    from 1807 to 1970         1807 to 1970                                          1               N/A              1(a)   	         -
    Collection of photographs
    and motion pictures       Photographs and motion pictures                       1               N/A      	       -                1
    Other                       Artifacts, documents, and other
                                items                                             56                  1      	       -               57
 National Ocean Service–        Data cards, photograph negatives,
 Thunder Bay Sanctuary          document copies, photographs,
 Research Collection            books, and other items                        106,254        	         -     	       -          106,254
 National Climatic Data         Artifacts, books, documents, and
 Center Library                 other items                                     5,113                11          4,254              870
 NOAA Others                    Artifacts, artwork, books, films,
                                instruments, maps, and records                  3,732                73             17            3,788
 NIST Artifacts and             National Bureau of Standards
 Scientific Measures            (NBS)/NIST scientific instruments,
                                equipment, and objects                           343         	         -     	       -              343
 NIST Historical Books          Books of historical scientific
 and Manuscripts                interest, books by prominent
                                contemporary scientists, and
                                books by NBS/NIST authors and
                                manuscripts of NBS/NIST staff,
                                facilities, and artifacts                         61         	         -     	       -               61
 Census Bureau Artwork          Artifacts, artwork, books, films,
 and Gifts                      instruments, and records                         132         	         -     	       -              132
 Census Bureau                  Publications, books, manuscripts,
 Collectable Assets             photographs, and maps                             19         	        3      	       -               22
 Total                                                                     115,715                   88          4,273          111,530
 N/A - Not applicable; effective FY 2009, this category is reported as one collection.
 (a) Collection merged into Rare Book Room Collection.


Additional information on the condition of the above Heritage Assets is presented in the Required Supplementary Information section.




                                                                                                                                      251
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS




 252
                            F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




    C o n so l i dat i n g
    B a l a n ce
    Sheet
                              United States Department of Commerce Consolidating Balance Sheet
                              As of September 30, 2010 (In Thousands)
                                                                                                            Intra-
                                                                                          Consolidating Departmental                                  Census                                                                                                                    Franchise




F Y   2 0 1 0
                                                                                             Total      Eliminations               BIS                Bureau       DM/G&B           DM/S&E           DM/WCF                EDA                 ELGP           ESA/BEA             Fund           HCHB                   ITA               MBDA           NIPC              NIST             NOAA              NTIA               NTIS            OIG                USPTO

                              ASSETS

                              Intragovernmental:
                              Fund Balance with Treasury                                  $ 25,785,547         $	        -    $ 31,433        $ 3,116,374          $ 2,104      $ 24,513         $ 43,081          $ 1,471,675         $ 49,058           $ 15,033          $       3,397    $ 22,456          $ 115,919          $       14,408     $ 218         $ 1,418,149         $ 4,254,493      $ 13,713,515        $30,446         $ 22,843        $ 1,436,432
                              Accounts Receivable, Net                                               84,479     	 (15,877)           411                11,858      	       -            6,398              52                   447       	          -       	        -        	       -        	        -              2,313        	          -       	     -             4,921            70,395                 183         2,111             659                 608
                              Other - Advances and Prepayments                                      400,042     	 (80,625)          1,220               31,826      	       -            3,641            2,590                  805       	          -            1,554             315         	        -              6,617              640          	     -            12,866           253,480           161,239             325             561                2,988
                              Total Intragovernmental                                             26,270,068    	 (96,502)         33,064             3,160,058         2,104           34,552           45,723        1,472,927               49,058             16,587            3,712            22,456            124,849            15,048             218       1,435,936            4,578,368        13,874,937      32,882              24,063         1,440,028

                              Cash                                                                    3,616     	        -     	          -       	            -    	       -       	        -       	        -        	           -       	          -       	        -        	       -        	        -        	          -       	          -       	     -       	           -             393     	             -            23       	          -             3,200
                              Accounts Receivable, Net                                               70,780     	        -         10,092                2,620      	       -               6               11                    5        	          -               9         	       -        	        -               124               138          	     -             6,433            50,787                 13            392       	          -              150




P E R F O R M A N C E
                              Direct Loans and Loan Guarantees, Net                                 540,147     	        -     	          -       	            -    	       -       	        -       	        -             17,117         	          -       	        -        	       -        	        -        	          -       	          -       	     -       	           -         523,030     	             -     	          -    	          -       	           -
                              Inventory, Materials, and Supplies, Net                                98,326     	        -     	          -                167      	       -       	        -               3         	           -       	          -       	        -        	       -        	        -        	          -       	          -       	     -            26,865            71,261     	             -            30       	          -       	           -
                              General Property, Plant, and Equipment, Net                          7,394,711    	        -               28            180,267          7,637            1,752            3,672              1,599         	          -             586              281              6,246              2,106        	          -       	     -           695,801          6,313,899             4,166          2,274       	          -           174,397
                              Other                                                                  55,122     	        -     	          -              1,152             4                2        	       (1)                   2       	          -               4         	      (1)       	        -              2,789        	          -       	     -                  57          34,311                   1         6,623                  1            10,178




A N D
                              TOTAL ASSETS                                                $ 34,432,770 $ 	 (96,502) $ 43,184                  $ 3,344,264 $ 9,745               $       36,312   $       49,408    $ 1,491,650         $       49,058     $       17,186    $       3,992    $ 28,702          $ 129,868          $       15,186     $       218   $ 2,165,092 $ 11,572,049 $ 13,879,117 $ 42,224 $                              24,064     $ 1,627,953


                              LIABILITIES

                              Intragovernmental:
                              Accounts Payable                                            $          60,088    $	 (14,533)    $ 1,357         $          8,964     $	       -   $         807    $        1,022    $             190   $	             -   $        2,736    $        202     $	           -    $         4,242    $         284      $	        -   $         3,408     $      36,090    $         2,983     $ 7,541         $          63   $         4,732
                              Debt to Treasury                                                      517,930     	        -     	          -       	            -    	       -       	        -       	        -        	           -       	          -       	        -        	       -        	        -        	          -       	          -       	     -       	           -         517,930     	             -     	          -    	          -       	           -
                              Other
                              	      Spectrum Auction Proceeds Liability to Federal
                                      	 Communications Commission                                    33,838     	        -     	          -       	            -    	       -       	        -       	        -        	           -       	          -       	        -        	       -        	        -        	          -       	          -       	     -       	           -    	           -           33,838       	          -    	          -       	           -
                              	      Resources Payable to Treasury                                   18,899     	        -     	          -       	            -    	       -       	        -       	        -             17,442         	          -       	        -        	       -        	        -        	          -       	          -       	     -       	           -           1,457     	             -     	          -    	          -       	           -
                              	      Unearned Revenue                                               373,921     	 (80,625)          2,389              138,831      	       -            6,602           29,185             63,458         	          -       	        -            1,314        	        -              1,039              179          	     -            96,744            58,382            42,034           6,747            1,819               5,823
                              	      Other                                                          104,344     	   (1,344)         9,035               27,525      	       -            1,274            1,453                  532       	          -             742                4                 6               3,741              624          	     -             7,097            37,338                 780           412             272               14,853




A C C O U N T A B I L I T Y
                              Total Intragovernmental                                              1,109,020    	 (96,502)         12,781              175,320      	       -            8,683           31,660             81,622         	          -            3,478            1,520                6               9,022             1,087         	     -           107,249           651,197            79,635       14,700               2,154              25,408

                              Accounts Payable                                                      402,605     	        -          2,026              147,001      	       -            1,129            4,501              1,311         	          -             894               61               225               4,476              666          	     -            24,883           142,472              1,242          4,703            1,633              65,382
                              Loan Guarantee Liabilities                                                565     	        -     	          -       	            -    	       -       	        -       	        -        	           -       	          -       	        -        	       -        	        -        	          -       	          -       	     -       	           -             565     	             -     	          -    	          -       	           -
                              Federal Employee Benefits                                             769,035     	        -          3,003               97,492      	       -            1,804            4,803              1,323         	          -             424               30                 8               7,874             2,701         	     -             9,578           628,350              1,837          1,208             301                8,299
                              Environmental and Disposal Liabilities                                 54,649     	        -     	          -       	            -    	       -       	        -       	        -        	           -       	          -       	        -        	       -        	        -        	          -       	          -       	     -            48,598             6,051     	             -     	          -    	          -       	           -




R E P O R T
                              Other
                              	      Accrued Payroll and Annual Leave                               561,154     	        -          5,318               92,309      	       -            4,946           11,160              3,818                    3            7,597             138                32              30,913              991          	     -            45,753           181,244              6,301          1,661            3,480             165,490
                              	      Accrued Grants                                                 766,204     	        -     	          -       	            -    	       -       	        -       	        -            487,483         	          -       	        -        	       -        	        -              2,843             3,234         	     -            78,639            77,462           116,543       	          -    	          -       	           -
                              	      Capital Lease Liabilities                                         9,278    	        -     	          -       	            -    	       -       	        -       	        -        	           -       	          -       	        -        	       -        	        -        	          -       	          -       	     -       	           -           9,278     	             -     	          -    	          -       	           -
                              	      Unearned Revenue                                               958,474     	        -          4,133                2,686      	       -       	        -       	        -                    7       	          -       	        -        	       -        	        -             14,722        	          -       	     -            23,408            37,847                 274         4,528       	          -           870,869
                              	      Other                                                           49,181     	        -               79             27,055      	       -               1        	        -                  512       	          -       	       (1)       	       -        	       (1)            10,696                   1       	     -              234             10,406     	            (1)    	          -    	          -              200

                              TOTAL LIABILITIES                                           $ 4,680,165 $ 	 (96,502) $ 27,340                   $        541,863 $ 	          -   $       16,563   $       52,124    $       576,076     $              3   $       12,392    $       1,749    $         270     $        80,546    $        8,680     $	        -   $       338,342 $ 1,744,872 $               205,831 $ 26,800 $                 7,568     $ 1,135,648


                              NET POSITION                                                    	            -    	        -     	          -       	            -    	       -       	        -       	        -        	           -       	          -       	        -        	       -        	        -        	          -       	          -       	     -       	           -    	           -    	             -     	          -    	          -       	           -

                              Unexpended Appropriations                                       	            -    	        -     	          -       	            -    	       -       	        -       	        -        	           -       	          -       	        -        	       -        	        -        	          -       	          -       	     -       	           -    	           -    	             -     	          -    	          -       	           -
                              	      Unexpended Appropriations - Earmarked Funds          $ 4,099,319          $	        -    $	          -   $	               -   $	       -   $	           -   $	           -    $	              -   $	             -   $	           -    $	          -    $	           -    $	             -   $	             -   $	        -   $	              -   $	           -   $ 4,099,319         $	          -   $	          -   $	              -
                              	      Unexpended Appropriations - All Other Funds                  8,782,873     	        -         22,112             2,407,026     	       -           20,630       	        -            918,197             49,055              8,592        	       -            22,194             78,649            10,256             218       1,106,825            4,081,930           40,741       	          -        16,448         	           -
                              Cumulative Results of Operations
                              	      Cumulative Results of Operations - Earmarked Funds           10,189,816    	        -     	          -       	            -    	       -       	        -       	        -        	           -       	          -       	        -        	       -        	        -              4,159        	          -       	     -       	           -         144,032          9,533,896      15,424          	          -           492,305
                              	      Cumulative Results of Operations - All Other Funds            6,680,597    	        -     	 (6,268)               395,375          9,745       	    (881)       	 (2,716)         	    (2,623)        	          -       	 (3,798)             2,243             6,238        	 (33,486)         	   (3,750)        	     -           719,925          5,601,215    	        (670)      	          -              48       	           -

                              TOTAL NET POSITION                                          $ 29,752,605 $ 	               -    $ 15,844        $ 2,802,401 $ 9,745               $       19,749   $ 	 (2,716) $             915,574     $       49,055     $        4,794    $       2,243    $ 28,432          $        49,322    $        6,506     $       218   $ 1,826,750 $ 9,827,177 $ 13,673,286 $ 15,424 $                               16,496     $       492,305

                              TOTAL LIABILITIES AND NET POSITION                          $ 34,432,770 $ 	 (96,502) $ 43,184                  $ 3,344,264 $ 9,745               $       36,312   $       49,408    $ 1,491,650         $       49,058     $       17,186    $       3,992    $ 28,702          $ 129,868          $       15,186     $       218   $ 2,165,092 $ 11,572,049 $ 13,879,117 $ 42,224 $                              24,064     $ 1,627,953


                              See accompanying independent auditors’ report.




             255
                                                                                                                                                                                                                                                                                                                                                                                                                                                                            CONSOLIDATING BALANCE SHEET
CONSOLIDATING BALANCE SHEET




 256
                         F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




    R eq u i r e d
    S u ppl e m e n ta r y
    I n fo r m at i o n
    (UNAUDITED)
                                                 R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




Required Supplementary Information (unaudited)

A	 Deferred Maintenance
Deferred maintenance is maintenance that was not performed when it should have been, that was scheduled and not performed,
or that was delayed for a future period. Maintenance is the act of keeping property, plant, and equipment (PP&E) in acceptable
operating condition and includes preventive maintenance, normal repairs, replacement of parts and structural components,
and other activities needed to preserve the asset so that it can deliver acceptable performance and achieve its expected life.
Maintenance excludes activities aimed at expanding the capacity of an asset or otherwise upgrading it to serve needs different
from or significantly greater than those originally intended. Critical maintenance is defined as those projects where the required
maintenance will have a critical impact on the public access, functionality and mission support, health and safety, and life cycle
cost of a facility if the maintenance is not performed. The significant portions of Departmental deferred maintenance relate to the
PP&E of both NOAA and NIST (see below for abbreviations). These two entities represent 95 percent of the Department’s General
PP&E, Net balance as of September 30, 2010.

National Oceanic and Atmospheric Administration (NOAA):

NOAA uses the Condition Assessment Survey (CAS) method to identify and quantify deferred maintenance for assets meeting
NOAA’s $200 thousand capitalization threshold. The CAS method employs a periodic inspection of real property and heritage
assets to determine its current condition and to estimate costs to correct any deficiencies. Estimated costs reflect potential costs
variance of +/- 10 percent.

The following shows NOAA’s deferred maintenance for projects with estimated costs greater than $50 thousand, as of
September 30, 2010:

                     (In Thousands)

                                                                                    Estimated Cost to Return
                              PP&E Category               Asset Condition
                                                                                    to Acceptable Condition
                      Buildings and Structures                   4                 $    5,486   to   $    6,706
                      Heritage Assets                           4, 3                   11,756   to       14,369
                      Total                                                        $ 17,242     to   $ 21,075


NOAA has established a facility condition code to classify the condition of the Buildings and Structures. Each Building
and Structure is assessed an individual facility condition code. The average of the individual facility condition codes
determines the CAS Asset Condition. The CAS method for Buildings and Structures is based on a five-point scale, with
1 representing excellent condition; 2 – good condition; 3 – fair condition; 4 – poor condition; and 5 – very poor condition.
The amounts reported represent non-critical maintenance to bring the assets to good condition. The CAS method for
heritage assets is based on the same five-point scale as the Buildings and Structures. Acceptable condition is considered
to be those assets rated in good or excellent condition. There is an annual call each year to the NOAA components,
requesting their submissions of new projects and updates to existing unfunded projects to reflect changes in requirements
or costs.




                                                                                                                              259
F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




National Institute of Standards and Technology (NIST):

NIST also uses the CAS method to estimate deferred maintenance. NIST values the condition of assets using a five-point scale,
with 1 representing excellent condition; 2 – good condition; 3 – acceptable condition; 4 – poor condition; and 5 – very poor
condition. Assets that are assessed at 4 or 5 require repairs and maintenance to increase their value to 3, or acceptable condition.
The following shows NIST’s deferred maintenance as of September 30, 2010:

                 (In Thousands)

                                                                                       Estimated Cost to Return
                             PP&E Category                   Asset Condition
                                                                                       to Acceptable Condition
                 Mechanical and Electrical Devices                   5               $ 318,400 to      $   428,200
                 Buildings (Internal Structures)                     4                     25,300 to        34,200
                 Buildings (External Structures)                     4                     44,400 to        55,700

                 Total                                                               $ 388,100 to $ 518,100



B	 Stewardship Marine Sanctuaries, Marine National Monuments, and Conservation Area
NOAA maintains the following sanctuaries, marine national monuments, and conservation area, which are similar in nature to
stewardship land and which are more fully described in Note 23, Stewardship Property, Plant, and Equipment, of the Notes to the
Financial Statements.

National Marine Sanctuaries: These protected waters provide a secure habitat for species close to extinction, and also protect
historically significant shipwrecks and prehistoric artifacts. Each of the 13 individual sanctuary sites, which include near-shore
coral reefs and open ocean, conducts research and monitoring activities to characterize existing resources and document changes.
The waters and resources of the National Marine Sanctuaries are generally in good condition, though some specific resources
(e.g. certain coral reefs, some commercial and recreational fisheries, and some benthic habitats) are threatened.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef habitats located in U.S. waters surround the
Northwestern Hawaiian Islands (NWHI). The Papahãnaumokuãkea Marine National Monument, located off the coast of the NWHI,
encompasses nearly 140,000 square miles of U.S. waters, including approximately 5,200 square miles of relatively undisturbed
coral reef habitat that is home to more than 7,000 species. The condition of the Papahãnaumokuãkea Marine National Monument
is good, but the Monument does face emerging threats.

Rose Atoll Marine National Monument: The atoll includes the Rose Atoll National Wildlife Refuge. It also includes about 20 acres
of land and 1,600 acres of lagoon and is one of the most pristine atolls in the world. The areas around the atoll support a dynamic
reef ecosystem that is home to many land and marine species, many of which are threatened or endangered. The condition of the
Rose Atoll Marine National Monument is good.

Marianas Trench Marine National Monument: The Marianas Trench Marine National Monument consists of approximately 95,000
square miles of submerged lands and waters of the Mariana Archipelago. It includes three units: the Islands Unit, the waters
and submerged lands of the three northernmost Mariana Islands; the Volcanic Unit, the submerged lands within 1 nautical mile
of 21 designated volcanic sites; and the Trench Unit, the submerged lands extending from the northern limit of the Exclusive
Economic Zone of the United States in the Commonwealth of the Northern Mariana Islands (CNMI) to the southern limit of the
Exclusive Economic Zone of the United States in the Territory of Guam. The condition of the Marianas Trench Marine National
Monument is good.


 260
                                                   F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




Pacific Remote Islands Marine National Monument: The Pacific Remote Islands area consists of Wake, Baker, Howland, and Jarvis
Islands, Johnston Atoll, Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. With the exception of Wake
Island, these islands are administered as National Wildlife Refuges by the U.S. Fish and Wildlife Service of the Department of the
Interior. They sustain many endemic species including corals, fish, shellfish, marine mammals, seabirds, water birds, land birds,
insects, and vegetation not found elsewhere. The condition of the Pacific Remote Islands Marine National Monument is good.

Aleutian Islands Habitat Conservation Area: This conservation area in Alaska, which covers nearly 370,000 square miles, may harbor
among the highest diversity of deep-water corals in the world, and protects habitat for deep water corals and other sensitive
features that are slow to recover once disturbed by fishing gear or other activities. The condition of the Aleutian Islands Habitat
Conservation Area is generally good, although some specific resources are threatened. For example, the conservation area contains
six small areas of fragile coral gardens.


C	 Collection-type Heritage Assets
NOAA’s collection-type heritage assets are comprised primarily of books, journals, publications, photographs and motion pictures,
manuscripts, records, nautical chart plates, and artifacts. Many of these heritage assets are maintained by the NOAA Central Library
(Library). As evidenced by a search of international catalogs, 35 to 50 percent of the Library’s collection is unique. Historically,
40 percent of the items catalogued are not found anywhere else. The Library has an extensive collection of historical Coast
and Geodetic Survey materials (from 1807) and Weather Bureau materials (from the 1830s), including foreign and historical
meteorological data, information on instruments, and metadata.

NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary Research Collection, composed primarily of
a) data cards listing most of the ships on the Great Lakes before 1900, a roster of some 15,000 vessels complete with descriptive
data and highlights of the ships’ careers and their ultimate losses; and b) ship photograph negatives of 19th and 20th century
Great Lakes ships.

NOAA’s collection-type heritage assets also include items in the National Climatic Data Center Library. Heritage assets include a) books,
manuals, and slides; b) thermometers, gauges, and radiosondes; and c) laboratory equipment.

NOAA uses the Condition Assessment Survey (CAS) method to describe the condition of its assets. The CAS method is based on a
five-point scale with 1 representing excellent condition; 2 – good condition; 3 – fair condition; 4 – poor condition; and 5 – very
poor condition. Assets with the condition assessment level between 1 through 3 are defined as being suitable for public display.
The books, journals, and other publications that make up the majority of the NOAA Central Library collection-type heritage assets
are in 4 – poor condition, and 5 – very poor condition. The heritage assets of the Thunder Bay Sanctuary Research Collection are
in 2 – good condition, and the heritage assets of the National Climatic Data Center Library are generally in 3 – fair condition.

NIST currently maintains the Museum and History Program, which collects, conserves, and exhibits artifacts such as scientific
instruments, equipment, objects and records of significance to NIST and the National Bureau of Standards (NBS). This program
provides institutional memory and demonstrates the contributions of NIST to the development of standards, measurement,
technology, and science. Conditions of these artifacts are listed in the Registrar’s database and are generally fair.

NIST Information Services Division (ISD) maintains the historical archives, rare book collection, and oversees the oral history
program. The historical collection contains titles that are considered “classics” of historical scientific interest, books by prominent
contemporary scientists, and books by NIST authors or about NIST work. Materials are not specifically purchased for the collection
nor are funds specifically allocated for the collection. Conditions of these books are generally fair. The photos and manuscripts




                                                                                                                                   261
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




maintained include images of NIST staff, facilities, and artifacts that demonstrate NIST accomplishments. These images are in
good condition.

Heritage assets at the Census Bureau are items considered unique for their historical, cultural, educational, technological,
methodological, or artistic importance. These assets help illustrate the social, educational, and cultural heritage of the Census
Bureau. Some items, because of their age or obvious historical significance, are inherently historical artifacts. These historical
artifacts include but are not limited to: Hollerith Key Punch, Hollerith Tabulator, Gang Punch, Pantograph, Census Enumerators
Badge, Steel Hand Bander, Unisys Tape and Reel, Film Optical Sensing Device, and any items which represent the uniqueness of the
mission of the Census Bureau. The heritage assets at the Census Bureau are classified as generally being in good condition.


D	 Schedule of Budgetary Resources by Major Budget Account
The following table illustrates the Department’s FY 2010 budgetary resources by major budget account. The “Other Programs”
column refers to the Department’s reporting entities and their budget accounts that are not listed.




 262
                                               F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                              United States Department of Commerce Schedule of Budgetary Resources by Major Budget Account
                              For the Year Ended September 30, 2010 (In Thousands)
                                                                                                                                                                                                                                                                            NTIA      NTIA Digital-     NOAA




F Y   2 0 1 0
                                                                                                                                                            NOAA             NTIA Digital                                                                 Census Bureau Broadboand     to-Analog    Procurement,
                                                                                                                   NOAA                 USPTO           Procurement,          Television        ITA       Census Bureau                                      Periodic    Technology    Converter    Acquisition,
                                                                                                                Operations,             Salaries        Acquisition,        Transition and   Operations      Periodic                          EDA         Censuses and Opportunities     Box            and
                                                                                              Combining        Research, and              and                and             Public Safety      and        Censuses and                       Grant         Programs -    Program -    Program - Construction -                     Other
                                                                                                Total            Facilities            Expenses         Construction             Fund      Administration    Programs                         Fund         Recovery Act Recovery Act Recovery Act Recovery Act                    Programs

                              BUDGETARY RESOURCES:
                              Unobligated Balance, Brought Forward, October 1             $ 16,595,856         $        168,805    $        118,692     $        105,529    $       8,696,735   $        11,200   $         28,896    $        353,040 $   899,562        $ 4,592,703        $ 161,054        $       280,199    $ 1,179,441
                              Adjustments to Unobligated Balance, Brought Forward          	         -             	          -        	          -         	          -        	           -       	         -       	          -        	          -   	       -         	        -          	      -           	         -     	        -
                              Recoveries of Prior-years Unpaid Obligations                     240,438                   21,108              19,796                6,155                2,575             9,060             10,327              30,793       2,947                141            85,806           	         -         51,730
                              Budget Authority
                              	 Appropriations                                                    14,322,512           3,382,294       	           -            1,358,353            196,613            446,766           6,965,707            309,000      	         -       	         -        	        -       	          -        1,663,779
                              	 Borrowing Authority                                                   78,375       	           -       	           -        	           -       	          -        	         -       	           -       	          -      	         -       	         -        	        -       	          -           78,375




P E R F O R M A N C E
                              	 Spending Authority From Offsetting Collections
                              		 Earned
                              			 Collected                                                        3,796,640            238,310            2,101,227                 239                  21          20,287                 1,317              18,050              679               459        	        -       	          -        1,416,051
                              			 Change in Receivables                                               37,895             39,357                  248        	          -        	          -        	 (1,803)         	          -        	          -      	         -       	      (235)       	        -       	          -              328




A N D
                              		 Change in Unfilled Customer Orders
                              			 Advances Received                                                   8,453        	    (10,151)       	     (25,788)       	           -       	           -               570       	           -       	     (6,770)     	         -       	         -        	        -       	          -           50,592
                              			 Without Advances                                                  193,858             123,109        	           -        	           -       	           -             7,151       	           -       	           -     	         -       	         -        	        -       	          -           63,598
                              			 Anticipated for Rest of Year, Without Advances              	           -        	          -        	           -        	           -       	           -       	         -       	           -       	           -     	         -       	         -        	        -       	          -    	           -
                              		 Previously Unavailable                                               2,716        	          -        	           -        	           -       	           -       	         -       	           -       	           -     	         -       	         -        	        -       	          -            2,716
                              Total Budget Authority                                          18,440,449           3,772,919           2,075,687            1,358,592                196,634        472,971           6,967,024               320,280              679              224          	       -        	          -     3,275,439
                              Nonexpenditure Transfers, Net                                       140,391             109,038          	       -            	   (1,358)         	          -          4,990           	        -          	     (1,882)     	        -        	        -         	       -        	          -         29,603
                              Temporarily Not Available Pursuant to Public Law                	   (52,543)         	        -          	 (52,543)           	        -          	          -        	     -           	        -          	           -     	        -        	        -         	       -        	          -    	         -
                              Permanently Not Available                                       	  (802,255)         	  (19,701)         	       -            	 (26,000)          	         (1)       	  (522)          	 (131,152)                    1      	        -        	 (302,000)        	(239,500)       	          -    	   (83,380)
                              TOTAL BUDGETARY RESOURCES                                   $ 34,562,336         $ 4,052,169         $ 2,161,632          $ 1,442,918         $ 8,895,943         $ 497,699         $ 6,875,095         $       702,232 $         903,188   $ 4,291,068        $        7,360   $ 280,199          $ 4,452,833


                              STATUS OF BUDGETARY RESOURCES:
                              Obligations Incurred
                              	 Direct                                                    $ 18,982,517         $ 3,460,737         $	           -       $ 1,392,711         $          54,059   $    458,200      $ 5,012,516         $        630,800 $    903,185       $ 4,288,050        $        1,258   $        279,217   $ 2,501,784
                              	 Reimbursable                                                 3,423,294              379,109             1,938,958        	        -             	           -         19,131       	        -                    9,917   	        -        	        -            	        -       	          -     1,076,179




A C C O U N T A B I L I T Y
                              Total Obligations Incurred                                   22,405,811            3,839,846             1,938,958          1,392,711                   54,059        477,331         5,012,516                 640,717      903,185          4,288,050                 1,258           279,217      3,577,963
                              Unobligated Balance
                              	 Apportioned                                                        2,651,510             160,436          222,674                  33,655              97,381            12,561         1,850,183            61,515                  3              3,018          6,102                  982           203,000
                              	 Exempt From Apportionment                                            577,107       	           -       	        -           	           -       	           -       	         -       	         -         	       -         	        -        	         -        	     -          	         -           577,107
                              Total Unobligated Balance                                           3,228,617             160,436          222,674                  33,655              97,381            12,561        1,850,183             61,515                   3              3,018          6,102                  982          780,107
                              Unobligated Balance Not Available                                    8,927,908              51,887       	        -                  16,552           8,744,503             7,807            12,396         	       -         	        -        	         -        	     -          	         -            94,763




R E P O R T
                              TOTAL STATUS OF BUDGETARY RESOURCES                         $ 34,562,336         $ 4,052,169         $ 2,161,632          $ 1,442,918         $ 8,895,943         $ 497,699         $ 6,875,095         $       702,232 $         903,188   $ 4,291,068        $        7,360   $ 280,199          $ 4,452,833

                              CHANGE IN UNPAID OBLIGATED BALANCE, NET:
                              Unpaid Obligated Balance, Net, Brought Forward, October 1
                              	 Unpaid Obligations, Brought Forward                       $      8,334,646     $ 2,028,825         $       331,249      $ 1,111,134         $         533,392 $    89,218         $       872,166     $      967,153 $     77,063 $       4,945 $ 101,389                     $      176,754     $ 2,041,358
                              	 Less: Uncollected Customer Payments, Brought Forward          	   (292,365)     	 (206,975)                    525       	         -            	           -   	 (9,324)             	         -         	         -  	        -   	      (235)  	       -                       	        -      	 (76,356)
                              Total Unpaid Obligated Balance, Net, Brought Forward              8,042,281        1,821,850                331,774         1,111,134                  533,392      79,894                 872,166            967,153       77,063          4,710   101,389                           176,754        1,965,002
                              Obligations Incurred                                              22,405,811        3,839,846              1,938,958         1,392,711                   54,059     477,331               5,012,516            640,717      903,185     4,288,050       1,258                          279,217        3,577,963
                              Less: Gross Outlays                                             	(17,098,925)     	(3,570,825)           	(1,953,366)      	(1,234,110)           	     (30,608)  	(467,635)            	(5,228,711)        	 (292,513)  	 (942,187)  	 (123,720)   	 (16,624)                      	(124,306)      	(3,114,320)
                              Less: Actual Recoveries of Prior-years Unpaid Obligations       	 (240,438)       	 (21,108)             	 (19,796)        	    (6,155)           	      (2,575)  	 (9,060)             	 (10,327)          	 (30,793)   	   (2,947)  	      (141)  	 (85,806)                      	        -      	 (51,730)
                              Change in Uncollected Customer Payments                         	 (231,753)       	 (162,466)            	      (248)      	         -            	           -   	 (5,348)             	         -         	         -  	        -           235   	       -                       	        -      	 (63,926)
                              Total Unpaid Obligated Balance, net, End of Period          $ 12,876,976         $ 1,907,297         $        297,322     $ 1,263,580         $        554,268    $       75,182    $        645,644    $ 1,284,564 $              35,114   $ 4,169,134        $         217    $ 331,665          $ 2,312,989
                              Unpaid Obligated Balance, Net, End of Period
                              	 Unpaid Obligations                                        $ 13,401,094         $ 2,276,738         $        297,045     $ 1,263,580         $        554,268    $      89,854     $        645,644    $ 1,284,564 $              35,114   $ 4,169,134        $          217   $       331,665    $ 2,453,271
                              	 Less: Uncollected Customer Payments                         	 (524,118)         	 (369,441)                     277      	        -             	          -        	 (14,672)        	          -      	       -   	                 -    	        -            	        -       	         -     	 (140,282)
                              TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD          $ 12,876,976         $ 1,907,297         $        297,322     $ 1,263,580         $        554,268    $       75,182    $        645,644    $ 1,284,564 $              35,114   $ 4,169,134        $         217    $ 331,665          $ 2,312,989

                              NET OUTLAYS:
                              Gross Outlays                                               $ 17,098,925         $ 3,570,825         $ 1,953,366          $ 1,234,110         $         30,608 $ 467,635            $ 5,228,711         $     292,513 $   942,187 $   123,720 $ 16,624                          $       124,306    $ 3,114,320
                              Less: Offsetting Collections                                  	 (3,805,093)       	 (228,159)         	(2,075,439)         	     (239)            	        (21) 	 (20,857)           	   (1,317)            	 (11,280)  	    (679)  	    (459) 	     -                              	         -     	(1,466,643)
                              Less: Distributed Offsetting (Receipts)/Outlays, Net          	    (28,541)       	        -          	         -          	        -             	          -  	       -            	        -             	        -  	       -   	       -  	     -                              	         -     	 (28,541)
                              NET OUTLAYS                                                 $ 13,265,291         $ 3,342,666         $ 	 (122,073)        $ 1,233,871         $         30,587    $ 446,778         $ 5,227,394         $       281,233 $         941,508   $       123,261    $       16,624   $ 124,306          $ 1,619,136




             263
                                                                                                                                                                                                                                                                                                                                                  R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )
R e q u i r e d s upp l e m e n t a r y i n f o r m a t i o n ( u n a u d i t e d )




 264
                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




    R eq u i r e d
    S u ppl e m e n ta r y
    S t e wa r d s h i p
    I n fo r m at i o n
    (UNAUDITED)
                         REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




Required Supplementary Stewardship
Information (unaudited)
Stewardship Investments

Stewardship investments are substantial investments made by the federal government for the benefit of the nation, but are not
physical assets owned by the federal government. Though treated as expenses when incurred to determine the Department’s Net
Cost of Operations, these items merit special treatment so that users of federal financial reports know the extent of investments
that are made for the long-term benefit of the nation.

Investments in Non-federal Physical Property:

Non-federal physical property investments are expenses included in the Department’s Net Cost of Operations for the purchase,
construction, or major renovation of physical property owned by state and local governments. Based on a review of the Department’s
programs, NOAA and EDA have significant investments in non-federal physical property.

NOAA:

     National Estuarine Research Reserves (NERR): The NERR system consists of 27 estuarine reserves protected by federal,
     state, and local partnerships that work to preserve and protect the nation’s estuaries. The NERR system helps to fulfill
     NOAA’s stewardship mission to sustain healthy coasts by improving the nation’s understanding and stewardship of
     estuaries. Estuarine reserves are the areas where freshwater from rivers meet the ocean. These areas are known as bays,
     swamps, sloughs, and sounds. These important coastal habitats are used as spawning grounds and nurseries for the nation’s
     commercial fish and shellfish. Estuaries filter much of the polluted runoff from rivers and streams that would otherwise
     contaminate oceans. The reserves were created with the passage of the Coastal Zone Management Act of 1972, and, as of
     September 30, 2010, encompassed approximately 1.3 million acres of estuarine waters, wetlands, and uplands. The newest
     reserve, Mission-Aransas, TX, was designated on May 3, 2006. NERRs are state-operated and managed in cooperation with
     NOAA. NOAA’s investments in non-federal physical property are for the acquisition of lands and development or construction
     of facilities, auxiliary structures, and public access routes for any NERR site.

     Coastal and Estuarine Land Conservation Program: This program was established under the Commerce, Justice, and State
     Appropriations Act of 2002, “for the purpose of protecting important coastal and estuarine areas that have significant
     conservation, recreation, ecological, historical, or aesthetic values, or that are threatened by conversion from their natural
     or recreational state to other uses.” The investments in non-federal physical property include matching grants awarded to
     state and local governments for land acquisition in coastal and estuarine areas. Since FY 2002, matching grants have been
     directed to 176 such projects.

     Coastal Zone Management Fund: The Coastal Zone Management Program is authorized by the Coastal Zone Management Act
     of 1972, and administered at the federal level by NOAA’s Office of Ocean and Coastal Resource Management. The investments
     in non-federal physical property include incidental expenses of land acquisition, and low-cost construction on behalf of
     various state and local governments, for the purpose of preservation or restoration of coastal resources and habitats. NOAA’s
     financing supports various coastal states in their redevelopment of deteriorating and urbanized waterfronts and ports, as
     well as providing for public access to beaches and coastal areas. The state and local governments receive funding for these




                                                                                                                             267
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




       investments through NOAA grant expenditures, and these grant expenditures also include funding for purposes other than the
       investments in non-federal physical property. There is currently not in place a mechanism for the state and local governments
       to determine and report to NOAA the amount of monies they expend for the investments in non-federal physical property.
       The Department, accordingly, cannot report the amount of investments in non-federal physical property for the Coastal Zone
       Management Fund.

       NOAA’s investments in non-federal physical property for FY 2006 through FY 2010 were as follows:
       (In Millions)

                            Program                          FY 2006      FY 2007     FY 2008      FY 2009      FY 2010             Total
        National Estuarine Research Reserves                 $     6.8    $   11.6    $    11.8    $    11.7    $    14.7       $      56.6
        Coastal and Estuarine Land Conservation Program           18.5        34.7         28.1         21.6         32.4             135.3
        Total                                               $     25.3    $   46.3    $   39.9     $   33.3     $   47.1        $     191.9


EDA:

       Public Works: The Public Works program promotes long-range economic development in distressed areas by providing
       investments for vital public infrastructure and development facilities. These critical investments enable communities to
       attract new, or support existing, businesses that will generate new jobs and income for unemployed and underemployed
       residents. Among the types of projects funded are water, sewer, fiber optics, access roads, and facilities such as industrial and
       business parks, business incubator and skill training facilities, and port improvements.

       Economic and Defense Adjustments: The Economic and Defense Adjustments program provides flexible investments for communities
       facing sudden or severe economic distress to diversify and stabilize its economy. Factors that seriously threaten the economic
       survival of local communities include essential plant closures, military base closures or realignments, defense laboratory or
       contractor downsizings, natural resource depletion, out-migration, under-employment, and destructive impacts of foreign trade.

       Global Climate Change Mitigation Incentive Fund (GCCMIF): The GCCMIF program was established to strengthen the linkage
       between economic development and environmental quality. The purpose and mission of the GCCMIF program is to finance
       projects that foster economic development by advancing the green economy in distressed communities. The GCCMIF
       program is the development and use of products and services that contribute to economic growth and alleviate economic
       distress by respecting and revitalizing the environment. The GCCMIF program supports projects that create jobs through, and
       increase private capital investment in, efforts to limit the nation’s dependence on fossil fuels, enhance energy efficiency, curb
       greenhouse gas emissions, and protect natural systems.

       Disaster Recovery: The Disaster Recovery program awards grants for the repair of infrastructure and economic development
       related facilities damaged by floods and other natural disasters. Funding for the Disaster Recovery program is generally
       through supplemental funding from Congress for recovery efforts to save, sustain, and preserve private enterprise and job
       creation in economically distressed communities.




 268
                                                  F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
                           REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     EDA’s investments in non-federal physical property for FY 2006 through FY 2010 were as follows:
     (In Millions)

                            Program                          FY 2006      FY 2007      FY 2008     FY 2009   FY 2010       Total
       Public Works                                          $ 180.1      $ 155.5      $ 133.5     $ 139.9   $ 175.8   $     784.8
       Economic and Defense Adjustments                           53.1         53.5         60.0      68.6      61.4         296.6
       Global Climate Change Mitigation Incentive Fund              -             -           -        0.2      32.4          32.6
       Disaster Recovery                                          24.2           4.4         1.8       6.3       5.5          42.2
       Total                                                 $ 257.4      $ 213.4      $ 195.3     $ 215.0   $ 275.1   $ 1,156.2

     The above investments require matching funds by state and local governments of 20 to 50 percent.

Investments in Human Capital:

Human capital investments are expenses, included in the Department’s Net Cost of Operations, for education and training programs
that are intended to increase or maintain national economic productive capacity and produce outputs and outcomes that provide
evidence of the constant or increasing national productive capacity. These investments exclude education and training expenses
for federal civilian and military personnel. Based on a review of the Department’s programs, the most significant dollar investments
in human capital are by NOAA.

NOAA:

     National Sea Grant College Program: Sea Grant is a nationwide network, administered through NOAA, of 32 university-
     based programs that work with coastal communities. With the adoption in 1966 of the National Sea Grant College Act,
     Congress established an academic/industry/government partnership that would enhance the nation’s education, economy,
     and environment into the 21st century. The program supports activities designed to increase public awareness of coastal,
     ocean, and Great Lakes issues, to provide information to improve management decisions in coastal, ocean, and Great Lakes
     policy, and to train graduate students in marine and Great Lakes science. The Knauss Fellowship Program offers qualified
     masters and doctoral students the opportunity to spend a year working on marine and Great Lakes policy issues with
     the Executive and Legislative branches of the federal government. There is also a Graduate Fellowship Program for Ph.D.
     candidates in the specialized areas of population dynamics and marine resource economics. Participants in this program can
     receive up to three years of funding.

     National Estuarine Research Reserve Program: This program supports activities designed to increase public awareness of
     estuary issues, provide information to improve management decisions in estuarine areas, and train graduate students in
     estuarine science. The National Estuarine Research Reserve System’s Graduate Research Fellowship (GRF) Program offers
     qualified masters and doctoral students the opportunity to address scientific questions of local, regional, and national
     significance. The result is high-quality research focused on improving coastal management issues. All GRF projects must be
     conducted in a National Estuarine Research Reserve and enhance the scientific understanding of the reserve’s ecosystem.
     The program awarded 53 fellowships in FY 2009. In FY 2010, 50 fellowships were awarded.

     Educational Partnership Program: The NOAA Educational Partnership Program (EPP) with Minority Serving Institutions (MSI)
     provides financial assistance through competitive processes to minority serving institutions that support research and training
     of students in NOAA-related sciences. The program’s goal is to increase the number of trained and graduated students from
     underrepresented communities in science and technology directly related to NOAA’s mission. The EPP/MSI also seeks to




                                                                                                                               269
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   increase collaborative research efforts between NOAA scientists and researchers at minority serving academic institutions.
   Financial assistance is provided through four competitive program components: the Cooperative Science Centers, the
   Environmental Entrepreneurship Program, the Graduate Sciences Program, and the Undergraduate Scholars Program.

   NOAA provides funding to eligible MSIs on a competitive basis to educate, train, and graduate students in NOAA sciences,
   particularly atmospheric, oceanic, environmental, living marine resources, remote sensing, and scientific environmental
   technology. NOAA EPP Cooperative Science Centers’ goals are to:

       l	   Train and graduate students, particularly from underrepresented communities, in NOAA mission sciences;
       l	   Develop expertise in a NOAA scientific area;

            •	   Strengthen and build capacity in a NOAA scientific and management area

            •	   Build research experience in a NOAA scientific and management area
       l	   Increase graduation rates of students from underrepresented communities in NOAA mission sciences;
       l	   Impact NOAA workforce statistics by increasing representation from underrepresented communities in NOAA mission
            sciences; and
       l	   Leverage NOAA funds to build the education and research capacity at MSIs.

   The EPP/MSI Environmental Entrepreneurship Program (EEP) provides funding to eligible minority serving institutions on a
   competitive basis to engage students to pursue advanced academic study and entrepreneurship opportunities in the NOAA-
   related sciences. NOAA’s EEP supports student training and experiential learning opportunities for the purpose of stimulating
   job creation and business development, and revitalizing local communities. EEP’s objective is to increase the number of
   students at MSIs proficient in environmental business enterprises.

   The Graduate Sciences Program (GSP) is aimed primarily at increasing opportunities for students in NOAA-related fields to
   pursue research and educational training in atmospheric, environmental, remote sensing, and oceanic sciences at MSIs when
   possible. The GSP offers between two years (master’s candidates) to four years (doctoral students) of NOAA-related research
   and training opportunities. The GSP provides college graduates entry-level employment and hands-on research and work
   experience at NOAA. Nine students were selected to participate in the GSP in FY 2009. The program added six students in
   FY 2010.

   The Undergraduate Scholarship Program is designed to increase the number of students who undertake course work and
   graduate with degrees in the targeted areas integral to NOAA’s mission. Appointments are for two years, and are made
   to students who have recently declared or are about to declare a major in atmospheric, oceanic, or environmental science.
   The students participate in research, training, and development activities at NOAA offices and facilities during two summer
   internships. 10 students started the program in FY 2009. The program added 10 students in FY 2010

   Ernest F. Hollings Undergraduate Scholarship Program: This program was established in 2005 to (1) increase undergraduate
   training in oceanic and atmospheric science, research, technology, and education, and foster multidisciplinary training
   opportunities; (2) increase public understanding and support for stewardship of the ocean and atmosphere and improve
   environmental literacy; (3) recruit and prepare students for public service careers with NOAA and other agencies at the federal,
   state, and local levels of government; and (4) recruit and prepare students for careers as teachers and educators in oceanic and
   atmospheric science and to improve scientific and environmental education in the U.S. There were 112 students that started the
   program in 2008. 122 students started the program in FY 2009. The program added 139 students in FY 2010.



 270
                                                 F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                             REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     The Educational Partnership Program and the Ernest F. Hollings Undergraduate Scholarship Program are both administered by
     the NOAA Office of Education. As a result of the Deepwater Horizon oil spill, the impact suffered by the Office of Education’s
     scholarship programs was due to a lack of NOAA mentors in the various labs and offices across NOAA. Many of NOAA’s
     scientists were called to the Gulf region during the summer which was the same time the scholarship recipients started their
     internships. Some internships were cancelled and the students were reassigned new mentors and some interns were able
     to work on samples/data retrieved from the Gulf. The oil spill provided a different type of learning opportunity for some of
     our students which has significantly affected their career paths and choices. The students’ involvement included analyzing
     samples/data, caring for displaced fowl, and contemplating solutions for the clean-up.

     Southeast Fisheries Science Center’s Recruiting Training Research Program: This is a joint program between NMFS and
     Virginia Tech to: (1) recruit top undergraduates into the field of fisheries population dynamics and careers with NMFS;
     (2) train graduate students; and (3) conduct population dynamics and stock assessment research in support of the NMFS
     mission. The program also offers graduate courses and workshops in computer programming, simulation modeling, and fish
     population dynamics. In both 2009 and 2010, 15 undergraduate students from across the country participated in a week-
     long undergraduate workshop, 8 students participated in a six-week summer program, and 3 M.S. students were supported
     by the program at Virginia Tech. In 2011, the program is expected to operate at a similar scale.

     The following table summarizes NOAA’s investments in human capital for FY 2006 through FY 2010:

     (In Millions)

                              Program                         FY 2006       FY 2007      FY 2008         FY 2009    FY 2010     Total
       National Sea Grant College Program                     $ 	 0.7       $ 	 0.5      $ 	 0.5         $ 	 0.7    $ 	 0.9   $ 	    3.3
       National Estuarine Research Reserve Program               	 0.9          	 0.8         	 0.8        	 1.0      	 1.3     	    4.8
       Educational Partnership Program                           	13.9          	14.2         	12.8        	15.0      	14.3     	   70.2
       Ernest F. Hollings Undergraduate Scholarship
       Program                                                   	 3.8          	 4.1         	 3.6        	 3.6      	 4.6     	   19.7
       Southeast Fisheries Science Center’s Recruiting
       Training Research Program                                 	     1        	    1        	   1        	 0.4      	 0.5     	    0.9
       Total                                                  $ 	19.3      $ 	19.6       $ 	17.7         $ 	20.7    $ 	21.6   $ 	 98.9
       1	   Not applicable


     The following table further summarizes NOAA’s human capital investments for FY 2006 to FY 2010 by performance goal:

     (In Millions)

                         Performance Outcome                         FY 2006        FY 2007           FY 2008      FY 2009     FY 2010
       Protect, Restore, and Manage the Use of Coastal and
       Ocean Resources                                               $ 	 19.3       $ 	 19.6          $ 	 17.7     $ 	 20.7   $ 	 21.6




                                                                                                                                     271
F Y   2 0 1 0    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




Investments in Research and Development (R&D):

Investments in R&D are expenses that are included in the Department’s Net Cost of Operations. The investments are divided into three
categories: (1) basic research, the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena
and of observable facts without specific applications toward processes or products in mind; (2) applied research, the systematic study
to gain knowledge or understanding necessary for determining the means by which a recognized and specific need may be met; and
(3) development, the systematic use of the knowledge and understanding gained from research for the production of useful materials,
devices, systems, or methods, including the design and development of prototypes and processes. The investments are made with
the expectation of maintaining or increasing national economic productive capacity, or yielding other future economic or societal
benefits. Based on a review of the Department’s programs, the only significant investments in R&D are by NIST and NOAA.

NIST:

     NIST Laboratories Program:

     NIST Laboratories have been the stewards of the nation’s measurement infrastructure since their inception in 1901 as the
     National Bureau of Standards. NIST Laboratories foster scientific and technological leadership by helping the U.S. to drive
     and take advantage of the increased pace of technological change, fostering more efficient transactions in the domestic and
     global marketplace, and addressing other critical needs assigned to NIST by the Administration and Congress. In support of
     the President’s Plan for Science and Innovation, NIST develops and disseminates measurement techniques, reference data, test
     methods, standards, and other infrastructural technologies and services required by U.S. industry, government, and academia to
     compete in the 21st century. NIST laboratories promote innovation, facilitate trade, and ensure public safety and security by
     strengthening the nation’s measurement and standards infrastructure.

     The American Recovery and Reinvestment Act of 2009 included $250 million (including transfers from the Department of Health
     and Human Services and Department of Energy) in funding for NIST laboratory research, measurements, and other services
     supporting economic growth and U.S. innovation through funding of such items as competitive grants, research fellowships,
     advanced measurement equipment and supplies, standards-related research that supports the security and interoperability of
     electronic medical records to reduce health care costs and improve the quality of care, and development of a comprehensive
     framework for a nationwide, fully interoperable smart grid for the U.S. electric power system. This funding will result in
     additional R&D investments for the NIST Laboratories Program.

     Advanced Technology Program (ATP)/Technology Innovation Program (TIP):

     ATP is a cost-shared funding program for businesses that was intended to develop new technologies for commercial use. ATP
     was abolished by the America COMPETES Act, which was signed into law by President Bush on August 9, 2007. This same Act
     established TIP, which supports, promotes, and accelerates innovation in the United States by offering cost-shared funding
     for high-risk, high-reward research in areas of critical national need.

     Critical national need areas in TIP are those for which government attention is demanded because the magnitude of the
     problem is large and the societal challenges that need to be overcome are not being addressed. TIP was explicitly established
     within NIST to assist U.S. small- and medium-size businesses, institutes of higher education, national laboratories, and non-
     profit research organizations to conduct high-risk, high-reward research that has the potential for yielding transformational
     results with wide-reaching implications, and that is within NIST’s areas of technical competence. The America COMPETES Act
     statute allows for continued support for previously awarded ATP projects and new TIP awards.




 272
                                                F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                              REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     The following table summarizes NIST’s R&D investments for FY 2006 through FY 2010 by R&D Category:

     (In Millions)

                                                                            Advanced Technology Program/
                                        NIST Laboratories                   Technology Innovation Program                                         Total

                          FY           FY       FY       FY       FY      FY       FY          FY         FY         FY       FY          FY       FY        FY        FY
       R&D Category      2006         2007     2008     2009     2010    2006     2007        2008       2009       2010     2006        2007     2008      2009      2010

      Basic Research     $    85.2 $ 110.7 $ 132.8 $ 144.9 $ 162.0 $            - $        - $       - $        - $        - $    85.2 $ 110.7 $ 132.8 $ 144.9 $ 162.0

      Applied Research       345.8     345.3    381.0   378.5    395.9     58.0       31.0       23.2      25.0       26.2       403.8    376.3    404.2      403.5    422.1

      Development             16.7      15.3     14.4     15.4    15.3     58.0       30.9       23.2      25.1       26.2        74.7     46.2     37.6       40.5     41.5

      Total              $ 447.7 $ 471.3 $ 528.2 $ 538.8 $ 573.2 $ 116.0 $ 61.9 $ 46.4 $ 50.1 $ 52.4 $ 563.7 $ 533.2 $ 574.6 $ 588.9 $ 625.6



     The following tables further summarize NIST’s R&D investments for FY 2006 through FY 2010 by performance outcome.

     (In Millions)

                                                                            FY 2010
                                                                                              Basic               Applied
                                     Performance Outcome                                                                          Development              Total
                                                                                             Research             Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s                 	
       Measurements and Standards Infrastructure                                           $ 	162.0             $ 	395.9            $ 	15.3           $     573.2
       Technology Innovation Program: Promote U.S. Competitiveness
       by Directing Federal Investment and R&D into Areas of Critical
       National Need that Support, Promote, and Accelerate High-risk,                  	
       High-reward Research in the United States.                                          $ 	       -          $ 26.2              $ 	26.2           $      52.4
       Total                                                                               $ 	162.0             $ 	422.1            $ 	41.5           $ 625.6


     (In Millions)

                                                                           FY 20091
                                                                                              Basic               Applied
                                     Performance Outcome                                                                          Development              Total
                                                                                             Research             Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s                 	
       Measurements and Standards Infrastructure                                           $ 	144.9             $ 	378.5            $ 	15.4           $     538.8
       Technology Innovation Program: Promote U.S. Competitiveness
       by Directing Federal Investment and R&D into Areas of Critical
       National Need that Support, Promote, and Accelerate High-risk,                  	
       High-reward Research in the United States.                                          $ 	       -          $ 	 25.0            $ 	25.1           $      50.1
       Total                                                                               $ 	144.9             $ 	403.5            $ 	40.5           $ 588.9




                                                                                                                                                               273
F Y   2 0 1 0   P E R F O R M A N C E          A N D    A C C O U N T A B I L I T Y     R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   (In Millions)

                                                                   FY 2008
                                                                                  Basic        Applied
                             Performance Outcome                                                              Development              Total
                                                                                 Research      Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s       	
       Measurements and Standards Infrastructure                                 $ 	132.8      $ 	381.0          $ 	14.4           $     528.2
       Advanced Technology Program: Accelerate Private Investment in
       and Development of High-risk, Broad-impact Technologies                     	    -           	 23.2          	23.2                 46.4
       Total                                                                     $ 	132.8      $ 	404.2          $ 	37.6           $ 574.6


   (In Millions)

                                                                   FY 2007
                                                                                  Basic        Applied
                             Performance Outcome                                                              Development              Total
                                                                                 Research      Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s       	
       Measurements and Standards Infrastructure                                 $ 	110.7      $ 	345.3          $ 	15.3           $     471.3
       Advanced Technology Program: Accelerate Private Investment in
       and Development of High-risk, Broad-impact Technologies                     	    -           	 31.0          	30.9                 61.9
       Total                                                                     $ 	110.7      $ 	376.3          $ 	46.2           $ 533.2


   (In Millions)

                                                                   FY 2006
                                                                                  Basic        Applied
                             Performance Outcome                                                              Development              Total
                                                                                 Research      Research
       NIST Laboratories: Promote Innovation, Facilitate Trade, and
       Ensure Public Safety and Security by Strengthening the Nation’s       	
       Measurements and Standards Infrastructure                                 $ 	 85.2      $ 	 345.8         $ 	 16.7          $     447.7
       Advanced Technology Program: Accelerate Private Investment in
       and Development of High-risk, Broad-impact Technologies                     	    -           	 58.0          	 58.0               116.0
       Total                                                                     $ 	85.2       $ 	 403.8         $ 	 74.7          $     563.7



NOAA:

   NOAA conducts a substantial program of environmental R&D in support of its mission, much of which is performed to improve
   the United States’ understanding of and ability to predict environmental phenomena. The scope of research includes:

       l	   Improving predictions and warnings associated with the weather, on timescales ranging from minutes to weeks;
       l	   Improving predictions of climate, on timescales ranging from months to centuries;




 274
                                                 F Y   2 0 1 0   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y       R E P O R T
                         REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




      l	   Improving understanding of natural relationships to better predict and manage renewable marine resources and coastal
           and ocean ecosystems.

     NOAA also conducts research that is intended to provide a solid scientific basis for environmental policy-making in government.
     Examples of this research include determining the stratospheric ozone-depleting potential of proposed substitutes for
     chlorofluorocarbons (CFCs), and identifying the causes of the episodic high rural ozone levels that significantly damage crops
     and forests.

     NOAA conducts most R&D in-house; however, contractors to NOAA undertake most systems R&D. External R&D work
     supported by NOAA includes that undertaken through federal-academic partnerships such as the National Sea Grant College
     Program, the Cooperative Institutes of the Environmental Research Laboratories, the Climate and Global Change Program,
     and the Coastal Ocean Program.

     Here is a brief description of the major R&D programs of NOAA:

     Environmental and Climate: The Office of Oceanic and Atmospheric Research is NOAA’s primary research and development
     office. This office conducts research in three major areas: climate research; weather and air quality research; and ocean,
     coastal, and Great Lakes research. NOAA’s research laboratories, Climate Program Office, and research partners conduct a
     wide range of research into complex climate systems, including the exploration and investigation of ocean habitats and
     resources. NOAA’s research organizations conduct applied research on the upper and lower atmosphere as well as the space
     environment.

     Fisheries: NOAA’s National Marine Fisheries Service (NMFS) is responsible for the conservation and management of living
     marine resources and their habitat within the Nation’s Exclusive Economic Zone. NMFS manages these resources through
     science-based conservation and management to ensure their continuation as functioning components of productive
     ecosystems, while also affording economic opportunities and enhancing the quality of life for the American public. Fishery
     stocks and protected species are surveyed; catch, bycatch, incidental take, economic and social data are collected, and research
     is conducted to better understand the variables affecting the abundance and variety of marine fishes and protected species,
     their habitat, and the benefits they provide to society. Protection of endangered species, restoration of coastal and estuarine
     fishery habitats, and enforcement of fishery regulations are primary NOAA activities. The research and management of living
     marine resources is conducted in partnership with states, tribes, universities, other countries, international organizations, and
     a broad range of stakeholders who benefit from the use and existence of living marine resources and their habitat.

     Marine Operations and Maintenance and Aircraft Services: These efforts support NOAA’s programs requiring operating days
     and flight hours to collect data at sea and in the air. NOAA’s Marine and Aviation Operations manage a wide variety of
     specialized aircraft and ships to complete NOAA’s environmental and scientific missions. The aircraft collect the environmental
     and geographic data essential to NOAA hurricane and other weather and atmospheric research, conduct aerial surveys for
     hydrologic research to help predict flooding potential from snowmelt, and provide support to NOAA’s fishery research and
     marine mammal assessment programs. NOAA’s ship fleet provides oceanographic and atmospheric research and fisheries
     research vessels to support NOAA’s strategic plan elements and mission.

     Weather Service: The National Weather Service conducts applied research and development, building upon research conducted
     by NOAA laboratories and the academic community. Applied meteorological and hydrological research is integral to providing
     more timely and accurate weather, water, and climate services to the public.




                                                                                                                                275
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   Other Programs: As a national lead for coastal stewardship, National Ocean Service promotes a wide range of research
   activities to create the strong science foundation required to advance the sustainable use of precious coastal systems.
   Understanding of the coastal environment is enhanced through coastal ocean activities that support science and resource
   management programs. The National Environmental Satellite Data and Information Service, through its Office of Research
   and Applications, conducts atmospheric, climatological, and oceanic research into the use of satellite data for monitoring
   environmental characteristics and their changes. It also provides guidance for the development and evolution of spacecraft
   and sensors to meet future needs.

   NOAA’s R&D investments by program for FY 2006 through FY 2010 were as follows:

   (In Millions)

                          Program                     FY 2006         FY 2007         FY 2008            FY 2009           FY 2010         Total
       Environmental and Climate                  $      324.2    $      289.3    $      331.2       $      337.0      $       344.1   $    1,625.8
       Fisheries                                          56.3            49.3            53.6                55.7              59.9          274.8
       Marine Operations and Maintenance and
       Aircraft Services                                  50.7            51.1            51.5                38.4              34.3          226.0
       Weather Service                                    15.1            40.8            56.7                58.4              53.9          224.9
       Others                                            124.1           120.2           111.1              103.8              102.0          561.2
       Total                                      $      570.4    $      550.7   $       604.1       $      593.3      $       594.2   $ 2,912.7



   The following table summarizes NOAA’s R&D investments for FY 2006 through FY 2010 by R&D category:

   (In Millions)

                     R&D Category                     FY 2006         FY 2007         FY 2008            FY 2009           FY 2010         Total
       Applied Research                           $      523.1    $      475.7    $      517.6       $      491.3      $       452.4   $    2,460.1
       Development                                        47.3            75.0            86.5              102.0              141.8          452.6
       Total                                      $      570.4    $      550.7   $       604.1       $      593.3      $       594.2   $ 2,912.7



   The following tables further summarize NOAA’s R.D investments for FY 2006 through FY 2010 by performance outcome.

   (In Millions)

                                                                   FY 2010
                                                                                                 Applied
                                    Performance Outcome                                                              Development           Total
                                                                                                 Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                       $       218.4        $ 	      6.8     $     225.2
       Advance Understanding of Climate Variability and Change                                           125.1             	 84.0            209.1
       Provide Accurate and Timely Weather and Water Information                                         108.0             	 48.4            156.4
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                            0.9             	   2.6             3.5
       Total                                                                                     $ 452.4              $ 	141.8         $     594.2




 276
                                                F Y   2 0 1 0    P E R F O R M A N C E     A N D         A C C O U N T A B I L I T Y       R E P O R T
                         REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




     (In Millions)

                                                                   FY 2009
                                                                                            Applied
                                    Performance Outcome                                                 Development       Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                  $   211.5    $ 	    8.1   $     219.6
       Advance Understanding of Climate Variability and Change                                  140.4       	 60.5          200.9
       Provide Accurate and Timely Weather and Water Information                                138.9       	 32.7          171.6
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                   0.5       	   0.7           1.2
       Total                                                                                $ 491.3      $ 	102.0     $    593.3


     (In Millions)

                                                                   FY 2008
                                                                                            Applied
                                    Performance Outcome                                                 Development       Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources                  $   229.8    $ 	 11.4     $     241.2
       Advance Understanding of Climate Variability and Change                                  145.9       	 35.7          181.6
       Provide Accurate and Timely Weather and Water Information                                140.3       	 39.2          179.5
       Support Safe, Efficient, and Environmentally Sound Commercial Navigation                   1.6       	 0.2             1.8
       Total                                                                                $ 517.6      $ 	86.5      $    604.1


     (In Millions)

                                                                   FY 2007
                                                                                            Applied
                                    Performance Outcome                                                 Development       Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources Through an
       Ecosystem Approach to Management                                                     $   225.9    $ 	 12.3     $     238.2
       Understand Climate Variability and Change to Enhance Society’s Ability to Plan
       and Respond                                                                              145.9       	 12.3          158.2
       Serve Society’s Needs for Weather and Water Information                                  101.6       	 50.2          151.8
       Support the Nation’s Commerce with Information for Safe, Efficient, and
       Environmentally Sound Transportation                                                       2.3       	 0.2             2.5
       Total                                                                                $ 475.7      $ 	75.0      $    550.7




                                                                                                                              277
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
REQ U IRED S U P P LE M ENTARY STEWARDSHI P INFOR M ATION ( u n a u d i t e d )




   (In Millions)

                                                                   FY 2006
                                                                                            Applied
                                    Performance Outcome                                                   Development              Total
                                                                                            Research
       Protect, Restore, and Manage the Use of Coastal and Ocean Resources Through an
       Ecosystem-based Management                                                           $    250.7       $ 	 14.0          $     264.7
       Understand Climate Variability and Change to Enhance Society’s Ability to Plan
       and Respond                                                                               160.2          	 12.3               172.5
       Serve Society’s Needs for Weather and Water Information                                   109.0          	 20.9               129.9
       Support the Nation’s Commerce with Information for Safe, Efficient, and
       Environmentally Sound Transportation                                                        3.2          	 0.1                  3.3
       Total                                                                                $ 523.1          $ 	47.3           $     570.4




 278
                                                 F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y       R E P O R T
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




    I n d e pe n d e n t
    A u d i to r s ’
    Report
                                                                               NOTES TO THE FINANCIAL STATE M ENTS
                                                                                   I n d e p e n d e n t Au d i t o r s ’ R e p o r t




            November 12, 2010

            MEMORANDUM FOR:                     The Honorable Gary Locke
                                                The Secretary of Commerce



            FROM:                               Todd J. Zinser

            SUBJECT:                            FY 2010 Consolidated Financial Statements
                                                Final Report No. 11-010-FS

            I am pleased to provide you with the attached audit report, which presents an unqualified opinion
            on the Department of Commerce’s fiscal year 2010 consolidated financial statements. KPMG LLP,
            an independent public accounting firm, performed the audit in accordance with U.S. generally
            accepted government auditing standards and Office of Management and Budget Bulletin 07-04,
            Audit Requirements for Federal Financial Statements, as amended.

            In its audit of the Department, KPMG found

            •    that the financial statements were fairly presented in all material respects and in conformity
                 with U.S. generally accepted accounting principles;

            •    one significant deficiency related to weaknesses in controls over the Department’s financial
                 management systems, which was not considered a material weakness in internal control; and

            •    no instances of reportable noncompliance with applicable laws, regulations, contracts, and
                 grant agreements; and

            •    no instances in which the Department’s financial management systems did not substantially
                 comply with the requirements of the Federal Financial Management Improvement Act of 1996.

            My office oversaw the audit performance. We reviewed KPMG’s report and related
            documentation and made inquiries of its representatives. Our review disclosed no instances where
            KPMG did not comply, in all material respects, with U.S. generally accepted government auditing
            standards. However, our review cannot be construed as an audit in accordance with these
            standards; it was not intended to enable us to express—nor do we express—any opinion on the
            Department’s consolidated financial statements, conclusions about the effectiveness of internal
            controls, or conclusions on compliance with laws, regulations, contracts, and grant agreements.
            KPMG is solely responsible for the attached audit report, dated November 10, 2010, and the
            conclusions expressed in the report.




                                                                                                                                281
F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




          An audit action plan is not required to address the significant deficiency reported by KPMG. We
          have asked the Chief Information Officer to provide a plan that addresses the related specific
          recommendations included in the separate, limited-distribution information technology general
          controls report (report no. 11-010-IT) in accordance with Department Administrative Order 213-5,
          Audit Resolution and Follow-up.

          If you wish to discuss the contents of this report, please call me at (202) 482-4661, or Ann C.
          Eilers, Principal Assistant Inspector General for Audit and Evaluation, at (202) 482-2754.

          We appreciate the cooperation and courtesies the Department extended to both KPMG and my
          staff during the audit.


          Attachment


          cc:    Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration
                 Simon Szykman, Chief Information Officer




 282
                                           F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                    NOTES TO THE FINANCIAL STATE M ENTS
                                                                                                        I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                                                 KPMG LLP
                                                 2001 M Street, NW
                                                 Washington, DC 20036-3389




                                                INDEPENDENT AUDITORS’ REPORT


                  Inspector General, U.S. Department of Commerce and
                  Secretary, U.S. Department of Commerce:

                  We have audited the accompanying consolidated balance sheets of the U.S. Department
                  of Commerce (Department) as of September 30, 2010 and 2009, and the related
                  consolidated statements of net cost and changes in net position, and combined statements
                  of budgetary resources (hereinafter referred to as consolidated financial statements) for
                  the years then ended. The objective of our audits was to express an opinion on the fair
                  presentation of these consolidated financial statements. In connection with our fiscal year
                  2010 audit, we also considered the Department’s internal controls over financial reporting
                  and tested the Department’s compliance with certain provisions of applicable laws,
                  regulations, contracts, and grant agreements that could have a direct and material effect
                  on these consolidated financial statements.

                  Summary

                  As stated in our opinion on the consolidated financial statements, we concluded that the
                  Department’s consolidated financial statements as of and for the years ended
                  September 30, 2010 and 2009, are presented fairly, in all material respects, in conformity
                  with U.S. generally accepted accounting principles.

                  Our consideration of internal control over financial reporting resulted in identifying
                  certain deficiencies, related to weaknesses in the Department’s general information
                  technology controls, that we consider to be a significant deficiency as defined in the
                  Internal Control Over Financial Reporting section of this report. We did not identify any
                  deficiencies in internal control over financial reporting that we consider to be material
                  weaknesses as defined in the Internal Control Over Financial Reporting section of this
                  report.
                  The results of our tests of compliance with certain provisions of laws, regulations,
                  contracts, and grant agreements disclosed no instances of noncompliance or other matters
                  that are required to be reported herein under Government Auditing Standards, issued by
                  the Comptroller General of the United States, and Office of Management and Budget
                  (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
                  amended.




                                                   KPMG LLP is a Delaware limited liability partnership,
                                                   the U.S. member firm of KPMG International Cooperative
                                                   (“KPMG International”), a Swiss entity.




                                                                                                                                                     283
F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y                        R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




              The following sections discuss our opinion on the Department’s consolidated financial
              statements; our consideration of the Department’s internal controls over financial
              reporting; our tests of the Department’s compliance with certain provisions of applicable
              laws, regulations, contracts, and grant agreements; and management’s and our
              responsibilities.

              Opinion on the Consolidated Financial Statements

              We have audited the accompanying consolidated balance sheets of the U.S. Department
              of Commerce as of September 30, 2010 and 2009, and the related consolidated
              statements of net cost and changes in net position, and the combined statements of
              budgetary resources for the years then ended.

              In our opinion, the consolidated financial statements referred to above present fairly, in
              all material respects, the financial position of the U.S. Department of Commerce as of
              September 30, 2010 and 2009, and its net costs, changes in net position, and budgetary
              resources for the years then ended, in conformity with U.S. generally accepted
              accounting principles.

              The information in the Management’s Discussion and Analysis, Required Supplementary
              Stewardship Information, and Required Supplementary Information sections is not a
              required part of the consolidated financial statements, but is supplementary information
              required by U.S. generally accepted accounting principles. We have applied certain
              limited procedures, which consisted principally of inquiries of management regarding the
              methods of measurement and presentation of this information. However, we did not audit
              this information and, accordingly, we express no opinion on it.

              Our audits were conducted for the purpose of forming an opinion on the consolidated
              financial statements taken as a whole. The September 30, 2010 consolidating balance
              sheet on page 255 is presented for purposes of additional analysis of the consolidated
              balance sheet rather than to present the financial position of the Department’s bureaus
              individually. The September 30, 2010 consolidating balance sheet has been subjected to
              the auditing procedures applied in the audit of the consolidated financial statements and,
              in our opinion, is fairly stated, in all material respects, in relation to the
              September 30, 2010 consolidated balance sheet taken as a whole. The information in the
              FY 2010 Performance Section, Appendices, and the information on pages VI through XI
              are presented for purposes of additional analysis and are not required as part of the
              consolidated financial statements. This information has not been subjected to auditing
              procedures and, accordingly, we express no opinion on it.

              Internal Control Over Financial Reporting

              A deficiency in internal control exists when the design or operation of a control does not
              allow management or employees, in the normal course of performing their assigned
              functions, to prevent, or detect and correct misstatements on a timely basis. A material
              weakness is a deficiency, or a combination of deficiencies, in internal control such that




 284
                                          F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS
                                                                                  I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                   there is a reasonable possibility that a material misstatement of the entity’s financial
                   statements will not be prevented, or detected and corrected on a timely basis.
                   Our consideration of the internal control over financial reporting was for the limited
                   purpose described in the Responsibilities section of this report and was not designed to
                   identify all deficiencies in internal control over financial reporting that might be
                   deficiencies, significant deficiencies, or material weaknesses. In our fiscal year 2010
                   audit, we did not identify any deficiencies in internal control over financial reporting that
                   we consider to be material weaknesses, as defined above. However, we identified the
                   following deficiency relating to the Department’s financial management systems,
                   summarized below, and in more detail in Exhibit I, that we consider to be a significant
                   deficiency in internal control over financial reporting. A significant deficiency is a
                   deficiency, or a combination of deficiencies, in internal control that is less severe than a
                   material weakness, yet important enough to merit attention by those charged with
                   governance.
                       Information technology access and configuration management controls. We
                       found that although the Department has taken corrective actions to address certain
                       information technology (IT) control weaknesses, access and configuration
                       management control weaknesses still exist. Despite the positive efforts made by
                       the Department to implement effective management, operational, and technical
                       controls to help establish sound information security practices over financial
                       management systems, the Department needs to make continued improvement in
                       its IT access and configuration management controls to fully ensure that financial
                       data being processed on the Department’s systems has integrity, is securely
                       maintained, and is available only to authorized users.

                   Exhibit II presents the status of the prior year significant deficiency.

                   We noted certain additional matters that we reported to management of the Department in
                   two separate documents addressing information technology and other internal control
                   matters, respectively.

                   Compliance and Other Matters

                   The results of certain of our tests of compliance as described in the Responsibilities
                   section of this report, exclusive of those referred to in the Federal Financial Management
                   Improvement Act of 1996 (FFMIA), disclosed no instances of noncompliance or other
                   matters that are required to be reported herein under Government Auditing Standards or
                   OMB Bulletin No. 07-04, as amended.

                   The results of our tests of FFMIA disclosed no instances in which the Department’s
                   financial management systems did not substantially comply with the (1) Federal financial
                   management systems requirements, (2) applicable Federal accounting standards, and
                   (3) the United States Government Standard General Ledger at the transaction level.

                                                             *******




                                                                                                                               285
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




              Responsibilities

              Management’s Responsibilities. Management is responsible for the consolidated
              financial statements; establishing and maintaining effective internal control; and
              complying with laws, regulations, contracts, and grant agreements applicable to the
              Department.

              Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year
              2010 and 2009 consolidated financial statements of the Department based on our audits.
              We conducted our audits in accordance with auditing standards generally accepted in the
              United States of America; the standards applicable to financial audits contained in
              Government Auditing Standards, issued by the Comptroller General of the United States;
              and OMB Bulletin No. 07-04, as amended. Those standards and OMB Bulletin No. 07-
              04, as amended, require that we plan and perform the audits to obtain reasonable
              assurance about whether the consolidated financial statements are free of material
              misstatement. An audit includes consideration of internal control over financial reporting
              as a basis for designing audit procedures that are appropriate in the circumstances, but not
              for the purpose of expressing an opinion on the effectiveness of the Department’s internal
              control over financial reporting. Accordingly, we express no such opinion.

              An audit also includes:

                 Examining, on a test basis, evidence supporting the amounts and disclosures in the
                  consolidated financial statements;
                 Assessing the accounting principles used and significant estimates made by
                  management; and
                 Evaluating the overall consolidated financial statement presentation.

              We believe that our audits provide a reasonable basis for our opinion.

              In planning and performing our fiscal year 2010 audit, we considered the Department’s
              internal control over financial reporting by obtaining an understanding of the
              Department’s internal control, determining whether internal controls had been placed in
              operation, assessing control risk, and performing tests of controls as a basis for designing
              our auditing procedures for the purpose of expressing our opinion on the consolidated
              financial statements, but not for the purpose of expressing an opinion on the effectiveness
              of the Department’s internal control over financial reporting. Accordingly, we do not
              express an opinion on the effectiveness of the Department’s internal control over
              financial reporting. We did not test all internal controls relevant to operating objectives as
              broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

              As part of obtaining reasonable assurance about whether the Department’s fiscal year
              2010 consolidated financial statements are free of material misstatement, we performed
              tests of the Department’s compliance with certain provisions of laws, regulations,




 286
                                            F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS
                                                                                  I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                   contracts, and grant agreements, noncompliance with which could have a direct and
                   material effect on the determination of the consolidated financial statement amounts, and
                   certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, as
                   amended, including the provisions referred to in Section 803(a) of FFMIA. We limited
                   our tests of compliance to the provisions described in the preceding sentence, and we did
                   not test compliance with all laws, regulations, contracts, and grant agreements applicable
                   to the Department. However, providing an opinion on compliance with laws, regulations,
                   contracts, and grant agreements was not an objective of our audit and, accordingly, we do
                   not express such an opinion.

                                                ______________________________

                   The Department’s response to the significant deficiency identified in our audit is
                   presented in Exhibit I. We did not audit the Department’s response and, accordingly, we
                   express no opinion on it.

                   This report is intended solely for the information and use of the Department’s
                   management, the Department’s Office of Inspector General, OMB, the U.S. Government
                   Accountability Office, and the U.S. Congress and is not intended to be and should not be
                   used by anyone other than these specified parties.



                   November 10, 2010




                                                                                                                               287
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                U.S. Department of Commerce
                Independent Auditors’ Report
                Exhibit I – Significant Deficiency

                Information Technology Access and Configuration Management Controls Need
                Improvement (Repeat Condition Since 1998)

                For many years, the U.S. Department of Commerce (the Department) Office of Inspector
                General (OIG), and departmental self-assessments have identified weaknesses in the
                Department’s information technology (IT) and financial systems controls. As at many
                federal entities, information security is recognized as a top management challenge for the
                Department. During our fiscal year (FY) 2010 assessment of the Department’s IT general
                and financial systems controls, performed in support of the FY 2010 consolidated
                financial statement audit, we found that there is continued emphasis on implementing
                minimum security requirements for Federal information systems that are recommended
                by the National Institute of Standards and Technology (NIST). We also noted that the
                bureaus and the Department took steps to implement management, operational, and
                technical controls to help establish sound information security practices and address
                known weaknesses.

                Despite continued progress, during our FY 2010 audit, we identified weaknesses in IT
                access and configuration management controls. Our FY 2010 IT assessment was focused
                on the IT general controls over the Department’s major financial management systems
                and supporting network infrastructure, using GAO’s Federal Information System
                Controls Audit Manual (FISCAM). The two FISCAM IT general control review areas,
                which we consider collectively to be a significant deficiency in internal control, as
                defined by the American Institute of Certified Public Accountants, and our related
                findings, are as follows:

                   Access controls. In close concert with an organization’s security management, access
                    controls for general support systems and financial systems should provide reasonable
                    assurance that computer resources such as data files, application programs, and
                    computer-related facilities and equipment are protected against unauthorized
                    modification, disclosure, loss, or impairment. Access controls are facilitated by an
                    organization’s entity-wide security program. Such controls include physical controls
                    and logical controls.

                    The objectives of limiting access are to ensure that users have only the access needed
                    to perform their duties; that access to very sensitive resources, such as security
                    software programs, is limited to very few individuals; and that employees are
                    restricted from performing incompatible functions or functions beyond their
                    responsibility. This is reiterated by Federal guidelines. For example, OMB Circular
                    A-130 and supporting NIST Special Publications provide guidance related to the
                    maintenance of technical access controls. In addition, the Department of Commerce
                    IT Security Program Policy and Minimum Implementation Standards contain many
                    requirements for operating Department IT devices in a secure manner.

                    During FY 2010, we noted that access controls should be improved at all bureaus and
                    at the Department level, primarily in the areas of: (1) managing user accounts to




 288
                                           F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS
                                                                                  I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                    U.S. Department of Commerce
                    Independent Auditors’ Report
                    Exhibit I – Significant Deficiency, Continued

                        appropriately disable and recertify network, financial system, and database accounts,
                        (2) improving logical controls over financial application, database, and network
                        access, (3) strengthening password controls, (4) restricting data center access and
                        improving data center procedures, (5) granting system roles and privileges on the
                        principle of least privilege, (6) monitoring user actions through audit trails that are
                        established in compliance with established baselines, (7) enforcing multi-factor
                        authentication, (8) preventing the use of shared accounts and passwords, (9) CIRT
                        contractors not receiving annual incident response training, and (10) strengthening
                        remote access controls. We recognize that the Department and its bureaus have
                        certain compensating controls in place to help reduce the risk of the identified
                        vulnerabilities, and we have considered such compensating controls as part of our
                        overall consolidated financial statement audit.

                       Configuration management. Configuration management involves the identification
                        and management of security features for all hardware, software, and firmware
                        components of an information system at a given point and systematically controls
                        configuration changes throughout the system’s life cycle. Establishing controls over
                        modifications to information system components and related documentation helps to
                        ensure that only authorized systems and related program modifications are
                        implemented. This is accomplished by instituting policies, procedures, and techniques
                        to help ensure that hardware, software and firmware programs and program
                        modifications are properly authorized, tested, and approved, and that access to and
                        distribution of programs is carefully controlled. Without proper controls, there is a
                        risk that security features could be inadvertently or deliberately omitted or turned off,
                        or that processing irregularities or malicious code could be introduced into the IT
                        environment.

                        Effective configuration management prevents unauthorized changes to information
                        system resources and provides reasonable assurance that systems are configured and
                        operating securely and as intended. Without effective configuration management,
                        users do not have adequate assurance that the system and network will perform as
                        intended and to the extent needed to support missions.

                        During FY 2010, we noted that configuration management controls should be
                        improved at seven bureaus in the areas of: (1) patch and configuration management
                        vulnerabilities exist, (2) configuration and change management procedures need
                        improvement, (3) implementing documented and approved configuration
                        management policy and procedures, (4) vulnerability scans not being performed at the
                        defined frequency, and (5) audit configuration settings not complying with approved
                        baselines..

                    Recommendations

                    Specific recommendations are included in a separate limited distribution IT general
                    controls report, issued as part of the FY 2010 consolidated financial statement audit. The




                                                                                                                               289
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                U.S. Department of Commerce
                Independent Auditors’ Report
                Exhibit I – Significant Deficiency, Continued

                Department should monitor bureau actions to ensure effective implementation of our
                recommendations.

                Management’s Response

                The Department agrees with KPMG’s findings, conclusions, and recommendations
                regarding improvements to its general information technology controls. We are in the
                process of finalizing corrective action plans to address KPMG’s recommendations.




 290
                                          F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                              NOTES TO THE FINANCIAL STATE M ENTS
                                                                                  I n d e p e n d e n t Au d i t o r s ’ R e p o r t




                    U.S. Department of Commerce
                    Independent Auditors’ Report
                    Exhibit II – Status of Prior Year Significant Deficiency



                              Reported                           Prior Year                     Fiscal Year 2010
                               Issue                          Recommendation                         Status
                    Financial Management Systems Need Improvement
                    Weaknesses in general              The Department should monitor         During FY 2010, we
                    controls were identified in all    bureau actions to ensure effective    considered the
                    five FISCAM review areas.          implementation of our                 weaknesses in two of
                                                       recommendations.                      the five FISCAM
                                                                                             review areas,
                                                                                             collectively, to be a
                                                                                             significant deficiency
                                                                                             (see comments in
                                                                                             Exhibit I).




                                                                                                                               291
F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
NOTES TO THE FINANCIAL STATE M ENTS
I n d e p e n d e n t Au d i t o r s ’ R e p o r t




 292
                                         F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
A ppe n d i ces
     APPENDIX A:                                         A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                 PERFORMANCE AND RESOURCE TABLES




T
          o make the report more useful, this FY 2010 Performance and Accountability Report (PAR) reports on targets
          and measures from the FY 2011 Annual Performance Plan (APP), that more accurately reflects updated targets
          of each performance measure. Individual bureau-specific APPs can be found on the Department Web site at
http://www.osec.doc.gov/bmi/budget/budgetsub_perf_strategicplans.htm. The resource tables with the performance tables are
also combined to make the information easier to follow.

The following tables provide an array of information that previously was shown in separate tables. The information should help the
reader clearly understand the resources expended for each Strategic Goal, Objective, and Performance Outcome/Objective.

The system of reporting does not currently allow the Department to report on resources at the performance measure level, but it
is the Department’s hope to develop this capability in the future. Unless otherwise noted, funding includes reimbursable amounts.
For a given year, it is important to note that if a performance measure has been exceeded (more than 125 percent of target),
the status box for that year will be shaded blue. If a performance measure has been met (100 to 125 percent of target), the box
is shaded green. The status box for a measure that was slightly below target (95 to 99 percent of the target) is shaded yellow,
while the box for a measure that was definitely not met is shaded red. In addition, in FY 2008 OMB introduced a new category,
“improved but not met.” In those cases, the box is shaded orange. No targets that were in the form of text (e.g., a series of
milestones met) would ever be considered exceeded since they cannot be quantified.

The information in the tables will follow the following format:

●● Strategic   Goal and Resources
●●   Objective and Resources
●●   Performance Outcome/Objective and Resources
●●   Performance Measure

Note: Unless otherwise indicated, measures that do not have FY 2010 targets are not included in any count in this document.
FY 2010 resources for each performance outcome/objective may be estimates and may be updated in the budget for FY 2012.
FY 2009 resources may have been updated since the FY 2009 PAR.

Target and performance data are tracked back to FY 2001 where available. If a measure was developed after FY 2001, actual
performance data is shown back to the year that the measure first appeared.

FTE = Full-time equivalent employment. All dollar amounts shown are in millions, unless otherwise indicated.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              295
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




STRATEGIC GOAL 1
Maximize U.S. competitiveness and enable economic growth for American industries, workers,
and consumers
                                                      STRATEGIC GOAL 1 TOTAL RESOURCES1
                                                              (Dollars in Millions)
                     FY 2001       FY 2002      FY 2003      FY 2004       FY 2005      FY 2006      FY 2007      FY 2008       FY 2009      FY 2010
                     Actual        Actual       Actual       Actual        Actual       Actual       Actual       Actual        Actual       Actual
 Funding             $2,015.1     $1,809.6      $1,842.1     $1,857.3      $2,018.6    $2,096.1      $2,214.9     $2,643.8     $4,804.4     $7,580.3
 FTE                  13,914       11,916        11,265       11,475        11,953      12,223        11,637       12,107       29,294       96,720
 1	FromFY 2002-FY 2009, prior year amounts differ from previous PARs because the Department decided in FY 2010 to include all reimbursable
  amounts that applied to performance measures, and in FY 2008, the Department and NIST shifted the performance outcome, “Raise the productivity
  and competitiveness of small manufacturers (NIST)” from Strategic Goal 2 to Strategic Goal 1, becoming Strategic Objective 1.4.


STRATEGIC OBJECTIVE 1.1
Foster domestic economic development as well as export opportunities
                                                             OBJECTIVE 1.1 RESOURCES
                                                                (Dollars in Millions)
                     FY 2001       FY 2002      FY 2003      FY 2004       FY 2005      FY 2006      FY 2007      FY 2008      FY 2009       FY 2010
                     Actual        Actual       Actual       Actual        Actual       Actual       Actual       Actual       Actual        Actual
Funding               $756.9       $677.5       $645.0        $633.2       $625.6       $614.1       $646.9        $643.4       $792.9       $675.3
FTE                    2,240        1,990        2,013         1,869        1,908       1,849        1,704          1,615       1,576         1,572


Performance OUTCOME: Promote private investment and job creation in economically distressed
communities (EDA)

                                                Performance OUTCOME RESOURCES
                                                       (Dollars in Millions)
                     FY 2001       FY 2002      FY 2003      FY 2004       FY 2005      FY 2006      FY 2007      FY 2008      FY 2009       FY 2010
                     Actual        Actual       Actual       Actual        Actual       Actual       Actual       Actual       Actual        Actual
Funding1              $362.3       $296.6       $258.3        $254.8       $212.5       $208.3       $223.9        $229.7       $306.3       $211.9
FTE                    165          155          149           137          139          128          132           129          129          164
1	Actualsreflect direct obligations for economic development assistance programs (EDAP) and salaries and expenses (S&E); totals do not include
  one-time, disaster investments, or reimbursable funding.


                                                           EDA Performance measure
                                       MEASURE: Private investment leveraged – 9 year totals (in millions)1
    Year            Status                                 Actual                                                     Target
   FY 2010            Met                                  $2,758                                                     $2,410
   FY 2009            Met                                  $2,228                                                     $2,040
   FY 2008         Exceeded                                $4,173                                                     $2,080
   FY 2007         Exceeded                                $1,937                                                     $1,350
   FY 2006         Exceeded                                $2,331                                                     $1,162
 1	EDA tracks the results of its investments and jobs created/retained at 3, 6, and 9 year periods. The FY 2010 actual is a result of investments made
  in FY 2001. Since EDA did not begin tracking results until FY 1997 in this format, 9 year results are not available for the years prior to FY 2006.




 296                                                  F Y   2 0 1 0     P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                              EDA Performance measure
                                          MEASURE: Private investment leveraged – 6 year totals (in millions)1
     Year              Status                                 Actual                                                  Target
   FY 2010            Exceeded                                $2,281                                                   $818
   FY 2009               Met                                   $855                                                    $810
   FY 2008            Exceeded                                $1,393                                                   $970
   FY 2007            Exceeded                                $2,118                                                  $1,200
   FY 2006               Met                                  $1,059                                                  $1,020
   FY 2005            Exceeded                                $1,781                                                  $1,040
   FY 2004            Exceeded                                $1,740                                                   $650
   FY 2003            Exceeded                                $2,475                                                   $581
 1	This   is the 6 year result measure. FY 2010 actuals are the result of investments made in FY 2004.


                                                              EDA Performance measure
                                          MEASURE: Private investment leveraged – 3 year totals (in millions)1
     Year              Status                                 Actual                                                  Target
   FY 2010            Exceeded                                $1,544                                                   $259
   FY 2009            Exceeded                                 $484                                                    $265
   FY 2008            Exceeded                                $1,013                                                   $270
   FY 2007            Exceeded                                 $810                                                    $330
   FY 2006            Exceeded                                $1,669                                                   $320
   FY 2005            Exceeded                                $1,791                                                   $390
   FY 2004            Exceeded                                 $947                                                    $480
   FY 2003            Exceeded                                $1,251                                                   $400
   FY 2002            Exceeded                                 $640                                                    $420
   FY 2001            Exceeded                                 $971                                                    $130
 1	This   is the 3 year result measure. FY 2010 actuals are the result of investments made in FY 2007.


                                                              EDA Performance measure
                                                      MEASURE: Jobs created/retained – 9 year totals1
     Year              Status                                 Actual                                                  Target
   FY 2010             Not Met                                66,527                                                  72,000
   FY 2009             Not Met                                45,866                                                  56,500
   FY 2008               Met                                  57,701                                                  56,900
   FY 2007            Exceeded                                73,559                                                  54,000
   FY 2006               Met                                  50,546                                                  50,400
 1	EDA tracks the results of its investments and jobs created/retained at 3, 6, and 9 year periods. The FY 2010 actual is a result of investments made
  in FY 2001. Since EDA did not begin tracking results until FY 1997 in this format, 9 year results are not available for the years prior to FY 2006.




F Y   2 0 1 0      P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                                 297
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            EDA Performance measure
                                                   MEASURE: Jobs created/retained – 6 year totals1
    Year              Status                                Actual                                                   Target
   FY 2010              Met                                  26,695                                                  22,427
   FY 2009              Met                                  24,533                                                  22,900
   FY 2008              Met                                  30,719                                                  28,900
   FY 2007           Exceeded                                49,806                                                  36,000
   FY 2006           Exceeded                                42,958                                                  28,200
   FY 2005           Exceeded                                47,374                                                  28,400
   FY 2004           Exceeded                                68,109                                                  27,000
   FY 2003           Exceeded                                47,607                                                  25,200
1	This   is the 6 year result measure. FY 2010 actuals are the result of investments made in FY 2004.


                                                            EDA Performance measure
                                                   MEASURE: Jobs created/retained – 3 year totals1
    Year              Status                                Actual                                                   Target
   FY 2009           Exceeded                                9,159                                                    6,628
   FY 2009           Exceeded                                9,137                                                    7,019
   FY 2008           Exceeded                                14,819                                                   7,227
   FY 2007           Exceeded                                16,274                                                   8,999
   FY 2006           Exceeded                                11,833                                                   9,170
   FY 2005           Exceeded                                19,672                                                  11,500
   FY 2004           Exceeded                                21,901                                                  14,400
   FY 2003           Exceeded                                39,841                                                  11,300
   FY 2002           Exceeded                                29,912                                                  11,300
   FY 2001           Exceeded                                12,898                                                   5,400
1	This   is the 3 year result measure. FY 2010 actuals are the result of investments made in FY 2007.




 298                                                    F Y   2 0 1 0   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Improve community capacity to achieve and sustain economic growth (EDA)

                                                               Performance OUTCOME RESOURCES
                                                                      (Dollars in Millions)
                        FY 2001      FY 2002       FY 2003          FY 2004   FY 2005      FY 2006     FY 2007      FY 2008      FY 2009   FY 2010
                        Actual       Actual        Actual           Actual    Actual       Actual      Actual       Actual       Actual    Actual
 Funding1                $76.7        $68.8            $67.3         $67.3     $68.0        $72.1       $83.5        $82.5       $120.4     $81.1
 FTE                      89           84               80            80        74           32          33           32           32        41
 1	Actuals   reflect direct obligations for EDAP and S&E; totals do not include one-time, disaster investments, or reimbursable funding.


                                                                 EDA Performance measure
        MEASURE: Percentage of economic development districts (EDD) and Indian tribes implementing economic development projects
                  from the comprehensive economic development strategy (CEDS) that lead to private investment and jobs
     Year              Status                                     Actual                                               Target
   FY 2010            Not Met                                      89%                                                  95%
   FY 2009         Slightly Below                                  93%                                                  95%
   FY 2008         Slightly Below                                  92%                                                  95%
   FY 2007              Met                                        95%                                                  95%
   FY 2006              Met                                        96%                                                  95%
   FY 2005              Met                                        97%                                                  95%
   FY 2004              Met                                        95%                                                  95%
   FY 2003              Met                                        99%                                                  95%


                                                                 EDA Performance measure
       MEASURE: Percentage of sub-state jurisdiction members actively participating in the economic development district (EDD) program
     Year              Status                                     Actual                                               Target
   FY 2010         Slightly Below                                  87%                                                 89-93%
   FY 2009              Met                                        92%                                                 89-93%
   FY 2008              Met                                        90%                                                 89-93%
   FY 2007              Met                                        92%                                                 89-93%
   FY 2006              Met                                        90%                                                 89-93%
   FY 2005              Met                                        91%                                                 89-93%
   FY 2004              Met                                        90%                                                 89-93%
   FY 2003              Met                                        97%                                                 89-93%
   FY 2002              Met                                        95%                                                  93%
   FY 2001              Met                                        92%                                                  85%




F Y   2 0 1 0     P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                               299
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        EDA Performance measure
        MEASURE: Percentage of University Center clients taking action as a result of the assistance facilitated by the University Center
    Year           Status                               Actual                                                    Target
  FY 2010           Met                                  76%                                                       75%
   FY 2009        Not Met                                70%                                                       75%
   FY 2008          Met                                  80%                                                       75%
   FY 2007          Met                                  84%                                                       75%
   FY 2006          Met                                  76%                                                       75%
   FY 2005          Met                                  79%                                                       75%
   FY 2004          Met                                  78%                                                       75%
   FY 2003          Met                                  78%                                                       75%


                                                        EDA Performance measure
                 MEASURE: Percentage of those actions taken by University Center clients that achieved the expected results
    Year           Status                               Actual                                                    Target
   FY 2010          Met                                  90%                                                       80%
   FY 2009          Met                                  92%                                                       80%
   FY 2008          Met                                  84%                                                       80%
   FY 2007          Met                                  89%                                                       80%
   FY 2006          Met                                  82%                                                       80%
   FY 2005          Met                                  87%                                                       80%
   FY 2004          Met                                  88%                                                       80%
   FY 2003          Met                                  86%                                                       80%


                                                        EDA Performance measure
                     MEASURE: Percentage of Trade Adjustment Assistance Center (TAAC) clients taking action as a result
                                                of the assistance facilitated by the TAACs
    Year           Status                               Actual                                                    Target
  FY 2010         Not Met                                82%                                                       90%
   FY 2009     Slightly Below                            88%                                                       90%
   FY 2008          Met                                  92%                                                       90%
   FY 2007          Met                                  99%                                                       90%
   FY 2006          Met                                  90%                                                       90%
   FY 2005          Met                                  99%                                                       90%
   FY 2004          Met                                  90%                                                       90%
   FY 2003          Met                                  92%                                                       90%




 300                                                F Y   2 0 1 0   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                  A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                               EDA Performance measure
           MEASURE: Percentage of those actions taken by Trade Adjustment Assistance Center clients that achieved the expected results
    Year             Status                                     Actual                                           Target
   FY 2010             Met                                      100%                                              95%
   FY 2009        Slightly Below                                 93%                                              95%
   FY 2008             Met                                       95%                                              95%
   FY 2007             Met                                       95%                                              95%
   FY 2006             Met                                       96%                                              95%
   FY 2005             Met                                       97%                                              95%
   FY 2004             Met                                       98%                                              95%
   FY 2003             Met                                       98%                                              95%


Performance OUTCOME: Increase access to the marketplace and financing for minority-owned businesses (MBDA)

                                                             Performance OUTCOME RESOURCES
                                                                    (Dollars in Millions)
                      FY 2001      FY 2002       FY 2003          FY 2004   FY 2005      FY 2006    FY 2007   FY 2008     FY 2009    FY 2010
                      Actual       Actual        Actual           Actual    Actual       Actual     Actual    Actual      Actual     Actual
 Funding               $27.9        $28.3            $29.0         $28.7     $29.8        $29.8       $29.9    $28.5       $30.1         $31.5
 FTE                    90           92               92            92        96           94          94       75          82            89


                                                               MBDA Performance measure
                                             MEASURE: Dollar value of contract awards obtained (billions)
    Year             Status                                     Actual                                           Target
   FY 2010          Exceeded                                    $1.50                                             $1.00
   FY 2009          Exceeded                                    $2.12                                             $0.90
   FY 2008             Met                                      $0.91                                             $0.90
   FY 2007          Exceeded                                    $1.20                                             $0.85
   FY 2006          Exceeded                                    $1.17                                             $0.85
   FY 2005          Exceeded                                    $1.10                                             $0.80
   FY 2004             Met                                      $0.95                                             $0.80
   FY 2003           Not Met                                    $0.70                                             $1.00
   FY 2002          Exceeded                                    $1.30                                             $1.00
   FY 2001          Exceeded                                    $1.60                                             $0.70


                                                               MBDA Performance measure
                                                 MEASURE: Percent increase in client gross receipts
    Year             Status                                     Actual                                           Target
   FY 2010             Met                                      6.0%                                              6.0%
   FY 2009             Met                                      6.0%                                              6.0%
   FY 2008             Met                                      6.0%                                              6.0%
   FY 2007             Met                                      5.0%                                              5.0%
   FY 2006             Met                                      6.0%                                              5.0%
   FY 2005          Exceeded                                    15.0%                                             5.0%




F Y   2 0 1 0    P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                            301
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          MBDA Performance measure
                                           MEASURE: Dollar value of financial awards obtained (billions)
    Year             Status                                Actual                                                   Target
   FY 2010          Exceeded                                $1.80                                                    $0.60
   FY 2009          Exceeded                                $0.91                                                    $0.50
   FY 2008          Exceeded                                $1.09                                                    $0.50
   FY 2007             Met                                  $0.55                                                    $0.45
   FY 2006           Not Met                                $0.41                                                    $0.45
   FY 2005             Met                                  $0.50                                                    $0.45
   FY 2004          Exceeded                                $0.60                                                    $0.40
   FY 2003             Met                                  $0.40                                                    $0.40
   FY 2002             Met                                  $0.40                                                    $0.40
   FY 2001           Not Met                                $0.60                                                    $1.00

                                                          MBDA Performance measure
                                                MEASURE: Number of new job opportunities created
    Year             Status                                Actual                                                   Target
   FY 2010          Exceeded                                5,845                                                    4,000
   FY 2009             Met                                  4,134                                                    3,000
   FY 2008          Exceeded                                4,603                                                    3,000
   FY 2007          Exceeded                                3,506                                                    2,050
   FY 2006          Exceeded                                4,254                                                    1,800
   FY 2005          Exceeded                                2,270                                                    1,800

                                                          MBDA Performance measure
                                 MEASURE: Satisfaction rating for the American Customer Satisfaction Index (ACSI)1
    Year             Status                                Actual                                                   Target
   FY 2010             N/A                                   N/A                                                     N/A
   FY 2009           Not Met                                67%                                                      75%
   FY 2008             N/A                                   N/A                                                     N/A
   FY 2007          Exceeded                                4.0%                                                     3.0%
   FY 2006             N/A                                   N/A                                                     N/A
   FY 2005          Exceeded                                13.0%                                                    5.0%
1	The   ACSI survey only occurs in odd years, so data does not appear in FY 2010, FY 2008, and FY 2006.


                                                          MBDA Performance measure
                                                       MEASURE: Cumulative economic impact
    Year             Status                                Actual                                                   Target
  FY 2010           Exceeded                               $22.7B                                                    $16B




 302                                                   F Y   2 0 1 0   P E R F O R M A N C E      A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                 A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Strengthen U.S. competitiveness in domestic and international markets (ITA)

                                                            Performance OUTCOME RESOURCES
                                                                   (Dollars in Millions)
                     FY 2001      FY 2002       FY 2003          FY 2004   FY 2005      FY 2006    FY 2007     FY 2008      FY 2009      FY 2010
                     Actual       Actual1       Actual           Actual    Actual       Actual     Actual      Actual       Actual       Actual
 Funding              $161.0      $208.5            $72.7         $56.0     $62.6        $52.1      $59.0       $44.8        $53.0        $54.5
 FTE                   1,038       1,236             402           287       264          257        243         228          213          227
 1	In
    FY 2005, ITA reorganized its performance structure, reducing the number of outcomes from four to two outcomes for this strategic objective.
  FY 2002 actuals shown here reflect the level for the “Strengthen U.S. industries” outcome and the two discontinued outcomes.


                                                               ITA Performance measure
                MEASURE: Annual cost savings resulting from the adoption of Manufacturing and Services (MAS) recommendations
                                                    contained in MAS studies and analysis
        Year        Status                                     Actual                                             Target
    FY 2010        Exceeded                                    $647M                                              $350M
    FY 2009        Exceeded                                    $552M                                              $350M
    FY 2008        Exceeded                                    $455M                                              $350M
    FY 2007        Exceeded                                    $413M                                              $168M
    FY 2006         Not Met                                    $287M                                              $350M


                                                               ITA Performance measure
                         MEASURE: Percent of industry-specific trade barriers addressed that were removed or prevented
        Year        Status                                     Actual                                             Target
    FY 2010           Met                                       35%                                                 30%
    FY 2009        Exceeded                                     30%                                                 20%
    FY 2008        Exceeded                                     29%                                                 15%


                                                               ITA Performance measure
                                   MEASURE: Percent of industry-specific trade barrier milestones completed
        Year        Status                                     Actual                                             Target
    FY 2010        Exceeded                                     75%                                                 55%
    FY 2009        Exceeded                                     72%                                                 55%
    FY 2008        Exceeded                                     73%                                                 55%
    FY 2007         Not Met                                     54%                                                 85%
    FY 2006      Slightly Below                                 81%                                                 85%




F Y   2 0 1 0   P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                             303
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        ITA Performance measure
                                           MEASURE: Percent of agreement milestones completed
    Year          Status                                Actual                                                   Target
   FY 2010          Met                                 100%                                                     100%
   FY 2009        Not Met                                23%                                                     100%
   FY 2008        Not Met                                70%                                                     100%
   FY 2007       Exceeded                               100%                                                      70%
   FY 2006       Exceeded                               100%                                                      70%


Performance OUTCOME: Broaden and deepen U.S. exporter base (ITA)

                                                   Performance OUTCOME RESOURCES
                                                          (Dollars in Millions)
                    FY 2001     FY 2002      FY 2003      FY 2004      FY 2005     FY 2006      FY 2007      FY 2008      FY 2009     FY 2010
                    Actual      Actual       Actual       Actual       Actual      Actual       Actual       Actual1      Actual      Actual
Funding             $129.0       $75.3        $217.7      $226.4       $252.7       $251.8       $250.6      $257.9       $283.1       $296.3
FTE                  858          423          1,290      1,273         1,335        1,338        1,202       1,151        1,120        1,051
1	For
    FY 2008, funding includes $23.0M previously for the discontinued outcome, “Increase exports to commercially significant markets including
 FTA countries, China, and India.”


                                                        ITA Performance measure
                                   MEASURE: Export success firms/active clients (CS overall effectiveness)
    Year          Status                                Actual                                                   Target
   FY 2010       Exceeded                               29.1%                                                    11.0%
   FY 2009       Exceeded                               23.3%                                                   10.50%


                                                        ITA Performance measure
 MEASURE: US&FCS small and medium-sized enterprises (SME) new-to-export (NTE)/total change in SME exporters (CS SME NTE effectiveness)
    Year          Status                                Actual                                                   Target
   FY 2010        Not Met                               2.28%                                                   12.74%
   FY 2009       Exceeded                              15.22%                                                   12.37%


                                                        ITA Performance measure
   MEASURE: Number of SME new-to-market (NTM) firms/number of SME firms exporting to two to nine foreign markets (NTM effectiveness)
    Year          Status                                Actual                                                   Target
   FY 2010        Not Met                               3.11%                                                    3.92%
   FY 2009        Not Met                               3.49%                                                    3.81%


                                                        ITA Performance measure
                                          MEASURE: Commercial diplomacy success (cases) (annual)
    Year          Status                                Actual                                                   Target
   FY 2010        Not Met                                112                                                      166
   FY 2009          Met                                  196                                                      162
   FY 2008          Met                                  181                                                      160




 304                                               F Y   2 0 1 0    P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                         A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                       ITA Performance measure
                                MEASURE: Increase in the percent of small and medium-sized firms that export
    Year           Status                             Actual                                                   Target
   FY 2010        Exceeded                             6.42%                                                   2.80%
   FY 2009        Exceeded                             4.69%                                                   2.75%


                                                       ITA Performance measure
                                                MEASURE: Percentage of advocacy bids won
    Year           Status                             Actual                                                   Target
   FY 2010         Not Met                              9%                                                      17%
   FY 2009           N/A                                11%                                                     N/A




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              305
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 1 . 2
Advance responsible economic growth and trade while protecting American security
                                                            OBJECTIVE 1.2 RESOURCES
                                                               (Dollars in Millions)
                  FY 2001       FY 2002      FY 2003        FY 2004      FY 2005    FY 2006     FY 2007     FY 2008       FY 2009    FY 2010
                  Actual        Actual       Actual         Actual       Actual     Actual      Actual      Actual        Actual     Actual
Funding            $126.9       $157.4       $164.9          $168.5      $192.6      $205.6      $199.2      $199.8       $210.5      229.0
FTE                 733          929          940             975         998         986         912         849          881         923


Performance OUTCOME: Identify and resolve unfair trade practices (ITA)

                                                      Performance OUTCOME RESOURCES
                                                             (Dollars in Millions)
                  FY 2001       FY 2002      FY 2003        FY 2004      FY 2005    FY 2006     FY 2007     FY 2008       FY 2009    FY 2010
                  Actual        Actual       Actual         Actual       Actual     Actual      Actual      Actual        Actual     Actual
Funding            $68.0         $92.8        $88.1          $94.6       $115.8      $123.5      $118.2      $123.5       $125.2      $126.5
FTE                 360           571          574            610         638         633         544         496          528         559


                                                          ITA Performance measure
                                  MEASURE: Percent reduction in trade distorting foreign subsidy programs
    Year         Status                                   Actual                                                 Target
   FY 2010         Met                                     1.7%                                                  > 1.5%
   FY 2009      Exceeded                                   1.8%                                                  > 1%
   FY 2008      Exceeded                                   1.6%                                                  >0.5%


                                                          ITA Performance measure
                     MEASURE: Percent of AD/CVD determinations issued within statutory and/or regulatory deadlines
    Year         Status                                   Actual                                                 Target
   FY 2010         Met                                     94%                                                    90%
   FY 2009    Slightly Below                               86%                                                    90%
   FY 2008         Met                                     90%                                                    90%


                                                          ITA Performance measure
                               MEASURE: Percent of ministerial errors in IA’s dumping and subsidy calculations
    Year         Status                                   Actual                                                 Target
  FY 2010       Exceeded                                   7.9%                                                  < 10%
   FY 2009      Exceeded                                    8%                                                   < 11%
   FY 2008         Met                                     10%                                                   < 12%




 306                                                  F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                   A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                                 ITA Performance measure
                                 MEASURE: Percentage of market access and compliance cases resolved successfully
    Year           Status                                        Actual                                            Target
   FY 2010           Met                                          58%                                                  50%
   FY 2009        Exceeded                                        61%                                                  35%
   FY 2008           Met                                          39%                                                  35%
   FY 2007        Exceeded                                        54%                                                  25%
   FY 2006        Exceeded                                        46%                                                  25%


                                                                 ITA Performance measure
                                   MEASURE: Value of market access and compliance cases resolved successfully
    Year           Status                                        Actual                                            Target
   FY 2010        Exceeded                                       $21.4B                                                $2.5B
   FY 2009        Exceeded                                       $25.4B                                                $2.0B
   FY 2008        Exceeded                                       $12.3B                                                $1.5B



Performance OUTCOME: Maintain and strengthen an adaptable and effective U.S. export control and treaty compliance
system (BIS)

                                                              Performance OUTCOME RESOURCES
                                                                     (Dollars in Millions)
                     FY 2001        FY 2002       FY 2003          FY 2004   FY 2005      FY 2006    FY 2007    FY 2008        FY 2009   FY 2010
                     Actual         Actual        Actual           Actual    Actual       Actual     Actual     Actual         Actual    Actual
 Funding              $53.6          $58.7            $68.4         $67.7     $71.3        $73.0      $70.4      $66.1          $73.3     $89.9
 FTE                   342            328              336           335       330          309        324        310            310       320


                                                                 BIS Performance measure
                                  MEASURE: Percent of licenses requiring interagency referral referred within 9 days
    Year           Status                                        Actual                                            Target
   FY 2010      Slightly Below                                    90%                                                  95%
   FY 2009           Met                                          99%                                                  95%
   FY 2008           Met                                          98%                                                  95%
   FY 2007           Met                                          98%                                                  95%
   FY 2006           Met                                          98%                                                  95%




F Y   2 0 1 0   P E R F O R M A N C E         A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                             307
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        BIS Performance measure
                                   MEASURE: Median processing time for new regime regulations (months)
    Year           Status                               Actual                                                  Target
   FY 2010          Met                                  3.0                                                      3.0
   FY 2009        Exceeded                               2.0                                                      3.0
   FY 2008        Exceeded                               2.0                                                      3.0
   FY 2007        Exceeded                               2.0                                                      3.0
   FY 2006          Met                                  2.5                                                      3.0
   FY 2005        Exceeded                               1.0                                                      3.0
   FY 2004        Exceeded                               2.0                                                      3.0
   FY 2003        Not Met                                7.0                                                      3.0


                                                        BIS Performance measure
                                            MEASURE: Percent of attendees rating seminars highly
    Year           Status                               Actual                                                  Target
   FY 2010          Met                                  94%                                                     85%
   FY 2009          Met                                  93%                                                     85%
   FY 2008          Met                                  93%                                                     85%
   FY 2007          Met                                  90%                                                     85%
   FY 2006          Met                                  90%                                                     85%


                                                        BIS Performance measure
  MEASURE: Percent of declarations received from U.S. industry in accordance with CWC regulations (time lines) that are processed, certified,
                     and submitted to the State Department in time so the United States can meet its treaty obligations
    Year           Status                               Actual                                                  Target
  FY 2010           Met                                 100%                                                    100%
   FY 2009          Met                                 100%                                                    100%
   FY 2008          Met                                 100%                                                    100%
   FY 2007          Met                                 100%                                                    100%
   FY 2006          Met                                 100%                                                    100%




 308                                               F Y   2 0 1 0   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           BIS Performance measure
                   MEASURE: Number of actions that result in a deterrence or prevention of a violation and cases which result in a
                                                     criminal and/or administrative charge
    Year              Status                              Actual                                                   Target
   FY 2010         Slightly Below                           806                                                      850
   FY 2009              Met                                 876                                                      850
   FY 2008           Exceeded                               881                                                      675
   FY 2007           Exceeded                               930                                                      450
   FY 2006           Exceeded                               872                                                      350
   FY 2005           Exceeded                               583                                                      275
   FY 2004              Met                                 310                                                      250
   FY 2003           Exceeded                               250                                                      85
   FY 2002              Met                                  82                                                      75
   FY 2001              Met                                  81                                                      70


                                                           BIS Performance measure
                           MEASURE: Percent of shipped transactions in compliance with the licensing requirements of the
                                                    Export Administration Regulations (EAR)
    Year              Status                              Actual                                                   Target
   FY 2010              Met                                 98%                                                     95%
   FY 2009              Met                                 96%                                                     95%
   FY 2008              Met                                 87%                                                     87%


                                                           BIS Performance measure
                MEASURE: Percentage of post-shipment verifications completed and categorized above the “unfavorable” classification
    Year              Status                              Actual                                                   Target
   FY 2010              Met                            256 PSVs/93%                                            260 PSVs/85%
   FY 2009              Met                            314PSVs/88%                                             260 PSVs/85%
   FY 2008              Met                            136 PSVs/93%                                            215 PSVs/80%




F Y   2 0 1 0     P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      309
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Integrate non-U.S. actors to create a more effective global export control
and treaty compliance system (BIS)

                                                         Performance OUTCOME RESOURCES
                                                                (Dollars in Millions)
                     FY 2001       FY 2002      FY 2003        FY 2004      FY 2005    FY 2006     FY 2007       FY 2008      FY 2009     FY 2010
                     Actual        Actual       Actual         Actual       Actual     Actual      Actual        Actual       Actual      Actual
Funding                $1.6         $1.8          $4.4           $2.7        $1.8        $2.8       $4.6           $5.1        $5.6         $5.7
FTE                     13           13            13             13          13          13         13             12          12           13


                                                             BIS Performance measure
                                                 MEASURE: Number of end-use checks completed
    Year            Status                                   Actual                                                  Target
   FY 2010          Not Met                                   708                                                     850
   FY 2009          Not Met                                   737                                                     850
   FY 2008          Not Met                                   490                                                     850
   FY 2007            Met                                     854                                                     850
   FY 2006         Exceeded                                   942                                                     700


Performance OUTCOME: Ensure continued U.S. technology leadership in industries that are essential
to national security (BIS)

                                                         Performance OUTCOME RESOURCES
                                                                (Dollars in Millions)
                     FY 2001       FY 2002      FY 2003        FY 2004      FY 2005    FY 2006     FY 2007       FY 2008      FY 2009     FY 2010
                     Actual        Actual       Actual         Actual       Actual     Actual      Actual        Actual       Actual      Actual
Funding                $3.7         $4.1          $4.0           $3.5        $3.7        $6.3       $6.0           $5.1        $6.4         $6.9
FTE                     18           17            17             17          17          31         31             31          31           31


                                                             BIS Performance measure
                  MEASURE: Percent of industry assessments resulting in BIS determination, within three months of completion,
                                                    on whether to revise export controls
    Year            Status                                   Actual                                                  Target
   FY 2010            Met                                     100%                                                   100%
   FY 2009            Met                                     100%                                                   100%
   FY 2008            Met                                     100%                                                   100%
   FY 2007            Met                                     100%                                                   100%
   FY 2006            N/A                                     N/A1                                                   100%
 1	No assessments fell within the metric timeframe in FY 2006.
                                                            BIS completed two industry assessments late in the fourth quarter of FY 2006, thus not
  meeting the three month window (before the end of the fiscal year) to make a final determination on revising export controls. This was the first
  year this measure was in place. Industry assessment data will be available in subsequent fiscal years.




  310                                                    F Y   2 0 1 0   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                              A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 1 . 3
Advance key economic and demographic data that support effective decision-making of policymakers,
businesses, and the American public
                                                              OBJECTIVE 1.3 RESOURCES
                                                                 (Dollars in Millions)
                       FY 2001     FY 2002       FY 2003      FY 2004    FY 2005       FY 2006        FY 2007      FY 2008      FY 2009      FY 2010
                       Actual      Actual        Actual       Actual     Actual        Actual         Actual       Actual       Actual       Actual
 Funding              $1,024.9      $866.2       $920.9       $1,008.7   $1,097.7      $1,164.5       $1,261.5     $1,709.4     $3,688.4     $6,549.3
 FTE                   10,854        8,908        8,223        8,563      8,976         9,321          8,954        9,575        26,767       94,146


Performance OUTCOME: Provide benchmark measures of the U.S. population, economy, and governments
(ESA/CENSUS)

                                                       Performance OUTCOME RESOURCES1
                                                              (Dollars in Millions)
                       FY 2001     FY 2002       FY 2003      FY 2004    FY 2005       FY 2006        FY 2007      FY 2008      FY 2009      FY 2010
                       Actual      Actual        Actual       Actual     Actual        Actual         Actual       Actual       Actual       Actual
 Funding               $967.0       $799.5       $846.9        $314.5     $340.5       $373.5          $468.7       $917.9      $2,873.8     $5,703.9
 FTE                   10,380        8,420        7,729         8,038      8,433        8,778           8,418        3,072       20,007       87,418
 1	InFY 2008, Census split the outcome, “Meet the needs of policymakers, businesses, non-profit organizations, and the public for current and
  benchmark measures of the U.S. population, economy and governments,” into this outcome and performance outcome, “Provide current measures
  of the U.S. population, economy, and governments.” Funds for FY 2003 are shown in this outcome and reflect both outcomes. FTE for years prior
  to FY 2008 are shown in this outcome and reflect both outcomes.


                                                       ESA/Census Performance measure
          MEASURE: Correct street features in the TIGER (geographic) database (number of counties completed) to more effectively support
          Census Bureau censuses and surveys, facilitate the geographic partnerships between federal, state, local and tribal governments,
                                 and support the E-Government initiative in the President’s Management Agenda
        Year         Status                                 Actual                                                     Target
                                             Increased TIGER update submissions                         Increase TIGER update submissions
    FY 2010         Exceeded
                                                    electronically by 51%                                      electronically by 10%
                                                                                                 Complete updates to eligible counties in the United
    FY 2009            Met                                 Completed
                                                                                                      States, Puerto Rico, and Island Areas
    FY 2008            Met                                    320                                                       320
    FY 2007            Met                                    737                                                       690
    FY 2006            Met                                    700                                                       700
    FY 2005            Met                                    623                                                       610
    FY 2004            Met                                    602                                                       600
    FY 2003            Met                                    250                                                       250




F Y   2 0 1 0    P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                                  311
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         ESA/Census Performance measure
   MEASURE: Complete key activities for cyclical census programs on time to support effective decision-making by policymakers, businesses,
                                       and the public and meet constitutional and legislative mandates
       Year           Status                                 Actual                                                  Target
   FY 2010              Met         At least 90% of key prep activities completed on time     At least 90% of key prep activities completed on time
   FY 2009              Met         At least 90% of key prep activities completed on time     At least 90% of key prep activities completed on time
                                       Some of the planned dress rehearsal activities
   FY 2008            Not Met                                                                 At least 90% of key prep activities completed on time
                                                      were cancelled
   FY 2007              Met             >90% of key prep activities completed on time         At least 90% of key prep activities completed on time
   FY 2006              Met                   100% of activities completed on time            At least 90% of key prep activities completed on time
   FY 2005              Met                      Activities completed on time                        Various activities with different dates


                                                         ESA/Census Performance measure
 MEASURE: Meet or exceed the overall federal score of customer satisfaction on the E-Government American Customer Satisfaction Index (ACSI)1
       Year           Status                                 Actual                                                  Target
   FY 2010            Not Met                  Score was lower in 2 of 4 quarters                    Meet or exceed overall federal score
   FY 2009            Not Met                                 68.0                                                    75.2
   FY 2008            Not Met                                 66.0                                                    73.9
   FY 2007              Met                                   74.0                                                    71.0
   FY 2006              Met                                   72.0                                                    71.3
   FY 2005              Met                                   73.0                                                    73.0
   FY 2004         Slightly Below                             71.0                                                    72.0
 1	This   measure applies to the second outcome as well, “Provide current measures of the U.S. population, economy, and governments.”


Performance OUTCOME: Provide current measures of the U.S. population, economy, and governments
(ESA/CENSUS)

                                                         Performance OUTCOME RESOURCES1
                                                                (Dollars in Millions)
                        FY 2001     FY 2002       FY 2003      FY 2004      FY 2005     FY 2006     FY 2007      FY 2008      FY 2009          FY 2010
                        Actual      Actual        Actual       Actual       Actual      Actual      Actual       Actual       Actual           Actual
Funding                  N/A         N/A           N/A          $615.6      $673.1      $705.4       $705.8       $703.1       $715.9          $733.1
FTE                      N/A         N/A           N/A           N/A         N/A         N/A          N/A          5,979        6,231           6,187
1	InFY 2008, Census split the outcome, “Meet the needs of policymakers, businesses, non-profit organizations, and the public for current and
  benchmark measures of the U.S. population, economy, and governments,” into this outcome and performance outcome, “Provide benchmark
  measures of the U.S. population, economy, and governments.” Funds for FY 2003 and FTE from years prior to FY 2008 are shown in the previous
  outcome and reflect both outcomes.




  312                                                    F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y     R E P O R T
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                      ESA/Census Performance measure
  MEASURE: Achieve pre-determined collection rates for Census Bureau censuses and surveys in order to provide statistically reliable data to
                             support effective decision-making of policymakers, businesses, and the public
    Year           Status                                  Actual                                                      Target
                                                                                              At least 90% of key censuses and surveys meet/exceed
   FY 2010           Met                             Met percentages
                                                                                                         collection rates/levels of reliability
                                                                                              At least 90% of key censuses and surveys meet/exceed
   FY 2009           Met                             Met percentages
                                                                                                         collection rates/levels of reliability
                                                                                              At least 90% of key censuses and surveys meet/exceed
   FY 2008           Met                             Met percentages
                                                                                                         collection rates/levels of reliability
                                                                                              At least 90% of key censuses and surveys meet/exceed
   FY 2007           Met                             Met percentages
                                                                                                         collection rates/levels of reliability
                                                                                              At least 90% of key censuses and surveys meet/exceed
   FY 2006           Met                             Met percentages
                                                                                                         collection rates/levels of reliability
   FY 2005           Met                             Met percentages                                       Various %s – see FY 2006 APP
   FY 2004           Met                             Met percentages                                       Various %s – see FY 2005 APP
   FY 2003           Met                             Met percentages                                       Various %s – see FY 2004 APP


                                                      ESA/Census Performance measure
                           MEASURE: Release data products for key Census Bureau programs on time to support effective
                                         decision-making of policymakers, businesses, and the public
    Year           Status                                  Actual                                                      Target
                                  1)	 100% of Economic Indicators released on time            1)	 100% of Economic Indicators released on time
   FY 2010           Met          2)	 At least 90% of other key census and survey data        2)	 At least 90% of other key census and survey data
                                      released on time                                            released on time
                                  1)	 100% of Economic Indicators released on time            1)	 100% of Economic Indicators released on time
   FY 2009           Met
                                  2)	 At least 90% of key prep activities completed on time   2)	 At least 90% of key prep activities completed on time
                                  1)	 100% of Economic Indicators released on time            1)	 100% of Economic Indicators released on time
   FY 2008           Met
                                  2)	 At least 90% of key prep activities completed on time   2)	 At least 90% of key prep activities completed on time
                                  1)	 100% of Economic Indicators released on time            1)	 100% of Economic Indicators released on time
   FY 2007           Met          2)	 At least 90% of other key censuses and surveys data     2)	 At least 90% of other key censuses and surveys data
                                      released on time                                            released on time
                                                                                              1)	 100% of Economic Indicators released on time
                                  1)	 100% of Economic Indicators
   FY 2006           Met                                                                      2)	 At least 90% of other key censuses and surveys data
                                  2)	 100% of other products
                                                                                                  released on time
   FY 2005           Met                                22 products                                                 22 products
   FY 2004        Exceeded                              10 products                                                  7 products
   FY 2003         Not Met                               2 products                                                  3 products
   FY 2002           Met                          Maintained FY 2009 time                                     Maintained FY 2009 time
   FY 2001           Met                          Maintained FY 2009 time                                     Maintained FY 2009 time




F Y   2 0 1 0   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                                   313
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Provide timely, relevant, and accurate economic statistics (ESA/BEA)

                                                          Performance OUTCOME RESOURCES
                                                                 (Dollars in Millions)
                       FY 2001      FY 2002      FY 2003        FY 2004      FY 2005     FY 2006      FY 2007      FY 2008      FY 2009    FY 2010
                       Actual       Actual       Actual         Actual       Actual      Actual       Actual       Actual       Actual     Actual
Funding                 $57.9        $66.7        $74.0          $78.6        $84.1       $85.6        $87.0        $88.4        $98.7      $112.3
FTE                      474          488          494            525          543         543          536          524          529        541


                                                           ESA/BEA Performance measure
                       MEASURE: Timeliness: Reliability of delivery of economic data (number of scheduled releases issued on time)
        Year          Status                                  Actual                                                   Target
    FY 2010          Exceeded                                   61                                                       55
    FY 2009            Met                                      56                                                       57
    FY 2008            Met                                      571                                                      58
    FY 2007            Met                                      54                                                       54
    FY 2006            Met                                      54                                                       54
    FY 2005            Met                                      54                                                       54
    FY 2004            Met                                      54                                                       54
    FY 2003            Met                                      48                                                       48
    FY 2002            Met                                      50                                                       50
    FY 2001            Met                                     100%                                                    100%
 1	In
    FY 2008, the Annual Industry Accounts statistical release was rescheduled from December 13, 2007 to January 29, 2008, in order to include
  important information from the Census 2006 Annual Survey of Manufactures (ASM). By delaying this release, BEA was able to provide a better
  product for BEA’s data users, so this measure is considered “Met.”


                                                           ESA/BEA Performance measure
                   MEASURE: Relevance: Customer satisfaction with quality of products and services (mean rating on a 5-point scale)
        Year          Status                                  Actual                                                   Target
    FY 2010            Met                                      4.4                                                    > 4.0
    FY 2009            Met                                      4.2                                                    > 4.0
    FY 2008            Met                                      4.2                                                    > 4.0
    FY 2007            Met                                      4.3                                                    > 4.0
    FY 2006            Met                                      4.2                                                    > 4.0
    FY 2005            Met                                      4.4                                                    > 4.0
    FY 2004            Met                                      4.3                                                    > 4.0
    FY 2003            Met                                      4.4                                                    > 4.0
    FY 2002            Met                                      4.3                                                    > 4.0
    FY 2001             N/A                                    N/A1                                                    > 4.0
 1	Due   to budget constraints, the FY 2001 survey was postponed until FY 2002.




  314                                                     F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        ESA/BEA Performance measure
                                              MEASURE: Accuracy: Percent of GDP estimates correct
    Year              Status                              Actual                                                  Target
   FY 2010             Met                                 88%                                                       > 85%
   FY 2009             Met                                 88%                                                       > 85%
   FY 2008             Met                                 94%                                                       > 85%
   FY 2007             Met                                 93%                                                       > 85%
   FY 2006             Met                                 96%                                                       > 85%
   FY 2005             Met                                 96%                                                       > 85%
   FY 2004             Met                                 88%                                                       > 85%
   FY 2003             Met                                 88%                                                       > 85%


                                                        ESA/BEA Performance measure
                                              MEASURE: Improving GDP and the economic accounts1
    Year              Status                              Actual                                                  Target
   FY 2010             Met                All strategic plan milestones completed                 Completion of strategic plan milestones
   FY 2009             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2008             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2007             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2006             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2005             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2004             Met                    Completed all major milestones                      Completion of strategic plan milestones
   FY 2003             Met                    Completed all major milestones                      Completion of strategic plan milestones
 1	The   BEA Strategic Plan and a report card of completed milestones are available in “About BEA” on www.bea.gov.




F Y   2 0 1 0    P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                            315
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 1 . 4
Position manufacturers to compete in a global economy
                                                            OBJECTIVE 1.4 RESOURCES1
                                                               (Dollars in Millions)
                     FY 2001       FY 2002      FY 2003      FY 2004        FY 2005     FY 2006      FY 2007        FY 2008      FY 2009    FY 2010
                     Actual        Actual       Actual       Actual         Actual      Actual       Actual         Actual       Actual     Actual
 Funding2             $106.4       $108.5       $111.3        $46.9         $102.7      $111.9       $107.3          $91.2       $112.6      $126.7
 FTE                    87           89           89           68             71          67           67             68           70          79
 1	Thereis only one outcome for this objective, so a separate Performance Outcome Resources table does not appear.
 2	Performance  actuals for this outcome lagged at least six months. Therefore, beginning with the FY 2005 PAR, NIST shifted to a format in which
  NIST reports actuals one year later. This data lag, coupled with the timeline for producing the PAR, precludes the reporting of actual FY 2010 data.
  With the exception of the number of clients, the data reported in the current year PAR are an estimate based on three-quarters of actual client
  reported impacts and one-quarter estimated client impacts.


Performance OUTCOME: Increase the productivity, profitability, and competitiveness of manufacturers (NIST)

                                                          NIST Performance measure
                                  MEASURE: Number of clients served by MEP centers receiving federal funding
     Year           Status                                 Actual                                                      Target
   FY 2010         Exceeded                     32,926 from FY 2009 funding                                25,500 from FY 2009 funding
   FY 2009         Exceeded                     31,961 from FY 2008 funding                                14,500 from FY 2008 funding
   FY 2008         Exceeded                     28,004 from FY 2007 funding                                21,237 from FY 2007 funding
   FY 2007         Exceeded                     24,722 from FY 2006 funding                                16,440 from FY 2006 funding
   FY 2006       Slightly Below                 16,448 from FY 2005 funding                                16,640 from FY 2005 funding
   FY 2005         Exceeded                     16,090 from FY 2004 funding                                   6,517 from FY 2004 funding
   FY 2004            Met                       18,422 from FY 2003 funding                                16,684 from FY 2003 funding
   FY 2003          Not Met                     18,748 from FY 2002 funding                                21,543 from FY 2002 funding


                                                          NIST Performance measure
                                  MEASURE: Increased sales attributed to MEP centers receiving federal funding
     Year           Status                                 Actual                                                      Target
   FY 2010            Met                      $2,085M from FY 2009    funding1                           $2,000M from FY 2009 funding
   FY 2009         Exceeded                    $3,610M from FY 2008 funding                                $630M from FY 2008 funding
   FY 2008         Exceeded                    $5,600M from FY 2007 funding                                $630M from FY 2007 funding
   FY 2007         Exceeded                    $3,100M from FY 2006 funding                                $591M from FY 2006 funding
   FY 2006         Exceeded                    $2,842M from FY 2005 funding                                $591M from FY 2005 funding
   FY 2005         Exceeded                    $1,889M from FY 2004 funding                                $228M from FY 2004 funding
   FY 2004         Exceeded                    $1,483M from FY 2003 funding                                $522M from FY 2003 funding
   FY 2003         Exceeded                     $953M from FY 2002 funding                                 $728M from FY 2002 funding
   FY 2002          Not Met                     $636M from FY 2001 funding                                 $708M from FY 2001 funding
   FY 2001            Met                       $698M from FY 2000 funding                                 $670M from FY 2000 funding
 1	Estimate.




  316                                                 F Y   2 0 1 0     P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                         A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                      NIST Performance measure
                              MEASURE: Capital investment attributed to MEP centers receiving federal funding
     Year          Status                             Actual                                                    Target
   FY 2010        Exceeded                 $1,565M from FY 2009   funding1                        $1,000M from FY 2009 funding
   FY 2009        Exceeded                 $1,710M from FY 2008 funding                            $485M from FY 2008 funding
   FY 2008        Exceeded                 $2,190M from FY 2007 funding                            $955M from FY 2007 funding
   FY 2007        Exceeded                 $1,650M from FY 2006 funding                            $740M from FY 2006 funding
   FY 2006        Exceeded                 $2,248M from FY 2005 funding                            $740M from FY 2005 funding
   FY 2005        Exceeded                  $941M from FY 2004 funding                             $285M from FY 2004 funding
   FY 2004        Exceeded                  $912M from FY 2003 funding                             $559M from FY 2003 funding
   FY 2003           Met                    $940M from FY 2002 funding                             $910M from FY 2002 funding
   FY 2002         Not Met                  $680M from FY 2001 funding                             $913M from FY 2001 funding
   FY 2001           Met                    $873M from FY 2000 funding                             $864M from FY 2000 funding
 1	Estimate.




                                                      NIST Performance measure
                                 MEASURE: Cost savings attributed to MEP centers receiving federal funding
     Year          Status                             Actual                                                    Target
   FY 2010           Met                   $1,149M from FY 2009   funding1                        $1,000M from FY 2009 funding
   FY 2009        Exceeded                 $1,410M from FY 2008 funding                            $330M from FY 2008 funding
   FY 2008        Exceeded                 $1,440M from FY 2007 funding                            $521M from FY 2007 funding
   FY 2007        Exceeded                 $1,100M from FY 2006 funding                            $405M from FY 2006 funding
   FY 2006        Exceeded                 $1,304M from FY 2005 funding                            $405M from FY 2005 funding
   FY 2005        Exceeded                  $721M from FY 2004 funding                             $156M from FY 2004 funding
   FY 2004        Exceeded                  $586M from FY 2003 funding                             $353M from FY 2003 funding
   FY 2003        Exceeded                  $681M from FY 2002 funding                             $497M from FY 2002 funding
   FY 2002         Not Met                  $442M from FY 2001 funding                             $576M from FY 2001 funding
   FY 2001         Not Met                  $482M from FY 2000 funding                             $545M from FY 2000 funding
 1	Estimate.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                 317
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Strategic Goal 2
Promote U.S. innovation and industrial competitiveness
                                                   STRATEGIC GOAL 2 TOTAL RESOURCES1
                                                           (Dollars in Millions)
                   FY 2001       FY 2002     FY 2003       FY 2004       FY 2005    FY 2006      FY 2007      FY 2008     FY 2009     FY 2010
                   Actual        Actual      Actual        Actual        Actual     Actual       Actual       Actual      Actual      Actual
Funding            $1,837.6     $2,000.7     $2,130.0      $2,100.9     $2,354.1    $2,607.6     $3,698.3    $3,701.2     $3,912.1    $7,334.2
FTE                 9,597        9,979        9,985         10,004       9,951       10,523       11,358      12,096       12,768      12,664
1	Prior
      year amounts differ from previous PARs because the Department and NIST shifted the outcome, “Raise the productivity and competitive-
 ness of small manufacturers (NIST)” from Strategic Goal 2 to Strategic Goal 1 beginning in FY 2008.


strategic O bjective 2 . 1
Advance measurement science and standards that drive technological change
                                                           OBJECTIVE 2.1 RESOURCES
                                                              (Dollars in Millions)
                   FY 2001       FY 2002     FY 2003       FY 2004       FY 2005    FY 2006      FY 2007      FY 2008     FY 2009     FY 2010
                   Actual        Actual      Actual        Actual        Actual     Actual       Actual       Actual      Actual      Actual
Funding             $712.6       $805.0      $841.5         $783.2       $775.8      $862.3       $783.7      $836.3      $894.5       $973.4
FTE                  3,120        3,142       3,153         3,041         2,867       2,829        2,824       2,866       2,912        2,935


Performance OUTCOME: Promote innovation, facilitate trade, and ensure public safety and security by strengthening the
Nation’s measurement and standards infrastructure (NIST)

                                                   Performance OUTCOME RESOURCES
                                                          (Dollars in Millions)
                   FY 2001       FY 2002     FY 2003       FY 2004       FY 2005    FY 2006      FY 2007      FY 2008     FY 2009     FY 2010
                   Actual        Actual      Actual        Actual        Actual     Actual       Actual       Actual      Actual      Actual
Funding             $502.1       $579.2      $614.1         $576.8       $621.6      $762.4       $662.4      $759.3      $812.4       $850.1
FTE                  2,685        2,707       2,725         2,672         2,503       2,550        2,566       2,673       2,721        2,734


                                                         NIST Performance measure
                         MEASURE: Qualitative assessment and review of technical quality and merit using peer review
    Year          Status                                 Actual                                                  Target
   FY 2010         Met                                  Completed                                      Complete annual peer review
   FY 2009         Met                                  Completed                                      Complete annual peer review
   FY 2008         Met                                  Completed                                      Complete annual peer review
   FY 2007         Met                                  Completed                                      Complete annual peer review
   FY 2006         Met                                  Completed                                      Complete annual peer review
   FY 2005         Met                                  Completed                                      Complete annual peer review
   FY 2004         Met                                  Completed                                      Complete annual peer review
   FY 2003         Met                                  Completed                                      Complete annual peer review
   FY 2002         Met                                  Completed                                      Complete annual peer review
   FY 2001         Met                                  Completed                                      Complete annual peer review




 318                                               F Y   2 0 1 0      P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NIST Performance measure
                                              MEASURE: Citation impact of NIST-authored publications
     Year             Status                               Actual                                             Target
   FY 2010              Met                                 >   1.11                                           > 1.1
   FY 2009              Met                                 > 1.1                                              > 1.1
   FY 2008              Met                                 > 1.1                                              > 1.1
   FY 2007              Met                                 >1.1                                               >1.1
 1	Actual   for this measure lags nine months. The actual shown here is based on FY 2009 data.


                                                           NIST Performance measure
                                             MEASURE: Peer-reviewed technical publications produced
     Year             Status                               Actual                                             Target
   FY 2010         Slightly Below                           1,243                                              1,300
   FY 2009              Met                                 1,463                                              1,275
   FY 2008              Met                                 1,271                                              1,100
   FY 2007              Met                                 1,272                                              1,100
   FY 2006              Met                                 1,163                                              1,100
   FY 2005              Met                                 1,148                                              1,100
   FY 2004            Not Met                               1,070                                              1,300


                                                           NIST Performance measure
                                                MEASURE: Standard Reference Materials (SRM) sold1
     Year             Status                               Actual                                             Target
   FY 2010              Met                                31,667                                             31,000
   FY 2009         Slightly Below                          29,769                                             31,000
   FY 2008              Met                                33,373                                             31,000
   FY 2007              Met                                32,614                                             30,000
   FY 2006              Met                                31,195                                             30,000
   FY 2005              Met                                32,163                                             29,500
   FY 2004              Met                                30,490                                             29,500
   FY 2003            Not Met                               1,214                                              1,360
   FY 2002              Met                                 1,353                                              1,350
   FY 2001              Met                                 1,335                                              1,315
 1	From   FY 2000-FY 2003 this was SRMs available.




F Y   2 0 1 0     P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                     319
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         NIST Performance measure
                                                MEASURE: NIST-maintained datasets downloaded
    Year             Status                               Actual                                                  Target
   FY 2010            Met                               24,956,000                                              24,500,0001
   FY 2009            Met                               226,000,000                                             200,000,000
   FY 2008          Exceeded                            195,500,000                                             130,000,000
   FY 2007          Exceeded                            130,000,000                                              80,000,000
   FY 2006            Met                               94,371,001                                               80,000,000
   FY 2005            Met                               93,305,136                                               80,000,000
   FY 2004          Exceeded                            73,601,352                                               56,000,000
1	Beginning
          in FY 2010, NIST has revised the methodology for this measure by excluding the hundreds of millions of annual downloads associated
 with Web-based, time-related services which dominated the total number of downloads in previous years. This adjusted measure will more clearly
 demonstrate the use of NIST’s other online datasets covering scientific and technical databases throughout the NIST laboratories.


                                                         NIST Performance measure
                                                MEASURE: Number of calibration tests performed1
    Year             Status                               Actual                                                  Target
   FY 2010            Met                                 17,697                                                   15,000
   FY 2009            Met                                 18,609                                                   15,000
   FY 2008          Exceeded                              25,944                                                   12,000
   FY 2007          Exceeded                              27,489                                                   12,000
   FY 2006            Met                                  3,026                                                   2,700
   FY 2005            Met                                  3,145                                                   2,700
   FY 2004            Met                                  3,376                                                   2,800
   FY 2003            Met                                  3,194                                                   2,900
   FY 2002            Met                                  2,924                                                   2,900
   FY 2001            Met                                  3,192                                                   3,100
1	From   FY 2000-FY 2006, this measure reflected the number of items tested, an amount considerably lower than the number of items performed.




 320                                                 F Y   2 0 1 0    P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                               A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Promote U.S. competitiveness by directing federal investment and R&D into areas of critical
national need that support, promote, and accelerate high-risk, high-reward research and innovation in the United States
(NIST)

                                                          Performance OUTCOME RESOURCES
                                                                 (Dollars in Millions)
                     FY 2001    FY 2002       FY 2003          FY 2004   FY 2005      FY 2006    FY 2007   FY 2008      FY 2009   FY 2010
                     Actual     Actual        Actual           Actual    Actual       Actual     Actual    Actual       Actual    Actual
 Funding              N/A        N/A              N/A              N/A     N/A         N/A        N/A       $54.5        $50.2     $77.3
 FTE                  N/A        N/A              N/A              N/A     N/A         N/A        N/A        71           72        80


                                                            NIST Performance measure
                                             MEASURE: Cumulative number of TIP projects funded
    Year           Status                                    Actual                                           Target
   FY 2010           Met                                       29                                               25
   FY 2009           Met                                       9                                                    9


Performance OUTCOME: Increase public access to worldwide scientific and technical information through improved
acquisition and dissemination activities (NTIS)

                                                          Performance OUTCOME RESOURCES
                                                                 (Dollars in Millions)
                     FY 2001    FY 2002       FY 2003          FY 2004   FY 2005      FY 2006    FY 2007   FY 2008      FY 2009   FY 2010
                     Actual     Actual        Actual           Actual    Actual       Actual     Actual    Actual       Actual    Actual
 Funding             $34.7       $27.7            $27.7         $19.2     $15.9        $27.2      $27.9     $22.5        $31.9    $46.0
 FTE                  196         186              181           165       157          144        131       122          119      121


                                                            NTIS Performance measure
                                             MEASURE: Number of updated items available (annual)
    Year           Status                                    Actual                                           Target
   FY 2010        Exceeded                                  969,473                                           765,000
   FY 2009           Met                                    893,138                                           745,000
   FY 2008           Met                                    813,775                                           725,000
   FY 2007           Met                                    744,322                                           665,000
   FY 2006           Met                                    673,807                                           660,000
   FY 2005           Met                                    658,138                                           530,000
   FY 2004           Met                                    553,235                                           525,000
   FY 2003           Met                                    530,910                                           520,000
   FY 2002           Met                                    514,129                                           510,000




F Y   2 0 1 0   P E R F O R M A N C E     A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                      321
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                       NTIS Performance measure
                                      MEASURE: Number of information products disseminated (annual)
    Year           Status                              Actual                                                 Target
   FY 2010        Exceeded                            50,333,206                                            33,000,000
   FY 2009        Exceeded                            49,430,840                                            32,850,000
   FY 2008           Met                              32,267,167                                            32,100,000
   FY 2007           Met                              32,027,113                                            27,100,000
   FY 2006           Met                              30,616,338                                            27,000,000
   FY 2005           Met                              26,772,015                                            25,800,000
   FY 2004        Exceeded                            25,476,424                                            18,000,000
   FY 2003        Exceeded                            29,134,050                                            17,000,000
   FY 2002           Met                              16,074,862                                            16,000,000


                                                       NTIS Performance measure
                                                      MEASURE: Customer satisfaction
    Year           Status                              Actual                                                 Target
   FY 2010           Met                                98%                                                  95-98%
   FY 2009           Met                                98%                                                  95-98%
   FY 2008           Met                                96%                                                  95-98%
   FY 2007           Met                                98%                                                  95-98%
   FY 2006           Met                                98%                                                  95-98%
   FY 2005           Met                                98%                                                    98%
   FY 2004      Slightly Below                          96%                                                    98%
   FY 2003      Slightly Below                          97%                                                    98%
   FY 2002           Met                                98%                                                    97%

The Department discontinued the following outcome (and its corresponding measures) in FY 2007. However, since the funding amounts
factor into the total for this objective and strategic goal, this PAR shows those amounts for informational purposes. Measures and targets
for previous years appear in the FY 2007 PAR.


Performance OUTCOME: Accelerate private investment in and development of high-risk, broad-impact technologies (NIST)

                                                  Performance OUTCOME RESOURCES
                                                         (Dollars in Millions)
                    FY 2001      FY 2002    FY 2003       FY 2004      FY 2005    FY 2006     FY 2007     FY 2008        FY 2009    FY 2010
                    Actual       Actual     Actual        Actual       Actual     Actual      Actual      Actual         Actual     Actual
 Funding             $175.8      $198.1     $199.7        $187.2       $138.3      $72.7       $93.4        N/A           N/A         N/A
 FTE                  239         249        247           204          207         135         127         N/A           N/A         N/A




  322                                             F Y   2 0 1 0     P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                              A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 2 . 2
Protect intellectual property and improve the patent and trademark system
                                                             OBJECTIVE 2.2 RESOURCES
                                                                (Dollars in Millions)
                     FY 2001     FY 2002        FY 2003       FY 2004   FY 2005       FY 2006    FY 2007     FY 2008     FY 2009      FY 2010
                     Actual      Actual         Actual        Actual    Actual        Actual     Actual      Actual      Actual       Actual
 Funding            $1,007.5     $1,099.5       $1,190.9     $1,233.3   $1,508.4      $1,674.4   $1,766.4   $1,852.5     $1,856.4     $1,939.0
 FTE                 6,258        6,593          6,581        6,694      6,825         7,446      8,291      8,962        9,594        9,431


Performance OUTCOME: Optimize patent quality and timeliness (USPTO)

                                                      Performance OUTCOME RESOURCES
                                                             (Dollars in Millions)
                     FY 2001     FY 2002        FY 2003       FY 2004   FY 2005       FY 2006    FY 2007     FY 2008     FY 2009      FY 2010
                     Actual      Actual         Actual        Actual    Actual        Actual     Actual      Actual      Actual       Actual
 Funding             $887.3      $976.6         $1,019.6     $1,059.3   $1,245.8      $1,347.9   $1,506.8    1,616.1      1,629.2     $1,702.2
 FTE                  5,316       5,720          5,815        5,899      6,021         5,994      7,073       7,934        8,565       8,446


                                                           USPTO Performance measure
                                               MEASURE: Final rejection/allowance compliance rate
    Year           Status                                   Actual                                              Target
   FY 2010           Met                                    96.3%                                               94.5%1
   FY 2009           Met                                    94.4%                                                 N/A
 1	TheUSPTO is seeking input from stakeholders on how quality should be measured. A Federal Register Notice has been published, asking for
  stakeholders’ comments on quality. New quality measures will be introduced based on this feedback. In the meantime, the Agency shifted
  resources from end-process review to place more emphasis on front-end quality and reviewing non-final actions in order to prevent unnecessary
  re-work. This approach also allows the Agency to focus on final disposition of applications including final rejections.


                                                           USPTO Performance measure
                                            MEASURE: Non-final in-process examination compliance rate
    Year           Status                                   Actual                                              Target
   FY 2010           Met                                    94.9%                                               94.0%1
   FY 2009           Met                                    93.6%                                                 N/A
 1	TheUSPTO is seeking input from stakeholders on how quality should be measured. A Federal Register Notice has been published, asking for
  stakeholders’ comments on quality. New quality measures will be introduced based on this feedback. In the meantime, the Agency shifted
  resources from end-process review to place more emphasis on front-end quality and reviewing non-final actions in order to prevent unnecessary
  re-work. This approach also allows the Agency to focus on final disposition of applications including final rejections.




F Y   2 0 1 0   P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                          323
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                USPTO Performance measure
                                      MEASURE: Patent average first action pendency (months)
    Year         Status                           Actual                                                 Target
  FY 2010     Slightly Below                       25.7                                                   25.4
   FY 2009         Met                             25.8                                                   27.5
   FY 2008         Met                             25.6                                                   26.9
   FY 2007       Not Met                           25.3                                                   23.7
   FY 2006    Slightly Below                       22.6                                                   22.0
   FY 2005         Met                             21.1                                                   21.3
   FY 2004         Met                             20.2                                                   20.2
   FY 2003         Met                             18.3                                                   18.4
   FY 2002       Not Met                           16.7                                                   14.7
   FY 2001       Not Met                           14.4                                                   13.9


                                                USPTO Performance measure
                                        MEASURE: Patent average total pendency (months)
    Year         Status                           Actual                                                 Target
   FY 2010    Slightly Below                       35.3                                                   34.8
   FY 2009         Met                             34.6                                                   37.9
   FY 2008         Met                             32.2                                                   34.7
   FY 2007         Met                             31.9                                                   33.0
   FY 2006         Met                             31.1                                                   31.3
   FY 2005         Met                             29.1                                                   31.0
   FY 2004         Met                             27.6                                                   29.8
   FY 2003         Met                             26.7                                                   27.7
   FY 2002         Met                             24.0                                                   26.5
   FY 2001         Met                             24.7                                                   26.2


                                                USPTO Performance measure
                                         MEASURE: Patent applications filed electronically
    Year         Status                           Actual                                                 Target
   FY 2010    Slightly Below                      89.5%                                                  90.0%
   FY 2009         Met                            82.4%                                                  80.0%
   FY 2008         Met                            71.7%                                                  69.0%
   FY 2007         Met                            49.3%                                                  40.0%
   FY 2006      Exceeded                          14.2%                                                  10.0%
                Improved
   FY 2005     But Not Met                         2.2%                                                   4.0%

                Improved
   FY 2004     But Not Met                         1.5%                                                   2.0%

   FY 2003       Not Met                           1.3%                                                   2.0%




 324                                          F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                              A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance OUTCOME: Optimize trademark quality and timeliness (USPTO)

                                                       Performance OUTCOME RESOURCES
                                                              (Dollars in Millions)
                     FY 2001     FY 2002       FY 2003        FY 2004     FY 2005      FY 2006    FY 2007     FY 2008      FY 2009   FY 2010
                     Actual      Actual        Actual         Actual      Actual       Actual     Actual      Actual       Actual    Actual
 Funding             $120.2      $122.9        $119.4         $112.0      $144.9       $149.6        $191.2   $190.7       $184.0    $183.1
 FTE                  942         873           719            693         730          665           897      887          890       840


                                                          USPTO Performance measure
                                                   MEASURE: Trademark first action compliance rate
    Year           Status                                  Actual                                                Target
   FY 2010           Met                                    96.6%                                                95.5%
   FY 2009           Met                                    96.4%                                                95.5%
   FY 2008           Met                                    95.8%                                                95.5%
   FY 2007           Met                                    95.9%                                                95.5%
   FY 2006           Met                                    95.7%                                                93.5%
   FY 2005           Met                                    95.3%                                                92.5%
   FY 2004           Met                                    92.1%                                                91.7%


                                                          USPTO Performance measure
                                                     MEASURE: Trademark final compliance rate
    Year           Status                                  Actual                                                Target
   FY 2010      Slightly Below                              96.8%                                                97.0%
   FY 2009           Met                                    97.6%                                                97.0%


                                                          USPTO Performance measure
                                               MEASURE: Trademark first action pendency (months)
    Year           Status                                  Actual                                                Target
   FY 2010           Met                                     3.0                                                 2.5–3.5
   FY 2009           Met                                     2.7                                                 2.5-3.5
   FY 2008           Met                                     3.0                                                 2.5-3.5
   FY 2007           Met                                     2.9                                                   3.7
   FY 2006           Met                                     4.8                                                   5.3
   FY 2005           Met                                     6.3                                                   6.4
   FY 2004         Not Met                                   6.6                                                   5.4
   FY 2003         Not Met                                   5.4                                                   3.0
   FY 2002         Not Met                                   4.3                                                   3.0
   FY 2001        Exceeded                                   2.7                                                   6.6




F Y   2 0 1 0   P E R F O R M A N C E      A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                         325
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                             USPTO Performance measure
                        MEASURE: Trademark average total pendency excluding suspended and inter partes proceedings (months)
        Year            Status                                 Actual                                                Target
       FY 2010           Met                                    10.5                                                  13.0
       FY 2009           Met                                    11.2                                                  13.0
       FY 2008           Met                                    11.8                                                  14.3


                                                             USPTO Performance measure
                                               MEASURE: Trademark applications processed electronically
        Year            Status                                 Actual                                                Target
       FY 2010           Met                                   68.1%                                                 65.0%
       FY 2009           Met                                   62.0%                                                 62.0%


Performance OUTCOME: Provide domestic and global leadership to improve intellectual property policy, protection, and
enforcement worldwide (USPTO)*

                                                           Performance OUTCOME RESOURCES
                                                                  (Dollars in Millions)
                         FY 2001     FY 2002      FY 2003        FY 2004      FY 2005    FY 2006     FY 2007     FY 2008      FY 2009     FY 2010
                         Actual      Actual       Actual         Actual       Actual     Actual      Actual      Actual       Actual      Actual
     Funding               N/A         N/A         $51.9          $62.0       $117.7      $176.9      $68.4       $45.7        $43.2       $48.7
     FTE                   N/A         N/A          47             102          74         787         321         141          139         145


                                                             USPTO Performance measure
               MEASURE: Percentage of prioritized countries that have implemented at least 75% of action steps in the country-specific
                                            action plans toward progress along following dimensions:
                                    1.	   Institutional improvements of IP office administration for advancing IPR
                                    2.	   Institutional improvements of IP enforcement entities
                                    3.	   Improvements in IP laws and regulations
                                    4.	   Establishment of government-to-government cooperative mechanisms
        Year            Status                                 Actual                                                Target
       FY 2010         Exceeded                                 75%                                                   50%




*	   Prior to FY 2010, this outcome was known as “Improve intellectual property and enforcement domestically and abroad.”




     326                                                   F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                    A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 2 . 3
Advance global e-commerce as well as telecommunications and information services
                                                                   OBJECTIVE 2.3 RESOURCES
                                                                      (Dollars in Millions)
                        FY 2001      FY 2002       FY 2003          FY 2004   FY 2005      FY 2006    FY 2007    FY 2008        FY 2009    FY 2010
                        Actual       Actual        Actual           Actual    Actual       Actual     Actual1    Actual         Actual     Actual
 Funding                 $117.5       $96.2            $97.6         $84.4     $69.9        $70.9     $1,148.2   $1,012.4       $1,161.2   $4,421.8
 FTE                      219          244              251           269       259          248        243        268            262        298
 1	In   FY 2007, $1,070.3 was provided to the newly formed Digital Television and Public Safety Program.


Performance OUTCOME: Ensure that the allocation of radio spectrum provides the greatest benefit to all people (NTIA)

                                                               Performance OUTCOME RESOURCES
                                                                      (Dollars in Millions)
                        FY 2001      FY 2002       FY 2003          FY 2004   FY 2005      FY 2006    FY 2007    FY 2008        FY 2009    FY 2010
                        Actual       Actual        Actual           Actual    Actual       Actual     Actual     Actual         Actual     Actual
 Funding                 $21.5        $23.4            $24.5         $28.5     $30.4        $36.8      $38.9      $35.8          $37.3      $35.8
 FTE                      133          141              147           159       169          162        154        168            162       1711
 1	Estimate.



                                                                 NTIA Performance measure
                                                 MEASURE: Frequency assignment processing time (days)
        Year           Status                                     Actual                                             Target
    FY 2010              Met                                        9                                              9 or fewer
    FY 2009              Met                                        9                                              9 or fewer
    FY 2008              Met                                        9                                              9 or fewer
    FY 2007              Met                                        9                                              9 or fewer
    FY 2006              Met                                        9                                              9 or fewer
    FY 2005              Met                                        10                                                 12
    FY 2004              Met                                       <12                                                 12
    FY 2003              Met                                        15                                                 15


                                                                 NTIA Performance measure
                                                MEASURE: Certification request processing time (months)
        Year           Status                                     Actual                                             Target
    FY 2010           Exceeded                                      .9                                             2 or fewer
    FY 2009              Met                                        2                                              2 or fewer
    FY 2008              Met                                        2                                              2 or fewer
    FY 2007              Met                                        4                                              4 or fewer
    FY 2006              Met                                        4                                              4 or fewer




F Y   2 0 1 0      P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                               327
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NTIA Performance measure
                                           MEASURE: Space system coordination request processing time
    Year           Status                                    Actual                                                    Target
   FY 2010       Exceeded                                     100%                                             90% in 14 days or fewer
   FY 2009          Met                                       98%                                              90% in 14 days or fewer
   FY 2008          Met                                       95%                                              90% in 14 days or fewer
   FY 2007          Met                                       97%                                              80% in 14 days or fewer
   FY 2006          Met                                       95%                                              80% in 14 days or fewer


                                                            NTIA Performance measure
                                              MEASURE: Spectrum plans and policies processing time
    Year           Status                                    Actual                                                    Target
  FY 2010        Exceeded                                   11.6 days                                     Comments in 15 days or fewer
   FY 2009       Exceeded                                   11 days                                       Comments in 15 days or fewer
   FY 2008          Met                                     13.3 days                                     Comments in 15 days or fewer
   FY 2007          Met                                     13.3 days                                     Comments in 15 days or fewer
   FY 2006          Met                                     13 days                                       Comments in 15 days or fewer


                                                            NTIA Performance measure
                  MEASURE: Milestones completed from the implementation plan of the President’s Spectrum Policy Initiative
    Year           Status                                    Actual                                                    Target
   FY 2010       Exceeded                                 16 milestones                                            11 milestones
   FY 2009          Met                                   14 milestones                                            14 milestones
   FY 2008          Met                                   22 milestones                                            22 milestones
   FY 2007          Met                           23 out of 29 milestones                                      23 out of 29 milestones
   FY 2006          Met                           18 out of 22 milestones                                      18 out of 22 milestones


Performance OUTCOME: Promote the availability, and support new sources, of advanced telecommunications and
information services (NTIA)

                                                         Performance OUTCOME RESOURCES
                                                                (Dollars in Millions)
                    FY 2001      FY 2002        FY 2003        FY 2004       FY 2005    FY 2006     FY 2007        FY 2008      FY 2009     FY 2010
                    Actual       Actual1        Actual1        Actual1       Actual     Actual      Actual         Actual       Actual      Actual
Funding              $96.0        $72.8          $73.1          $55.9         $39.5      $34.1      $1,109.3        $976.6      $1,046.7     $97.9
FTE                   86           103            104            110           90         86           89            100           93         722
1	Amounts    for FYs 2002-2004 include those for the discontinued outcome “Increase competition within the telecommunications sector and promote
   universal access to telecommunications services for all Americans.”
2 	Estimate.




 328                                                     F Y   2 0 1 0    P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                               A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            NTIA Performance measure
                        MEASURE: Support new telecom and information technology by advocating Administration views
                                 in number of FCC docket filings, and Congressional and other proceedings
        Year       Status                                    Actual                                                Target
    FY 2010       Exceeded                     17 dockets and proceedings                                 5 dockets and proceedings
    FY 2009       Exceeded                     12 dockets and proceedings                                 5 dockets and proceedings
    FY 2008       Exceeded                     11 dockets and proceedings                                 5 dockets and proceedings
    FY 2007       Exceeded                     8 dockets and proceedings                                  5 dockets and proceedings
    FY 2006       Exceeded                     12 dockets and proceedings                                 5 dockets and proceedings
    FY 2005          Met                       5 dockets and proceedings                                  5 dockets and proceedings


                                                            NTIA Performance measure
                                        measure: Number of Web site views for research publications1
        Year       Status                                    Actual                                                Target
    FY 2010       Exceeded                               928,000/quarter                                       240,000/quarter
    FY 2009          Met                                 225,000/quarter                                       225,000/quarter
    FY 2008       Exceeded                               127,000/month                                          75,000/month
    FY 2007       Exceeded                               105,000/month                                          75,000/month
    FY 2006       Exceeded                                94,000/month                                          75,000/month
 1	In
    FY 2009, data collection was changed from monthly to quarterly. There was no change in the measure and the amounts are comparable to
  previous years.

The Department added the following outcome in FY 2009 as a result of the influx of Recovery Act funding. Targets and actuals will not
appear until FY 2011, however, funding began in FY 2009 and continued through FY 2010. Therefore the funding and FTE amounts are
shown here while targets and actuals will appear in the FY 2011 PAR.


Performance OUTCOME: Ensure the effective implementation of the Broadband Technology Opportunities Program (NTIA)

                                                         Performance OUTCOME RESOURCES
                                                                (Dollars in Millions)
                     FY 2001     FY 2002       FY 2003         FY 2004     FY 2005      FY 2006    FY 2007      FY 2008     FY 2009    FY 2010
                     Actual      Actual        Actual          Actual      Actual       Actual     Actual       Actual      Actual     Actual
 Funding              N/A         N/A              N/A           N/A        N/A          N/A        N/A          N/A           $77.2   $4,288.1
 FTE                  N/A         N/A              N/A           N/A        N/A          N/A        N/A          N/A             7        55




F Y   2 0 1 0   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y      R E P O R T
                                                                                                                                           329
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Strategic Goal 3
Promote environmental stewardship
                                                            STRATEGIC GOAL 3 TOTAL RESOURCES
                                                                   (Dollars in Millions)
                         FY 2001       FY 2002       FY 2003       FY 2004       FY 2005       FY 2006      FY 2007       FY 2008       FY 2009       FY 2010
                         Actual        Actual        Actual        Actual        Actual        Actual       Actual        Actual        Actual        Actual
Funding                  $3,254.8     $3,398.4      $3,458.6      $3,802.0      $4,064.0      $4,306.5      $4,187.8      $4,234.4      $5,158.0      $5,781.7
FTE                       11,473       11,585        11,898        11,868        11,918        12,896        11,933        12,637        12,031        11,709


strategic O bjective 3 . 1
Protect, restore, and manage the use of coastal and ocean resources
                                                                  OBJECTIVE 3.1 RESOURCES
                                                                     (Dollars in Millions)
                         FY 2001       FY 2002       FY 2003       FY 2004       FY 2005       FY 2006      FY 2007       FY 2008       FY 2009       FY 2010
                         Actual        Actual        Actual        Actual        Actual        Actual       Actual        Actual        Actual        Actual
Funding                  $1,504.0     $1,334.2      $1,314.9      $1,268.5      $1,379.5      $1,363.2      $1,295.1      $1,354.1      $1,603.1      $1,778.4
FTE                       3,913        3,042         3,361         3,611         3,479         3,670         3,029         3,068         3,426         3,243

                                                               NOAA Performance measure
                                                       MEASURE: Fish stock sustainability index (FSSI)
    Year                Status                                  Actual                                                        Target
   FY 2010               Met                                     582.5                                                          580
   FY 2009               Met                                     565.5                                                         548.5
   FY 2008               Met                                      535                                                          530.5
   FY 2007               Met                                      524                                                           505


                                                               NOAA Performance measure
                         MEASURE: Percentage of living marine resources with adequate population assessments and forecasts
    Year                Status                                  Actual                                                        Target
   FY 2010               Met                                     34.7%                                                        34.3%1
   FY 2009               Met                                     43.9%                                                         42.1%
   FY 2008          Slightly Below                               40.3%                                                         41.1%
   FY 2007               Met                                     40.8%                                                         40.0%
   FY 2006             Not Met                                   38.8%                                                         41.3%
1	 The   drop in the target percentage is due to an increase of 125 protected living marine resource stocks, raising the total number of stocks from 478 to 603.




 330                                                       F Y   2 0 1 0     P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y       R E P O R T
                                                              A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NOAA Performance measure
     MEASURE: Number of protected species designated as threatened, endangered, or depleted with stable or increasing population levels
    Year              Status                                Actual                                                  Target
   FY 2010              Met                                   29                                                      25
   FY 2009              Met                                   25                                                      22
   FY 2008              Met                                   24                                                      22
   FY 2007              Met                                   26                                                      26
   FY 2006              Met                                   26                                                      24


                                                           NOAA Performance measure
                                           MEASURE: Number of habitat acres restored (annual/cumulative)1
    Year              Status                                Actual                                                  Target
   FY 2010            Not Met                            6,907/65,881                                            8,875 /67,849
   FY 2009              Met                              9,232/58,974                                            9,000/58,742
   FY 2008           Exceeded                            11,254/49,742                                           9,000/47,488
   FY 2007              Met                              5,974/38,488                                            5,000/37,514
   FY 2006           Exceeded                            7,598/32,514                                            4,500/29,416
   FY 2005           Exceeded                            8,333/24,916                                            4,500/21,083
   FY 2004           Exceeded                            5,563/16,583                                            3,700/14,780
   FY 2003           Exceeded                            5,200/11,020                                               2,829
 1	Determination   of whether target was met or exceeded is based on annual amount, since that is what was done in that year.


                                                           NOAA Performance measure
             MEASURE: Annual number of coastal, marine, and Great Lakes ecological characterizations that meet management needs
    Year              Status                                Actual                                                  Target
   FY 2010         Slightly Below                             48                                                      50
   FY 2009              Met                                   50                                                      50
   FY 2008              Met                                   45                                                      45
   FY 2007              Met                                   27                                                      27
   FY 2006              Met                                   62                                                      53


                                                           NOAA Performance measure
                                MEASURE: Cumulative number of coastal, marine, and Great Lakes issue-based forecasting
                                                  capabilities developed and used for management
    Year              Status                                Actual                                                  Target
   FY 2010              Met                                   42                                                      42
   FY 2009              Met                                   41                                                      41
   FY 2008              Met                                   38                                                      38
   FY 2007              Met                                   35                                                      35
   FY 2006              Met                                   31                                                      31




F Y   2 0 1 0   P E R F O R M A N C E        A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      331
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                          NOAA Performance measure
                 MEASURE: Percentage of tools, technologies, and information services that are used by NOAA partners/customers
                                                   to improve ecosystem-based management
    Year             Status                                Actual                                                 Target
  FY 2010             Met                                   88%                                                    86%
   FY 2009            Met                                   86%                                                    86%
   FY 2008            Met                                   86%                                                    86%
   FY 2007            Met                                   85%                                                    85%


                                                          NOAA Performance measure
            MEASURE: Annual number of coastal, marine, and Great Lakes habitat acres acquired or designated for long-term protection
    Year             Status                                Actual                                                 Target
  FY 2010             Met                                  2,0001                                                  2,000
   FY 2009            Met                                   2,247                                                  2,000
   FY 2008          Exceeded                                6,219                                                  2,000
   FY 2007          Exceeded                                3,020                                                  2,000
   FY 2006          Exceeded                          >   86,000,0002                                            200,137
1	Estimate.
2	The   large FY 2006 actual reflects the new Northwest Hawaiian Islands Marine National Monument.




 332                                                F Y   2 0 1 0       P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                  A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 3 . 2
Advance understanding of climate variability and change
                                                                  OBJECTIVE 3.2 RESOURCES
                                                                     (Dollars in Millions)
                       FY 2001     FY 2002       FY 2003          FY 2004    FY 2005      FY 2006    FY 2007   FY 2008     FY 2009   FY 2010
                       Actual      Actual        Actual           Actual     Actual       Actual     Actual    Actual      Actual    Actual
 Funding               $238.8      $312.0        $347.5           $239.5     $256.9       $236.1     $244.5    $271.8      $370.0    $343.3
 FTE                    693         785           625              603        599          665        457       523         556       544

                                                             NOAA Performance measure
                MEASURE: U.S. temperature forecasts (cumulative skill score computed over the regions where predictions are made)
     Year            Status                                   Actual                                              Target
   FY 2010           Not Met                                      18                                                24
   FY 2009          Exceeded                                     27.5                                               20
   FY 2008          Exceeded                                      26                                                19
   FY 2007          Exceeded                                      29                                                19
   FY 2006          Exceeded                                      25                                                18
   FY 2005             Met                                        19                                                18
   FY 2004           Not Met                                      17                                                21
   FY 2003           Not Met                                      17                                                20
   FY 2002           Not Met                                      18                                                20
   FY 2001             Met                                        20                                                20


                                                             NOAA Performance measure
                                   MEASURE: Uncertainty in the magnitude of the North American carbon uptake
     Year            Status                                   Actual                                              Target
   FY 2010           Not Met                              0.45   GtC/year1                                     0.40 GtC/year
   FY 2009             Met                                 0.40 GtC/year                                       0.30 GtC/year
   FY 2008             Met                                 0.40 GtC/year                                       0.40 GtC/year
   FY 2007             Met                                 0.40 GtC/year                                       0.40 GtC/year
   FY 2006             Met                                 0.40 GtC/year                                       0.40 GtC/year
   FY 2005             Met                                 0.40 GtC/year                                       0.48 GtC/year
   FY 2004             Met                                 0.50 GtC/year                                       0.70 GtC/year
   FY 2003           Not Met                               0.80 GtC/year                                       0.50 GtC/year
 1	Estimate.




F Y   2 0 1 0    P E R F O R M A N C E       A N D   A C C O U N T A B I L I T Y       R E P O R T
                                                                                                                                         333
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                   NOAA Performance measure
                           MEASURE: Uncertainty in model simulations of the influence of aerosols on climate
    Year         Status                             Actual                                                 Target
   FY 2010        Met                         18% improvement                                         15% improvement
   FY 2009        Met                         20% improvement                                         20% improvement
   FY 2008        Met                         15% improvement                                         15% improvement
   FY 2007        Met                         10% improvement                                         10% improvement
   FY 2006        Met                         10% improvement                                    Establish 10% improvement


                                                   NOAA Performance measure
                                  MEASURE: Error in global measurement of sea surface temperature
    Year         Status                             Actual                                                 Target
   FY 2010        Met                               0.50ºC                                                 0.53ºC
   FY 2009        Met                               0.50ºC                                                 0.50ºC
   FY 2008        Met                               0.50ºC                                                 0.50ºC
   FY 2007      Not Met                             0.53ºC                                                 0.50ºC
   FY 2006      Not Met                             0.53ºC                                                 0.50ºC


                                                   NOAA Performance measure
                 MEASURE: Regionally focused climate impacts and adaptation studies communicated to decisionmakers
    Year         Status                             Actual                                                 Target
   FY 2010        Met                     41 assessments/evaluations                             41 assessments/evaluations
   FY 2009        Met                     37 assessments/evaluations                             37 assessments/evaluations
   FY 2008        Met                     37 assessments/evaluations                             35 assessments/evaluations
   FY 2007        Met                     32 assessments/evaluations                             32 assessments/evaluations
   FY 2006        Met                     33 assessments/evaluations                             32 assessments/evaluations




 334                                            F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                   A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 3 . 3
Provide accurate and timely weather and water information
                                                                   OBJECTIVE 3.3 RESOURCES
                                                                      (Dollars in Millions)
                        FY 2001         FY 2002       FY 2003      FY 2004     FY 2005      FY 2006    FY 2007   FY 2008     FY 2009    FY 2010
                        Actual          Actual        Actual       Actual      Actual       Actual     Actual    Actual      Actual     Actual
 Funding                $1,376.0       $1,188.8       $1,284.1      $883.6     $898.1       $926.8     $946.7    $927.6      $1,010.8   $1,213.3
 FTE                     5,997          5,100          4,912         4,760     4,654         4,907      4,708     5,241       4,687      4,627


                                                                 NOAA Performance measure
                      MEASURE: Percentage of U.S. coastal states and territories demonstrating 20% or more annual improvement
                                         in resilience capacity to weather and climate hazards (%/year)
     Year              Status                                    Actual                                             Target
   FY 2010              Met                                       29%                                                29%


                                                                 NOAA Performance measure
                                   MEASURE: Severe weather warnings for tornadoes (storm-based) – Lead time (minutes)1
     Year              Status                                    Actual                                             Target
   FY 2010              Met                                        142                                                12
   FY 2009              Met                                        12                                                 12
   FY 2008            Exceeded                                     14                                                 11
   FY 2007              Met                                        14                                                 13
   FY 2006              Met                                        13                                                 13
   FY 2005              Met                                        13                                                 13
   FY 2004              Met                                        13                                                 12
   FY 2003              Met                                        13                                                 12
   FY 2002              Met                                        12                                                 11
   FY 2001            Not Met                                      10                                                 13
 1	Prior   to FY 2008, these warnings were county-based rather than storm-based.
 2	Estimate.




F Y   2 0 1 0     P E R F O R M A N C E           A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                            335
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         NOAA Performance measure
                                   MEASURE: Severe weather warnings for tornadoes (storm-based) – Accuracy (%)1
    Year              Status                              Actual                                                  Target
   FY 2010             Met                                 74%2                                                    70%
   FY 2009        Slightly Below                           66%                                                     69%
   FY 2008             Met                                 72%                                                     67%
   FY 2007             Met                                 80%                                                     76%
   FY 2006        Slightly Below                           75%                                                     76%
   FY 2005             Met                                 76%                                                     73%
   FY 2004             Met                                 75%                                                     72%
   FY 2003             Met                                 79%                                                     72%
   FY 2002             Met                                 76%                                                     69%
   FY 2001        Slightly Below                           67%                                                     68%
1	Prior   to FY 2008, these warnings were county-based rather than storm-based.
2	Estimate.




                                                         NOAA Performance measure
                               MEASURE: Severe weather warnings for tornadoes (storm-based) – False alarm rate (%)1
    Year              Status                              Actual                                                  Target
   FY 2010        Slightly Below                           74%2                                                    72%
   FY 2009           Not Met                               77%                                                     72%
   FY 2008             Met                                 75%                                                     74%
   FY 2007             Met                                 75%                                                     75%
   FY 2006        Slightly Below                           79%                                                     75%
   FY 2005        Slightly Below                           77%                                                     73%
                   Improved But
   FY 2004           Not Met                               74%                                                     70%

   FY 2003           Not Met                               76%                                                     72%
   FY 2002        Slightly Below                           73%                                                     71%
   FY 2001             Met                                 73%                                                     73%
1	Prior   to FY 2008, these warnings were county-based rather than storm-based.
2	Estimate.




 336                                                  F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                             A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                         NOAA Performance measure
                              MEASURE: Severe weather warnings for flash floods (storm-based) – Lead time (minutes)
    Year            Status                                Actual                                                    Target
   FY 2010         Exceeded                                 76                                                        381
   FY 2009         Exceeded                                 73                                                        49
   FY 2008         Exceeded                                 77                                                        48
   FY 2007         Exceeded                                 61                                                        48
   FY 2006           Met                                    49                                                        48
   FY 2005           Met                                    54                                                        48
                 Improved But
   FY 2004         Not Met                                  47                                                        50

   FY 2003         Not Met                                  41                                                        47
   FY 2002           Met                                    52                                                        45
   FY 2001           Met                                    46                                                        45
 1	Beginning  in FY 2008, NOAA shifted to a storm-based method of forecast as opposed to a county-based method. The reason for this change was
  to reduce the area warned to provide more specific information to emergency responders and the public. By reducing the areal coverage of our
  flash flood warnings, the emergency management community can more effectively target mitigation and response efforts. This new storm-based
  verification methodology is more stringent and results in lower metric scores for lead time and accuracy for flash floods. Flash flood performance
  data using this new verification methodology was computed beginning in FY 2008 with actuals and targets being reported from FY 2010 onward.


                                                         NOAA Performance measure
                                MEASURE: Severe weather warnings for flash floods (storm-based) – Accuracy (%)
    Year            Status                                Actual                                                    Target
   FY 2010           Met                                   82%                                                       72%1
   FY 2009           Met                                   91%                                                       90%
   FY 2008           Met                                   91%                                                       90%
   FY 2007           Met                                   91%                                                       89%
   FY 2006           Met                                   89%                                                       89%
   FY 2005           Met                                   89%                                                       89%
   FY 2004           Met                                   89%                                                       88%
   FY 2003           Met                                   89%                                                       87%
   FY 2002           Met                                   89%                                                       86%
   FY 2001           Met                                   86%                                                       86%
 1	Beginning  in FY 2008, NOAA shifted to a storm-based method of forecast as opposed to a county-based method. The reason for this change was
  to reduce the area warned to provide more specific information to emergency responders and the public. By reducing the areal coverage of our
  flash flood warnings, the emergency management community can more effectively target mitigation and response efforts. This new storm-based
  verification methodology is more stringent and results in lower metric scores for lead time and accuracy for flash floods. Flash flood performance
  data using this new verification methodology was computed beginning in FY 2008 with actuals and targets being reported from FY 2010 onward.




F Y   2 0 1 0   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                               337
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                        NOAA Performance measure
                                       MEASURE: Hurricane forecast track error (48 hours) (nautical miles)1
    Year            Status                               Actual                                                    Target
   FY 2010         Exceeded                                702                                                       107
   FY 2009           Met                                    86                                                       108
   FY 2008         Exceeded                                 86                                                       110
   FY 2007           Met                                    97                                                       110
   FY 2006           Met                                    97                                                       111
   FY 2005           Met                                   101                                                       128
   FY 2004         Exceeded                                 94                                                       129
   FY 2003           Met                                   107                                                       130
   FY 2002           Met                                   122                                                       142
1	Beginning  in FY 2007, NOAA reported the previous year’s results because data is not available until February and good estimates cannot be
  determined.
2	Reflects FY 2009 target and actual results. FY 2010 results not available until February 2011.




                                                        NOAA Performance measure
                                  MEASURE: Hurricane forecast intensity error (48 hours) (difference in knots)1
    Year            Status                               Actual                                                    Target
   FY 2010         Not Met                                 182                                                       13
   FY 2009      Slightly Below                              14                                                       13
1	NOAA   reports the previous year’s results because data is not available until February and good estimates cannot be determined.
2	Reflects FY 2009 target and actual results. FY 2010 results not available until February 2011.


                                                        NOAA Performance measure
                                      MEASURE: Accuracy (%) (threat score) of day 1 precipitation forecasts
    Year            Status                               Actual                                                    Target
  FY 2010            Met                                   35%                                                      30%
   FY 2009           Met                                   30%                                                      29%
   FY 2008           Met                                   33%                                                      29%
   FY 2007           Met                                   31%                                                      29%
   FY 2006           Met                                   30%                                                      28%
   FY 2005           Met                                   29%                                                      27%
   FY 2004           Met                                   29%                                                      25%
   FY 2003           Met                                   29%                                                      25%
   FY 2002         Exceeded                                26%                                                      17%
   FY 2001         Not Met                                 19%                                                      22%




 338                                                 F Y   2 0 1 0   P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                           A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                       NOAA Performance measure
                                           MEASURE: Winter storm warnings – Lead time (hours)
    Year           Status                               Actual                                           Target
   FY 2010        Exceeded                                21                                               15
   FY 2009           Met                                  18                                               16
   FY 2008           Met                                  17                                               15
   FY 2007        Exceeded                                19                                               15
   FY 2006           Met                                  17                                               15
   FY 2005           Met                                  17                                               15
   FY 2004           Met                                  15                                               14
   FY 2003           Met                                  14                                               13
   FY 2002           Met                                  13                                               13
   FY 2001           Met                                  13                                               13


                                                       NOAA Performance measure
                                                MEASURE: Winter storm warnings – Accuracy (%)
    Year           Status                               Actual                                           Target
   FY 2010           Met                                 90%                                              90%
   FY 2009      Slightly Below                           90%                                              91%
   FY 2008      Slightly Below                           89%                                              90%
   FY 2007           Met                                 92%                                              90%
   FY 2006      Slightly Below                           89%                                              90%
   FY 2005           Met                                 91%                                              90%
   FY 2004           Met                                 91%                                              89%
   FY 2003           Met                                 90%                                              88%
   FY 2002           Met                                 89%                                              86%
   FY 2001           Met                                 90%                                              86%




F Y   2 0 1 0   P E R F O R M A N C E   A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                339
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




strategic O bjective 3 . 4
Support safe, efficient, and environmentally sound commercial navigation
                                                           OBJECTIVE 3.4 RESOURCES
                                                              (Dollars in Millions)
                      FY 2001     FY 2002      FY 2003     FY 2004      FY 2005     FY 2006      FY 2007     FY 2008      FY 2009       FY 2010
                      Actual      Actual       Actual      Actual       Actual      Actual       Actual      Actual       Actual        Actual
Funding               $136.0      $249.9       $261.6       $192.8      $175.0       $198.7      $189.4       $195.0      $240.2         254.3
FTE                    870         942          1,004        716         749          774         691          774         738            710


                                                         NOAA Performance measure
       MEASURE: Reduce the hydrographic survey backlog within navigationally significant areas (square nautical miles surveyed per year)
    Year            Status                               Actual                                                  Target
  FY 2010           Not Met                               4,395                                                  5,160
   FY 2009            Met                                 3,219                                                  3,000
   FY 2008          Not Met                               2,127                                                  2,500
   FY 2007         Exceeded                               3,198                                                  1,350
   FY 2006            Met                                 2,851                                                  2,500
   FY 2005            Met                                 3,079                                                  2,700
                  Improved But
   FY 2004          Not Met                               2,070                                                  2,290

   FY 2003          Not Met                               1,762                                                  2,100


                                                         NOAA Performance measure
             MEASURE: Percentage of U.S. counties rated as fully enabled or substantially enabled with accurate positioning capacity
    Year            Status                               Actual                                                  Target
   FY 2010            Met                                 79.0%                                                  74.0%
   FY 2009            Met                                 72.0%                                                  69.0%
   FY 2008            Met                                 60.2%                                                  60.0%
   FY 2007            Met                                 51.6%                                                  49.0%
   FY 2006            Met                                 43.3%                                                  39.0%
   FY 2005            Met                                 32.2%                                                  28.0%




 340                                                 F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y      R E P O R T
                                                               A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                           NOAA Performance measure
                                                     MEASURE: Marine wind speed accuracy (%)
    Year            Status                                  Actual                                                     Target
   FY 2010           Met                                     74%                                                        69%
   FY 2009           Met                                     73%                                                        69%
   FY 2008           Met                                     72%                                                        68%
   FY 2007           Met                                     73%                                                        68%
   FY 2006          Not Met                                  55%                                                        58%
   FY 2005           Met                                     57%                                                        57%
   FY 2004           Met                                     57%                                                        57%
   FY 2003           Met                                     57%                                                        54%


                                                           NOAA Performance measure
                                                    MEASURE: Marine wave height accuracy (%)
    Year            Status                                  Actual                                                     Target
   FY 2010           Met                                     75%                                                        74%
   FY 2009           Met                                     77%                                                        74%
   FY 2008           Met                                     77%                                                        73%
   FY 2007           Met                                     78%                                                        73%
   FY 2006           Met                                     70%                                                        68%
   FY 2005           Met                                     67%                                                        67%
   FY 2004          Not Met                                  67%                                                        69%
   FY 2003           Met                                     71%                                                        66%


                                                           NOAA Performance measure
                              MEASURE: Aviation forecast accuracy for ceiling/visibility (3 mile/1,000 feet or less) (%)1,2
    Year            Status                                  Actual                                                     Target
   FY 2010           Met                                     66%                                                        65%
   FY 2009      Slightly Below                               63%                                                        64%
   FY 2008      Slightly Below                               62%                                                        63%
   FY 2007           Met                                     62%                                                        62%
   FY 2006          Not Met                                  43%                                                        47%
   FY 2005           Met                                     46%                                                        46%
   FY 2004      Slightly Below                               45%                                                        46%
   FY 2003           Met                                     48%                                                        45%
   FY 2002          Not Met                                  13%                                                        18%
   FY 2001          Not Met                                  18%                                                        21%
 1	From FY 2000-FY 2002, NOAA used a different method to calculate accuracy—targets were significantly lower than the current method.
 2	From FY 2007 on, the aviation measures were redefined to cover the IFR (Instrument Flight Rule) airspace instead of the limited IFR range of 5,000
  feet to three miles. This change was to increase the usefulness of the measure to the general and commercial aviation communities. This change
  required the measures to be re-baselined. While the numbers for accuracy and FAR appear to be reversed when comparing earlier years, they
  are actually measuring different things.




F Y   2 0 1 0   P E R F O R M A N C E       A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                                                                                                                341
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                              NOAA Performance measure
                                   MEASURE: Aviation forecast FAR for ceiling/visibility (3 miles/1,000 feet or less) (%)1,2
        Year            Status                                 Actual                                                     Target
       FY 2010           Met                                    36%                                                        42%
       FY 2009           Met                                    38%                                                        43%
       FY 2008           Met                                    39%                                                        44%
       FY 2007           Met                                    40%                                                        45%
       FY 2006           Met                                    64%                                                        65%
       FY 2005           Met                                    63%                                                        68%
       FY 2004           Met                                    65%                                                        70%
       FY 2003           Met                                    64%                                                        71%
       FY 2002           Met                                    58%                                                        52%
       FY 2001           Met                                    51%                                                        51%
     1	From FY 2000-FY 2002, NOAA used a different method to calculate false alarm rate—targets were significantly lower than the current method.
     2	From FY 2007 on, the aviation measures were redefined to cover the IFR (Instrument Flight Rule) airspace instead of the limited IFR range of 5,000
      feet to three miles. This change was to increase the usefulness of the measure to the general and commercial aviation communities. This change
      required the measures to be re-baselined. While the numbers for accuracy and FAR appear to be reversed when comparing earlier years, they
      are actually measuring different things.


Mission Support objective: Provide critical support for NOAA’s mission (NOAA)*

                                                          Performance OBJECTIVE RESOURCES
                                                                 (Dollars in Millions)
                         FY 2001      FY 2002       FY 2003      FY 2004       FY 2005      FY 2006      FY 2007       FY 2008     FY 2009      FY 2010
                         Actual       Actual        Actual       Actual        Actual       Actual       Actual        Actual      Actual       Actual
     Funding               N/A         $313.5       $250.5       $1,217.6     $1,354.5     $1,581.7      $1,512.1     $1,485.9     $1,933.9    $2,192.4
     FTE                   N/A         1,716         1,996        2,178        2,437        2,880         3,048        3,031        2,624       2,585




*	    There are no GPRA measures for the Mission Support objective, since the activities of this objective support the outcomes of the four other NOAA
      objectives.


     342                                                  F Y   2 0 1 0     P E R F O R M A N C E     A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Management Integration Goal
Achieve organizational and management excellence
                                                     MANAGEMENT INTEGRATION GOAL RESOURCES
                                                              (Dollars in Millions)
                     FY 2001     FY 2002         FY 2003       FY 2004      FY 2005      FY 2006        FY 2007       FY 2008       FY 2009       FY 2010
                     Actual      Actual          Actual        Actual       Actual       Actual         Actual        Actual        Actual        Actual
 Funding              $60.6          $70.1           $71.2      $72.8        $70.9        $71.8          $72.2         $67.7         $80.9         $94.0
 FTE                   310            319             326        309          292          315            302           297           294           341


Performance outcome: Ensure effective resource stewardship in support of the Department’s programs (DM)

                                                         Performance OUTCOME RESOURCES1
                                                                (Dollars in Millions)
                     FY 2001     FY 2002         FY 2003       FY 2004      FY 2005      FY 2006        FY 2007       FY 2008       FY 2009       FY 2010
                     Actual      Actual          Actual        Actual       Actual       Actual         Actual        Actual        Actual        Actual
 Funding              $40.7          $49.2           $49.2      $51.8        $49.5        $49.3          $49.6         $36.9         $43.1         $46.6
 FTE                   171            183             186        181          177          177            178           173           164           188
 1	In
    FY 2008, DM split its one performance outcome into three separate outcomes. All funding for FY 2001-FY 2007 is shown in this outcome. FTE is
  not split among the three outcomes.


                                                             DM Performance measure
                      MEASURE: Provide accurate and timely financial information and conform to federal standards, laws,
                                     and regulations governing accounting and financial management
        Year       Status                                    Actual                                                       Target
                                ●●   One significant deficiency was not eliminated            ●●   Eliminate any significant deficiency within 1 year of
    FY 2010        Not Met      ●●   Completed FY 2010 A-123 assessment                            determination
                                     of internal controls                                     ●●   Complete FY 2010 A-123 assessment of internal controls
                                                                                              ●●   Eliminate any significant deficiency within 1 year of
                                ●●   Completed FY 2009 A-123 assessment of internal
    FY 2009        Not Met                                                                         determination
                                     controls for financial reporting                         ●●   Complete FY 2009 A-123 assessment of internal controls
                                ●●   The Department closed 70% of prior year financial        ●●   Eliminate any significant deficiency within 1 year of
                                     systems audit findings                                        determination
    FY 2008        Not Met      ●●   Significant deficiency was not eliminated                ●●   Complete FY 2008 A-123 assessment of internal controls
                                ●●   Completed FY 2008 A-123 assessment of internal
                                     controls for financial reporting
                                ●●   Significant deficiency was not eliminated                ●●   Eliminate any significant deficiency within 1 year of
                                ●●   Completed assessment of internal controls                     determination
                                ●●   Completed migration of Commerce Business System          ●●   Complete internal control and document review
    FY 2007        Not Met
                                                                                              ●●   Complete FY 2007 A-123 assessment of internal controls
                                                                                              ●●   Migrate Commerce Business System (CBS) to an all
                                                                                                   Web-based architecture
                                              Reportable condition not eliminated             ●●   Eliminate any reportable condition within 1 year of
                                                                                                   determination
    FY 2006        Not Met
                                                                                              ●●   95% of management with access to the CRS have
                                                                                                   financial data/reports by the 15th of month
    FY 2005        Not Met                    Reportable condition not eliminated                           Eliminate any reportable condition
    FY 2004          Met                                      100%                                                         100%
    FY 2003          Met                                      100%                                                         100%
    FY 2002          Met                                      100%                                                         100%
    FY 2001          Met                                      100%                                                         100%



F Y   2 0 1 0   P E R F O R M A N C E        A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                                         343
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




                                                            DM Performance measure
                                            MEASURE: Effectively use commercial services management
    Year           Status                                  Actual                                                        Target
                                 ●●   Maintained and monitored existing activities,          ●●   Increase use of competition by 2%, measured by
                                      however, no new cost comparisons were permitted             procurement dollars awarded
   FY 2010           N/A              under this year’s appropriation language, therefore    ●●   Decrease procurement dollars awarded on a cost-
                                      the result is considered not applicable                     reimbursement, time and materials, and labor hours
                                                                                                  contracts by 10%
                                 ●●   Due to change in Administration, all new competitive Use business process re-engineering or similar
                                      sourcing comparisons have been placed on hold.       initiatives to identify operational efficiency and
  FY 2009            Met
                                      The same is true for the Green Plan.                 effectiveness opportunities
                                 ●●   2009 FAIR Act Inventory filed timely with OMB
                                 Completed several feasibility studies in FY 2008 and        Use business process re-engineering, feasibility
   FY 2008           Met         planned several more for FY 2009                            studies, and/or similar initiatives to identify operational
                                                                                             efficiency and effectiveness opportunities
                                 Bureaus identified FY 2008 feasibility studies which        Update and/or continue to implement FY 2006 plan to
                                 were submitted as part of the Green Plan1                   conduct feasibility studies of Department commercial
   FY 2007           Met
                                                                                             functions to determine potential new competitions/
                                                                                             studies in the outyears
                                         Green Plan1 submitted to OMB on 9/28/2006           Finalize new green competition plan based on 08/2005
   FY 2006           Met
                                                                                             CFO council outcome
                                                                                                  Complete feasibility studies for 168 FTE to determine
   FY 2005           Met                  Feasibility studies nominated for 168 FTE
                                                                                                                   2005-2006 studies
  FY 2004            Met                  New FAIR inventory guidance developed                           Multi-year plan under development
   FY 2003         Not Met                    Completed competitions on 6.6%                                 Complete competitions on 10%
   FY 2002         Not Met                     Completed competitions on 1%                                  Complete competitions on 5%
   FY 2001           Met                 Commercial inventory – submitted 6/30/2001                 Commercial inventory – completed by 6/30/2001
1	Green Plan will lay out the Departmental short and long-range plans to conduct feasibility studies of all major commercial (and available) functions

 and will identify approved FY 2006-2007 competitions.


                                                            DM Performance measure
                     MEASURE: Obligate funds through performance-based contracting (% of eligible service contracting $)
    Year           Status                                  Actual                                                        Target
   FY 2010         Not Met                                   37%                                                          50%
                 Improved But
   FY 2009         Not Met                                   45%                                                          50%

   FY 2008         Not Met                                   28%                                                          50%
   FY 2007         Not Met                                   28%                                                          40%
   FY 2006         Not Met                                   30%                                                          50%
   FY 2005         Not Met                                  < 50%                                                         50%
   FY 2004           Met                                     42%                                                          40%
   FY 2003         Not Met                                   24%                                                          30%
   FY 2002           Met                                     31%                                                          25%
   FY 2001           Met                                     25%                                                          10%




 344                                                   F Y   2 0 1 0   P E R F O R M A N C E         A N D    A C C O U N T A B I L I T Y     R E P O R T
                                                              A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance outcome: Ensure retention of highly qualified staff in mission-critical positions (DM)

                                                         Performance OUTCOME RESOURCES1
                                                                (Dollars in Millions)
                     FY 2001     FY 2002        FY 2003       FY 2004    FY 2005      FY 2006          FY 2007      FY 2008      FY 2009      FY 2010
                     Actual      Actual         Actual        Actual     Actual       Actual           Actual       Actual       Actual       Actual
 Funding              N/A            N/A           N/A         N/A         N/A             N/A          N/A           $2.1         $2.1         $2.1
 FTE                  N/A            N/A           N/A         N/A         N/A             N/A          N/A           N/A          N/A          N/A
 1	In
    FY 2008, DM split its one performance outcome into three separate outcomes. All funding for FY 2002-FY 2007 is shown in the first outcome
  “Ensure effective resource stewardship in support of the Department’s programs.” All FTE is shown in the first outcome.


                                                            DM Performance measure
                       MEASURE: Acquire and maintain diverse and highly qualified staff in mission-critical occupations
        Year       Status                                   Actual                                                      Target
                                ●●   Produced competency models for four mission-            ●●   Have new competency models in place for three
                                     critical occupations                                         mission-critical occupations for use in workforce
                                ●●   Established hiring process baseline at 133 days              recruitment, training, and development activities
                                ●●   Trained 98 ALDP, ELDP, and APCP participants via        ●●   Meet or exceed the 80-day hiring goals mandated
                                     leadership development programs, and 181 employ-             by OPM
    FY 2010          Met             ees via the Careers in Motion Program                   ●●   Train up to 50-70 participants on leadership develop-
                                ●●   Integrated Commerce Learning Center in program               ment programs via ALDP, ELDP, and APCP, and 180-
                                     administration to enhance measurement of results             200 participants via Careers in Motion
                                                                                             ●●   Integrate Commerce Learning Center in program
                                                                                                  administration to enhance tracking and progress
                                                                                                  monitoring
                                ●●   Competency models in place for four series includ-      ●●   Have new competency models in place for three
                                     ing budget analyst, meteorologist, oceanographer,            mission-critical occupations for use in workforce
                                     and hydrologist                                              recruitment, training, and development activities
                                ●●   Average time to fill of 31 days for non-SES candi-      ●●   Meet or exceed the 45-day hiring goals mandated
    FY 2009       Exceeded
                                     dates                                                        by OPM
                                ●●   100 trainees graduated from leadership development      ●●   Train up to 50-60 participants on leadership develop-
                                     programs                                                     ment programs via ALDP, ELDP, and APCP
                                ●●   Department employees nationwide applied to ALDP         ●●   Open ALDP to Department employees nationwide
                                ●●   Delivered a total of four competency models for the     ●●   Have new competency models in place for three
                                     economist, acquisition, mathematical statistician,           mission-critical occupations for use in applicant
                                     and chemist series                                           selections and training and development decisions
    FY 2008       Exceeded
                                ●●   Exceeded the OPM 45-day-time-to-hire standard           ●●   Meet or exceed the 45-day hiring goals mandated
                                     with an average fill time of 31 days for non-SES             by OPM
                                     vacancies
                                ●●   Trained post-secondary internship program appli-        ●●   Improve recruitment strategies via targeted activi-
                                     cants to increase applicant pools                            ties
    FY 2007          Met        ●●   Trained managers to make better hiring decisions        ●●   Assist managers in making better selections
                                ●●   Trained employees in project management to close        ●●   Close skill gaps
                                     skill gaps
                                ●●   Marketed job vacancies to organizations via auto-       ●●   Improve recruitment strategies via targeted activi-
                                     mated hiring system                                          ties
    FY 2006          Met
                                ●●   Participated in career fairs and special programs       ●●   Assist managers in making better selections
                                ●●   Conducted training of managers and employees            ●●   Close skill gaps
                                ●●   Improved from 28 to 29%                                 ●●   Improve representation in underrepresented groups
    FY 2005          Met
                                ●●   Maintained 30 day fill-time                             ●●   Maintain 30 day fill-time




F Y   2 0 1 0   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                                  345
A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance outcome: Acquire and manage technology resources to support program goals (DM)

                                                       Performance OUTCOME RESOURCES1
                                                              (Dollars in Millions)
                   FY 2001      FY 2002        FY 2003       FY 2004      FY 2005        FY 2006        FY 2007      FY 2008      FY 2009     FY 2010
                   Actual       Actual         Actual        Actual       Actual         Actual         Actual       Actual       Actual      Actual
Funding              N/A            N/A          N/A           N/A          N/A           N/A            N/A           $3.7        $7.6         $9.1
FTE                  N/A            N/A          N/A           N/A          N/A           N/A            N/A           N/A         N/A          N/A
1	In
   FY 2008, DM split its one performance outcome into three separate outcomes. All funding for FY 2002-FY 2007 is shown in the first outcome
 “Ensure effective resource stewardship in support of the Department’s programs.” All FTE is shown in the first outcome.


                                                           DM Performance measure
                                          MEASURE: Improve the management of information technology
       Year       Status                                   Actual                                                        Target
                               ●●   For the year, IT investments had cost/schedule            ●●   IT investments have cost/schedule overruns and
                                    overruns and performance shortfalls averaging less             performance shortfalls averaging less than 10%
                                    than 10%                                                  ●●   Perform IT security compliance review of all
                               ●●   Completed security assessments and vulnerability               operating units, and 10 FISMA systems in CSAM
                                    assessments for all operating units. Submitted            ●●   Deploy an enterprise-wide role-based cybersecurity
                                    findings and recommendations to operating units and            training program
                                    OCIO for review                                           ●●   Deploy national security and emergency network
   FY 2009         Met         ●●   Implemented cybersecurity development program and              initial operating capability
                                    graduated 20 candidates from the Department’s first
                                    class. Enrolled candidates in the program’s second
                                    class. More than eight candidates have obtained or
                                    are planning to obtain security-related certifications.
                               ●●   Deployed national security and emergency network
                                    in the development environment. Received official
                                    approval to connect from Defense Intelligence Agency.
                               ●●   Cost/schedule overruns/performance shortfalls             ●●   Cost/schedule overruns/performance shortfalls less
                                    averaged under 10%                                             than 10%
   FY 2009         Met         ●●   CSAM C&A enhancements were deployed                       ●●   All national-critical and mission-critical systems
                               ●●   IT security compliance in all operating units and five         certified and accredited with acceptable, quality
                                    FISMA systems in CSAM were reviewed                            documentation in place
                               ●●   Cost/schedule overruns/performance shortfalls less        ●●   Cost/schedule overruns/performance shortfalls less
                                    than 10%                                                       than 10%
   FY 2008         Met         ●●   All national-critical and mission-critical systems        ●●   All national-critical and mission-critical systems
                                    certified and accredited with acceptable, quality              certified and accredited with acceptable, quality
                                    documentation in place                                         documentation in place
                               ●●   Cost/schedule overruns/performance shortfalls less        ●●   Cost/schedule overruns/performance shortfalls less
                                    than 10%.                                                      than 10%
   FY 2007         Met
                               ●●   All national-critical and mission-critical systems        ●●   All national-critical and mission-critical systems
                                    certified and accredited                                       certified and accredited
                               ●●   Cost overruns and performance shortfalls less             ●●   Cost/schedule overruns/performance shortfalls less
                                    than 10%                                                       than 10%
   FY 2006         Met
                               ●●   All national-critical and mission-critical systems        ●●   All national-critical and mission-critical systems
                                    certified and accredited                                       certified and accredited
                               ●●   Cost overruns and performance shortfalls less             ●●   Cost overruns and performance shortfalls less
   FY 2005         Met
                                    than 10%                                                       than 10%




 346                                                   F Y   2 0 1 0   P E R F O R M A N C E         A N D     A C C O U N T A B I L I T Y   R E P O R T
                                                                 A P P E N D I X A : P E R F O R M A N C E A N D R E S O U R C E TA B L E S




Performance outcome: Promote improvements to Department programs and operations by identifying and completing work
that (1) promotes integrity, efficiency, and effectiveness; and (2) prevents and detects fraud, waste, and abuse (OIG)

                                                            Performance OUTCOME RESOURCES
                                                                   (Dollars in Millions)
                     FY 2001      FY 2002        FY 2003         FY 2004   FY 2005      FY 2006     FY 2007    FY 2008     FY 2009   FY 2010
                     Actual       Actual         Actual          Actual    Actual       Actual      Actual     Actual      Actual    Actual
 Funding              $19.9        $20.9            $22.0         $21.0     $21.4        $22.5       $22.6      $25.0       $28.1     $36.2
 FTE                   139          136              140           128       115          138         124        124         114       161


                                                               OIG Performance measure
                      MEASURE: Percentage of OIG recommendations accepted by Departmental and bureau management
    Year           Status                                      Actual                                             Target
   FY 2010           Met                                        95%                                                95%
   FY 2009           Met                                        97%                                                95%
   FY 2008           Met                                       100%                                                95%
   FY 2007           Met                                        96%                                                95%
   FY 2006           Met                                        96%                                                95%
   FY 2005           Met                                        99%                                                90%
   FY 2004           Met                                        98%                                                90%
   FY 2003           Met                                        97%                                                90%


                                                               OIG Performance measure
                                           MEASURE: Dollar value of financial benefits identified by the OIG
    Year           Status                                      Actual                                             Target
   FY 2010        Exceeded                                    $47.8M                                              $38.0M
   FY 2009        Exceeded                                    $126.9M                                             $32.0M
   FY 2008        Exceeded                                    $113.0M                                             $28.0M
   FY 2007        Exceeded                                    $51.7M                                              $29.6M
   FY 2006           Met                                      $34.2M                                              $30.0M
   FY 2005        Exceeded                                    $32.0M                                              $23.0M
   FY 2004        Exceeded                                    $26.0M                                              $20.0M
   FY 2003        Exceeded                                    $43.3M                                              $20.0M


                                                               OIG Performance measure
                               MEASURE: Percentage of criminal and civil matters that are accepted for prosecution
    Year           Status                                      Actual                                             Target
   FY 2010         Not Met                                      42%                                                75%
   FY 2009           Met                                        78%                                                63%
   FY 2008           Met                                        73%                                                63%
   FY 2007           Met                                        73%                                                63%
   FY 2006        Exceeded                                      91%                                                63%
   FY 2005        Exceeded                                      81%                                                62%
   FY 2004        Exceeded                                      67%                                                50%
   FY 2003           Met                                        50%                                                50%


F Y   2 0 1 0   P E R F O R M A N C E       A N D     A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                         347
A P P E N D I X B : S TA K E H O L D E R S A N D C R O S S C U T T I N G P R O G R A M S




                                S ta k e h olders and crosscutting programs




T 
            he Department has numerous crosscutting programs involving multiple bureaus: other federal, state, and local agencies;

 
            foreign government; and private enterprise. Federal programs dealing with economic and technological development,
            the natural environment, international trade, and demographic and economic statistics play a major role in advancing the
welfare of all Americans. The Department continues to work with other government agencies in furthering efforts in these areas for the
American public. Examples of crosscutting programs external to the Department’s bureaus include the following federal, state, local, and
international agencies:


      DEPARTMENT OF COMMERCE BUREAU                                                OTHER FEDERAL AGENCIES
                ACTIVITIES                                                          And organizations1

 Chemical Weapons Convention compliance                  Department of Agriculture                  National Science Foundation

 Defense industrial base activities                      Department of Defense                      Small Business Administration

 Economic development                                    Department of Education                    U.S. Postal Service

 Economic distress and recovery efforts                  Department of Energy                       Agency for Health Care Research and
                                                                                                       Quality
 Environmental programs                                  Department of Health and Human
                                                            Services                                Customs/Border and Transportation
 Export controls
                                                                                                       Security/Homeland Security
                                                         Department of Homeland Security
 Homeland security
                                                                                                    Federal Aviation Administration
                                                         Department of Housing and Urban
 Improvements to the environment
                                                            Development                             Federal Bureau of Investigation
 Market access/improvements
                                                         Department of Justice                      Food and Drug Administration
 Measurements and standards
                                                         Department of Labor                        Bureau of Justice Statistics
 Minority-owned business development
                                                         Department of State                        National Institutes of Health
 Patents and trademarks and intellectual property
                                                         Department of Transportation               Bureau of Transportation Statistics
 Research
                                                         Department of the Treasury                 U.S. Coast Guard
 Telecommunications
                                                         Agency for International Development       Delta Regional Authority
 Technology transfer
                                                         Appalachian Regional Commission            Indian Tribes
 Tracking the U.S. economy through GDP and
                                                         Central Intelligence Agency                States
    other statistics
                                                         Environmental Protection Agency            Other Countries and Organizations
 Trade policies
                                                         Federal Communications Commission          European Patent Office

                                                         National Aeronautics and Space
                                                            Administration
 1   Note: This is not an all-inclusive listing.




    348                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y     R E P O R T
  APPENDIX C:                                                             A ppendix C : M anagement C h allenges




       T H E I N S P E C T O R G E N E R A L’ S S TAT E M E N T O F M A N AG E M E N T C H A L L E N G E S




    A 
               s FY 2011 begins, advancing economic growth and creating job opportunities remain two of the Department of
               Commerce’s overarching goals. For the upcoming fiscal year, the Department plans to spend about $9 billion
               on a wide range of programs and initiatives to meet these objectives, and the Office of Inspector General (OIG)
   continues to support its efforts through our audits, evaluations, and investigations. In late November 2010, we will issue our
   annual report on the Department’s top management challenges which will be addressed in the FY 2011 PAR. The purpose of
   the report is to identify what we consider, from our oversight perspective, the most significant management and performance
   issues facing the Department in the coming fiscal year.

   In the November 2010 report, we will identify eight management challenges. Several of these challenges are longstanding
   concerns. They include strengthening Department-wide information security, managing the cost and technical performance
   of the National Oceanic and Atmospheric Administration’s (NOAA) environmental satellite acquisition programs, and
   reducing patent and trademark application backlogs. At the same time, the Department must address new concerns, such
   as overseeing the rapid disbursement of billions of dollars to stimulate the economy as a result of the American Recovery
   and Reinvestment Act (ARRA) of 2009. We are performing an ongoing body of work, and planning additional efforts, to help
   the Department effectively manage these and other emerging issues. The table on the following page compares the FY 2011
   management challenges with those identified in FY 2010.

   Additionally, as required by the Office of Management and Budget (OMB) Circular A-136, our top management challenges
   report from FY 2010 briefly assessed the Department’s progress in addressing the challenges identified. This appendix
   contains a summary of the challenges from FY 2010 along with the Department’s response describing the actions it has
   taken. Our FY 2010 management challenge report is available on our Web site at www.oig.doc.gov.

   The management challenges are not easily resolved; they may require the Department or its operating units to invest in new
   technologies or substantially change such areas as procedures, program activities, or organizational culture. To completely
   address a management challenge typically takes several fiscal years. The Department has been proactive in its efforts to
   address several challenges we have identified in previous years. For example, we recognize the commitment of the Secretary
   and his staff to the Office of the Secretary’s restructuring initiatives, including establishing new leadership positions for
   performance management and program evaluation. Additionally, the Secretary recently began a comprehensive review of
   Department-wide acquisition processes to identify ways to strengthen and improve the quality of its acquisitions. While
   these initiatives should help to improve performance accountability, sustained leadership attention is needed to ensure
   desired results are achieved.

   We welcome the opportunity to discuss these challenges and any comments you might have.

                                                                     Inspector General
                                                                     Todd J. Zinser

                                                                                                               Continued on next page




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        349
A ppendix C : M anagement C h allenges




                                 Comparison of FY 2011 and FY 2010 Top Management Challenges
                                                        Challenge                                                      FY 2011        FY 2010
           Department-wide: Strengthening Information Security                                                             3              3
           NOAA: Development and Acquisition of Environmental Satellite Programs                                           3              3
           Department-wide: Managing Acquisition and Contract Operations1                                                  3              3
           ARRA: Enhancing Accountability and Transparency                                                                 3              3
           USPTO: Improving the Efficiency of the Patent Office and Mitigating Financial Vulnerabilities                   3              3
           NOAA: Protecting Environment while Promoting Fishing Industry                                                   3
           Department-wide: Commerce Headquarters Renovation                                                               3              3
           Census: 2020 Decennial Planning                                                                                 3              3
           Census: Mitigate Issues with the 2010 Decennial                                                                                3
           Department-wide: Centralized Management and Oversight                                                                          3
           NOAA: Headquarters Leadership Structure                                                                                        3
           Department-wide: Major Systems Acquisitions                                                                                    3
           Department-wide: Grant and Contract Management Workforce                                                                       3
           1	   This FY 2011 challenge combines elements from two FY 2010 challenges: Major Systems Acquisitions and Grant and Contract Management
                Workforce.



                                 T O P M anagement C H A L L E N G E S F O R F Y 2 0 1 0


       Challenge 1: Decennial Census – Mitigate Issues with the
       2010 Decennial While Addressing Future Census Challenges

       The mission of the 2010 Census—to succeed in counting each of the over 300 million people in more than 130 million households
       in the United States once, only once, and in the right place—is a massive undertaking with many moving parts. With a projected
       life-cycle cost estimate of $14.7 billion, the Bureau must integrate 44 separate operations (with a total of some 9,400 program- and
       project-level activities).

       U.S. residents have by now received their forms, and the Census Bureau has built an extensive communications campaign and
       partnership program to encourage a prompt and accurate decennial response. The rate at which responses are returned will be
       critical in determining the overall cost of the census. Households that do not mail back forms will be visited by an enumerator during
       nonresponse follow-up (NRFU) operations. The most expensive decennial operation, NRFU is now estimated to cost $2.3 billion.
       The Bureau cannot predict with certainty the public’s response rate and thus the total number of housing units that will have to be
       visited during this phase. Census estimates that costs will increase by about $85 million for every percentage point of addresses that
       census takers have to visit.

       While much of the Bureau’s plan appears to be on schedule, the efficiency and accuracy of NRFU are at some risk, and final decennial
       costs remain uncertain. The Bureau’s ability to manage NRFU effectively, and thus control its cost, hinges on two systems: the paper-
       based operations control system (PBOCS) and the Decennial Applicant, Personnel, and Payroll System (DAPPS). Described by the Bureau
       as the “nerve center” of its field offices, PBOCS manages enumerator assignments and provides current information on enumerator
       productivity. DAPPS supports recruiting, applicant, personnel, and payroll processing and is therefore also critical to the smooth
       functioning of NRFU. Both systems support smaller early field operations such as those in rural areas where Census leaves a form



 350                                                   F Y   2 0 1 0   P E R F O R M A N C E      A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                            A ppendix C : M anagement C h allenges




for households to mail back (known as update/leave), doorstep interviews occurring in places such as Native American reservations
(update/enumerate), and counting residents living in group situations and nontraditional households (group quarters enumeration,
service-based enumeration, and enumeration of transitory locations). Both systems have experienced problems in testing and, more
importantly, during field operations.

Census is on a very tight schedule to complete the PBOCS capabilities needed for NRFU and to resolve existing problems. Once NRFU
begins, the system has no margin for error. Yet PBOCS development and testing remain behind schedule, and frequent outages and
slow performance are impacting early operations. If not revamped for NRFU, these problems place the schedule and cost of this
massive operation at serious risk. As a core requirement with a high level of uncertainty late in the decennial life cycle, PBOCS is one
of the most significant decennial challenges facing the Department. While DAPPS also experienced outages and slow performance in
early operations, a recent hardware upgrade appears to have significantly improved performance.

To contain decennial costs, better management of census fieldwork is essential. We found inefficiencies in wages, travel, and training
during the address canvassing operation. Given the significantly larger scale of NRFU, Census must have effective internal controls in
place and ensure that managers meticulously follow them during this operation.

Calendar year 2010 is also a critical time for the 2020 Census. The Bureau must begin to develop its 2020 decennial Census plans even
though its workforce is already stretched thin by 2010 operations. Our work throughout the decade demonstrates that Census needs
to identify more cost-effective approaches to the decennial and seriously consider using such alternatives as administrative records,
the Internet, and targeted address canvassing. These and other possible approaches could contain costs while increasing accuracy
and efficiency.

Challenge 2: IT Security – Continue Enhancing the Department’s Ability
to Defend its Systems and Data Against Increasing Cyber Security Threats

Cyber attacks and other security threats persistently challenge the Department in ensuring information confidentiality, integrity, and
availability. Commerce continues to invest in and otherwise enhance IT security, but more work is needed. The annual Performance
and Accountability Report has reported IT security as a material weakness since FY 2001. Based on our FY 2009 FISMA assessments,
we again recommended—and the Department agreed—that the material weakness remain until more improvements are made.

We completed two United States Patent and Trademark Office (USPTO) assessments during this reporting period. While both
revealed improvements, we did not have sufficient evidence of consistent, effective security practices to support removing USPTO’s
IT security material weakness. However, USPTO’s management concluded that IT security issues had been resolved and did not
report the material weakness in its FY 2009 PAR.

Our evaluations have focused on the Department’s process for planning, implementing, and assessing security controls, including
continuous monitoring, for the more than 300 systems employed by various operating units (including USPTO), each with its own
management structure. We found deficiencies in security planning (including defining security requirements and implementing
controls), assessments (leaving risks inadequately understood), vulnerability remediation (through required plans of action and
milestones), and continuous monitoring. In recent years we have increased our efforts to independently assess technical security
controls and have consistently found vulnerabilities requiring remediation.

We also found, in an FY 2009 audit, that the Department needs to improve the development, guidance, and performance management
of its IT security workforce. The Department has taken positive steps in response, including plans to enhance employee development
and training as well as to require professional certifications for employees with significant IT security responsibilities.




F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                           351
A ppendix C : M anagement C h allenges




       Challenge 3: NOAA Environmental Satellites – Effectively Manage Technical, Budgetary, and
       Governance Issues Surrounding the Acquisition of NOAA’s Two Environmental Satellite Systems

       The National Oceanic and Atmospheric Administration (NOAA) is modernizing its environmental monitoring capabilities, in part by
       spending an estimated total of nearly $20 billion on two critical satellite systems: the Joint Polar Satellite System (JPSS) and the
       Geostationary Operational Environmental Satellite-R Series (GOES-R). Both JPSS’ predecessor program, the National Polar-orbiting
       Operational Environmental Satellite System (NPOESS), and GOES-R have a history of cost overruns, schedule delays, and reduced
       performance capabilities.

       As a result of the fall 2009 decision to significantly restructure the NPOESS program, JPSS was established as NOAA’s component
       of the polar environmental satellite system, which is designed to provide global environmental data to monitor Earth, support the
       Nation’s economy, and protect lives and property. JPSS is intended to meet a portion of the requirements originally established
       under the NPOESS program. NPOESS was managed jointly by NOAA, the National Aeronautics and Space Administration (NASA),
       and the Department of Defense, with NOAA and Defense equally sharing NPOESS costs. Under the restructuring, NOAA/NASA and
       Defense will acquire satellites separately. The life-cycle cost estimate for JPSS is $11.9 billion.

       At its 1995 inception, NPOESS planned to purchase six satellites at a $6.5 billion cost, with a first launch in 2008. But problems
       with a key sensor raised costs and delayed the date of the first launch, even as the number of satellites in the system was reduced to
       four. In March 2009, with estimated life-cycle costs totaling $14 billion, the first launch was delayed to 2014 because of continuing
       sensor problems; the NASA-led NPOESS Preparatory Project (NPP) launch date was also delayed, from 2010 to 2011. NPP was
       planned as a risk-reduction effort to test NPOESS’ new instruments in flight, but will now be used operationally as a gap-filler
       between the current NOAA polar-orbiting operational environmental satellite and the first JPSS satellite.

       The transition to the restructured program will continue into FY 2011. The JPSS program will continue to develop instruments
       needed to fulfill NOAA’s responsibilities. The JPSS management structure will be similar to GOES-R, in which NOAA manages the
       overall program with assistance from NASA. NOAA will acquire two JPSS satellites and will continue climate sensor acquisitions
       under the NOAA climate program. Defense is evaluating the best approach for maintaining continuity of its polar satellites. It is
       critical that NOAA and Defense implement their satellite programs on schedule to reduce the risk of gaps in coverage.

       Budget increases, capability reductions, and delays have also plagued the GOES-R program. The projected cost has increased
       from $6.2 billion to $7.7 billion; a major sensor was removed; the number of satellites to be purchased was reduced from four
       to two; and the launch readiness dates for the first two satellites have slipped by 6 months to October 2015 and February 2017.
       The GOES-R system is intended to offer an uninterrupted flow of high-quality data for short-range weather forecasting and
       warning, as well as provide climate research data through 2028. Working with NASA, NOAA is responsible for managing the
       entire program and for acquiring the ground segment, which is used to control satellite operations and to generate and distribute
       instrument data products.

       According to program documentation, overall GOES-R program acquisition is on track and within budget to meet the revised launch
       schedule. However, any further delays in the satellite’s launch readiness will increase NOAA’s risk of not meeting its requirement to
       have an on-orbit spare and two operational GOES satellites available to monitor the Pacific and Atlantic basins in 2015.

       Both the JPSS and GOES-R programs will continue to require close oversight to minimize further disruption to programs and
       prevent any satellite coverage gaps, which could compromise the United States’ ability to forecast weather and monitor climate.
       Such a compromise would have serious consequences for the Nation’s safety and security.




 352                                              F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          A ppendix C : M anagement C h allenges




Challenge 4: American Recovery and Reinvestment Act – Meet the Challenges of
Accountability and Transparency with Effective Oversight of Program Performance,
Compliance, Spending, and Reporting

The Department continues to implement programs under the American Recovery and Reinvestment Act (ARRA) of 2009, which
provided Commerce with $7.9 billion. The Office of Inspector General (OIG) ARRA oversight priorities include agency and recipient
reporting, the Broadband Technology Opportunities Program (BTOP), and National Institute of Standards and Technology (NIST)
and NOAA construction contracts and grants.

The sheer amount of ARRA money received by the Department, coupled with the act’s unique requirements, makes ensuring
appropriate spending—while also providing economic stimulus as quickly as possible—a particular challenge. The Department’s
operating units must spend funds appropriately with little time to prepare for the many new and expanded programs, grants, and
contracts established under the act.

As of March 31, 2010, the Department had obligated approximately $2.8 billion and spent approximately $890 million. Although
spending volumes are relatively low, all funds must be obligated by September 30, 2010. The need to distribute funds quickly to
communities and businesses increases the risks of fraud, waste, and abuse in both ARRA-funded activities and those Department
operations with more traditional funding mechanisms. ARRA operating units need sufficient resources to ensure that programs
deliver as intended, while providing oversight to guard against misuse of funds.

The ARRA substantially increases the Department’s contracting and grants workload, particularly at NIST and NOAA, whose grants
and contracts offices must manage not only the more than $1.4 billion they received under ARRA, but the $4.7-billion BTOP
program as well. NTIA relies on NIST and NOAA for grants administration because it does not have its own staff and systems for
this purpose. Such increases place added pressure on these operating units to hire and retain qualified personnel.

The ARRA provided a relatively significant funding increase for NIST and NOAA construction projects. To complete them
successfully, NIST and NOAA need to dedicate construction managers across ARRA grants, contracts, and regular appropriation-
funded projects. Our oversight will focus on this high-risk area, including assessments of compliance with contract and grant
requirements and project results.

We recently reviewed the adequacy of key IT and operational controls of the primary (source) grants, contracts, and/or financial
systems for Census, the Economic Development Administration (EDA), NIST, NOAA, and NTIA to determine whether their controls
ensure that the Department reports posted on Recovery.gov are complete, accurate, and reliable. Generally, the Department
systems we reviewed had adequate data input/edit controls. However, the lack of automated data transmission or interfaces from
the grants systems to the Department’s financial system could lead to errors.

Without additional automation, it will be more difficult for Department operating units to effectively manage their own reporting
with the increased volume of grants and contracts. Ensuring complete and accurate recipient reporting will also be difficult.
Additional automation would add reporting process efficiencies and would decrease the risks of reporting errors and delays.

We identified several concerns in the BTOP pre-award process and expressed concern with whether NTIA has identified and
obtained needed resources to execute a grant program of BTOP’s magnitude in the ARRA’s timeframe. According to the act, BTOP
must spend all of its $4.7 billion in grant funding by September 30, 2010. Over the next 6 months, NTIA must address several
challenges as it concurrently monitors first-round grant awards and issues new awards. Challenges include (1) coordinating with
other federal organizations supporting contract and grants management and (2) overseeing contractors implementing BTOP. In the
next semiannual period, we will issue a report detailing our concerns with BTOP’s program management and pre-award process.



F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    353
A ppendix C : M anagement C h allenges




       Challenge 5: USPTO – Address the Patent Office’s Resource and Process Issues

       With an enacted budget of $1.7 billion in FY 2010 and a $2 billion FY 2011 budget request for patent operations, USPTO continues
       to struggle with increasing patent backlogs and the need to improve patent examination efficiency and quality.

       Since FY 2000, the number of patent examiners has more than doubled, from 2,900 to 6,200. But the length of time to process a
       patent has increased 40 percent from 25 to 35 months. Further, the backlog of applications awaiting review increased 139 percent,
       from 308,000 to 736,000.

       Over the years, USTPO has increased the number of patent examiners to address the growing backlog; however, simply adding to
       the workforce will not suffice. USPTO must consider how to reform and reengineer various components of the patent application
       process and must update its IT systems to ensure timely and high-quality application review.

       USPTO must also address funding mechanisms and fee structure challenges. USPTO is now funded entirely by application,
       maintenance, and other fees paid by patent and trademark applicants and owners. Congress sets many of the fees legislatively
       and establishes a ceiling, through the appropriations process, for the maximum amount of fees USTPO can spend in a given year.
       For FY 2011, the Administration proposes a 15-percent increase in certain patent fees to generate additional revenue to cover
       operating expenses. It also proposes that USTPO have authority to set fees and to establish an operating reserve to manage
       operations on a multiyear basis.

       In November 2008, our Top Management Challenges report suggested that USTPO’s unique financing structure could become
       increasingly risky. Subsequent downturns in the U.S. and global economies quickly showed the structure’s vulnerabilities. In the
       President’s FY 2009 budget, USPTO estimated that it would collect over $1.8 billion in patent fees. However, by the end of that
       year, patent fee collections totaled just over $1.6 billion. Multiple factors contributed to the difference, including a reduction in the
       number of patent applications filed and a decline in maintenance fees collected for existing patents. To align expenses with actual
       patent fee collections, USTPO deferred hiring patent examiners and curtailed or suspended overtime and training. USPTO currently
       projects a FY 2010 surplus, but does not have authority to spend above its legislatively mandated appropriation ceiling.

       Potential fee shortfalls and fluctuations introduce inherent instability to the funding structure. This unstable structure increases
       the risk to USTPO’s ability to operate effectively in current and future years, and its capacity to ensure that America’s intellectual
       property (IP) system encourages investment in innovation and contributes to a strong global economy. More immediately, USTPO
       may not be able to process as many patent applications, which will add to the backlog instead of working toward reducing it.
       In effect, fewer maintenance fees will be available to collect in the future because fewer patents are being issued today.

       The Under Secretary of Commerce for IP, who is also the Director of USPTO, has publicly acknowledged these and other difficulties.
       A 5-year plan in the President’s FY 2011 budget sets forth bold goals, such as reducing the time it takes for initial patent
       application review to 10 months (from the present 26 months) by FY 2013. Similarly, by FY 2014, USPTO’s goal to decide a patent
       application is 20 months, down from the present 35.




 354                                               F Y   2 0 1 0   P E R F O R M A N C E     A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                          A ppendix C : M anagement C h allenges




   O t h er I ssues R e q uiring S ignificant M anagement A ttention


Centralized Management and Oversight

It will be a complex, but necessary, organizational challenge for the Department to establish consistent internal operations to
support all of its operating units. However, by doing so, it will be better positioned to provide efficient and reliable support to
the Secretary’s priorities. The Department needs to continue its efforts to centralize management and oversight in order to make
the whole organization more efficient, consistent, and productive. The Department’s operating units have long-standing and
independent business models, cultures, and practices. This decentralized structure has created obstacles to Department efforts to
integrate and administer internal processes like financial services, human resources, grant and contract management, and major
acquisitions.

For example, the administrative management structure of the Department gives its Chief Information Officer (CIO) little authority
over the IT security operations of the Department’s operating units, making the cyber security challenge (Challenge 2, above) even
more difficult to manage. In addition, prior to the ARRA, the Department awarded an average of $1.5 billion in grants to over
1,600 recipients annually and approximately $2 billion in contracts to nearly 6,000 contractors annually. Yet the Department’s
Office of Acquisition Management has similarly limited authority over the various operating units’ grants and procurement offices,
resulting in inconsistent approaches to grant and contract management across the Department and adding to the difficulty in
overseeing the effectiveness of these operations and programs.

Efforts to achieve greater consistency have been slow. To illustrate, grants are managed by three of the Department’s seven
grant-making agencies, which cross-service the other grant agencies using three different IT systems. The Department has been
working since 2003 to migrate all Department grants management operations to NOAA’s Grants Online system, but this effort is
not projected to be completed until 2011.

Major Systems Acquisition

In a related challenge, the Department and its operating units must develop effective processes for planning, managing, and
overseeing major system acquisitions. In FY 2010, the Department plans to spend $3 billion on IT investments (excluding grants).
The lack of cohesive policies and procedures for program and project management and oversight has contributed to many of these
acquisitions—such as the decennial handheld computers, as well as the NPOESS and GOES-R environmental satellite programs—
becoming mired in cost overruns and developmental delays. This weakness also leaves the Department without adequate visibility
into progress and risks on major system acquisitions, which results in costly delays in identifying and correcting problems.

The Department has not been successful in updating its policies and oversight approach for major systems acquisition. The effort
was begun in 2006 in response to OIG and GAO recommendations, and while some improvements in Departmental oversight
have been made, formal policies and governance have yet to be established. The Deputy Secretary recently convened a steering
committee to develop a Department-wide major investment oversight policy. Developing formal, unified policies and procedures
for complicated acquisitions will ultimately save time, money, and effort for all the Department’s operating units. The Department
must exercise effective oversight to ensure system acquisitions are adequately planned and conducted according to best practices,
and that they meet their cost, schedule and performance goals.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      355
A ppendix C : M anagement C h allenges




       Contracts and Grants Management Workforce

       Sufficient contracts and grants management workforce staffing has been a long-standing issue for the Department. Now, primarily
       as a result of the ARRA, the Department and its operating units issue more grants and contracts than ever.

       According to Department data, more than 1,500 Commerce employees hold certifications in various acquisition positions. While the
       Department does not track the number of grants personnel, we recently conducted a survey of the sufficiency and qualifications of
       the Recovery Act acquisition and grants workforce. Based on our survey, the grants workforce for the five Department operating
       units receiving ARRA funding totaled over 800 employees. This includes grant officers, grants program managers, and grants
       specialists.

       Despite these numbers, however, a serious shortage of skilled, specially trained staff hampers the Department’s ability to
       appropriately issue and oversee grants and contracts. To ensure that grants and contracts are issued effectively and funds are
       properly spent, the Department must build up the size and skill of this workforce and improve its oversight processes.

       NOAA Headquarters Leadership Structure

       NOAA continues to face the challenge of carrying out its multifaceted mission to understand and predict changes in Earth’s
       environment and to conserve and manage coastal and marine resources to meet our Nation’s economic, environmental, and
       recreational needs. NOAA is realigning its headquarters leadership structure to streamline decision making and provide greater
       policy-level attention to day-to-day management and oversight of its programs. The realignment is intended to provide additional
       strategic guidance and leadership direction for NOAA’s stewardship responsibilities, including fisheries.

       One of the key mission components is management, research, and services related to the protection and rational use of living
       marine resources. Our 2008 Top Management Challenges report discussed NOAA’s need to balance conservation and commercial
       fishing. Over the past 18 months, we have issued several reports that demonstrate, in particular, the difficulty of achieving this
       balance. In a 2009 report, we evaluated a series of issues regarding the work and scientific methods of the National Marine
       Fisheries Service’s (NMFS) Northeast Fisheries Science Center. In 2010, we issued three reports on the programs and operations of
       the Office of Law Enforcement within NMFS and NOAA’s Office of General Counsel for Enforcement and Litigation.

       Department Headquarters Renovation

       The Department’s headquarters, the General Services Administration (GSA)-owned Herbert C. Hoover Building in Washington,
       D.C., is undergoing an extensive renovation. The renovation will take about 13 years and is estimated to cost almost $960 million.
       The project is being funded mostly by GSA and the ARRA. Because of its scale, the renovation has the potential to disrupt
       Commerce operations and affect its workforce. Accordingly, the Department has a primary interest in ensuring that the renovation
       is completed on time, within budget, and free of fraud. To meet this goal, Commerce and GSA need to provide comprehensive
       oversight throughout the project’s life cycle.




 356                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          A ppendix C : M anagement C h allenges




                       T h e D epartment ’ s S tatement on A C T I O N S TA K E N

                  to A D D R E S S T H E F Y 2 0 1 0 T O P M A N AG E M E N T C H A L L E N G E S



Each year, the OIG reviews the Department’s and its component bureaus’ program activities to ensure that the management,
financial, and operational activities are sound and meet the requirements of the Chief Financial Officers (CFO) Act and the
Government Performance and Results Act (GPRA).

The emphasis by the President, the Office of Management and Budget (OMB), and Congress on improved government accountability
underscores the Department’s resolve to enhance transparency within the Department while promoting improved efficiency and
effectiveness. Progress in these endeavors requires strong commitment from the Department’s senior leadership and staff at
all levels.

The following are descriptions of Departmental and bureau actions to address the management challenges identified by the IG.



                       T O P M anagement C H A L L E N G E S F O R F Y 2 0 1 0


Challenge 1: Decennial Census – Mitigate Issues with the
2010 Decennial While Addressing Future Census Challenges

The PBOCS received daily executive-level attention and review via the Application Readiness and Infrastructure Stability group
as well as constant attention from the development team and technical contractors. In April, the Census Bureau implemented a
number of fixes focusing on system stability with the help of high-level technical engineers from the vendors whose hardware and
software comprise the PBOCS. The Census Bureau also developed and implemented a contingency system outside of the PBOCS to
track the shipping of questionnaires from the local census offices to the Paper Data Capture Centers.

Since late May, the PBOCS was generally stable and highly productive for NRFU, NRFU re-interview, and the Vacant Delete Check
(VDC) Operation. The Census Bureau checked in and data captured a total of more than 165 million questionnaires. The PBOCS
VDC software was successfully used during field operations. VDC material printing and assignment preparation went smoothly,
with many offices completing material printing on the first day. VDC production completed over 8.7 million VDC cases.

On June 18, after careful consideration of the risks and costs, the decision was made to move Field Verification to the contingency
application developed in parallel with PBOCS. The contingency application was built on the control system that supported the
Census Coverage Measurement Independent Listing operation and made use of specific modules of the Census 2000 Operations
Control System that supported the Field Verification. This decision allowed PBOCS developers to concentrate on VDC. The Field
Verification contingency was used successfully for the field operation.

Though the PBOCS system fell short in some areas, the Census Bureau completed the NRFU operation on time and under budget.
Additionally, initial quality indicators from the re-interview program were all positive compared to Census 2000. The Census
Bureau also would like to note that PBOCS was used quite successfully to assign and manage the work for a number of operations
earlier this year: Enumeration of Remote Alaska, Group Quarters Advance Visit, Group Quarters Enumeration, Update/Leave, and
Update/Enumerate. PBOCS reached a state of stability that allowed us to complete 2010 field operations successfully.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      357
A ppendix C : M anagement C h allenges




       Challenge 2: IT Security – Continue Enhancing the Department’s Ability
       to Defend Its Systems and Data Against Increasing Cyber Security Threats

       The Department has continuously made strides in improving its IT security program over the years. In 2010, the Department
       developed an IT security strategic plan to strengthen its IT security infrastructure as an effort to institute a sustainable and
       consistent security practice to guard against the ever increasing cyber security threats. The following are some of the most
       significant IT security accomplishments achieved this year:

       ●● Conducted rigorous IT security compliance reviews based on federal standards and guidelines, and previous OIG certification
           and accreditation recommendations; 90 percent of the Department’s 280 information systems have authority to operate
           status.

       ●● Implemented     monthly reviews of Departmental information systems utilizing information within the automated IT
           security tool, Cyber Security Assessment and Management (CSAM). CSAM tracks progress in authority to operate status,
           contingency plans and tests, and privacy threshold analysis. Used scorecards to develop quarterly trend analysis, and
           provided them to the Department’s CIO Council. Also implemented a Department-wide plans of action and milestones
           (POA&M) management monitoring program using CSAM. Dashboards are sent to operating unit CIOs tracking POA&M
           status. The implementation of this monitoring program has improved operating unit POA&M management.

       ●● Worked   with the Office of Financial Management to create the IT audit working group to address and resolve financial
           statements audit IT findings, develop enterprise-wide solutions, and prepare for future financial statements audits.
           The group developed and implemented a tracking and management procedure to provide monthly progress reports on
           the resolution of audit findings. By July 2010, the group reported nearly 84 percent of the 70 FY 2009 IT findings as
           closed.

       ●● Addressed  the findings and recommendations issued by the OIG in the Commerce Should Take Steps to Strengthen Its
           IT Workforce1, by developing and implementing a cyber security development program, a security role-based training
           program offered to candidates throughout the Department.

       ●● Updated   the IT security program policy by implementing a number of interim policies relating to areas such as remote
           access, password requirements, and peer-to-peer technology. Provided additional guidance on IT security roles and
           responsibilities in terms of the security authorization process and IT investment security authorization responsibilities.

       ●● Coordinated with the Federation of Computer Incident Response Team (CIRT) and the U.S. Computer Emergency Readiness
           Team (US-CERT) at the Department of Homeland Security (DHS) to receive timely security alerts and notifications. As
           a result, the Department detected malicious cyber attacks against its network and developed plans to remediate and
           prevent potential threats and vulnerabilities.

       ●● Signed a memorandum of agreement with DHS to begin implementing trusted Internet connections. The Department
           completed the compliance validation assessment for NOAA’s efforts. The majority of the Department’s operating units
           have completed a statement of work for the Managed Trusted Internet Protocol Service (MTIPS). MTIPS orders are
           expected to begin in FY 2011.

       USPTO continues to work diligently with the OIG and the Department to improve the Agency’s overall IT security program.
       The OCIO revised IT Security policies and procedures to comply with new OMB FISMA guidance.




       1 Commerce Should Take Steps to Strengthen Its IT Workforce Final Audit Report No. 19569-1, September 2009.




 358                                                                  F Y   2 0 1 0         P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          A ppendix C : M anagement C h allenges




Challenge 3: NOAA Environmental Satellites – Effectively Manage Technical, Budgetary, and
Governance Issues Surrounding the Acquisition of NOAA’s Two Environmental Satellite Systems

NOAA and NASA are developing a Management Control Plan for JPSS, modeled on the GOES-R plan, to ensure that the appropriate
management and engineering oversight are applied to both. NOAA believes that both JPSS and GOES-R are on the path to achieve
mission success through the following actions:

●● Alignment with a proven acquisition center.JPSS and GOES-R are aligned with NASA’s Goddard Space Flight Center as
   its acquisition center. By having NASA as NOAA’s acquisition agent, NOAA will be implementing the satellite systems
   using the rigorous framework of NASA’s disciplined, comprehensive strategic acquisition and program management
   process. NOAA structured acquisitions with significantly more direct government control with the government team
   supported by the depth and breadth of the technical and business resources of the NASA Goddard Space Flight Center.
   This construct builds upon the decades-long, successful partnership between NOAA and NASA.

                                                            JPSS and GOES-R are budgeted with sufficient resources to
●● Realistic budget at a cost confidence level of 80 percent.
   address known challenges as well as to address issues that may arise during development.

                                                                                                Both JPSS and GOES-R are
●● Clear lines of authority and responsibility (NOAA as lead with NASA as the acquisition agent).
   structured with clear lines of authority and accountability. Decision-making lies with the NOAA Deputy Under Secretary
   who receives technical and management input from NOAA and NASA. The JPSS programmatic decision-making has been
   streamlined to the NOAA Program Management Council which includes participation from senior executives at NASA
   Goddard Space Flight Center and NASA headquarters. The programs are structured so that technical and engineering
   decisions are dealt with by the technical experts at NASA Goddard Space Flight Center and the strategic direction is
   provided by a single organization—NOAA. Therefore decision-making is not stymied because of conflicting priorities and/
   or budgeting strategies.

●● Frequent independent reviews by technical teams.    The NPOESS Independent Review Team lead by Tom Young will
   continue to provide frequent and in-depth reviews of the JPSS and GOES-R programs. The teams will provide input at
   all significant stages of the programs and provide their assessments so that cost, schedule, and technical issues are
   addressed as efficiently as possible and communicated to all appropriate levels of authority.

Challenge 4: American Recovery and Reinvestment Act – Meet the Challenges of
Accountability and Transparency with Effective Oversight of Program Performance,
Compliance, Spending, and Reporting

NIST supports the Department as it determines and implements the appropriate solutions for the automated transfer of data from
the bureaus to Department headquarters. NIST implemented an automated script to generate the Financial Activity Report data
and to provide it to the NIST Budget Division, which must submit it manually to the Department. NIST has also implemented an
automated reconciliation process for ARRA reporting.

NIST Business Systems Division began to repair a previously existing automated interface between NIST’s Grants Management
Information System (GMIS) and the NIST Core Financial System in the third quarter of FY 2009. The fix was fully deployed in
early July 2010.

In addition, NIST implemented an automated data exchange for grants information between the NIST instance of its Core Financial
System and NOAA’s Grants Online system. This data exchange, which went live in early November 2009, is used for EDA and NTIA
grants for which NOAA performs grants administration and NIST performs financial accounting functions.


F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                  359
A ppendix C : M anagement C h allenges




       The NIST Grants and Agreements Management Division (GAMD) implemented the ARRA Recipient Reporting Standard Operating
       Procedures (Procedures) on September 12, 2009. These Procedures were created prior to the first reporting cycle in www.
       federalreporting.gov. Among other ARRA reporting requirements, the Procedures define material omissions and significant
       reporting errors, including the necessary actions GAMD staff need to take when confronted with these issues. In addition, the
       Acquisition Management Division (AMD) at NIST, in response to ARRA, issued seven Standard Operating Procedures (SOP) in May
       and June 2009 to ensure AMD’s compliance with the review and reporting requirements in ARRA. The SOPs have been reviewed
       and revised as needed when new guidance is issued by the Department or OMB. AMD’s SOPs also include the definition of
       material omissions and significant reporting errors and the necessary action to be taken by AMD staff.

       In order to ensure that the recipient’s primary place of performance is captured for usaspending.gov, NIST has added the primary
       place of performance data field in its GMIS. This will mitigate any risk of inconsistencies between the data in federalreporting.
       gov and the data in usaspending.gov.

       Due to the small size of the workload related to BTOP grants, NIST is not pursuing an automated means of reviewing the data
       at this time. NIST had hired seven contractors to work solely on ARRA awards. With this additional staff, the data review in
       federalreporting.gov will be more accurate since there is a small workload per staff member. If it is determined that subsequent
       rounds of BTOP awards will increase the workload to a point where there could be a risk of failure to validate the data, then an
       automated system will be considered. Currently, an automated system other than federalreporting.gov is not needed.

       AMD also supports EDA and the National Technical Information Service (NTIS) with contracting services increasing the workload
       for AMD staff. Neither EDA nor NTIS has its own contracting staff. Due to the tremendous workload in FY 2010, AMD has awarded
       a contract for contract support for ARRA projects.

       NTIA is in the process of finalizing integrated and responsive systems, tools, and technical assistance resources that will assist the
       recipients, BTOP staff, and NOAA/NIST to report and track projects. These systems include Grants Online, GMIS, the Management
       Dashboard Tool (MDT), the Correspondence Tracker, and the Post Award Monitoring System (PAM). NTIA also established a
       link on each grant Web page to post performance reports. The Grants Online and GMIS systems, used by NOAA and NIST
       respectively, allow NOAA and NIST to manage and administer grants and will be accessible by recipients and program staff
       through a PAM interface. PAM, launched in July 2010, serves as a workspace and database that houses document libraries for
       most recipient data and will enable the transfer of files between recipients and the BTOP Program Office. MDT was delivered in
       March 2010 and provides recipient-specific program and portfolio views of grant status for use by BTOP senior leadership and
       program management. Program staff will also be able to use MDT as a monitoring tool that synthesizes information from various
       databases into a single user interface. The Correspondence Tracker was used in pre-award and will be leveraged for tracking
       post-award communications as well. During final development and implementation, manual procedures are in place to support
       staff in fulfilling post award responsibilities.

       Challenge 5: USPTO – Address the Patent Office’s Resource and Process Issues

       One of USPTO’s strategic goals and USPTO’s High Priority Performance Goal identifies USPTO’s commitment to reducing the backlog
       of unexamined patent applications. USPTO must reduce the time it takes for first action and final action on a patent application
       below the respective FY 2009 levels of 25.8 months and 34.6 months by the end of FY 2011. More importantly, USPTO will reduce
       the backlog of unexamined patents below the FY 2009 level of 735,961 by the end of FY 2011. There are a number of challenges
       involved, including application filings which may be largely driven by the economy, improvements in process efficiencies, and the
       hiring of new examiners.




 360                                              F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                          A ppendix C : M anagement C h allenges




The following activities either have been or will be implemented to meet the management challenges to reform the patent
application process, update IT systems, and reduce pendency:

●● USPTO  and its patent professional employee union have agreed to a new production crediting system that places its
   emphasis on complete and thorough initial examination, decreases redundancy, and encourages quicker resolution of
   issues in the patent application process. This fundamental design is aimed at improving quality and reducing rework,
   thereby resulting in a decrease in the application backlog and pendency.

●● USPTO   proposed a new patent examination initiative that will provide applicants greater control over the speed with
   which their applications are examined and promote greater efficiency in the patent examination process, thus allowing
   USPTO to deploy its resources to better meet the needs of innovators. Under the Three-Track initiative, an applicant may
   request: Track I: prioritized examination within12 months; Track II: traditional examination under current procedures; or
   Track III: an applicant-controlled delay for up to 30 months prior to docketing for examination.

●● USPTO  is re-engineering its quality management program from top to bottom to focus on improving the process for
   obtaining the best prior art, as well as on improving the quality of the initial application and the entire examination and
   prosecution process. USPTO published requests for comments and conducted two public roundtable meetings soliciting
   input from the public with respect to methods that may be employed by applicants and USPTO to enhance the quality
   of issued patents, to identify appropriate indicia of quality, and to establish metrics for the measurement of the indicia.
   Based upon the inputs gathered, USPTO, in conjunction with Patent Policy Advisory Committee is now in the process of
   developing new quality metrics to be implemented in FY 2011. A key objective in the design of these new metrics is to
   place emphasis on monitoring quality at each major step in the prosecution and examination processes in order to reduce
   duplication of work and to increase examination efficiency and quality, and thereby reduce pendency.

●● USPTO  plans to hire, train, and retain highly skilled and diverse examiners. While continuing to draw candidates from
   traditional sources, it is expected that including IP experienced hires will assist in developing a balanced workforce, a
   lower attrition rate, and a faster transition to productivity for new hires. Recruiting candidates having significant IP
   experience will lead to a reduced training burden and increased ability to examine applications much sooner than a
   traditional hire.

Additional management challenges include funding authority that sustains operations on a multi-year basis and takes into
account revenue fluctuations and the need to better align fees to costs. USPTO strategic goals cannot be achieved without a
reliable and sustainable source of funding. To accomplish these goals USPTO must have the authority to set the fees necessary to
recover the cost of operations, to spend fees collected on requirements-based operations, and to adapt and manage its funding
requirements as changes occur in internal and external conditions.

USPTO does not have sufficient resources to reduce the patent application backlog and achieve the stated pendency goals without
an increase in funding. The Agency is seeking legislative authority to implement an interim increase in patent fees to recover
the cost of operations as defined in its requirements-based budgets. The interim fee increase is a bridge to provide the required
resources until USPTO obtains fee-setting authority and develops a fee structure in cooperation with its stakeholders that will
provide sufficient financial resources to support its multi-year performance goals and objectives. USPTO must have a means to
ensure a sufficient and predictable revenue stream year over year. A temporary interim fee increase will not accomplish that goal




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                    361
A ppendix C : M anagement C h allenges




          O t h er I ssues R e q uiring S ignificant M anagement A ttention


       Centralized Management and Oversight

       NOTE: This Management Challenge crosses multiple functional boundaries within the Office of the Secretary. It would be
       inappropriate for OAM to answer on behalf of other offices within the Office of the Secretary, or for the CFO/Assistant Secretary for
       Administration (ASA).

       Provided below is a discussion of efforts to address this challenge within the context of the Acquisition and Grants functional areas.

       Stakeholder Perspective

       ●● Some acquisition customers are often confused by differing process requirements imposed by different Department
          Acquisition offices.

       ●● Some acquisition customers are perplexed by differing customer service levels provided by differing Department Acquisition
          offices.

       ●● Senior Departmental managers have differing perspectives on the roles and responsibilities of OAM.


       Background

       While the Department Senior Procurement Executive has responsibility for Departmental acquisitions and grants, she has extremely
       limited authority over the offices or employees who conduct these actions. This makes it difficult to implement Departmental
       initiatives desired by senior management. Bureau Acquisition and Grant offices report to bureau managers, not to the Department
       Senior Procurement Executive.

       Acquisition service delivery and related customer service standards are similarly difficult to manage from a Departmental
       perspective. Because of her lack of authority over Department Acquisition and Grant offices, Bureau Acquisition and Grant office
       managers operate autonomously.

       Actions Taken

       OAM has contracted with the Logistics Management Institute to perform an acquisition improvement study to evaluate all aspects
       of the Department acquisition system and make appropriate recommendations. Part of their task is to evaluate and recommend
       an appropriate organizational and functional structure that can better meet Department needs.

       Major Systems Acquisitions

       On June 18, 2010 Secretary Locke directed then Deputy Secretary Hightower and General Counsel Cameron Kerry to spearhead
       an immediate and comprehensive review of the acquisition processes across the Department. In his directive, he requested an
       evaluation of the current acquisition process to determine lessons learned, identify problems and inefficiencies with the current
       processes and implement best practices to ensure that effective processes are in place.

       The Acquisition Council, chaired by Scott Quehl, CFO and Assistant Secretary for Administration, is leading this effort. In July 2010,
       the Department engaged LMI, a government consulting firm, to undertake an Acquisition Improvement Study. As part of the study



 362                                              F Y   2 0 1 0   P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                          A ppendix C : M anagement C h allenges




and overall improvement effort, the Department is focused on improvements in several critical areas, including but not limited to,
requirements development, planning, workforce, and leveraging of spending across the Department.

Contracts and Grants Management Workforce

Acquisition and contract management has been a consistent watch list item for IGs and the Government Accountability Office
(GAO), as related government spending has ballooned in recent years. Spending on contracts government-wide, for example, has
more than doubled since 2000, from $208 billion to $538 billion in FY 2009, while the federal acquisition workforce has remained
fairly constant. Roughly the same number of skilled professionals now oversees more than twice as many federal contract dollars
as they did nine years ago, and the projects they support have greatly increased in complexity and risk. Shortfalls and failures in
major systems acquisitions are all too common in federal programs. Contracts of all sizes and complexity are at risk for fraud and
waste because of poor oversight and lax controls.

In FY 2009, implementation of the ARRA significantly increased the workload of the Department Acquisition and Grants workforces,
straining an already over-burdened workforce to the breaking point.

FY 2010 has seen even further increases in both the amount and complexity of work required of the Acquisition and Grants
workforces. OMB and Congressional requests for data, the submission of new reports, and other measures intended to increase
transparency all consume available time and resources. Little of the data required to respond to these requests is available within
existing information management systems. Without additional management support and resources, it is likely that the quality
and timeliness of support provided to the Department by its operational contracting and grants offices will decline.

Actions Taken

Department Acquisition and Grants offices have worked closely with the Office of Human Resources Management (OHRM) to
attract and hire additional employees, employing a variety of hiring authorities. All appropriate authorities (Direct Hire, Rehired
Annuitants, Veteran Rehabilitation Act, etc.) are being utilized to bring contract specialists on board. The Department continues
to struggle, as do other federal agencies, to identify and bring on board qualified candidates.

With the assistance of OHRM, OAM completed actions establishing a Department Federal Acquisition Intern program to attract
and hire new employees into the Department acquisition workforce. The program developed was modeled after the Department’s
highly successful Financial Management Intern program, administered by the Office of Financial Management. This initiative is
deemed essential to building the future acquisition workforce of the Department. Implementation of this initiative was planned
for FY 2010; however, funding constraints precluded participation in this program by any Department bureaus. If additional
funding is provided in FY 2011, OAM will again attempt to initiate a Federal Acquisition Intern program at the Department. OAM
also completed the following actions:

●● Updated and published the Commerce Acquisition Regulation, which establishes uniform acquisition policies and guidance
   that implement and supplement the Federal Acquisition Regulation;

●● Prepared and disseminated acquisition guidance to enhance processes to more effectively execute and administer contracts
   such as Procurement Memoranda, Commerce Acquisition Manual (CAM) Chapters and a Department Administrative Order;

●● Revised the Acquisition Career Management program to update training and certification requirements of the Federal
   Acquisition Certification programs for Contracting Officer Representatives (COR) to include the role of Task Manager and to
   emphasize the need to appoint CORs during the first stage of the acquisition planning process as they are key members of the
   acquisition team;


F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                      363
A ppendix C : M anagement C h allenges




       ●● Provided classroom and online training opportunities to the acquisition workforce for 21 different competency areas;


       ●● Established guidance to define requirements and processes for certification under the Federal Acquisition Certification program
          for program/project managers, including those managing ARRA-funded projects;

       ●● Provided policy and guidance for planning, awarding, and administering contractual actions and/or processing or administering
          interagency acquisitions involving funding provided in whole or in part under the ARRA;

       ●● Provided guidance to ensure contracting offices conducted appropriate outreach activities and offered assistance to recipients
          of ARRA-funded contracts in meeting their reporting requirements, and tools to help contractors reduce the risk of miscoding
          or omitting required ARRA data;

       ●● Developed an Acquisition Human Capital Plan which identifies the long-term recruitment, retention, and development needs
          of the acquisition workforce and a strategic action plan to address them;

       ●● Revised the CAM chapter on the Purchase Card program to reflect best practices in oversight, including limiting card limits
          in excess of the micro-purchase limit to those individuals holding a Level I Contracting Officer warrant, establishing a formal
          oversight process, conducting oversight reviews, and utilizing the automated oversight tools available under the SmartPay2
          contract and task order. Enhanced purchase card oversight to enable automated notifications to purchase card holders and
          their supervisors of any duplicate or split purchases. Awarded a task order to have a contractor conduct regular purchase card
          oversight reviews; and

       ●● Conducted Acquisition Management Reviews to evaluate the effectiveness and efficiency of the contracting offices and provided
          suggestions to improve any noted weaknesses or deficiencies. These are the first such reviews performed in over 10 years.

       As of August 26, 2010, a total of 1508 CORs, and 47 program/project managers have completed the requirements established
       in CAM chapter 1301.670 Contracting Officer Representative Certification Program, and CAM chapter 1301.671 Program/Project
       Manager Certification Program and have received Federal Acquisition Certification.

       But success in these efforts will not be enough to improve the Department’s overall acquisition operations without commensurate
       success in hiring and retaining a qualified acquisition workforce. The pool of applicants for these jobs is not large, and the looming
       retirement of some 50 percent of the current federal acquisition workforce over the next 10 years may well push shortages beyond the
       critical point. Working jointly, OAM and OHRM have developed a comprehensive human capital strategy that (1) taps into all available
       recruiting initiatives, (2) explicitly defines what acquisition skills and competencies are needed and how they will evolve over the short
       and long-term, and (3) offers professional development and other incentives to attract and keep qualified candidates.

       But even if all of these measures succeed in attracting qualified candidates, the Department’s Acquisition and Grants offices are limited
       in the number of employees they can hire by budgetary restrictions, and in NOAA’s case, a statutory cap on overhead. While acquisition
       and grants processes can be continually improved, and current employees trained to acquire additional knowledge, the simple fact
       remains that the workforce has reached the point of workload saturation, and additional employees are required if the Department is
       to meet presidential mandates to improve the quality and effectiveness of the acquisitions and grants it awards and administers.

       An important clarification that merits discussion is the OIG’s statement that more than 1,500 Department employees hold
       certification in various acquisition positions, and more than 800 employees are included in the grants workforce. It must be
       noted that this number includes Department employees who work in program offices, developing requirements, and overseeing
       contract and grant performance. It does not reflect the true size of the workforce challenged to prepare, award, and administer



 364                                                F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                             A ppendix C : M anagement C h allenges




contracts and grants valued in billions of dollars annually. This much smaller workforce consists of only 263 employees working
in Department Acquisition offices and 172 employees working in Department Grants offices.

NOAA Headquarters Leadership Structure

NOAA headquarters proposed a reorganization of senior leadership to: (1) streamline decision-making and increase accountability,
and (2) to clearly delineate authority and responsibilities. Under the proposed reorganization, the three key functions of the
Agency—conservation and management, environmental observation and prediction, and research and education—align directly
to the two Assistant Secretaries and the Chief Scientist to ensure comprehensive policy development around these mission
requirements. On December 11, 2009, Congress approved the reorganization proposal, and on July 14, 2010, the Department
approved the Department Organization Order, the final step in the reorganization process.

The reorganization created the Principal Deputy Under Secretary for Oceans and Atmosphere, who focuses on implementing
priorities across NOAA. NOAA now has two Assistant Secretaries: the Assistant Secretary for Conservation and Management who
drives policy and programs related to stewardship responsibilities, and the Assistant Secretary for Environmental Observations and
Predictions who will drive policy and programs related to observation capabilities and environmental data. In addition, the Chief
Scientist position, which existed in past Administrations, has been recreated. Two additional key positions were also created:
(1) the Director of Policy who will ensure better integration of the Under Secretary’s policy and budget priorities, and (2) the
Deputy Assistant Secretary for International Fisheries who will bridge the offices of NMFS and International Affairs and who will
lead international fishery negotiations. Finally, the Deputy Under Secretary for Oceans and Atmosphere has been renamed as
Deputy Under Secretary for Operations and will have authority to oversee NOAA operations critical to the Agency’s management
responsibilities and mission execution. The new structure allows for greater leadership-level attention on policy priorities and
reduces the number of direct reports to the Under Secretary from 28 to 6, vastly improving efficiency at the highest levels.

As a result of these changes, NOAA has already experienced improved strategic guidance and leadership direction. The Assistant
Secretary for Conservation and Management has played a key role in the Deepwater Horizon Spill Response, particularly related to
gathering and communicating scientific information—one of NOAA Administrator Dr. Lubchenco’s priorities for the Agency. In addition,
the Ocean Policy Task Force is about to release its final recommendations. The Director of Policy, Assistant Secretaries, Chief Scientist,
and others will be critical for ensuring NOAA engages fully in interagency coordination and coastal and marine spatial planning
nationwide. Another strategic priority for NOAA—strengthening science across the Agency—will be overseen by the Chief Scientist.

NOAA also recently hired a new Assistant Administrator for NMFS. The Assistant Administrator has been instrumental in taking
steps to improve NOAA enforcement efforts and relations with fishermen, particularly in the Northeast Region—the focus of the
two recent OIG reports.

Scientific Methods of the Northeast Fisheries Science Center. The first report examined the quality of the science used to
determine catch limits for New England commercial fisheries. Overall the Northeast Fisheries Science Center (NEFSC) was found
to meet the “best available science” requirements of the Magnuson-Stevens Fishery Conservation and Management Act, but
the report noted the industry’s underlying lack of confidence in NOAA science in the Northeast Region. Therefore, the report
recommendations focused on what NOAA can do to improve its relationship with the fishing industry.

To enhance the participation of the Northeast groundfish industry in the fisheries management process, the OIG recommended
NMFS incorporate data from scientifically rigorous industry-based surveys into fishery management. In response, NEFSC assisted
with the peer review of one such survey, the Northeast Area Monitoring and Assessment Program, conducted by the Atlantic
States Marine Fisheries Commission. NEFSC is working with the survey managers to ensure that these data are available for stock
assessments and to find permanent, secure funding for this work. NEFSC also continues to expand the use of electronic logbooks
and to pilot electronic trip reporting to improve submission efficiency and timeliness of fishermen’s catch data used by managers.



F Y   2 0 1 0   P E R F O R M A N C E    A N D    A C C O U N T A B I L I T Y    R E P O R T
                                                                                                                                             365
A ppendix C : M anagement C h allenges




       The OIG also saw the benefits of NEFSC’s cooperative research program to the fishing industry and recommended that this effort
       be enhanced. Since that time, NEFSC has developed a five-year strategic plan with industry. The program’s current focus is
       creating a gear technology network involving both academic scientists and industry to develop ways of fishing more efficiently
       and selectively.

       In addition, the OIG recommended improved communication with industry through formal education, a better Web site, and
       improved outreach. NEFSC continues to provide instructors and speakers for the region’s Marine Research Education Program. This
       is a classroom-based project for fishing professionals intended to foster leadership, break down historical barriers to cooperation,
       forge new areas of involvement for fishermen in the regulatory system, and fully engage the industry in the development of best
       available science.

       Review of NOAA Fisheries Enforcement Programs and Operations. The second report on NOAA enforcement activities—requested
       by the Under Secretary—echoed the message of NOAA needing better communication and fair engagement with the fishing
       community. As a result of the OIG finding, NOAA has taken decisive action to control enforcement funds, create new regulations
       to justify penalty assessments, and freeze hiring until a detailed workforce analysis is completed, all in an effort to restore trust
       in this region. In addition, the Office of External Affairs Director—another new position in NOAA headquarters—has created a
       communications plan that aims to increase NOAA’s transparency and rapport with fishermen, increase the frequency and improve
       the quality of interactions among fishermen and NOAA enforcement officers, increase public knowledge and understanding of
       fisheries and other regulations, and promote the biological and financial benefits of sustainable fishing. Of note, NOAA will hold
       a summit on law enforcement practices on August 3, 2010, to openly discuss these issues with the community.

       NOAA is committed to improving relationships with fishermen, particularly in the Northeast Region, as a means to achieving a
       balance between conservation and commercial fishing. The improved management structure at NOAA headquarters has already
       allowed the Agency to promptly address the issues raised in the two IG reports and to engage with the fishery to address current
       issues. NOAA staff at all levels will continue to take steps to improve transparency and build trust with fishermen nationwide as
       an important component of sound fisheries management.

       Specific actions related to the report on the Scientific Methods of the Northeast Fisheries Science Center:

       ●● Both the Northeast Area Monitoring and Assessment Program survey and the Maine-New Hampshire survey are now
          conducted twice per year, complementing the NEFSC bottom trawl surveys by collecting data in coastal areas too shallow for
          the FSV HENRY B. BIGELOW—one of NMFS’s primary fishery research vessels in the region.

       ●● Cooperative research efforts, following successful development of a haddock excluder trawl for larger vessels through the
          program, field tested two smaller excluder trawls and a 500 horsepower-scaled excluder net built and made available for trial
          aboard southern New England vessels.

       ●● In a project designed to address industry interest in better survey data for flatfish species, four southern New England vessels
          are testing survey nets designed to fish on rocky habitats. Three cruises were conducted in 2009, and two more are set for
          2010. The results will help determine whether a regular, specialized survey for flatfishes is needed to improve data used for
          stock assessments.

       ●● To improve education and outreach, NOAA has created a specialized Web site for groundfishermen and a newsletter for that
          industry sector; held telephone and in-person town meetings; appeared on local seafood-oriented radio programs; and conducted
          an extensive educational effort using small group instruction, hotlines, webinars, and conference calls to ensure understanding of
          new reporting and monitoring requirements. A revamped NEFSC Web site is expected to deploy in the fall of 2010.



 366                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                          A ppendix C : M anagement C h allenges




Highlights of progress made related to the Review of NOAA Fisheries Enforcement Programs and Operations:

●● The process for setting enforcement priorities will be completed in summer 2010 as scheduled and will be discussed during the
   August Enforcement Summit. The Enforcement Summit will provide a venue to gather stakeholder recommendations related
   to priority setting and approaches to enforcement services.

●● On February 3, 2010, NOAA implemented a hiring freeze imposed on Special Agent positions, which remains in place. The
   workforce analysis team has been created and has completed their analysis phase. The team has prepared draft recommendations
   that continue to undergo refinement and internal review.

●● In updating the National Enforcement Operation Manual, the NMFS Office of Law Enforcement is reviewing other agencies’
   approach to regulatory enforcement and has initiated initial document collection.

●● The Office of General Counsel for Enforcement and Litigation is integrating their new electronic information system with
   the Office of Law Enforcement’s electronic law enforcement information system. The interim combined monthly report was
   completed by July 7, 2010 on schedule. Going forward, the Office of Law Enforcement has contracted services to create the
   interface between the two systems.

Department Headquarters Renovation

Because of the scale of the Herbert C. Hoover Building (HCHB) Renovation Project, the renovation has the potential to disrupt
Department operations and affect its workforce. Accordingly, the Department is working with the GSA to ensure the renovation
is completed on time, within budget, and free of fraud.

As the renovation progresses, the OIG will continue oversight of the project management including coordination with GSA National
Capital Region’s IG and Public Buildings Services, Commerce’s Office of Administrative Services, and the primary construction
contractor (Gilbane-Grunley Joint Venture). The OIG completed its initial report and findings on the management of the HCHB
Renovation Project on August 5, 2010. The Office of Administrative Services is working on a remediation plan to the OIG’s
recommendations regarding GSA Reimbursable Work Authorizations tracking process and a formal HCHB rent agreement between
GSA and the Department.

The Department has instituted a balanced scorecard as a strategic and management system. The HCHB renovation is part of
this scorecard. This will align the renovation project to the Department’s vision and strategy, improve internal and external
communications, and monitor performance against its strategic goals. The balance scorecard will view the HCHB Renovation
Project from four perspectives:

●● Financial;

●● Schedule;

●● Scope – changes from the baseline; and

●● Customer – disruptive incident.

Continued interactions with the Department and GSA will continue throughout the project.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                   367
APPENDIX D:   A P P E N D I x D : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




                                I mproper payments information act ( I P I A ) of 2 0 0 2 ,

                                                    A S A M E N D E D , R eporting D etails




                     I
                            PIA of 2002, as amended by the Improper Payments Elimination and Recovery Act of 2010, was enacted to provide
                            for estimates and reports of improper payments by federal agencies. The act requires that federal agencies estimate
                            improper payments and report on actions to reduce them. A review of all programs and activities that the Department
                     administers is required annually to assist in identifying and reporting improper payments. The Department has not identified
                     any significant problems with improper payments; however, the Department recognizes the importance of maintaining
                     adequate internal controls to ensure proper payments, and the Department’s commitment to continuous improvement
                     in the overall disbursement management process remains very strong. Each of the Department’s payment offices has
                     implemented procedures to detect and prevent improper payments. For FY 2011 and beyond, the Department will continue
                     its efforts to ensure the integrity of its disbursements.

                     I. Briefly describe the risk assessment(s) performed subsequent to completing its full program inventory.
                     List the risk-susceptible programs (i.e., programs that have a significant risk of improper payments based on
                     Office of Management and Budget (OMB) guidance thresholds) identified through its risk assessments. Be sure
                     to include the programs previously identified in the former Section 57 of OMB Circular A-11, Preparation,
                     Submission, and Execution of the Budget (now located in OMB Circular A-123, Appendix C, Requirements
                     for Effective Measurement and Remediation of Improper Payments). Please highlight any changes to its risk
                     assessment or its risk assessment results that occurred since its last report.

                     The Department annually conducts an assessment of the effectiveness of internal control over financial reporting, in
                     compliance with OMB Circular A-123, Management’s Responsibility for Internal Control. The FY 2010 assessment included
                     a review of internal controls over disbursement processes, which indicated that current internal controls over disbursement
                     processes are sound.

                     Each of the Department’s bureaus/reporting entities have completed or are performing, over a one to three-year period
                     (depending on the size of the entity), improper payments risk assessments covering all of its programs/activities as required
                     by OMB Circular A-123, Appendix C. These improper payments risk assessments of the entity’s programs/activities also
                     include assessments of the corporate control, procurement, and grants management environments, and will thereafter
                     be updated or revised on a periodic basis. The improper payments program/activity risk assessments performed thus far
                     revealed no risk-susceptible programs.

                     The results of Departmental assessments revealed no risk-susceptible programs, and demonstrated that, overall, the
                     Department has strong internal controls over disbursement processes, the amount of improper payments by the Department
                     is immaterial, and the risk of improper payments is low.




               368                                           F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
A P P E N D I x D : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




II. Briefly describe the statistical sampling process conducted to estimate the improper payment rate for each
program identified. Please highlight any changes to its statistical sampling process that have occurred since
the last report in this section.

In FY 2010, the Department conducted a sampling process to draw and review random samples of disbursements greater
than $100 thousand from a Department-wide universe of disbursements. Grants, travel payments, bankcards/purchase cards,
all procurement vehicles with other federal agencies, government bills of lading, and gifts and bequests were excluded from
review. Each selected sample item was then subjected to a review of original invoices and supporting documentation to
determine that the disbursement was accurate, made only once, and that the correct vendor was compensated. The results
of the Department’s review did not reveal any significant improper payments. The same results were achieved following a
similar review in FY 2009. An estimated improper payment rate, accordingly, was deemed not necessary.


III. Describe the Corrective Action Plans (CAP) for reducing the estimated rate and amount of improper
payments for each type of root cause of error. Include in this discussion the corrective action(s) most likely
to significantly reduce future improper payments due to each type of error an agency identifies. If efforts are
ongoing, it is appropriate to include that information in this section, and to highlight current efforts, including
key milestones.

The results of Departmental assessments demonstrate that, overall, the Department has strong internal controls over
disbursement processes, the amount of improper payments by the Department is immaterial, and the risk of improper
payments is low. While the Department, accordingly, does not have a need for CAPs for improper payments, the Department
has, nevertheless, further enhanced its processes and is actively working with each of the Department’s payment offices
to identify and implement additional procedures to prevent and detect improper payments. In FY 2010, the Department
continued with the bureaus’ quarterly reporting of any improper payments to the Deputy Chief Financial Officer (CFO),
along with identifying the nature and magnitude of any improper payments and identifying any necessary control
enhancements.

The Department has additionally reviewed all financial statement audit findings/comments, and results of any other
payment reviews, for indications of breaches of disbursement controls. None of these audit findings/comments or reviews
have uncovered any significant problems with improper payments or the internal controls that surround disbursements.


IV. Discuss payment recapture audit efforts, if applicable, including any contract types excluded from review
and the justification for doing so; actions taken to recoup improper payments; and the business process changes
and internal controls instituted and/or strengthened to prevent further occurrences.

In May 2010 and October 2010, payment recapture audits were completed for the Bureau of Industry and Security (BIS),
and for the National Technical Information Service (NTIS). Contracts/obligations closed after September 30, 2005 greater
than $100 thousand were reviewed. Grants, travel payments, bankcards/purchase cards, all procurement vehicles with other
federal agencies, government bills of lading, and gifts and bequests were excluded from review. The Department determined
that, for the above categories of closed contracts/obligations that were excluded from review, the Department’s costs for
the payment recapture audit activities would likely exceed the benefits of a payment recapture audit. Vendor inquiries were
performed for a sample of vendors to determine if the reporting entities had any open credits or debts with vendors. Of the
$11.6 million reviewed, $6 thousand was identified for payment recapture. The following table presents a summary of the
results of the Department’s current year (CY) and prior years (PY) payment recapture audits.




F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                              369
A P P E N D I x D : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




       (In Thousands)

                                                                                                               Cumulative
                                                         Amounts                                                 Amounts
                                                        Identified                  Amounts                     Identified
                               Amount       Actual          for                    Identified                      for      Cumulative
                              Subject to    Amount       Payment      Amounts          for        Amounts      Recapture     Amounts
                              Review for   Reviewed     Recapture    Recaptured    Recapture     Recaptured      (CY and   Recaptured
                                 CY          for CY       for CY       for CY        in PYs        in PYs          PYs     (CY and PYs
        Reporting Entity(s)   Reporting    Reporting    Reporting     Reporting    Reporting      Reporting    Reporting) Reporting)
        BIS                    $	 3,746    $	 3,181      $	      -     $	     -     	    N/A      	    N/A      $	     -       $	    -
        NTIS                   $	 9,603    $	 8,402      $	      6     $	     -     	    N/A      	    N/A      $	     6       $	    -
        EDA/S&E, and ITA       	   N/A     	   N/A       	    N/A      	    N/A     $	     -      $	     -      $	     -       $	    -
        DM/S&E, DM/WCF,        	   N/A     	   N/A       	    N/A      	    N/A     $	     -      $	     -      $	     -       $	    -
        and ESA/BEA
        Census Bureau,         	   N/A     	   N/A       	    N/A      	    N/A     $	    96      $	    96      $	    96       $	   96
        NIST, NOAA, and
        USPTO



       V. Describe the steps the agency has taken and plans to take (including time line) to ensure that agency
       managers (including the agency head) are held accountable for reducing and recovering improper payments.

       The Department has not identified any significant problems with improper payments; however, the Department recognizes
       the importance of maintaining adequate internal controls to ensure proper payments, and its commitment to continuous
       improvement in disbursement management processes remains very strong. The Department’s CFO has responsibility for
       establishing policies and procedures for assessing Departmental and program risks of improper payments, taking actions
       to reduce those payments, and reporting the results of the actions to Departmental management for oversight and other
       actions as deemed appropriate. The CFO has designated the Deputy CFO to oversee initiatives related to reducing improper
       payments within the Department, and to work closely with the bureau CFOs in this area.

       In FY 2010, the Department continued its reporting procedures that required quarterly reporting to the Department by
       its bureaus on any improper payments, identifying the nature and magnitude of any improper payments along with
       any necessary control enhancements to prevent further occurrences of the types of improper payments identified. The
       Department’s analysis of the data collected from the bureaus shows that Department-wide improper payments were at
       or below two-tenths of one percent in FY 2010 and FY 2009. The bureau CFOs are accountable for internal controls over
       improper payments, and for monitoring and minimizing improper payments.

       For FY 2011 and beyond, the Department will continue its efforts to ensure the integrity of its disbursements.


       VI. Describe whether the agency has the information systems and other infrastructure it needs to reduce
       improper payments to the levels the agency has targeted.

       The Department has ensured that internal controls, manual, as well as financial system, relating to payments are in place
       throughout the Department, and has reviewed all financial statement audit findings/comments and results of any other
       payment reviews for indications of breaches of disbursement controls. None of these audit findings/comments or reviews
       have uncovered any significant problems with improper payments or the internal controls that surround disbursements.



 370                                             F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y   R E P O R T
A P P E N D I x D : I mproper Payments I nformation Act ( I P I A ) , A s A mended , R eporting D etails




VII. Describe any statutory or regulatory barriers which may limit agency corrective actions in reducing
improper payments and actions taken by the agency to mitigate the barriers’ effects.

The Department has not identified any significant barriers to-date, but will notify OMB and Congress of any barriers that
inhibit actions to reduce improper payments if they occur.


VIII. Additional comments, if any, on overall agency efforts, specific programs, best practices, or common
challenges identified, as a result of IPIA implementation.

The Department’s Disbursement Best Practices. The following are some examples of internal control procedures used by the
Department’s payment offices:

●●   Limited/controlled access to vendor files—access to basic vendor information (e.g., name, address, business size, etc.)
     is available to financial system users; access to banking information, however, is strictly limited by system security to
     certain Office of Finance staff.
●●   Controlled access to financial system accounts payable screens—authority to create, edit, approve, process, and amend
     payment records is limited to certain Office of Finance financial system users. Also, authority to add or revise records
     in the vendor database is limited to separate Office of Finance system users.
●●   Segregation of duties for financial system data entry and review prior to transmitting disbursement files to Treasury—
     data entry duties are assigned to technicians in the Office of Finance who do not have authority to review and process
     payments. Authority to approve and process payments is assigned to accountants in the Office of Finance. Both data
     entry and approval/processing of payments are separate functions from transmitting disbursement files to Treasury.
●●   Financial system edit reports highlight potential items that may result in improper payments (e.g., invoice amount and accrual
     amount are not the same). There is a daily Invoice Workload Report that displays open amounts (not closed by a payment) on
     all invoices. This report is reviewed and action is taken to resolve partially open invoices. Furthermore, system settings prevent
     a payment in excess of the amount of the invoice.

●●   Daily pre-payment audit of invoices for accuracy, and corrective actions prior to disbursement, thereby preventing improper
     payments from occurring.

●●   Financial system edit checks if the vendor’s name on the payment does not agree with that on the obligation, or if the payment
     amount is greater than the obligation or accrual amount.

●●   The monthly vendor statement for purchase cards is interfaced into the financial system, thereby reducing data entry error.

●●   An accountant or supervisor reviews individual payments before releasing for payment, to help ensure that the correct banking
     information or payment addresses are used, and that the correct amount will be paid.

●●   Monthly post-payment random sample audits are performed for detection purposes.

●●   Contracts include a clause requiring the contractor to notify the contracting officer if the government overpays when making
     an invoice payment or a contract financing payment.




F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                          371
APPENDIX E:   A P P E N D I x E : S ummary of financial statement audit and management assurances




                                                S ummary of F inancial S tatement A udit

                                                           and M anagement A ssurances




                     P
                               resented below is a summary of financial statement audit and management assurances for FY 2010. Table 1 relates
                               to the Department’s FY 2010 financial statement audit, which resulted in an unqualified opinion with no material
                               weaknesses. Table 2 presents the number of material weaknesses reported by the Department under Section 2 of the
                     Federal Managers’ Financial Integrity Act (FMFIA)—either with regard to internal controls over operations or financial reporting—
                     and Section 4, which relates to internal controls over financial management systems; as well as the Department’s compliance with
                     the Federal Financial Management Improvement Act (FFMIA).

                     The Department had one recurring material weakness under FMFIA, Section 2 relating to information technology (IT) certification
                     and accreditation (C&A). Because of the significant progress that has been made in this area, this material weakness is considered
                     resolved. IT security will, however, continue to receive focused attention internally due to its importance to the Department and
                     its operating units.


                     Table 1. Summary of Financial Statement Audit
                      ●●   Audit Opinion:                  ●●   Unqualified
                      ●●   Restatement:                    ●●   No
                              Material Weaknesses           Beginning Balance               New              Resolved             Consolidated     Ending Balance
                      No Material Weaknesses                           0                     0                     0                   0                  0
                      Total Material Weaknesses                        0                     0                     0                   0                  0


                     Table 2. Summary of Management Assurances

                      Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
                      Statement of Assurance:              Unqualified
                      Material Weaknesses                  Beginning Balance           New        Resolved         Consolidated      Reassessed    Ending Balance
                      No Material Weaknesses                           0                0            0                  0                  0              0
                      Total Material Weaknesses                        0                0            0                  0                  0              0
                      Effectiveness of Internal Control over Operations (FMFIA § 2)
                      Statement of Assurance:              Qualified
                      Material Weaknesses                  Beginning Balance           New        Resolved         Consolidated      Reassessed    Ending Balance
                      IT Certification and Accreditation               1                0            1                  0                  0              0
                      Total Material Weaknesses                        1                0            1                  0                  0              0
                      Conformance with Financial Management System Requirements (FMFIA § 4)
                      Statement of Assurance:              Systems conform with financial management system requirements
                      Non-Conformances                     Beginning Balance           New        Resolved         Consolidated      Reassessed    Ending Balance
                      No Non-Conformance Issues                        0                0            0                  0                  0              0
                      Total Non-Conformances                           0                0            0                  0                  0              0
                      Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                               Agency                                                  Auditor
                      Overall Substantial Compliance                             Yes                                                       Yes
                      1. System Requirements                                                                 Yes
                      2. Accounting Standards                                                                Yes
                      3. USSGL at Transaction Level                                                          Yes



               372                                                   F Y   2 0 1 0   P E R F O R M A N C E          A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                         APPENDIX G: GLOSSARY OF KEY ACRONYMS




                                               GLOSSARY OF KEY ACRONYMS


    Abbreviation         Title                                             Abbreviation        Title


   A	     ACS	           American Community Survey                               COOP	         Continuity of Operations Plan

          ACSI	          American Customer Satisfaction Index                    COTR	         Contracting Officer Technical Representative

          AD	            Antidumping                                             CPD	          Coastal Programs Division

          ADP	           Automated Data Processing                               CPI	          Consumer Price Index

          AHS	           American Housing Survey                                 CPS	          Current Population Survey

          AML	           Advanced Measurement Laboratory (NIST)                  CRADA	        Cooperative Research and Development
                                                                                               Agreements
          APP	           Annual Performance Plan
                                                                                 CSRS	         Civil Service Retirement System
          ARRA	          American Recovery and Reinvestment Act
                         of 2009                                                 CSTL	         Chemical Science and Technology
                                                                                               Laboratory (NIST)
          ASAP	          Automated Standard Application for
                         Payments                                                CVD	          Countervailing Duty

          ATP	           Advanced Technology Program (NIST)                      CWC	          Chemical Weapons Convention

          ATS	           Annual Trade Survey                                     CWCIA	        CWC Implementation Act

          AWIPS	         Advanced Weather Interactive Processing                 CZM	          Coastal Zone Management (NOAA)
                         System                                                  CZMA	         CZM Act
                                                                                 CZMP	         CZM Program
   B	     BAS	           Boundary and Annexation Survey
          BDC	           Business Development Centers (MBDA)              D	     DFI	          Digital Freedom Initiative
          BEA	           Bureau of Economic Analysis                             DHS	          U.S. Department of Homeland Security
          BIS	           Bureau of Industry and Security                         DM	           Departmental Management
          BLS	           Bureau of Labor Statistics                              DOJ	          U.S. Department of Justice
          BNQP	          Baldrige National Quality Program                       DOL	          U.S. Department of Labor
                                                                                 DOL/OLMS	 DOL Online Labor Management System
   C	 CAMS	              Commerce Administrative Management                      DPAS	         Defense Priorities and Allocations System
                         System
                                                                                 DSSR 	        Demographic Surveys Sample Redesign
          CBP	           U.S. Customs and Border Protection
          CCSPS	         Climate Change Science Program Strategic
                         Plan                                             E	     EAA	          Export Administration Act

          CEDS	          Comprehensive Economic Development                      EAR	          Export Administration Regulations
                         Strategies                                              ECASS	        Export Control Automated Support System
          CEIP	          Coastal Energy Impact Program (NOAA)                    EDA	          Economic Development Administration
          CFO 	          Chief Financial Officer                                 EDD	          Economic Development Districts
          CFO/ASA	       Chief Financial Officer and Assistant                   EEEL	         Electronics and Electrical Engineering
                         Secretary for Administration (OS)                                     Laboratory (NIST)
          CIO	           Chief Information Officer                               EFT	          Electronic Funds Transfer
          CIRT	          Computer Incident Response Team                         ELGP	         Emergency Oil and Gas and Steel Loan
          CNST	          Center for Nanoscale Science and                                      Guarantee Programs
                         Technology (NIST)                                       ENC	          Electronic Navigational Chart
          COOL	          Commerce Opportunities Online                           ENSO	         El Niño/Southern Oscillation




F Y   2 0 1 0     P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                           373
APPENDIX G: GLOSSARY OF KEY ACRONYMS




   Abbreviation   Title                                               Abbreviation      Title


       EPO	       European Patent Office                                   GSP	         Gross State Product
       ESA	       Economics and Statistics Administration                  GSS	         Geographic Support System


  F	   FAIR	      Federal Activities Inventory Reform                H	    HR	          Human Resources
       FAR	       False Alarm Rate                                         HSS	         Heidke Skill Scores
       FCC	       Federal Communications Commission
       FECA	      Federal Employees Compensation Act                 I	    IA	          Import Administration (ITA)
       FEGLI	     Federal Employees Group Life Insurance                   ICANN	       Internet Corporation for Assigned Names
                  Program                                                               and Numbers
       FEHB	      Federal Employees Health Benefit Program                 ICEP	        International Catalog Exhibition Program
       FEMA	      Federal Emergency Management Agency                                   (ITA)

       FERS	      Federal Employees Retirement System                      ICT	         Information and Communication Technology

       FFMIA	     Federal Financial Management Improvement                 IDS	         Intrusion Detection Software
                  Act of 1996                                              IFQ	         Individual Fishing Quota Direct Loans
       FICA	      Federal Insurance Contributions Act                                   (NOAA)

       FISMA	     Federal Information Security Management                  IFW	         Image File Wrapper
                  Act                                                      IP	          Intellectual Property
       FMFIA	     Federal Managers’ Financial Integrity Act of             IP	          Internet Protocol
                  1982
                                                                           IRAC	        Interdepartmental Radio Advisory
       FMP	       Fishery Management Plan                                               Committee
       FR	        Field Representative                                     IRC	         Investment Review Committees
       FTA	       Free Trade Agreement                                     IRS	         Internal Revenue Service
       FTAA	      Free Trade Area of the Americas                          ISI	         Institute for Scientific Information
       FTE	       Full-Time Equivalent                                     IT	          Information Technology
       FVOG	      Fishing Vessel Obligation Guarantee                      ITA	         International Trade Administration
                  Program (NOAA)
                                                                           ITL	         Information Technology Laboratory (NIST)
       FWC	       Future Workers’ Compensation
                                                                           ITS	         Institute for Telecommunication Sciences
       FY	        Fiscal-year                                                           (NTIA)
                                                                           ITU	         International Telecommunication Union
  G	 G&B	         Gifts and Bequests
                  (a fund that is part of DM)
                                                                     K	    KSA	         Knowledge, Skills, and Abilities
       GAAP	      Generally Accepted Accounting Principles
       GAO	       U.S. Government Accountability Office
                                                                     L	    LMS	         Learning Management System
       GDP	       Gross Domestic Product
       GFDL	      Geophysical Fluid Dynamics Laboratory
                  (NOAA)                                             M	    MAF	         Master Address File
       GLERL	     Great Lakes Environmental Research                       MBDA	        Minority Business Development Agency
                  Laboratory                                               MBEC	        Minority Business Enterprise Centers
       GPRA	      Government Performance and Results Act of                             (MBDA)
                  1993                                                     MBE	         Minority Business Enterprise
       GPS	       Global Positioning System                                MBOC	        Minority Business Opportunity Center
       GSA	       U.S. General Services Administration                                  (MBDA)




 374                                            F Y   2 0 1 0   P E R F O R M A N C E   A N D   A C C O U N T A B I L I T Y    R E P O R T
                                                                        APPENDIX G: GLOSSARY OF KEY ACRONYMS




     Abbreviation        Title                                            Abbreviation        Title


          MDCP	          Market Development Cooperator Program                  OCS	          Office of Computer Services (Franchise
                         (ITA)                                                                Fund)
          MED	           Minority Enterprise Development                        OECD	         Organization for Economic Cooperation and
                                                                                              Development
          MEP	           Manufacturing Extension Partnership (NIST)
                                                                                OFM	          Office of Financial Management (OS)
          MOU	           Memorandum of Understanding
                                                                                OFPP	         Office of Federal Procurement Policy
          MTS	           U.S. Marine Transportation System
                                                                                OHRM	         Office of Human Resources Management (OS)
                                                                                OI	           Office of Investigations (OIG)
   N	     NABEC	         Native American Business Enterprise
                         Center (MBDA)                                          OIG	          Office of Inspector General (DM)
          NAICS	         North American Industry Classification                 OIPE	         Office of Inspections and Program
                         System                                                               Evaluations (OIG)
          NAO	           North Atlantic Oscillation                             OMB	          Office of Management and Budget
          NAPA	          National Academy of Public Administration              OPEM	         Office of Planning, Evaluation and
                                                                                              Management (BIS)
          NASA	          National Aeronautics and Space
                         Administration                                         OPM	          U.S. Office of Personnel Management
          NBS	           National Bureau of Standards                           OS	           Office of the Secretary (DM)
          NCDC	          National Climatic Data Center (NOAA)                   OSDBU	        Office of Small and Disadvantaged Business
                                                                                              Utilization (OS)
          NCNR	          NIST Center for Neutron Research (NIST)
                                                                                OSE	          Office of Systems Evaluation (OIG)
          NERR	          National Estuarine Research Reserve
                                                                                OSM	          Office of Spectrum Management (NTIA)
          NIH	           National Institutes for Health
                                                                                OSY	          Office of Security (OS)
          NIPA	          National Income and Product Accounts
                                                                                OTE	          Office of Technology Evaluation
          NIPC	          National Intellectual Property Law
                         Enforcement Coordination Council                       OTP	          Office of Technology Policy (TA)
          NIST	          National Institute of Standards and
                         Technology
                                                                         P	     PALM	         Patent Application Location and Monitoring
          NM	            Nautical Miles                                                       System
          NMFS 	         National Marine Fisheries Service (NOAA)               PAR	          Performance and Accountability Report
          NOAA	          National Oceanic and Atmospheric                       PART	         Program Assessment Rating Tool
                         Administration
                                                                                PBSA	         Performance-based Service Acquisitions
          NOS 	          National Ocean Service (NOAA)
                                                                                PBSC	         Performance-based Service Contracting
          NPV	           Net Present Value
                                                                                PBViews	      Panorama Business Views
          NRC	           National Research Council
                                                                                PKI	          Public Key Infrastructure
          NSRS	          National Spatial Reference System
                                                                                PMA	          President’s Management Agenda
          NTIA	          National Telecommunications and
                                                                                PNA	          Pacific North America
                         Information Administration
                                                                                PORTS®	       Physical Oceanographic Real-time System
          NTIS	          National Technical Information Service
                                                                                PP&E	         Property, Plant, and Equipment, Net
          NWLON	         National Water Level Observation Network
                                                                                PPS	          Post-project Survey
                                                                                PRT	          Program Review Team (NOAA)
   O	     OA	            Office of Audits (OIG)
                                                                                PSV	          Post-shipment Verification
          OAM	           Office of Acquisition Management (OS)
                                                                                PTFP	         Public Telecommunications Facilities
          OCAD	          Office of Compliance and Administration                              Program (NTIA)
                         (OIG)




F Y   2 0 1 0    P E R F O R M A N C E    A N D   A C C O U N T A B I L I T Y   R E P O R T
                                                                                                                                        375
APPENDIX G: GLOSSARY OF KEY ACRONYMS




       Abbreviation   Title                                              Abbreviation      Title


   Q	      QFR	       Quarterly Financial Report                             TIP	          Technology Innovation Program (NIST)

           QPF	       Quantitative Precipitation Forecasts                   TIS	          Trademark Information System

           QSS	       Quarterly Services Survey                              TPA	          Trade Promotion Authority
                                                                             TPC	          Tropical Prediction Center (NOAA)
                                                                             TPCC	         Trade Promotion Coordinating Committee
   R	      R&D	       Research and Development
           RLF	       Revolving Loan Fund (EDA)                              TRAM	         Trademark Reporting and Monitoring System

           ROP	       Reserve’s Operations Plan (NOAA)                       Treasury	     U.S. Department of the Treasury
                                                                             TROR	         Treasury Report on Receivables
                                                                             TRP	          Take Reduction Plan
   S	      S&E	       Salaries and Expenses
                                                                             TRT	          Take Reduction Team
           S&T	       Science and Technology
                                                                             TSP	          Thrift Savings Plan
           SAS	       Services Annual Survey
                                                                             TVA	          Tennessee Valley Authority
           SAV	       Site Assistance Visits
           SBA	       U.S. Small Business Administration
           SBR	       Combined Statement of Budgetary                   U	   UAE	          United Arab Emirates
                      Resources                                              UC	           University Center
           SCNP	      Consolidated Statement of Changes in Net               US&FCS	       U.S. and Foreign Commercial Service
                      Position
                                                                             US/OTP	       Office of the Under Secretary/Office of
           SDDS	      Special Data Dissemination Standards                                 Technology Policy (TA)
           SES	       Senior Executive Service                               USCRN	        U.S. Climate Reference Network
           SIPP	      Survey of Income and Program Participation             USDA	         U.S. Department of Agriculture
           SME	       Small and Medium-sized Enterprise                      USPTO	        U.S. Patent and Trademark Office
           SNM	       Square Nautical Miles                                  USTR	         Office of the U.S. Trade Representative
           SPD	       Survey of Program Dynamics                             USWRP	        U.S. Weather Research Program
           SRD	       Standard Reference Data                                UWB	          Ultra-wideband
           SRM	       Standard Reference Materials
           STEP	      Standard for the Exchange of Product Model        V	   VCAT	         Visiting Committee on Advanced
                      Data                                                                 Technology
                                                                             VoIP	         Voice over Internet Protocol
   T	      3G	        Third Generation
           TA	        Technology Administration                         W	   WCF	          Working Capital Fund (DM)
           TAA	       Trade Adjustment Assistance Program (EDA)              WMD	          Weapons of Mass Destruction
           TAAC	      Trade Adjustment Assistance Center                     WTO	          World Trade Organization
           TABD	      Trans-Atlantic Business Dialogue
           TCC	       Trade Compliance Center (ITA)
           TECI	      Transshipment Country Export Control
                      Initiative
           TIC	       Trade Information Center (ITA)
           TIGER	     Topologically Integrated Geographic
                      Encoding and Referencing System




 376                                              F Y   2 0 1 0   P E R F O R M A N C E   A N D    A C C O U N T A B I L I T Y   R E P O R T
                  OW             LEDGEM
               KN                                       EN
                                                                TS
       AC




This Performance and Accountability Report was produced with the
energies and talents of the Department of Commerce staff. To these individuals
we would like to offer our sincerest thanks and acknowledgement.


                     In particular, we would like to recognize the following
                     organizations and individuals for their contributions:


                      Kerstin Millius, Hillary Sherman, Bryan Borlik, and Jim
                      LeDuc of EDA, Camelia Carter and Sheryl Williams of
                      Census, Joanne Buenzli-Crane and Doug Follansbee
                      of BEA, Matthew Bright and Dondi Staunton of ITA,
                      Brad Burke of BIS, Ron Marin and Holden Hoofnagle
of MBDA, Mary Choi and Heidi Keller of NOAA,
Alexandria Emgushov of USPTO, Gail Ehrlich of
NIST, Teresa Grant of NTIS, Charles Franz of NTIA,
John Webb of OIG, Tanya Smith of DM, Bill Tatter,
Natasha Mills, and Steve Shapiro of the Office of
Budget, Systems, Policy and Performance Division,
and the many other bureau and Departmental staff,
particularly of the Office of Financial Management
who contributed to this report.


          We offer special thanks to Michael James, Sheri Beauregard, and
          Don James of The DesignPond for their outstanding contributions in
          the design and production of this report.


          To send comments or obtain additional information about this
          report, please email Bill Tatter at btatter@doc.gov.
                 N AT I O N A L T E L E C O M M U N I C AT I O N S & I N F O R M AT I O N A D M I N I S T R AT I O N    N AT I O N A L O C E A N I C & AT M O S P H E R I C A D M I N I S T R AT I O N




                                                                                                                                                                                                         E C O N O M I C D E V E L O P M E N T A D M I N I S T R AT I O N
ADMINISTRATION
STATISTICS




                                                                   STRATEGIC GOALS
AND
E CONOMICS




                                                                                                  GOAL 1




                                                                                                                                                                                                         BUREAU OF INDUSTRY & SECURITY
                                                      Maximize U.S. Competitiveness and Enable Economic Growth
                                                           for American Industries, Workers, and Consumers
ADMINISTRATION




                                                                                                  GOAL 2


                                                           Promote U.S. Innovation and Industrial Competitiveness
TRADE




                                                                                                                                                                                                         MINORITY BUSINESS DEVELOPMENT AGENCY
                                                                                                  GOAL 3
INTERNATIONAL




                                                                             Promote Environmental Stewardship



                                                               MANAGEMENT INTEGRATION GOAL
S ERVIC E




                                                              Achieve Organizational and Management Excellence
INFOR MAT ION




                                                                                                                                                                                                         U . S . PAT E N T A N D T R A D E M A R K O F F I C E
T EC HNI CA L
NATI ONA L




                 N AT I O N A L I N S T I T U T E O F S TA N D A R D S A N D T E C H N O L O G Y                  B U R E A U O F E C O N O M I C A N A LY S I S            CENSUS BUREAU
